<html>
<title> - DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2002</title>
<body><pre>[Senate Hearing 107-325]
[From the U.S. Government Printing Office]



                                           S. Hrg. 107-325, Pt. 1 deg.
 
DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED 
              AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2002

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   on

                           H.R. 2500/S. 1215

AN ACT MAKING APPROPRIATIONS FOR THE DEPARTMENTS OF COMMERCE, JUSTICE, 
  AND STATE, THE JUDICIARY, AND RELATED AGENCIES FOR THE FISCAL YEAR 
           ENDING SEPTEMBER 30, 2002, AND FOR OTHER PURPOSES

                               __________

                         Part 1 (Pages 1-811)

                        Department of Commerce
                         Department of Justice
                          Department of State
                   Federal Communications Commission
                       Nondepartmental witnesses
                   Securities and Exchange Commission
                     Small Business Administration
                             The judiciary
                                   

                               __________

         Printed for the use of the Committee on Appropriations

 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE
70-709 PDF                 WASHINGTON : 2002

------------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001






                    COMMITTEE ON APPROPRIATIONS \1\

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
                                     MARY L. LANDRIEU, Louisiana
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
                 Terry Sauvain, Minority Staff Director
                                 ------                                

   Subcommittee on Commerce, Justice, and State, the Judiciary, and 
                            Related Agencies

                  JUDD GREGG, New Hampshire, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
PETE V. DOMENICI, New Mexico         DANIEL K. INOUYE, Hawaii
MITCH McCONNELL, Kentucky            BARBARA A. MIKULSKI, Maryland
KAY BAILEY HUTCHISON, Texas          PATRICK J. LEAHY, Vermont
BEN NIGHTHORSE CAMPBELL, Colorado    HERB KOHL, Wisconsin
                                     PATTY MURRAY, Washington
                                     ROBERT C. BYRD, West Virginia
                                       (ex officio)

                           Professional Staff
                              Jim Morhard
                             Kevin Linskey
                               Dana Quam
                              Luke Nachbar
                          Katherine Hennessey
                         Lila Helms (Minority)
                      Jill Shapiro Long (Minority)

                         Administrative Support

                             Nancy Olkewicz

    \1\ Committee and subcommittee memberships--January 25, 2001 to 
June 6, 2001.

    Note.--From January 3 to January 20, 2001 the Democrats held the 
majority, thanks to the deciding vote of outgoing Democratic Vice 
President Al Gore. Senator Thomas A. Daschle became majority leader at 
that time. Starting January 20, 2001, the incoming Republican Vice 
President Richard Cheney held the deciding vote, giving the majority to 
the Republicans. Senator Trent Lott resumed his position as majority 
leader. On May 24, 2001, Senator James Jeffords of Vermont announced 
his switch from Republican to Independent status, effective June 6, 
2001. Jeffords announced that he would caucus with the Democrats, 
changing control of the evenly divided Senate from the Republicans to 
the Democrats. Senator Thomas A. Daschle became majority leader once 
again on June 6, 2001.


                    COMMITTEE ON APPROPRIATIONS \2\

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             TED STEVENS, Alaska
ERNEST F. HOLLINGS, South Carolina   THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            ARLEN SPECTER, Pennsylvania
TOM HARKIN, Iowa                     PETE V. DOMENICI, New Mexico
BARBARA A. MIKULSKI, Maryland        CHRISTOPHER S. BOND, Missouri
HARRY REID, Nevada                   MITCH McCONNELL, Kentucky
HERB KOHL, Wisconsin                 CONRAD BURNS, Montana
PATTY MURRAY, Washington             RICHARD C. SHELBY, Alabama
BYRON L. DORGAN, North Dakota        JUDD GREGG, New Hampshire
DIANNE FEINSTEIN, California         ROBERT F. BENNETT, Utah
RICHARD J. DURBIN, Illinois          BEN NIGHTHORSE CAMPBELL, Colorado
                                     LARRY CRAIG, Idaho
                                     KAY BAILEY HUTCHISON, Texas
                                     JON KYL, Arizona
                     Terry Sauvain, Staff Director
                 Charles Kieffer, Deputy Staff Director
               Steven J. Cortese, Minority Staff Director
            Lisa Sutherland, Minority Deputy Staff Director
                                 ------                                

   Subcommittee on Commerce, Justice, and State, the Judiciary, and 
                            Related Agencies

                   ERNEST F. HOLLINGS, South Carolina
DANIEL K. INOUYE, Hawaii             JUDD GREGG, New Hampshire
BARBARA A. MIKULSKI, Maryland        TED STEVENS, Alaska
PATRICK J. LEAHY, Vermont            PETE V. DOMENICI, New Mexico
ROBERT C. BYRD, West Virginia        MITCH McCONNELL, Kentucky
  (ex officio)                       KAY BAILEY HUTCHISON, Texas
                                     BEN NIGHTHORSE CAMPBELL, Colorado

                           Professional Staff
                               Lila Helms
                           Jill Shapiro Long
                              Luke Nachbar
                         Jim Morhard (Minority)
                        Kevin Linskey (Minority)
                     Katherine Hennessey (Minority)

    \2\ Committee and subcommittee memberships--June 6, 2001 to July 
10, 2001. Senate committee and subcommittee assignments reverted to 
that which had been in existence at the conclusion of the 106th 
Congress.

    Note.--From January 3 to January 20, 2001 the Democrats held the 
majority, thanks to the deciding vote of outgoing Democratic Vice 
President Al Gore. Senator Thomas A. Daschle became majority leader at 
that time. Starting January 20, 2001, the incoming Republican Vice 
President Richard Cheney held the deciding vote, giving the majority to 
the Republicans. Senator Trent Lott resumed his position as majority 
leader. On May 24, 2001, Senator James Jeffords of Vermont announced 
his switch from Republican to Independent status, effective June 6, 
2001. Jeffords announced that he would caucus with the Democrats, 
changing control of the evenly divided Senate from the Republicans to 
the Democrats. Senator Thomas A. Daschle became majority leader once 
again on June 6, 2001.



                            C O N T E N T S

                              ----------                              

                        Thursday, April 26, 2001

                                                                   Page
Department of Justice: Office of the Attorney General............     1

                          Tuesday, May 1, 2001

Department of Commerce: Office of the Secretary..................    81

                         Thursday, May 3, 2001

Department of State: Secretary of State..........................   115

                         Tuesday, May 15, 2001

Department of Commerce: National Oceanic and Atmospheric 
  Administration.................................................   153
Small Business Administration....................................   229

                         Thursday, May 17, 2001

Department of Justice:
    Federal Bureau of Investigation..............................   241
    Immigration and Naturalization Service.......................   269
    Drug Enforcement Administration..............................   277

                        Thursday, June 28, 2001

Federal Communications Commission................................   315
Securities and Exchange Commission...............................   345
Departmental witnesses:
    The judiciary................................................   353
Nondepartmental witnesses:
    Department of Commerce.......................................   379
    Department of Justice........................................   422
    Department of State..........................................   454
    Related agencies.............................................   460


DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED 
              AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2002

                              ----------                              


                        THURSDAY, APRIL 26, 2001

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Judd Gregg (chairman) presiding.
    Present: Senators Gregg, Domenici, Hollings, and Inouye.

                         DEPARTMENT OF JUSTICE

                     Office of the Attorney General

STATEMENT OF HON. JOHN ASHCROFT, ATTORNEY GENERAL


                            opening remarks


    Senator Gregg. We will begin the hearing.
    We appreciate the Attorney General's promptness in 
appearing before the committee, which looks forward to hearing 
from the Attorney General.
    I do not know if the ranking member has a statement he 
wishes to make; I would be glad to hear from the Senator from 
South Carolina.
    Senator Hollings. No. Thank you, Mr. Chairman. We welcome 
the Attorney General, and we are glad to proceed with the 
hearing.
    Senator Gregg. I feel the same way. We are here to hear 
you, not you to hear us. So we will be happy to get your 
thoughts, Mr. Attorney General, and then ask some questions.


              attorney general ashcroft's opening remarks


    Attorney General Ashcroft. Thank you, Chairman Gregg and 
Ranking Member Hollings. It is a pleasure to be with you today. 
It is an honor and a privilege to appear before you to present 
the President's first budget request for the Department of 
Justice.
    For fiscal year 2002, the President's budget seeks $24.6 
billion for the Department, including $20.9 billion in 
discretionary spending authority and $3.7 billion in mandatory 
resources. While the 2002 request maintains the same overall 
amount of spending authority as provided by this subcommittee 
in 2001--less than 1 percent variance--we have managed to 
enhance a number of key efforts, including reducing gun crime, 
stopping violence against women, combatting drugs, and 
guaranteeing civil rights for all Americans.
    This budget includes a general shift in spending from State 
and local law enforcement in order to support our core Federal 
law enforcement mission and to better target assistance to 
areas of greatest need, such as crime in our schools, crimes 
committed with firearms, and violence against women. The 
Community-Oriented Policing Services, or COPS, program is 
continued at a somewhat reduced level, with resources re-
targeted for school safety, law enforcement technology needs, 
and reducing DNA backlogs.
    The budget includes nearly $1.1 billion in program 
increases to enable the Department to carry out its core 
mission, particularly in the areas of detention and 
incarceration, antiterrorism, cybercrime, and 
counterintelligence. Another $302 million in new funding is 
requested to address key technology initiatives focusing on 
systems integration upgrades and network reliability. Of this 
amount, $225.7 million will be used directly to assist State 
and local law enforcement agencies with technology needs.
    The 2002 budget also focuses on several key areas that 
reflect the priorities of the Bush Administration--gun 
violence, violence against women, and drug crime, all threaten 
to deny the most fundamental right of our citizens, the right 
to their personal safety. The 2002 budget provides $650 million 
in additional funding to help secure this basic right.


                               gun crime


    There is no question that we need a renewed commitment to 
the vigorous enforcement of existing laws addressing gun crime. 
The recent gun violence on school campuses highlights the need 
for a collaboration among Federal, State, and local law 
enforcement officers to combat juvenile gun crime. I intend to 
intensify enforcement efforts against gun crime.
    The first step toward this goal is our request for $153.8 
million in increased resources to enforce vigorously gun laws 
through increased prosecutions, collaborative approaches to 
crimes committed with firearms, and by ensuring that child 
safety locks are available for every handgun in America.


                            drug enforcement


    To reinvigorate the war on illegal drugs, the 2002 budget 
includes $77.2 million in additional resources. Specifically, 
our budget seeks $58.2 million in enhancements for the Drug 
Enforcement Administration. The request also continues to 
provide $48 million for the Office of Justice Programs to 
assist State and local law enforcement agencies with the costs 
associated with meth cleanup and to aid in meth enforcement.


                              civil rights


    Through the efforts of the Civil Rights Division, the 
Community Relations Service, the United States Attorneys, the 
Federal Bureau of Investigation and the Office of Justice 
Programs, the Department seeks to protect the civil rights and 
liberties of all Americans. The 2002 budget includes an 
increase of $105.7 million to further these efforts.


                              immigration


    For immigration-related activities, the 2002 budget 
includes an additional $240 million. Included within this 
amount is $75 million for the INS to add 570 new Border Patrol 
agents in 2002.
    To address chronic space shortages and facility 
deficiencies, the budget also includes $42.7 million for INS 
Border Patrol facility construction. To enhance the resources 
of county prosecutors located on the Southwest border--these 
are State county prosecutors--our 2002 request includes $50 
million in assistance to those individuals to deal with the 
challenges they face.
    The Administration will propose splitting the mission of 
the INS in two, with separate chains of command reporting to a 
single policy official. I support this restructuring. I believe 
its time has come and look forward to working with this 
subcommittee as the proposal moves through the Congress.


                    state and local law enforcement


    The 2002 budget proposal appropriations request provides 
over $4.2 billion for State and local law enforcement grant 
programs. Included within the request are newly-created 
initiatives or enhancements to existing programs to address 
specific crime problems. These proposals include an increase in 
Violence Against Women Act funding of more than 35 percent; 
expansion of the Weed and Seed Program; more drug treatment in 
State prisons; increased assistance for State prosecutors, and 
new gun violence programs.
    Reductions are made primarily in four areas: (1) Byrne 
discretionary grants; (2) the State Criminal Alien Assistance 
Program; (3) the Local Law Enforcement Block Grant Program; and 
(4) State Prison grants.
    This reduction in funding will allow the Department to 
fulfill its core law enforcement responsibilities, and to 
enhance key efforts including reducing gun crime, stopping 
violence against women, combating drugs, and guaranteeing civil 
rights for all Americans.
    Chairman Gregg, Senator Hollings, I have outlined the 
principal focus of the President's 2002 budget request for the 
Department of Justice.
    I hasten to add that I am still learning about many of the 
programs we have under the jurisdiction of the Department of 
Justice. You both have monitored spending in the Department for 
quite some time and are experts in that respect. I have much to 
learn, and I look forward to your advice and counsel.


                           prepared statement


    Thank you. I would be pleased to be responsive to the 
extent that I can, to questions that you might have.
    [The statement follows:]
                  Prepared Statement of John Ashcroft
    Mr. Chairman and Members of the Subcommittee: It is both an honor 
and a pleasure to appear before you this morning to present President 
Bush's first budget request for the Department of Justice. For fiscal 
year 2002, the President's budget seeks $24.65 billion for the 
Department of Justice, including $20.94 billion in discretionary 
spending authority and $3.71 billion in mandatory resources, such as 
fees. This budget seeks to fulfill our basic federal law enforcement 
responsibilities, address emerging technology and critical 
infrastructure needs, and focus on the Administration's priorities of 
reducing gun crime, combating drug use, guaranteeing the rights of all 
Americans, and empowering communities in their continued fight against 
crime.
    While the fiscal year 2002 budget request maintains the same 
overall amount of discretionary spending authority as was provided by 
this Subcommittee in fiscal year 2001, we have managed to enhance a 
number of key areas. The budget includes a general shift in spending 
from state and local law enforcement in order to support our core 
federal law enforcement mission, and better target assistance to areas 
of greatest need, such as crime in our schools, crimes committed with 
firearms, and violence against women. The Community Oriented Policing 
Services (COPS) program is continued at a somewhat reduced level, with 
resources targeted for school safety, law enforcement technology needs, 
and reducing DNA backlogs. The COPS request does not disrupt or affect 
the commitments made to put 100,000 more police on the streets and, in 
fact, goes further by proposing to hire up to an additional 1,500 
School Resource Officers.
            basic law enforcement--the core federal mission
    The budget I present to you today first addresses the basic law 
enforcement responsibilities of the Department of Justice. The mission 
of the Department is clear: to enforce the law and defend the interests 
of the United States according to the law; to provide leadership in 
preventing and controlling crime; to seek just punishment for those 
guilty of unlawful behavior; to administer and enforce the nation's 
immigration laws fairly and effectively; and to ensure fair and 
impartial administration of justice for all Americans. The fiscal year 
2002 budget includes $1.057 billion in program increases to enable the 
Department to carry out its mission, particularly in the areas of 
detention and incarceration, antiterrorism, cybercrime, and 
counterintelligence.
Increased Detention and Incarceration Capacity
    The number of inmates in the Federal Prison System has more than 
doubled since 1990 as a result of tougher sentencing guidelines, 
mandatory minimum sentences, the abolition of parole, and increased 
federal law enforcement efforts. This surge in the prison population 
continually tests the limits of our detention and incarceration 
capacity. The fiscal year 2002 budget for the Department of Justice 
includes a $949.5 million increase in funding to support the federal 
responsibility of detaining individuals awaiting trial or sentencing in 
federal court, and incarcerating inmates who have been sentenced to 
prison for federal crimes.
    The rapid growth in the federal inmate population is expected to 
continue. Despite the investment of nearly $5 billion for prison 
construction over the past decade, the prison system is currently 
operating at 32 percent over its rated capacity--up from 22 percent at 
the end of 1997. These conditions could jeopardize public safety and 
cannot be ignored. The fiscal year 2002 budget seeks an additional 
$809.27 million for the Bureau of Prisons to reduce overcrowding and 
accommodate future growth. Specifically, $669.97 million is requested 
to fund the construction of three Federal Corrections Institutions and 
four United States Penitentiaries; partial site and planning funds for 
two female facilities and two male facilities; and $139.3 million is 
requested for the activation of the Federal Corrections Institute in 
Petersburg, Virginia, and the United States Penitentiary and work camp 
in Lee County, Virginia; and, the contract confinement costs to meet 
the anticipated increase in the federal prison population.
    To increase the detention capacity and staffing necessary to keep 
pace with the growth in INS enforcement activities, the Department's 
request includes an increase of $74.2 million. Within this amount is 
$42.3 million in new resources to support the staffing, transportation, 
medical, and removal costs associated with the utilization of an 
additional 1,607 detention beds in fiscal year 2002. And, $31.9 million 
in new resources will support detention planning and construction costs 
associated with additional detention bedspace and other improvements at 
INS Service Processing Centers. INS's detention and removal efforts 
will suffer if additional reliable bedspace is not created. In many INS 
districts, contracting for detention space is not a viable option, 
considering the remoteness of the locations in which INS operates.
    The workload of the United States Marshals Service is, in many 
ways, unpredictable in that the Marshals' organization must meet the 
needs of the Judiciary and our investigators and prosecutors. The 
Marshals do not control the number of threats that judges may be 
confronted with, nor the number of prisoners coming into its custody. 
For fiscal year 2002, our request includes $64.4 million in increased 
funding for the United States Marshals Service to cover the medical and 
housing costs associated with an increase of one million jail days for 
Marshals Service detainees held in non-federal facilities; to address 
the anticipated workload increases as a result of the D.C. 
Revitalization Act; for the staffing and equipping of courthouses that 
are new or undergoing significant renovations; and to support the costs 
of increased prisoner movements.
    Also included within the Department's requested increase for 
incarceration and detention is a critically needed $1.65 million for 
the United States Parole Commission to support anticipated workload 
increases associated with its takeover of the District of Columbia's 
parole revocation and supervised release hearing functions, as outlined 
in the D.C. Revitalization Act.
Counterterrorism, Cybercrime, and Counterintelligence Efforts
    Preventing terrorism, deterring computer crime, and thwarting 
foreign espionage are among the most serious challenges facing law 
enforcement today. The Department of Justice, with the strong support 
and leadership of your Subcommittee, has acted aggressively to prevent, 
mitigate, and investigate acts of terrorism, including the use of 
weapons of mass destruction, and the emerging threat of cybercrime. For 
fiscal year 2002, we are requesting $107.96 million in additional 
funding to support the Department's counterterrorism, cybercrime, and 
counterintelligence efforts.
    The nation's growing dependency on technology systems has resulted 
in a heightened vulnerability of our banking system, critical 
transportation networks, and vital government services, while also 
significantly increasing the incidence and complexity of crime. To 
address the emerging cyber threat, the fiscal year 2002 budget includes 
$33 million in increased resources. Within this amount, $28.14 million 
will support the FBI's counter-encryption capabilities, and the 
development of cyber technologies for the interception and management 
of digital evidence. For the U.S. Attorneys, $2.95 million is included 
to support 24 new positions for the prosecution of crimes committed 
using the Internet. And, $1.9 million is included for the Criminal 
Division for 14 new positions to continue coordinating the rising 
number of investigations and prosecutions of multi-jurisdictional 
national and international intrusion; denial of service attacks and 
virus cases; and to provide increased network security and encryption 
capabilities for its automated infrastructure.
    To combat the threat of terrorism, the fiscal year 2002 budget 
includes $39.4 million in new funding. For the FBI, $32 million is 
requested for security and investigative duties at the 2002 Winter 
Olympics in Salt Lake City, Utah; for increased security requirements 
at various FBI locations; and, to support its incident response 
readiness responsibilities. In addition, recognizing the critical role 
state and local public safety agencies have in managing the 
consequences of any terrorist event involving weapons of mass 
destruction, the Department's budget request includes $220.5 million to 
continue the Office of Justice Programs' Counterterrorism programs in 
fiscal year 2002 and ensure state and local response readiness. For the 
INS, $6.59 million in new funding is included to establish intelligence 
units along our northern and southern borders. These units will monitor 
terrorist activities and smuggling operations, and assist in tracking 
the movement of illicit narcotics, weapons, and other contraband across 
our nation's borders.
    The Department's fiscal year 2002 budget also requests $31.6 
million in additional funding to allow the FBI to more completely and 
effectively assess and defeat foreign intelligence threats to our 
national security. Included within this amount is funding for the 
Criminal Division to continue assisting the FBI with investigations 
involving counterintelligence, particularly those involving espionage 
and high technology export violations.
              technology and critical infrastructure needs
    Coordination between federal, state, tribal, and local law 
enforcement agencies is crucial to crime solving and criminal 
apprehension. The pooling of information and resources can greatly 
increase efficiency and decrease the time involved in solving a case. 
Because law enforcement agencies have developed a reliance on one 
another for accurate and timely information, our crime fighting 
agencies must maintain up-to-date information systems and develop 
secure processes for sharing this information. The fiscal year 2002 
budget request includes $302 million in new funding to address these 
needs, focusing on systems integration, upgrades, network reliability, 
efficient processes, and state-of-the-art technologies. In addition, 
the Department plans to request the use of $67 million from its Working 
Capital Fund for infrastructure needs.
    For the FBI, our budget request includes $67.7 million to support 
the second year of Trilogy, the FBI's 3-year information technology 
upgrade plan. Another $6.5 million will permit the acquisition of 
communication circuits that will support faster transmission of data 
and greater network reliability. For activation of the new FBI 
Laboratory in Quantico, Virginia, we are seeking $1.16 million in 
direct spending and the use of up to $40 million from the Department's 
Working Capital Fund. To continue the critically needed integration of 
the INS and FBI Fingerprint Identification Systems, we are seeking $28 
million $1 million in direct spending and the use of up to $27 million 
from the Working Capital Fund. This funding will be used to improve INS 
fingerprinting capabilities, and integrate the INS Automated Biometrics 
Identification System (IDENT) with the FBI's Integrated Automated 
Fingerprint Identification System (IAFIS). This investment of resources 
will better equip us to prevent a recurrence of an incident similar to 
the Rafael Resendiz-Ramirez serial killings that occurred in 1999.
    To directly assist state and local law enforcement agencies with 
their technology needs, the fiscal year 2002 budget includes an 
increase of $225.7 million in grant funding. Specifically, the 
Department is requesting $20.7 million for Crime Identification 
Technology Act (CITA) funding; $35 million to address the backlog of 
state convicted offender DNA and crime scene DNA samples that exist 
nationwide; $35 million for the Crime Lab Improvement Program (CLIP) to 
improve the general forensic science capabilities of laboratories; $35 
million for the Criminal Records Upgrade Program to promote 
compatibility among criminal history, criminal justice, and 
identification record systems nationwide; and $100 million for 
technology grants for state and local law enforcement under the COPS 
program. The fiscal year 2002 budget significantly increases the 
funding available to state and local law enforcement for technology 
initiatives a natural follow-on to the COPS program that provided 
additional officers on the street. Now we need to ensure state and 
local law enforcement is adequately equipped with the best technology 
to do its job.
                     bush administration priorities
    The budget I present to you today also focuses on several key areas 
that are reflective of the priorities of the Bush Administration. 
During my confirmation hearings, I said I believe a citizen's paramount 
civil right is safety. Americans have a right to be secure in their 
persons, homes and communities. Gun violence, violence against women, 
drug crime, and sexual predators all threaten to deny this most 
fundamental right. It is a core responsibility of government, led by 
the Attorney General and the Department of Justice, cooperating with 
local law enforcement officials, to secure this right. Our fiscal year 
2002 budget provides $650 million in additional funding to advance this 
effort. Children do not learn in schools overrun by neighborhood 
violence. Jobs will not be found in communities where criminals own the 
streets, and no American who now feels threatened should have to move 
to live in a safer neighborhood.
Reducing Gun Crime
    I announced at the outset of my tenure as Attorney General that one 
of my top priorities would be the formation of a new firearms 
enforcement initiative, along with a task force to develop and 
implement this initiative. This group includes the Bureau of Alcohol, 
Tobacco, and Firearms and various components from within the Department 
of Justice, including the Office of the Attorney General, FBI, Criminal 
Division, Executive Office of United States Attorneys, and others. They 
have been meeting regularly and I look forward to hearing their 
recommendations in the next several weeks.
    There is no question that we need a renewed commitment to the 
vigorous enforcement of existing laws addressing gun crime. The recent 
spate of gun violence on school campuses and the alarming rate at which 
gang related violence occurs in schools, on playgrounds, and at parks 
throughout the country highlight the need for federal prosecutors to 
work with state and local law enforcement to pursue serious juvenile 
offenders. I intend to renew enforcement efforts in this area by 
building on successes in existing jurisdictions and by developing a 
comprehensive strategy to target gun violence. The fiscal year 2002 
budget request for the Department of Justice takes the first step 
toward this goal and includes $153.78 million in increased resources to 
vigorously enforce gun laws through increased prosecutions, strategic 
approaches to crimes committed with firearms, and ensuring that child 
safety locks are available for every handgun in America.
    For the U.S. Attorneys, $9 million is included to support Project 
Sentry, a new federal-state law enforcement partnership to identify and 
prosecute juveniles who violate state and federal firearms laws and the 
adults who supply them with guns. This funding will be used to hire a 
prosecutor in each of the 94 U.S. Attorneys' Offices around the country 
who will focus on gun crimes involving or affecting juveniles, 
including school-related violence and trafficking firearms to minors.
    Another $20 million will be provided to Project Sentry through the 
COPS program and the Juvenile Justice Title V program. This funding 
establishes safe school task forces across the country that will also 
prosecute and supervise juveniles who carry or use guns illegally, as 
well as the adults who illegally furnish firearms to them.
    Within the Office of Justice Programs, $49.78 million is requested 
for a new gun violence program that will provide grants to encourage 
states to increase the prosecution of gun criminals and assist them by 
providing funding to establish programs that target gun criminals 
through increased arrests and prosecutions and public awareness to 
deter gun crime. This funding will support Project Exile and Project 
Ceasefire type programs that vigorously enforce our gun laws and send a 
clear signal that our culture will not tolerate the illegal use of 
firearms.
    Another $75 million is included for Child Safe, a new program that 
will provide funds to ensure child safety locks are available for every 
handgun in America. The Office of Justice Programs will provide $65 
million annually to state and local governments on a dollar-for-dollar 
matching basis. Locks will be distributed by local municipalities, 
counties, or private organizations. The annual federal matching funds 
will also be available to match private contributions by organizations 
seeking assistance in the goal of providing locks for every handgun in 
America. The remaining $10 million will be spent, annually, on 
administrative costs and advertising, including a national toll-free 
hotline to make sure all parents are aware of the program.
Combating Drug Use
    The cost of illegal drug use to this nation continues to rise and 
is borne by all Americans through tax dollars for increased law 
enforcement, incarceration, treatment programs, and medical needs. 
Estimates of the total cost exceed $100 billion annually, yet do not 
begin to capture the human costs associated with drug abuse that are 
measured in wasted human capital, and the pain and suffering of many 
American families. The fiscal year 2002 budget for the Department of 
Justice includes $77.2 million in additional resources for law 
enforcement agencies to combat illegal drug use.
    Specifically, our budget requests $58.16 million in enhancements 
for the Drug Enforcement Administration (DEA). Included within this 
amount is $30 million and 3 positions for DEA's global information 
technology and intelligence network, FIREBIRD. This funding will enable 
the DEA to complete its deployment, provide network security, and 
support technology renewal of the system. Another $15 million and 62 
positions are included to provide critical support for DEA's role in 
the interagency Special Operations Division, and DEA's Investigative 
Technology programs, particularly for investigations associated with 
the Southwest Border, Latin America, the Caribbean, Europe, and Asia. 
To meet mission critical requirements within the laboratory services 
program, $13.1 million and 69 positions are also included. This request 
will give DEA sufficient chemist resources to address a growing backlog 
of exhibits, and establish a laboratory equipment base that will better 
support program operations.
    The production and use of methamphetamine (meth) has been on the 
rise over the past few years, and the number of meth laboratories has 
increased dramatically across the country. In 1998 and 1999 combined, 
law enforcement agencies seized meth labs in every state except 3. Meth 
lab enforcement and clean-up efforts are complicated by the presence of 
hazardous materials produced during the manufacturing process. Cleaning 
up these labs is a costly and risky business posing life-threatening 
consequences to our law enforcement officials who come across these 
labs, as well as severe and toxic environmental damage to the 
surrounding area. State and local law enforcement agencies can be 
overwhelmed by the need to confront even one large laboratory. Meth 
dealers and drug organizations have targeted rural communities, places 
where many of the local law enforcement agencies have neither the 
expertise nor the resources to deal with this serious threat. The 
fiscal year 2002 budget continues to provide $48 million for the Office 
of Justice Programs to assist state and local law enforcement agencies 
with the costs associated with meth cleanup and to aid meth 
enforcement.
    While law enforcement is an effective and essential tool in 
combating the violent crime associated with illegal drug use in 
communities throughout our nation, treatment for the individual abuser 
is also important. Our fiscal year 2002 request includes $14 million to 
expand residential substance abuse treatment in federal and state 
prison systems. We have also requested $5 million for the National 
Institute of Justice to expand the Arrestee Drug Abuse Monitoring 
(ADAM) program to 15 additional sites across the country, so that more 
communities will have sound data about the links between drugs and 
crime on which to base their law enforcement policies and offender 
treatment practices.
Guaranteeing Rights for All Americans
    The Department of Justice has a unique role in guaranteeing the 
rights of all Americans. This role includes promoting the enforcement 
of our nation's civil rights laws and deterring violent crimes against 
women. Through the efforts of the Civil Rights Division, the Community 
Relations Service, the United States Attorneys Offices, the FBI, and 
the Office of Justice Programs, the Department seeks to protect the 
civil rights and liberties guaranteed to all Americans. The fiscal year 
2002 budget includes an increase of $105.7 million to further its role 
in this area.
    Specifically, we have requested a $102.5 million increase in 
Violence Against Women Act programs to support new and existing 
programs. Authorized under the Victims of Trafficking and Violence 
Protection Act of 2000, the budget includes: $15 million for the Safe 
Havens for Children Pilot Grant Program; $40 million for the Legal 
Assistance for Victims Program; $10 million for the Grants to Reduce 
Violent Crimes Against Women on Campus Program; $5 million for a new 
Elder Abuse, Neglect and Exploitation Program; and $7.5 million for 
education and training to end violence against and abuse of women with 
disabilities.
    Our request also includes $1.2 million in funding to support three 
studies by the Office of Justice Programs' Bureau of Justice 
Statistics. The first study will deal with police initiated stops of 
motorists for routine traffic violations. The second study will deal 
with deaths while in law enforcement custody as required under the 
Deaths in Custody Act. The third study will measure victimization of 
the population with disabilities in the United States.
    For the Civil Rights Division, the fiscal year 2002 budget includes 
a $2 million enhancement to address several important initiatives, 
including enforcement of the newly enacted Trafficking Victims 
Protection Act of 2000, which affords expanded protections and services 
for trafficking victims and creates several new federal crimes for 
which the Division is the lead component with respect to enforcement. 
With the fiscal year 2002 allocation, the Division will be able to hire 
additional prosecutors and conduct a community outreach program.
    The fiscal year 2002 funding will also help the Civil Rights 
Division implement the President's New Freedom Initiative to assist 
persons with disabilities, including expanded outreach to America's 
small business sector, improved access to information technologies and 
voting, and swift implementation of the Supreme Court's Olmstead 
decision to provide services to people with disabilities in community-
based settings. The fiscal year 2002 budget includes funding for new 
attorney hires that will allow the Civil Rights Division to undertake a 
broad voting rights initiative aimed at ensuring voter access and the 
integrity of the voting process. Our fiscal year 2002 budget request 
also includes funding to increase the Division's presence in employer 
and other communities to prevent immigration-related unfair employment 
practices.
Empowering Communities in their Fight Against Crime
    The active involvement of communities throughout America is a 
critical and necessary resource in our fight against crime. By 
broadening the base of resources available at the local level, 
communities will be better equipped to provide their citizens with the 
tools necessary to ensure a safe environment in which their children 
can grow and learn. Nowhere is this more evident than in the success of 
the Weed and Seed Program where communities work in partnership with 
federal, state, and local law enforcement agencies to target criminals, 
``weed'' them out of their neighborhoods with swift and certain 
prosecution, and then go to work to take back the houses, schools, and 
recreation centers, that made the communities a safe haven and home to 
so many. President Bush's fiscal year 2002 budget includes a $25 
million increase for the Weed and Seed program building upon an 
initiative that was first started during his father's Administration 
and with the active support of many on this Subcommittee.
    The fiscal year 2002 budget also includes $5 million for the 
development of a faith-based, pre-release pilot program at four federal 
prisons. The pilot will include male and female programs at different 
geographic sites and security levels. This faith-based initiative--
which will be voluntary and open to inmates of any faith, or no faith 
at all--aims to combat crime and curb recidivism so that ex-offenders 
can remain ex-offenders. Religion and crime are age-old enemies, and a 
growing body of empirical evidence shows the potency of the ``faith 
factor'' to change behavior. This model initiative, with a strong focus 
on one-on-one, post-prison aftercare, will offer moral guidance and a 
caring community to help ex-offenders re-enter society with hope and 
responsibility.
Improving Immigration Services and Border Enforcement
    The Immigration and Naturalization Service (INS) has two principal 
functions: enforcement and service. Right now, the INS's performance is 
widely criticized. This Administration intends to turn the agency 
around. Restructuring of the INS will be a top priority. The fiscal 
year 2002 budget includes an additional $240.14 million for 
immigration-related activities.
    The Bush Administration is committed to building and maintaining an 
immigration services system that ensures integrity, provides services 
accurately and in a timely manner, and emphasizes a culture of respect. 
The fiscal year 2002 budget includes $45 million in increased resources 
to reduce the backlogs in benefits processing. This request, combined 
with $35 million in base funding and $20 million in premium processing 
fees, represents the first $100 million installment in a five-year, 
$500 million initiative to provide quality service to all legal 
immigrants, citizens, businesses, and other INS customers. It will 
enable INS to establish and accomplish a universal six-month processing 
standard for all immigration applications and petitions and, through 
employee performance incentives, make customer satisfaction a high 
priority.
    The fiscal year 2002 budget also includes $75 million for the INS 
to add 570 new Border Patrol agents in 2002, with plans to add another 
570 in 2003. With these 1,140 additional agents, the total increase of 
5,000 Border Patrol agents authorized by the Illegal Immigration Reform 
and Immigrant Responsibility Act of 1996 (IIRIRA) will be achieved. 
Approximately 11,000 agents will be deployed along the nation's 
northern and southern borders by the end of 2003, 11 percent more than 
the 2001 level of 9,800.
    In support of the additional agents, another $20 million is 
requested in fiscal year 2002 for the INS to increase the deployment of 
force multiplying border enforcement technology. The Integrated 
Surveillance Intelligence System (ISIS) will provide day and night 
visual coverage of the border, can be deployed in rugged terrain and in 
vast open areas, and serves as a deterrent to potential illegal border 
crossers in areas where Border Patrol agents are not immediately 
visible.
    To address chronic space shortages and facility deficiencies, the 
fiscal year 2002 budget includes $42.73 million for INS Border Patrol 
facility construction. Many of the Border Patrol facilities were built 
prior to the 1970's and cannot accommodate the tremendous growth in the 
number of agents.
    For the Executive Office of Immigration Review (EOIR), the fiscal 
year 2002 budget includes $4.85 million in increased funding to 
coordinate with INS initiatives, which are anticipated to increase 
annually the Immigration Judge caseload and the Board of Immigration 
Appeals caseload by 10,000 cases. The budget also includes an 
additional $1.2 million for the U.S. Attorneys to meet immigration 
workload generated from a rise in habeas corpus petitions filed by 
detainees held in INS custody indefinitely. These detainees have been 
issued an order of deportation but cannot be removed because their 
country of origin will not accept them. Many detainees challenge the 
legal authority of the INS to hold them by petitioning for a writ of 
habeas corpus. Another $1.36 million is requested for the Office of the 
Inspector General to address corruption and civil rights violations 
involving Department employees along the Southwest border.
    To enhance the prosecutorial resources of county prosecutors 
located near the Southwest border, our fiscal year 2002 request 
includes $50 million. Thousands of federal drug arrests occurring near 
the Southwest border are referred to county prosecutors because the 
quantity of drugs seized is too small to meet the threshold set by 
local U.S. Attorneys for prosecution. The Department will devote $50 
million to assist counties near the Southwest border with the costs of 
prosecuting and detaining these referrals. Grants will be awarded based 
on Southwest border county caseloads for processing, detaining, and 
prosecuting drug and alien cases referred from federal arrestees.
    The Administration will propose splitting INS into two agencies 
with separate chains of command, but reporting to a single policy 
official in the Department of Justice. I support this restructuring, 
believe its time has come, and look forward to working with the 
Subcommittee as the proposal moves through the Congress.
Redirection of State and Local Resources
    The fiscal year 2002 budget provides over $4.2 billion for state 
and local law enforcement grant programs. Included within the request 
are newly created initiatives or enhancements to existing programs to 
address specific crime problems. These proposals include: an increase 
in Violence Against Women Act funding of more than 35 percent; an 
expansion of the Weed and Seed program; more funding for drug treatment 
in state prisons; increased assistance for state prosecutors; and new 
anti-gun violence programs.
    Reductions are made primarily in four areas: (1) Byrne 
discretionary grants; (2) the State Criminal Alien Assistance Program; 
(3) the Local Law Enforcement Block Grant Program; and (4) State Prison 
grants. These funding reductions are recommended for programs that have 
fulfilled their original purpose, outlived their authorizations, or are 
less essential to core federal law enforcement functions. This 
redirection in funding will allow the Department to meet many of the 
federal law enforcement agency priorities that I have highlighted for 
you here today.
                               conclusion
    Chairman Gregg, Senator Hollings, Members of the Subcommittee, I 
have outlined for you today the principal focus of President Bush's 
fiscal year 2002 budget request for the Department of Justice. I am new 
to the job of Attorney General of the United States and am still 
learning about many of the programs we have under our jurisdiction. You 
both have monitored spending by the Department for some time and I look 
forward to your advice and counsel.
    Thank you. I would be pleased to answer any questions you might 
have.

    Senator Gregg. Thank you, Mr. Attorney General. I 
appreciate that statement.
    You have outlined the proposals which you have come forward 
with. Let me ask you for specifics in some areas that we are 
interested in.

                           INS restructuring

    You mentioned that you are going to propose the splitting 
of INS into two operating units; one would be the Washington 
function, and one would be the citizenship function. Maybe you 
could give us a little more explanation as to how you plan to 
structure those.
    Would the enforcement function be set up as an independent 
agency, such as FBI/DEA, or would it be still under the INS 
umbrella?
    Would the enforcement units be housed independently within 
the border, or would they be joined with other agencies that 
serve on the border? And what is the manning structure of the 
enforcement side?
    This committee has authorized and appropriated--I guess we 
do not authorize; well, we do authorize occasionally----
    Senator Hollings. We have to for the FBI; we have never had 
authorization for the FBI.
    Senator Gregg. We have been known to authorize on this 
committee, but we try not to. But we have appropriated for a 
significant number of Border Patrol individuals, enforcement 
agents, and unfortunately, we have not had success in filling 
the complement. So I would be interested to know where we stand 
in that area, too.
    Attorney General Ashcroft. Well, let me begin with the last 
question. For some time, there was great difficulty in INS in 
attracting and developing the personnel to fulfill the charge 
of this committee. We had appropriations for new people that we 
were not attracting.
    I think we are solving that problem. We have made up for 
the backlog of the non-hires of last year, and we have a net 
new force of about 160 people so far this year, so that we are 
on track, and we feel like we are making that recovery.
    That is important. It takes more than mere appropriations; 
it takes actual implementation. That is one of the reasons why 
we are, and the President has, focused on this agency. The news 
about INS has not always been as favorable as it should be and 
could be, and the President has signalled his very deep concern 
by indicating that he wants to divide these functions.
    I do not think it is totally clear yet whether there would 
be a single reporting individual in INS, or whether there would 
be a single reporting individual in the Justice Department, 
outside of INS.
    What is very clear is that the functional separation is 
essential, that people in the enforcement responsibility have 
one mentality, and the people in the service area should have 
another mentality and another approach. The President is 
committed to, I think, achieving this kind of separation of 
function.
    We are working to attract the very best-qualified 
individual to run the Immigration and Naturalization Service. 
It must be an individual of tremendous skill, administrative 
vision, and a capacity to inspire a work force of over 30,000 
individuals.
    In terms of the deployment of the individuals on the 
border, I think there are some ideas, frankly, which come from 
this committee which I think have great value. One is to seek 
to find ways to elevate the amount of communication between the 
enforcement arm of the INS and other enforcement agencies, 
whether it be the DEA or other personnel in the area. So it may 
be that the physical surroundings, locating INS agents who are 
in the enforcement business in proximity to drug enforcement 
officials and other individuals with law enforcement 
responsibilities, would have a way of enhancing or elevating 
our capacity to get our job done well.
    The slate is substantially open on INS. I think the 
President acknowledged when campaigning for office, and has 
reaffirmed that since he has been in office, that this is a 
matter of great priority. We need to and can do a better job, 
and we look forward to doing a better job. And in shaping that, 
I would hope that this committee would be very active in 
helping us get the best structure and personnel.

                        Border Patrol facilities

    Senator Gregg. I know you have not had a chance yet--and I 
understand you are headed down to the border fairly soon--but 
one thing you are going to notice immediately when you arrive 
there is that the facilities situation is a disaster. Because 
we have increased the number of personnel on the border, we use 
old taco stands that should accommodate about 20 or 30 people 
to house many more than that. We have about a $1.5 billion 
backlog in facilities and construction needs at INS, most of it 
border construction needs for housing Border Patrol.
    It is very hard for the Border Patrol to do an effective 
job if they do not have the facilities. I notice that in your 
budget, you are talking about $128 million or something like 
that for new facilities within INS.
    This committee will probably want to find more money for 
facilities. If you have suggestions for where we should take it 
from, we would be happy to listen to them. But I do think that 
facilities--and you are going to sense this fairly quickly--run 
along with personnel. As we have added these personnel, we have 
not had facility reconstruction.
    Senator Hollings.
    Senator Hollings. General, welcome.
    Attorney General Ashcroft. Thank you.
    Senator Hollings. I understand this is your first hearing, 
and while I did not support your nomination, you and I have got 
to work together for the good of the Government.

                           INS reorganization

    Picking up from what the chairman was talking about a 
minute ago up here with the INS, you have got to get somebody 
in there who is really strong. It is not so much just a 
division of INS. I would be hesitant about dividing and 
reorganizing and so on. Rather, I would try to organize what is 
there. It is the biggest backlog--you ask for an answer, and 
you are lucky if you get it 9 to 12 months from now, and that 
kind of thing--and that is not just recently. I have been--and 
the distinguished chairman has been on the committee here for 
years--and this was 5 years ago, 4 years ago, right on through 
the 1990's. We tried our best. We have been putting all the 
money there, but we have not gotten any results.
    And the growth industry in law enforcement ought to be 
watched carefully by you as the Attorney General. I know that 
just about 10 years ago, your budget was $4 billion, and now it 
is $24 billion. Health care costs and law enforcement costs are 
in a race in this land to see which can consume us first.
    But look at the INS very, very carefully, and you will have 
our cooperation. We have been sort of nags, trying to get the 
INS cleaned up as fast as possible. And I cannot see why there 
is all the holdup.
    We have a Border Patrol school in South Carolina, and we 
have put out 3,000 Spanish-speaking agents down at the old Navy 
Yard. We had the facilities, so we put them in there on a crash 
basis, and it has worked extremely well, and they are very 
happy. They have gone down to the border, and three or four 
have already been killed in the line of duty and so on. So that 
part of INS is working, but it is the actual bureaucracy, 
citizenship and immigration, that is backlogged.

                           Tobacco litigation

    I am sure you saw the morning story about tobacco. I know 
you as a very strong-willed person, because I have worked with 
you on the Committee on Commerce on tobacco. I understand that 
a man convinced against his will is of the same opinion still. 
While there were 19 of us on the committee for proceeding and 
voted to proceed on the tobacco case, you were the one 
dissenting vote.
    Is it your opinion that we ought to proceed with the case 
or not proceed with the case?
    Attorney General Ashcroft. Let me clarify my position 
expressed in my vote on the Commerce Committee. That was not an 
opinion expressed on this case. That was expressed on a global 
settlement that would have given the Federal Government and 
State governments, together, a settlement of the case. This 
case was a subsequent filing, I believe.
    My opinion on this case--first of all, this is an ongoing 
matter of litigation. Our budget request on this case is 
exactly the same budget request as was fashioned and submitted 
by Ms. Reno in anticipation of the year 2002. It is identical 
to the budget request which she submitted as well for the year 
2001. It is for $1.8 million to continue the case. It is in 
anticipation, in the event that the needs arise and so on, that 
additional funding would be available to the case in the way 
that it has been in the past.
    There are a number of issues pending in the case. There 
were three aspects of the case that were submitted to the court 
originally. Two of them were dismissed by the court. One of 
those two dismissals is sought to be remedied by the 
Department, and it is the Department's position that it can be 
remedied, and it is now pending decision by the court.
    A decision about the position of the Justice Department in 
terms of any change that would be made in my judgment, would be 
a decision best informed by what the court does with the two 
pending matters before the case now. The decision and the 
position of the Department have remained unchanged in this 
litigation.

                       Tobacco litigation funding

    Senator Hollings. Now, going back to Commerce, that is 
exactly what intrigues me. We woke up one morning in June 3 
years ago, and there was a headline with a figure that I had 
never heard of--$368 billion. And the $368 billion was a 
settlement amount that the tobacco companies, the White House, 
the health communities, and the attorneys general--and you were 
a former attorney general--had all gotten together on.
    Of course, watching that case as it developed, we found 
that Congress did not confirm the settlement--but the State 
attorneys general went forward with the health community, and 
they got $206 billion of that $368 billion in settlement. This 
was separate and apart from three States that preceded them--
Florida, Texas, and Minnesota--their settlement amounted to 
about $40 billion. So let us say it was $246 billion of the 
$368 billion agreed to and settled and now in the course of 
being distributed.
    That left $122 billion on the table. And I am saying, look, 
I am from the Government, I am a United States Senator, I am up 
here with the Justice Department appropriation, and there is 
$122 billion that the defendant, the companies, have already 
agreed to pay; they just want to know when and how.
    And yes, it has been a struggle to bring that case with 
this particular committee and the full committee, because it 
has been party vote right down the line. I made the motion that 
we proceed with the case, and my Republican colleagues to a man 
voted no, not to proceed.
    So finally, the distinguished chairman and I got together 
on a compromise. As you indicate, it is the same situation as 
last year. Now, when you say it is the same, yes, the former 
Attorney General was ready to bring the case, and they were in 
the process of doing so, and they were using the section of the 
statute whereby they charged the various departments for the 
amounts of money in order to finance it.
    Having said that, again, I just wonder what you think. Are 
you for the case or against the case?
    Attorney General Ashcroft. The Department of Justice is 
proceeding with the case, and I support the Department's 
position. I think that we have made the right kind of request 
and have the same, identical structure which my predecessor had 
asked for in the appropriation, so the capacity to proceed with 
the case exists in the Department in the same way that it would 
have in previous settings and would have in this setting, had 
the election been different.
    Senator Hollings. Well, there is a difference in the 
Department's and your request in the sense that the memo says 
it has been reported that the attorneys working on the case 
want $57.6 million more in order to proceed with the case and 
do not want to charge the various other departments of 
Government. That $57 million is not in there. Do you favor a 
request of more moneys to finance the case, or not?
    Attorney General Ashcroft. The budget submission which we 
have made, we believe is the right approach to preserving the 
appropriate prerogatives of the Department in this matter.

                         Attorney reassignments

    Senator Hollings. Then, I will have to backtrack with 
respect to that $57 million in accordance with your comment 
about the competence of the attorneys. Of course, the former 
Assistant Attorney General said he thought they were very 
competent, but I understand by the headline that you are 
reassigning the attorneys for lack of competence?
    Attorney General Ashcroft. First of all, sir, I have not 
read the newspapers this morning. I have----
    Senator Hollings. That is not your story, then?
    Attorney General Ashcroft. I have not made any indication 
about any reassignment of attorneys. I have not made a decision 
about the case.
    The Department has a position in this case, and I believe 
that if we were to reevaluate that position, it should be based 
upon what the courts do in response to the matters that are 
pending in the court.
    As I indicated earlier, the court has dismissed two counts 
in this case filed by the Federal Government. One effort has 
been sort of reconfigured by the Department and resubmitted. A 
motion to dismiss is pending in that matter.
    I believe that an appropriate time for decisionmaking in 
the case would be upon receiving an understanding of what the 
court's disposition of these motions is.
    Senator Hollings. Well, understand, General, that I am not 
trying to harass you. In fact, I agree with you that there is 
something about their competence that raises question when they 
ask for $57.6 million. Financially, that is a pretty good 
investment--if you can spend $57 million and get back $122 
billion, which is what the companies have already agreed to 
pay. They just want to know when and how.
    But otherwise, to spend $57 million, I cannot imagine 57 
lawyers with $1 million worth of hours in a year. I would go 
and investigate that memo in your own Department, because they 
are incompetent if they think it would cost that much to bring 
the case.
    The records have been made already in the Florida case, the 
Minnesota case, and others. That is the bureaucracy of law 
practice today. You just punch your computer to get 
Interrogatories Numbers 1 through 25, and get the motions and 
depositions for all of these, put out the subpoenas, and go 
over the documents. I can do that in an afternoon myself.
    So to spend $57 million traveling all around the country is 
just trying to bureaucratize a case that has already been made, 
the amount has been agreed to, and all you have to do is fill 
in the blanks.
    So I hope that you proceed with the case. There was some 
difficulty getting the money from the other departments. I do 
not mean to belabor it, but I think that in the Government's 
interest, there is $122 billion already agreed to sitting on 
the table, and I cannot see for the life of me not picking that 
up. And your Department, and you, the Attorney General, want to 
do that, I would imagine.

                         Gun prosecutor program

    Now, General, let me ask you about the community gun 
prosecutors. I note in the budget here where you zeroed out the 
Community Gun Violence Prosecutors but placed in lieu thereof a 
State and Local Gun Prosecutor Program and Southwest Border 
Prosecutor Initiative, with the same amount of money.
    My Republican friends opposed that Clinton program of 
Community Gun Violence Prosecutors, but it looks like you have 
the same thing--am I right or am I wrong? Could you clarify 
that for me, please?
    Attorney General Ashcroft. Well, we do have an emphasis on 
prosecuting gun crime. It is a substantial emphasis, and it 
involves increased resources. It includes a special emphasis on 
juvenile gun crime, and it includes a triggerlock program, and 
it includes special assistance to prosecutors along the 
Southwest border in the amount of $50 million, I believe it is, 
for prosecutors along the Southwest border.
    So there is an array of services and ideas in this budget 
designed, one, to prosecute violent gun crime generally; two, 
to focus on juvenile gun crime; and three, to focus resources 
along the Southwest border where the problems have been 
intense.
    Senator Hollings. The problems have been more so on the 
Southwest border than, say, in downtown New York or California?
    Attorney General Ashcroft. Well, the entire prosecutorial 
load has been great there. There is a proposal for a whole new 
range of judges and so on in the Federal system, which is the 
subject of another debate, with the idea that the courts are 
overloaded there, dealing with these problems along the 
Southwest border.
    INS, for example, has processed more cases in the last 7 
years than they did in the previous 40 years, and that is part 
of this whole situation that we have described where the budget 
of the agency has been doubled in the last 6 years, and we have 
still got these very serious problems, including delays in 
services that should be made to individuals who are relying on 
the agency.
    Senator Hollings. It is not necessary now, but you can 
submit for the committee the number of prosecutors and how that 
is supposed to work, this new program.
    Attorney General Ashcroft. I would be happy to do so.
    Senator Hollings. I would appreciate it.
    [The information follows:]

                         Gun Prosecutor Program

    Project Safe Neighborhoods is a nationwide commitment to 
reduce gun crime in America by networking existing local 
programs that target gun crime and providing those programs 
with additional tools necessary to be successful. To strengthen 
partnerships among Federal, State and local law enforcement and 
prosecutors, the new $49.78 million prosecution assistance 
program will provide grants to encourage States to increase 
prosecution of gun criminals through increased arrests, 
prosecutions and public awareness in order to deter youth gun 
crime. This program will also support gun violence reduction 
programs such as Richmond's Project Exile and Boston's 
Operation Ceasefire, to name a few. The Department is 
developing legislation that will set forth the details of this 
program, as well as that of other gun violence initiatives.
    The differences between this program and last year's 
Community Prosecution Program, which had a $75 million 
``Community and Local Gun Prosecutor'' hiring component, is 
primarily one of scope. The $75 million Community and Local Gun 
Prosecutor program provides hiring grants to state and local 
jurisdictions to employ new prosecutors to work in partnership 
with communities to prosecute gun law violation cases. The 
discretionary grant program assists jurisdictions in hiring 
community prosecutors for up to 3 years and will require the 
grantee to design a retention plan intended to retain the 
prosecutor for a minimum of 1 year past the end of the grant 
period.
    The $49.78 million Gun Violence Reduction Program will 
encompass a broader range of gun violence reduction strategies 
that could include: (1) hiring and training more judges, 
prosecutors, correctional officers, and probation officers; (2) 
providing training for Federal, State and local law enforcement 
officers and prosecutors on current laws and trends, including 
firearms identification, Federal and State search and seizure 
laws, crime scene and evidence management, and firearms 
trafficking and tracing; (3) implementing public awareness 
campaigns to advertise tough sentences for gun crimes and to 
foster community ownership of this initiative; (4) improving 
criminal history record information systems; and (5) developing 
information-sharing case management systems that ensure that 
all segments of the criminal justice system are contributing to 
and using the same case files for serious offenders.

                          Faith-based program

    Senator Hollings. Finally, let me counsel with you with 
respect to the faith-based program. That immediately raises a 
sign to stop, look, and listen for this particular Senator. You 
and I have been up here as Senators, and we travel, and if we 
learn anything in our travels, looking at other countries, 
keeping up with the news and so forth, it is that the greatness 
of this land is the separation of church and state. This is in 
contrast to the trouble in Ireland, which is religion-based, 
the trouble in the Mideast, which is religion-based, the 
trouble in India, which is religion-based, the trouble in the 
Philippines is religion-based. I can go around the world and 
just say thank heaven we have separation of church and state in 
this country.
    I do not go along with this Mickey Mouse wording of 
things--in other words, you are saying church organizations. 
Now, you and I both have the greatest respect for the church 
and its organizations, and we have worked with them, both of 
us, in public life and so on, and they work well.
    Having been on the committee, I can tell you the 
experiences that we have when Chairman Gregg and I go over on 
the House side. The first thing the House wants to do is knock 
out everything that is not authorized. That is one good way to 
get rid of a lot because the Judiciary Committee upon which you 
served gets backed up on issues of guns and abortion and prayer 
in schools and so on--and the authorizing bills do not get 
through, so Chairman Gregg and I sit there, trying to backstop 
the real needs and do the right thing.
    This faith-based program has not been authorized, and we do 
not know exactly how it is to be done. That is why I held up a 
reprogramming request by the White House. It is not that I am 
hostile or anything else, but I have grave misgivings. I have 
got to be convinced--I am from Missouri--you have got to show 
me. So I would like you to show me how you plan to implement 
this program and give us also an outline of those particular 
facets of this faith-based thing.
    We have had the announcement by the President and meetings 
of different church groups, but there have been all kinds of 
questions as to is this a legitimate church group, how much 
money, how is it to be monitored. Then, on the church side, 
they say, wait a minute, if you start monitoring me and telling 
me from Washington how to run my church program, I am not going 
along with that. So you have got to involve just what you and I 
are trying to avoid.
    So if you could outline that for us--I am not in favor of 
these moneys until we get at least some outline of what is 
intended by the President and what the program entails.
    Attorney General Ashcroft. Senator, thank you very much.
    The House and Senate together with the previous President 
of the United States authorized, I believe, on several 
occasions, both in the Temporary Assistance to Needy Families 
and in the Substance Abuse and Mental Health Services 
Administration--SAMHSA--reauthorization last year, and I think 
the Community Development Block Grants, what they would 
characterize as, I think, a field-leveling situation, which 
basically states that there are certain aspects when States 
choose to do business outside their own governmental entity, 
that they have the opportunity to make contracts with entities 
including--there would not be a disqualification for faith-
based organizations.

                  safeguards with Faith-based programs

    There is a very serious set of safeguards, and they have to 
be scrupulously observed, or the problems that you have 
suggested, I think, are very serious problems or could be. One 
of the safeguards included in the legislation is that no 
person, who has simply any discomfort in receiving a benefit in 
that setting, is forced to receive it. They have a right to 
say, ``I want a benefit in a different setting.''
    Another safeguard is that the money cannot be used for 
religious purposes. It can only be used to achieve secular 
purposes. This is in accordance with the supervision--the way 
the courts have written these rules.
    Now, we have had faith-based organizations active for a 
long time in some areas of social services, primarily in the 
resettlement areas related to INS and citizenship. Those areas 
have had historic involvement, and it has been successful, and 
we have not had any inappropriate entanglement or inappropriate 
infringement of the rights of individuals or entanglement by 
the Government with the institutions. I think those are the 
kinds of patterns that need to guide us as we move forward.
    Senator Hollings. Give us the guidance as we move forward. 
That is what I am asking for. Just outline the different things 
that you seem to understand and know about, just quickly off-
the-cuff. If we have it down in black and white so that 
everybody can understand it, I would appreciate it.
    Attorney General Ashcroft. I would be happy to work with 
you and to do that, to send you the guidance and the safeguards 
that we believe are appropriate.
    Senator Hollings. Thank you.
    [The information follows:]
                         Faith-based Initiative
    In a comprehensive effort to reform the nation's welfare system, in 
1996 Congress overwhelmingly passed, and President Clinton signed, the 
Personal Responsibility and Work Opportunity Reconciliation Act. One 
provision of that Act, known as ``Charitable Choice'' (42 U.S.C. 
Section 604a), authorized states to provide services through religious 
and charitable organizations, so long as such programs do not violate 
the establishment clause of the Constitution. This provision was passed 
with a bipartisan majority, voting 67-32. Since then, Charitable Choice 
has been extended to the welfare-to-work program, and it also covers 
the Community Services Block Grant.
    In 2000, Congress voted twice to extend Charitable Choice to 
substance abuse services provided under the federal Substance Abuse and 
Mental Health Services Administration (SAMHSA). Expanded Charitable 
Choice allows, but does not require, government or government officials 
to contract with charitable, religious or private organizations, or to 
create voucher systems, to deliver more social services within the 
states. Charitable Choice has passed Congress repeatedly, and always 
with strong bipartisan support.
    The Charitable Choice provision prohibits proselytizing of welfare 
clients, and bars any discrimination against clients on the basis of 
religion. Further, welfare recipients have the right to receive 
benefits in a traditional setting, if they choose.
    During the week of January 28, 2001, the Bush Administration 
announced a further effort to expand the role of faith-based 
organizations (FBOs) and other neighborhood organizations in the 
delivery of social services. This effort included the opening of the 
White House Office of Faith-Based & Community Initiatives, and charging 
it with, among other things, increasing the private charitable giving 
in America, eliminating religious discrimination in federal funding 
programs that deliver social services through private sector 
organizations, and helping launch strong sacred-secular, public-private 
partnerships to serve high-need populations. This effort further 
includes the creation within the Departments of Justice, HHS, HUD, 
Education and Labor of Centers of Faith-Based & Community Initiatives. 
Each is charged with the task of reviewing statutes, regulations, 
internal guidelines and policies to determine whether the Departments 
have created barriers that discriminate against faith-based and 
community organizations in the delivery of social services.
    In drafting the legislation noted above, Congress carefully debated 
assurances to its constitutionality as well as to safeguard the 
interests of the beneficiaries of the service, the interests of the 
faith-based providers and the interests of the government. Charitable 
choice provisions protect the rights of those Americans receiving 
services from faith-based providers by the following means:
  --The statute generally provides that the government act ``without 
        diminishing the religious freedom of beneficiaries of 
        assistance.''
  --The statute requires that beneficiaries with religious objections 
        to receiving services from an FBO be provided with an 
        equivalent alternative.
  --For those beneficiaries who choose services from an FBO, the 
        statute provides that the FBO cannot discriminate against them 
        ``on the basis of religion, a religious belief, or refusal to 
        actively participate in a religious practice.'' Therefore, a 
        Christian organization cannot turn away a Jew who is looking 
        for services, or require a Muslim to pray to Jesus before 
        receiving assistance.
  --Welfare beneficiaries may enforce these rights against the 
        government in a lawsuit for injunctive relief.
    Charitable Choice protects various public interests with the 
following safeguards:
  --FBOs must operate in accordance with the terms of their contract or 
        grant when delivering services to the poor and needy.
  --FBOs may not discriminate in employment on the basis of race, 
        color, national origin, gender, age or disability.
  --FBOs are subject to government audit of those accounts with federal 
        funds. Where total federal awards exceed $300,000 per year, an 
        independent audit by a CPA is also required.
  --Where there is direct government funding, FBOs must ensure that no 
        government funds are ``expended for sectarian worship, 
        instruction, or proselytization.'' This provision means that 
        Charitable Choice will not work for FBOs with inherently 
        religious practices which are wholly integrated into their 
        program. Any religious activities, separable from government-
        funded aspects of the program, must be optional to 
        beneficiaries.
    Charitable choice provisions safeguard the integrity of 
participating FBOs in the following specific respects:
  --The statute specifically provides that FBOs not be discriminated 
        against with respect to religion, and that they must be allowed 
        to participate ``without impairing [their] religious 
        character.'' The law goes on to state that a participating FBO 
        ``shall retain its independence over the definition, 
        development, practice, and expression of its religious 
        beliefs.''
  --The statute provides that a participating FBO not be required to 
        ``alter its form of internal governance'' or ``remove religious 
        art, icons, scripture, or other symbols.''
  --FBOs have a private cause of action for injunctive relief if the 
        foregoing statutory safeguards are not met by the participating 
        governmental agencies.
    In summary, Charitable Choice safeguards the rights of those who 
receive the social services, those who pay for the services, and those 
who provide the services.

                       Law enforcement in Mexico

    Senator Hollings. Finally, Mr. Chairman, with respect to an 
opportunity, we have worked with the FBI and their schools, one 
in particular in Budapest that I have visited. We look upon 
Mexico as an opportunity with a new President, and we are 
thinking about law enforcement rather than what you have had to 
put up with in regard to the Border Patrol, where the Mexican 
law enforcement were paid off and were part of the drug cartel 
and so on. If we could get a professional school in Mexico that 
was conducted by our FBI--we do that in Europe, in Budapest, 
but particularly this newly-made Russian or Soviet law 
enforcement--why not try to professionalize that? That would be 
a good investment. It would not be too much, and it would help 
to bring confidence on both sides.
    Would you look into that, because I am determined to try to 
get some aid down there--not an overall big Marshall Plan--but 
where we can help Vicente Fox play catch-up ball and get real 
law enforcement. It would be to our benefit, and I think it 
would be a good investment. I would like to get your views on 
that.
    Attorney General Ashcroft. Senator, let me just say to you 
that I think we do have an opportunity as it relates to Mexico. 
President Vicente Fox and our President have a good 
relationship. I think there is a very serious commitment to 
changing the climate for law enforcement.
    President Bush has asked that Secretary of State Colin 
Powell and I be involved in a working group with the leadership 
in Mexico, with Castaneda and with Aguilar Zinser. Aguilar 
Zinser is in charge of all their law enforcement including the 
military, and we have already begun to confer about things.
    There is a new understanding, I believe, in Mexico that 
what happens at the border is--I think they are willing to call 
it a shared responsibility. It had been long the position of 
those in our neighboring country that it was all our 
responsibility and none of their's. And we have conferred about 
inventorying the kinds of things that each of us can do to 
promote a better situation at the border.
    I personally believe that this is a great opportunity. I 
believe we would be very ill-served not to view it as one, and 
I intend to insert myself substantially in it. My first trip 
outside the country will be to Mexico, probably within the next 
30 days. I intend to visit the border in advance so that I will 
have a first-hand view of things at the border before I go to 
return the visit of the Mexican officials. The Mexican Attorney 
General has also come to see me in addition to the other 
officials who have discussed these responsibilities--because 
this is so very important to the United States, and if we can 
upgrade substantially the outcomes of our relationships and 
work together on the border, I think it will not only affect 
that long, important Southwest border of the United States, but 
I think it will have an effect into Central and South America 
in terms of our relationships.
    So you are, I believe, right on target in identifying this 
as an important area of concern. It will be a matter of high 
priority with me in terms of the law enforcement community to 
cooperate with them. We would examine ways in which we could 
cooperate to improve both the training and integrity of the law 
enforcement community on both sides of the border. I think the 
Mexican officials are conversant with that need and understand 
it, and their expression of their desire to cooperate on it is 
right in line with the kinds of suggestions you have made.
    Senator Hollings. Thank you, Mr. Chairman.
    Senator Gregg. Thank you, Senator Hollings.
    Senator Domenici.
    Senator Domenici. Thank you, Mr. Chairman.
    Senator Hollings. I hope to get invited back. He just said 
no, he was not going to invite me. You are a much better 
chairman.
    Senator Gregg. Just remember that.
    Senator Domenici. The problem is they sent all the 
conferees who were against it. There were 15 Democrats for it; 
if they had sent some of those conferees----
    Senator Hollings. We could change our minds.
    Senator Gregg. Let us just conference it right here. We 
have the votes. We are all on the committee. We can conference 
it right here.
    Senator Domenici. Well, the story in New Mexico is that I 
kicked you out, Fritz.
    Senator Gregg. I did not even make it, so you did better 
than I did.
    Senator Domenici. You were not even invited.
    Well, Mr. Attorney General, I am very pleased to see you.
    Attorney General Ashcroft. I am honored.
    Senator Domenici. I have not seen you in this format since 
you achieved this new, high status; I have just seen you in the 
hall a couple of times and at a couple of events. First, I 
congratulate you on the good job you are doing. You went 
through a little bit of hard times to get there, but I am sure 
that you are enjoying what you are doing and that you see a 
great public service in what you are doing.
    Attorney General Ashcroft. It is a great honor to work for 
you, for the people of America, and for this committee.
    Senator Domenici. I am just going to talk about two areas 
and perhaps submit some others for questioning, and I will try 
to be quick.

                Radiation exposure compensation program

    Mr. Attorney General, we have an area of funding for a 
program called the Radiation Exposure Compensation Program. 
That is not to be confused with a subsequent act that was 
passed regarding radiation exposure. This is the old act that 
covered uranium miners and the like. We passed it, and there 
are a number of people out there who are claimants, and there 
are a number who have claims--and I do not know if you are 
aware of this; this is a simple administrative process, these 
were not litigated claims and did not go to court; you all 
managed them--but there are a number of people who, believe it 
or not, have an I.O.U., because the Government did not put 
enough money in the fund even though it created the claims.
    And I guess I have to share with you and to the extent that 
my fellow committee members are interested--it is pretty 
disheartening for people who have waited many years for a 
radiation claim to get settled, and then you create an 
administrative process, and you say they are entitled to it--
and it is a fixed amount, so it is not $10 million, it is 
$100,000 or whatever the claim is--and then, they get it all 
finished, Mr. Attorney General, and it says the United States 
Government will give you a check for, let us just say $100,000 
is your claim for dying of cancer or whatever, and then, this 
great United States says, ``We do not have the money to pay 
your claim, so we will give you an I.O.U.''
    I do not think anybody wants those I.O.U.'s. I do not think 
they can use them in banks. Essentially, we ought to pay them, 
and I wonder if we have your whole-hearted support to generate 
the funds to pay those claimants under the Radiation Exposure 
Compensation Program that you are managing?
    Attorney General Ashcroft. You do. I am chagrined at the 
way in which people have been dealt with. There have been 
inadequate funds, so people have been given I.O.U. letters, or 
there were times when people were calling and the phone was not 
being answered.
    We have made a request in the budget for some funds, but we 
also support the idea that the Congress has indicated to people 
that they are entitled to this amount of money, and I believe 
the budget is predicated on the presumption that that 
entitlement exists and that those funds simply ought to be 
available to those people.
    Senator Domenici. Well, I thank you, and actually, we are 
looking for $84 million to finish that up, and there is a whole 
new law which you all have supported funding under that will be 
handled in a different way which will indeed be an entitlement 
instead of what we have.

                             Ports of entry

    Let me move for a moment to an issue that has to do with 
our ports of entry. First, Mr. Attorney General, I know that it 
is not your precise duty, but it comes under your 
jurisdiction--with the new enthusiasm for Mexican-American 
trade and the new President of Mexico being so enthused about 
being a partner instead of a critic, we have to take a look at 
the ports of entry in the Southwest--and mine is a little one 
in New Mexico--but all the way from Florida, Texas, Arizona, 
California. The ports of entry are not in very good shape for 
two great countries to engage in the quantity and quality of 
trade that we are going to be involved in. So I would hope that 
you would make sure that the estimates which have been given to 
your Department that are saying what we ought to do to make all 
of the border States capable of handling the trade so it is not 
backed up for hours, thus negating the enthusiasm for trade, or 
finding other ways to do it.
    I hope you will support the reports which indicate this and 
that you will begin to implement it in your budgets in the 
future. Would you tell the committee that you will look at this 
carefully and discuss it with the President with reference to 
what kind of plan we could put in to get this infrastructure 
done in a reasonable time?
    Attorney General Ashcroft. Yes.

                      Port of entry--Santa Teresa

    Senator Domenici. With reference to my own State, we have a 
port of entry, and I just want to mention it so that you will 
take it back to the office with you. It is a rather new port of 
entry called Santa Teresa. That port is gaining trade and 
traffic just as predicted. It is not in the middle of a city 
where it is all clogged up, and as a consequence, we are 
building a piece at a time, and it is beginning to alleviate a 
lot of traffic and create its own trade area. There is a 
considerable personnel problem there, and I wonder if you would 
have your staff look at it. I will submit some questions that 
will detail for you what we think are some deficiencies in the 
number of personnel at that border crossing for it to do an 
efficient and forthright job.
    So I will give that to you and if you would take a look or 
have your people take a look, I would appreciate it.
    Attorney General Ashcroft. I would be very happy to do so.
    Senator Domenici. Thank you very much, Mr. Chairman.
    Senator Gregg. Thank you, Senator.

          Radiation compensation transfer to Energy Department

    I have often thought that this issue of reimbursement for 
the harm that was caused people as a result of radiation 
activity might be more appropriately in the Energy 
Subcommittee.
    Senator Domenici. Well, it has been in yours, and you have 
more money than the Energy Subcommittee does.
    Senator Gregg. I just thought we could find more in the 
Energy Subcommittee. Don't you think, Senator Hollings?
    Senator Hollings. Yes, it sounds that way to me.
    Senator Domenici. We are trying to relieve you of it. We 
are trying to create an entitlement out of it so you will not 
have to bother with it, Senator; it will just be there.

            reorganization of the Office of Justice Programs

    Senator Gregg. I was wondering, Mr. Attorney General, if 
you could speak to us a little bit about the Office of Justice 
Programs, because we asked for a reorganization of that office 
quite a while ago. The report was supposed to come out in 
December, and then it was supposed to come out at the end of 
March. We still have not received the report. Can you tell us 
what is happening with the Office of Justice Programs?
    Attorney General Ashcroft. First of all, I think the 
expressions of the committee are well-founded. There is a need 
in that office to have good management, and the fact that so 
many people in the office are Presidential appointments has 
from time to time, I think, led to the idea that they do not 
respond to the management of the office and to the Assistant 
Attorney General in the office.
    We are in the process of moving forward with the new 
organizational structure, streamlining and consolidating 
authorities and centralized management, which was directed in 
the fiscal year 1999 Appropriations Act.
    In the fall of the year 2000, OJP began an interagency 
outreach to prepare agency personnel for implementation of the 
new organizational structure. We engaged the resources to 
provide OJP with assistance in projecting the potential work 
load of individual components, and we began to develop the plan 
for reassigning OJP management and administration funds to 
support implementation of the new structure.
    The OJP Assistant Attorney General nominee, Deborah 
Daniels, has been made aware of this reorganization effort. As 
I have been involved in the preliminary personnel decisions for 
all of those programmatic individuals to be appointed by the 
President, I have said eyeball-to-eyeball to them, this is not 
the structure that you can expect. There will be a new 
structure, and the structure is that you will report through 
the Assistant Attorney General in charge of OJP--this is not to 
be thought of as scattered management; this to be focused--and 
that there will be a new plan, and full implementation of the 
plan has been put on hold until the new Assistant Attorney 
General and her management team have an opportunity to be 
involved with it. But it is part and parcel of the way that we 
are staffing and developing the staffing needs for that area, 
and interviewing people with an expectation that the new 
organization will serve the Department and America much more 
effectively.
    Senator Gregg. So when will we get the report?
    Attorney General Ashcroft. Senator, this sort of signals 
the fact that I have been there for less than 90 days. They 
tell me that the plan has been developed and submitted but that 
the implementation of the plan is yet to be fully undertaken.
    I think that what we need to do is make sure that, if it is 
appropriate, we will resubmit what we have considered as the 
submission to the committee, and if you have further advice on 
the implementation, we would be pleased to have it.
    Senator Gregg. We probably should sit down and talk about 
that, or our staff should.

                           Detention trustee

    Are you familiar with the detention trustee issue that we 
have?
    Attorney General Ashcroft. I am somewhat familiar, and if 
you want me to describe my familiarity, I will give you my 
sense of where we are on that.
    Senator Gregg. Well, our concern is that we basically 
created a position without any authority.
    Attorney General Ashcroft. Our view is that the detention, 
the pre-trial detention--if we can call detention things that 
happen while rights are being litigated and incarceration 
things that are the way we hold people after that--in this 
detention responsibility, we have a lot of different agencies, 
whether it is the INS Border Patrol or the USMS or the BOP or 
all of these multiple agencies, and we do not have the space. 
The Federal Government has not had the kind of resources to 
place all these people, so we have been renting space from 
communities and from private providers, and we have found 
ourselves bidding against each other for this space. So that by 
having an uncoordinated approach to detention and the various 
aspects of the Justice Department, we find the USMS bidding up 
the cost for the INS Border Patrol or other entities.
    The idea of having a coordinator, someone to oversee that 
and to put rationality into our process is a good one. It is my 
understanding----
    Senator Gregg. Well, we agree with that. Our concern is 
that because they do not have the funding control, they do not 
have the power to exercise coordination; that as long as the 
funding control stays with BOP or with Marshals, the INS, or 
with whomever, your detention trustee is basically an 
individual who may strive to create continuity and keep costs 
down but has no practical ability to do that because they do 
not control the money.
    Attorney General Ashcroft. Well, we are pursuing the hiring 
of the trustee, and frankly, while the funding control perhaps 
does exist in these other entities, as Attorney General, I 
would expect, to the extent that I could from the perspective 
of the office, to direct that the Bureau of Prisons and a 
variety of other entities that might be involved--you mentioned 
BOP--that they respond constructively to suggestions by the 
detention trustee.
    If there is a need for--and certainly, the absence of 
detail of my understanding here is apparent from my remarks--
but I would hope that as Attorney General, I would be able to 
instruct cooperation even if we did not have all of the 
framework in place, and obviously, I would be very pleased to 
work with this committee to develop, if necessary on an 
incremental basis, the framework that would provide real teeth 
or a real management capacity for the trustee.
    Senator Gregg. Senator Hollings.
    Senator Hollings. Thank you.

                         reorganization of DEA

    General, as you look at the reorganization of INS, I have 
always thought that if I had your job, the first thing I would 
look at is the reorganization of the DEA, and let me tell you 
why.
    You have a hard time keeping the FBI in-country, because 
they can find crime in downtown Moscow and look here, there, 
and yonder. The DEA--I have been on this committee for 30-some 
years--we burned the poppy fields in Turkey and broke up the 
factories in Marseilles; we went down into Paraguay, back up to 
Colombia, down into Paraguay again, up into Mexico. We have 
chased around and around, and it gets worse and worse and 
worse.
    When Senator Domenici mentioned a port of entry, Senator 
Graham of Florida and I have been working on a bill for regular 
seaports of entry for a year and will probably get the bill 
passed this year. I have, for example, the fourth-largest 
container port in the country, and it was not until recent 
years that I learned that these containers come in, and they 
are owned by Hong Kong, London, mixed ownership, and there is 
no responsibility for them. And when they come across the dock, 
nine out of ten of them are not even looked at. In fact, I have 
my office at the Custom House at the Seaport of Charleston, and 
the DEA has to borrow the local sheriff's dog to do the 
sniffing.
    Now jump fast forward to Amsterdam. They go through a 
regular screener like you and I go through at the airport; 
going out to St. Louis, you have got to go through a screener. 
They have that screening system. We have got to get that at the 
various ports, because if I got into the drug business down in 
Colombia, I would just load up ten containers knowing that nine 
of them would get through--I do not care about the one that 
gets caught.
    That is how the drugs are getting into the country. In 
contrast, we have the DEA down the rivers in Bolivia, shooting 
down planes in Peru, and jumping all around the world. I have 
seen them jumping around the world for 30-some years up here, 
and it just gets worse and worse--and they do not have anybody 
down on 14th Street here in the District; you can go down there 
and get whatever you want.
    So let us get that thing organized so we can get some drug 
enforcement at least in the country. We can find drug abuses 
the world around--we all know it--and we are financing it. The 
United States is the biggest financier of drug crime in the 
world. We ought to be ashamed of ourselves, but we ought to 
focus on drug enforcement at home before we run around shooting 
down planes in Bolivia and everywhere else. Where were the CIA, 
for goodness' sake? Come on. This country has gone amok. They 
are not doing a good job right at home plate.
    In addition to the INS, look at the DEA and see what you 
think.
    Attorney General Ashcroft. Thank you, Senator.
    Senator Hollings. Yes, sir.
    Thank you, Mr. Chairman.
    Senator Gregg. Thank you.
    Senator Inouye.
    Senator Inouye. I thank you very much, Mr. Chairman.
    I wanted to come by to greet my former colleague. Welcome, 
sir.
    Attorney General Ashcroft. Thank you very much, Senator.

                           Tobacco litigation

    Senator Inouye. I just want to have some clarification on 
articles that have been occurring recently in our papers. Is 
there a change in policy on our Government's suit against the 
tobacco companies?
    Attorney General Ashcroft. There has been no change in 
policy. The appropriation requested this year is identical to 
the appropriation requested last year and is in fact identical 
to the appropriation submitted by my predecessor, Ms. Reno as 
Attorney General, for this year's operation.
    Senator Hollings. I think that would clear up a lot of 
misunderstanding that is now found in the Senate, I can assure 
you.

                 consultation on Judicial appointments

    Secondly, on the matter of judicial appointments and the 
word ``consultation,'' how do you interpret this word 
``consultation''?
    Attorney General Ashcroft. That question has a superficial 
simplicity about it that belies the fact that it is complex. 
But obviously, if you were to ask me what ``consultation'' 
means, it means to talk with, communicate with, about 
something. ``To consult'' means to share information.
    Senator Inouye. So it is much more than notifying you after 
it appears in the press.
    Attorney General Ashcroft. I would hope that consultation 
would include timely communication.
    Senator Inouye. I appreciate that, sir.
    Thank you very much.
    Thank you, Mr. Chairman.
    Senator Gregg. Thank you.
    Are there any further questions?
    Senator Hollings. No, thank you.

                     Additional committee questions

    Senator Gregg. We appreciate your time, Mr. Attorney 
General. We look forward to working with you over the next few 
years and expect the relationship to be constructive not only 
from our committee's standpoint but from America's standpoint.
    Thank you very much.
    Attorney General Ashcroft. Thank you very much. I am 
honored to appear before you and look forward to working with 
you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted by Senator Judd Gregg
         interagency crime and drug enforcement (icde) account
    Question. Would you please provide a justification for why the 
Interagency Crime and Drug Enforcement funding levels are proportioned 
to the agencies the way they are? Of particular interest is why the 
Federal Bureau of Investigation receives more funding than the Drug 
Enforcement Administration under this account.
    Answer. The current allocation of the Organized Crime Drug 
Enforcement Task Force (OCDETF) funding is a function of budget 
history, rather than a deliberate choice to enhance the funding of one 
agency more than another. Moreover the OCDETF program is a partnership 
among all the participating agencies and each of the OCDETF agencies is 
fully committed to achieving the highest impact possible with their 
available OCDETF resources.
    While the overall funding for the Federal Bureau of Investigation 
(FBI) is slightly larger than that of the Drug Enforcement 
Administration (DEA), $115 million for FBI versus $111 million for DEA, 
DEA receives more funding for direct drug law enforcement in the OCDETF 
budget than does the FBI, $108.8 million versus $102 million. That 
means that DEA receives a larger share of the funding for the direct 
investigative work of the OCDETF program than does the FBI.
    The FBI, however, receives significantly more funding for drug 
intelligence than does the DEA, nearly $11 million more. FBI receives 
$13.3 million while DEA receives only $2.4 million. It is this funding 
which accounts for FBI's greater share of the overall OCDETF budget.
    This funding disparity arose when the funding for the Regional Drug 
Intelligence Squads (RDIS) was moved from the individual agency budgets 
into the OCDETF consolidated budget, the ICDE, in fiscal year 1993. The 
Appropriations Committees believed ``that consolidation of funding for 
the RDIS under this appropriation will help achieve better integration 
of intelligence related to organized crime drug activities.'' (See, 
Conference Committee Report (H. RPT 102-918)).
    At the time of the transfer of RDIS resources into the ICDE 
appropriation, the FBI had significantly greater resources in its 
direct budget dedicated to the RDIS function than did DEA. Thus when 
the transfer of those resources into the OCDETF budget occurred in 
fiscal year 1993, FBI had $11.5 million to transfer into the OCDETF 
(ICDE) Intelligence appropriation and DEA only $2.2 million. That same 
year Congress provided an additional $2 million to the FBI for RDIS 
resources in the ICDE budget, making a total of $13.2 million.
    This same ratio of RDIS resources between the 2 agencies continues 
in the ICDE appropriation. Thus, for fiscal year 2002, the President's 
request includes the following funding:

----------------------------------------------------------------------------------------------------------------
                                      Law Enforcement              Intelligence                  Total
                                --------------------------------------------------------------------------------
                                  Pos.     FTE     Amount    Pos.     FTE     Amount    Pos.     FTE     Amount
----------------------------------------------------------------------------------------------------------------
DEA............................     975     975   $108,887      25      25     $2,499   1,000   1,000   $111,386
FBI............................     775     775    102,039     137     137     13,397     912     912    115,436
----------------------------------------------------------------------------------------------------------------

    Question. Does the Department of Justice believe the current 
distribution to be an optimal allocation of the resources provided?
    Answer. The Anti-Drug Abuse Act of 1988, Public Law 100-690, 
provided the Attorney General with the ability to shift the OCDETF 
resources both geographically and among agencies as the shifting 
patterns and circumstances of drug trafficking required. Congress 
recognized this with specific language when returning OCDETF to a 
single appropriation for fiscal year 1990. Congress explained that the 
single appropriation and reimbursement procedure was intended to:
  --Provide for the flexibility of the Task Forces which is vital to 
        success;
  --Permit federal law enforcement resources to be shifted in response 
        to changing patterns of organized criminal drug activities;
  --Permit the Attorney General to reallocate resources among the 
        organizational components of the Task Forces and between 
        regions without undue delay; and
  --Ensure that the Task Forces function as a unit, without the 
        competition for resources among the participating agencies that 
        would undermine the overall effort.
    The OCDETF Executive Office intends to work with the Justice 
Management Division to develop a staffing model for the allocation of 
resources in future years. The OCDETF Executive Committee will be 
directed to study the current levels of resources allocated within the 
OCDETF program, and make recommendations regarding the optimum capacity 
for those resources.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
                radiation exposure compensation program
    Question. Mr. Ashcroft, you are aware of my longstanding interest 
in the Radiation Exposure Compensation program, which I authored in 
1990. We established this program more than a decade ago to compensate 
the uranium miners, federal workers, and downwinders who became 
afflicted with painful, debilitating, and often deadly radiation-
related diseases as a result of their work during the Cold War era.
    Despite our efforts to fully fund this program, it ran out of money 
last May under the prior Administration. Indeed, since last May many 
approved claimants have been receiving nothing more than an IOU from 
the Justice Department. It is simply unconscionable that those who 
sacrificed so much to build are nation's nuclear arsenal would be left 
holding only a government promise.
    Unfortunately, Mr. Ashcroft, this is a problem you inherited from 
your predecessor. However, we now have an excellent opportunity to 
remedy this terrible injustice that has affected many citizens in our 
western states.
    I was very pleased that the Bush Administration included $710 
million it its budget proposal for mandatory funding for the Radiation 
Exposure Compensation Trust Fund. In addition, I hope that you will 
support the legislation proposed by Senator Hatch and me that would 
provided $84 million in emergency supplemental funding for those 
claimants who have already been approved as well as the projected 
number of approved claims for fiscal year 2001.
    Will the Justice Department fully support our efforts to 
expeditiously acquire the necessary funds to pay those IOU's that have 
already been issued as well as those that will be issued for the 
remainder of fiscal year 2001?
    Answer. The Department of Justice shares your frustration that we 
are unable to provide timely compensation payments to deserving 
claimants. Following enactment of the 2000 amendments to RECA, we 
alerted the Appropriations Committees of the need for additional funds 
to implement the amendments, and the need to classify the RECA Trust 
Fund as mandatory, permanent indefinite so that we will always be in a 
position to promptly issue payments to those claimants who qualify. 
Additionally, the President's 2002 budget reflects this 
Administration's desire to ensure that adequate funds are available by 
seeking mandatory funding for the RECA Trust Fund. In light of the 
growing number of claims that have been approved, but are unfunded, we 
stand ready to work with you to acquire the necessary funding 
expeditiously.
    Question. Under your predecessor's tenure, there were concerns 
about the Department's administration of the program. These included 
complaints that the Department would not return phone calls to 
claimants, that information about the program was difficult to obtain, 
and that claims were taking an exceedingly long time to process. Have 
you already taken steps or do you plan to take corrective action so 
that the program can be administered more fairly and efficiently?
    Answer. The Department of Justice is committed to ensure that the 
Program is responsive to claimants. Accordingly, we are troubled by the 
fact that in recent weeks we have been unable to return some phone 
calls promptly. We have tried to answer each inquiry promptly, but the 
high volume has made it impossible to respond promptly to them all, 
despite our very best efforts. In March alone we received more than a 
thousand requests for information. Concurrently, we have received a 
record number of claims. In 1999, we received about 34 claims per 
month. Since then, receipts have increased 10-fold, averaging 340 per 
month in March and April 2001. We are dedicated to providing prompt, 
helpful responses to all inquiries, and are working hard to achieve 
this goal.
    Question. Would you please provide the Subcommittee with updated 
information on the total number of claims approved for payment from the 
Trust Fund since the program was established, the average amount of the 
claims approved, the number of claims denied, and the general reason 
for denial of these claims.
    Answer. Through May 15, 2001, a total of 3,697 claims were 
approved--with an average value of $74,388--and 3,584 claims were 
denied. Claims are denied if one or more of the following eligibility 
criteria are not met: disease, exposure and identification of the 
proper party to file a claim. Downwinder and onsite participant claims 
are most frequently denied for failure to establish a compensable 
disease. Most uranium miner claims are denied because documentation 
does not establish exposure to the requisite amount of radiation.
    Question. For the record, would you please provide the Subcommittee 
with a breakdown of the types of claims approved or disapproved 
(childhood leukemia, other downwinder, onsite participants, or uranium 
miners).
    Answer. Claims approved or denied through May 15, 2001, by type of 
claimant:

------------------------------------------------------------------------
               Type of Claimant                   Approved      Denied
------------------------------------------------------------------------
Childhood Leukemia............................           22           19
Other Downwinder..............................        1,720        1,256
On-site Participant...........................          228          745
Uranium Miner.................................        1,727        1,564
                                               -------------------------
      Total...................................        3,697        3,584
------------------------------------------------------------------------

    Question. Would you please note how many claims have been received, 
approved, and denied since the Fund went bankrupt last May, as well as 
how many claims are currently pending?
    Answer. Fiscal year 2000 Trust Fund availability was exhausted on 
May 9, 2000. Since that time, 2,724 claims have been received, 366 
claims have been approved, 67 claims have been denied and 2,747 claims 
are pending. Of the total approved, we have been able to pay 122 
claims, using funds appropriated for fiscal year 2001. However, fiscal 
year 2001 funds have been exhausted and 244 approved claims remain 
unfunded.
    Question. For my use, would you please provide the same information 
specifically for claims from Mew Mexico, including the total claims 
received, the total claims approved, the total claims denied, and the 
total claims pending?
    Answer. With respect to claims for which the primary claimant 
resides in New Mexico, between May 9, 2000, and May 15, 2001, 232 
claims have been received, 44 claims have been approved and 27 claims 
have been denied, while 260 claims are pending. Of the total approved, 
31 are unfunded.
    Question. How many claims are projected to be filed and processed 
under current law in the upcoming year?
    Answer. In fiscal year 2002, we estimate that 2,350 claims and 
appeals will be filed and 1,563 will be processed under current law.
    Question. The administrative expenses for this program have 
essentially been held to $2 million per year. With the enactment of 
legislation last summer, additional claims are being filed. What is a 
realistic estimate for the anticipated administrative costs for 
implementing the newly expanded program?
    Answer. We have not yet formulated the anticipated administrative 
expenses beyond fiscal year 2002.
    Question. Does the Administration have any long-range estimates as 
to the number of claims that might still be filed under the Radiation 
Exposure Compensation Act under current law?
    Answer. In May 2000, the Congressional Budget Office estimated that 
about 15,600 claims might be filed under S. 1515, The Radiation 
Exposure Compensation Act Amendments of 2000. Since then, over 2,700 
claims have been filed. Thus, about 12,900 claims might still be filed 
over the lifetime of the current law.
    Question. In a March 15 letter I submitted to you, I requested a 
Justice Department town meeting in Grants, New Mexico so that uranium 
miners could have their questions and concerns addressed directly by 
the Administration. Do you intend to hold such a meeting?
    Answer. Yes, we would be happy to hold a town meeting in Grants, 
New Mexico, and intend to do so.
 staffing by immigration and naturalization service personnel at santa 
                    teresa, new mexico port-of-entry
    Question. Attorney General Ashcroft, I am encouraged by the current 
Administration's interest in the Southwest border region, and look 
forward to working with the President on border issues.
    The government needs to invest significant resources into the 
Southwest border. For example, in a recent study by the United States 
Customs Service and other federal agencies, nearly $500 million is 
required to improve inadequate infrastructure along the Southwest 
border's port-of-entry.
    Sharing the border with Mexico affords my state certain 
opportunities, but it also creates special challenges as well.
    Immigration issues are among the most important facing New Mexico. 
The costs associated with providing illegal aliens emergency medical 
and criminal justice services imposes significant hardships on the 
states border counties. New Mexico's 3 border counties, Dona Ana, Luna, 
and Hidalgo pay roughly $5 million per year to provide such services.
    Five million dollars per year is a tremendous financial burden, 
particularly considering New Mexico's relative poverty. In 1998, New 
Mexico was ranked forty-eighth among the fifty states in terms of per 
capita income and forty-sixth in median household income. New Mexican 
counties should not be forced to pay for the Federal Government's 
responsibilities.
    The Immigration and Naturalization Service (INS) is tasked with 
processing legal immigration and enforcing immigration laws. The 
agency's performance on both missions has been severely criticized the 
last few years. I appreciate INS' difficult missions and have 
consistently supported the agency, even given increasing scrutiny.
    That said, I am concerned about the agency's attentiveness in 
meeting its goals.
    In an effort to act pro-actively, I sent, then, Acting Commissioner 
of the INS, the Honorable Mary Ann Wyrsch, a letter urging her to add 
seven additional personnel at the Santa Teresa, New Mexico port-of-
entry on March 26, 2001. A new bypass road is being built in Mexico 
that will likely triple vehicular traffic at that port. I have not 
received any response from the INS on this issue.
    Considering that this road will be completed in May or June 2001, 
when can I expect the additional personnel that I requested for the 
Santa Teresa port-of-entry?
    Answer. We share your concerns regarding the level of service 
provided to the traveling public at the Santa Teresa port-of-entry as 
described in your letter of March 26, 2001. I noted that your concern 
centers on the recent construction of a road that bypasses the Juarez/
El Paso area and diverts traffic to Santa Teresa, New Mexico. The INS 
monitors workload and staffing levels at all of our ports-of-entry on 
an ongoing basis, and we work closely with other inspection agencies, 
including the United States Customs Service, at our land border ports 
to ensure that we can provide the highest levels of service.
    The INS will monitor the vehicular traffic increases associated 
with the new traffic patterns at Santa Teresa and will assess what 
additional staffing requirement may be called for to address this 
change in traffic patterns. Our experience indicates the vast majority 
of traffic at this location is of a commercial nature; however, we are 
very sensitive to the need to provide adequate immigration inspector 
resources to allow for a full and complete federal inspection process. 
Once the assessment is completed and a staffing level is determined, we 
will provide additional staff as needed at Santa Teresa.
    We appreciate your continued support and shared interest to ensure 
a safe and efficient Southwest border.
  underutilization of the federal law enforcement training center in 
                          artesia, new mexico
    Question. The Federal Law Enforcement Training Center in Artesia, 
New Mexico, has been operational for more than a decade. Yet, the 
facility is woefully underutilized. In fact, INS officials have 
cancelled scheduled training classes. My staff has been told the reason 
for the cancellations are budget shortfalls, even though Congress 
consistently increases INS' budget. Please identify these alleged 
budget shortfalls.
    Answer. In fiscal year 2001, INS moved money from Service-wide 
support funds and operating expenses to cover additional overtime to 
control the hot spots along the border adequately. Four million dollars 
was offset by deferral of advanced training class sessions.
    In fiscal year 2001, 32 advanced training classes were scheduled. 
As a result of border priorities shortfall, only 8 of the first and 
second quarter class sessions were conducted and 16 were deferred to 
fiscal year 2002. Eight additional classes for third and fourth 
quarters are scheduled and will be conducted. In summary, of the 32 
advanced training classes, 16 classes are scheduled and will be 
conducted and 16 classes are deferred to fiscal year 2002.
    The breakdown of the 8 advanced training sessions to be conducted 
in third and fourth quarters follows:
    1. One session of On-site Firearms instructor refresher training 
for expired or expiring Sector Firearms Instructor Certifications.
    2. Two sessions of Driver Instructor Training. These are required 
for new detail instructors.
    3. One Physical Training Workshop. These are required for new 
detail instructors.
    4. Four sessions of Journeyman (Senior) Patrol Agent advanced 
training to update experienced agents in new developments in law, 
arrest techniques and other subjects related to field operations.
    Including the 8 classes held in the first and second quarters, the 
total advanced training classes to be conducted in fiscal year 2001 is 
now 16.
    Question. Please explain how something as critical as training our 
nation's law enforcement personnel manages to be cut due to the alleged 
budget shortfalls.
    Answer. The only reason INS deferred this training to fiscal year 
2002 was to ensure sufficient hours of actual patrol of the border. In 
the future, however, we will make advanced training a high priority and 
look to other areas, first, before making any cuts in this category.
                      caseloads in federal courts
    Question. Attorney General Ashcroft, I am pleased to see that the 
Administration continues an initiative that Congress started last year 
to provide additional support for prosecution assistance to the 
Southwest Border states--California, Arizona, New Mexico, and Texas.
    As you must be aware, our border courts are swamped--these four 
districts handle 30 percent of the entire federal criminal caseload 
pertaining to illegal drugs and illegal immigration.
    I understand that the President's budget requests $50 million for 
Southwest Border Prosecution Assistance to assist county and municipal 
governments in our 4 Southwest border states with the costs associated 
with the handling and processing of drug cases referred from federal 
arrests.
    Has the Department developed an overall plan to address these 
resource needs to be sure that the federal system can handle the 
increasing caseload that is generated by our investment in law 
enforcement personnel and equipment?
    Answer. Over the last decade, investigative efforts along the 
Southwest border (SWB) have significantly increased the requirements of 
all law enforcement agencies in the region. We are mindful that 
increased arrests generate more court cases, and in turn, a greater 
need for detention space. Our recent budget requests have emphasized 
resources for the investigative agencies, litigating components, and 
detention.
    Beginning in 1993, the Department of Justice embarked on a 
comprehensive plan to dramatically increase the number of felony 
immigration prosecutions and restore the rule of law along the border. 
One of the first steps taken was to deploy new Border Patrol and INS 
agents to the border under Operation Hold the Line in El Paso and 
Operation Gatekeeper in San Diego. The success of these two initiatives 
has resulted in an unprecedented number of case referrals from various 
investigating agencies both within the Department of Justice and from 
other agencies such as Treasury, Postal Service and others.
    In fiscal year 1997 and 1998, the United States Attorneys' Offices 
located along the SWB received 58 additional attorneys to focus on 
illegal drug and alien smuggling. They also received an increase of 13 
attorneys in the fiscal year 2001 appropriation for the illegal 
immigration activity in that region.
    Since 1995, the United States Marshals Service (USMS) has received 
150 positions from Congress for the SWB and has placed 157 new 
employees into these five SWB districts. The additional positions were 
accomplished through cost saving efforts throughout the Service, such 
as freezing positions and reducing spending, as well as hiring 
detention officers rather than criminal investigators.
    There has been over a 350 percent increase in immigration cases 
filed since the mid-1990's when we focused on securing the Southwest 
border and bringing down crime in the region. We are doing everything 
we can to make this region safe for our citizens.
    Question. For example, our federal court in Las Cruces, New Mexico, 
handles 65 percent of all the federal criminal cases in New Mexico, yet 
there is no full-time sitting judge. It is also in dire need of another 
Assistant U.S. Attorney, more United States Marshals, and more pre-
trial and administrative personnel. What types of factors will the 
Department use in awarding these funds to the Southwest Border 
jurisdictions to address this backlog?
    Answer. There are many factors which go into the decision to 
allocate additional resources to districts. Both the United States 
Attorneys and United States Marshals Service have a formal allocation 
process that is used to ensure each district is given the same 
consideration for receipt of new resources.
    When an appropriation is enacted and additional resources are 
provided, the United States Attorneys establish a working group to 
begin the allocation process. The Office of Management and Budget 
Subcommittee to the Attorney General's Advisory Committee (AGAC), 
serves as the Chair of the working group. The remaining members of the 
working group are United States Attorneys chosen based on their desire 
to be involved, their expertise in the specific program area being 
increased, and to ensure geographic and district size diversity among 
working group membership.
    The next step in the process is to determine the relevant objective 
criteria to use along with the data on each district. For example, when 
the fiscal year 2001 appropriation provided additional resources for 
immigration, that working group used the following objective criteria 
to augment the specific district information: caseload and time data by 
program from the case management system, average Assistant United 
States Attorney work years per 100,000 population, local/regional 
involvement, previous program related allocations, and border patrol 
increases. Consideration was also given to a variety of relevant 
district-specific factors, including dedicated law enforcement 
resources, statistical information, and the unique circumstances of the 
district, similar to the situation you raise about Las Cruces.
    The working group that considered the allocation of additional 
resources for immigration received in the fiscal year 2001 
appropriation adhered to the report language that limited the resources 
to those districts involved with immigration cases along the Southwest 
Border. I am happy to say that the working group recommended the 
District of New Mexico receive four additional positions for its 
increased immigration workload, using this deliberative process.
    Similarly, the USMS requests positions for the Southwest Border 
based upon increases in workload, new courthouse construction or 
renovation, and when there are position increases for federal judges, 
magistrates, United States Attorneys (USA), INS, FBI or DEA. Any of 
these factors will ultimately affect the USMS workload and its need for 
resources.
    Since 1995, the USMS has received 150 positions from Congress for 
the SWB and has placed 157 new employees into these five SWB districts. 
The additional positions were accomplished through cost saving efforts 
throughout the Service, such as freezing positions and reducing 
spending, as well as hiring detention officers rather than criminal 
investigators.
    While it is true that the Las Cruces caseload is growing, the 
General Services Administration has no construction projects planned 
for Las Cruces through fiscal year 2005. In the meantime, approximately 
1.5 workyears are being expended in Las Cruces by ``visiting judges'' 
from outside the district. Deputy U.S. Marshals in Las Cruces are 
supplemented with as many as three deputies daily from Albuquerque. In 
addition, the USMS office in Las Cruces makes extensive use of guards, 
typically five per day, to meet the needs of the court. In fiscal year 
2002, the USMS has requested 6 positions for Albuquerque, as a result 
of previous courthouse construction. If the USMS receives these 
positions, the Marshal from New Mexico will need to reassess the 
situation in Las Cruces and in all likelihood will use a portion of 
these positions for the staffing of Las Cruces, which is the greater 
priority.
    While OJP funds cannot be used for these federal costs, OJP 
resources will be made available to the eligible local jurisdictions to 
enable them to process substantially more federal arrest cases referred 
from the federal authorities. Funds from the Southwest Border 
Prosecution Assistance Initiative will be awarded on a discretionary 
basis to county and municipal governments in Texas, Arizona, New Mexico 
and California for costs associated with the handling and processing of 
drug cases referred from federal arrests. Individual awards will be 
based on a number of factors, including Southwest border county 
caseloads for processing, detaining, and prosecuting drug cases 
referred from federal arrests.
    Question. For what types of activities will county and municipal 
governments be able to do to use these funds? Last year, Congress 
recognized that the needs included additional prosecutors, probation 
officers, court officials, and detention costs. Would these be covered 
under the Department's proposed Southwest Border Prosecution Assistance 
initiative?
    Answer. The Justice Department's 2002 budget proposes to continue a 
program created by Congress to reimburse district attorneys along the 
Southwest border for the costs of processing, detaining, and 
prosecuting drug cases referred from federal arrests. The program 
provides financial assistance to county and municipal governments in 
Texas, New Mexico, Arizona, and California for the costs associated 
with the handling and processing of drug cases referred from federal 
arrests. These funds may be used for hiring and training more 
prosecutors, probation officers, and court officials, court costs, 
detention costs, courtroom technology, administrative expenses, and 
indigent defense costs.
    This program was created in the Fiscal Year 2000 Emergency 
Supplemental Appropriations Act, which provided $12 million to the USA 
for establishment of reimbursable agreements to the counties and 
municipal governments in the five districts along the Southwest border. 
An additional $12 million was provided the USA to reimburse Texas and 
Arizona in fiscal year 2001.
    The budget proposes to expand funding of this local assistance 
program to $50 million in 2002. The funding request in fiscal year 2002 
is contained in the Office of Justice Programs' appropriation 
consistent with its traditional role of funding grants to state and 
local organizations. Funds from the Southwest Border Prosecution 
Assistance Initiative may be used for hiring and training more local 
prosecutors, probation officers, and court officials, court costs, 
detention costs, courtroom technology, administrative expenses, and 
indigent expense costs.
                          mental health courts
    Question. Attorney General Ashcroft, as you are aware, the 
America's Law Enforcement and Mental Health Project Act was enacted 
into law last year. The Act authorizes the creation of Mental Health 
Courts with separate dockets to handle cases involving individuals with 
a mental illness.
    The Act authorized $10 million for fiscal year 2001 and each of the 
next 4 years to implement the ``Mental Health Courts'' program by the 
Office of Justice Programs. The specific thrust of this program is 
simple--to provide an individual with a mental illness and charged with 
a misdemeanor or nonviolent offense the option of out-patient or in-
patient mental health treatment as an alternative to incarceration.
    Finally, the Department of Justice estimates that 16 percent of all 
inmates in local and state jails suffer from a mental illness and the 
American Jail Association estimates that as many as 700,000 persons 
suffering from a mental illness are jailed each year.
    Do you believe Mental Health Courts can alleviate prison 
overcrowding and create greater judicial economy within our court 
systems?
    Answer. Early evaluations of specialty, problem-solving courts 
(e.g., drug courts and mental health courts) show that these courts may 
be effective in diverting inmates with mental illnesses and co-
occurring disorders from prison and impact the use of valuable prison 
bed space. However, there are a number of cautionary notes regarding 
the limitation of these evaluations that should be addressed in 
assessing the impact of mental health courts on prison crowding.
    Generally, the mental health courts have several goals including: 
reduce the use of prisons and repeated interaction with the criminal 
justice system, connect or re-connect persons with mental illness with 
needed mental health services, protect public safety, and improve the 
likelihood of offender success with treatment and access to related 
support services (e.g., housing, etc.). The aim of mental health courts 
are to encourage community-based health approaches that would prevent 
persons with mental illness from entering the criminal justice system 
in the first place or reducing their length of involvement in the 
system.
    Given that the mental health court movement is only about 4 years 
old, few evaluative studies have been conducted that address the impact 
of the courts on prison overcrowding. The few evaluations available 
show that mental health courts may be effective in diverting mentally 
ill offenders from prison. For example, the University of Washington 
Phase I assessment of the King County Court Mental Health Court 
included an analysis of detention data for 77 participants over the 
one-year period prior to the formation of the mental health court 
through its first year of operation. Offenders who chose involvement 
with the mental health court: increased the amount of treatment they 
received and showed decreased problems with the criminal justice 
system; increased number of treatment episodes and decreased time in 
detention; on average spent fewer days in detention and decreased the 
rate of new bookings. Some promising results also were found in the 
Anchorage, Alaska Mental Health Court. In the year before offenders 
participated in the mental health court, they spent an average of 18 
days in the hospital and 85 days in prison. During the year they 
participated in the mental health court, the same individual averaged 
three days in the hospital and 16 days in prison--reductions of 83 
percent and 81 percent respectively.
    While a review of some limited research shows that mental health 
courts may be effective in diverting mentally ill offenders from 
prison, evaluations should assess the impact of mental health courts on 
prison crowding, public safety, connecting the mentally ill offender to 
needed community mental health services, and success of treatment.
    Question. What steps are being taken by DOJ to implement 
``America's Law Enforcement and Mental Health Project Act?''
    Answer. The ``America's Law Enforcement and Mental Health Project'' 
was newly authorized in fiscal year 2001. The legislation authorizes an 
appropriation of $10,000,000 for each of fiscal years 2001 through 2004 
to provide grants to establish demonstration mental health courts and 
provide for technical assistance, evaluation, and training. In fiscal 
year 2002, the Department, in making difficult decisions about 
competing priorities, did not request funds specific to mental health 
courts in order to fulfill its mission of supporting core law 
enforcement functions.
    However, the Bureau of Justice Assistance, through its Byrne 
Discretionary Grant Program, has provided funding to two demonstration 
mental health courts in the past. In fiscal year 1999, King County (WA) 
received $150,000 to help implement a mental health court and in fiscal 
year 2001, Jefferson County (AL) received $150,000 to create a mental 
health court. These courts are designed to respond to the problem of 
mentally ill offenders who repeatedly cycle through the criminal 
justice system without receiving needed assistance. Byrne discretionary 
funds will not be available under the current budget proposal for 
fiscal year 2002; however, states can use their Byrne formula funds for 
further demonstration site support and technical assistance. 
Additionally, states and localities involved in Offender Reentry are 
permitted to use these funds for mental health courts if identified as 
a need in the target community.
    Question. What plans does DOJ have to provide assistance to court 
systems seeking to develop and implement a Mental Health Court and does 
DOJ plan to offer continued technical assistance after the 
implementation of a Mental Health Court?
    Answer. To increase knowledge about mental health courts, BJA 
funded the Crime and Justice Research Institute to complete a report 
about four of the nation's first mental health courts. The report, 
Emerging Judicial Strategies for the Mentally Ill in the Criminal 
Caseload, gives an overview of the issues related to mental health 
courts and provides a detailed description of the featured courts. 
Published by BJA in May 2000, the report is currently in its second 
printing. This report will continue to serve as a resource to 
communities interested in the development and implementation of a 
mental health court.
    In fiscal year 2000, through an Interagency Agreement with the 
National Institute of Corrections, BJA provided $100,000 to provide 
technical assistance to states and local communities interested in 
developing or enhancing services to persons with mental health 
disorders involved with the justice system. For over 5 years, BJA has 
provided funding to the National Judicial College to develop judicial 
training programs, including a course and instructional manual on the 
role of the judge in responding to persons with mental health issues.
    States will have the ability to provide further technical 
assistance as well as assistance in court development and 
implementation through their Byrne formula grant funds.
                   law enforcement in indian country
    Question. I am pleased to see that the Administration continues to 
focus on the law enforcement situation in Indian Country, and promotes 
cooperation between the Bureau of Indian Affairs (BIA) and the 
Department of Justice agencies. In fiscal year 2001, this Subcommittee 
provided $106.5 million through various Department of Justice programs 
to enhance law enforcement in Indian Country.
    How much does the Administration propose in its fiscal year 2002 
budget for the Department of Justice to continue these Indian law 
enforcement initiatives?
    The tribal courts have received $18 million over the past three 
years. How have these funds been allocated to tribal courts?
    Answer. The Department of Justice requests continued funding in 
fiscal year 2002 for the grant programs in Indian Country that the 
Congress funded in fiscal year 2001. These grant programs total $93.9 
million. Since fiscal year 1999, the Congress has also provided funds 
for additional agents and prosecutors, which will also continue to be 
funded in the fiscal year 2002 request.
    The Tribal Courts Program provides financial and technical 
assistance for federally-recognized Indian Tribal governments to 
develop, enhance and continue operation of tribal judicial systems; 
provides education and training for tribal court personnel; and 
promotes cooperation and coordination among tribal justice systems and 
federal and state judiciary systems. The Tribal Courts Program 
addresses a need to build and enhance tribal justice involving American 
Indians and Alaska Native populations; to address the increased 
incidences of violence and other criminal offenses occurring in Indian 
Country; and to support the tribes' infrastructure as dependent 
sovereign nations. Beginning in fiscal year 1999, in support of the 
Department of Justice Indian Country Law Enforcement Initiative, the 
Bureau of Justice Assistance (BJA) Tribal Court Program has awarded 
competitive grants to tribes based on the extent and urgency of need of 
each applicant.
    The first solicitation announcement, issued in fiscal year 1999, 
resulted in 77 grant awards to tribal communities. Forty-four tribal 
communities received funding to develop single or inter-tribal court 
systems; thirty-three tribal communities received funding to implement 
enhancement initiatives. Enhancement initiatives were provided to 
tribes to improve case management, train court personnel, acquire 
equipment, enhance advocacy services, establish diversion programs, and 
access services. Reflecting the demand for this program, BJA received 
109 more applications under the first solicitation than it was able to 
fund. In addition, the National Tribal Justice Resource Center, the 
Northern Plains Tribal Judicial Institute, and the Alaska Inter Tribal 
Council received funding to provide training and technical assistance 
to the tribal grantees.
    To facilitate the administration of the program and assist 
recipients, BJA held a series of cluster meetings for new grant 
recipients in June 2000, July 2000, September 2000, October 2000 and 
March 2001. BJA plans to increase technical assistance to tribes in the 
area of judicial administration, advocacy skills, and information 
technology. A formal national evaluation will be initiated to assess 
the impact of increased assistance to tribal communities to plan, 
implement and enhance traditional tribal and western court systems.
    In April 2001, BJA issued a second competitive solicitation 
announcement for the development of tribal courts or the 
implementation, enhancement, and continuing operation of tribal courts. 
Under this competitive solicitation, BJA received 137 concept papers, 
of which 15 concept papers were for planning grants and the remainder 
were for either implementation or enhancement grants. Currently, all 
concept papers are being reviewed by peer panels. BJA anticipates that 
up to 100 tribes will receive awards ranging from $60,000 to $400,000 
based on each tribe's service population. BJA anticipates that more 
tribes will apply for funding in this second round, reflecting an 
increased awareness of the program through conferences and marketing 
efforts. Technical assistance and training will be continued, 
emphasizing on-site consultation, collective training around common 
issues, and mentoring between established and emerging tribal courts.
    Question. Congress approved $34 million in each of 1999, 2000, and 
2001 through the State Prison Grants program to help with the addition 
of detention facilities in Indian Country. How is the Department 
expending these funds? What is the analysis of need for these 
facilities across the nation?
    Answer. Since 1999, $102 million has been appropriated for the 
construction of correctional facilities on tribal lands for the 
incarceration of offenders under tribal jurisdiction. The following 
lists the awards made using funds available in 1999 and 2000:

Fiscal Year 1999 Funding:
    TIER 1: Congressional Directives:
        Three Affiliated Tribes of Fort Berthold (ND)...      $2,000,000
        Native Village of Barrow (AK)...................       6,000,000
                    --------------------------------------------------------
                    ____________________________________________________
          Subtotal......................................       8,000,000
                    ========================================================
                    ____________________________________________________
    TIER 2: BIA Designated Priorities:
        San Carlos Apache Tribe (AZ)....................       2,158,550
        Confederated Tribes of the Colville Reservation 
          (WA)..........................................       4,579,550
                    --------------------------------------------------------
                    ____________________________________________________
          Subtotal......................................       6,738,100
                    ========================================================
                    ____________________________________________________
    TIER 3: CIRCLE Project (correctional components):
        Pueblo of Zuni (NM).............................       2,334,000
        Northern Cheyenne Nation (MT)...................       3,482,629
        Oglala Sioux Tribe (SD).........................       1,327,659
                    --------------------------------------------------------
                    ____________________________________________________
          Subtotal......................................       7,144,288
                    ========================================================
                    ____________________________________________________
    TIER 4: Regional Approaches:
        Rosebud Sioux Tribe (SD)........................       6,100,770
        Shoshone Paiute Tribe (NV)......................       2,862,132
        Red Lake Band of Chippewa (MN)..................         574,870
        Nisqually Indians (WA)..........................         371,473
                    --------------------------------------------------------
                    ____________________________________________________
          Subtotal......................................       9,909,245
                    ========================================================
                    ____________________________________________________
          Fiscal Year 1999 Project Totals...............      31,791,633
                    ========================================================
                    ____________________________________________________
Fiscal Year 2000 Funding:
    CIRCLE Project Supplements:
        Pueblo of Zuni..................................       2,339,454
        Northern Cheyenne...............................       3,980,909
                    --------------------------------------------------------
                    ____________________________________________________
          Subtotal......................................       6,320,363
                    ========================================================
                    ____________________________________________________
    Tribal Supplemental Awards:
        Fort Peck Assiniboine Sioux.....................         696,588
        Rosebud Sioux Tribes............................       3,168,000
        Shoshone-Paiute Tribes..........................       1,154,536
        Confederated Tribes of Colville.................       2,500,000
        San Carlos Apache...............................       8,628,722
        Red Lake Band of Chippewa.......................       8,841,213
        Hualapai........................................       2,000,000
        Three Affiliated Tribes of Fort Berthold........       1,872,909
                    --------------------------------------------------------
                    ____________________________________________________
          Subtotal......................................      28,861,968
                    ========================================================
                    ____________________________________________________
          Fiscal Year 2000 Project Totals...............      35,182,331

    Additionally, $900,000 was used in 1999 and 2000 to provide 
technical assistance to each of the tribal grantees and to tribes in 
the discovery and planning stages of addressing their offender 
populations through incarceration.
    In 2001, funds will be made available to: existing projects that 
have been funded only through the design phase and are prepared to 
enter the construction phase in 2001; unfunded applications that were 
ranked high in the competitive review process in 1999, but were not 
selected due to limited funding in prior years; the Gila River Indian 
Community, which is prepared to proceed with construction of a 104-bed 
facility in 2001; and per Congressional direction, the Cultural Justice 
Spirit Camp and Healing Center near the Village of Hoonah, Alaska.
    Tribal governments have jurisdiction over misdemeanor crimes 
committed by Indians in Indian Country. Tribal authority to sentence 
offenders is limited to 1 year or less imprisonment (25 U.S.C.A. 
Sec. 1302(7)) for non-felony convictions. Many American Indian 
communities experience significant levels of crime including: violent 
crime, domestic violence, child abuse, aggravated assaults, and violent 
crime strongly correlated with alcohol abuse. The United States 
Attorneys Office is responsible for felony crimes occurring on 
reservations. However, the authority to sentence for up to 1 year for a 
non-felony crime allows tribes to intervene in the early stages of an 
offender's behavior before the criminal activity reaches a level of a 
felony. The sentence of up to 1 year imprisonment for a non-felony 
crime is intended to act as a deterrent from more serious criminal 
activity. Tribal justice systems are the most appropriate institutions 
for maintaining order in tribal communities and are the preferred forum 
for delinquent offenders who commit misdemeanor crimes. As the tribal 
court system is the closest, both physically and culturally, to 
victims, offenders, and their families, tribal courts require access to 
adequate correctional facilities to impose a range of interventions and 
sanctions to impact offender behavior effectively.
    According to the Office of Justice Programs' Bureau of Justice 
Statistics Jails in Indian Country Survey (Survey), 1998 and 1999, of 
the 69 detention facilities in Indian Country, 15 facilities were 
operating above 150 percent capacity on peak day in June 1999, and 11 
facilities were under a court order or consent decree on June 30, 1999. 
Due to consistent overcrowding, restrictions on the maximum number of 
inmates that could be held in custody were placed on these facilities. 
Also according to the Survey, 43 of the 69 facilities reported that 
they are authorized to hold juveniles, however only two-thirds reported 
that juveniles are separated from adults by both sight and sound. Nine 
facilities separated young persons by sight only, and four facilities 
reported that juveniles were not separated from adults.
    With the exception of the most recently constructed facilities, the 
majority of the existing detention facilities are over 25 years old and 
of linear design which makes supervision extremely difficult; they have 
little or no programming space to impact offender behavior; they are 
high security which may be unwarranted and unproductive given the 
characteristics of the offender population; they are in poor condition 
and out of compliance with building codes and Bureau of Indian Affairs 
jail standards; and they do not have the capacity for sight and sound 
separation for juveniles housed in joint adult and juvenile facilities. 
These structural deficiencies impact safety, security, and the 
effectiveness of behavior modification.
    Question. This initiative also provides funding to assist Indian 
tribes and pueblos with the hiring of additional law enforcement 
officers, to purchase equipment, and to train new and existing 
officers. How much has the Department devoted to these activities? What 
is the status of obligating these funds? How has the Department 
implemented this portion of the initiative?
    Answer. In fiscal year 2001, the Department of Justice, Office of 
Community Oriented Policing Services is dedicating $39.9 million to the 
COPS Indian Country grant program. Because these tribal departments 
often have limited resources, the COPS Office sets application 
deadlines later in the fiscal year so that they have ample time to 
complete and submit the grant application packets. In 2001, the 
application deadline for the Tribal Resources Grant Program (TRGP), the 
grant program that funds personnel and equipment, was set for April 16. 
COPS expects to have these applications reviewed and awarded by the end 
of August (it is estimated that these grants will account for 
approximately $32.3 million of the $39.9 million). An additional 
$500,000 is being dedicated for the same purposes as above to the 
Mental Health and Community Safety Initiative, which is a cooperative 
effort among a number of federal agencies to address mental health and 
substance abuse problems of Native American youth. The application 
deadline for this program is June 22, and COPS hopes to be able to make 
awards by August.
    COPS will spend approximately $2 million on the CIRCLE project 
grants and approximately $2 million in waivers in fiscal year 2001. An 
additional $1 million is set aside to be used to provide training and 
technical assistance to tribal law enforcement. These funds are 
expected to be obligated in August or September.
    A portion of the total remaining funds (approximately $2.1 million) 
may be used for additional training and technical assistance efforts, 
however it is anticipated that the funds will be used to fund the new 
Tribal Hiring Renewal Grant Program, which will provide additional 
grant dollars to law enforcement agencies that are experiencing severe 
fiscal distress and will not be able to retain their current COPS 
funded officers without additional federal assistance. These grants 
will be awarded in August or September.
    Question. A total of $35 million was approved for the Office of 
Juvenile Justice and Delinquency Prevention programs for programs to 
combat tribal youth crime. What is the status of this program?
    Answer. The Tribal Youth Program (TYP) was established in 1999 with 
$10 million in fiscal year 1999, $12.5 million in fiscal year 2000, and 
$12.47 million in fiscal year 2001, appropriated to OJP as part of the 
Title V juvenile prevention program. The program is administered by the 
Office of Juvenile Justice and Delinquency Prevention (OJJDP), which 
assists tribal communities and States to prevent and control 
delinquency and improve their juvenile justice systems. Although OJJDP 
has provided discretionary grant funds and training and technical 
assistance to American Indian Tribes in the past, TYP is the first 
OJJDP program dedicated exclusively to prevention, control, and 
juvenile justice system improvement in American Indian communities. TYP 
is part of the Indian Country Law Enforcement Initiative, a program of 
the Departments of Justice and the Interior that is designed to enhance 
Indian Country law enforcement standards and improve the quality of 
life in Indian Country.
    Of the nearly $35 million appropriated to date for TYP, OJJDP has 
allocated $3.5 million to support program-related research, evaluation, 
and statistics; $700,000 to provide training and technical assistance 
to tribal programs; and $25.76 million to fund discretionary grants, 
including a separate TYP mental health grants program. The fiscal year 
2001 TYP solicitation will be available in May 2001. The performance 
plan target for fiscal year 2001 is to fund an additional 35 tribes, 
which will bring the total number of federally recognized tribes and 
corporations representing Alaska Native villages receiving awards to 
116.
    Question. What types of programs does the Department plan to fund 
with these dollars?
    Answer. The types of programs are funded as follows:
I. Discretionary Grants
    The program announcement for TYP offers a flexible grant program 
designed to meet the unique needs of each American Indian community 
applicant to prevent and control delinquency and improve its juvenile 
justice system. All federally recognized tribes, Alaskan Native 
villages, corporations representing Alaskan Native villages, or 
coalitions of tribes or villages are eligible to apply for a 3-year 
grant. Grants range from $75,000 to $500,000 and are awarded on a 
competitive basis. To ensure a broad distribution of TYP funds, OJJDP 
considers the size of the tribe, geographic location, and whether the 
tribe is in an urban or rural area in making final funding decisions.
    Grant Categories.--Applicants are required to focus on one or more 
of the following categories of program activity. The number of tribes 
with programs in these categories are listed immediately before the 
description.
  --Category I--Reduce, control, and prevent crime and delinquency both 
        by and against tribal youth. Elements relevant to this 
        objective include community needs assessments, risk factor 
        identification, family strengthening, truancy reduction, 
        dropout prevention, parenting, anti-gang education, conflict 
        resolution, child abuse prevention, gang reduction strategies, 
        youth gun violence reduction, and sex offender services.
  --Category II--Interventions for court-involved tribal youth. 
        Elements relevant to this objective include graduated 
        sanctions, restitution, diversion, home detention, foster and 
        shelter care, community service, improved aftercare services, 
        mental health services interventions (e.g., crisis 
        intervention, screenings, counseling for suicidal behavior), 
        and mentoring.
  --Category III--Improvement to tribal juvenile justice systems. 
        Elements relevant to this objective include indigenous justice; 
        training for juvenile court personnel, including judges and 
        prosecutors; intake assessments; model tribal juvenile codes; 
        advocacy programs; gender-specific programming; probation 
        services; and aftercare programs.
  --Category IV--Prevention programs focusing on alcohol and drugs. 
        Elements relevant to this objective include case management, 
        drug and alcohol education, drug testing, substance abuse 
        counseling for juveniles and families, services for co-
        occurring substance abuse disorders, and training for treatment 
        professionals.
II. Circle Project
    Fiscal Year 1999 Phase I.--TYP provided $200,000 per grantee for 
the Comprehensive Indian Resources for Community and Law Enforcement 
(CIRCLE) project. Funding has been provided to three tribes: Oglala 
Sioux, SD; Northern Cheyenne, MT; and Zuni Pueblo, NM--in coordination 
with the Office of Tribal Justice, Office of Justice Programs, Office 
of Juvenile Justice and Delinquency Prevention, Office for Victims of 
Crime, Violence Against Women Grants Office, Corrections Program 
Office, the Office of Community Oriented Policing Services, United 
States Attorneys, the Bureau of Indian Affairs, and the Federal Bureau 
of Investigation (FBI). These agencies have provided significant 
financial and technical assistance support to the participating tribal 
governments.
    Fiscal Year 2000 Phase II.--TYP provided $200,000 per CIRCLE 
grantee (continuation).
III. TYP Research and Evaluation Projects
    OJJDP's tribal youth research activities are designed to provide 
empirical evidence about juvenile justice and delinquency prevention 
policies and practices and their impact on tribal youth.
    OJJDP adheres to three principles that serve as the foundation for 
research and evaluation activities. These principles require that 
research and evaluation projects for tribal youth: 1. provide practical 
results that are locally relevant; 2. include local community members 
in the decision-making and implementation of the projects; and 3. 
acknowledge and respect local customs, traditions, values, and history.
    OJJDP's program of research for tribal youth includes the following 
initiatives.
            Participatory Evaluation of the Tribal Youth Program
    TYP provides funds directly to tribal communities to develop 
programs that help prevent and control juvenile delinquency, including 
violent crime, and improve tribal juvenile justice systems. The 
Michigan Public Health Institute (MPHI) in Okemos, MI, in partnership 
with the Native American Institute at Michigan State University in 
Lansing, is helping five tribes evaluate programs developed with their 
TYP funds. Each site is assembling a program assessment team (PAT) that 
will include local stakeholders in developing and carrying out data 
collection, analysis activities, and evaluation reports. MPHI will 
provide training and technical assistance to PATs to facilitate 
evaluations of their tribal programs. MPHI also will analyze each 
site's juvenile and tribal justice systems and TYP activities within 
those systems, and analyze the relationships between the tribal 
government and county, state, and Federal Government agencies as they 
relate to juvenile justice responsibilities and operations.
            Delinquency and Juvenile Justice in One American Indian 
                    Nation
    New Mexico State University in Las Cruces is conducting a study 
that uses the unique historical, cultural, social, and legal aspects of 
one tribal nation in the Four Corners area of the southwestern United 
States to look at delinquency and the legal processing of juveniles 
over the past 11 years, taking into account changes in tribal 
resources, such as the opening of a casino on the reservation. The 
project will work with tribal members to develop a model for ongoing 
delinquency research in this and other tribes of the Southwest.
            Culturally Appropriate Juvenile Justice and Delinquency 
                    Prevention
    The College of Menominee Nation in Keshena, WI, is working with 
Menominee organizations to develop, demonstrate, and evaluate a 
culturally appropriate, community-based, family-centered approach to 
juvenile justice and delinquency prevention. Researchers are developing 
a needs assessment, an evaluation design, and a delinquency prevention 
and juvenile justice improvement guide for other tribal groups. The 
project focuses on integrating health and social services and helping 
the Menominee Nation and other tribal organizations institutionalize 
this integration process. Service providers will be trained to design, 
implement, and evaluate delinquency prevention programs for tribal 
youth.
            Assessing Gang Activity in the Navajo Nation
    The Navajo Nation Judicial Branch in Window Rock, AZ, is conducting 
the first comprehensive assessment of gang activity by a tribal 
government. The study is using a mixed research design of quantitative 
and qualitative assessments, with close community involvement at all 
stages. Official court data, follow-up surveys, and gang member 
interview protocols have been reviewed for an initial assessment and 
community members are helping researchers understand the nature, 
extent, and causes of Navajo Nation gang violence. Researchers hope to 
discover approaches to dealing with gangs that can be adapted by other 
tribes.
            Youth Gangs in Indian Country: Profiling the Problem and 
                    Seeking Solutions
    Building on the Navajo Nation's youth gang study, researchers at 
California State University in Sacramento are using ethnographic 
observation and interviews with community members and gang members to 
document and profile the youth gang experience in up to six rural and 
urban tribal sites across the country. Researchers are interviewing 
professionals who work with gang-involved youth to learn about external 
influences on tribal youth gangs, such as the involvement of off-
reservation gangs. The project will produce an inventory of policies 
and practices used at the sites to prevent and intervene with youth 
gangs and will examine recommendations made by community members to 
improve present procedures.
            Tribal Youth Field-Initiated Research and Evaluation
    Field-initiated research allows researchers in the field to 
identify the areas and topics they believe need to be examined. The 
tribal youth field-initiated research and evaluation program supports 
projects that address alcohol and substance abuse, child abuse or 
neglect, and indigenous approaches to juvenile justice. OJJDP will 
award 2 grants in September 2001.
            Indian Country Youth Gang Survey
    In 2001, OJJDP's National Youth Gang Center in Tallahassee, FL, 
added an Indian Country supplement to its ongoing annual National Youth 
Gang Survey of law enforcement officials. This component is assessing 
the prevalence, composition, and activities of youth gangs in federally 
recognized tribes that are not traditionally included in the national 
survey. Preliminary results are expected at the end of 2001.
            Longitudinal Study of Tribal Youth Risk and Resiliency
    OJJDP also has developed a research project that will include a 
specific cultural focus to assess the complex relationships among 
culture, community, family, individual youth, and the development of 
delinquency. This study will enhance understanding of risk and 
protective factors that influence delinquency and resiliency within the 
cultural and historical context of tribal youth. The findings will have 
direct implications for prevention activities with at-risk tribal youth 
and intervention activities with juvenile offenders. In addition, the 
study will contribute to the development of effective and culturally 
appropriate research approaches with tribal populations. OJJDP will 
competitively select a grantee in 2001.
IV. TYP Training and Technical Assistance
    Beginning in fiscal year 1999, OJJDP has awarded a total of 
$700,000 to the American Indian Development Associates (AIDA) to 
provide training and technical assistance (TTA) to tribal grantees to 
facilitate strategic planning, improved tribal juvenile justice 
systems, and implementation of TYP.
    AIDA has successfully completed assessments for policy, program, 
and overall system change which have helped grantees to identify needs, 
problems, gaps, strengths, and solutions. Many tribes have developed 
comprehensive juvenile justice planning and implementation strategies. 
Data collection instruments have been designed using a culturally 
relevant TTA design, which is developed in collaboration with the TYP 
grantees. The provision of services is accomplished through program 
reviews, onsite visits, and telephone consultation and interviews with 
representatives from the tribal administration and key program 
managers.
    Question. What indication is the Department getting as to the 
nature of this problem in Indian Country and the need for resources?
    Answer. Research indicates that American Indians and Alaska Natives 
are at a significantly greater risk of violence than other Americans. 
In addition, American Indians and Alaska Natives experience 
disproportionately high levels of violent victimization, intimate 
partner violence, child abuse and neglect, youth gang involvement, and 
offending while using alcohol. These difficulties are compounded by a 
lack of available resources for families, youth services, and law 
enforcement. Youth growing up under these circumstances are exposed to 
a variety of risk factors that increase their chance of becoming 
involved in delinquency and violent offending.
    The following are examples of some of the latest research reporting 
the extent of crimes against American Indians and Alaska Natives.
  --Estimates from the National Crime Victimization Survey indicate 
        that, from 1993 to 1998, American Indians sustained violent 
        victimization at the highest per capita rate, a rate higher 
        than that of any other race surveyed. (Rennison, Callie, 
        Violent Victimization and Race, 1993-1998, Bureau of Justice 
        Statistics Special Report, March 2001, NCJ 176354, pg. 1)
  --From 1993 to 1998, the average annual rate of rape or sexual 
        assault was higher for American Indian women than that of any 
        other race surveyed. (Rennison, Callie, Violent Victimization 
        and Race, 1993-1998, Bureau of Justice Statistics Special 
        Report, March 2001, NCJ 176354, pg. 2)
  --American Indian women are particularly vulnerable to violent crime, 
        reporting a victimization rate nearly twice that of other 
        racial groups. (Tjaden, Particia, and Nancy Thoennes, Extent, 
        Nature, and Consequences of Intimate Partner Violence, Findings 
        from the National Violence Against Women Survey, Washington, 
        D.C.: National Institute of Justice, July 2000, NCJ 181867, p. 
        25)
  --Seventeen percent of all Native women will be stalked during their 
        lifetimes (Tjaden, Patricia, and Nancy Thoennes, Prevalence, 
        Stalking in America: Findings From the National Violence 
        Against Women Survey, Research in Brief, Washington, D.C.: 
        National Institute of Justice, April 1998, NCJ 169592, p. 5)
  --Alcohol and drug use was a factor in more than half of violent 
        crimes against American Indians. Overall, in 55 percent of 
        American Indian violent victimizations, the victim reported 
        that the offender was under the influence of alcohol, drugs or 
        both. (Greenfeld, Lawrence, and Steven Smith, American Indians 
        and Crime, Washington, D.C., Bureau of Justice Statistics, 
        February 1999, NCJ 173386, p. 9)
  --In the United States from 1992 to 1995, American Indians 
        experienced an increase in the rate of abuse or neglect of 
        children under age 15. (Greenfeld, Lawrence, and Steven Smith, 
        American Indians and Crime, Washington, D.C., Bureau of Justice 
        Statistics, February 1999, NCJ 173386, p. 15)
  --Arrests of American Indians under age 18 for alcohol-related 
        violations are twice the national average. (Greenfeld, 
        Lawrence, and Steven Smith, American Indians and Crime, 
        Washington, D.C., Bureau of Justice Statistics, February 1999, 
        NCJ 173386, p. 25)
  --From 1996 to 1998, the number of Indian inmates in the custody of 
        the Bureau of Prisons (BOP) has increased by 21 percent (from 
        1,276 to 1,549 inmates). During that same period, the number of 
        Indian juveniles in BOP custody has increased 47.5 percent 
        (from 103 to 152 juveniles). Furthermore, the number of Indian 
        offenders under BOP supervision has increased by 28 percent 
        (from 1,347 to 1,732 offenders).
    These statistics reveal the urgent need for additional resources to 
be provided to Indian Tribes in order to improve responses to crime and 
crime-related problems in Indian Country. The Department of Justice 
administers a variety of funding programs that provide such resources 
to Indian Tribes. For fiscal year 2002, the President's budget request 
is designed to help carry out the Federal Government's responsibilities 
to Indian Tribes, including the following resources: $35,191,000 to 
build correctional facilities in Indian Country; $31,315,000 for the 
COPS Tribal Resources Grants Program; $7,982,000 for Tribal courts; 
$4,989,000 for Tribal demonstration projects on alcohol and crime; and 
$1,996,000 for Tribal criminal justice statistics collection. 
Generally, these figures represent a continuation of existing funding 
levels for the programs. The COPS Tribal Resources Grants Program, 
however, is maintained at a higher level than COPS programs generally, 
which reflects a continuing need for these resources and the special 
role of the Federal Government in Indian Country law enforcement.
    Question. Finally, would the Department please provide the 
Subcommittee with a summary of the total funding proposed to be 
allocated under the Indian Law Enforcement initiative in fiscal year 
2002 with the programmatic detail also provided?
    Answer.

       DEPARTMENT OF JUSTICE FISCAL YEAR 2002 PRESIDENT'S BUDGET INDIAN COUNTRY LAW ENFORCEMENT INITIATIVE
----------------------------------------------------------------------------------------------------------------
           Component                                           Item                                   Request
----------------------------------------------------------------------------------------------------------------
Office of Justice Programs.....  Tribal Courts Program--to assist tribal government in the            $7,982,000
                                  development, enhancement, and continuing operation of tribal
                                  judicial systems.
                                 Title V Incentive Grants for Local Delinquency Prevention--to        12,473,000
                                  serve Indian youth by developing, enhancing, and supporting
                                  tribal juvenile justice systems.
                                 Indian Alcohol and Substance Abuse Program--for demonstration         4,989,000
                                  grants on alcohol abuse and crime in Indian Country. This will
                                  fund law enforcement activities.
                                 State Correctional Grant Program--for the construction of            35,191,000
                                  detention facilities in Indian country.
                                 Tribal criminal justice statistics collection..................       1,996,000
Community Oriented Policing      Grants to Tribes for additional law enforcement officers,            31,315,000
 Services.                        equipment, and training.
                                                                                                 ---------------
      TOTAL....................  ...............................................................      93,946,000
----------------------------------------------------------------------------------------------------------------

                        first responder training
    Question. Attorney General Ashcroft, I continue to believe that our 
federal law enforcement agencies must push to train as many first 
responders as we can. These are our local law enforcement, fire, and 
emergency medical personnel who are likely to be first on the scene of 
a terrorist attack.
    As the lead agency for counter-terrorism efforts by the Federal 
Government, you are critical to the coordination of our federal efforts 
in this regard. I am most familiar with the Nunn-Lugar-Domenici program 
which is training state and local responders in 120 major cities, and 
the National Domestic Preparedness Consortium headquartered at Fort 
McClellan, Alabama, which is working with training partners to expand 
this effort to other cities and towns.
    The Nunn-Lugar-Domenici program has now been transferred to the 
Department of Justice to complete the training program for 120 major 
cities. Have all 120 cities been put through the Nunn-Lugar-Domenici 
training program?
    If there are a few cities remaining to undergo this training, how 
does the Department propose to complete the Nunn-Lugar-Domenici 
program?
    Answer. On April 6, 2000, President Clinton signed a Decision 
Memorandum transferring authority for the administration of the Nunn-
Lugar-Domenici (NLD) Domestic Preparedness (DP) Program from the 
Department of Defense (DOD) to the Department of Justice (DOJ), 
effective October 1, 2000. Funding and authority to support this 
transfer was provided in DOJ's fiscal year 2001 appropriation, enacted 
on December 21, 2001. As of September 30, 2000, DOD had completed 
delivery of the entire program to 68 of the 120 targeted cities, and 
initiated, but not completed, delivery to 37 additional cities (cities 
69-105). These cities did not receive their final two program 
exercises, or funding for the procurement of training equipment. Cities 
106-120 had yet to begin the program.
    Following receipt of funding to implement program activities, the 
Office of State and Local Domestic Preparedness Support (OSLDPS) 
secured the services of the previous program management support and 
exercise contractors, and on February 2, 2001, initiated contact with 
those cities for which DOD had started but not completed program 
activities (cities 69-105). A Program Information and Technical 
Assistance Meeting for these cities was held on March 7-8, 2001 to 
formally commence completion of the program. At this meeting cities 
were provided with the grant application for their training equipment, 
initiated the grant application process, and scheduled their exercise 
planning and execution cycle. The first program exercise was held on 
May 15, 2001 in Baton Rouge, Louisiana.
    Additionally, on February 16, 2001, OSLDPS made initial contact 
with the final 15 cities (cities 106-120), which did not begin program 
activities prior to the program's transfer. OSLDPS has received Mayor-
appointed City Points of Contact from these cities, and is in the 
process of scheduling formal initial meetings with these cities. The 
first such meeting was held on June 6, 2001, in Warren, Michigan. All 
15 initial meetings will be held, and training activities initiated, 
during fiscal year 2001. Under OSLDPS administration, the NLD DP 
Program will combine specialized training assets available only through 
OSLDPS training partners with jurisdiction-specific assessments, 
allowing each of the remaining cities to tailor the program to meet its 
own individual training, exercise, and equipment needs. OJP has 
requested $9.15 million in the fiscal year 2002 President's Budget to 
complete delivery of the program to all 120 cities.
    OSLDPS is actively coordinating the execution of the NLD DP Program 
with the Department of Health and Human Service's (HHS) Metropolitan 
Medical Response System (MMRS) program. OSLDPS and HHS representatives 
will jointly present both program efforts at the initial meetings for 
cities 106-120, and are working to integrate program activities 
effectively along a logical time-line.
    Question. Could you provide the Subcommittee with the Department's 
current assessment of federal efforts to prepare state and local law 
enforcement and emergency personnel to respond to potential terrorist 
attacks?
    Answer. The Office of State and Local Domestic Preparedness Support 
provides federal leadership to the local first responder community in 
counterterrorism training, equipment purchase, technology research and 
development, and technical assistance and evaluation. OSLDPS believes 
that in order to enhance most effectively the capacity of state and 
local agencies to respond to incidents of domestic terrorism, its 
programs should be information-driven, based on specific identified 
requirements at the state and local level, and responsive to state and 
local needs.
    In keeping with this philosophy, OSLDPS has, working with the 
Congress, implemented a program in all 50 states, the District of 
Columbia, and the 5 United States territories to develop comprehensive 
Three-Year Domestic Preparedness Strategies. These strategies are based 
on an integrated suite of threat, risk, and public health assessments, 
conducted at the local level, which identify the specific level of 
response capability necessary for a jurisdiction to respond effectively 
to a WMD terrorist incident. Once these plans are assembled and 
analyzed, they will present a complete picture of equipment, training, 
exercise and technical assistance needs across the nation.
    OSLDPS anticipates receiving the majority of these Strategies by 
December 31, 2001. Following their submission, OSLDPS will work 
directly with each state and territory to develop and implement 
tailored, individual training, exercise, equipment, and technical 
assistance programs to meet the requirements laid out in the Three-Year 
Domestic Preparedness Strategies. This approach represents the most 
aggressive effort to date to tailor federal domestic preparedness 
assistance to the specific needs of state and local jurisdictions.
    In order to coordinate effectively the execution of its programs 
with the preparedness efforts of other federal agencies, OSLDPS has 
established regular and recurring meetings with representatives from 
the United States Fire Administration's (USFA's) National Fire Academy 
(NFA), the Federal Bureau of Investigation (FBI), the Federal Emergency 
Management Agency (FEMA), the Environmental Protection Agency (EPA), 
the Department of Energy (DOE), the Department of Health and Human 
Services (DHHS), the Centers for Disease Control and Prevention (CDC), 
and the National Domestic Preparedness Office (NDPO). The purpose of 
these meetings is to capitalize on the diverse expertise and 
specialized assistance delivered by these agencies through a formal 
process to ensure a unified and coordinated federal training 
preparedness effort. OSLDPS also has on-site representation from the 
National Guard Bureau to coordinate program efforts and provide 
technical assistance and guidance.
    Additionally, in May 2000, at the direction of the Congress, OSLDPS 
conducted the TOPOFF (Top Officials) exercise, the largest federal, 
state and local exercise of its kind, involving three separate 
locations and a multitude of federal, state and local agencies. TOPOFF 
simulated simultaneous chemical, biological and radiological attacks 
around the country and provided valuable lessons for the nation's 
federal, state and local emergency response communities. Currently, 
OSLDPS has begun planning for the Congressionally mandated TOPOFF II 
exercise, to be conducted in fiscal year 2002. TOPOFF II will build 
upon the success of the May 2000 TOPOFF exercise by incorporating 
lessons learned into TOPOFF II planning and design. TOPOFF II will be 
preceded by a series of preparatory WMD seminars and table top 
exercises crafted to explore issues relevant to the exercise.
    Question. How many local law enforcement and fire and medical 
personnel have been trained?
    Answer. As of May 1, 2001, OSLDPS has provided direct training to 
22,113 emergency response personnel in 1,126 jurisdictions throughout 
the country. Of this total, 2,314 received trained via the Metropolitan 
Fire and Emergency Medical Services course to enable them, in turn, to 
provide training to other first responders. OSLDPS estimates that an 
additional 48,970 first responders have been trained by trainers who 
received instruction through the Firefighter/EMS Training Program.
    Of the total of 22,113 emergency response personnel, 17,976 have 
received training via the National Domestic Preparedness Consortium; 
and 1,823 have received training via other OSLDPS training partners 
Pine Bluff Arsenal, National Sheriffs' Association, and International 
Association of Fire Fighters.
    The following table summarizes this information.

        Institution                                          No. Trained

Students trained at the Center for Domestic Preparedness (CDP) 
    (Fort Mcclellan)..........................................     4,653
Students trained by the Consortium (excluding CDP)............    13,323
                    --------------------------------------------------------------
                    ____________________________________________________

      Subtotal: Students trained by Consortium................    17,976
                    ==============================================================
                    ____________________________________________________
    Trainers trained by Firefighter/EMS Training Program 
      (estimate)..............................................     2,314
    Students trained by other OSLDPS training partners........     1,823
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................    22,113

    Question. An important part of readiness is not only the training 
but the equipping of these forces. What has the Federal Government 
achieved with regard to equipping these teams with what they need to 
respond to a variety of potential attacks?
    Answer. The Office for State and Local Domestic Preparedness 
Support (OSLDPS) recognizes the importance of specialized response 
equipment to the state and local first responders who would bear the 
lion's share of the burden in mitigating any terrorist event involving 
a weapon of mass destruction (WMD). The OSLDPS Equipment Grant Program 
was initiated in 1998 to provide funding directly to states and local 
governments to help enable the purchase of the specialized equipment 
necessary for WMD incident response.
    OSLDPS is currently providing funds to all 50 states, the District 
of Columbia, the Commonwealth of Puerto Rico and the United States 
territories for this purpose. With these funds, OSLDPS grantees have 
been able to purchase badly needed personal protective equipment, 
detection, decontamination and interoperable communications equipment 
for their first responders. In addition, these funds allow states to do 
critical assessments of current threats, vulnerabilities, risks, 
capabilities and needs and to develop strategic plans to more 
effectively guide the use of scarce domestic preparedness resources. 
Evidence from the field suggests that the equipment funding OSLDPS has 
provided to date has helped many state and local jurisdictions increase 
their WMD response capabilities significantly. OSLDPS also believes 
that the impact of the assessment and strategy development process will 
be equally profound when completed.
    The following table summarizes funding amounts provided by OSLDPS 
to state and local first responder agencies from the inception of the 
program in 1998 to the present.

           OSLDPS GRANT FUNDING TO STATE AND LOCAL FIRST RESPONDERS: FISCAL YEAR 1998-FISCAL YEAR 2001
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                  Fiscal Year--
                            Program                            -------------------------------------------------
                                                                   1998        1999         2000         2001
----------------------------------------------------------------------------------------------------------------
Local Grants..................................................         12         31.7          0            0
NLD Grants....................................................          0          0            0           15
State Grants..................................................          0         53.8         72.5         75.7
                                                               -------------------------------------------------
Total.........................................................         12         85.5         72.5         90.7
----------------------------------------------------------------------------------------------------------------

    Question. What is the Department doing to fully utilize existing 
facilities and expertise in First Responder Training for Weapons of 
Mass Destruction?
    Answer. OSLDPS has specifically designed its first responder 
training program to take full advantage of existing facilities and 
expertise to deliver a robust, comprehensive program of instruction to 
the nation's emergency response community. OSLDPS utilizes the 
capabilities of a number of specialized institutions in the design and 
delivery of its training programs. These include private contractors, 
other federal and state agencies, the National Domestic Preparedness 
Consortium, the National Terrorism Preparedness Institute at St. 
Petersburg Junior College, the United States Army's Pine Bluff Arsenal, 
and the National Sheriffs' Association.
The National Domestic Preparedness Consortium
    The National Domestic Preparedness Consortium (NDPC) is the 
principal vehicle through which OSLDPS identifies, develops, tests and 
delivers training to state and local emergency responders. The NDPC 
membership includes OSLDPS's Center for Domestic Preparedness in 
Anniston, Alabama, the New Mexico Institute of Mining and Technology, 
Louisiana State University, Texas A&M University, and the Department of 
Energy's Nevada Test Site; each member brings a unique set of assets to 
the domestic preparedness program. The following is brief description 
of each member and their expertise:
  --Center for Domestic Preparedness (CDP) (Fort McClellan).--The CDP 
        provides hands-on specialized training to state and local 
        emergency responders in the management and remediation of WMD 
        incidents. Located at the former home of the United States Army 
        Chemical School, Fort McClellan, the CDP conducts live chemical 
        agent training for the nation's civilian emergency response 
        community. The training emergency responders receive at the CDP 
        provides a valid method for ensuring high levels of confidence 
        in equipment, procedures, and individual capabilities.
  --New Mexico Institute of Mining and Technology (National Energetic 
        Materials Research and Testing Center) (NMIMT).--NMIMT offers 
        live explosive training including the use of field exercises 
        and classroom instruction. NMIMT is the lead NDPC partner for 
        explosives and firearms, live explosives, and incendiary 
        devices training.
  --Louisiana State University (LSU) (Academy of Counter-Terrorist 
        Education).--LSU provides training to law enforcement agencies 
        and focuses its efforts on the delivery of the Emergency 
        Response to Terrorism: Basic Concepts for Law Enforcement 
        Course, and the development and delivery of the Emergency 
        Response To Domestic Biological Incidents Course.
  --Texas A&M University (National Emergency Response and Rescue 
        Training Center).--Texas A&M delivers a set of courses to 
        prepare public officials, emergency medical services, law 
        enforcement, fire protection, and public works for the threat 
        posed by WMD. Courses are developed and designed to provide 
        each specific segment of the emergency response community with 
        the tools needed to accomplish its role in the event of a WMD 
        incident. Additionally, Texas A&M has developed an Interactive 
        Internet WMD Awareness Course for emergency responders. Texas 
        A&M also provides technical assistance to state and local 
        jurisdictions in the development of WMD assessment plans.
  --United States Department of Energy's Nevada Test Site (National 
        Exercise, Test, and Training Center) (NTS).--NTS conducts large 
        scale field exercises using a wide range of live agent 
        stimulants as well as explosives. NTS develops and delivers a 
        Radiological/Nuclear Agents Course. NTS, in coordination with 
        OSLDPS, is establishing the Center for Exercise Excellence. The 
        Center will allow NTS to train jurisdictions in the planning 
        and conduct of exercises, tailored to the unique threats faced 
        by participating jurisdictions. The Center will provide a 
        critically needed new component of the overall exercise 
        training program, meeting those special exercise needs as the 
        state and local jurisdictions define their exercise priorities.
Other Training Partners
    The National Terrorism Preparedness Institute (NTPI).--NTPI, an arm 
of the Southeastern Public Safety Institute at St. Petersburg Junior 
College, delivers a satellite-based training program titled CoMNET 
(Consequence Management News, Equipment, and Training) to the nation's 
civilian and military emergency response communities. CoMNET is a news 
magazine style show providing WMD-related awareness information. This 
program is a joint effort between OSLDPS, the Combating Terrorism 
Technology Support Office Technical Support Working Group, and the 
Consequence Management Program Integration Office within DOD.
    Pine Bluff Arsenal (PBA).--PBA provides mobile training teams that 
deliver on-site technical assistance and training to state and local 
jurisdictions on the calibration, use, and maintenance of their 
radiological, chemical, and biological detection and response 
equipment.
    The National Sheriffs' Association (NSA).--NSA delivers an 
executive level introductory training program for sheriffs on domestic 
preparedness for WMD incidents. This course introduces and discusses 
the issues that a sheriff will confront in responding to a WMD 
incident, and provides training on pre-incident collaborations/
preparations that can be implemented to improve incident response.
    In addition, OSLDPS provides training through its work with the 
Metropolitan Fire Fighters and Emergency Medical Services Program, and 
other public and private organizations such as the National Governors 
Association, International Association of Fire Fighters, and the 
National Emergency Management Association.
    Question. What more should the Federal Government be doing to 
prepare for potential terrorist incidents?
    Answer. The Department's 5-Year Interagency Counterterrorism and 
Technology Crime Plan outlines the Federal Government's comprehensive 
plan to prepare for and address terrorist threats. The 5-Year Plan 
contains concrete steps necessary to advance targeted research and 
development efforts; prevent, deter, and reduce vulnerabilities to 
terrorism and improve the capabilities of law enforcement agencies to 
respond cooperatively to terrorist acts; integrate crisis and 
consequence management; protect our national information 
infrastructure; and improve state and local capabilities for responding 
to terrorist acts, including acts involving weapons of mass destruction 
(WMD). This Administration is currently reviewing the counterterrorism 
program to determine what changes, if any, would be beneficial.
    To prepare for potential terrorist incidents, the Federal 
Government must strive to reduce our vulnerability to terrorist 
threats, including the threat of weapons of mass destruction (WMD) and 
cyber attack on the nation's critical infrastructures. In addition to 
preventive measures, we must also have in place the capability to 
respond to and deal effectively with the consequences of the use of 
such weapons.
    One facet of our national strategy is federal assistance to state 
and local agencies in the area of terrorism preparedness. The 
Department of Justice, through the Office of Justice Programs, provides 
significant assistance to state and local authorities by funding 
training, purchase of equipment, participation in exercises, and 
research and development to augment state and local capabilities.
    On May 8, 2001, the Administration announced its intention to 
create a new Office of National Preparedness within the Federal 
Emergency Management Agency (FEMA). Currently, a task force headed by 
Vice President Cheney has been asked to develop a coordinated national 
effort to bolster our national preparedness to address terrorist 
events. The Task Force's recommendations are expected in October 2001.
    Assistance to state and local agencies is but one facet of a 
national strategy; another is the federal operational response, which 
is structured for crisis and consequence management. Federal 
interagency cooperative efforts have culminated in the ``Guidelines for 
the Mobilization, Deployment, and Employment of United States 
Government Agencies in Response to a Domestic Threat or Incident of 
Terrorism in Accordance with Presidential Decision Directive (PDD)-39'' 
and the ``United States Government Interagency Domestic Terrorism 
Concept of Operations Plan (CONPLAN).'' The CONPLAN, ratified in 
January 2001, is designed to provide overall guidance to federal, 
state, and local agencies concerning how the Federal Government would 
respond to a potential or actual terrorist threat or incident that 
occurs in the United States, particularly one involving WMD.
    Question. Does the Administration's cybercrime initiative address 
this issue?
    Answer. With regard to cyberterrorism, it is important to recognize 
that the Department prepares for cyberterrorism by enhancing its 
abilities to investigate cybercrime. In brief, when a cyber-attack 
first occurs, it is not immediately clear whether the attack is state-
sponsored cyber-warfare, cyberterrorism by a transnational 
organization, or non-terrorist criminal activity, either domestic or 
foreign. Calling an event ``terrorism'' connotes a political or 
philosophical motive that is rarely ascertainable at the start of a 
cyber event. Therefore, DOJ thinks of ``computer crime'' as a larger 
set of cases that include ``cyber-terrorism.'' The personnel and legal 
tools used, at least initially and most often on a continuing basis, to 
investigate the crime are the same, although additional tools can be 
brought into play when appropriate predicates are met. Thus, the 
Department's cybercrime initiative, which involves enhancing the 
government's ability to investigate and prosecute cybercrime, directly 
addresses preparing for potential terrorist incidents.
    When cyber-based attacks on critical infrastructures do occur, DOJ 
is prepared through its efforts on both the cybercrime initiative and 
the National Plan for Information Systems Protection to respond 
quickly. First, DOJ's roles and responsibilities for initial response 
to such attacks are primarily borne by the National Infrastructure 
Protection Center (NIPC) in the FBI, which provides investigative 
support for all types of criminal and terrorist attacks on computer 
systems. Second, attorneys from the Computer Crime and Intellectual 
Property Section of DOJ's Criminal Division and Assistant United States 
Attorneys around the country work closely with the FBI and NIPC to 
conduct timely investigations, as little or no domestic investigation 
into such attacks can be undertaken without the use of subpoenas, or 
court orders to provide information, or wiretap requests. Accordingly, 
DOJ has, through the Computer and Telecommunications Coordinator (CTC) 
program, ensured that at least one prosecutor with expertise in online 
investigations (and who receive regular training and support by the 
Criminal Division's Computer Crimes and Intellectual Property Section 
(CCIPS)) are located in each of the 94 United States Attorneys Offices 
throughout the United States. These CTCs work closely with CCIPS, FBI, 
and NIPC specialists to respond to and investigate computer crime and 
computer terrorist attacks.
    With regard to response by state and local law enforcement, both 
NIPC and CCIPS consider participating in the training of state and 
local law to be a critical part of their missions. Both participate in 
the National Cybercrime Training Partnership, for example, an effort 
funded by the Bureau of Justice Assistance to develop modular 
cybercrime training usable by state, local and federal entities.
    The Department's counterterrorism efforts also include coordination 
with other agencies, private industry, and other governments and 
international organizations to protect our critical information 
infrastructure. The National Security Council (NSC) has established a 
Policy Coordinating Committee on Counter-Terrorism and National 
Preparedness, which, besides the Counter-Terrorism and Security Group, 
also has a subgroup specifically devoted to Information Infrastructure 
Protection and Assurance. DOJ coordinates with these groups and their 
subgroups on both prevention and incident response, as appropriate. In 
addition, DOJ works in close cooperation with other centers of 
expertise within the private sector and the Federal Government, 
including both the NSC's National Coordinator for Security, Critical 
Infrastructure and Counter-Terrorism and the Critical Infrastructure 
Assurance Office. DOJ is involved in counterterrorism coordination at 
the international level, under the leadership of the State Department, 
including representation of United States law enforcement and 
prosecutorial interests in multilateral groups such as the G-8 
Counterterrorism Experts Group and in bilateral meetings with 
counterterrorism officials of other nations. The FBI's Legal Attaches 
assigned to United States embassies throughout the world, also play a 
key role in counterterrorism issues that arise in the nation or region 
they cover.
    Moreover, under PDD-63, the FBI was given the role of coordinating 
the provision of emergency law enforcement services, or ELES, in the 
event of an attack on critical infrastructures. The FBI and NIPC have 
worked closely with a group of state and local law enforcement 
personnel to develop a response plan for that sector. A draft sector 
plan was issued in March 2001, and was held up as a model for other 
sector plans at the Partnership for Critical Infrastructure Security 
conference held March 20-21, 2001. Similarly, other agencies are 
working with industry in their designated sectors to develop plans for 
protecting infrastructures from cyber attacks and responding to them. 
These sectoral plans also provide input into the National Plan for 
Information Systems Protection, version 1.0 of which was released on 
January 15, 2000, and which the United States Government intends to 
update periodically with additional information and programs to respond 
to the changing technology and threats in this area.
        black tar heroin drug trafficking in northern new mexico
    Question. This Subcommittee has been very helpful over the past 2 
years in tackling an issue of great concern to me. That issue is the 
serious ``black tar'' heroin problem that has plagued several northern 
New Mexico counties.
    Both the FBI and DEA have cooperated with the state and local law 
enforcement officials in New Mexico to try to break the serious cycle 
of Black Tar Heroin Trafficking and use. Several major drug busts have 
been implemented in this area of New Mexico.
    Would you please give the Subcommittee the Department's assessment 
of the progress these joint law enforcement operations in breaking the 
Black Tar Heroin ring in Northern New Mexico?
    Answer. In December 1999, the Special Operations Division initiated 
``Operation Tar Pit'', a multi-jurisdictional investigation targeting a 
Mexican heroin trafficking organization. The FBI's Albuquerque 
Division, the Drug Enforcement Administration (DEA) and the New Mexico 
State Police (NMSP) with other local law enforcement agencies (LEAs) in 
northern New Mexico have focused this investigation on a well 
entrenched heroin distribution organization controlled by individuals 
from Tepic, Nayarit, Mexico. Primarily, this organization smuggles 
multi-kilogram quantities of high purity Mexican black tar heroin from 
Mexico into the United States along the California and Arizona borders. 
However, one of the organization's primary distribution cells was 
located in northern New Mexico. The organization routinely sent 
couriers and distributors from Nayarit to the United States to 
transship and sell heroin. After approximately 6 months, the leaders of 
the organization would order the distributors back to Mexico and other 
individuals would be sent as replacements.
    On June 15, 2000, a nationwide takedown of Operation Tar Pit 
targets occurred in several cities throughout the United States. In New 
Mexico, 34 subjects were arrested and prosecuted, with all of these 
subjects convicted of drug-related offenses. To date, Operation Tar Pit 
has resulted in the seizure of approximately 64 pounds of high purity 
black tar heroin, $300,000, numerous vehicles, 10 weapons, one 
residence, and the arrest of 249 individuals.
    In fiscal year 2001, the FBI allocated 21 agents to the Albuquerque 
Division and local resident agencies to address the drug problem. The 
Albuquerque Division has two agents assigned to the DEA task force. 
This task force relationship maximizes both the FBI's and the DEA's 
investigative efforts in the Northern New Mexico area. Additionally, 
the Albuquerque Division's Assistant Special Agent in Charge is the 
Chairman of the New Mexico High Intensity Drug Trafficking Area (HIDTA) 
Executive Board.
    Together with DEA and other LEAs, the FBI has been working closely 
to address the full scope of the Northern New Mexico drug problem. 
Traditionally, northern New Mexico's primary illegal drug threat has 
been the transshipment and distribution of cocaine and black tar 
heroin. In recent years, however, the manufacture, transshipment and 
distribution of methamphetamine has developed into a significant, if 
not epidemic, problem in New Mexico. Mexican drug trafficking 
organizations smuggle bulk quantities of methamphetamine into the state 
from labs in Mexico and California. Law enforcement agencies have also 
discovered an increased number of methamphetamine laboratories being 
operated in the state. Two laboratories seized in 2000 were ``super 
labs,'' capable of producing over ten pounds of the drug per production 
run.
    In February 2001, the Albuquerque Division of the FBI, in 
conjunction with the DEA and local law enforcement agencies, culminated 
the first phase of a 16-month drug investigation with the arrests of 25 
federal subjects and 35 state subjects. The subjects were members of a 
drug trafficking organization described as the primary source of 
cocaine in northern New Mexico. The organization was transshipping 
cocaine from Mexico and California to distribution organizations in 
northern New Mexico and other areas of California. The organization was 
also associated with two drug trafficking organizations on the FBI's 
National Priority Target List.
    The FBI, DEA, NMSP and the various state and local law enforcement 
agencies continue to work closely together to target heroin 
distribution organizations operating in northern New Mexico. These 
investigations, in conjunction with ``Operation Tar Pit,'' have greatly 
reduced the availability of black tar heroin and its associated crime 
problems. Also, multi-agency efforts targeting multiple organized 
criminal enterprises involved in drug trafficking show considerable 
result and only through a sustained multi-agency effort will LEAs be 
able to eliminate the distribution and use of heroin as a major drug 
problem in northern New Mexico.
                           ins restructuring
    Question. The Immigration and Naturalization Service's (INS) 
mission involves carrying out two primary functions. One is an 
enforcement function that involves preventing aliens from entering the 
United States illegally and removing aliens who succeed in doing so. 
The other is a service function that involves providing services or 
benefits to facilitate entry, residence, employment, and naturalization 
of legal immigrants.
    Several critics have concluded that mission overload has impeded 
INS from succeeding at either of its primary functions and that INS' 
service and enforcement functions should be separated in order to 
better administer immigration law. Consequently, there have been 
several proposals to fundamentally restructure INS.
    What is your view of how the federal immigration function should be 
organized in order to effectively and efficiently administer the 
Immigration laws?
    Can you give this committee any idea of what kind of financial 
obligation the federal government might have to undertake in order to 
achieve the goal?
    Answer. Recognizing that the Nation's immigration system must be 
significantly strengthened and with the support of Congress, in 1998 
and 1999, the INS engaged in a comprehensive review of the way it does 
business with the purpose of developing proposals for the restructuring 
of the agency in such a manner as to ensure a balance between its dual 
critical missions of preventing illegal migration on one hand and 
providing services to those who wish to enter the country legally on 
the other. President Bush, in his ``Blueprint for New Beginnings'' 
which was issued in February recognized the challenges faced by the INS 
and proposed a splitting of the agency into separate enforcement and 
immigration services entities each reporting to a single policy leader 
in the Department of Justice. The costs related to implementing this 
restructuring have not been determined.
    I am prepared to work closely with the Congress to ensure that 
those structural changes that are necessary for the INS to fulfill its 
vital enforcement and service responsibilities more effectively are 
implemented in the most reasonable and cost effective manner possible.
    Question. Although Congress has more than doubled INS' budget and 
staffing levels since 1993, INS has had ongoing problems both managing 
its programs and achieving results. For example, INS has clamped down 
in certain locations, such as San Diego and El Paso, but instead of 
deterring illegal immigration, these efforts seem to have simply 
shifted the illegal traffic to areas such as El Centro, California and 
Yuma, Arizona, as well as some significant trouble spots in my home 
state of New Mexico.
    I am pleased to see that the new Administration will continue to 
support the Southwest Border Initiative in fiscal year 2002. One of the 
primary goals of this initiative is to respond quickly to the 
continuously changing locale of significant border problems. Whether it 
be funding for a new Border Patrol station or a new service processing 
center, the Southwest Border Initiative is a valued program that 
effectively deals with the complex world of immigration law.
    I would be curious to know your views on the Southwest Border 
Initiative, both good and bad, and whether or not the Justice 
Department will continue to support this vital program in the future.
    Answer. The Justice Department supports the Southwest Border 
Initiative as summarized in the President's blueprint for the fiscal 
year 2002 budget. The President's plan provides for 570 Border Patrol 
agents in each of fiscal year 2002 and fiscal year 2003, along with 
needed technology. The 1,140 new agents would complete staffing of the 
5,000 new agents Congress authorized INS to hire beginning in fiscal 
year 1997 as part of the Southwest Border Initiative.
    INS has been bringing the major corridors of illegal migrations 
under control, and is currently in Phase II (Tucson, Laredo, Del Rio, 
McAllen Sectors) of the Border Patrol National Strategy. The success of 
border control rests greatly on the combination of appropriate levels 
of Border Patrol agents, technology, and enforcement infrastructure. In 
fiscal year 2001, we are seeing indications that deterrence is working.
    Unfortunately we are continuing to experience attempts to cross the 
most dangerous and remote areas of the border. These attempts have 
resulted in significant border safety issues. We have been working with 
many Mexican government officials to educate and discourage migrants 
from making these dangerous entries. The Border Patrol is being 
trained, and when needed, deployed to sites in order to act as rescue 
teams, to save lives when migrants don't heed these warnings or are 
lead into danger by smugglers that have no regard for human life.
                          combating terrorism
    Question. The Bush Administration has indicated that it intends to 
continue a plan based on a Clinton presidential directive from 1995 
that outlines how the Federal Government intends to respond to 
terrorism, particularly acts that involve chemical or biological 
warfare. This plan also provides guidance for federal, state, and local 
agencies on preparing for and dealing with potential threats and 
incidents. The Federal Bureau of Investigation (FBI) and the Federal 
Emergency Management Agency (FEMA) will take the lead in handling 
domestic threats and acts.
    Clearly, this is a very important issue and I certainly support the 
idea of funding efforts to protect all Americans from deadly acts of 
domestic terrorism.
    Simply from a funding viewpoint, my question is this Mr. Attorney 
General--how will the Justice Department calculate its request for this 
initiative each fiscal year and, specifically, would the terrorist 
threat levels discussed in the strategic plan play a part in any one 
year's funding request? Put more simply, do you think funding for 
combating terrorism should be threat-driven?
    Answer. The 5-Year Interagency Counterterrorism and Technology 
Crime Plan encompasses a program for national readiness to address a 
broad range of terrorist threats. To be effective, this program needs 
to be maintained consistently over time, rather than be a function of 
the variations in annual funding. While flexibility to respond to 
specific, emerging threats is necessary, consistent baseline funding 
for the broad range of potential threats is imperative.
                  linking doj's budget to performance
    Question. According to the 2002 budget, the Administration has 
mandated that agencies use performance-based budgeting on selected 
programs in the fiscal year 2003 budget cycle.
    Under this mandate, agencies will be required to submit 
performance-based budgets for selected programs in the fiscal year 2003 
budget process, the first time agencies have been required to tie their 
spending decisions to performance goals.
    As you have discovered in your new position, the Department of 
Justice was among the poorest performers under the criteria by which 
performance plans were reviewed by the GAO as well as in the Mercatus 
evaluation.
    Please tell me what specific steps you see necessary to improve the 
Department's performance plan and how this will be coupled to the new 
mandate.
    Answer. Each year, the Department of Justice has worked to improve 
its performance plans and reports. Although last year's report was not 
favorably reviewed by GAO and the Mercatus Center, we are confident 
that our ratings will improve this year. In fact, on May 16 we received 
our score from the Mercatus Center on its review of the fiscal year 
2000 Performance Report. The Department of Justice rose from 21st place 
to 5th place governmentwide; our score improved by 15 points. 
Notwithstanding this positive feedback, we will continue to work 
diligently to improve our performance plan for fiscal year 2003.
    To improve the overall performance management process at the 
Department, I have established the Strategic Management Council. This 
Council will serve as the formal board within the Department to provide 
direction and leadership on long-range planning and initiatives. The 
Council will formulate and oversee the planning, programming and 
budgeting process for the Department. The Council will reinforce the 
linkages among the Department's Strategic Plan, Performance Plan, and 
budget process. Development of this Council marks the renewal of an 
integrated management system for the Department, and will ensure that 
the Administration's policies and priorities are successfully 
implemented.
    Question. Do you have preliminary thoughts on which programs will 
be chosen for performance-based budgeting?
    Answer. We are working with the Office of Management and Budget to 
determine which programs will be chosen for performance-based pilots. 
Preliminarily, we are considering the INS--benefits services, Bureau of 
Prisons--prison capacity, and counterterrorism as potential candidates 
for performance-based budgeting pilots.
          continued operating and management problems for ins
    Question. The U.S. Immigration and Naturalization Service has long 
been the target of inquiries concerning its operation and management.
    Last week, the DOJ Inspector General (IG) released the results of a 
review which gathered information over the past 3 years concerning the 
INS' ability to account for weapons and computers. The DOJ IG noted 
that the agency could not account for 61,000 items worth about $70 
million. These items included 539 weapons and 12,000 laptop, desktop, 
and notebook computers. The IG criticized the agency for its failure to 
require inventories of agency equipment and the failure of INS 
officials to ``adequately safeguard property.'' It concluded, ``without 
immediate corrective action, property will remain at substantial 
risk.''
    A number of these computer-related operating deficiencies were 
supposed to improve following the March 2000 IG report that also found 
serious deficiencies. Subsequently, extensive computer-training 
programs and an updated record-keeping procedure were implemented 
within the agency.
    However, based on this IG finding and as you have discovered in 
this new position, these operating problems continue to persist.
    Please tell me what specific steps you see necessary to improve the 
agency's performance in this regard.
    Answer. The Office of the Inspector General (OIG) audit report 
finding is based on 1998 data. The Service has already taken steps to 
address the problems it identified in that report.
    INS re-engineered the inventory process in 1998, reducing the 
administrative burden while focusing limited resources on high-risk, 
high-dollar property, including computers and firearms.
    Since 1998, all personal property with an original cost of more 
than $5,000 and all firearms are inventoried annually. The accuracy of 
those inventories are certified by senior managers (i.e., Management 
Team members, District Directors, Chief Patrol Agents, etc.). The 
inventories are then independently reconciled and audited.
    Of the 539 firearms the OIG identified as lost, stolen or missing, 
43 weapons were found, 131 were confirmed as lost or stolen, and 87 
were determined to be typographical or database entry errors. The 
remaining 278 cases are under investigation.
    Other selected property, including all computer and related 
equipment with memory acquired for less than $5,000, is inventoried 
biennially. Those inventories are also certified as accurate by the 
Service's senior management. The first cycle of biennial inventories 
ended on September 30, 2000. Their accuracy will be evaluated through 
the INSpect program and property management reviews.
    The INS has passed the Chief Financial Officers' Act audit for 
capitalized personal property each of the last 3 years.
    The INS is implementing all recommendations from the OIG audit 
report.
    Question. Do you consider these weaknesses as candidates for 
performance-based budgeting?
    Answer. Contained within the INS Strategic Plan, under Strategic 
Objective 4.6, Immigration Infrastructure, is Program Strategy 4.6.4, 
``Maximize use of available and potential financial resources through 
improved controls over assets, payables and receivables''. ``Improved 
controls over assets'', include all INS inventories and serve as the 
performance motivator driving the changes and improvements discussed 
above under question number one.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell
                               oxycontin
    Question. As you may know, in recent months several states in the 
South and Midwest, including Kentucky, have witnessed an epidemic of 
illegal distribution and use of the prescription painkiller, OxyContin. 
Recently, there have been hundreds of arrests of OxyContin drug dealers 
in my home state of Kentucky. And the abuse of this controlled 
substance has already led to hundreds of deaths around the country and 
scores of fatalities in Kentucky alone. The illegal use and 
distribution of OxyContin is a serious problem for our country. Do you 
see the need for a federal role in the efforts to prevent the illicit 
prescription, sale, and use of this drug? If so, what is that role? 
More specifically, do you have any programs already established, or are 
you beginning to develop initiatives, to help deal with this problem? 
If so, what are they? What would you need from Congress to expand those 
programs or implement those initiatives?
    Answer. The purpose of the Drug Enforcement Administration's 
Diversion Control Program is to prevent, detect and investigate the 
diversion of controlled substances from legitimate channels, while at 
the same time, ensuring an adequate and uninterrupted supply of 
controlled substances required to meet legitimate needs. The Chemical 
Diversion and Trafficking Act of 1988 extended this control to include 
those chemicals most often used for the manufacture and synthesis of 
drugs of abuse.
    The Office of Diversion consists of diversion investigators, 
special agents, chemists, pharmacologists, program analysts and others. 
The office's activities include: program priorities and field 
management oversight; coordination of major investigations; drafting 
and promulgating of regulations; establishment of national drug 
production quotas; design and execution of diplomatic missions; United 
States obligations under drug control treaties; design and proposal of 
national legislation; advice and leadership on state legislation/
regulation; legal control of drugs and chemicals not previously under 
federal control; control of imports and exports of drugs and chemicals; 
computerized monitoring and tracking the distribution of certain 
controlled drugs; providing distribution intelligence to the states; 
industry liaison and program resource planning and allocation.
    Many of the narcotics, depressants and stimulants manufactured for 
legitimate medical use are subject to abuse, and have therefore been 
brought under legal control. Under federal law, all businesses which 
manufacture or distribute controlled substances, all health 
professionals entitled to dispense, administer or prescribe them and 
all pharmacies entitled to fill prescriptions must register with the 
DEA. Registrants must comply with a series of regulatory requirements 
relating to drug security, record accountability and adherence to 
standards.
    The DEA is obligated under international treaties to monitor the 
movement of licit controlled substances across United States borders 
and for issuing import and export permits for that movement. The DEA 
also devises ways to deal with problems of international drug 
diversion. Diversion cases involve, but are not limited to, physicians 
who sell prescriptions to drug dealers or abusers; pharmacists who 
falsify records and subsequently sell the drugs; employees who steal 
from inventory; executives who falsify orders to cover illicit sales; 
prescription forgers and individuals who commit armed robbery of 
pharmacies and drug distributors. At present, the largest problem 
results from the criminal activity of physicians and pharmacy 
personnel.
    OxyContin is manufactured exclusively by Purdue Pharma 
headquartered in Norwalk, Connecticut. It was introduced in 1996 and 
had total sales of $26 million in the first eight months. Sales now 
total $1 billion. OxyContin, which is manufactured in 10 milligram, 20 
milligram, 40 milligram, 80 milligram, and 160 milligram tablets, is a 
12-hour controlled-release form of the Schedule II drug, oxycodone. It 
is legitimately prescribed for people with chronic moderate to severe 
pain, such as arthritis, back conditions, cancer, etc. It is also used 
post-operatively for pain relief. OxyContin has become the drug of 
choice in many pain management clinics. The controlled release 
formulation of OxyContin has become popular among drug abusers because 
(a) it contains larger and reliable doses of active ingredient; (b) the 
tablet formulation is easily compromised; and (c) prescriptions are 
often covered by the abuser's health insurance. It is referred to by 
abusers as ``pharmaceutical heroin.'' Street names are ``C'', 
``Oxycotton'' and ``OC''. OxyContin in toxic amounts causes respiratory 
depression and arrest.
    The abuse of OxyContin in Kentucky has set off a wave of pharmacy 
break-ins, employee pilferage, emergency room visits and arrests of 
physicians and other health care workers. The Kentucky State Health 
Department Records show that the amount of OxyContin dispensed in the 
state almost doubled from 1999 to 2000. Kentucky now ranks 13th 
nationally in per capita consumption of oxycodone. The Kentucky State 
Division of Substance Abuse reports that up to 90 percent of the 1,100 
people enrolled in the state's methadone program got there by using 
prescription drugs, particularly OxyContin. One Kentucky Police 
Department reports that OxyContin abuse has become so prevalent that 85 
to 90 percent of their field work is OxyContin-related. The illegal 
selling price of OxyContin in southeast Kentucky is $1 per milligram 
plus $5 added to the total amount. Thus a 40 milligram tablet costs 
$45; an 80 milligram tablet costs $85. OxyContin 80 milligram tablets 
are being split in half and sold as two 40 milligram tablets. Law 
enforcement personnel in the state are now seeing some evidence of 
OxyContin coming from Mexico.
    Initiatives have been taken in the state of Kentucky to deal with 
the OxyContin problem.
  --The Governor of Kentucky appointed a task force consisting of 
        several state law enforcement agencies to combat the illegal 
        trafficking of OxyContin. Residents in 3 counties, Bell, Knox 
        and Perry, have conducted meetings to discuss strategy in 
        fighting the abuse. Bell County had such a large turnout that 
        the meeting was held at a baseball field. One woman has 
        spearheaded a grass root committee and formalized a petition to 
        commit individuals to unite against this problem. Additionally, 
        businessmen in Perry County have raised $20,000 to help in this 
        fight and to educate people regarding the dangers of OxyContin 
        abuse.
  --Federally, the DEA has a district office located in Louisville, KY, 
        2 resident offices, (one in Lexington and the other in London, 
        KY), and a Post of Duty in Madisonville, KY. These offices are 
        staffed with 19 special agents, 7 diversion investigators, 2 
        intelligence specialists, 5 clerical assistants and 1 contract 
        data analyst. DEA participates in a High Intensity Drug 
        Trafficking Area (HIDTA) Intelligence Group and a Provisional 
        Task Force operating out of the Appalachian HIDTA Headquarters 
        in London. The DEA has played a prominent role in attempting to 
        curb the OxyContin trafficking in Kentucky as shown in the 
        following 3 cases:
    --A single physician responsible for the dispensing of over 79,000 
            dosage units of Schedule 2 drugs (primarily OxyContin) and 
            over 1.7 million dosage units of Schedule 3 hydrocodone 
            products was indicted in January, 2001. The doctor and his 
            wife have pled guilty to charges of conspiracy and illegal 
            distribution of controlled substances in federal court. 
            Sentencing of the pair and additional indictments are 
            pending.
    --A long standing ``pill house'' where pharmaceutical drugs were 
            illegally bought and sold was investigated and the owners 
            successfully arrested and prosecuted. The investigation 
            resulted in 12 guilty pleas in federal court to conspiracy 
            to distribute drugs or possession with intent to 
            distribute. Property and cash with a value of over $1.5 
            million was forfeited last year.
    --A forgery ring involved in passing stolen hospital prescriptions 
            for OxyContin has been identified and immobilized. Members 
            of the organization, which included a registered nurse, 
            were responsible for obtaining approximately 5,000 
            OxyContin tablets illegally. Indictments are pending.
    The Assistant United States Attorney in Kentucky has established a 
50 dosage unit criteria as the basis for prosecuting an OxyContin case. 
HIDTA has given money to local enforcement authorities to support their 
OxyContin investigations. DEA continues to work with federal, state and 
local law enforcement to identify doctors who are prescribing OxyContin 
excessively and has requested that the Kentucky Pharmacy Board notify 
all pharmacies to scrutinize OxyContin prescriptions before filling. 
They are also being reminded to report pharmacy thefts to DEA.
    DEA is concerned over field reports of Purdue Pharma's aggressive 
marketing practices. It is reported that Purdue recruits doctors by 
giving them paid trips and speaking engagements at seminars sponsored 
by the company. These seminars are designed to encourage the 
prescribing of OxyContin for pain treatment. In recognition of this 
nation-wide problem and in a show of support for DEA's endeavors, 
Purdue Pharma has voluntarily suspended further distribution of 
OxyContin 160 milligram tablets. Still, DEA has developed a four part 
OxyContin action plan on a national level. The elements of this plan 
are as follows:
  --Enforcement and Intelligence.--Coordinated operations have been 
        initiated in field offices to target individuals and 
        organizations involved in the diversion and abuse of OxyContin. 
        This includes coordination with federal, state and local 
        agencies.
  --Regulatory and Administrative.--DEA is utilizing the full range of 
        its regulatory and administrative authority in pursuing action 
        that will make it more difficult for abusers to obtain 
        OxyContin. DEA will work closely with the Food and Drug 
        Administration (FDA) to strongly urge the rapid reformulation 
        of OxyContin by Purdue Pharma, to the extent that it is 
        technically possible, in order to reduce the abuse of the 
        product, particularly by injection.
  --Industry Cooperation.--DEA continues to stress the importance of 
        voluntary cooperation from industry in adhering to the spirit 
        and substance of existing law and regulation. The agency is 
        increasing its cooperative efforts with all levels of industry 
        in order to stem the abuse and diversion of OxyContin. As the 
        sole manufacturer of OxyContin, the cooperation of Purdue 
        Pharma is integral to the success of DEA's action plan.
  --Awareness/Education/Outreach Initiatives.--An aggressive, national 
        outreach effort will be made to educate the general public, 
        schools, the healthcare industry and state and local 
        governments on the dangers related to the abuse of OxyContin.
    The diversion and abuse of legitimate controlled substances 
continues to be a threat to the health and safety of the citizens of 
the United States. This type of diversion occurs mainly at the 
pharmacy/physician level of the pharmaceutical distribution chain. 
Numerous individuals and groups divert legitimate controlled substances 
using various fraudulent prescription schemes. Additionally, certain 
health care professionals become involved in this diversion and abuse 
through theft, over-prescribing, prescription schemes and illegal sale.
                                 ______
                                 
         Questions Submitted by Senator Ben Nighthorse Campbell
         department of justice response to international crime
    Question. What types of international crime are of principal 
concern to the Department of Justice (DOJ), and what is the basis for 
this concern? In overall terms, given that there are likely to be 
competing demands among the different types of international crime that 
are of concern, how do you propose to set priorities in addressing 
these crimes?
    Answer. The Department is particularly concerned about 
international organized crime and terrorist groups that engage in 
criminal conduct with direct effects on the United States and its 
citizens, including drug trafficking, terrorism, money laundering, and 
other traditional criminal activity. Emerging criminal areas such as 
cybercrime, including hacking, theft of intellectual property, child 
pornography, the infiltration of brokerages to manipulate stock 
markets, internet gambling, and the increasing infiltration of 
legitimate businesses are also areas of great concern.
    The December 2000 inter-agency International Crime Threat 
Assessment is one of many resources relied upon by the Department in 
order to set priorities in addressing international crime. The Federal 
Bureau of Investigation, the Drug Enforcement Administration, and the 
Criminal Division also conduct more specific threat assessments, survey 
domestic and international field offices, review intelligence 
reporting, and liaison with foreign law enforcement organizations, in 
order to identify international criminal enterprises which pose the 
greatest threats to the nation.
    The Department's priorities also emerge out of our on-going 
experience in addressing international crime, the principal dimensions 
of which can be summarized as follows:
  --Domestic Prosecution of International Crime.--The United States 
        Attorneys Offices and the litigating sections of the Criminal 
        Division prosecute international criminal activity that 
        violates our federal laws, including international organized 
        criminal activity, narcotics offenses, money-laundering, cross-
        border fraud, transnational computer crime, alien smuggling, 
        terrorist financing, and transborder trafficking in humans. The 
        Criminal Division also provides critical technical assistance, 
        oversight, and coordination for prosecutors in cases involving 
        fugitives, money-laundering and forfeiture, and evidence 
        located abroad as well as in multi-district investigations 
        against international criminal organizations. The knowledge, 
        experience, and lessons learned from these cases play a major 
        role in helping define Departmental priorities.
  --International Prosecutorial Cooperation.--DOJ's Criminal Division 
        leads the development of international cooperation in 
        prosecuting international crime. The Division negotiates all 
        law enforcement treaties and agreements, including bilateral 
        extradition and mutual legal assistance treaties, and 
        multilateral treaties, such as the recently completed 
        Transnational Organized Crime Convention and the United Nations 
        International Convention for the Suppression of Terrorist 
        Financing. In negotiating these treaties, the Criminal Division 
        works in tandem with the Department of State and, where 
        appropriate, other Departments. The Criminal Division is also 
        responsible for the implementation of these treaties and 
        agreements. In this latter capacity, the Criminal Division 
        processes all outgoing and incoming requests for extradition 
        and formal mutual legal assistance, on both the federal and 
        state level; thus, the Criminal Division is the channel for law 
        enforcement assistance beyond what can be rendered through 
        informal police-to-police channels. In addition, in the areas 
        of narcotics and money laundering, the Criminal Division 
        conducts a rigorous bilateral case development program with 
        several countries--primarily those within this hemisphere. In 
        connection with terrorism matters, the Department conducts 
        ongoing, bilateral case development efforts with numerous 
        countries in Europe, Asia, North America and the Middle East. 
        The Criminal Division also participates in numerous 
        international fora, through which we work with our law 
        enforcement partners to develop coordinated strategies to 
        address particular problems in transnational crime enforcement 
        and to bring collective pressure to bear on other nations to 
        comply with important standards in combating international 
        crime. More generally, the Criminal Division reviews, and 
        provides advice on, sensitive international law enforcement 
        issues. The Department's cooperative relationships with 
        international counterparts provide valuable insights into the 
        nature and extent of international crime threats and the 
        effectiveness of measures to address them.
  --Responsibility for International Law Enforcement Training And 
        Assistance.--The Criminal Division provides technical legal and 
        legislative drafting assistance, leadership and administrative 
        support for rule of law development as it relates to training 
        of foreign prosecutors and (together with federal law 
        enforcement agencies) training and institutional development of 
        foreign police and prosecutorial forces. This assistance 
        includes not only developing and strengthening police, criminal 
        investigative and prosecutorial institutions, and training of 
        police, criminal investigators and prosecutors; but also advice 
        in drafting modern criminal legislation that gives foreign 
        police and prosecutorial agencies the statutory powers 
        necessary for effective response to transnational organized 
        crime. Much of this assistance is funded through the State 
        Department, but also involves technical review from legal 
        experts in the Criminal Division, funding from such sources as 
        the Assets Forfeiture Fund, and participation in training 
        sponsored by other law enforcement agencies. Through its 
        prosecutorial and police institution building and training, the 
        Criminal Division helps create more stable and effective 
        foreign counterparts--counterparts that can fight crime within 
        their own countries before it becomes an international threat, 
        and that also can cooperate with the United States in fighting 
        crime that already has crossed national boundaries. The 
        exchange of information that occurs in the course of the 
        Department's international training programs helps identify 
        long-range law enforcement training and institutional 
        development priorities.
  --International Efforts To Combat Public Corruption.--As part of the 
        1998 International Crime Control Strategy, the Department has 
        been actively involved in bilateral and multilateral efforts to 
        address public corruption, including anti-corruption efforts of 
        the Council of Europe (COE), including the COE's Criminal Law 
        Convention on Corruption--signed by the United States in the 
        Fall of 2000 and currently pending Senate ratification; the 
        COE's Group of States Against Corruption (GRECO)--established 
        in 1999 to monitor compliance with the COE's anti-corruption 
        commitments and joined by the United States in the Fall of 
        2000; the Inter-American Convention Against Corruption--
        ratified by the Senate in the Summer of 2000; the South Eastern 
        Europe Stability Pact's Anti-corruption Initiative, and the 
        Global Forum on Fighting Corruption and Safeguarding Integrity. 
        The Department's ongoing work includes negotiating 
        international anti-corruption agreements and providing 
        assistance relating to the implementation of these agreements, 
        including significant participation in the development and 
        implementation of effective monitoring mechanisms. The 
        Department's participation in international anti-corruption 
        activities, in particular its role in anti-corruption mutual 
        evaluation mechanisms, provides important information about the 
        reliability and integrity of law enforcement counterparts, 
        which can be used to identify enforcement priorities, target 
        technical assistance and guide decisions about the appropriate 
        extent of coordination and cooperation in particular cases.
    Question. In specific terms, how does the Department of Justice 
intend to ensure that its response to international crime is fully 
coordinated and integrated among the Department's various components?
    Answer. The Assistant Attorney General for the Criminal Division, 
directly and through his Deputy Assistant Attorneys General, will 
continue to play a leading role in ensuring that international criminal 
matters are fully coordinated within the Criminal Division and the 
Department as a whole. On high profile or particularly sensitive 
matters, the Office of the Deputy Attorney General and the Office of 
the Attorney General will continue, as appropriate, to have a direct 
role in coordinating the input from various internal components. In 
addition, internal coordination of specific international crime cases 
or issues is an integral and important responsibility of many 
Department components. For example:
  --The Office of International Affairs (OIA) supports the litigating 
        components of the Criminal Division, the United States 
        Attorneys Offices, and state and local prosecutors in their 
        investigation and prosecution of crimes with an international 
        dimension. The OIA negotiates, brings into force, and utilizes 
        extradition treaties, mutual legal assistance treaties, and 
        other international agreements designed to facilitate the 
        investigation and prosecution of international crime.
  --The Special Operations Division (SOD) is a multi-agency body 
        designed to identify and dismantle significant international 
        and domestic drug trafficking and money laundering 
        organizations. The Narcotic and Dangerous Drug Section (NDDS) 
        directs and coordinates SOD investigations with Assistant 
        United States Attorneys across the country to ensure that each 
        district involved in a nationwide investigation is informed as 
        to the actions taking place in the other districts and the 
        interrelationship of each district in the overall criminal 
        conspiracy.
  --The Asset Forfeiture and Money Laundering Section (AFMLS) provides 
        litigative support to the United States Attorneys Offices and 
        investigative agencies in cases where the predicate crime for 
        money laundering has concomitant money laundering offenses as 
        well as providing legal support and assistance in forfeiture 
        cases with international aspects.
  --The Terrorism and Violent Crime Section (TVCS) coordinates multi-
        district terrorism financing investigations; provides advice, 
        guidance and litigation support to United States Attorneys 
        Offices pursuing terrorism financing investigations and 
        prosecutions; and facilitates access to foreign evidence in 
        support of these investigations.
  --The Organized Crime and Racketeering Section (OCRS) supervises and 
        coordinates organized crime prosecutions brought by its 23 
        Strike Forces in United States Attorneys Offices around the 
        country, provides litigation support to the Strike Forces, and 
        acts as a clearing house for the collection and dissemination 
        of information vital to the investigation and prosecution of 
        international organized crime groups violating federal law.
  --For the last 3 years, the Computer Crime and Intellectual Property 
        Section (CCIPS) has held meetings about every 6 weeks with a 
        large interagency group (now with about 110 invitees) to inform 
        other Departmental components and other agencies about CCIPS' 
        international work. The existence of this group, and the many 
        other meetings and communications that take place as necessary, 
        ensure that there is effective coordination in the cybercrime 
        area. In addition, CCIPS provides very frequent training and 
        litigation advice to other components in order to disseminate 
        current policy views and to keep them consistent.
  --The Public Integrity Section plays a significant role in 
        coordinating the views of the Department regarding 
        international corruption matters. For example, the Section 
        headed an interagency working group, which also included 
        representatives from the Fraud Section, AFMLS, and OIA, charged 
        with coordinating the Department's participation in the 
        development and implementation of the Council of Europe's anti-
        corruption program. In addition, the Section heads an intra-
        agency working group of United States experts designated to 
        conduct on-site mutual evaluations of GRECO member states. The 
        Section is also coordinating preparation of the United States 
        response to GRECO's evaluation of United States anti-corruption 
        efforts.
    Question. How does the Department of Justice propose to coordinate 
its response to international crime with the efforts of other federal 
agencies--such as the Departments of State and Treasury--to ensure, to 
the extent possible, that the response is focused, results-oriented, 
and sustained, and that the potential for bureaucratic overlap reduced?
    Answer. The Assistant Attorney General for the Criminal Division, 
directly and through his Deputy Assistant Attorneys General, will 
continue to play a leading role in ensuring that international criminal 
matters are appropriately coordinated with other federal agencies. On 
high-profile or particularly sensitive matters, the Office of the 
Deputy Attorney General and the Office of the Attorney General, when 
appropriate, will continue to play a direct role in guiding inter-
agency coordination. Most inter-agency coordination, however, will 
continue to occur routinely at lower levels. In this regard, the 
Department has developed a number of programs and mechanisms for the 
coordination of international criminal investigations and prosecutions, 
as well as working groups and other coordinating mechanisms to deal 
with specific international crime policy and program issues. For 
example:
Criminal Division
    The Office of International Affairs (OIA) handles all international 
extradition and mutual legal assistance cases made by or to the United 
States. In concert with the State Department, OIA also negotiates, 
brings into force, and implements new extradition and mutual legal 
assistance treaties. In addition, OIA participates in the negotiation 
of other law enforcement treaties, conventions and agreements related 
to international criminal law. It also provides advice on international 
law enforcement issues. OIA also provides technical assistance in the 
form of training to federal, state, and local law enforcement 
authorities in the United States. Such training is primarily on 
international extradition and mutual legal assistance, but sometimes 
covers additional subjects related to international criminal law.
    The Office of Overseas Prosecutorial Development, Assistance and 
Training (OPDAT), the International Criminal Investigative Training 
Assistance Program (ICITAP), NDDS, and AFMLS work with the interagency 
community to ensure appropriate United States support for Plan 
Colombia, including strengthening Colombian law enforcement and 
judicial institutions.
    The Fraud Section is directing interagency feasibility studies to 
determine whether international coordinating bodies should be 
established for bank fraud and securities fraud.
    The Fraud Section maintains close contact with the State and 
Commerce Departments, which regularly refer allegations of Foreign 
Corrupt Practices Act (FCPA) violations. In addition, the Section 
routinely consults with the State Department regarding potential 
enforcement proceedings.
    The Fraud Section participates jointly with the State and Commerce 
Departments in the Working Group on Bribery in the Organization for 
Economic Cooperation and Development (OECD), which is responsible for 
the monitoring procedure under the 1997 OECD Convention on Combating 
Bribery of Foreign Public Officials in International Business 
Transactions. Negotiation of the Convention was the result of close 
coordination of the Justice, State and Commerce Departments, with 
additional coordination with the Department of Treasury and the United 
States Securities and Exchange Commission (SEC) on issues relating to 
taxation and securities law. The Justice, State and Commerce 
Departments work closely in the preparation of the annual reports to 
the House and Senate on the implementation of the OECD Convention.
    The Organized Crime and Racketeering Section (OCRS) is responsible 
for coordinating enforcement programs involving traditional organized 
crime (La Cosa Nostra), Russian, Asian and Italian/Sicilian organized 
crime in this country with international ties and works closely with 
the Federal Bureau of Investigation (FBI) in various initiatives. In 
addition, OCRS coordinates with the following entities to combat 
international crime: Strike Force units in the United States Attorneys 
Office (USAO), FBI Organized Crime Unit, Drug Enforcement 
Administration (DEA), Customs, United States Secret Service, 
International Law Enforcement Academy (ILEA), ICITAP, OPDAT, State 
Department, SEC, Department of Treasury's Financial Crimes Enforcement 
Network (FinCen), United States National Central Bureau (InterPol), 
Federal Reserve, Central Intelligence Agency (CIA), National Security 
Council (NSC), Defense Intelligence Agency (DIA), President's Working 
Group on Trafficking in Women and Children, Italian American Working 
Group, Council of Europe/Working Group, Group of States Against 
Corruption (GRECO), and others.
    The AFMLS coordinates with all federal law enforcement agencies 
responsible for implementing the National Money Laundering (ML) 
Strategy and participates in inter-agency working groups designed to 
address money laundering problems and strengthen effective 
international forfeiture efforts, such as the inter-agency working 
group addressing the Black Market Peso Exchange and inter-agency 
efforts to trace, seize, and forfeit criminal proceeds of corrupt 
foreign officials. In furtherance of the ML Strategy, during recent 
years AFMLS, together with the Treasury Department, has coordinated and 
hosted three National Money Laundering Conferences, which provide an 
important forum for United States prosecutors and agents from around 
the country to exchange information and coordinate efforts for 
attacking international, as well as domestic, money laundering.
    AFMLS leads inter-agency efforts with the Departments of State and 
Treasury to develop international sharing agreements with other nations 
and coordinates with them and appropriate law enforcement agencies in 
implementing our international sharing program. AFMLS also coordinates 
with agencies such as DEA on curricula and location for international 
training seminars on asset forfeiture for foreign law enforcement and 
provides instructors to United States law enforcement agency training 
sessions in order to develop sound international anti-money laundering 
and forfeiture techniques.
    The Public Integrity Section has been called upon to represent the 
United States in international fora, including proceedings of the 
European Union, the Council of Europe, the Stability Pact for South 
Eastern Europe, and Global Forum II on Safeguarding the Integrity of 
Justice and Security Officials; issues addressed at these proceedings 
related to transnational crime, election campaign financing, codes of 
conduct for public officials, and other public corruption issues. The 
Section's expertise in developing and implementing international mutual 
evaluation mechanisms is further reflected in its key role in assisting 
State Department analysis and negotiations relating to the development 
of a peer review mechanism by members of the Organization of American 
States and in its coordination of the United States response to the on-
going evaluation of United States anti-corruption practices being 
conducted by GRECO, the mutual evaluation mechanism associated with the 
Council of Europe's Criminal Law Convention on Corruption.
    The Alien Smuggling Task Force coordinates regularly with the 
Department of State (most notably the Bureau of International Narcotics 
and Law Enforcement), the Department of the Treasury, the Department of 
Commerce, the Office of Government Ethics, and the United States 
Information Agency.
    The TVCS, in cooperation with OPDAT and the Department of State, 
has developed a terrorism fundraising training curriculum for 
presentation to foreign government officials and responds to specific 
investigative requests via Mutual Legal Assistance Treaties (MLATS).
    TVCS is assisting in the formulation of Treasury's new Foreign 
Terrorist Assets Tracking Center (FTAT) and, once FTAT is established, 
will coordinate closely with FTAT on behalf of federal prosecutors 
involved in investigating and prosecuting terrorist financing cases.
    OPDAT develops and administers technical and developmental 
assistance designed to enhance the capabilities of foreign justice-
sector institutions. In executing its mission, OPDAT coordinates with 
other federal agencies in the development of the inter-agency program 
development process and in ensuring that its activities are consistent 
with those of United States government entities responsible for 
responding to international crime.
Federal Bureau of Investigation and Drug Enforcement Administration
    FBI executive management provides leadership to international crime 
working groups, and will continue its liaison with other federal 
agencies in an effort to coordinate efforts. With regard to its 
response to international crime, the FBI maintains effective 
communication with the State Department, the CIA, DEA, United States 
Customs Service (USCS), and the United States Secret Service.
    The FBI details supervisors to the CIA and DEA in order to maintain 
its close relationship with these federal agencies. Further, the FBI 
will continue to expand its partnership with the DEA in the Special 
Operations Division (SOD), looking to increase coverage beyond the 
traditional drug trafficking arena into those areas of the world 
currently being dominated by organized crime groups.
    Question. Also, recognizing that considerable law enforcement 
activity to counter international crime occurs in foreign countries, 
how does the Department of Justice propose to coordinate its efforts 
with its foreign counterparts?
    Answer. The Department will continue to seek every appropriate 
opportunity to gain cooperation from other nations in its efforts to 
target international criminals, through a variety of agreements and 
treaties, as well as through face-to-face relationships with its 
foreign law enforcement counterparts. The Assistant Attorney General 
for the Criminal Division, his Deputy Assistant Attorneys General and 
Section Chiefs will continue to meet routinely with foreign law 
enforcement counterparts at home and abroad, in both bilateral and 
multilateral settings. These meetings not only address particular law 
enforcement issues, but also establish and promote personal 
relationships that facilitate future law enforcement cooperation and 
coordination.
    Many components within the Department routinely work closely with 
foreign law enforcement officials in a variety of continuing contexts. 
For example:
Criminal Division
    OIA handles all international extradition and mutual legal 
assistance cases made by or to the United States. OIA also negotiates, 
brings into force, and implements new extradition and mutual legal 
assistance treaties. In addition, OIA participates in the negotiation 
of other law enforcement treaties, conventions and agreements related 
to international criminal law. In addition, OIA provides technical 
assistance in the form of training to foreign law enforcement 
authorities. Such training is primarily on international extradition 
and mutual legal assistance, but sometimes covers additional subjects 
related to international criminal law. Office attorneys also 
participate on a number of committees established under the auspices of 
the United Nations and other international organizations that are 
directed at resolving a variety of international law enforcement 
problems such as narcotics trafficking and money laundering. The Office 
maintains a permanent field office in Rome.
    Attorneys from OIA and other Criminal Division components routinely 
address visiting foreign officials in the United States in connection 
with such issues as the detection and prosecution of public corruption 
offenses, the investigation and prosecution of election crimes, the 
detection and prosecution of money laundering offenses, and the 
implementing of effective forfeiture procedures. For example, during 
the last few years the Criminal Division has made presentations to 
public officials from Egypt, Japan, Mongolia, the People's Republic of 
China, the Republic of Haiti, the Republic of Latvia, Turkey, Ukraine, 
Vietnam, El Salvador, France, Mexico, Mongolia, the Philippines, 
Poland, the Republic of Fiji, the Republic of Kyrgyz, Pakistan, the 
Czech Republic, Panama, Nigeria, Colombia, Italy, Germany, Australia, 
Canada, Bolivia, South Africa, Northern Ireland, Burkina Faso, 
Bangladesh, the Democratic Republic of Congo, Hungary, Russian 
Federation, Spain, Sri Lanka, and Tanzania.
    NDDS focuses its litigating resources on dismantling and disrupting 
the drug trafficking organizations and their members that import and 
distribute wholesale quantities of drugs in the United States. The 
Bilateral Case Initiative (BCI), which began as a mechanism through 
which the DOJ and Colombian law enforcement conducted an unprecedented 
effort to investigate and prosecute the most significant traffickers in 
Colombia, has now been expanded to other countries in the region.
    With the assistance of the United States Coast Guard and Department 
of State, NDDS is working with select foreign prosecutors and law 
enforcement to ensure that evidence derived from United States maritime 
enforcement activity is transferred in accordance with the host 
country's law to ensure effective host country prosecutions of 
transnational traffickers. In addition, we also provide technical 
assistance to trusted law enforcement organizations in selected host 
countries.
    NDDS represents the Department at international organizations, such 
as the Organization of American States' Inter-American Drug Abuse 
Control Commission and the United Nations' Commission on Narcotic 
Drugs, which address drug trafficking at the international and regional 
levels. These organizations provide for multilateral consultation on 
important issues related to drug trafficking.
    To assist foreign governments and United States officials stationed 
abroad, NDDS also prepares and distributes guidance on international 
law related to drug trafficking. Most notably, NDDS has recently 
updated the Manual for Compliance With The United Nations Convention 
Against Illicit Traffic in Narcotic Drugs and Psychotropic Substances.
    As if May 2001, 28 of the 34 signatories to the OECD Convention on 
Combating Bribery of Foreign Public Officials in International Business 
Transactions have enacted implementing criminal laws, like the FCPA, 
prohibiting such bribery. The Fraud Section, which negotiated the 
Convention on behalf of the Department, has established relationships 
with prosecutors from the other OECD nations which will facilitate 
cooperation and mutual assistance in this area. The Fraud Section has 
also focused on the area of cross-border telemarketing fraud, and, 
since 1997, DOJ has co-chaired the United States-Canada Working Group 
on Telemarketing Fraud. The Working Group, of which the Fraud Section's 
Special Counsel for Fraud Prevention is the co-chair, meets annually. 
At the time of the Cross-Border Crime Forum conducted by both 
countries' law enforcement authorities, we met to review progress in 
relation to the Working Group's 1997 Report, share information on 
developments relating to cross-border telemarketing fraud, and explore 
possible additional cooperative measures.
    The Child Exploitation and Obscenity Section (CEOS) works toward 
obtaining the ratification and implementation of the United Nations 
Protocol to Combat Trafficking, and implementation of the October 2000 
Trafficking legislation. The Section places a high priority on 
coordinating symposia with foreign officials because they develop 
personal commitments and necessary contacts that result in concrete 
advances and pave the way for joint investigations.
    CCIPS coordinates international requests for emergency assistance 
in cases involving electronic evidence because of its subject matter 
expertise. It also receives a steady stream of foreign visitors and 
provides training for foreign officials in both the computer crime and 
intellectual property areas. Finally, CCIPS is a long-time and 
important participant in numerous international processes that deal 
with cybercrime or electronic evidence, such as the G8 High-Tech Crime 
Subgroup, the negotiations at the Council of Europe on a draft 
cybercrime convention, the Organization of American States, the United 
Nations, and so on.
    ICITAP's efforts are focused on increasing the capacity of the 
recipient country to respond to these and other crimes and coordinates 
these efforts through the countries in which the training sessions are 
being held.
    AFMLS coordinates anti-money laundering initiatives with foreign 
countries through the participation in multi-lateral anti-money 
laundering organizations: G-7 Financial Action Task Force (FATF); Asia 
Pacific Group (APG) on money laundering; Eastern and Southern Africa 
Anti-Money Laundering Group; Western and Central African FATF; South 
Africa; Organization of American States/Inter-American Drug Abuse 
Control Commission (CICAD); Council of Europe, Money Laundering Experts 
Group. AFMLS also participates with other foreign governments in anti-
money laundering cooperative efforts with the banking industry, 
including: Off-shore Group of Banking Supervisors; Bank Secrecy Act 
Advisory Group, and Law enforcement working groups, such as: CUORC--an 
FBI undercover Working Group, White Collar Crime Investigative Team 
(WCCIT)--a cooperative effort with New Scotland Yard; Black Market Peso 
Exchange (BMPE) Working Group and BMPE Multilateral Working Group.
    Each year, AFMLS also sponsors and organizes a regional 
international conference on Forfeiting the Proceeds of Crime through 
which it brings prosecutors and police officials together to discuss 
practical techniques, legislation, and mechanisms to improve 
international cooperation in forfeiture cases. AFMLS participates in 
multilateral negotiations on forfeiture provisions of international 
conventions and on the Forfeiture Sub-Group of the G8 Senior Experts 
Group on Organized Crime (Lyon Group). In addition, AFMLS coordinates 
forfeiture and money laundering initiatives to strengthen our bilateral 
law enforcement relationships, through such efforts as the negotiation 
of forfeiture sharing agreements and the implementation of the 
Bilateral Mexican/United States Drug Control Strategy.
    The Alien Smuggling Task Force works on the United Nations Protocol 
regarding Migrant Smuggling, PDD-9, as it relates to alien smuggling 
and on bilateral or regional agreements.
    The Public Integrity Section (PI) worked closely with the State 
Department to organize the First Global Forum on Fighting Corruption 
and Safeguarding Integrity Among Justice and Security Officials, which 
was held in Washington D.C. in February 1999. The Section organized a 
plenary issue session on law enforcement issues and took the lead in 
preparing a statement of ``Guiding Principles'' in the fight against 
corruption, which were endorsed by the Forum and since have become an 
important component of international efforts to fight corruption.
    PI also participates in ongoing anti-corruption efforts of the 
Council of Europe; the South East Europe Stability Pact; the 
Organization for Security and Cooperation in Europe; the Organization 
of American States; the Foreign Official Corruption Working Group 
(Kleptocracy); and the corruption subgroup of the State Department's 
International Initiative Against Corruption. This subgroup assisted in 
the preparation for the Second Global Forum on Fighting Corruption, 
which was held in the Netherlands in May 2001. Preparations for Global 
Forum III, to be held in Korea in 2003, are currently in the planning 
stages.
    PI provides its international assistance at a number of 
international events, both to assist with the international initiatives 
cited above and to provide training and expertise. The Section's 
Election Crimes Branch also provides international assistance, 
participating in a Department-wide effort to provide enhanced training 
and law enforcement assistance to other nations. For example, during 
the past 2 years Section attorneys have represented the Department at 
international proceedings and training programs in the following 
countries: Turkey, Bosnia, France, Thailand, Hungary, Argentina, Czech 
Republic, Cyprus, Venezuela, Ukraine, Bangladesh, Russia, and Kenya.
    TVCS works multilaterally with the G8, the Organization of American 
States (OAS) and the United Nations in the development of coordinated 
international counterterrorism enforcement strategies and drafting of 
international counterterrorism conventions. TVCS also works bilaterally 
with numerous governments, including the United Kingdom, Canada, 
Australia, India, Israel and others, in developing and implementing 
effective bilateral counterterrorism enforcement strategies.
    OCRS works with its Strike Forces, the FBI and OIA to reach out to 
foreign law enforcement structures to exchange information and obtain 
evidence with OCRS involving international organized crime. OCRS has 
been involved with international working groups seeking to combat 
international organized crime and has been active in working to effect 
laws and international guidelines for dealing with international 
organized crime. OCRS has also provided training and expertise to law 
enforcement groups in other nations.
Federal Bureau of Investigation
    In an effort to improve the Federal Government's response to 
international crime, the FBI will continue to implement international 
crime control initiatives, such as:
  --Budapest Project.--The FBI/Hungarian National Police Task Force has 
        been established in Budapest, Hungary to identify emerging 
        Eurasian criminal enterprise threats to the United States and 
        to disrupt those enterprises before they can become entrenched 
        in the United States.
  --Linchpin Initiative.--In May 1999, Operation Linchpin was 
        established to facilitate the sharing of information and 
        operational leads, both domestic and foreign, between the law 
        enforcement and intelligence community. Linchpin focuses on 
        significant international criminal groups (e.g., Eurasian, 
        Italian, and Asian organized crime). Several law enforcement 
        and intelligence agencies, including the FBI, are involved in 
        sharing intelligence at regularly scheduled Linchpin meetings.
  --Project Millennium.--The FBI, along with law enforcement agencies 
        from 23 other countries, have provided Interpol with the names 
        and profiles of thousands of Eurasian organized crime subjects 
        in order to establish a worldwide database that would allow 
        participating countries to cross-reference and coordinate leads 
        involving Russian and Eastern European organized crime members.
  --United States-Mexico Fugitive Initiative.--An initiative with the 
        Department of Justice and the Mexican Government, designed to 
        improve procedures for obtaining provisional arrest warrants 
        for fugitives that have fled to the United States from Mexico.
  --United States-Canada International Fugitive Initiative.--DOJ, 
        including FBI, USMS, and INS, the Royal Canadian Mounted Police 
        and the Toronto Police Service, and INS exchange intelligence 
        to improve efficiency in locating/apprehending fugitives who 
        flee between the United States and Canada.
  --The International Securities and Commodities Working Group was 
        established to bring together individuals dealing in 
        international markets, primarily through FBI Legal Attaches and 
        their counterparts, to discuss ways to coordinate 
        investigations effectively relative to United States and 
        international financial markets.
  --Plan Colombia.--DOJ is assisting Colombia in developing a 
        comprehensive program to investigate kidnaping. This program 
        will include the establishment of a Colombian law enforcement 
        task force consisting of specially trained investigators. Where 
        appropriate, the task force will work closely with the FBI, 
        particularly in cases involving United States nationals. DOJ 
        has also tasked the FBI with implementing a comprehensive 
        training initiative designed to train law enforcement and 
        military personnel from Colombia in anti-kidnaping 
        investigative methods and procedures.
  --Canadian Eagle is a joint initiative between the Canadian law 
        enforcement agencies and the FBI targeting unscrupulous 
        Canadian telephone marketers victimizing citizens of the United 
        States, particularly the elderly. The FBI is working with the 
        Royal Canadian Mounted Police and other police agencies to 
        identify, investigate, and prosecute these individuals.
  --The High Intensity Financial Crimes Area (HIFCA) Task Force is a 
        Congressionally-mandated approach to addressing complex and 
        egregious money laundering conspiracies in a task force 
        environment. HIFCAs have been established in the New York/
        Newark, Los Angeles, San Juan, Phoenix, El Paso, and San 
        Antonio Divisions. Applications for similar designations have 
        been made by the San Francisco and Chicago Divisions.
  --Interpol Project Rockers.--With respect to Outlaw Motorcycle Gangs, 
        the FBI participates in the Interpol Project Rockers annual 
        conference and take part in the Project Rockers Steering 
        Committee. Representatives from Europe, Australia, and Canada 
        also participate. The goal of the meetings center on efforts to 
        evaluate and strengthen the international cooperation between 
        the countries that are affected by criminal activities engaged 
        in by Outlaw Motorcycle Gangs and its members.
  --Project Stocar is a joint FBI/Interpol initiative to share and 
        exchange data regarding international vehicle theft.
  --Additionally, the FBI is working with seven European nations to 
        develop an automated system to connect existing art theft 
        databases.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski
                           judicial nominees
    Question. Since the 1960s, American Presidents have used the 
American Bar Association (ABA) to ``vet'' judicial nominees. Some 
critics have long-criticized this practice, alleging that the ABA has 
become ``too liberal'' and that the ABA only ``approves'' liberal-
leaning candidates. However, the Bush administration announced that it 
will no longer include the ABA in the nominee review, and has not 
released the judicial nomination process, which prior Presidents have 
done.
    Further, during the Clinton Administration, some Republican 
Senators said that there was no need to fill the vacancies, despite 
overwhelming evidence of backlogged federal court dockets.
    Do you think there is a need to fill all existing federal judicial 
vacancies?
    Answer. The work of federal judges and the federal courts is 
vitally important to the efficient and fair administration of justice. 
There are currently 110 vacancies in the 862-member federal judiciary 
and the Administrative Office has received an additional 54 judgeships. 
I think it is initially important to fill existing vacancies in order 
to improve the administration of justice.
    Question. Can you describe the process that the Bush Administration 
is using? Particularly, what is the role of the Justice Department in 
the judicial evaluation and selection process? What is the role of the 
White House in the judicial evaluation and selection process? Who is 
the ``point person'' at the Department of Justice and the White House 
for judicial nominations?
    Answer. President Bush has announced his intention to fill over a 
hundred vacancies on the federal courts, vacancies which cause 
backlogs, frustration and delay of justice. I have also said that I 
will enthusiastically support the effort to fill quickly the current 
vacancies in the Article III courts with qualified men and women of 
integrity, who are committed to the rule of law, and who reflect the 
diversity of our country. Consistent with historical practice, I and 
other members of the Justice Department will provide assistance to the 
White House in evaluating potential nominees to the federal bench, to 
the extent requested to do so by the President. The Office of Legal 
Policy, headed by Assistant Attorney General, Viet Dinh, coordinates 
the Departments activities with respect to judicial activism.
    Question. As a Senator, you were aware of the ``blue slip'' process 
in the judicial nominations process. Do you favor the blue slip 
process, as it is currently implemented?
    Answer. As a former Senator, I have a deep respect for the Senate's 
constitutional obligation to ``advise and consent'' on judicial 
nominations, as well as for its prerogative to determine how to conduct 
its internal operating procedures. At the President's request, I will 
respect whatever procedure is agreed to by the Senators.
    Question. Did you, or anyone at the Department of Justice, play a 
role in the White House's decision to exclude the American Bar 
Association from its traditional role in evaluating judicial nominees? 
Were you asked to give an opinion on this decision by the White House? 
What is your opinion of that decision? Do you think that any bar groups 
should play a role in evaluating potential nominees to the federal 
bench?
    Answer. My understanding is that the Administration would no longer 
afford the ABA a preferential place in the judicial nomination process. 
The views of the American Bar Association, like those of any other 
interested group or person, will be considered as part of the judicial 
nomination process. I think it is entirely appropriate and valuable to 
the process for the views of any interested bar association, other 
legal organization or other interested group or person to be 
considered.
    Question. The ABA Model Rules of Professional Conduct provide that 
attorneys should voluntarily provide 50 hours of pro bono legal 
services annually to those of limited means. Do you think that this 
should be a criteria for the evaluation of judicial nominees? What 
groups or categories of citizens do you consider as ``those of limited 
means?''
    Answer. The provision of pro bono services by attorneys is a 
valuable and important responsibility. Candidates for judicial office 
should be evaluated on their experience and skills as an attorney, 
their demonstrated commitment to the rule of law, and their 
temperament.
             community-oriented policing services--``cops''
    Question. COPS was begun by President Clinton in 1994 to put 
100,000 new officers on America's streets, and has provided municipal 
police departments with more than $9 billion in federal funds to help 
put an estimated 85,000 new officers on the streets in six years, COPS 
funds cover 75 percent of police salaries for three years, then the 
local departments pick up the costs. According to several government 
sources, it has made a significant reduction in crime, especially in 
Baltimore City.
    The Bush Administration has severely cut funding for hiring more 
police officers, cut the $408,323,000 dedicated to hiring community 
police officers to $180 million, but all of that must be used for 
school ``resource'' (security) officers.
    Do you have statistics showing that, on average across the nation, 
the crime rate on school campuses is higher than on the streets?
    Answer. The Bureau of Justice Statistics' (BJS) National Crime 
Victimization Survey (NCVS) provides a uniform measure of school crime 
victimization nationwide through the self-reports of a nationally 
representative sample of persons aged 12 or older who indicate that 
they are attending a public or private school. Periodically, BJS 
together with funding support from the National Center for Education 
Statistics (NCES) in the Department of Education, supplements the 
standard NCVS screener and incident forms with supplementary questions 
for those respondents attending school. Supplements on school crime 
have been conducted in 1989, 1995, 1999, and 2001 with inter-
supplemental years utilizing the standard NCVS instruments to provide 
annual estimates. The most recent BJS data on school victimization 
indicate that:
  --Approximately 14 percent of crime victimizations nationwide 
        occurred at a public or private school or on a college campus. 
        This is based on an estimated 24,493,550 criminal 
        victimizations nationwide in 1999 (excluding residential 
        burglaries and all homicides), of which 3,322,775 were 
        estimated to have occurred at school (see following table).

                                   SCHOOL CRIME VICTIMIZATIONS--1999 ESTIMATES
----------------------------------------------------------------------------------------------------------------
                                                                                                     Est. No.
                          Type of crime                              Number of      Percent at        school
                                                                     incidents        school         incidents
----------------------------------------------------------------------------------------------------------------
Selected personal and property crimes, total....................      24,493,550           0.136       3,322,775
                                                                 ===============================================
Violent, total..................................................       6,723,930           0.151       1,015,313
Rape/sexual assault.............................................         381,400           0.052          19,833
Robbery.........................................................         740,890           0.072          53,344
Aggravated assault..............................................       1,290,360           0.088         113,552
Simple assault..................................................       4,311,270           0.192         827,764
                                                                 ===============================================
Property and other, total.......................................      17,769,620           0.130       2,307,461
Purse snatch/pocket-picking.....................................         206,090           0.148          30,501
Motor vehicle theft.............................................       1,068,130           0.016          17,090
Theft...........................................................      16,495,400           0.137       2,259,870
----------------------------------------------------------------------------------------------------------------

  --BJS estimates, for 1998, indicate that there were 43 violent 
        victimizations and 58 theft victimizations occurring at school 
        per 1,000 students aged 12 to 18. Of these, there were an 
        estimated 9 incidents per 1,000 students of serious violent 
        crime-rape, sexual assault, robbery, and aggravated assault. 
        Per capita estimates of victimization incident rates in 1998 
        among students for victimizations which occurred away from 
        school grounds were 48 violent, 46 theft and 21 serious violent 
        incidents per 1,000 students aged 12 to 18. These data indicate 
        that two-thirds of the serious violence experienced by students 
        in 1998 occurred away from school grounds. However, over the 
        period from 1992 to 1998, per capita rates of violent 
        victimization and serious violent victimization of students 
        while at school have remained largely stable while the same 
        rates for incidents occurring outside of school have declined.
  --NCES reports, based upon data from 1993 through 1997, that teachers 
        were the victims of thefts and violent crimes at school at a 
        rate equal to 84 incidents per 1,000 teachers.
  --In the 1997-98 school year, the Centers for Disease Control (CDC) 
        reported 35 student homicides in public and private schools 
        through high school--this would translate into about two-tenths 
        of 1 percent of homicides and would obviously not alter the 
        aggregate estimates on the attached spreadsheet. Data on school 
        homicides are recorded by CDC in partnership with the 
        Department of Education.
  --Violent crime victimizations represent 27 percent of total crime 
        victimizations nationwide, while property and other crimes 
        comprise the remaining 73 percent. For school-related crime 
        incidents, about 30 percent are classified as violent. While 
        simple assaults comprise about 64 percent of all violent 
        victimizations, in schools, simple assault accounts for 82 
        percent of violent victimizations.
  --Though simple assault is the least serious violent crime, it is not 
        a trivial matter. Such crimes encompass a broad range of 
        behaviors from verbal threats, to bullying, to physical attacks 
        that result in cuts, bruises, black eyes, chipped teeth, etc. 
        The likelihood of injury in simple assault is greater than in 
        aggravated assault.
    This BJS analysis is based on data collected through the NCVS, 
which is the nation's primary source of information on criminal 
victimization. Each year since 1973, estimates of crime victimization 
are obtained from nearly 200,000 interviews with a nationally 
representative sample of residents aged 12 or older on the frequency, 
characteristics and consequences of criminal victimization in the 
United States. The survey enables BJS to estimate the likelihood of 
victimization by rape, sexual assault, robbery, assault, theft, 
household burglary, and motor vehicle theft for the population as a 
whole, as well as for specific segments. In contrast to other crime 
statistical programs, like the summary Uniform Crime Reporting Program 
administered by the Federal Bureau of Investigation, which collects 
data on crimes reported to law enforcement agencies, the NCVS includes 
information on crime not reported to the police. This question cannot 
be answered with the FBI's Summary Uniform Crime Report data because it 
does not include sufficient detail on where crimes reported to police 
take place.
    Question. Although the Administration has characterized hiring law 
enforcement personnel as a ``local issue,'' the Federal Government 
provides significant funding for other critical ``local'' issues such 
as domestic violence or community renewal/drug prevention programs such 
as ``Weed and Seed.''
    How do you explain making an exception for the hiring of local 
police officers who are supposed to enforce those other programs?
    Answer. With local expenditures on police and law enforcement 
totaling a projected $52 billion in 2001, it is clear that COPS and 
other DOJ grants play a relatively small role in the overall funding 
picture. However, in light of public concerns about crime in and around 
the nation's primary and secondary schools, the COPS Office will focus 
its hiring efforts on increasing the number of school resource officers 
(SROs) serving in our nation's schools. COPS, through the continuation 
of the COPS in Schools (CIS) program, will provide state and local law 
enforcement agencies an average of $116,000, and a maximum of $125,000, 
per officer over 3 years, to assist in hiring officers who become 
assigned to a school.
    SROs are not required to enforce federal initiatives. Depending on 
the needs of the local jurisdiction, the SROs, funded through the CIS 
program, teach crime prevention and substance abuse classes, monitor 
and assist troubled students, and build respect and understanding 
between law enforcement and students. These officers also assist in the 
identification of physical changes in the environment that may reduce 
crime in and around the schools, as well as assist in developing school 
policies, which address criminal activity.
    To date, through this highly successful program, the COPS Office 
has funded the addition of over 3,700 SROs who serve in their assigned 
schools, and it is estimated that by the end of 2001, the number of 
SROs funded will have grown to approximately 4,600. The $180 million in 
hiring funds requested in 2002 will allow for the funding and training 
of 1,500 SROs. If CIS applications fail to total $180 million, the COPS 
Office will continue to fund up to the amount available, within the 
$180 million, the hiring of general community policing officers by 
providing up to $75,000 per officer over 3 years.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                          boys and girls club
    Question. In fiscal year 2001, Congress appropriated $60 million to 
the Boys and Girls Clubs of America for grants to Boys and Girls Clubs 
across the nation within the Department of Justice's programs for state 
and local law enforcement assistance. In Vermont and around the 
country, Boys and Girls Clubs are a proven and growing success in 
preventing crime and supporting our children. What was the rationale 
behind the Administration's decision to not request funding for Boys 
and Girls Clubs within the Department of Justice budget submission.
    Answer. Since 1996, funds appropriated for the Local Law 
Enforcement Block Grant (LLEBG) program have included an earmark 
specifically for B&GCA. To date, the LLEBG program has provided over 
$200 million in resources directly to B&GCA. The $60 million earmarked 
in fiscal year 2001 was 11 percent of the total--slightly larger than 
the combined estimated LLEBG allocations for New York, North Carolina, 
and Georgia. Only California received a larger amount of funding.
    In 2002, the Department made difficult funding decisions, which 
included redirecting existing resources to address basic law 
enforcement operational needs, such as increasing detention and 
incarceration capacity. As a result, some programs, such as LLEBG, were 
reduced. To help maximize the funding available for state and local law 
enforcement agencies, the Department's budget request does not earmark 
any LLEBG funds for specific grant projects or non-federal 
organizations such as the Boys and Girls Clubs, no matter how worthy. 
This same principle was applied to the other Office of Justice Program 
(OJP) grant programs, both competitive and formula-based.
    Question. In 1997, I was proud to join with Senator Hatch, Senator 
Gregg and others to pass bipartisan legislation to authorize grants by 
the Department of Justice (DOJ) to fund 2,500 Boys and Girls Clubs 
across the nation from fiscal year 1998 to fiscal year 2001. Would you 
recommend that Congress authorize grants by the Department of Justice 
for fiscal year 2002 to fund additional Boys and Girls Clubs around the 
country?
    Answer. While the Department of Justice has taken no forward 
position on this bill, it recognizes the importance of the B&GCA, which 
provide millions of at-risk boys and girls with a full and fair 
opportunity to lead productive and meaningful lives.
    Since the enactment of Title IV of the Economic Espionage Act of 
1996, intended to provide $100 million to the B&GCA for establishing 
1,000 additional local Boys and Girls Clubs, Congress has earmarked 
more than $200 million of LLEBG, including $11 million the year before 
the law was enacted. Through 2001, 875 new clubs have been established.
    In addition to the LLEBG funds, nearly $37 million has been awarded 
by OJP from fiscal year 1992 through fiscal year 2001 to B&GCA and 
individual Boys and Girls Clubs through various grants from the Bureau 
of Justice Assistance, the Executive Office for Weed and Seed, the 
Violence Against Women Office and the Office for Juvenile Justice and 
Delinquency Prevention.
    In fiscal year 2002, DOJ has made many difficult internal decisions 
on the use of limited, valuable resources. The LLEBG was reduced so 
that law enforcement operations and federal prisons could be more 
strongly supported, and with that reduction, the B&GCA earmark was 
eliminated. In making these decisions, also considered were DOJ's long-
standing policy not to re-request Congressional earmarks as part of the 
President's annual budget and the desire to provide maximum flexibility 
to state and local law enforcement agencies in their use of the 
remaining funds.
               bulletproof vest partnership grant program
    Question. Last year, Senator Campbell and I authored and Congress 
passed the Bulletproof Vest Partnership Grant Act of 2000 (Public Law 
106-517) to authorize $50,000,000 for the Bulletproof Vest Partnership 
Program for fiscal year 2002 within the Department of Justice programs 
for state and local enforcement assistance. In its first 2 years of 
operation, this program funded more than 325,000 new bulletproof vests 
for our nation's police officers, including more than 536 vests for 
Vermont law enforcement officers. The demand for bulletproof vests 
under this program has far exceeded the program's resources. For 
example, last year, state and local law enforcement agencies requested 
more than $80 million in grants under the program's $25 million budget. 
But President Bush's budget requests only level funding for this 
program in fiscal year 2002. What was the rationale behind the 
Administration's decision to request only half of the authorized 
funding level for the Bulletproof Best Partnership Grant Program within 
the Department of Justice budget submission?
    Answer. The Bulletproof Vest Partnership Program is designed to 
protect the lives of law enforcement officers by helping state, local, 
and tribal law enforcement agencies provide officers with armor vests 
that comply with the National Institute of Justice's ballistic or stab-
resistant standards. The program pays up to 50 percent of the total 
cost of each vest. Participating jurisdictions have 4 years beyond the 
year of the approved application to request reimbursement for 
authorized purchases. At the end of fiscal year 2000 (the second year 
of the Bulletproof Vest Partnership Program), approximately 94,000 
vests had actually been purchased. In 1999, 3,510 jurisdictions 
participated in the program, and 3,586 jurisdictions participated in 
2000.
    Because of the overall funding constraints, not every Justice grant 
program can be funded at its fully authorized level. Most funding 
increases in the 2002 DOJ budget for state and local law enforcement 
assistance are for implementing the President's crime prevention and 
public safety initiatives.
    The 2002 request of $25.4 million is consistent with amounts 
appropriated for the first 2 years of the program. In 2000, $25 million 
was appropriated for the Bulletproof Vest Partnership Program, and in 
2001, $25.4 million was appropriated. Regardless of the funding level, 
the acquisition of body armor is primarily a state and local 
responsibility. By continuing funding at the current level, the 
Department of Justice can continue to assist jurisdictions in the 
greatest need.
                     computer crime enforcement act
    Question. In 2000, Senator DeWine and I authored and Congress 
passed the Computer Crime Enforcement Act (Public Law 106-572) to 
authorize $25,000,000 for fiscal year 2002 within the Department of 
Justice programs for state and local law enforcement assistance. But 
President Bush's budget fails to request any funding for this program. 
What was the rationale behind the Administration's decision to not 
request any funding for the Computer Crime Enforcement Act within the 
Department of Justice budget submission?
    Answer. The Computer Crime Enforcement Act was passed on December 
28, 2000, which was too late in the 2002 budget process to be 
considered in the formulation of the 2002 President's budget. However, 
existing programs assist state and local law enforcement activities in 
deterring, investigating, and prosecuting computer crimes. These 
include:
  --Funding for the National White Collar Crime Center, which provides 
        training and support for investigations of computer crimes, and 
        operates the Internet Fraud Complaint Center in conjunction 
        with the FBI.
  --The Missing Children's Program includes the Internet Crimes Against 
        Children Task Force program, which helps participating state 
        and local law enforcement agencies prevent, interdict or 
        investigate online enticement and child pornography cases.
  --The Bureau of Justice Statistics administers the Cybercrime 
        Statistics Program, intended to measure changes in the 
        incidence, magnitude and consequences of electronic or 
        cybercrime.
  --Byrne Formula Grant funds may be used to support computer crime 
        investigation and enforcement activities.
  --The Regional Information Sharing System provides information and 
        intelligence services to state and local criminal justice 
        agencies, enhancing their ability to identify, target and 
        remove criminal conspiracies and activities spanning 
        jurisdictional borders.
  --The National Institute of Justice provides onsite and other 
        technical assistance to state and local officials on 
        investigation and enforcement of cybercrimes.
  --The Computer Crime and Intellectual Property Section (CCIPS) works 
        closely with state and local law enforcement agencies to help 
        them develop their own abilities to investigate and prosecute 
        cybercrime. Moreover, CCIPS has attorneys on duty daily to 
        respond to questions from state and local law enforcement 
        agencies.
  --The United States Attorneys' Offices are provided resources for 
        their Computer Crime and Intellectual Property Initiative to 
        prosecute hackers and computer criminals. Each U.S. Attorney's 
        Office (USAO) has at least one Computer and Telecommunications 
        Coordinator (CTC) investigating and prosecuting high-tech 
        crimes. CTCs also provide training to local law enforcement.
          violent offender incarceration prison grant program
    Question. In fiscal year 2001, Congress appropriated $225 million 
for the Violent Offender Incarceration Prison Grant Program within the 
Department of Justice's programs for state and local law enforcement 
assistance. But President Bush's budget fails to request any funding 
for the Violent Offender Incarceration Prison Grant Program. What was 
the rationale behind the Administration's decision to not request any 
funding for the Violent Offender Incarceration Prison Grant Program 
within the Department of Justice budget submission?
    Answer. The Violent Offender Incarceration Prison Grant Program was 
established in 1996 to encourage states to enact truth-in-sentencing 
laws that require violent criminals to serve at least 85 percent of the 
sentence imposed by the court. Federal grant resources were provided to 
build or expand correctional facilities to increase bed capacity for 
the confinement of violent offenders.
    Since 1996, the Violent Offender Incarceration Prison Grant Program 
provided more than $2.3 billion to the 50 states, the United States 
territories and the District of Columbia. In 2000, nearly 24,800 new 
beds were constructed, exceeding the target of 15,000 new beds. At the 
same time, the state prison population is beginning to stabilize.
    To date, 30 states have enacted the required truth-in-sentencing 
legislation. Five years have elapsed since the inception of the 
program, giving states ample time to consider the costs and benefits of 
this legislation, and no state has enacted such legislation since 1999. 
Recent data from BJS also shows that the state prison population has 
begun to stabilize, growing by just 1.5 percent last year. 
Consequently, OJP believes the program has accomplished its mission, 
and no funding is requested for this purpose in 2002.
    However, funds are requested for Indian tribes to construct jails 
on tribal lands ($35.191 million) and for the United States Marshals 
Service Cooperative Agreement program ($35 million) as stand-alone 
independent programs. These had been funded previously under the 
Violent Offender Incarceration Prison Grant Program.
                enforcing underage drinking laws program
    Question. In fiscal year 2001, Congress appropriated $25 million 
for the Enforcing Underage Drinking Laws Program (EUDL) within the 
Department of Justice's programs for state and local law enforcement 
assistance. But President Bush's budget fails to request any funding 
for this program. What was the rationale behind the Administration's 
decision to not request any funding for the Enforcing Underage Drinking 
Laws Program within the Department of Justice budget submission?
    Answer. Since 1998, $25 million has been earmarked out of the 
Office of Juvenile Justice and Delinquency Prevention's (OJJDP) Title V 
funding for this program. In 2002, the Department was faced with 
internal funding decisions in trying to address basic law enforcement 
needs and other Administration priorities. As a result, entire programs 
or portions of programs were redirected. Within OJJDP Title V, the 
budget process proposes to allocate $37 million to help carry out the 
President's Project ChildSafe pledge, which will make child safety 
locks available for every handgun in America by 2006. When combined 
with funding in the Juvenile Accountability Block Grant program, a 
total of $75 million will be available for this effort in 2002.
    States may choose to direct resources from other OJP programs to 
continue efforts initiated under EUDL. Funds available under OJJDP's 
Part B Formula grants, Part E State Challenge grants, Title V Incentive 
grants, and the Juvenile Accountability Incentive Block Grant (JAIBG) 
program may be targeted for the same or like purposes as EUDL.
                  dna analysis backlog elimination act
    Question. In 2000, Congress passed the DNA Analysis Backlog 
Elimination Act of 2000 (Public Law 106-546) to authorize $65,000,000 
for fiscal year 2002 within the Department of Justice programs for 
state and local law enforcement assistance. But President Bush's budget 
requests only $35 million for this program. What was the rationale 
behind the Administration's decision to request $30 million less than 
the authorized funding level for the DNA Analysis Backlog Elimination 
Act within the Department of Justice budget submission?
    Answer. In 2002, the President's budget includes a total of $70 
million in resources to support DNA backlog activities and crime lab 
improvements:
  --A total of $35 million is requested for activities authorized under 
        sections 2(a)(1) and 2(a)(2) of the DNA Analysis Backlog 
        Reduction Act of 2000. Of this amount, $10 million is for the 
        reduction of the DNA convicted offender backlog and $25 million 
        is for the reduction of the DNA backlog in cases that have no 
        known suspects. These are sufficient amounts to address the 
        population of the national DNA database as private DNA labs are 
        not yet able to process a higher level of sample analyses.
  --An additional $35 million is requested for the Crime Lab 
        Improvement Program (CLIP), which is an existing program 
        authorized under the Omnibus Crime Control and Safe Streets Act 
        of 1968. CLIP provides discretionary grant resources to improve 
        the general forensic capability and capacity of state and local 
        crime laboratories to conduct DNA and forensic analyses. 
        Although not specifically authorized under the DNA Analysis 
        Backlog Reduction Act of 2000, CLIP resources are available for 
        purposes included under Section 2(a)(3) the Act.
  --The fiscal year 2002 budget reflects a decision to provide 
        significant funding increases for the existing Crime Lab 
        Improvement (CLIP) and DNA Backlog Reduction Programs. Total 
        funding for these 2 programs goes from $30 million in fiscal 
        year 2001 to $70 million ($35 million each) in the fiscal year 
        2002 budget. This represents a 230 percent rate of growth, far 
        exceeding that of most other OJP and DOJ programs.
    paul coverdell national forensic science improvement act of 2000
    Question. In 2000, Congress passed the Paul Coverdell National 
Forensic Science Improvement Act of 2000 (Public Law 106-561) to 
authorize $85,400,000 for fiscal year 2002 within the Department of 
Justice programs for state and local law enforcement assistance. But 
President Bush's budget fails to request any funding for this program. 
What was the rationale behind the Administration's decision to not 
request any funding for the Paul Coverdell National Forensic Science 
Improvement Act within the Department of Justice budget submission?
    Answer. The Paul Coverdell National Forensic Science Improvement 
Act was enacted on December 21, 2000, late in the budget formulation 
process for fiscal year 2002. Although the President's fiscal year 2002 
does not request funding for the grant programs authorized by the 
Coverdell Act, it does request more than $70 million to expand OJP's 
initiatives in support of state and local crime laboratories, 
including:
  --$35 million for the Crime Lab Improvement Program (CLIP), which 
        provides grants to state and local forensic science agencies to 
        improve the quality and timeliness of forensic science services 
        offered by state and local laboratories. CLIP funds are 
        available for improving all analytical and technological 
        resources of public crime laboratories; increasing crime 
        laboratory access to specialized forensic services; and 
        establishing a network for the allocation of forensic 
        capabilities to critical investigations.
  --Another $35 million to address the backlog of state convicted DNA 
        and crime scene DNA samples that exist nationwide. The DNA data 
        will then be added to the FBI Combined DNA Index System (CODIS) 
        database, which provides information that help to solve crimes 
        and convict individuals who threaten the safety of our 
        citizens.
                       data collection practices
    Question. In compliance with section 646 of the fiscal year 2001 
Treasury-Postal Appropriations law, the Inspectors General of all 
federal agencies were required to submit reports to Congress on each 
agency's data collection practices. A third of the agencies have 
completed their reports and the results are quite disturbing. It seems 
that there are numerous government websites using these tracking 
``persistent cookies.'' In fact, the Department of Transportation 
announced that it has deleted these cookies after being identified as 
one of the worst offenders. The Department of Justice has not yet 
submitted a report on its data collection practices. Therefore, please 
provide details on the Department of Justice's use of ``persistent 
cookies'' in its data collection practices?
    Answer. In January, the Department of Justice, Office of Inspector 
General (OIG), tested 56 Department internet sites and determined for 
all 56 sites tested, that no Department or third party ``cookies'' had 
been recorded. Based upon this review, OIG issued Audit Report #01-05, 
Review of Department of Justice Internet Sites, dated February 2001 
(attached).
             Review of Department of Justice Internet Sites
   report no. 01-05, march 13, 2001, office of the inspector general
Introduction
    Internet sites can be powerful tools to inform the public about 
federal government activities and programs. These sites raise privacy 
concerns when they use ``cookies'', a primary method of compiling 
information and data about Internet users, to track the activities of 
users over time and across different sites.\1\
---------------------------------------------------------------------------
    \1\ ``Cookies'' are small software files placed on computers 
without a person's knowledge that can track their movement on an 
Internet site. Essentially, cookies make use of user-specific 
information transmitted by the Internet server onto the user's computer 
so that the information might be available for later access by itself 
or other servers. Internet servers automatically gain access to 
relevant cookies whenever the user establishes a connection to them, 
usually in the form of Internet requests.
---------------------------------------------------------------------------
    As a result of recently passed legislation, we are required to 
determine whether Department of Justice (DOJ) Internet sites or third 
parties working for the DOJ collect personally identifiable information 
from users that access DOJ Internet sites. Our review consisted of 
reviewing information provided by DOJ officials and limited testing of 
cookies for the DOJ Internet sites. We did not perform detailed tests 
to verify the information contained in the documentation. Thus, this 
report and the associated work was not performed in accordance with 
Government Auditing Standards (GAS), but was performed as an ``other 
activity of an audit organization'' pursuant to GAS 2.10.
Criteria
    Office of Management and Budget (OMB) Memorandum M-00-13 (June 22, 
2000), Privacy Policies and Data Collection on Federal Web Sites, 
stated that ``cookies'' should not be used at federal Internet sites, 
or by contractors operating the sites on behalf of agencies, unless 
there was clear and conspicuous notice; a compelling need to gather the 
data; and appropriate, publicly disclosed safeguards for handling 
``cookie''-derived information. In addition, the memorandum stated that 
the agency head must personally approve the use of ``cookies.''
    The recently enacted Treasury and General Government Appropriations 
Act, 2001 (H.R. 5658, Section 646) (The Act) requires the Inspector 
General of each department or agency to report to Congress:

        any activity of the appropriate department or agency relating 
        to--
                  (1) the collection or review of singular data, or the 
                creation of aggregate lists that include personally 
                identifiable information, about individuals who access 
                any Internet site of the department or agency; and
                  (2) entering into agreements with third parties, 
                including other government agencies, to collect, 
                review, or obtain aggregate lists or singular data 
                containing personally identifiable information relating 
                to any individual's access or viewing habits for 
                governmental and non-governmental Internet sites.
Methodology
    In response to the OMB memorandum and The Act, we assessed DOJ 
written guidance related to web development and privacy policies, and 
prohibitions pertaining to collecting, reviewing, or obtaining data 
regarding individuals using DOJ Internet sites. In addition, on January 
4, 2001, we tested the 56 DOJ Internet sites listed on the DOJ's 
Alphabetical List of Components with Internet Sites (see attachment) to 
determine whether the DOJ or third parties were collecting personally 
identifiable information related to any individual's access or viewing 
habits on the sites. To conduct our testing, we:
          (1) Set the Internet browser to warn us if ``cookies'' were 
        being sent, and we cleared the ``cookie'' log to ensure that 
        the only entries were those from our test.
          (2) Entered two sites known to set ``cookies,'' msn.com and 
        cnet.com, to ensure that the browser warning worked properly 
        and the log recorded the ``cookies.'' In both cases the browser 
        warned us that cookies were being sent to our computer and 
        asked whether we wanted to accept them. We accepted them.
          (3) Examined the ``cookies'' log and, in both cases, the 
        ``cookies'' were logged.
          (4) Entered the 56 DOJ Internet sites to determine whether 
        they would send ``cookies'' to our computer.
Results
    DOJ Internet sites tested were not collecting, reviewing, or 
obtaining personally identifiable information relating to any 
individual's access or viewing habits at the time we tested the sites 
for ``cookies.'' For all 56 DOJ Internet sites tested, we were neither 
warned nor asked to accept DOJ or third party ``cookies,'' and, upon 
examining the browser's ``cookies'' log, found that no DOJ or third 
party ``cookies'' had been recorded.
    Currently, DOJ organizations with Internet sites certify quarterly 
in writing to the Assistant Attorney General for Administration that 
they comply with OMB Memorandum M-00-13. This policy, as stated 
earlier, restricts but does not prohibit the use of ``cookies.''
    However, we found no DOJ written guidance related to The Act's 
prohibition on collecting, reviewing, or obtaining personally 
identifiable information relating to any individual's access or viewing 
habits on DOJ Internet sites. While The Act did not specifically cite 
``cookies'' as the prohibited method, many commercial Internet sites 
use ``cookies'' to do just that when a user accesses their site. 
Currently, DOJ organizations with Internet sites are not certifying to 
The Act's prohibitions on collecting, reviewing, or obtaining 
personally identifiable information relating to any individual's access 
or viewing habits on DOJ Internet sites. Rather, they are merely 
certifying to OMB Memorandum M-00-13's restricted use of ``cookies.'' 
In our judgment, the current DOJ certification process should be 
expanded to include The Act's prohibition on collecting, reviewing, or 
obtaining personally identifiable information relating to any 
individual's access or viewing habits on DOJ Internet sites.
                                appendix
 alphabetical list of doj components with internet sites reviewed for 
                              ``cookies''
    1. American Indian and Alaska Native Affairs Desk (OJP)
    2. Antitrust Division
    3. Attorney General
    4. Bureau of Justice Assistance (OJP)
    5. Bureau of Justice Statistics (OJP)
    6. Civil Division
    7. Civil Rights Division
    8. Community Oriented Policing Services--COPS
    9. Community Relations Service
    10. Corrections Program Office (OJP)
    11. Criminal Division
    12. Diversion Control Program (DEA)
    13. Drug Courts Program Office (OJP)
    14. Drug Enforcement Administration
    15. Environment and Natural Resources Division
    16. Executive Office for Immigration Review
    17. Executive Office for U.S. Attorneys
    18. Executive Office for U.S. Trustees
    19. Executive Office for Weed and Seed (OJP)
    20. Federal Bureau of Investigation
    21. Federal Bureau of Prisons
    22. Foreign Claims Settlement Commission of the United States
    23. Immigration and Naturalization Service
    24. INTERPOL--U.S. National Central Bureau
    25. Justice Management Division
    26. National Criminal Justice Reference Service (OJP)
    27. National Drug Intelligence Center
    28. National Institute of Corrections (FBOP)
    29. National Institute of Justice (OJP)
    30. Office of the Associate Attorney General
    31. Office of the Attorney General
    32. Office of Attorney Personnel Management
    33. Office of Community Dispute Resolution
    34. Office of the Deputy Attorney General
    35. Office of Dispute Resolution
    36. Office of Information and Privacy
    37. Office of the Inspector General
    38. Office of Intelligence Policy and Review
    39. Office of Justice Programs
    40. Office of Juvenile Justice and Delinquency Prevention (OJP)
    41. Office of Legal Counsel
    42. Office of Legislative Affairs
    43. Office of the Pardon Attorney
    44. Office of Policy Development
    45. Office of Professional Responsibility
    46. Office of Public Affairs
    47. Office of the Solicitor General
    48. Office for State and Local Domestic Preparedness Support (OJP)
    49. Office of Tribal Justice
    50. Office for Victims of Crime (OJP)
    51. Tax Division
    52. U.S. Attorneys
    53. U.S. Marshals Service
    54. U.S. Parole Commission
    55. U.S. Trustee Program
    56. Violence Against Women Office (OJP)
 resources for the debt management center and law enforcement support 
                                 center
    Question. The detailed Department of Justice budget does not 
provide a breakdown for the Immigration and Naturalization Service 
(INS) Debt Management Center nor the Law Enforcement Support Center 
(LESC). The Debt Management Center, located in Vermont, processes all 
of the debt collections and bond audits for the INS providing 
increasing revenue for the Service.
    The LESC, also known as the National Criminal Alien Tracking 
Center, provides local, state, and federal enforcement agencies with 
24-hour access to data on criminal aliens. By identifying these aliens, 
the LESC alerts local INS offices to initiate expedited deportation 
proceedings. Since its inception in 1994, the Center has received more 
than 120,000 inquiries from law enforcement agencies and identified 
more than 72,000 aliens of which more than 30,000 were identified as 
having criminal records.
    What is the Administration's budget request for the INS Debt 
Management Center and the LESC for fiscal year 2002?
    Answer. The charts below reflect the base level fiscal year 2002 
budget request for the INS Debt Management Center and the LESC. The 
data does not include inflation adjustments requested in the 2002 
request.

Debt Management Center:
    Payroll.............................................      $3,976,203
    Non-payroll.........................................         529,770
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................       4,505,973
                    ========================================================
                    ____________________________________________________
LESC:
    Payroll.............................................       7,183,574
    Non-payroll.........................................       6,816,426
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................      14,000,000
                                 ______
                                 
                Questions Submitted by Senator Herb Kohl
                           project childsafe
    Question. In the President's budget for the Department of Justice, 
$75 million is allocated to Projected ChildSafe--a program designed to 
give away child safety locks around the country. As you know, I've 
offered a bill to make child safety locks mandatory with every new 
handgun sold. At your confirmation hearing, we discussed this issue and 
you reaffirmed to Administration's support for such a measure should 
the Congress pass it.
    I applaud the Administration's interest in child safety locks, yet 
I do have two significant concerns with the program.
    We've recently learned from studies conducted by the Consumer 
Product Safety Commission (CPSC) that most child safety locks fail even 
the most basic tests. For example, the locks are easily picked, or the 
device as a whole falls off if the gun is dropped. Of 32 models tested 
by the CPSC, only two could not be opened with paperclips, tweezers or 
just by dropping them. In addition, in February more than 400,000 
safety locks distributed nationwide by Project Homesafe were recalled 
when tests revealed they were defective. While I strongly advocate the 
mandatory sale of the locks, they won't do any good if they don't work.
    Will Project ChildSafe include standards to ensure that locks being 
given away actually work?
    Answer. The Department is committed to ensuring that any firearm 
safety device distributed under Project ChildSafe meets an adequate 
performance standard. We expect to only provide funds for safety 
devices that meet such a standard. The Department shares your belief, 
and the belief of others in Congress, that the reliability and 
effectiveness of firearm safety devices purchased with public resources 
must be ensured. We look forward to working with you further on this 
important matter.
    Question. Of the $75 million being allocated to this program, half 
is earmarked from Title V crime prevention funds. When Senator Hank 
Brown of Colorado and I created the Title V program almost 10 years 
ago, we intended it to be a crime prevention program that gives 
localities significant flexibility to design ways to prevent juvenile 
crime. We did not intend for the money to be substantially earmarked by 
the Administration. In fairness, the Clinton Administration earmarked a 
much smaller amount of the money, but they made up for it by increasing 
Title V funding generally.
    Please explain why Project ChildSafe should be funded by Title V 
and what you intend to do to make up for the shortfall in prevention 
funding that will result from this earmark.
    Answer. Under the Title V Incentive Grants for Local Delinquency 
Prevention Program, the Department of Justice (DOJ) supports a broad 
range of prevention programs providing a variety of services to 
children, youth and their families, including recreation, tutoring and 
remedial education, work skills, health and mental health, alcohol and 
substance abuse prevention and leadership development. One of these 
prevention programs is Project ChildSafe, a key component of the 
Administration's initiative to reduce gun violence. Project ChildSafe 
will mitigate the risk of death and injury to children by making 
available safety locks for current gun owners.
    The Department believes that this is a very important prevention 
program that does not create a shortfall in prevention funding, but 
instead fills an important need at the state and local level to prevent 
gun-related crimes and accidents among children.
                          prevention programs
    Question. One way to ensure that Project ChildSafe is fully funded, 
yet Title V is still used for prevention programs, as it was intended, 
is to increase allocations to Title V. Studies show that every dollar 
spent on prevention funding yields direct savings of $1.4 to the law 
enforcement and juvenile justice system. Prevention funding should be 
at least equal to the amount spent on enforcement through the Juvenile 
Accountability Incentive Block Grant Program, in other words, $250 
million.
    Please tell me why prevention programs do not receive more funding. 
Please detail what percentage of the Department's overall budget is 
allocated for prevention programs.
    Recently, my office surveyed all of the sheriffs and police chiefs 
in Wisconsin on a variety of law enforcement issues. The survey yielded 
some very helpful insights into what the officers on the font lines 
need from the Federal Government. Local authorities were almost 
unanimous in their belief that the Federal Government needs to increase 
its support for crime prevention programs. On average, the police in my 
state support spending at least one-third of federal money specifically 
on prevention.
    Can you detail your plan for crime prevention programs and pledge 
to increase the resources required to be used for crime prevention 
programs for local police chiefs?
    Answer. The Department of Justice will continue to support the 
efforts of state and local jurisdictions to prevent crime by providing 
national leadership, coordination and resources. The success of crime 
prevention efforts rest in large part on the efforts of state and local 
officials, particularly law enforcement agencies. To this end, the 
Department supports a range of programs and activities and has 
requested increases in several key prevention programs.
    The Department's 2002 budget includes a $25 million increase for 
the Weed and Seed program (for a total of $58.925 million). This 
program assists communities in the development and implementation of 
comprehensive strategies to ``weed out'' violent crime, illegal drug 
and gun trafficking, and illegal gang activity and to ``seed'' their 
communities with crime prevention programs. To achieve this mission, 
the Weed and Seed program provides assistance to sites in designing 
comprehensive strategies to prevent and control crime, coordinates 
federal participation in cooperation with the United States Attorneys 
Offices and federal law enforcement agencies and other federal 
departments, and provides grant funding to communities to further their 
strategies. The additional funding would be available to fund new sites 
as well as special emphasis programs at existing sites.
    The budget also includes an $11 million increase (for a total of 
$73.861 million) for the Residential Substance Abuse Treatment (RSAT) 
Program, which assists states and units of local government in 
developing and implementing residential substance abuse treatment 
programs within state and local correctional and detention facilities 
in which prisoners are incarcerated for a period of time sufficient to 
permit substance abuse treatment. RSAT provides formula grant funding 
to states to assist them in implementing and enhancing substance abuse 
programs that provide individual and group treatment activities for 
offenders in residential facilities operated by state and local 
correctional agencies.
    The Department's 2002 budget also continues to support the Drug 
Courts Program (for which $50 million is requested), which provides 
financial and technical assistance for states, state courts, units of 
local government, local courts, and Indian Tribal governments to 
develop and implement treatment drug courts that employ the coercive 
power of the courts to subject non-violent offenders to an integrated 
mix of treatment, drug testing, incentives and sanctions to break the 
cycle of substance abuse and crime. The drug court movement began as a 
grass roots, community-level response to reduce crime and substance 
abuse among criminal justice offenders.
    Through Project Reentry, a collaborative effort with the 
Departments of Labor and Health and Human Services, DOJ will provide 
grants to assist communities in planning and implementing comprehensive 
reentry programs to address the full range of challenges involved in 
helping young offenders released from incarceration make a successful 
transition back to the community. In order to participate in this 
program, which is in its first year, prospective grantees must 
demonstrate a collaborative effort involving a variety of local 
government and community officials, as well as broad-based community 
support. In fiscal year 2002, $14.9 million is requested to continue 
Project Reentry.
    The Office of Justice Programs (OJP), through its Office of 
Juvenile Justice and Delinquency Prevention (OJJDP), is responsible for 
administering Title V funding, which is dedicated to delinquency 
prevention efforts initiated by a community based planning process 
focused on reducing risks and enhancing protective factors to prevent 
youth from entering the juvenile justice system. The Title V Program 
encourages communities to develop community-wide, collaborative plans 
to prevent delinquency. Each community that participates in the program 
appoints a prevention policy board (PPB) made up of local 
representatives from social services; child welfare, health and mental 
health agencies; law enforcement, private industry; religious 
institutions; and civic organizations. The board assesses the risk 
factors that are putting children at risk and the protective factors 
that are helping keep them safe, then develops a comprehensive system 
of strategies that meets the needs of both children and the community. 
In fiscal year 2002, The Department has requested a total of $94.79 
million for Title V programs, including $12.472 million for the Tribal 
Youth Program, $14.967 million for the Safe Schools Initiative, $5 
million for Project Sentry; $37 million for Project ChildSafe; and 
$30.352 million for Title V Delinquency Prevention Program incentive 
grants.
    The programs discussed above total $292.476 million. The 
President's budget includes $3,639.722 million in domestic 
discretionary funding for state and local law enforcement, and funding 
for the above-mentioned programs represents 8 percent of that amount. 
In addition to these targeted programs, states and units of local 
government may elect to use funding provided through Local Law 
Enforcement Block Grant, the Byrne Formula Grant, and the Juvenile 
Accountability Incentive Block Grant to fund a variety of prevention 
programs.
                              video games
    Question. Violence in the media returned to the spotlight this week 
with the release of the Federal Trade Commission's first follow-up 
report to its blockbuster findings released last fall concerning the 
marketing of violence to children. This week, Senator Lieberman and I 
also introduced legislation to bar deceptive advertising to children of 
adult-rated movies, music and video games. Since you took office as 
Attorney General, you have been vocal on a number of occasions about 
the need to curb children's access to violent video games.
    As you may know, Senator Lieberman and I have closely monitored the 
video game industry for nearly a decade and have been pleased with the 
progress that we have encouraged. For example, there was no rating 
system at all in 1993. But now, in large part because of Congressional 
pressure, the video game industry has developed and adopted a rating 
system hailed by the Federal Trade Commission as the best in the 
entertainment industry. I hope to see further, significant progress in 
the near tern, and would welcome the opportunity to work with you to 
promote meaningful change.
    What pro-active, cooperative steps do you anticipate taking as 
Attorney General to reduce children's exposure to media violence?
    Answer. The Department of Justice will continue its efforts to 
reduce the exposure of children to media violence by promoting programs 
that help parents control their children's access to such materials, 
that teach children to become more discriminating consumers, and that 
increase the involvement and assistance from professional groups such 
as the medical community who are concerned about the effects of media 
violence.
    Specifically, the Office of Juvenile Justice and Delinquency 
Prevention is continuing to collaborate with the Federal Trade 
Commission (FTC) to help parents understand the media rating systems 
and the importance of monitoring their children's exposure to media 
violence. During the next few months, OJJDP will participate in the 
development, publication, and dissemination of materials based on the 
Federal Trade Commission's study, Marketing Violent Entertainment to 
Children. These materials are specifically geared to parents and the 
general public.
    Another strategy of the Department of Justice is to limit the 
harmful effects of exposure to media violence by focusing on children 
themselves and programs that increase their ``media literacy.'' Media 
literacy refers to critical thinking skills that enable youth to 
evaluate potentially harmful media messages and make better decisions 
on issues of violence and substance abuse in their own lives. Important 
work in this area is being supported by the Office of Juvenile Justice 
and Delinquency Prevention through its ``Delinquency Prevention through 
Media Literacy'' program. This research program is evaluating the 
effectiveness of the ``Flashpoint'' media literacy program, currently 
being offered by the District Attorney for the Eastern District of 
Massachusetts. As Attorney General, I wholeheartedly support an 
approach that directly enhances young peoples' capacity to reject 
violent media messages.
    The Department will continue to expand its partnerships with 
professional associations who are dedicated to improving the safety and 
well being of our children. Plans are currently under way to support 
the work of the American Academy of Pediatrics to develop protocols to 
help pediatricians screen children for exposure to all forms of 
violence, including media violence.
    Question. Last Fall's Federal Trade Commission report regarding the 
marketing of violence to children included a ``Mystery Shopper 
Survey,'' which was funded in part by the Department of Justice. This 
survey gauges the degree to which retailers allow children to purchase 
violent products at their stores. The September report revealed that 
children ages 13 through 16 were able to buy violent, ``Mature''-rated 
video games 85 percent of the time.
    As the Commission prepares to release a follow-up report in 
September, will you commit to continue to fund these important Federal 
Trade Commission' s (FTC) efforts?
    Answer. In the past 2 years, the Department of Justice and the FTC 
have built a strong partnership. The Department's support of the FTC 
study of Marketing Violent Entertainment to Children enabled the FTC to 
broaden its scope of inquiry and for the Department to provide critical 
information to parents and families. We anticipate that this 
collaboration will continue for as long as the need exists and funds 
are available.
                           economic espionage
    Question. Almost 5 years ago, Senator Arlen Specter and I wrote the 
Economic Espionage Act. It created criminal penalties for the theft of 
proprietary economic information. As I am certain you are aware, there 
is a growing market for illicitly obtained company trade secrets. I am 
concerned based on reports that the Department of Justice is not 
placing enough emphasis on the enforcement of this act.
    Please tell me how many prosecutions, indictments, and 
investigations have been launched under the Act and what type of 
resources are being allocated to its enforcement in your budget.
    Answer. The Federal Bureau of Investigation, United States 
Attorneys, and Criminal Division are all actively involved in 
enforcement of copyright laws. Since the enactment of the Economic 
Espionage Act (EEA) of 1996, the FBI has increased the number of theft 
of trade secrets cases it has opened for investigation:
  --On September 30, 1997, approximately 1 year after enactment of the 
        EEA, the FBI had 702 pending and preliminary economic espionage 
        cases;
  --As of September 30, 2000, the FBI had 751 pending and preliminary 
        economic espionage cases--an increase of 7 percent in 3 years.
  --In 2001, the FBI has 626 ongoing pending and preliminary theft of 
        trade secrets investigations. On average, over the past 3 
        years, the FBI has dedicated approximately 42 field agent 
        workyears to address these issues.
    As the number of theft of trade secrets investigations has 
increased, excluding foreign government involvement, there has been a 
corresponding increase in the number of indictments. The Computer Crime 
and Intellectual Property Section (CCIPS) of the Justice Department's 
Criminal Division is a leading proponent of the enforcement of the 
criminal copyright laws against software and Internet piracy. CCIPS has 
an active prosecution caseload of its own and regularly provides case 
support to United States Attorneys Offices nationwide.
  --From 1997 to 1999, 26 of the FBI's theft of trade secrets 
        investigations resulted in indictment.
  --In 2000 alone, 27 theft of trade secrets investigations resulted in 
        indictment. In other words, more theft of trade secrets 
        investigations resulted in indictments in 2000 than in the 
        previous 3 years combined.
  --As of May 16, 2001, 14 theft of trade secrets investigations have 
        ended with an indictment.
    It should be noted that most defendants indicted as a result of a 
theft of trade secrets investigation are not indicted under Title 18, 
Section 1832, Theft of Trade Secrets. For a number of reasons, 
prosecutors often opt to indict these cases under other federal 
statutes, such as the wire fraud, mail fraud, interstate transportation 
of stolen property and fraud and related activity in connection with 
computer statutes and, in one instance, the federal extortion statute.
    As the number of indictments have increased, so have the number of 
convictions. In every theft of trade secrets investigation that has 
resulted in an indictment, the defendant has either pled guilty or was 
found guilty following a trial.
  --In 1998, 11 of the criminal theft of trade secrets investigations 
        resulted in a conviction.
  --In 2000, 18 theft of trade secrets investigations resulted in a 
        conviction.
  --Through May 2001, 21 cases have resulted in guilty pleas or guilty 
        verdicts and eight are currently pretrial. One case was 
        dismissed without prejudice at the request of the government.
    As envisioned, the EEA has served to protect our national security 
and continued economic well-being by protecting trade secrets vital to 
virtually every sector of our economy. Noteworthy EEA prosecutions 
include:
  --One of the first indictments filed under the EEA involved the 
        conspiracy and attempt to steal the proprietary information 
        about the anti-cancer drug Taxol developed by Bristol-Meyers. A 
        district court opinion obligating the government to disclose 
        certain trade secret information was reversed by the Third 
        Circuit Court of Appeals, ensuring the protection of the trade 
        secret. Defendant Kai-Lo Hsu pled guilty in July 1999.
  --CCIPS attorneys brought the first EEA case to trial in the Eastern 
        District of Ohio. A Taiwanese company, Four Pillars 
        Enterprises, and 2 senior executives secretly hired a research 
        scientist employed by the Avery-Dennison Corporation to provide 
        Four Pillars with formulas and other proprietary information 
        concerning the development of adhesive products. The defendants 
        were found guilty of attempt and conspiracy to steal trade 
        secrets. Four Pillars was sentenced to a fine of $5 million, 
        the maximum fine permitted under the statute.
  --Intel Corporation was the victim of trade secret theft when a 
        prototype computer processing unit (CPU) was stolen from one of 
        Intel's business partners. It was estimated that the chip 
        manufacturer would lose up to $10 million if a rival 
        corporation had obtained the prototype CPU before its 
        introduction into the retail market. Two men attempted to sell 
        the stolen chips, were arrested and pled guilty to conspiracy 
        to steal trade secrets. One was sentenced to 60 months 
        imprisonment and the other was sentenced to 77 months 
        imprisonment, the longest sentence to date in an EEA case.
  --Several weeks ago, two Japanese scientists were arrested and 
        charged with stealing cell and genetic materials from a top 
        medical laboratory in Cleveland conducting research into the 
        cause and potential treatment of Alzheimer's Disease. The 
        defendants conspired to transfer these materials to the 
        Institute of Physical and Chemical Research, a quasi-public 
        corporation in Japan operating under the jurisdiction and 
        funding of the Japanese government. Charges alleging conspiracy 
        and theft of trade secrets to benefit a foreign government and 
        foreign instrumentality are still pending.
    In these and other cases, the Department has acted aggressively to 
enforce the EEA and protect against economic espionage and the theft of 
proprietary information. This statute has been an important tool to 
address computer crime, protect company trade secrets, enforce 
intellectual property rights of businesses and private citizens, and 
protect the economic vitality of the nation. For more information about 
Economic Espionage cases prosecuted by the Department, see the CCIPS 
website at www.cybercrime.gov.
           community-oriented policing service (cops) funding
    Question. To be sure, there is much to like in this budget: for 
example, $35 million is set aside to reduce the DNA sample backlog--
something I supported for years. However, this same budget trims a 
little too close in other areas.
    Specifically, $247 million is cut from COPS Public Safety and 
Community Policing Grants Program. Of that, more than $228 million will 
be eliminated from the COPS Hiring Program. Your budget justification 
states that: ``Overall, funding in this area will be reduced and 
redirected to other priority areas, notably technology grant 
programs.''
    Although the broader category of Crime-Fighting Technologies 
Program enjoys a $78 million increase--largely directed at programs for 
eliminating the DNA backlog or upgrading crime labs--but, the actual 
COPS Technology Grants program that goes to the local level is cut by 
nearly $47 million.
    This just doesn't add up. A cut is a cut and that's exactly what's 
happening to COPS programs in your budget--both to hiring initiatives 
and technology grants programs.
    The core principle of the COPS program was that a cop on the beat 
is the best way to catch criminals, prevent crime, improve the 
community and enhance the public trust and sense of safety. This 
principle was proven correct given the annual and dramatic drop in the 
crime rate since the passage of the 1994 Crime Act. Academic studies 
also bear this out. While I appreciate the role technology has to play 
in effective crime fighting, a computer is no substitute for a police 
officer.
    How can you be sure that this is the right time to cut the budget 
for hiring more police officers, especially given the growing need for 
them, especially in small towns and rural areas?
    Answer. In 2002, the Department of Justice will target limited 
federal resources to the most pressing needs of state and local law 
enforcement. Because the COPS hiring program has achieved one of its 
primary goals by providing funding for over 100,000 officers ``on the 
beat,'' the fiscal year 2002 request proposes a lower level of funding 
for the direct hiring of state and local law enforcement officers. 
Other COPS programs encouraging the advancement of community policing 
practices, now used by departments serving 86 percent of nation's 
population, will continue at their fiscal year 2001 level.
    In light of public concerns about crime in and around the nation's 
primary and secondary schools, the COPS office will focus its hiring 
efforts on increasing the number of school resource officers. COPS, 
through the continuation of the COPS in Schools (CIS) program, will 
provide state and local law enforcement agencies an average of 
$116,000, and a maximum of $125,000, per officer over 3 years, to 
assist in hiring officers who become assigned to a school.
    Depending on the needs of the local jurisdiction, the SROs funded 
through the CIS program teach crime prevention and substance abuse 
classes, monitor and assist troubled students, and build respect and 
understanding between law enforcement and students. These officers also 
assist in the identification of physical changes in the environment 
that may reduce crime in and around the schools, as well as assist in 
developing school policies, which address criminal activity.
    To date, through this highly successful program, the COPS Office 
has funded the addition of over 3,700 SROs who serve in their assigned 
schools, and it is estimated that by the end of 2001, the number of 
SROs funded will have grown to approximately 4,600. The $180 million in 
hiring funds requested in 2002 will allow for the funding and training 
of 1,500 SROs.
    If CIS applications fail to total $180 million, the COPS Office 
will continue to fund up to the amount available, within the $180 
million, the hiring of general community policing officers by providing 
up to $75,000 per officer over 3 years.
    While the COPS Office has partnered with the nation's largest 
cities, more than 82 percent of our grants have gone to departments 
serving populations of 50,000 or less. Based on its authorizing statute 
(the 1994 Crime Act), the COPS Office in 2002 will continue to be 
required to spend 50 percent of its available hiring funds on law 
enforcement jurisdictions serving populations less than 150,000. 
Therefore, small towns and rural areas will continue to benefit from 
the hiring funds made available through the CIS program.
    Question. What studies and analyses were prepared to lead you to 
the conclusion that cutting this program and emphasizing technology 
over people is the most efficient way to spend the remaining COPS 
dollars?
    Answer. Through the COPS Office's interactions with over 30,000 
grantees, encompassing 12,000 of the nation's 18,000 law enforcement 
agencies, several pressing and urgent concerns surrounding law 
enforcement communities have been identified. The Department, as well 
as the COPS Office, has consistently heard that given the reality of 
limited federal resources, what local law enforcement needs most is 
crime fighting technology. Technology, whether new or enhancements, 
will allow officers to work more efficiently, effectively, and safely 
in protecting our nation's streets and neighborhoods. In addition, as 
part of its ``National Evaluation of the COPS Program,'' the National 
Institute of Justice found that COPS grantees expressed more interest 
in reapplying for the MORE technology grants than the Universal Hiring 
Program grants. The same survey also confirmed that on a dollar-for-
dollar basis, MORE grants put more officers on the street.
    The Department has responded directly to this need by developing 
the COPS InfoTech program. The COPS InfoTech program, a comprehensive 
technology program, has been designed to provide law enforcement 
agencies with the ability and the capacity to access time-sensitive 
information that is vital to analysis and expeditious investigation, 
apprehension of suspected offenders, sophisticated crime prevention, 
and recidivism reduction. However, unlike previous COPS MORE grants, 
agencies will not be required to track and show redeployment through 
timesavings. This change will make InfoTech grants easier to use and 
administer.
    The COPS Office has a rich history of funding information 
technology systems. Since 1994, the COPS Office has funded several 
thousand state and local law enforcement agencies for information 
technology acquisition and implementation under the COPS MORE program, 
and the fiscal years 1998 through 2001 COPS Technology Programs. These 
projects range from the nation's very largest departments to the 
smallest, and include over 50 multi-jurisdictional or consortia 
projects. The COPS Office's proven track record and success in 
providing information technology funds and its knowledge of the history 
of these systems will provide new opportunities for innovation at the 
urban, suburban, and rural community levels.
    Question. The budget seems to be emphasizing school resource 
officers. What are the criteria for selecting school resource officers 
as opposed to COPS on the beat?
    Answer. In 2002, the COPS Office will continue to provide funds to 
state and local jurisdictions for the direct hiring of law enforcement 
officers. However, in light of the growing concern of crime in and 
around the nation's primary and secondary schools, the COPS Office will 
focus its hiring efforts on increasing the number of school resource 
officers (SROs) serving in our nation's schools. COPS, through the 
continuation of the COPS in Schools program, will provide state and 
local law enforcement agencies an average of $116,000, and a maximum of 
$125,000, per officer over 3 years, to assist in hiring officers who 
become assigned to a school.
    If CIS applications fail to total $180 million, the COPS Office 
will continue to fund up to the amount available, within the $180 
million, the hiring of general community policing officers by providing 
up to $75,000 per officer over 3 years through the Universal Hiring 
Program.
                       law enforcement resources
    Question. Wisconsin is under served in terms of federal law 
enforcement resources. From DEA, ATF, and FBI agents to federal 
prosecutors, Wisconsin significantly trails other states with similar 
populations. Yet, Wisconsin increasingly shares the same law 
enforcement concerns of other states. Over the past year, we added 
eight new DEA agents to Wisconsin--a 50 percent increase over the 
previous allocation. But that's still far less than other states with 
the same population.
    In terms of FBI agents, cities with significantly smaller 
populations than Milwaukee have as many or more agents. Albuquerque has 
half the Milwaukee area's population, yet 28 more agents. Louisville 
has half Milwaukee's urban population, but almost the exact number of 
agents. Buffalo has several hundred thousand fewer residents, but 23 
more agents.
    Similarly, Wisconsin has less federal prosecutors than states of 
similar size. Missouri and Tennessee are about the same size as 
Wisconsin, but enjoy 80 to 90 percent more federal prosecutors.
    Will you review the situation and work with me to address these 
disparities during this budget cycle?
    Answer. There are many factors that influence the decision to 
allocate additional resources. An area's population may be one factor, 
but there are many more factors that weigh into resource allocation 
process at the Federal Bureau of Investigation (FBI), United States 
Attorneys (USA), and Drug Enforcement Administration (DEA).
    Documented crime incidents is the primary factor considered by the 
FBI in determining the allocation of investigative resources. Other 
factors considered are regional characteristics, size of territory, 
number of resident agencies, the office's use of sophisticated 
investigative techniques, historical resource usage, and the presence 
of other law enforcement entities, as well as the region's population.
    The state of Wisconsin's overall onboard FBI agent and support 
personnel complements have increased as follows from fiscal year 1996 
to the current fiscal year 2001, as of May 15, 2001:

------------------------------------------------------------------------
              Fiscal Year                  Agent     Support     Total
------------------------------------------------------------------------
1996...................................         66         58        124
1997...................................         76         66        142
1998...................................         75         70        145
1999...................................         76         70        146
2000...................................         78         68        146
2001...................................         81         69        150
------------------------------------------------------------------------
From fiscal year 1996 to the current fiscal year 2001: +15 agents, 22.7
  percent increase.
From fiscal year 1996 to the current fiscal year 2001: +26 Total
  Personnel, 21.0 percent increase.

    In addition, the United States Attorneys have a formal allocation 
process that is used to ensure each district is given the same 
consideration for receipt of new resources. Population and size are two 
criteria used in the allocation process.
    The Executive Office for United States Attorneys establishes a 
working group composed of select United States Attorneys who examine 
relevant objective criteria and data prior to recommending additional 
resources for their districts. For example, before allocating the 
fiscal year 2001 positions for cybercrime, the working group examined 
statistical information regarding case activity and district-specific 
information for that program area. The district-specific information 
included: caseload and time data by program from the case management 
system, district size, average attorney work week, Assistant United 
States Attorneys workyears per 100,000 population, local/regional 
involvement, previous program related allocations, and law enforcement 
resources in the district which are dedicated to the program area at 
issue.
    In examining the attorney caseload and time data for Eastern 
District of Wisconsin, the cases handled per attorney workyear are well 
within the national average for all districts. Using similar objective 
criteria, the working group recommended an additional attorney for both 
the Eastern and Western Districts of Wisconsin for firearms 
prosecutions.
    The Drug Enforcement Administration (DEA) continues to implement 
additional steps to increase its presence in Wisconsin. The DEA will 
continue to conduct operational assessments to determine areas in the 
country that require the upgrade of existing DEA offices or the 
creation of new offices. These assessments are based on resource 
requests from senior DEA managers, input from state and local law 
enforcement officials, and budget allocations. Currently, DEA maintains 
offices in Milwaukee, Green Bay and Madison, Wisconsin.
    In an effort to address the growing drug trafficking threat in the 
state of Wisconsin, DEA has taken the following actions:
  --Milwaukee Resident Office.--In March of 2000, the Milwaukee 
        resident office was upgraded to a district office. The office 
        is currently staffed with 12 special agents, and 3 supervisory 
        special agents. Of the 12 special agents assigned to the 
        Milwaukee Resident Office, three agents are assigned to a High 
        Intensity Drug Trafficking Area Task Force (HIDTA). These HIDTA 
        agents participate in three separate drug enforcement 
        initiatives. One agent is assigned to the Heroin Initiative 
        managed by the Wisconsin Department of Narcotic Enforcement. A 
        second agent is assigned to the South Side Gang Initiative, 
        which is managed by the Milwaukee Police Department. In 
        addition, the third special agent is assigned to the Common 
        Thread Initiative, which is managed by the Federal Bureau of 
        Investigation.
  --Green Bay Post of Duty.--In June 2000, the Green Bay Post of Duty 
        was upgraded to a Resident Office. The office is currently 
        staffed with 2 special agents and 1 supervisory special agent.
    These changes have resulted in the increase of special agent 
positions in Wisconsin from 15 in 1998 to the current level of 20 
special agent positions.
    In addition to the special agent positions, 19 positions were 
allocated for deputized DEA Task Force Officers in the state of 
Wisconsin. DEA has 6 diversion investigators assigned to offices in 
Wisconsin, who investigate methamphetamine crimes and track the 
precursor chemicals necessary to produce methamphetamine. In an effort 
to address more efficiently the growing drug trafficking activities 
occurring in the northern part of Wisconsin, as well as the cities of 
Minneapolis-St. Paul, Minnesota, the Minneapolis-St. Paul Resident 
Office was upgraded to a District Office on June 21, 2000, resulting in 
the posting of 16 special agents and 21 DEA Deputized Task Force 
Officers. The DEA Minneapolis-St. Paul District Office has 
responsibility for conducting methamphetamine investigations and 
provides support to law enforcement agencies in eight counties in 
northern Wisconsin: Bayfield, Burnett, Douglas, Pierce, Polk, Sawyer, 
St. Croix, and Washburn.
    DEA is in the process of conducting an assessment for deployment in 
Milwaukee, Wisconsin. DEA anticipates the Mobile Enforcement Team (MET) 
deployment for Milwaukee will commence in mid October 2001. The 
Operations Division in DEA Headquarters is expediting the process of 
upgrading the Madison Post of Duty to a Resident Office. A Resident 
Agent in Charge and 2 additional agents will be assigned to this office 
to supplement the 2 agents currently assigned in Madison. This will 
result in a total of 5 agents assigned to the Madison Resident Office, 
which would subsequently allocate more staffing and resources to pursue 
methamphetamine investigations.
    I share your concern that every office be treated equitably in 
terms of the allocation of resources. It is precisely this concern that 
has led to establishing objective review procedures within the 
Department of Justice.
                         antitrust enforcement
    Question. As a ranking member of the Judiciary Committee's 
Antitrust Subcommittee, I was pleased to see that the Antitrust 
Division is scheduled to receive an increase of funding of over $20 
million, to nearly $141 million, for fiscal year 2002. I believe that 
it is vitally important that the Antitrust Division receive sufficient 
resources in order that it be able to carry out its mission to preserve 
competition in today's era of increasing corporate consolidation.
    For what purposes do you propose to use this additional funding?
    Answer. Additional funding is earmarked in the President's budget 
to bolster the Antitrust Division's merger enforcement program which 
has seen a dramatic rise in workload in recent years. The Division has 
worked hard to maintain its effectiveness in the face of a daunting 
number of filings, many of which involve global competitors and 
complex, competitive issues. Although the recent economic downturn has 
slowed merger momentum in 2001, most private sector analysts remain 
optimistic about the long-term health of the merger market.
    Question. Which components and programs of the Antitrust Division 
will receive these funds?
    Answer. The Division will direct additional resources to its 
Preservation of Competitive Market Structure program of which merger 
enforcement is a component part.
    Question. Are there new types of investigations or sectors of the 
economy about which the Division plans to become more active?
    Answer. There are several trends--globalization, deregulation, 
technological advancement, among others--which, taken together, are 
fundamentally altering the United States economic landscape and giving 
rise to new economic sectors, industries, and business practices. 
Keeping up with these changes has been and continues to be a 
significant challenge for the Antitrust Division.
    Increasingly, economic activity, whether initiated in the United 
States or abroad, is global in scope. In fiscal year 2000, 32 percent 
of the preliminary investigations opened in the Division's merger 
enforcement program were international. The size and complexity of 
these deals demand the application of additional resources, not only in 
staff time but also in foreign travel, litigation support, and 
translation expenses.
    Beyond the internationalization of merger activity, many recent 
mergers involve commodities, industries, or competitive issues, which 
are particularly complex and difficult to analyze. In recently 
deregulated industries (e.g., energy, utilities, airlines), there are 
typically significant antitrust issues associated with merger 
enforcement. In others (e.g., information technology, electronic 
commerce, telecommunications), the economic paradigm is shifting so 
rapidly that the Division must employ new analytical tools that allow 
it to respond quickly and appropriately. The Division must be vigilant 
against anticompetitive behavior in the new economy where the Internet 
and cutting-edge information technology are reshaping the way companies 
do business.
    Question. Do you plan to hire additional attorneys, economists, 
paralegals, or other staff, and, if so, how many?
    Answer. The $20 million program increase would cover base 
adjustments and fund an additional 113 positions, including 38 
attorneys and 75 paralegals.
    Question. More generally, how do you see this funding increase as 
improving the Antitrust Division's ability to better perform its 
mission?
    Answer. The Division takes very seriously its mission to promote 
competition in the United States economy through enforcement of, 
improvements to, and education about antitrust laws and principles. The 
funding requested in our fiscal year 2002 budget will enable the 
Division to handle its merger workload faster and more efficiently 
while also maintaining a vigilant stance against anticompetitive 
behavior and practices. The ultimate beneficiaries of the Division's 
efforts are the American consumer and American businesses. We estimate 
that, since fiscal year 1998 when data was first available, the 
Division has saved consumers roughly $13.6 billion through its efforts 
in all three enforcement areas--merger, criminal, and civil non-merger. 
By protecting competition across industries and geographic borders, the 
Division's work serves as a catalyst for economic efficiency and 
growth. Additional funding is needed to enable the Division to meet the 
challenges presented by an increasingly global and technologically 
advanced society and continue to safeguard competition and innovation.
                           ballistics funding
    Question. Last year, I requested that the FBI receive $1.36 million 
to integrate the best features of the FBI's DRUGFIRE system and the 
Bureau of Alcohol, Tobacco, and Firearms Integrated Bullet 
Identification System (IBIS) into one national ballistics imaging 
system, NIBIN. The Conference Report passed last year stated that ``the 
FBI may spend up to $1,364,000 for National Ballistics Integrated 
Ballistics Network (NIBIN) Connectivity.'' The President's budget makes 
no mention of these efforts continuing in fiscal year 2002. Is the FBI 
expending resources to integrate the two different ballistics testing 
systems in the one NIBIN network?
    Answer. The FBI decided in 1998 that it would use Criminal Justice 
Information Services-Wide Area Network (CJIS-WAN) as the national 
telecommunications network for NIBIN connectivity. In December 1999, 
the FBI entered into a Memorandum of Understanding (MOU) with the 
Bureau of Alcohol, Tobacco and Firearms (ATF) to work together to 
implement the new unified NIBIN. Under that MOU, the FBI is responsible 
for installing and maintaining CJIS-WAN connections in all NIBIN 
locations, including approximately 59 ATF-sponsored sites which will 
require CJIS-WAN connections.
    The success of NIBIN depends on the continued installation, 
operation, and support of the CJIS-WAN as the telecommunications 
network over which law enforcement agencies across the country exchange 
evidentiary information in violent crime cases.
    During fiscal year 2001, the FBI is providing for the upgrade of 
existing telecommunications lines, racks, and routers for 130 NIBIN 
sites, fully utilizing the enhancement of $1.4 million received through 
the fiscal year 2001 Justice Appropriations Act. Additionally, the FBI 
is providing for the maintenance of all existing DRUGFIRE systems 
through base funding of $4.1 million, as none of the systems have been 
converted yet to the new unified system.
    Question. Assuming that further resources will be necessary to 
complete this work, will you support further funding to accomplish a 
unified NIBIN network?
    Answer. During fiscal year 2002, the FBI will provide for new 
installations and upgrades of telecommunications lines, racks, and 
routers for the remaining 77 sites and maintenance of all existing 
DRUGFIRE systems. The FBI anticipates spending all of the $1.4 million 
for NIBIN connectivity in fiscal year 2002.
    For fiscal year 2003, it is anticipated that ATF will complete the 
replacement of DRUGFIRE systems. The NIBIN Board has decided that in 
order to provide remote diagnostics and maintenance on legacy DRUGFIRE 
regional databases, certain current DRUGFIRE units should remain 
networked via CJIS-WAN, even after the transition to NIBIN is 
completed. This means that maintenance and user support costs and CJIS-
WAN communications costs must be paid by the FBI after the transition 
to NIBIN for a select number of DRUGFIRE units.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
              border patrol agents for the northern border
    Question. Mr. Attorney General, I want to thank you for coming here 
to explain your proposed budget for the Justice Department.
    I was happy to see you include increases for the enforcement of 
Violence Against Women Act (VAWA) and the United States Attorneys in 
your budget. However, I am concerned about decreases in many critical 
programs, such as Juvenile Justice Programs, the COPS program and 
funding for Indian Country.
    I want to highlight one area of the Department of Justice (DOJ) 
budget that is very important to me and many of my colleagues.
    The Border Patrol protects our nation from the influx of illegal 
aliens, identifies and apprehend criminals, and stops dangerous 
narcotics from crossing our borders.
    Your budget proposes $75 million to fund 570 new Border Patrol 
agents in both 2002 and 2003, and includes further resources for 
technological improvements and intelligence units. I intend on helping 
you secure that funding.
    Mr. Attorney General, I want to call your attention to a serious 
threat--both in terms of our national security and our efforts to stop 
the flow of illegal drugs into our country.
    In recent years, we have neglected the real and growing needs of 
the Northern border.
    Many of us would be shocked to know that our Northern border with 
Canada has only 280 Border Patrol agents for approximately 4,000 miles 
of border. In contrast, the Southwest border has nearly 8,000 agents 
for 2,000 miles. That is 4 agents for every mile in the South compared 
to 1 agent for every 14 miles in the north. The Southwest border has a 
need for Border Patrol agents, and we should not take resources away or 
shift the focus from the difficult situation that exists on the 
southwest border. Along with many law enforcement officers, I'm very 
concerned that international terrorists and drug smugglers are taking 
advantage of our inadequate security at the Northern border.
    Most of the world's most dangerous terrorists groups have located 
``cells'' of their organizations in Canada to have easy access to the 
United States.
    It is far too easy for terrorists to live in anonymity on the 
Northern border so they can plan their attacks on the United States.
    A year and a half ago, this threat of attack became a reality. In 
December of 1999, a suspected terrorist named Ahmed Ressam, was 
apprehended while trying to enter Washington state through Canada. He 
was carrying 100 pounds of bomb-making supplies, including a 
substantial amount of nitroglycerin. He had rented a room in Seattle 
near where a massive January 1st celebration was planned. A similar 
situation occurred in 1998, where a terrorist was apprehended in 
Brooklyn, New York, who entered the United States through Canada. He 
admitted he intended to conduct a suicide attack in New York.
    Aside from terrorists, the Northern border has also become a major 
drug trafficking area.
    We have been so successful on the Southwest border, that drug 
smugglers have begun to use the Northern border as the preferred method 
of bringing drugs into the country.
    We can no longer allow the Northern border to be neglected. Our 
security and our efforts to curb the flow of drugs are at risk.
    Mr. Attorney General, if we honor your request for more funding for 
border activities, are you committed to providing new agents and 
additional resources for the Northern border?
    Answer. Thank you for your commitment to help secure funding for 
570 new Border Patrol agents in both fiscal year 2002 and fiscal year 
2003. We are committed to bringing needed staffing and resources, 
including the Integrated Surveillance Intelligence System (ISIS), and 
agent support equipment such as night vision goggles, pocket scopes and 
infrared scopes to all the borders of the United States. The Border 
Patrol Strategy for 1994 and beyond remains our blueprint for improving 
management of the border between the ports-of-entry and guides our 
deployment of resources to achieve the deterrence required for border 
control. In accordance with this strategy, we are working toward border 
control in 4 phases.
    Phase I--Control San Diego and El Paso Corridors
    Phase II--Control South Texas and Tucson Corridors
    Phase III--Control Remainder of the Southwest Border
    Phase IV--Control all of the U.S. Borders/Adjust to Flow
    We are currently in Phase II of the strategy. As the Border Patrol 
Strategic Plan has matured, the Border Patrol's strategic efforts have 
been directed to areas of operational focus along the Southwest border: 
Operation Rio Grande (including Operation Hold-the-Line) in Texas, 
Operation Gatekeeper in California and Operation Safeguard in Arizona. 
The preponderance of staffing and resources will continue to be 
deployed to the southwest border through Phase III, where the highest 
levels of illegal entries are occurring. However, we do plan to deploy 
additional agents and technology resources along the Northern border in 
both fiscal year 2002 and fiscal year 2003 to address compelling 
enforcement requirements.
    In addition to the new agent positions being deployed to the 
Northern border in fiscal year 2001, we plan to increase our force-
multiplying capabilities in 2 additional areas, technology (ISIS as 
mentioned above) and intelligence sharing. ISIS systems are being 
placed in the Blaine, Washington; Buffalo, New York; and Swanton, 
Vermont Sectors. The President's fiscal year 2002 budget calls for 
additional resources along the Northern border for establishing 
intelligence units. We support the request for these additional 
resources and ask that you help us secure this funding.
    Overall, the national strategy has been successful, and we plan to 
follow through with the current phasing of the strategic plan. We will 
continue to monitor the situation along our Northern border and are 
prepared to adjust to any major shift in illegal cross border activity.
    In an effort to maximize the effectiveness of enforcement resources 
along our Northern border, the Border Patrol participates in joint 
federal, state and local cooperative law enforcement initiatives. These 
include Project North Star, the Integrated Border Enforcement Team 
(IBET), and the Canadian Border Intelligence Center.
    Project North Star was established to assist federal, state and 
local law enforcement organizations in counter drug operations along 
the contiguous border of the United States and Canada. The principal 
focus is to encourage and promote liaison between law enforcement 
agencies in both the United States and Canada through the exchange of 
ideas and information. This interaction benefits all participants by 
providing a mechanism for law enforcement agencies to coordinate their 
efforts, minimize conflicts between the various enforcement operations, 
and improve border-wide intelligence sharing, training and strategic 
planning.
    The IBET was developed by our Blaine Washington Border Patrol 
Sector, and brings together law enforcement assets from the United 
States Customs Service, Royal Canadian Mounted Police and the United 
States Border Patrol. These enforcement resources mutually support one 
another in a coordinated effort that maximizes each agency's 
effectiveness in deterring and stopping cross border crime. This 
concept has been very successful in Washington and is being exported to 
other locations along the Canadian Border as well.
    The Canadian Border Intelligence Center (CBIC) is a joint 
intelligence group located in the Swanton Vermont Sector Headquarters. 
The CBIC collects law enforcement sensitive intelligence from a wide 
variety of sources, which is then compiled, analyzed and disseminated 
to federal, state and local law enforcement agencies border-wide in 
both Canada and the United States.
    These joint efforts were recently very successful in controlling 
the border during the Summit of the Americas Conference in Quebec, 
Canada. We believe that the Border Patrol is adequately prepared to 
meet its responsibilities in its overall focus on the Northern border. 
We will not neglect the Northern border in implementation of any of the 
phases of the National strategy.

                          subcommittee recess

    Senator Gregg. The next hearing will be on Tuesday, with 
the Secretary of Commerce, Donald Evans.
    Thank you.
    [Whereupon, at 11:01 a.m., Thursday, April 26, the 
subcommittee was recessed, to reconvene at 10 a.m., Tuesday, 
May 1.]


DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED 
              AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2002

                              ----------                              


                          TUESDAY, MAY 1, 2001

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room S-146, the 
Capitol, Hon. Judd Gregg (chairman) presiding.
    Present: Senators Gregg, Stevens, Hollings, Kohl, and 
Murray.

                         DEPARTMENT OF COMMERCE

                        Office of the Secretary

STATEMENT OF HON. DONALD L. EVANS, SECRETARY
ACCOMPANIED BY:
        BARBARA RETZLAFF, BUDGET OFFICER
        SCOTT GUDES, ACTING UNDER SECRETARY, NATIONAL OCEANIC AND 
            ATMOSPHERIC ADMINISTRATION

    Senator Gregg. We will start the hearing.
    We appreciate the Secretary's attendance and thank him for 
his time. We know he has a busy schedule and appreciate his 
taking time out of his schedule to participate in this 
appropriations hearing.
    I will reserve my opening statement. Senator Hollings, do 
you have a statement?
    Senator Hollings. No, thank you, Mr. Chairman. I think we 
can move right ahead and hear from the Secretary.
    Senator Gregg. We would love to hear the Secretary's 
thoughts.
    Secretary Evans. Thank you, Mr. Chairman. I am delighted to 
be here.
    I do have a formal statement that I would ask be inserted 
in the record. I will not bore you by reading that to you.
    Senator Gregg. Absolutely; it will be.
    [The statement follows:]
                 Prepared Statement of Donald L. Evans
    Thank you for the opportunity to appear before you to present the 
Department of Commerce's fiscal year 2002 budget request. Our focus, 
first and foremost, is funding the core missions of the Department and 
its bureaus. Thus, the President's budget request proposes increases 
only in those areas that are critical to promoting economic growth, 
technological competitiveness, trade monitoring and compliance, and 
natural resources management.
    The fiscal year 2002 budget request for the Department of Commerce 
is $4.75 billion, $381 million less than in fiscal year 2001. The 
request includes $97.6 million for adjustments-to-base. We are also 
requesting $9.7 million to restore security funding in each of the 
bureaus. This request will ensure adequate funding to provide 
nationwide security services including guard contracts, background 
investigations, information security, and counterintelligence 
activities.
    Departmental Management (DM) requests $37.7 million to provide 
headquarters policy and oversight for the bureaus. Although no program 
increases are proposed in fiscal year 2002, $4 million in the base will 
fund the following digital department projects: $2.5 million to provide 
real time computer help desk support; $1.25 million to allow for 
digital signature capability on electronic documents; and $0.25 million 
for a voice over Internet protocol pilot that would utilize one 
telephone line for voice and data transmission. These requirements are 
important not only to fully utilize the new technology infrastructure 
funded in fiscal year 2001, but they also allow the Department of 
Commerce to capitalize on cutting edge technologies.
    The DM account contains the first of four major reductions in the 
fiscal year 2002 budget. The President and I strongly believe that 
these reductions are necessary to focus the Department on its core 
missions and to contain the overall spending of Federal discretionary 
programs. In fiscal year 1999, $125 million was appropriated for the 
Emergency Oil and Gas Loan Guarantee Program to assist companies in 
this struggling industry. Loans totaling less than $5 million have been 
made, and oil and natural gas prices have rebounded, thus we are 
requesting a rescission of $115 million. The Emergency Steel Loan 
Guarantee Program was appropriated $145 million, and two loans have 
closed totaling $129.5 million. We are requesting a rescission of $10 
million for this program.
    The Office of Inspector General (OIG) requests $21.2 million. This 
includes a program increase of $0.5 million to increase financial 
statement audits by the OIG. This work will be contracted out, thus no 
additional full-time employees are requested.
    The Economic Development Administration requests a total of $365.6 
million. The Salaries and Expenses (S&E) request is $30.6 million, and 
this includes a program increase of $1.7 million to develop and 
implement the Economic Development Communications and Operations 
Management System, a grants management system that will automate the 
entire grants cycle from needs assessment to performance measurement. 
The Economic Development Assistance Programs request is $335 million, a 
$76 million decrease from fiscal year 2001, and the second major 
reduction requested for fiscal year 2002 in our budget. No funding is 
requested for Defense Economic Adjustment grants, as the last BRAC 
round was authorized for 1995.
    Two of the most important program increases which I am proud to 
endorse in the fiscal year 2002 budget are requested for the Economics 
and Statistics Administration. Of the $62.5 million account request, $3 
million is proposed to continue to improve core statistics including 
Gross Domestic Product and related measures, and $3.5 million is 
proposed to update information technology systems that support the 
provision of key economic data.
    The Bureau of the Census requests $543.4 million, consisting of 
$168.6 million for S&E and $374.8 million for Periodic Censuses and 
Programs (PCP). This appears to be a significant increase over fiscal 
year 2001, however, PCP realized a carryover of $300 million from 
fiscal year 2000 into fiscal year 2001, and this reduced our request in 
fiscal year 2001 for new funding. The PCP request includes funding for 
several critical programs: cyclical increases for the 2002 Economic and 
Government Censuses; planning for the 2010 Decennial; implementing the 
American Community Survey; and redesigning the demographic survey 
samples to incorporate the results of Census 2000.
    The International Trade Administration (ITA) requests $329.6 
million. This funding level eliminates $13.5 million in grant programs, 
however, our request continues full funding for program increases 
provided in fiscal year 2001 for trade compliance and monitoring. Trade 
compliance is my highest priority for ITA, and I intend to focus ITA's 
efforts in this area.
    The Bureau of Export Administration requests $68.9 million in 
fiscal year 2002. This request includes a program increase of $1.6 
million for the redesign and replacement of the Export Control 
Automated Support System, which will enable better and faster decisions 
on license applications to accelerate U.S. competitiveness in global 
markets. An increase of $0.5 million is also requested to achieve 
efficiencies in processing export licenses.
    The Minority Business Development Agency requests $28.4 million, 
and this includes a program increase of $0.8 million for expansion of 
the Phoenix Database. This electronic portal will operate as an on-line 
business information center, and will provide electronic links to state 
and local governments, community development organizations, and 
strategic partners, significantly increasing business and economic 
development activity for the minority business community.
    The National Oceanic and Atmospheric Administration (NOAA) requests 
a total of $3.1 billion. This includes an increase of $136.9 million to 
provide for critical weather warning and forecast services and climate 
research. Within this request is a net increase of $96 million to 
continue the acquisition of NOAA satellites, mainly the joint DOD/NOAA 
National Polar-Orbiting Operating and Environmental Satellite System 
(NPOESS) for weather, search and rescue, and oceanographic products for 
both military commanders and the civil community. An increase of $40.2 
million is designated to continue and expand coastal conservation and 
ocean exploration activities, which will build on the progress that 
NOAA has made to preserve the Nation's coasts and oceans, as well as 
promote undersea missions of science and discovery.
    I want to emphasize that NOAA is requesting a total of $243.8 
million for global climate change activities. Included in this funding 
level is $34.7 million for NOAA's Climate Services Initiative, which 
focuses on enhancing climate observations, supporting carbon dioxide 
research, and climate change assessments. NOAA's contributions to long-
term atmospheric measurements and research modeling are essential to 
our ability to analyze global climate change. NOAA requests $61.6 
million to support the agency's long-term commitment to the management 
of the nation's marine fisheries, including improvement of the 
accompanying science, management, and enforcement activities. An 
additional $36.3 million is required to maintain NOAA infrastructure, 
including its facilities, vessels and aircraft, and to support other 
program requirements.
    The third major reduction in the Department's request is $149.7 
million for NOAA's Coastal Impact Assistance Fund (CIAF). Created in 
fiscal year 2001 to address the impacts of coastal development in the 
seven states involved in off-shore oil and gas production, we feel that 
this funding duplicates efforts of the Coastal Zone Management (CZM) 
program, in which all 33 coastal states are eligible to seek funds. In 
addition to elimination of the CIAF, NOAA also requests terminations 
and reductions of unrequested projects from fiscal year 2001 of $245.9 
million in order to fund proposed program increases and adjustments-to-
base.
    The Office of Technology Policy requests a total of $8.2 million to 
continue its activities with the Office of Space Commercialization, the 
National Medal of Technology Program, the Experimental Program to 
Stimulate Competitive Technology (EPSCoT), and the Commerce Science and 
Technology Fellowship Program.
    The fourth major reduction requested for the Department falls under 
the National Institute of Standards and Technology's (NIST) request of 
$487.4 million. The request for NIST focuses on the core functions and 
basic mission of NIST. We propose a decrease of $132.4 million from the 
fiscal year 2001 funding level for the Advanced Technology Program 
(ATP) and the suspension of granting new ATP awards in fiscal year 
2002. Furthermore, NIST proposes to utilize funds made available in 
fiscal year 2001 to pay for prior-year commitments in fiscal year 2002. 
The Department is in the process of evaluating the program to determine 
whether a need still exists for Federal funding to assist U.S. industry 
in conducting applied research and development. NIST is requesting a 
total of $20.9 million for the maintenance and repair of its facilities 
in Gaithersburg, Maryland and Boulder, Colorado.
    The National Telecommunications and Information Administration 
(NTIA) requests $73 million. This includes a program increase of $2.1 
million for the Radio Spectrum Measurement van and suitcase necessary 
for NTIA's analysis of critical new wireless technologies. We are 
requesting a decrease of $30 million in the Technology Opportunities 
Program (TOP), for a total request of $15.5 million. This funding will 
enable NTIA to support approximately thirty new grants to under-served 
communities to demonstrate innovative uses of emerging information 
technologies.
    The Patent and Trademark Office (PTO) requests a total program 
level of $1,139 million, a $100 million increase to manage its growing 
workload. In 2002, patent applications are expected to rise by 12 
percent and trademark applications by 11 percent. This funding will 
enable PTO to recruit and retain examiners and make IT investments to 
improve productivity.
    As previously stated, this budget request for the Department of 
Commerce has been carefully crafted to focus on the core functions the 
American people rely on from this agency. It is the Administration's 
belief that government should reduce discretionary spending, and we 
have done so with a budget lower than the previous year's. Although 
reduced funding is requested, this does not mean our performance will 
follow the same trend. Rather, we will further enhance economic growth, 
technological competitiveness, trade monitoring and compliance, and 
natural resources management, thus ensuring a better quality of life 
for all Americans.
                                 ______
                                 
                 Biographical Sketch of Donald L. Evans
    Donald L. Evans was nominated by President-elect George W. Bush in 
December 2000, confirmed by the U.S. Senate, and sworn in as the 34th 
U.S. Secretary of Commerce on January 20, 2001.
    Formerly chairman and chief executive officer of Tom Brown, Inc., a 
large independent energy company in Midland, Texas, Secretary Evans 
oversees a diverse Department with more than 40,000 employees and a 
budget of $5.1 billion. The Department of Commerce exercises broad 
responsibilities for promoting U.S. business development and job 
creation, trade, technology and environmental stewardship of our 
coastal and ocean resources.
    As Secretary of Commerce, Secretary Evans is the voice of American 
business in the President's cabinet, and he represents America's 
business interests around the world. President Bush has described him 
as ``an advocate who carries with him knowledge of trade and proven 
skill as a negotiator.'' He is a key member of the President's economic 
team and his energy task force.
    Secretary Evans has said that he sees the mission of the Department 
of Commerce under his guidance as being ``to create an environment in 
which American businesses and American capital can thrive at home and 
abroad.''
    To this end, Secretary Evans has set out an aggressive agenda, with 
a focus on open and fair trade; e-commerce; accurate and timely 
economic data; sound science; and development of cutting-edge 
technology.
    Born in Houston, Texas, in 1946, he is a graduate of the University 
of Texas where he received a Bachelor of Science degree in mechanical 
engineering and an MBA. His early career included a stint as a 
roughneck on an oil rig in West Texas and work in a steel mill.
    In 1975, he joined Tom Brown, Inc., becoming CEO at the age of 33 
in 1985.
    Active in civic and philanthropic affairs, he served as chairman of 
the Board of Regents of the University of Texas and was a driving force 
behind Native Vision, a program that provides services to some 10,000 
Native American children in America.
    Secretary Evans also has been active in state and national 
politics, most recently serving as Chairman of the Bush-Cheney 2000 
campaign.
    Secretary Evans and his wife Susie have three children and are 
members of the United Methodist Church.

                 overview of secretary evans' statement

    Secretary Evans. I have a few thoughts that I would like to 
offer, and then I would be delighted to respond to any 
questions that you have for me.
    This process has reminded me of my years in the private 
sector. There was always a period each year in the company when 
we would deal with budgeting, and it was an arduous process 
that nobody liked going through, but it always reminded me how 
important the process was, to get your entire organization 
focused on your priorities and your needs and your goals, and 
also reminding the people in the organization that it is not 
your money; it is somebody else's money that you are spending. 
So I think it is certainly a good discipline to go through in 
the private sector and is a good discipline for me to be able 
to go through in these first 100 days, because it has really 
allowed me to get, I think, a greater understanding and depth 
of knowledge as to Commerce and its goals and objectives. I 
would like to compliment Barbara, on my right, who did a 
terrific job of not only taking me through the budget, but the 
entire organization.
    As I looked at the budget that we were presented early in 
the year, I wanted to go back and look at the budget growth of 
Commerce over the last number of years, and I would compliment 
this committee for really putting the Commerce Department on 
very sound footing. If you look at the growth of the Commerce 
Department over the last 11 years, it has been a little over 8 
percent. The growth over the last 5 years has been a little 
over 9 percent, and the growth in the Commerce Department's 
budget over the last 3 years, including the 2002 budget that we 
have offered, is a little over 11 percent. So when I think of 
11 percent growth over the last 3 years or 8 percent growth 
over the last 11 years, I think it has grown at a fairly 
healthy rate. And as I look at the budgets and goals and 
priorities that we have in Commerce, I would say that these 
goals and priorities are being funded.
    The one message that I tried to send throughout the 
Department was the importance of our focusing on our core 
mission, whatever it might be, and any agency, any bureau, 
whatever your core mission is, make sure that that is your 
priority and that that is what is being funded first.
    So with that kind of theme of focusing on the core mission 
and our priorities, I think that what we have presented is a 
responsible and prudent budget, and I think it is there in 
large part of action that you take and this committee has taken 
over the last number of years to make some meaningful increases 
in the budget.
    Let me talk about just a few of the specifics, and then I 
am glad to respond to any questions that you might have.
    In the area of international trade, everybody that I talk 
to when I talk about trade, I talk about it in terms of free 
and fair trade. I try to use the phrase ``level playing field'' 
often.
    I do not think there is anything that dispirits and can 
destroy trade more quickly than for there to be an unlevel 
playing field. I do not think there is anything that dispirits 
the American worker more quickly than an unlevel playing field, 
or the American businessman or businesswoman. So I put a lot of 
emphasis on that, because it is vitally important.
    Senator, good morning; nice to see you.
    Senator Stevens. Good morning.
    Secretary Evans. So when I talked about priorities in the 
International Trade Administration, I wanted to make sure the 
resources were there to enforce the agreements and make people 
compliant and enforce our laws. So I was pleased to find out 
that this committee authorized a year ago an increase and had 
the Trade Compliance Initiative, which I think is a very 
important initiative, that is allowing us to add some 60 
employees to focus on compliance and focus on a level playing 
field.
    So I think that is already in the budget, and we are trying 
to fill those positions, but it is a priority that to me is at 
the top of the list, because if you are going to expand trade 
in the world, you had better make sure that everybody is on the 
same playing field, period, end of statement. I just want to 
make sure that we continue to send the signal around the world 
that we are going to be tough when it comes to compliance.
    Export licensing is another very important area, and it is 
an important area because technology continues to move quickly 
and move fast, and one of the problems that our industries have 
had in this country is the delays in issuing a license to 
export their equipment and their software around the world. So 
we have asked for another $2 million to implement an 
information system that would speed up the licensing process 
for export licenses.
    The area of critical infrastructure protection is obviously 
an area that is on everybody's mind inside Government and 
outside the Government. It is an initiative that started a 
number of years ago in Government. Commerce has been charged 
with a big responsibility and is part of the organization that 
is involved in critical infrastructure protection. We have 
three agencies that are within Commerce that are active in it. 
One is the Bureau of Export Administration, which is where we 
have what we call CIAO, which is the management piece within 
Commerce. It relates to the private sector and connects the 
public sector with the private sector to develop policies and 
programs, et cetera. NIST is very involved in it, the National 
Institute of Standards and Technology; they have a team of 
experts that goes around, looking at systems within Government 
to see if they are compliant and have the right systems in 
place to protect their infrastructure. NIST has a research 
program that is connected with this. They have a grants program 
that is connected to this. And then, NOAA also has important 
programs that are part of the critical infrastructure 
protection overall effort.
    But while we have asked for an $8 million increase in this 
whole area, I know it is a subject that is very much on your 
minds, it is very much on our minds, and principally, how it is 
going to be organized going forward. I am sure that we are 
taking a hard look at it within Commerce. We are looking at it 
carefully with the White House in terms of how we think it 
should be structured. It is a very important area, and I think 
Commerce should always play a big role in it just because of 
our connection to the private sector.
    When I come to the area of the Bureau of Economic Analysis, 
which is all part of the Economics and Statistics 
Administration, one of the critical areas that has received 
focus from you, rightfully so, is that the statistics that have 
come out of the Bureau of Economic Analysis have not been on 
the mark or on the money. Specifically, I think the simplest 
example, of course, is GDP. It is my understanding that the 
gross domestic product has been consistently underestimated, 
the growth of it has been, about 50 basis points for the last 8 
or 9 years. And this is something that you recognized before I 
showed up. This is something that has been talked about.
    You started a program a year ago to upgrade our efforts. We 
are asking to continue that; we are asking for another $9 
million to hopefully provide us with the tools, with the 
systems, so that we will more accurately predict what the gross 
domestic product growth is in this country.
    Just to show you the impact of this--and I know that you 
are aware of it, but I will mention it anyway--if you 
underestimate it some 50 basis points, and that gets into your 
budgeting process, it means that you underestimate the budget 
surplus $1 trillion over a 10-year period. The reverse is of 
course true also--if you overestimate it 50 basis points, it 
means that you have overestimated the surplus $1 trillion.
    So it just shows the importance of making sure that you are 
providing as accurate a number as you possibly can for the 
entire budgeting process.
    In the area of technology and NIST in particular, which is 
one of the crown jewels of the Federal Government as far as I 
am concerned--it is just an incredible treasure that we have, 
with an incredible cadre of talented scientists that we have 
there--one of the areas that is important to me, as I have 
already mentioned, is focusing on the core mission. There are a 
couple of really big, important labs that are coming out of the 
ground. One is out of the ground, and another is coming out of 
the ground--the Advanced Measurement Lab that is under 
construction and will be completed sometime, in the next year 
to 18 months. I look at these very vital labs that are being 
built, and I really do not worry about it, but I am mindful 
that we need to have the most modern, state-of-the-art, 
cutting-edge technology inside those labs, because the whole 
purpose of NIST is to be out in front of the industry and out 
on the very cutting edge, have the finest equipment, the finest 
people.
    So I feel confident that I am going to be up here a year 
from now asking for a substantial increase in our budget to 
fund equipment that will need to go in these labs.
    So that is an area of great interest to me and certainly an 
area of my focus. I look at a number of the programs in there--
I know the MEPs program has been a terrific program working 
with small businesses across America. I looked at a study the 
other day that showed those that had participated in an MEPs 
program and an MEPs initiative had four times the productivity 
of those who had not participated in it. So this is a key way 
to get technology into these small businesses across America.
    Global Climate Change is obviously another area that we are 
certainly very much involved in, and we are asking for the 
funding to spend $265 million on Global Climate Change. That is 
approximately what we have spent this last year. So that is an 
effort which, obviously, we want to continue.
    Inside NOAA, as you have said--this is not my quote--we are 
trying to put the ``O'' back in NOAA. I am one who is very 
excited about the Ocean Policy Commission and what we might see 
from them in the fall of 2002. The oceans simply are 
underexplored, and it is time to take a hard look at that and 
see what we should do to really understand this treasure that 
we have on this planet.
    So I am one who is going to be very much an advocate. I 
would say that within our Department, we are doing it, and we 
have some initiative within our Department, but I think the 
Ocean Policy Commission will give us some good directives as to 
where we need to go with ocean policy and ocean commitment. So 
I am anxious to see that.
    Things that we are asking for in our budget that relate to 
putting the ``O'' back in NOAA include a $60 million increase 
to modernize the fisheries with science and management and 
enforcement. It is one of the areas where it is critical, and I 
hope those are enough funds. We have 110 lawsuits that we are 
trying to deal with out there right now. They continue to come 
in. I am hopeful that if we put some more resources into 
funding the sciences and collecting data and more effective 
management, maybe we can reduce these lawsuits by some degree.
    We are also requesting a $17 million increase in the 
National Marine Sanctuaries. I just mentioned exploration of 
the oceans. We have spent about $4 million this last year on 
ocean exploration. We are asking that we increase that by $10 
million, which would increase it two and a half times, so we 
are talking about, as a percentage, a pretty healthy increase. 
It is time to start understanding that 95 percent of the oceans 
remains unexplored--not underexplored, but unexplored--and it 
is time to begin to explore them.
    Then, we also continue with our commitment to our satellite 
program with the Department of Defense. We have asked for 
another $83 million increase for our NPOESS satellite, which is 
the National Polar-Orbiting and Environmental Satellite System. 
Obviously, this is a very important system for this country, so 
we are asking for that.
    Finally, the only other point I would like to make is a $2 
million request to upgrade our spectrum measurement equipment. 
I was in Boulder about 3 weeks ago and went out to those 
terrific labs--I am sure you have had the chance to go out and 
see them; it was my first chance to see NOAA's lab and NTIA's 
lab and, going through the NIST lab, a chance to see the Atomic 
Clock, but also to see the dinosaur kind of equipment that we 
have to measure spectrum in NTIA. We have a little, old truck 
moving around out there that is 10 or 12 years old, trying to 
measure spectrum interference, which is obviously a critical 
part of what we are doing right now in the management of 
spectrum. We all know how important spectrum is to the future 
of the country. When you look at the role it will play in 
getting information to the people of this country, it is 
important that we get it right as we allocate spectrum in the 
years ahead. So part of that is just bringing in the data to 
understand what spectrum is available to auction and what 
spectrum there is too much interference or there is no 
interference.
    Anyway, getting NTIA the tools to measure this is vitally 
important as we move toward decisions, critical decisions for 
the country, as to spectrum allocation in the years ahead. You 
are like me--before you make decisions, you like to have the 
facts, so that is the role that NTIA can play, is helping 
develop the facts as we try to make these critical decisions.
    Again, thank you for getting the budget and the Department, 
quite frankly, into the kind of condition it is in. It has had 
some nice increases over the last number of years. I think the 
budget is sound. I think there are a number of areas that 
certainly can continue to be focused on. I have committed to 
Senator Hollings that I am going to take a hard look at ATP. It 
is a program that has had some tremendous successes over the 
years, saving industry hundreds of millions of dollars. In our 
budget what we have asked for is to use the funds that have not 
been committed yet on grants this year to roll over to next 
year to fund the mortgages on grants that have already been 
granted, while during that period, I am going to take a real 
hard, honest look at ATP and see what kind of role it can play 
going forward.
    Senator, good morning.
    Senator Murray. Good morning.
    Secretary Evans. Let me stop there. Thank you all again. I 
thank all of you; I had a chance to get by to see you and talk 
to you, and I thank you for your help and your support and 
would be glad to answer any questions that you might have or 
listen to whatever you want to tell me.
    Senator Gregg. We appreciate that very comprehensive 
statement, Mr. Secretary. You touched on a lot of areas in 
which the committee has a very significant interest and has 
pursued rather aggressively.
    It is the tradition of this subcommittee to acknowledge the 
chairman of the full committee whenever he decides to come by, 
which we appreciate he does often, and yield to the chairman 
for a statement or questions.
    Senator Stevens. I will just wait my turn, Senator.
    Senator Gregg. Do you have any questions?
    Senator Stevens. Not now, thank you.
    Senator Gregg. Okay. Senator Hollings.

                  noaa discussion by senator hollings

    Senator Hollings. Well, my immediate reaction is 
``Whoopee,'' Mr. Secretary. That is, as the chairman said, a 
very comprehensive grasp of the role and responsibilities of 
the Secretary of Commerce. You are off and running, and I am 
just enthused to hear you, because other secretaries usually 
come up and everything is sort of foreign to them, and they are 
flipping pages and everything else, and do not know what the 
devil they are saying. Obviously, you do, particularly with 
respect to putting the ``O'' back in NOAA, the ocean 
exploration.
    So you will understand, NOAA was created as a result of a 
very, very thorough study, and President Bush is going to 
revisit that study here with a new commission. Thirty-five 
years ago, Julius Stratton of MIT brought your Texas crowd 
together, the oil people, the Coastal Zone people, the energy 
folks, Coast Guard and everybody else, and they recommended, 
actually, an independent agency of oceans and atmosphere headed 
by the Coast Guard. President Nixon was disappointed and 
tickled, said they would never give him anything like that over 
in Interior and they were not going for an independent agency--
so he gave it to Commerce and Maurice Stans. NOAA has been at 
Commerce, and different Secretaries have come along and in the 
main disregarded NOAA--although it is 40 percent of my budget--
let somebody else handle it; get rid of the NOAA fleet, get rid 
of the NOAA corps, the environmental side, services 
administration, and so on.
    So we have had a very difficult time, and to see an 
increase in ocean exploration is heartwarming. But mind you, 
Senator Stevens and I are on the authorizing Committee on 
Commerce, Science, and Transportation, and in space science 
there is $14 billion for exploration, and research is $7 
billion, or one-half of that $14 billion.
    So you are putting up $14 million and talking about a 200 
percent increase--that is tommyrot. The truth of the matter is 
we have got to play catch-up ball, and you have the grasp of 
it. We see that the ocean temperature has increased some 
eleven-hundredths of a percent over the 50-year period, which 
means there is a tipping margin there to be studied and 
determined, because that degree of ocean warming is the 
equivalent of 15,000 years of electricity, and if it tips over, 
global warming will go way beyond any control whatsoever.

              level playing field for international trade

    Good. Otherwise, on trade, first, let me commend you, 
because it is tough on compliance, and I would not have to say 
anything else on trade--that is all we need, but do not look 
for a level playing field. I have always said I would take the 
Japanese trade book or the Korean trade book and administer our 
trade policy that way, and we would fill up the country with 
production. I cannot sell textiles in downtown Seoul, Korea 
unless the local textile industry votes and approves for me to 
come in--and they just do not. And you cannot sell in Japan. 
They get outsourced to Japanese companies that they have 
organized down in Malaysia and Thailand.
    So it is not level. It is a proposition, frankly, of the 
security of the country. It is like a three-legged stool. One 
leg of our security, value, is unquestioned. The second leg of 
our security is the military, which is unquestioned. The third 
leg, the economic leg has been intentionally fractured in the 
sense that in order to spread capitalism--and it has worked--we 
have given up the textile industry. I remember a hearing I had 
40 years ago, and Tom Dewey was the lawyer for the Japanese, 
and he was racing me around the hearing room saying, 
``Governor, what do you expect them to make? Let us make the 
airplanes and the computers, but let them make the shoes and 
the clothing.''
    My problem is that they now make the shoes, the clothing, 
the airplanes, the computers, and everything else.
    President Kennedy put out a seven-point program--he had to 
comply with the national security provision that the President 
had to first determine that the item was important to our 
national security. They had the Secretaries of Defense and 
Commerce come in, and they brought in the witnesses--I can see 
Doug Dillon, Secretary of Treasury, there now at the hearing--
and they determined that next to steel, textiles was the second 
most important item, because we could not send them to war, as 
they said at that time in a Japanese uniform, but now we can 
say we cannot send them to war in a Chinese uniform.
    So there it is. To go immediately to your Bureau of 
Economic Analysis, the Advanced Measurement Lab and so forth, 
will you see if you can find out statistically the amount of 
U.S. consumption represented in imports, generally. I received 
from the Secretary of Commerce in 1975, 1976, 1977, 41 percent 
of our imports were U.S.-generated overseas and brought back 
in. Now, everybody is moving their manufacturing, because it is 
10 percent of the cost of labor here in this country, so they 
are all running down to Mexico. I have lost 42,500 jobs in 
South Carolina alone--I do not know how many jobs have been 
lost in New Hampshire--and it is 500,000 over the country--and 
they are all Republicans, so let them go. But they are good 
jobs, and before long, I will not have any of them left. And 
they just shrug their shoulders like it means nothing, but it 
is very, very important to our economy. We are going to have to 
be able to produce a certain amount of basic electronics, 
clothing, and different things of that kind.
    In fact, Senator Stevens and I are going to get together on 
a national defense measure along this line to reinstitute that 
security provision for the President and aim our trade policy 
along that line. Otherwise, before long, we will go the way of 
England, with a bunch of Parliamentarians and scandal sheets.

                   contract for noaa research vessel

    With respect to the fleet itself, we need that money for 
the research vessel. I tried to check on it earlier this 
morning. We tried to contract with the Navy for the small 
boats, and they refused. Maybe you can get the Navy now, with 
this administration and talk to them over there and see if they 
cannot get the contract for us. But when they get that small 
boat contract, and the contractor knows there are going to be 
two or three research vessels, you can get it at a cheaper 
price. For only one small boat, you disturb the flow of the 
contract and the cost itself on the number one vessel. The 
company tells me they are going into bankruptcy down in 
Mississippi. So we have got to check on that.

                            textile research

    With respect, Mr. Secretary, to the research, we have a 
little bit of research with the National Textile Consortium, $3 
million and $9 million for the Textile Clothing Technology 
Corporation. We actually put in way more for California prunes. 
You ought to see the nonsense we go through with these farm 
boys. Having lost 500,000 textile jobs, to try to hold on to a 
sort of quality basis--and improvement; they get better cloth 
and so on. You have got to be able to manufacture webbing and 
parachutes and everything else. It is a defense measure as 
well. We ought to continue that. That is a tiny bit, $9 million 
and $3 million.
    Senator Gregg. Can't you manufacture clothing out of 
prunes?
    Senator Hollings. Oh, they have put in I do not know how 
much, to sell wine and prunes and so on, in California. That 
California crowd, they have votes.
    Senator Gregg. Not on this committee.
    Senator Hollings. No. That is right--but we are doing 
better--we have Herb with us now.

                      advanced technology program

    On ATP, any time you suspend this thing, they say they are 
going to study it. So after meeting with you yesterday, I have 
found that there are 21 General Accounting Office studies; we 
have had 18 Office of Inspector General studies; we have had 
two National Academy of Sciences studies; one Secretarial 60-
day review and a report to the Congress--they are really trying 
to kill the program with studies. I hope Rumsfeld is not doing 
that with defense. I do not think he is. Can't you use all of 
these studies as a precedent and build ATP up with these 
studies? That is what we really need to do, because it has 
gotten a little off-course with respect to risk--we are not 
paying for high risk. What we are paying for, and the 
fundamental of this particular Advanced Technology Program, is 
to commercialize technology, discovered and researched here in 
the United States, and where we ought to bring it to market. 
But when you get these quarterly reports that these big moguls 
put in, that includes long-range financing, which is the global 
competition with Japan, for example, and we have nothing but 
short-range financing here in the United States. So ATP would 
move into that gap and make sure that, in part, it is not pork. 
We had the project on a competitive basis in your Department, 
but it was first reviewed by the National Academy of 
Engineering. So all of these ATP reports are good. I have not 
been able to find a bad report yet--but they keep on studying 
it. Do you see what I am saying?
    Secretary Evans. Yes.
    Senator Hollings. So if you would look at that very closely 
for us, please.
    Secretary Evans. Yes.
    Senator Hollings. Thank you very much, Mr. Chairman.
    Senator Gregg. Senator Stevens has a couple of questions.
    Senator Stevens. Thank you very much.

                     research on steller sea lions

    Mr. Secretary, as I told you when we met, I was very 
pleased with the briefing that we got from Dr. Andrew Treitz of 
the North Pacific University's Marine Mammal Consortium. This 
Consortium includes all of the universities of the North 
Pacific. They made some very preliminary conclusions concerning 
the decline of the Steller sea lion.
    We provided moneys last year--and you have a $40 million 
request in this budget--for continuation of the Steller sea 
lion research. We are hopeful that that will proceed and that 
we will use the data that is being collected now as a basis for 
a new biological opinion regarding the Steller sea lion.
    I would encourage you to get the preliminary conclusions 
from the Marine Mammal Consortium from the universities and try 
to see what we can do to head off another collision as far as 
the Steller sea lions are concerned.
    As you know, probably more than 50 percent of our people 
make their living off the sea. We have half the coastline of 
the United States, as these people have heard me say that too 
often. But there is no question of the importance of fisheries 
in our State. We had a very difficult time last year trying to 
prevent the closure of a substantial portion of our fisheries.
    So I would hope that we could get your assistance and that 
of your Department to pursue this science with real enthusiasm 
to make sure we have the science to support the theories rather 
than the theories before the science, in terms of what is 
causing some of these problems. There is no question that the 
Steller sea lions are declining. The question is what can we do 
to reverse it and to what extent will it impact the fisheries 
of our State.
    I hope that you and others can spend some time on that this 
year.
    Secretary Evans. Indeed, we will, Senator. As you said, we 
had a good discussion about this yesterday and several other 
times I have been to see you and visit with you about it. As 
you know, Bill Hogarth, our Acting Assistant Administrator of 
Marine Fisheries was up in your State for 4 or 5 days, and we 
have obviously given it high priority. You mentioned the 
dollars that we have committed to it. I was interested to learn 
what the universities are learning about this very issue.
    We will look at those studies, and we will incorporate them 
into our study of the issue as well. But yes, it is high 
priority for us.

               comparison of wild and farm-raised salmon

    Senator Stevens. Salmon is probably our greatest resource, 
yet we seem to constantly be at odds with people from the 
Pacific Northwest on the salmon issue. There is a new wrinkle, 
though, coming now. I understand the President is going to 
recommend a new Free Trade Zone for South America. Chile is now 
providing, I think, up to 90 percent of all salmon sold in our 
supermarkets in this country. That was not the case 10 years 
ago.
    We do not think too much of that product, frankly. It is 
farm-raised salmon, and it does not contain the high levels of 
beneficial substances, like Omega-3, and it does not have the 
naturally high levels of other materials found in wild salmon.
    I do not know what we can do to assist our people compete 
with products from South America in competing if a Free Trade 
Zone concept becomes a reality.
    I would just mention that. I do not know the answer, but I 
do think there has to be something done to distinguish between 
the farm-raised salmon and the wild salmon that comes from the 
Pacific Northwest and off Alaska.
    We have the studies on the beneficial effects of 
consumption of salmon for heart disease and other human needs. 
There are not similar benefits as far as this farm-raised 
salmon from South America is concerned.
    I would hope that in this process, we can find some way to 
at least require labeling of origin. When you go to the 
supermarket now, and you see salmon, it does not say where it 
is from. It does not really say what it is. It is not wild 
salmon. Most people who buy it probably think they are buying 
salmon from the oceans, when in fact they are buying farm-
raised salmon, and it is a different product.
    I hope that you will help us keep an eye out for what we 
might do to protect a basic resource of the North Pacific, 
which is the salmon.
    Lastly, Mr. Secretary, I want to say that you have had some 
real competent help in Bill Hogarth and Scott Gudes and others 
who have kept the fires burning down there, and I want you to 
know that we appreciate what is going on. The budget is a good 
budget as presented to us now. We do not have some of the 
wrinkles that we have had in other departments that we are 
dealing with in this committee. I think you have really got a 
budget that we can all work with and be proud of. I know there 
are several items in there for Alaska, but I am not going to 
discuss those now.
    I just want to urge you to realize the quality work that 
has gone into this before you came on deck. They are good 
people down there who have been working with us over the 
years--they are career people. We appreciate what they have 
done.
    Secretary Evans. Thank you, Senator. So do I; I appreciate 
every one of them, and I could not agree with you more. There 
are some real quality people throughout Government and in the 
Department I have the pleasure to serve in.
    You told me something I did not know, and I am going to 
look into it. I am one of those who has been buying salmon, 
eating salmon, and thinking there is Omega-3 in it, because I 
have high cholesterol, and I want to make sure that I am taking 
care of my cholesterol issue. I did not realize that farm-
raised salmon does not have Omega-3.
    Senator Stevens. Actually, Dr. Castelli from Dr. Treitz' 
institute up in New England is the one who worked with us for 
so many years and developed all the information about wild 
salmon. We have relied on him quite heavily in terms of advice 
about Omega-3 and the beneficial effects of salmon for people 
who have heart problems.
    Senator Gregg. You hang around this committee, Mr. 
Secretary, and you will learn more about salmon than you ever 
wanted to know.
    Secretary Evans. I learned something new this morning, I 
will tell you.
    Senator Hollings. You can count on it. Get together with 
the Senator on Chile, because that is one big headache with 
respect to free trade. I think you can pass free trade with 
Chile by itself, but one caveat is salmon, and the other is the 
wine, with the California vote.
    Senator Gregg. Did you want to comment on any of the points 
made by the first two Senators?
    Senator Hollings. I agree with Senator Stevens. It is an 
outstanding presentation.
    Senator Stevens. I do not have any questions.
    Senator Gregg. If you do not get questions, it is better 
just not to answer.
    Secretary Evans. Okay.
    Senator Gregg. Senator Kohl.
    Senator Kohl. I welcome you here today, Secretary Evans.
    Secretary Evans. Thank you, Senator.
    Senator Kohl. I would like to first comment briefly on your 
budget officer, Barbara Retzlaff. She has done a tremendous 
job, and I have been very impressed with her knowledge on a 
broad range of issues.
    Barbara worked with me for a couple of years, and try as 
hard as she did, she could never get me up to your speed. I 
think that if you asked her, she would say that she had better 
material to work with in you.
    Ms. Retzlaff. Senator Kohl, it is nice to see you.
    Senator Kohl. Now, I would just like to comment on NOAA. As 
important as it is to the Atlantic and Pacific Coast States, it 
is equally important to the Great Lakes States, because the 
Great Lakes have the largest number of miles of any of the 
States, including the Atlantic and the Pacific. So the issues 
of fisheries, and pollution hydrology, and invasive species are 
programs that NOAA gets involved in, and they are just as 
important to the Great Lakes States as they are to the Atlantic 
and Pacific Coast States. So it is good to hear that you are so 
interested and that you intend to pursue NOAA as vigorously as 
you are going to.

                        northeast dairy compact

    I would just like to raise two issues with you. Number one 
is the Northeast Dairy Compact, Mr. Secretary. It is an 
interstate trade issue, and I would like to get your thoughts 
on it, whether you have any familiarity or some familiarity 
with these dairy agreement. They are agreements among States to 
artificially set and support milk prices. In other words, they 
eliminate the opportunity for any of the other States to 
compete in those compact States by setting an artificial price 
above the market that coops pay farmers in those States for 
their milk; and if you want to send your product into that 
State to compete, you have to do it at that price that they 
set, which effectively eliminates any opportunity for 
competition.
    Now, as you might imagine, listening to this description, 
which is brief but fairly accurate, it is like nothing we have 
ever done in this country before. The greatness of our economy, 
the greatness of our capitalist system is that, without any 
exception since this country was incepted, goods and services 
compete freely from one State to another. We have never before 
erected barriers.
    But the Northeast Dairy Compact, which I think includes 
seven New England States, is subject to termination this year 
unless it is renewed. Now, I know how strongly you and your 
administration feel about free trade and how important it is, 
not only globally, but here in this country. If this Northeast 
Dairy Compact is basically as I have described it--and I 
believe you will find that it is--I would like, if I could, to 
get some opinion from you about what you and your 
administration's position will be on that Northeast Dairy 
Compact this year, as it is subject to renewal.
    Secretary Evans. Senator, let me say that it is not 
something that I have looked at in great detail. I am certainly 
not in a position to tell you at this moment what our 
administration's position will be, but I will tell you that I 
will get that to you.
    [The information follows:]

            Administration Policy on Northeast Dairy Compact

    While the Administration is continuing to operate under the 
existing agreement, they are also reviewing the policy.

    Secretary Evans. This issue was first brought to my 
attention by Governor Ventura. I was talking to Governor 
Ventura about free trade and fair trade, and he brought up the 
issue of this dairy compact, and I responded by saying to him 
that, yes, it is awfully tough for us to talk about free trade 
and a level playing field around the world if we do not have 
one in our own back yard.
    I am one who spent his career in the oil and gas industry, 
and I saw some similar kinds of practices inside the oil and 
gas industry. I am not sure the analogy is a great one between 
the dairy compact and the oil and gas industry, but my point 
would be that I saw the oil and gas industry could get special 
treatment from time to time that would benefit one group of oil 
and gas investors or companies to the detriment of another 
group of oil and gas investors in the same country. So I do not 
understand that principle, and if the principle is similar--one 
group of individuals milking cows and another group, and there 
are different rules--then, I would say it is something that we 
have got to take a hard look at.
    And I am one who believes that we have a free enterprise 
system here in America, it is free and open competition, we are 
all going to play on the same playing field, and if you are the 
low-cost producer, you survive. If you are not, then you need 
to find something else to do in this great economy. And there 
is much to do. We have a wonderful economy here in this 
country. Unemployment is 4.2 or 4.3 percent, and it is growing 
and growing.
    Anyway, the principle I understand. The specifics of what 
the administration policy is going to be on this expiring 
compact, I will get you a response.
    Senator Kohl. That is good to hear. The greatness of our 
economy is attributable in large to the principle you have just 
enumerated, which is that competition is what makes the economy 
as good as it is, competition is what enables us to bring the 
best products at the best prices to consumers here and around 
the world. The minute we set up barriers to competition, we do 
great damage to the American economy. And that is what the 
Northeast Dairy Compact is.
    In fact, I understand that there is an effort under way to 
expand it to 10 or 20 other States, and I would like to hope 
that this administration would take a very strong position 
against that kind of mechanism.

                           export-import bank

    The other thing I would like to raise with you, Mr. 
Secretary, is the Export-Import Bank. As you are well aware, 
the importance of exports continues to grow in our economy. It 
is now estimated that exports account for nearly 30 percent of 
our economy, up from 10 percent in 1950. The Export-Import Bank 
has played a vital role in supporting the continued growth of 
U.S. exports and the workers and businesses that prosper when 
new markets are found for their goods and services.
    The Bank's use of loan guarantees, insurance to commercial 
banks, and direct lending, have allowed for the export of 
billions of U.S. exports that would not have gone forward for 
lack of financing.
    Over the past 5 years alone, the Bank has supported 116 
companies in 52 different communities in my own home State of 
Wisconsin. The benefits of these sales are widespread as nearly 
50 percent of these transactions were with small businesses 
just in my own State of Wisconsin.
    As you know, the President's budget request includes only 
$649 million for the Export-Import Bank, which is 25 percent 
below fiscal year 2000. Can you provide us some insight into 
the administration's reasoning for decreasing funding for the 
Bank's mission?
    Secretary Evans. Senator, I am going to give you a written 
response on this, and I will get that to you, because I think 
the reduction requires some specificity that I am not prepared 
to really offer to you right now because I do not recall all 
the numbers. But the cut itself is not as large as it appears 
on its surface.
    [The information follows:]

             Export-Import Bank Funding in Fiscal Year 2002

    The President's budget for fiscal year 2002 proposes to 
reduce Export-Import Bank funding by approximately 25 percent. 
As OMB has indicated, at least half of this reduction is 
accounted for by OMB's lower estimates of international risk 
for 2002. It is also unclear at this point whether Ex-Im Bank 
will face the same level of demand in certain sectors, such as 
aircraft, as it has in the past. The Administration does not 
expect these budgetary cuts to have an adverse effect on Ex-Im 
Bank's responsiveness to U.S. exporters or its ability to meet 
foreign competition.
    As Secretary of Commerce and Chairman of the Trade 
Promotion Coordinating Committee, I will work to ensure that 
U.S. firms, including those that produce environmental goods 
and services, can effectively compete in international markets.

    Secretary Evans. Having said that, let me say to you the 
Ex-Im Bank is important in the overall international trade 
policy of this country. It relates in some way to the 
activities of the World Bank, the Inter-American Development 
Bank and the IMF. So there are a lot of financial institutions 
out there, banks, that are related on the world stage.
    I talked to John Robson who is incoming--yet to be 
confirmed--director or chairman of the Ex-Im Bank. I look 
forward to working with him on it.
    I have to admit to you that I have a concern when I hear 
about Ex-Im Bank granting an $18 million loan to a company in 
China to manufacture steel, when I know we have a glut of steel 
in the world. So I am kind of wondering what would cause a loan 
of that size to go to a company in China that would compete 
with companies here in America when we are filing antidumping 
suits and countervailing duty suits as fast as we can 
manufacture them.
    I had a good visit not long ago with Bill Draper, who was 
chairman of the Ex-Im Bank during the Reagan Administration, 
and he was telling me what a great program it was and what 
great things it did and what a key role it played in helping 
companies be competitive around the world. So I know it has an 
important role to play, and I want to make sure the role it is 
playing is a constructive one.
    I am just an outside director. I cannot vote. I serve on 
there as an advisory director since, obviously, Commerce is 
related to trade and the private sector and businesses.
    But what I would say to you is that it has an important 
role to play. I do not think that the cut, when fully 
explained, is as severe as it appears on the surface, and I 
will get an explanation of that to you. I hope you will find 
that, and I think you will. But anyway, I will be glad to 
respond to you more specifically.
    Senator Kohl. Thank you.
    Secretary Evans. Thank you, Senator.
    Senator Kohl. Thank you, Mr. Chairman.
    Senator Gregg. Senator Murray.
    Senator Murray. Mr. Secretary, it is nice to have you here, 
and I appreciate the funding in your budget request of $110 
million for Pacific Northwest salmon. I share some of the 
concerns of Senator Stevens and look forward to working with 
you on that very critical initiative.
    Let me follow up on what Senator Kohl was just talking 
about--and I know this is not funded in your budget, but export 
promotion is a very critical role of your Department and your 
agency. I have worked with one-stop shopping centers in Seattle 
that have been of tremendous help to many of our exports.

                          boeing versus airbus

    But the Ex-Im Bank is very critical. One out of three jobs 
in Washington State depend on trade, and it is no surprise that 
80,000 of those jobs are at Boeing. They are highly-skilled, 
family wage jobs, very important to our economy. Plus there are 
1,000 other businesses just in my home State that depend on 
those exports and contract services to Boeing as well. I know 
you know this, but Boeing is the only U.S. manufacturer of 
commercial aircraft. The competitor is Airbus. Airbus is highly 
subsidized, has sweetheart deals. They watch for what Boeing 
puts out in its contracts, and they undercut them. That is the 
environment in which we have to live today. Boeing used to have 
75 percent of the market; they are now down to 50 percent.
    The one critical tool they have is Ex-Im funding, and the 
proposed funding for Ex-Im actually threatens about $4 billion 
in sales for Boeing. That is going to have a dramatic impact on 
the U.S. economy and on Boeing's ability to survive in a very, 
very competitive market with Airbus.
    I am looking forward to your written response, but I think 
the administration needs to understand that this is critical 
not just to my home State but to the entire economy and to our 
ability to keep our one U.S. manufacturer of commercial 
aircraft able to compete in a very tough market out there right 
now. I think the only people who are happy about the 25 percent 
cut are people who live in France.
    I know you talked about numbers, and it does not look as 
bad, but I believe the request was $1.3 billion for Ex-Im 
funding and a $650 billion actual number is just going to 
really hurt us. I would love to have more time to discuss this 
with you, but I want the administration to understand that this 
is a very frightening number to many of us out there.
    Senator Gregg. I should note, Mr. Secretary, that although 
Ex-Im is obviously a big issue, is not under this committee's 
jurisdiction; it is under the Foreign Operations Subcommittee.
    Senator Murray. I am sorry--could you repeat that? I could 
not hear you.
    Senator Gregg. The Export-Import Bank does not fall under 
this subcommittee's jurisdiction; it falls under the Foreign 
Operations subcommittee. You are perfectly welcome to raise 
it----
    Senator Murray. I am well aware that the budget line falls 
under another subcommittee, but I think that your input to the 
administration is critical. So that is a battle that I will be 
fighting, and I hope that you will have some discussions about 
the critical nature because of your mission.

                      northwest straits commission

    On another local topic question, one of my priorities since 
I have arrived here is that the Northwest Straits Commission 
was a response to a very tough battle, one that all of us have 
in our States at the local level between environmental concerns 
and local concerns that resulted in a huge impasse. And we, on 
a bipartisan basis, with members of our House delegation, put 
together a Northwest Straits Commission, which is a locally-
driven, grassroots initiative to protect marine resources in 
Puget Sound and the Strait of Juan de Fuca. It has been highly 
successful and is very popular. It is the one thing that both 
Republican and Democrats say that we are really doing right. I 
do not know if you are familiar with the project, but it has 
been zeroed out in the budget, and I am hopeful that we can get 
you familiar and get you on board as a supporter before we get 
too far--I do not know if you have heard of it or not.
    Secretary Evans. I have heard of it. I think it was funded 
at $500,000 this last year, or the year that we are in right 
now. I guess we were thinking that it really was not in the 
budget a year ago, until it was placed in the budget by the 
committee. It is a local and State effort. I know how helpful 
it has been and how constructive it has been, but I think we 
have taken the basic position that we were not really funding 
earmarks in the budget.
    Senator Murray. Well, as you know, salmon has been listed 
as an endangered species, and these are small projects that 
really have some tremendous impacts in restoring the salmon and 
salmon habitats; they are local projects that are funded with 
small amounts of money, and this is how we are going to fix the 
salmon problem, so I hope we can get you back on board with us.
    Secretary Evans. Thank you, Senator.

                      commerce-wide hiring freeze

    Senator Murray. Another question on NMFS. I am concerned 
that even with the infusion of funds into our Steller Sea Lion 
Program, we cannot get the work done because there is a hiring 
freeze in place, and everywhere I go in my region, people are 
saying that there are not enough people in the Department to 
get through the necessary paperwork and to process the forms. I 
do not know if you can shed some light on that----
    Secretary Evans. I do not know how much light I can shed on 
it. I know that even though there is a hiring freeze, we are 
hiring people daily. All they have to do is bring it up through 
the system, and we are hiring. We have 40,000 people in the 
Department; I know we have a lot of people--but what is it on 
NMFS--we have 110 positions that have not been filled, but this 
is out of 2,800 positions, so we have 2,800 positions there, 
but 110 of them have not been filled.
    Senator Murray. Well, does the hiring freeze apply to the 
positions that are open but not filled?
    Mr. Gudes. Senator, we had 20 positions in the Fisheries 
Service for salmon habitat in the prior supplemental that the 
Congress passed. We are looking at each position, and we really 
want to focus on life safety-positions----
    Senator Murray. You should just know that many of these 
people are trying to get through difficult processes. What they 
constantly run into is not enough people to work through a lot 
of the paperwork. If you could take a look at this and help us 
with it, I think it will ease a lot of the concerns, 
particularly in our rural communities.
    Secretary Evans. Sure, we will, yes.

                    technology opportunities program

    Senator Murray. Great. I have one last, quick question, Mr. 
Chairman, and it is on the Technology Opportunities Program, 
which has had tremendous impacts, particularly in our rural 
communities that do not have access to technology and are 
desperately trying to catch up. Their economies are not able to 
compete with our corridor, where most of the technology is in 
place and growing rapidly, and their economies are hurting. 
This program helps expand their infrastructure, which is 
critical to being able to get their businesses competitive and 
to bring some economic development to rural communities.
    I know it has been cut by 67 percent, and if you could just 
give me a justification for that, I would appreciate it.
    Secretary Evans. I think it is just simply taking it back 
down to the level where it was. We have been running it at 
about $15 million a year, and this last year we are in, it was 
increased to $45 million, and we took it back to where it was 
before.
    I think it is a matter of evaluating the program, being 
comfortable with it. You have to make tough choices and set 
priorities, and it was just one of those tough cuts that we 
made, but I guess I have a hard time seeing a program triple in 
a year, going from $15 million to $45 million; so we just took 
it back down to the level where it was.
    Senator Murray. I appreciate that, but I can tell you that 
the reason it tripled was because the demand in our rural 
communities is extremely high right now as their economies are 
falling dramatically far behind our urban areas, because they 
cannot compete, because they cannot get the infrastructure, and 
those are the areas where it is hardest and most expensive to 
bring it in. So these kinds of programs are really critical in 
our rural communities.
    Secretary Evans. Thank you, Senator. We will take that into 
consideration and check that.
    Senator Murray. Thank you.

                           export-import bank

    Secretary Evans. I want to just respond on the Ex-Im Bank. 
I know one thing that you will see is that when you change the 
risk profile alone, you do not need as much to support a loan, 
and I know that that is part of the cut. Just looking at the 
risk-weighted portfolio of the Ex-Im Bank, when you lower the 
risk of these loans, you do not need as much to support the 
loan. So what looks like a 25 percent cut does not mean that 
you are going to cut back the lending levels by that amount, 
which is what the countries are interested in.
    Anyway, that is just one of the points. I will get a more 
specific explanation to you, and I think you will see again 
that it does not mean reducing the number of actual loans by 
that amount at all. The amount of loans that will be granted is 
not that far below what is being granted in the year we are in. 
But I will get you specifics.
    Senator Murray. I would like to have your response, and 
maybe we can have a conversation after that.
    Secretary Evans. You bet.
    Senator Gregg. A vote has started on the cloture motion.

                                spectrum

    Mr. Secretary, maybe you could bring us up-to-speed--you 
mentioned spectrum. What do you see happening vis-a-vis the 
efforts to address the spectrum issue generally, and 
specifically in relationship to defense needs and law 
enforcement needs and commercialization needs?
    Secretary Evans. Sure, sure. A good question. I met with 
Secretary Powell yesterday--I am sorry--Chairman Powell at the 
FCC and talked about getting with him, and I talked to 
Secretary Rumsfeld about the issue as well. I think the three 
of us need to sit down and map out our thoughts and a plan for 
spectrum use.
    Obviously, Defense has important needs. They have spectrum 
that they currently use. Some of it relates to defense; some of 
it relates to safety of life issues. Those are also critical 
issues that we need to think about when we talk about 
auctioning additional spectrum and making decisions as to 
whether there is interference or not, or whether there is 
interference that you can tolerate.
    NTIA just completed a couple of studies that are out in the 
public domain right now; we are receiving comments from 
industry right now on those studies, which speak to the issues 
of interference and what spectrum might be available.
    The studies also laid out some potential options as to 
maybe some Government spectrum that could be moved to another 
location on the spectrum. But Defense has not agreed to move 
any spectrum. The way to determine whether they can move or 
will move or if it is practical to move is to sit down and talk 
through the issues. That is why I have taken it upon myself, 
anyway, to make sure that Chairman Powell and Secretary 
Rumsfeld and myself are all very focused on this very important 
issue, because it goes back in part to what Senator Murray said 
about people who are falling behind. A good part of it is just 
getting the equipment out there where we can get information 
and technology into the rural communities.
    Senator Gregg. Where do you see the demarcation occurring 
that would allow 3G spectrum to be available for commercial 
use? Do you think that the Department of Defense is going to be 
receptive to the additional commercialization of spectrum along 
the lines of what Europe has today?
    Secretary Evans. I obviously cannot speak--am not going to 
speak, will not speak--for the Defense Department, obviously, 
but I would say to you that I have talked to Secretary Rumsfeld 
about the issue, I have talked to Dr. Schlesinger about the 
issue, so I think people know that this is something that needs 
to be considered. The Commerce Department has a study out there 
that says here is some spectrum that is currently used by 
Government agencies, including DOD, and maybe there is another 
spot over here where we can move that. It would cost ``x'' 
number of dollars--and they are estimating how much money it 
would cost to move it; I believe one of the studies I saw said 
it would cost $4 billion to move it.
    So I am not in a position yet to tell you how receptive I 
think DOD will be. I do not think they have all the facts yet, 
and I do not think we really have all the facts yet. I just 
know that what needs to happen is that we need to get the 
principals at the table and talk through it so we can all 
understand the importance of freeing up the spectrum to similar 
levels that we are seeing in Europe, or what we are seeing in 
Asia.
    I take seriously that we are falling behind in the area of 
3G wireless technology and allocation, so we are very focused 
on it, but in terms of when we can get this done and how 
receptive DOD will be, when I have a chance to sit down and 
spend a little more time with Secretary Rumsfeld and Chairman 
Powell, I will be able to get you a good answer, or a much 
better answer than I am giving you right now, but I will get 
back to you as soon as I do that.
    Senator Gregg. It is good that you have focused on this, 
first off; I think that is very positive news. I am a little 
concerned that only the Defense Department was focused on it. 
It is good to hear you publicly pointing out that you are 
focused on it, and I hope the administration will develop a 
systematic way of doing this rather than just going about it 
casually. I think the community at large needs to know where we 
are going to end up on spectrum in an orchestrated way so we 
can make the investment decisions as a country.
    Secretary Evans. I share that, I share that.

                critical infrastructure assurance office

    Senator Gregg. What about the critical infrastructure--you 
mentioned the CIAO office. Where do you see this going? Is it 
going to improve the other agencies that are involved? Are they 
going to come under its umbrella, or are they going to function 
separately?
    Secretary Evans. Senator, my speculation would be that they 
would come under the umbrella. My speculation is that we all 
need to work closely together in an interagency kind of effort.
    Having said that, I should be quick to say that it is 
something that is under active review and discussion right now. 
I looked at the organizational chart that is in place today, 
and I cannot tell you that it made a lot of sense to me in 
terms of how it is structured. But what did make sense to me is 
the critical role that Commerce must play in this because of 
where the private sector is in critical infrastructure 
protection. I think they are out in front of us by a large 
percentage. So we need them, and they are a part of it. I mean, 
that is part of the infrastructure that we are concerned about, 
protecting what they have.
    So there is the issue of making sure that their 
infrastructure is protected, which I think they are doing a 
good job of, and then our own, the Government infrastructure 
and agencies and what-have-you.
    It is a large undertaking, and first and foremost, I think 
it needs a clear organization and a clear plan as to how it is 
going to function and how it is going to operate and who is 
going to be responsible for it. Making sure that we have the 
responsibility clearly understood for this very important task 
is critical, and that is what is under way right now, and 
exactly what role Commerce would wind up playing, I am not 
sure, but it should be an important role. I think NIST has 
already done a great job in this effort so far, but I think we 
are a few weeks or a couple of months away before we are ready 
to really propose something in terms of here is how we see it.
    Senator Gregg. We will be interested in that.
    As has been mentioned by a number of people on this 
subcommittee, NOAA is something that we take a lot of pride in. 
We have spent a lot of energy and time bringing it up to where 
we think it is an extraordinary agency with very talented 
people. The Administrator has done a superb job filling in 
during this time--he used to work around here, didn't he?
    Senator Hollings. Yes. We tried to get him to work, but I 
think the Secretary is doing a better job.
    Senator Gregg. So I just want to reinforce our interest in 
this agency and the fact that we consider this to be a priority 
for us.
    Secretary Evans. Thank you, Senator.
    Senator Gregg. Senator Hollings, do you have any further 
questions?
    Senator Hollings. Just two quick things for the Secretary. 
On the compact, let your lawyer look at those marketing orders. 
Forty years ago, I came down the gangway with a basket of fresh 
peaches for Governor Pat Brown, and they ran me right back up 
onto the plane because South Carolina peaches did not comply 
with the marketing orders of California. Those things have been 
upheld by the court, and they extend them into the compact, so 
there is a legal question. At the beginning of the season one 
year, I know our farmers rushed out and put some green peaches 
as Carolina Number 1's on the New York market, and it just 
ruined the market, and that is the genesis of the marketing 
orders in California. Otherwise, do not rush to inspect them. 
We have been using that as a ``honeypot'' to balance the 
budget. We get to the end of the thing, and we say, oh, yes, we 
can sell some spectrum and get ``x'' billions of dollars, and 
there is no funding shortage--it is just a misallocation--and 
everybody is trying to make money on it.
    I can tell you right now that we have been giving it away.
    Thank you, Mr. Secretary, for an outstanding presentation.
    Secretary Evans. Thank you, Senator, very much.
    I want to say one other thing if I can about Scott Gudes, 
because you all have pointed out, and you have right to have 
great pride in NOAA. It received the best rating of any 
agency----
    Mr. Gudes. All A's.
    Secretary Evans [continuing]. All A's--above NASA, above 
everybody.
    Senator Gregg. This is the Weather Service?
    Secretary Evans. Yes, the Weather Service--it is hard to 
believe, I know.
    Senator Hollings. Who wrote that--Gudes?

                     additional committee questions

    Secretary Evans. Thank you all very much. We appreciate it.
    Senator Gregg. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted by Senator Judd Gregg
                       reports and spending plan
    Question. Mr. Secretary, as you know, the Department's role in 
reporting on its activities in a timely manner is critical to the work 
of the Appropriations Subcommittees. The current rate of return on 
reporting requirements is not acceptable. In addition, answers to 
questions posed by subcommittee staff frequently take months before 
they are cleared by the OMB and are so vague that they lack utility. 
Can you provide a plan that will allow for improvement on the 
timeliness of departmental reporting and a list of reports that you 
feel are no longer necessary?
    Answer. I too am troubled by the amount of time it takes for some 
information to get through the process. I too am a stickler for 
timeliness and the adherence to deadlines. It is my hope that weekly 
budget meetings will be commenced once the Deputy Secretary is in 
place. Reports and other information requested by the Congress will be 
a regular agenda item at these meetings. I take this issue very 
seriously and want the Commerce Department to provide timely responses.
    At this time, there are no reporting requirements included in 
recent Congressional Appropriations action that are no longer 
necessary.
            commerce administrative management system (cams)
    Question. Mr. Secretary, have you reviewed the status of the 
Commerce Administrative Management System (CAMS)? Are you satisfied 
with the progress that has been made on this project? Do you have an 
out-year budget for CAMS? What are you doing to assure that CAMS will 
be delivered on time, within budget and to specifications? Your budget 
request includes $48.1 million for CAMS in fiscal year 2002. Your 
budget request also includes funding separate information technology 
systems at the EDA, the MBDA, the BXA, and the ESA. Why are these 
systems not tied into CAMS? Which other information technology systems 
within the Department of Commerce are not tied to CAMS and what are 
their functions?
    Answer. Since the restructuring of the program in fiscal year 1998 
and the successful pilot implementation of CAMS at the Census Bureau, 
where they used the system to control and account for the $5 billion 
plus 2000 Decennial Census and received an unqualified audit opinion on 
their fiscal year 2000 books, the progress of the program has been 
satisfactory and on schedule. The out-year budget projections, which 
are part of the CAMS Capital Asset Plan, are as follows: fiscal year 
2003: $40 million; fiscal year 2004: $31.3 million (full 
implementation); fiscal year 2005: $30.2 million; fiscal year 2006: 
$26.4 million; fiscal year 2007: $24.3 million.
    My Deputy CFO chairs a CAMS Executive Board consisting of the CFOs 
of the implementing bureaus (Census, NOAA, NIST and EDA) which meets 
monthly and reviews progress, budget and requirements, and identifies 
management and technical issues for resolution. In addition, the CAMS 
Program Manager, who reports to the Deputy CFO, meets weekly with NIST, 
and along with the Deputy CFO, biweekly with NOAA and biweekly with 
Census to review the details of implementation planning and execution.
    The Department has an Information Technology Investment Review 
Board whose purpose is to: review the business case for any enterprise 
system development initiative in the Department; determine if an 
adequate capital asset plan is in place; evaluate the soundness of the 
technical design and implementation strategy; review the acquisition 
plan; and ensure that the appropriate ties to the financial system 
(CAMS) have been considered and planned. In the case of Commerce 
Standard Acquisition and Reporting System (STARS), the Department's new 
acquisition management system, the Board reviewed and approved the 
business case for CSTARS after they were presented with a plan for 
integrating CSTARS with CAMS. In fact, the Office of Financial 
Management and the Office of Acquisition Management have successfully 
collaborated on the design of an interface between the two systems 
which we will begin building about one year from now. Any other 
enterprise system in the Department that generates data with a 
financial impact is required to go through this same process with the 
Investment Review Board.
    The majority of the information technology systems in Commerce are 
not directly linked to the financial system. These include 
infrastructure and mission or program-specific systems that do not have 
a financial component and therefore do not have to tie to CAMS. In 
their fiscal year 2002 request, the EDA, the MBDA, and the BXA, as well 
as several other bureaus, have submitted infrastructure improvement 
projects, which have no tie to the financial systems. In support of its 
program, the BXA has submitted a request for funding its export control 
system. Other information technology system investments requested for 
fiscal year 2002 provide support to the following programs:
  --Census and Surveys
  --Advanced Short Term Warning and Forecast Services
  --Implement Seasonal to Interannual Climate Forecast
  --Predict and Access to Decadal to Centennial Change
  --Promote Safe Navigation
  --Build Sustainable Fisheries and Recover Protected Species
  --Sustain Healthy Coasts
  --Enforce U.S. Trade Laws
  --BEA Statistical Estimation
  --Export Control
  --Measurement and Standards Laboratories
  --Advanced Technology Program
  --Manufacturing Extension Partnership
  --Radio Spectrum Assignments
  --Digital Department
  --Grant Processing and Management
  --IT Infrastructure and Office Automation Support to all program 
        areas
                critical infrastructure assurance office
    Question. What criteria will be used in evaluating CIAO?
    Answer. The Administration has continued the Critical 
Infrastructure Assurance Office operations based on its evaluation that 
the functions remain relevant and essential to overall national 
critical infrastructure policy. CIAO's continued operations will be 
assessed against the three functional requirements listed below and the 
progress it makes in fulfilling these requirements.
    The Critical Infrastructure Assurance Office (CIAO) was established 
as an interagency organization at the Department of Commerce to perform 
three basic functions:
  --First, to promote national outreach and awareness initiatives. 
        These initiatives are designed to inform business leaders 
        across industry sectors of the need to manage the risks 
        associated with relying on information systems.
  --Second, to coordinate analyses of the U.S. Government's own 
        dependencies on critical infrastructures. Last year, CIAO 
        launched an initiative--labeled ``Project Matrix''--to fulfill 
        this requirement. Under this program, CIAO assists Federal 
        agencies in identifying the assets, networks, and associated 
        infrastructure dependencies that are required to deliver 
        services vital to our national and economic security.
  --Third, to coordinate the preparation of a national critical 
        infrastructure assurance plan. The Bush Administration intends 
        to publish its own national plan later this year.
    The Administration has decided to go forward with funding for CIAO 
in its fiscal year 2002 Budget, extending the Office's term of 
operation through the next fiscal year.
    Question. Who will be involved in CIAO's evaluation?
    Answer. The future role for CIAO beyond fiscal year 2002 will be 
decided as part of the Administration's overall policy review of 
Federal critical infrastructure protection efforts. The Department of 
Commerce is responsible for evaluating CIAO's activities.
    Question. When will a report on the evaluation be available to the 
Appropriations Committees?
    Answer. The Administration's policy review is expected to conclude 
within the next few months.
    Question. How are the NIST, NOAA and Bureau of the Census critical 
infrastructure programs tied into CIAO?
    Answer. None of the critical infrastructure protection programs of 
NIST, NOAA, or the Bureau of the Census is ``tied'' into CIAO in any 
operational sense. CIAO is responsible for coordinating certain 
critical infrastructure policy initiatives and integrating them into a 
national critical infrastructure protection plan. NIST's work in 
research and development, and in establishing best practices and 
standards for unclassified computer systems, is clearly an important 
part of any national plan and, to that extent, NIST and CIAO work 
closely together. In addition, CIAO continues to work with Department 
of Commerce organizations in identifying critical assets and 
infrastructure dependencies under Project Matrix.
    Question. Can these programs continue to exist without CIAO?
    Answer. Yes. The programs of other Department of Commerce 
organizations are discrete in nature and their existence does not 
depend on the operations of CIAO.
    Question. If CIAO were to be eliminated, how would this effect 
critical infrastructure programs in other Departments?
    Answer. If CIAO were eliminated, the Federal government's ability 
to coordinate its critical infrastructure planning--especially with 
regard to the private sector--would be diminished as a result of a loss 
of coordinated efforts to promote outreach and awareness. In addition, 
CIAO's periodic support of Federal departments and agencies would be 
diminished as well. This would also be detrimental to the Federal 
government's overall ability to maintain effective partnerships at the 
national level. For now, the functions CIAO performs remain relevant 
and important to critical infrastructure protection policy. No other 
Federal government organization has been assigned responsibility to 
perform these functions, except CIAO.
                   advanced technology program (atp)
    Question. Mr. Secretary, your budget request assumes congressional 
approval of a reprogramming request. If this reprogramming were to be 
denied, what would be your plan for funding new ATP awards? If the 
reprogramming were to be denied, will you continue to re-evaluate the 
ATP?
    Answer. The Department is currently evaluating ATP to determine 
whether a need still exists for Federal funding to assist U.S. industry 
in conducting long term applied research and development. Therefore, I 
would like an opportunity to give the program thorough consideration 
and review to determine if any restructuring of the program is 
warranted prior to funding any new ATP awards. I believe that the 
Federal government has a role in long term basic research, but I have 
concerns that ATP, while well-managed, goes beyond this and has funded 
projects more appropriate for investment by the private sector.
                   patent and trademark office (pto)
    Question. Mr. Secretary, assuming there were no budget restraints, 
what would be your top five priorities to improve efficiency of 
operations at the U.S. Patent and Trademark Office? Please rank these 
needs.
    Answer. The core mission of the USPTO is to deliver high quality 
intellectual property products and services in a timely manner. The top 
priorities in achieving that mission are:
  --Recruiting and retaining highly skilled Patent Examiners. It is 
        critical for the USPTO to recruit a highly qualified workforce 
        and to retain experienced patent professionals who are the most 
        productive Patent Examiners if the agency is to achieve its 
        quality and timeliness goals.
  --Developing paperless patent and trademark application processes. 
        This will reduce the inefficiencies and costs in handling large 
        volumes of paper that are processed at the USPTO.
  --Producing quality products and services. By producing quality 
        products the first time and reducing errors, the USPTO will 
        achieve the highest level of efficiency and citizen 
        satisfaction. This will be accomplished by enhancing formal and 
        on-the-job training, improving examiner search tools, and sound 
        management principles.
  --Outsourcing certain activities. This will allow Patent Examiners to 
        concentrate their time on the critical technical and legal 
        aspect of their job and thereby increase efficiency and 
        effectiveness.
  --Improving and expanding the e-government services provided by the 
        USPTO to become more citizen-centered and accessible.
    Question. With the understanding that one of your priorities is to 
move rapidly toward a paperless patent application process, please 
submit a written plan on deliverables that would allow for this to 
become a reality.
    Answer. USPTO plans for paperless patent application processing are 
contingent upon receiving applications in the proper electronic format 
from our customers. The deliverable components that make up a paperless 
patent application process include:
  --Electronic Filing System.--This system was made available to the 
        public in the fall of 2000, which formats patent application 
        data for further automated processing and utilizes public-key 
        infrastructure to provide for secure communications from 
        applicant over the Internet.
  --Management Information System.--This will provide the monitoring 
        and workflow of electronics documents, including the original 
        application file and both incoming and outgoing correspondence 
        that make up the patent application and will provide for the 
        creation of management information reports.
  --Document Management System.--This will provide the necessary 
        storage and handling of all components of an application, and 
        ensure that the electronic records are properly managed to meet 
        the legal admissibility standards.
  --Electronic Publication System.--This will provide the ability to 
        deliver the appropriate version of the electronic application 
        for publication.
    The USPTO has been and will continue to be aggressive in its 
deployment of information technology and e-government as resources 
permit. USPTO plans to work closely with its customers in the roll-out 
of paperless patent application processing.
    Question. The fiscal year 2002 Corporate Plan for the PTO contains 
a number of performance measures for the PTO for fiscal year 2002 
through fiscal year 2006. That document states, ``It is important to 
note that the performance measures identified for fiscal year 2003 to 
fiscal year 2006 assume that the USPTO will receive full access to its 
fees.'' Even with that assumption, the PTO projects that patent 
pendency will rise from an average of 26.2 months this fiscal year to 
38.6 months by fiscal year 2006. That analysis clearly indicates that 
the Secretary of Commerce and the Committee need to take a serious look 
at PTO operations and evaluate from the ground up what they need to do 
their job better. How can PTO make that assumption? What would happen 
if the Administration and Congress continued to withhold approximately 
15 percent of PTO fee collections consistent with the President's 
fiscal year 2002 Budget request? What can be done to address that issue 
without sacrificing quality?
    Answer. The USPTO has experienced an annual growth in patent 
application filings of more than 12 percent in recent years. We need to 
address this issue by first identifying the core goals of the USPTO; 
implementing management strategies to reach our goals; and determining 
the level of funding needed to meet these goals. We will be evaluating 
the operations of the USPTO to ensure that proper priorities are being 
set and efficient systems are in place and submitting budgets that will 
reflect these priorities.
                            us&fcs staffing
    Question. Mr. Secretary, how does the Department determine when and 
where U.S. and Foreign Commercial Service Centers are opened and 
closed? How much is being requested for the U.S. Foreign Commercial 
Service Export Assistance Centers? Please provide, in writing, a U.S. 
and Foreign Commercial Service Assistance Center expansion or 
consolidation plan that outlines both when and where openings and 
closures will occur both in this country and abroad.
    Answer. The fiscal year 2001 budget for Domestic Operations is 
$35.1 million. Of that amount, $32.3 million is budgeted for USEAC 
operations in the field. The fiscal year 2002 budget request for 
Domestic Operations is $34.3 million.
    Based on the President's budget request for fiscal year 2002, the 
US&FCS has no plans for expansion. With the recent confirmation of the 
Under Secretary for International Trade and the pending confirmation of 
the Assistant Secretary/Director General for the US&FCS, we are 
undertaking a full audit of all our domestic and overseas staffing and 
locations over the next 60 days. We anticipate that the new Assistant 
Secretary, when confirmed, will consider all options--including gapping 
positions, as well as consolidating, closing, and relocating offices 
domestically and posts overseas. We would be pleased to provide you 
with the results of that audit as soon as it is completed.
    In undertaking the audit, we will utilize performance measures, 
look at mission effectiveness, and redistribute resources accordingly--
all in order to position our resources where they will produce the 
biggest impact for U.S. exports. We are outlining briefly below the 
factors that will guide the audit in both the overseas and domestic 
fields. Again, we would be glad to provide further detail on the 
methodology.
    We audit overseas staffing and locations in six major ways:
  --We identify the most promising markets overseas using five-year 
        historic data and five-year projections relating to market size 
        and market structure which we received from economic 
        forecasting firm DRI (now DRI-WEFA).
  --We then identify where Foreign Service Officers are likely to have 
        the greatest impact overseas based on management, operational 
        and mission factors that cannot be as effectively discharged by 
        local staff.
  --Next, we apply a cost-benefit analysis to identify where we have 
        been getting the most bang-for-our buck.
  --Always, we consider several other important and often overriding 
        factors that we did not attempt to quantify, such as 
        Administration and legislative priorities, strength of trade 
        promotion infrastructure, quality of local work force or 
        geographic dispersion.
  --Once these quantitative tools have placed all countries on the same 
        starting point, the regional offices apply in-house country and 
        area expertise to make the hard calls on where to open or close 
        offices and determine budget allocations.
  --Within country, we rely on the post to determine an optimal 
        staffing level and mix for each country given its resources.
    We audit domestic operations in four major ways:
  --We look for large concentrations of small and medium sized 
        businesses that are looking to export to new markets.
  --We consider what other resources these businesses have available to 
        them.
  --We work with other Federal agencies, state and local export 
        promotion groups, and other organizations such as Chambers of 
        Commerce and universities, to plan where our counseling 
        services could create the greatest benefit.
  --We consider the cost-effectiveness of all staffing options, 
        utilizing a cost-benefit model that lets us compare 
        productivity across offices in various locales.
    With the process currently underway, we expect to have a full plan 
for you within 60 days.
                           technology program
    Question. Mr. Secretary, your budget request for the Office of 
Technology Policy is $8.2 million. How is this amount broken out 
between the various Office of Technology Policy responsibilities?
    Answer. The budget requests $8.2 million for the Under Secretary/
Office of Technology Policy. This includes $1.832 million for the 
executive management function of the Under Secretary's office; $1.5 
million for GSA rent and Hoover Building related costs; $608,000 for 
the Office of Space Commercialization; $598,000 for EPSCoT; $400,000 
for the Partnership for a New Generation Vehicle Secretariat and $3.3 
million for the Office of Technology Policy program and policy 
functions.
    Question. Do you have plans to evaluate the relative value of the 
Partnership for a New Generation of Vehicles?
    Answer. Yes. Every year the National Academies of Science and 
Engineering conduct such an evaluation. Their report for the year 2000 
is currently being developed, and we expect its release in July 2001. 
This annual evaluation, conducted by the Transportation Research 
Board's Standing Committee to Review the Research Program of the 
Partnership for a New Generation of Vehicles, is performed by a group 
of industry and academic automotive experts. Approximately half of 
these experts are members of the National Academy of Engineering.
    Question. Could economies of scale be realized if the Office of 
Technology Policy was eliminated and its programs were moved to 
separate Bureaus such as the National Institute of Standards and 
Technology?
    Answer. The missions of the Office of Technology Policy (OTP) and 
the National Institute of Standards and Technology (NIST) are very 
different. NIST is, fundamentally, a scientific and research laboratory 
staffed with scientists, engineers, and other technical personnel who 
specialize in various scientific and engineering disciplines. In 
contrast, OTP is a policy analysis and development organization. It 
analyzes the range of factors that affect technological innovation, and 
advocates policies that could increase the contribution of technology 
to U.S. economic growth and competitiveness. This policy work is 
required in the Stevenson-Wydler Technology and Innovation Act of 1980. 
It is unclear what gains, if any, would materialize by eliminating OTP 
as other Federal agencies tend to only address a narrow set of 
technology policies related to their specific missions.
                    noaa--nmfs cooperative research
    Question. Mr. Secretary, I've noticed that your budget request for 
the National Marine Fisheries Service includes an increase for 
cooperative research. This idea shows great promise for the future of 
fisheries management, but only if your fisheries scientists and 
managers are equipped and willing to use the data that is being 
collected. Can you demonstrate that they are willing and equipped to do 
so?
    Answer. Our fiscal year 2002 request includes $3.5 million for NMFS 
Cooperative Research Implementation. These funds cover the NMFS costs 
associated with cooperative research in the Northeast, including 
specific research design, field scientific staff, data assimilation and 
analysis, program administration, and application of the research 
results to Council management issues. The NMFS Cooperative Research 
Implementation funds complement our $16 million Cooperative research 
request to utilize the expertise and insights of fishers in research 
including resource survey design and interpretation. This two-part 
request provides both the resources for NMFS and the industry to ensure 
future cooperative research programs are successful and provide needed 
data.
                          noaa--nmfs lawsuits
    Question. Mr. Secretary, there are 110 lawsuits pending that name 
the National Marine Fisheries Service (NMFS) as the defendant. Twenty-
five of these lawsuits are related to the National Environmental Policy 
Act. As you know, NMFS' untimely action in the Ninth Circuit Court last 
year resulted in a temporary shutdown of one of our nation's biggest 
fisheries. A NEPA-related lawsuit could threaten the lobster fishery in 
New England. How do you intend to approach the backlog of litigation? 
What is your plan to avoid this kind of backlog in the future? How are 
you planning to reduce the agency's risk to litigation? What steps are 
you taking to ensure that the entire staff of the agency is not pulled 
into litigation, and away from the science and regulations that they 
are required to implement? Many of the lawsuits involve a debate about 
the science. How is NMFS evolving to ensure that it makes decisions 
based upon the most up-to-date and sound science?
    Answer. NMFS is involved in approximately 106 lawsuits, but it is 
not the defendant in all of them. NMFS may be a plaintiff; it may not 
be a named party at all, but are following the lawsuit because our 
interests are implicated.
    We are certainly concerned about our litigation load, as it has 
approximately doubled in the last five or six years. Some of this 
increase is inevitable. The more species or populations an agency lists 
under the Endangered Species Act, the more litigation will ensue. 
Another example is the Sustainable Fisheries Act, which in 1996 
increased NMFS' responsibilities to rebuild overfished fisheries, 
minimize bycatch, and protect essential fish habitat. Those who believe 
we have gone too far in conserving fish stocks and habitat have sued 
us, and so have those who think we have not done enough. Other lawsuits 
may be avoided in the future if NMFS can improve its compliance with 
procedural statutes such as the National Environmental Policy Act and 
the Regulatory Flexibility Act. We have new guidelines for complying 
with the Regulatory Flexibility Act, and recently received an honorable 
mention from the Small Business Administration for our improved 
performance under that statute.
    Most, if not all, of the funding increases requested for NMFS in 
the fiscal year 2002 President's Budget will help meet the agency's 
legal requirements and thereby reduce the number of new lawsuits. The 
increased resources will fund additional stock assessment information, 
improved economic and social data, and research. This will aid NMFS in 
meeting its mandates and withstand court challenges.
    We have a task force working now, with assistance from a 
contractor, to identify ways to better manage our decision making 
process by incorporating all these procedural requirements more 
efficiently. We expect to make improvements that will result in better 
decision making and the elimination of our lawsuit backlog and other 
litigation problems.
    Question. You have requested $8 million for NEPA in fiscal year 
2002. How do you intend to spend these funds?
    Answer. Our fiscal year 2002 budget request continues the $8 
million appropriated in fiscal year 2001 to address NEPA related needs. 
This critically needed funding will be utilized in the short-term to 
fund immediately NEPA projects of highest national significance and 
litigable risk. In the long-term, the funding will be used to build on 
the task force recommendations and institute a management process that 
improves the decision making and integration of the agency's growing 
statutory, regulatory, and legal requirements. Additionally, the fiscal 
year 2002 budget request includes proposed funding of $13.3 million for 
additional stock assessments, and $1.4 million for more socio-economic 
analysis. Support for these requests would provide better data for the 
management arena as well.
                    noaa--fisheries research vessels
    Question. Mr. Secretary, I am concerned that as NOAA's fisheries 
research vessels are pushed into proposed future budget requests that 
the cost per vessel will increase. As you know, the NOAA fleet is aging 
and many of the NOAA vessels must be replaced. Why wasn't the second 
fisheries vessel included in the budget request?
    Answer. Mr. Chairman, the Administration has decided to defer 
funding for the second vessel to fiscal year 2003 to capture 
efficiencies and economies obtained through the design of the first 
vessel. However, this program remains a high priority for NOAA and 
NMFS.
    Question. Will you support its funding if we find resources for it?
    Answer. The Fisheries Research Vessel construction contract 
includes options to support NOAA's requirement to build three 
additional vessels. NOAA is committed to meeting this requirement.
    Question. Can you assure me that next year we see the third vessel 
in the budget request?
    Answer. NOAA is currently working with the Administration to secure 
funding in future years for these additional vessels.
               stimulating u.s. markets to ensure growth
    Question. Secretary Evans, as you know the United States is the 
largest, most dynamic, and, most influential market in the world. We 
have experienced significant growth and innovation, resulting in 
increased wealth for much of the country. The U.S.'s influence on 
global markets is undeniable and dramatic. Yet, along with the 
designation of ``worlds' largest economy'' comes certain 
responsibilities. Some have even called the United States ``the market 
of last resort,'' meaning that we must import goods and services in 
order to maintain some measure of economic order. Currently, our growth 
is slowing. People are not buying like they did a few years ago. Stock 
market analysts talk about ``a market rebound'' rather than ``historic 
trading levels.'' Mr. Secretary, recognizing the U.S.'s role in the 
world, and our slowing economy, what is your plan to stimulate our 
markets to ensure continued growth?
    Answer. The Administration is pursuing monetary, fiscal and trade 
policies that foster and improve a favorable climate for growth. In 
this regard, the tax legislation is critical. The near term stimulus of 
the tax bill is important. Since businesses look to the future, so too 
are those features of the Administration's strategy that encourage 
education, saving, risk taking and adopting a longer term perspective 
in investment in people and by people.
    Just as U.S. markets represent important opportunities for foreign 
producers, U.S. economic strength depends in part on expanding access 
to foreign markets for U.S. producers. In recent years, the U.S. 
economy has enjoyed major productivity gains, high employment and low 
inflation stemming largely from the spread of IT investments. But these 
improvements only create the potential for commercial successes abroad 
if we have more open access to foreign markets. To realize our 
potential, we must continue to work for a more liberal international 
trading system.
    Open markets at home and abroad are good for Americans and good for 
the global economy. Open U.S. markets provide lower prices and more 
choice to our consumers, which makes incomes of all consumers go 
further. In essence, open trade, much like a tax cut, increases 
people's discretionary income. This is particularly so in a competitive 
economy such as ours where the benefits of open trade quickly find 
their way to consumers in the form of greater choice and lower prices.
    Internationally, open trade has contributed far more to post World 
War II economic expansion where countries have pursued liberal trade 
policies than where countries that have chosen more closed trade 
regimes, often marked by quotas, high duties and administrative 
restraints to the flow of goods and services.
                                 ______
                                 
             Question Submitted by Senator Pete V. Domenici
                 promoting commerce in southwest region
    Question. Earlier, I referenced that our recently booming economy 
generated significant wealth for much of America. However, rural areas 
have not realized many of these gains from trade. New Mexico is a rural 
state. Even more to the point, my state's border region with Mexico is 
disproportionately poor. The median household income in the border area 
is $14,000 compared to $16,346 for the rest of the state. We should not 
point to the wealth of the majority while ignoring the relative poverty 
of the minority. Please explain your strategy to promote commerce in 
traditionally forgotten regions, like the southwest border region.
    Answer. The Economic Development Administration's (EDA) mission is 
to generate jobs, help retain existing jobs and stimulate industrial, 
technological and commercial growth in economically distressed areas of 
the United States. EDA targets its assistance to distressed 
communities, such as those found in the Southwest Border Region, 
helping them in developing and implementing their own economic 
development and revitalization strategies. EDA provides planning 
assistance on an ongoing basis to seven Economic Development Districts 
(EDDs) in New Mexico that encompasses the entire state. The state's 
border region is covered by three EDA funded EDDs: Southwest NM Council 
of Governments, in Silver City; South Central NM Council of 
Governments, in Truth or Consequences; and Southeastern NM Economic 
Development District, in Roswell. EDA also funds two University Centers 
which are located in the border area. One is at the New Mexico State 
University in Las Cruces and the other is at Eastern NM University in 
Roswell.
    EDA also plays an active role in support of the Interagency Task 
Force on the Economic Development of the Southwest Border initiative. 
EDA's Austin Regional Office volunteered to assume the lead for the 
selected pilot community of Demming, New Mexico. EDA's function, in 
addition to providing technical assistance and direct program support, 
is to assist in coordinating other available Federal resources to 
implement the community's comprehensive economic development strategy. 
Also under study is a preliminary proposal for Wiring of the Border 
being developed and co-sponsored by the U.S. Mexico Chamber of 
Commerce.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski
             accessing eda funds to low-income communities
    Question. Last year, we appropriated $286 million to just the 
public works program, which supports local government efforts to 
attract new industry, encourage business expansion, diversify local 
economies, generate long-term private jobs. Despite its success in 
these efforts, EDA has been targeted in your budget for drastic 
reductions. What activities is the Commerce Department prepared to 
undertake to otherwise assist low-income communities who will no longer 
have access to economic development funds from EDA?
    Answer. Economically distressed communities will still have access 
to all of EDA's various program tools, which include grants for 
Planning, Technical Assistance, Economic Adjustment, and Public Works 
and Economic Development Facilities.
    While the $250 million requested in fiscal year 2002 for EDA's 
Public Works and Economic Development Facilities Program is 
approximately $36 million below the amount appropriated for fiscal year 
2001, we believe the amount requested will be sufficient to enable EDA 
to respond to the needs of the highly distressed communities of the 
Nation.
    EDA, which has a good track record of targeting its Public Works 
Program resources to areas of high distress, will continue to reach out 
to economically distressed places, both rural and urban, that have 
demonstrated a pressing need to upgrade their basic infrastructure or 
construct new cutting-edge technological facilities that are required 
to support the economic development of local economies and to enhance 
the global competitiveness of distressed communities.
                             digital divide
    Question. The Commerce Department did an excellent job over the 
past three years demonstrating that a digital divide exists in America. 
The Department put out a series of reports entitled ``Falling Through 
the Net'' that indicated the digital divide is still widening. For 
example, the report showed that 46 percent of white households own 
computers versus only 25 percent of Hispanic households. What do you 
see as the Department's role in ensuring that no American is left out 
or left behind in the new techno-economy? What funding priorities in 
your budget achieve this goal?
    Answer. A long-standing priority of the U.S. government has been 
universal access to basic and advanced telecommunications services at 
affordable prices. Access to the tools of the new digital economy by 
all Americans is the key to the economic growth and competitiveness of 
this country. Yet many Americans still do not have affordable access to 
telephones, computers, or the Internet.
    The Department of Commerce will continue to play a role in 
promoting affordable access by promoting pro-competition policies. 
These policies encourage competition and growth in telecommunications 
services, which lead to new services being offered to more people at 
lower prices. Moreover, the Department's grant programs help provide 
access to new technologies. The President's budget requests $15.5 
million for the Technologies Opportunities Program (TOP), administered 
by the National Telecommunications and Information Administration. This 
program provides matching federal grants to finance demonstration 
projects that focus on connections to rural and inner-city areas. The 
program emphasizes the application of new technologies, including 
broadband. In addition, the grant and loan programs administered by the 
Economic Development Administration are helping to support broadband 
infrastructure deployment to distressed communities.
    The Department is currently reviewing the ``Falling Through the 
Net'' report to determine how to proceed in order to best assess the 
relative growth of the Internet and computer access across the country.
                          suitland facilities
    Question. The current condition of the Census and NOAA facilities 
at the Suitland Federal Center in Maryland pose serious health and 
safety risks for thousands of federal employees: they are riddled with 
asbestos, there are high levels of lead in the water such that 
employees have to use bottled water for drinking and don't know if it's 
safe for them to wash their hands. In addition, these buildings are 
over 60 years old and have received little maintenance over the past 
several years--roof leaks and floods from broken pipes are not an 
uncommon occurrence, and ceiling tiles, possibly contaminated with 
asbestos, fall down on employees desks. As you know, the Census Bureau 
employees more than 4,000 employees at the Suitland facilities and is 
the sixth largest employer in Prince Georges County. The Bureau is 
extremely disadvantaged by having to carry out its work in substandard, 
unhealthy conditions.
    Similarly, NOAA's National Environment Satellite, Data, and 
Information Service (NESDIS) and its Satellite Operations Control 
Center, cannot complete their mission within these buildings. In fiscal 
year 2000, there was $3 million for NOAA to plan and design a new 
facility and report language to direct Census to come up with a long-
range plan for its facilities. Last year, NOAA received $15 million in 
advanced appropriations for the initial rehabilitation. The General 
Services Administration budget for fiscal year 2002 includes $34 
million to rehabilitate Census facilities, and the NOAA budget contains 
$15 million to finish the renovations. Do you agree that the current 
condition of the Census and NOAA facilities at the Suitland Center 
endanger the health and safety of the federal employees who work there?
    Answer. While the current condition of the Census and NOAA 
facilities at the Suitland Federal Center does not endanger the health 
and safety of the federal employees who work there due to the special 
measures and monitoring put in place, we agree that the current 
facilities are not sustainable. The aging, 60 year old buildings are in 
substantial need of repair. Our concerns are based upon continual 
problems that threaten the day-to-day operations, as well as the health 
and safety of the employees and other individuals who must visit or 
work in these aging, deteriorating facilities. The following is a list 
of the major issues that must be addressed:
  --aging, unreliable, uncontrolled heating and air conditioning (HVAC) 
        systems, which rely upon a central plant supplying chilled 
        water for air conditioning and several boilers in multiple 
        buildings supplying hot water for heat, make the systems 
        unresponsive to swing-season conditions
  --frequent leaks from the HVAC units which result in carpet damage 
        that contributes to mold and mildew growth and poor indoor air 
        quality
  --frequent roof and wall leaks that have resulted in damage to 
        ceiling tiles, furniture, and equipment
  --aging, corroded plumbing that is prone to leaks, blockages, serious 
        pipe breaks, and office flooding
  --aging power equipment and the lack of a managed electrical system 
        that require extensive wiring searches and major rerouting of 
        wiring to make electrical repairs
  --aging, unreliable elevators that are frequently inoperable
  --elevated levels of lead, iron, and copper in the water supply that 
        is designated as unfit for human consumption, making bottled 
        water a necessity at the facility
  --no outside fresh air circulatory systems, which encourages the 
        growth of molds and other microbes that cause poor indoor air 
        quality
  --existence of asbestos contamination in the air-handling units, pipe 
        wraps, floor tiles, and above the drop-ceiling tiles
  --pigeon, rodent, and other pest infestation.
    Question. Will you keep the replacement or rehabilitation of these 
buildings as a top priority for the Department of Commerce?
    Answer. Yes. Safe working conditions and modern facilities to house 
employees are top priorities of the Department of Commerce. The 
Department is working with GSA to formulate long-term housing solutions 
for both Census and NOAA at the Suitland Federal Center (SFC).
    GSA has proposed a two-phase solution for the Census Bureau. Phase 
I involves the construction of a new building equal in size to Federal 
Building 3 (FB-3). The new building would be occupied in fiscal year 
2006 by employees now located in FB-3.
    Once the existing building is vacated, Phase II would involve the 
renovation of FB-3 with occupancy scheduled for remaining Census 
employees in fiscal year 2010. As Phase I nears completion, GSA and the 
Department will revisit the plan for Phase II to ensure that the most 
appropriate and cost effective solution will be undertaken.
    For NOAA, the replacement of FB-4 has been identified as a national 
priority by both GSA and the Department of Commerce. The design 
contract for the new NOAA Satellite Operations Facility at the Suitland 
Federal Center was awarded in January 2001 and is underway. The 
President's fiscal year 2002 budget request includes $34 million for 
GSA for the construction of the ``base building'' scheduled to begin in 
October 2001.
    In fiscal year 2001, NOAA was appropriated $15 million for its 
above standard construction costs necessary to meet its high technology 
operational requirements. Included in the President's fiscal year 2002 
budget request is $5.7 million for costs related to the occupancy of 
the building and to sustain the 24-hour, 7 day a week critical 
satellite operations during the relocation into the new facility.
    This project is scheduled for completion in early fiscal year 2004 
and will continue to be a top priority of NOAA and the Department.

                          subcommittee recess

    Senator Gregg. If there is nothing further, the 
subcommittee will stand in recess.
    [Whereupon, at 11:10 a.m., Tuesday, May 1, the subcommittee 
was recessed, to reconvene subject to the call of the Chair.]


DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED 
              AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2002

                              ----------                              


                         THURSDAY, MAY 3, 2001

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:57 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Judd Gregg (chairman) presiding.
    Present: Senators Gregg, Stevens, Hollings, Mikulski, 
Leahy, and Murray.

                          DEPARTMENT OF STATE

                           Secretary of State

STATEMENT OF HON. COLIN L. POWELL, SECRETARY
    Senator Gregg. I call the Subcommittee on Commerce, 
Justice, State, and Judiciary of the Appropriations Committee 
to order.
    We are certainly privileged today and appreciate the 
Secretary of State coming by to give us his thoughts on the 
budget and any other issues that he wishes to address or that 
members wish to raise.
    I will forego an opening statement so we can hear from the 
Secretary. I do not know if my colleague----
    Senator Hollings. Good. I will follow your leadership.
    Senator Gregg. Then, we will pass on opening statements, 
and we would like to hear your thoughts, Mr. Secretary--excuse 
me, Senator Leahy. Did you wish to say something? I understand 
Senator Leahy has to leave.
    Senator Leahy. Mr. Chairman, I have to go to the Judiciary 
Committee; we have a little matter up there this morning. If I 
could have permission to submit questions for the record and my 
statement.
    Senator Gregg. Yes, absolutely.
    Senator Leahy. And I am, like all of us, delighted to see 
the Secretary here.
    Secretary Powell. Thank you, Senator.
    Senator Gregg. Thank you for coming by.
    [The statements follow:]

             Prepared Statement of Senator Patrick J. Leahy

    Mr. Secretary, it is good to see you. I think your 
appointment was one of the President's best and most important 
decisions so far, both for our country and for the State 
Department.
    This has already been shown by the effective way the 
Administration handled the crisis with China over our 
reconnaissance aircraft, the public statements you have made 
for a more aggressive response to HIV/AIDS, and your work on 
other issues.
    You are scheduled to testify before the Foreign Operations 
Subcommittee the week after next, so I do not want to take a 
lot of time today. There are a couple of issues I want to 
mention.
    First, thank you for continuing the position of Special 
Representative for Global Humanitarian Demining. Ambassador Don 
Steinberg has done an outstanding job, and it is important that 
we continue to make progress on the landmine problem.
    I hope you and I can find a time soon to discuss this 
further.
    Second, I want you to know that I believe the budget for 
the Bureau for Democracy, Human Rights, and Labor is 
inadequate.
    This office has some of the most hard working, committed, 
and under-appreciated professionals in the State Department. 
They are responsible for ensuring that the most fundamental 
principles on which our country was founded are reflected in 
our foreign policy.
    Yet they have few funds to independently investigate 
reports of serious human rights violations.
    Too often, their views have been ignored or ridiculed as 
naive. They are told that human rights are important, but there 
are higher priorities.
    Last year, thanks to this Subcommittee, the Congress 
increased the budget for the DRL Bureau to $12 million. The 
Administration requested the same amount for 2002.
    I believe they need more, and I hope we can do better.
    Finally, I want to mention U.N. arrears. We were all 
pleased that Ambassador Holbrooke was able to achieve an 
agreement on a reduction in the U.S. share of U.N. dues last 
December, and that the Senate passed legislation to implement 
the deal. I hope the House acts on this soon.
    But if we do not repeal the 25 percent funding cap, we will 
continue to accumulate arrears and be right back where we 
started. I urge you to work with Congress to move on this as 
soon as possible.
    Mr. Secretary, there are other priorities like funding for 
AIDS, the immense needs in Africa, and other foreign assistance 
programs that we will discuss at the hearing on May 15.
    I think we all feel that the State Department is in very 
good hands, and I look forward to working with you this year 
and in the future, particularly on the international affairs 
budget.
    If I can be so presumptuous as to give you one piece of 
advice:
    You can have the best foreign policies in the world but if 
you don't have the funds to implement them, they are not worth 
much.
    Too many of your predecessors seemed to forget that after 
their first year in office, and they learned the hard way how 
big a mistake that was.
    Mr. Chairman, I have a couple of questions I will submit 
for the record.
                                ------                                


           Prepared Statement of Senator Barbara A. Mikulski

    Mr. Secretary, let me join in welcoming you to this 
subcommittee for the first time. Your talents and experience 
are well known to us all. I am proud to carry on a tradition of 
bipartisanship in foreign affairs in this subcommittee and in 
the Senate, though there have been tragic exceptions like the 
Comprehensive Test Ban Treaty vote last year.
    I look forward to working closely with you to ensure 
American leadership is headed in the right direction and to 
ensure we devote the necessary resources to protect America's 
interests and reflect America's values.
    I commend you for working to reinvigorate the State 
Department. Our Foreign Service Officers and civil servants 
serve our nation and endure hardships and risk their lives. 
They deserve secure, modern embassies not collapsing relics or 
trailers; 21st Century information technology not 19th Century 
cables; benefits they have earned not home leave they routinely 
forgo to reduce staffing gaps; and a career path that rewards 
performance not an uncertain future due to poor planning.
    America's foreign policy professionals deserve our respect 
and support. I stand ready to support increased funding for the 
State Department. We're counting on you to make sure our 
resources are used well.
    We must ensure that our foreign policy is one which 
deserves broad support from the American people not the agenda 
of a small minority who insist on the global ``gag rule'' which 
makes international family planning efforts less effective; not 
the interests of a few corporations who want to resume trade 
ties with terrorist states like Libya and Iran; and not an 
isolationist approach, leaving Europe to the Europeans or 
looking away from the AIDS crisis in Africa.
    We should seize the opportunity to build a new relationship 
with the United Nations. The United Nations continues 
management and other reforms. Ambassador Holbrooke achieved 
reductions in our assessment rates last December. Now we must 
pay our dues and arrears responsibly. We must remain fully 
engaged in diplomacy to prevent or address conflicts in the 
Middle East, standing by our ally Israel at a difficult time; 
in the Balkans, ensuring our interventions achieved lasting 
peace with justice and with respect for the rights of all; in 
Cyprus, which has been divided for decades; in Africa, where 
ethnic conflicts, health crises, and slavery continue; and in 
Latin America, where we have the opportunity to work with 
democratically-elected governments in almost every country.
    Mr. Secretary, we are looking to you to provide leadership 
for America's diplomats and for American diplomacy. Thank you 
for testifying today and I look forward to raising a few 
questions.

    Senator Gregg. Mr. Secretary, please proceed.
    Secretary Powell. Thank you very much, Mr. Chairman, and 
good morning. It is a great pleasure to appear before the 
subcommittee, and I am tempted to take the same opportunity 
that you did to pass on an opening statement, but I do not 
think I can get away with that.
    Senator Gregg. Whatever you desire.
    Secretary Powell. So what I would like to do is submit a 
formal statement for the record with your permission, Mr. 
Chairman, and then make some opening remarks and go right to 
the questions that might be on your mind.
    Mr. Chairman, members of the subcommittee, I am pleased to 
appear before you for the first time as Secretary of State and 
to testify in support of the President's State Department 
budget for fiscal year 2002.
    The budget, I am pleased to say, represents a significant 
increase in the Department's resources for the upcoming fiscal 
year, and we are very happy with that. It is a very good start 
in helping to get the Department ready for the 21st century. 
But it really is just the first fiscal step in our efforts to 
align both the organization for and the conduct of America's 
foreign relations with the dictates and demands of the modern 
world.
    As Secretary of State, Mr. Chairman, I really wear two 
hats. By law, I am the principal foreign policy advisor to the 
President of the United States, but I am also the leader, the 
manager, the CEO of the Department of State, and I take that 
role and that charge very, very seriously.
    To be successful in both roles, I think I have to make sure 
that the Department is properly organized, equipped, and manned 
to conduct America's foreign policy as well as formulate good 
foreign policy in the name of the President and the American 
people.
    This morning, wearing my CEO hat, I want to highlight what 
this budget contains with respect to the President's three 
highest priorities for the operation of the State Department--
first, hiring new people, the lifeblood of any organization; 
second, Embassy construction and security, an issue which I 
know is very much on the minds of members of this committee; 
and third, information technology.
    I put people first because they should always be first; it 
is what makes the organization run. People get work done--not 
buildings, not staffs in a generic sense, and not plans--but 
people, and people will always be my first priority.
    There is no disputing that America needs to have the right 
people on the front lines of diplomacy. But we also need to 
have enough people. So the budget has $134.5 million for a 
major investment to recruit, hire, and train sufficient new 
people to create a training float. As well as staff for needed 
openings, so that we can begin to do something about the 
serious shortages we are experiencing in Foreign Service 
Officers in the field.
    In addition, we are seeking $488 million to continue and 
enhance our worldwide security readiness program. This 
enhancement includes hiring more security personnel, and we 
have $17 million within the $488 million to do just that.
    Our important multiyear program for Embassy construction, 
refurbishment, security, and maintenance will continue apace if 
this budget is approved--$1.3 billion supports this effort for 
2002, including $665 million for construction of new secure 
facilities.
    In addition to continuing this ambitious program set in 
place by my predecessors and the Congress last year, we are 
using new and more efficient ways to execute this program. For 
example, as we have notified the Congress, I intend to move the 
Foreign Buildings Office out from under the Bureau of 
Administration and put it directly beneath the Under Secretary 
of State for Management, Mr. Grant Green, a distinguished 
leader and management expert, and by the way, a close friend of 
mine for 20 years, who knows how to run things.
    Moreover, to run the Foreign Buildings Office, I have hired 
another experienced executive, retired Major General Charles 
Williams, U.S. Army Corps of Engineers. Chuck Williams is well-
known throughout the congressional community, the military 
community, and especially the construction community, both 
military and civilian. He is well-known for his ability to get 
construction projects completed on time, under cost, and in the 
most efficient way possible. He built the Dulles Greenway, not 
too far from here. He helped to refurbish the D.C. school 
system and did the same thing in New York City. He has worked 
with Congress, and he is already making a difference in the 
running of the Foreign Buildings Office. His adaptation of 
industry best practices to our overall program, plus his 
skilled management techniques, will make this construction 
program hum. And we are committed, Mr. Chairman, to getting the 
average cost of Embassy construction below the current figure 
of $100 million per Embassy, and if anyone can do it, I know 
that Chuck Williams can.
    It will be no mean feat because, as you are well aware, 
there are special provisions and requirements for every 
Embassy, and those unique provisions and requirements tend to 
drive costs up enormously. But we are going to give all we have 
got to get the price down and under control.
    Along with well-built, secure, and modern embassies, we 
want broad-based internet access for all of our people. I want 
every employee in the Department of State, no matter where they 
are located throughout the world, to have access to the 
powerful new internet technology that is out there, access to 
the power of the information revolution, so they can do their 
jobs in the most efficient way that we can make possible for 
them to do those jobs.
    We also want to modernize our classified information 
networks, and we have $210 million in the budget for these two 
initiatives--universal access to the internet, and modernized 
classified networks.
    On the CEO side of my ledger, then, these are my 
priorities--people, embassies, and information technology. Wrap 
all three up in the fourth priority, which is security, and you 
have the high points of the President's 2002 budget for State 
operations.
    I want to talk about one other change we are making in the 
Department. We are reorganizing the way that we manage our 
finances. When I first arrived at State and looked around 
during the transition period, I did not find any single 
authority in charge of all of the Department's financial 
activity. There was a chief financial officer, but he had no 
control over the foreign operations part of the money, two-
thirds of the overall budget. I knew that we needed to change 
that overall situation.
    Under our plan to change, we will bring together all of our 
dollars, both those for State operations and foreign 
operations, and we will put them all under one bureau headed by 
an Assistant Secretary of State for Resource Management, and 
the Assistant Secretary will report directly to the Deputy 
Secretary.
    This new bureau will also be responsible for strategic 
planning so that we can link our budgeting priorities and our 
budget requests to specific strategic planning objectives that 
we have for the Department.
    These are just the highlights of what we are doing, Mr. 
Chairman. I want to close with an observation about the 
management style that we are going to be using at the State 
Department.
    I have hired some very, very experienced people to help me. 
Deputy Secretary of State Richard Armitage and I worked 
together for many years at the Pentagon. I have delegated to 
him all of the authority that I have with the exception of a 
few legally-constrained authorities that I cannot delegate. The 
reason I did that was because I want the Department to see 
myself and my deputy as one and the same, totally integrated, 
both of us trying to be leaders and managers and foreign policy 
experts.
    Leadership and management is not something I do every 
Friday afternoon for an hour or so. It is embedded in 
everything we do, every, single day in the State Department. 
And I want them to see that the top team, myself and Deputy 
Secretary Armitage, are working together as a team on 
leadership, management, and foreign policy for the President 
and for the American people.
    Similarly with Grant Green and with our new Undersecretary 
for Political Affairs, Mark Grossman--a tight team that is 
working together to provide a new sense of enthusiasm 
throughout the State Department, to empower all of our 
Assistant Secretaries, to empower our Office Directors, to 
empower our Ambassadors, to let them know that they are in the 
front line of offense out there, getting the work done and 
making sure that we are a well-knitted-together team. From the 
lowliest--and that is not the right term--but the best and the 
lowest-position consular officer out there in an Embassy 
somewhere, all the way up to the Secretary of State--one team, 
all working together, all empowered, all knitted together with 
the finest information technology, with programs that take care 
of them, take care of their families, take care of their kids' 
schooling, so they know that we care about them as they do 
about the work that is needed to be done for the American 
people and to advance American interests on the world stage.

                           prepared statement

    Mr. Chairman, I will stop at this point, because I think it 
is much more interesting to get to your questions and find out 
what you would like to hear from me.
    [The statements follows:]
                 Prepared Statement of Colin L. Powell
    Mr. Chairman, members of the subcommittee, I am pleased to appear 
before you for the first time as Secretary of State, and to testify in 
support of the President's State Department Budget for fiscal year 
2002.
    This Budget represents a significant increase in the Department's 
resources for the upcoming fiscal year, and we are pleased with that. 
This is a good start.
    It is the first fiscal step in our efforts to align both the 
organization for and the conduct of America's foreign relations with 
the dictates of the 21st Century.
    As Secretary of State I wear two hats--one as CEO of the 
Department, the other as the President's principal foreign policy 
advisor.
    Being successful in both roles is important because we must be 
properly organized, equipped, and manned to conduct America's foreign 
policy as well as formulate good policy.
    So wearing my CEO hat, I want to highlight what this budget 
contains with respect to my three highest priorities: embassy 
construction and security, information technology, and hiring new 
people.
    Our important multi-year program for embassy construction, 
refurbishment, security, and maintenance will continue to move forward 
if this Budget is approved. $1.3 billion supports this effort for 
fiscal year 2002, including $665 million for construction of new secure 
facilities.
    In addition to continuing this ambitious program set in place by my 
predecessors and the Congress last year, we are using new and more 
efficient ways to execute this program.
    For example, as we have notified the Congress I intend to move the 
Foreign Buildings Office (FBO) out from under the Bureau of 
Administration and put it directly beneath Under Secretary for 
Management Grant Green.
    Moreover, I've hired an experienced executive to manage overseas 
construction, retired Major General Charles Williams, U.S. Army Corps 
of Engineers. His adaptation of industry best practices to our overall 
program, plus skilled management techniques, will make this program 
hum.
    We are committed to getting the average cost of embassy 
construction below the current figure of $100 million. If anyone can do 
it, Chuck Williams can. It will be no mean feat because, as you are 
well aware, there are special provisions and requirements for every 
embassy and those provisions and requirements drive up costs 
enormously. But we're going to give it all we've got.
    Along with well-built, secure and modern embassies, we want broad-
based Internet access for all our people. I want every State employee 
to have access to the Internet and to be able to talk to each other. 
Likewise, we want to modernize our classified information networks. 
We've got $210 million in the budget for these initiatives.
    There is no disputing that America needs to have the right people 
on the front lines of diplomacy. But we also need to have enough 
people. The budget has $134.5 million for a major investment to 
recruit, hire, and train sufficient new people to create a training 
float so that we can begin to do something about the serious shortages 
we're experiencing in Foreign Service Officers (FSOs) in the field. In 
addition, we are seeking $488 million to continue and enhance our 
worldwide security readiness program. This enhancement includes hiring 
more security personnel and we have $17.1 million within the $488 
million to do just that.
    On the CEO side of my ledger, these are the priorities--embassies, 
people, and information technology. Wrap all three up in a fourth 
priority called ``security'', and you have the high points of the 
President's fiscal year 2002 Budget for State operations.
    But let me talk about one more change we are making before I go 
into levels of detail about the Budget. We are reorganizing the way the 
Department manages its finances.
    When I first arrived at State and looked around, frankly, I could 
not find any single authority in charge of all of the Department's 
finances. There was a Chief Financial Officer but he had no control 
over the Foreign Operations portion of the money--two-thirds of the 
overall budget. I knew we needed to change that situation.
    Under our planned change, we will bring together all our dollars--
both those for State operations and foreign operations.
    We'll then put them all under one bureau headed by an assistant 
secretary of state for resource management. The assistant secretary 
will report to the Deputy Secretary.
    This new bureau will also be responsible for our strategic 
planning. Previously, such planning was accomplished in a number of 
different offices and as a consequence it was quite often separated 
from actual resource decisions. With the new bureau, we are going to 
streamline and consolidate so as to synchronize our actual resource 
allocation with our strategic goals.
    Consolidating under one bureau will also establish accountability. 
All dollars under the purview of the Secretary of State will be 
coordinated within this bureau.
    Linking more directly our strategy and our dollars, and making the 
expenditure of those dollars more accountable, will make us more 
effective, more efficient, and infinitely better able to justify our 
resources.
    Mr. Chairman, there is of course much more to the President's 
Budget for fiscal year 2002 for State operations. Let me provide some 
of the details under three general headings: Administration of Foreign 
Affairs, International Organizations, and Related Appropriations.
                   administration of foreign affairs
Diplomatic and Consular Programs (D&CP):
    The fiscal year 2002 request for D&CP, the State Department's chief 
operating account, totals $3.705 billion.
    This account funds the diplomatic activities and programs that 
constitute the first line of defense against threats to the security 
and prosperity of the American people. Together with Machine Readable 
Visa and other fees, it supports the salaries, operating expenses, and 
infrastructure required to carry out U.S. foreign policy.
    The fiscal year 2002 request provides $3.217 billion in D&CP for 
ongoing operations--a net increase of $459.3 million over the fiscal 
year 2001 level. Increased funding will enable the State Department to 
make critical improvements in diplomatic readiness, particularly in 
human resources and overseas infrastructure.
    The United States must have the right people in the right place at 
the right time with the right skills to advance national interests 
effectively. To meet this requirement, the State Department will 
implement a strategy to recruit, hire, train, and deploy the additional 
professionals needed around the world. We will put in place processes 
to test the effectiveness of our strategy and to ensure accountability. 
With new D&CP funding in fiscal year 2002 of $134.5 million, the State 
Department will add 360 professionals and create a work environment 
that will help attract and retain talent in a highly competitive 
economy.
    The United States requires a strong and secure diplomatic platform 
to support the work of more than 30 Federal agencies at more than 250 
posts overseas. With new D&CP funding of $78 million, the State 
Department will restore infrastructure and address deferred 
maintenance. In fiscal year 2002 the Department will replace a third of 
its obsolete equipment and unreliable vehicles; increase training, 
essential service contracts, and Foreign National employee wages; and 
continue consolidating overseas financial functions in the Charleston 
Financial Services Center.
    The D&CP ongoing budget also includes new base funding of $102.7 
million for the operating and maintenance costs of information 
technology investments. These costs have been carried by the 
Information Resources Management (IRM) Central Fund, using two-thirds 
of its resources for maintenance rather than modernization.
    An increase of $17 million will support priority foreign policy 
initiatives. These include projects in the areas of intelligence and 
research, Freedom of Information and Privacy Act compliance, arms 
control and international security (meeting nonproliferation, 
disarmament, and verification obligations), and international trade.
    The fiscal year 2002 request also provides $487.7 million in D&CP 
for Worldwide Security Upgrades--an increase of $78.6 million over last 
year.
    This funding includes $349.3 million to sustain security programs 
begun with the fiscal year 1999 emergency supplemental, such as 
worldwide guard protection, physical security equipment and technical 
support, information/systems security, and personnel and training.
    Worldwide Security Upgrades also includes $74 million to help 
continue the perimeter security enhancement program for 232 posts; 
$47.3 million to improve technical, counterintelligence, and domestic 
programs; and $17.1 million to add 186 security professionals.
Capital Investment Fund
    The fiscal year 2002 request provides $210 million for the Capital 
Investment Fund, the State Department's principal funding for 
information technology (IT) enhancements. The request represents an 
increase of $113.2 million over the fiscal year 2001 level.
    Together with an estimated $63 million in Expedited Passport fees, 
this request finances the IRM Central Fund to permit vital IT 
investments and enable more effective interaction and information 
sharing among agencies in the foreign affairs community.
    Funding for the IRM Central Fund will provide $236.9 million for IT 
infrastructure. A key initiative will extend classified connectivity to 
every post that requires it, adding new posts and replacing obsolete 
equipment that posts are still using for classified operations. Another 
priority initiative will expand desktop access to the Internet for 
State Department employees around the world through full deployment of 
OpenNet Plus, an intranet for sensitive but unclassified e-mail plus 
Internet access.
    Funding will also provide $26.2 million for IT applications and 
software that directly support foreign affairs activities and $9.9 
million for IT training of systems managers and users.
    This request makes the IRM Central Fund a true investment fund, 
shifting IT operating and maintenance funding to D&CP.
Embassy Security, Construction, and Maintenance (ESCM):
    The fiscal year 2002 request for ESCM is $1.291 billion. This 
total--an increase of $213.4 million over the fiscal year 2001 level--
reflects the Administration's continuing commitment to protect U.S. 
Government personnel serving abroad, improve the security posture of 
facilities overseas, and correct serious deficiencies in the State 
Department's overseas infrastructure.
    For the ongoing ESCM budget, the Administration is requesting $475 
million. This budget includes maintenance and repairs at overseas 
posts, facility rehabilitation projects, construction security, 
renovation of the Harry S Truman Building, all activities associated 
with leasing overseas properties, administration of the overseas 
buildings program, and construction of a classified annex in Bogota, 
Colombia.
    In Worldwide Security Upgrades, the Administration is requesting 
$665 million for capital projects. This request will continue the 
program of relocating posts at highest risk begun with the fiscal year 
1999 emergency security supplemental.
    Funding will be used for the design and/or construction of about 
seven new embassies or consulates. Possible sites include Beijing, 
China; Cape Town, South Africa; Conakry, Guinea; Damascus, Syria; 
Harare, Zimbabwe; Phnom Penh, Cambodia; Sao Paulo, Brazil; Tashkent, 
Uzbekistan; Tbilisi, Georgia; and funding may also be used for a post 
opening in Medan, Indonesia.
    Capital projects funding will also be used to acquire sites at five 
to ten other posts for which design/construction funding will be sought 
in the outyears and to construct Marine Security Guard quarters at 
posts with new diplomatic compounds. Funding includes $50 million for 
construction of new on-compound facilities for USAID.
    In Worldwide Security Upgrades, the Administration is also 
requesting $150.9 million to strengthen perimeter security at 28 
additional vulnerable posts and meet recurring security support costs 
associated with the embassy construction and perimeter security 
program.
Educational and Cultural Exchange Programs (ECE):
    The fiscal year 2002 request of $242 million for ECE will fund some 
of the U.S. Government's most effective international exchanges.
    Authorized by the Mutual Educational and Cultural Exchange Act of 
1961 (Fulbright-Hays Act), as amended, these strategic activities build 
mutual understanding and develop friendly relations between the United 
States and other countries. They establish the trust, confidence, and 
international cooperation necessary to sustain and advance the full 
range of U.S. national interests.
    The request provides $140.3 million for Academic Programs. These 
include the J. William Fulbright Educational Exchange Program for 
exchange of students, scholars, and teachers and the Hubert H. Humphrey 
Fellowship Program for academic study and internships in the United 
States for mid-career professionals from developing countries.
    The request also provides $72.6 million for Professional and 
Cultural Exchanges. These include the International Visitor Program, 
which supports travel to the United States by current and emerging 
leaders to obtain firsthand knowledge of American politics and values, 
and the Citizen Exchange Program, which partners with U.S. non-profit 
organizations to support professional, cultural, and grassroots 
community exchanges.
    The total request for ECE represents an increase of $10.4 million 
over the fiscal year 2001 level. While most of this increase is needed 
to cover built-in requirements (particularly federal pay raises), $2.2 
million will provide program enhancements for Fulbright, International 
Visitors, Citizen Exchanges, and global academic programs (including 
university partnerships, English teaching, and overseas educational 
advising).
Other State Programs:
            Representation Allowances:
    The fiscal year 2002 request of $9 million will reimburse 
diplomatic and consular personnel in part for officially representing 
the United States abroad and before international organizations. The 
increase of $2.5 million over the fiscal year 2001 level begins to 
restore the buying power that has been lost in this account over the 
past twelve years.
            Emergencies in the Diplomatic and Consular Service (EDCS):
    The fiscal year 2002 request of $15.5 million increases support for 
the EDCS account by $10 million over the fiscal year 2001 level to help 
meet emergency requirements in the conduct of foreign affairs.
    Funding for this no-year account will cover the evacuation of 
American officials and their families from areas of political unrest or 
natural disaster. It will also pay rewards for information concerning 
international terrorism, narco-terrorism, and war crimes.
                      international organizations
Contributions for International Peacekeeping Activities (CIPA):
    The fiscal year 2002 request for CIPA totals $844.1 million. It 
represents the U.S. share of the expenses of United Nations (U.N.) 
peacekeeping operations and provides for full funding of projected 
fiscal year 2002 operations.
    The request funds U.S. assessed contributions to continuing U.N. 
operations in Kosovo, Bosnia and Herzegovina, East Timor, the Golan 
Heights, Lebanon, Cyprus, Georgia, Western Sahara, Iraq/Kuwait, Sierra 
Leone, the Democratic Republic of the Congo, and Ethiopia/Eritrea. It 
also includes funding for the War Crimes Tribunals for the former 
Yugoslavia and Rwanda.
    U.N. peacekeeping operations serve the national interests of the 
United States by helping to support new democracies, lower the global 
tide of refugees, reduce the likelihood of unsanctioned interventions, 
and prevent small conflicts from growing into larger wars.
    Acting through the United Nations allows the United States to share 
the risks and costs of responding to international crises. Funding the 
U.S. share of assessed U.N. peacekeeping budgets ensures continued 
American leadership in shaping the international community's response 
to developments that threaten international peace and security.
    The Administration requests that 15 percent of these funds be 
appropriated as ``two-year funds'' because of the unpredictability of 
the requirements in this account and the nature of multi-year 
operations with mandates overlapping the U.S. Fiscal year.
Contributions to International Organizations (CIO):
    The fiscal year 2002 request for CIO totals $878.8 million. It 
provides full funding of U.S. assessments, consistent with U.S. 
statutory restrictions, to 44 international organizations.
    The request recognizes U.S. international obligations and reflects 
the President's commitment to maintain the financial stability of the 
United Nations and other international organizations.
    The international organizations funded by the CIO appropriation 
further U.S. economic, political, social, and cultural interests. In 
addition to the United Nations, they include the World Health 
Organization, the North Atlantic Treaty Organization, the International 
Atomic Energy Agency, and the Organization for Economic Cooperation and 
Development.
    Membership in international organizations benefits the United 
States by building coalitions and pursuing multilateral programs which 
advance U.S. interests. These include promoting economic growth through 
market economies; settling disputes peacefully; encouraging non-
proliferation, nuclear safeguards, arms control, and disarmament; 
adopting international standards to facilitate international trade, 
telecommunications, transportation, environmental protection, and 
scientific exchange; and strengthening international cooperation in 
agriculture and health.
                         related appropriations
The Asia Foundation:
    The Asia Foundation is a non-governmental grant-making organization 
with a sustained presence in Asia and the Pacific. Its programs 
complement official efforts to advance U.S. interests in the region.
    Through its network of 14 small field offices, the foundation 
supports local groups and hands-on programs that build democratic 
institutions and leadership, develop non-governmental and regional 
organizations, and advance the rule of law and human rights.
    The fiscal year 2002 budget request of $9.25 million will enable 
The Asia Foundation to help develop stronger and more effective open 
market economies and support the adoption of sound governance practices 
on which the region's long-term economic recovery depends.
East-West Center:
    The Center for Cultural and Technical Interchange Between East and 
West was established by Congress in Hawaii in 1960. It promotes better 
relations and understanding between the United States and nearly 60 
nations of Asia and the Pacific through research, study, and training.
    The fiscal year 2002 budget request of $13.5 million will assist 
the East-West Center's continuing programs to maximize regional 
cooperation and minimize conflict. The center is part of the overall 
U.S. public diplomacy effort directed toward a region with more than 50 
percent of the world's population.
North-South Center:
    The Dante B. Fascell North-South Center, a private non-profit 
institution affiliated with the University of Miami, promotes better 
relations among the United States, Canada, and the nations of Latin 
America and the Caribbean. It is a national and regional source of 
information and analysis, serving as a catalyst for change.
    In fiscal year 2002, the Administration is requesting $1.4 million 
for the North-South Center in the Educational and Cultural Exchange 
Programs account (ECE). Funding will support programs that advance 
long-term U.S. interests and address multilateral needs, including 
strengthening democracy and encouraging open markets in the hemisphere.
National Endowment for Democracy (NED):
    The National Endowment for Democracy is a private non-profit 
organization created in 1983 to strengthen democratic institutions and 
processes around the world. NED makes grants to numerous U.S. 
organizations for programs in such areas as labor, open markets, 
political party development, human rights, rule of law, and independent 
media.
    The fiscal year 2002 budget request of $31 million will help expand 
important democracy-building programs in Africa, the Middle East, the 
NIS, and Latin America. Funding will also support countries in 
transition, strengthen civil society, assist democratic activists in 
authoritarian countries, encourage free market reforms, and develop 
regional networks.
Eisenhower/Israeli Arab Exchange Programs:
    The Eisenhower Exchange Fellowship Program promotes international 
understanding by bringing rising leaders to the United States, and 
sending their American counterparts abroad, on custom-designed 
professional programs.
    The Israeli Arab Scholarship Program fosters mutual understanding 
by enabling Arab citizens of Israel to study and conduct research in 
the United States.
    The two programs are supported by interest and earnings from their 
respective trust funds.
    There are of course many more details on our budget available, and 
I invite all of the Subcommittee members' attention to a most 
comprehensive pamphlet entitled ``United States Department of State: 
The Budget in Brief--Fiscal Year 2002.''
    And now, Mr. Chairman, I'm prepared to answer your and the members' 
questions.
                                 ______
                                 
                 Biographical Sketch of Colin L. Powell
    Colin L. Powell was nominated by President Bush on December 16, 
2000 as Secretary of State. After being unanimously confirmed by the 
U.S. Senate, he was sworn in as the 65th Secretary of State on January 
20, 2001.
    Prior to his appointment, Secretary Powell was the chairman of 
America's Promise--The Alliance for Youth, a national nonprofit 
organization dedicated to mobilizing people from every sector of 
American life to build the character and competence of young people.
    Secretary Powell was a professional soldier for 35 years, during 
which time he held myriad command and staff positions and rose to the 
rank of 4-star General. His last assignment, from October 1, 1989 to 
September 30, 1993, was as the 12th Chairman of the Joint Chiefs of 
Staff, the highest military position in the Department of Defense. 
During this time, he oversaw 28 crises, including Operation Desert 
Storm in the victorious 1991 Persian Gulf war.
    Following his retirement, Secretary Powell wrote his best-selling 
autobiography, My American Journey, which was published in 1995. 
Additionally, he pursued a career as a public speaker, addressing 
audiences across the country and abroad.
    Secretary Powell was born in New York City on April 5, 1937 and was 
raised in the South Bronx. His parents, Luther and Maud Powell, 
immigrated to the United States from Jamaica. Secretary Powell was 
educated in the New York City public schools, graduating from the City 
College of New York (CCNY), where he earned a bachelor's degree in 
geology. He also participated in ROTC at CCNY and received a commission 
as an Army second lieutenant upon graduation in June 1958. His further 
academic achievements include a Master of Business Administration 
degree from George Washington University.
    Secretary Powell is the recipient of numerous U.S. and foreign 
military awards and decorations.
    Secretary Powell's civilian awards include two Presidential Medals 
of Freedom, the President's Citizens Medal, the Congressional Gold 
Medal, the Secretary of State Distinguished Service Medal, and the 
Secretary of Energy Distinguished Service Medal. Several schools and 
other institutions have been named in his honor and he holds honorary 
degrees from universities and colleges across the country.
    Secretary Powell is married to the former Alma Vivian Johnson of 
Birmingham, Alabama. The Powell family includes son Michael; daughters 
Linda and Anne; daughter-in-law Jane; and grandsons Jeffrey and Bryan.

    Senator Gregg. Thank you, Mr. Secretary. I appreciate that 
background and especially your closing thoughts on the 
philosophy of how you plan to manage the Department of State, 
which is a critical Department.
    Let me begin by congratulating you for what you have done 
so far. I think you have brought an energy and vitality and 
renewed enthusiasm to the agency, which is extremely important. 
The way the Department handled the situation in China deserves 
the highest praise. It was a reflection of maturity and 
expertise that led to the defusing of what could have been a 
terribly difficult situation. So I certainly congratulate you 
for your leadership in that area and your team, especially the 
Ambassador to China.
    Secretary Powell. Thank you.
    Senator Gregg. We have a lot of issues on this committee, 
of course, surrounding your agency that we are concerned about. 
I have a number of questions. I will ask a couple and then move 
to Senator Hollings and Senator Murray, and we can go around a 
few times to get to all of them.

                     cost of peacekeeping missions

    I want to start out with the issue of peacekeeping. This 
appears to us to be a huge blank check that the American 
taxpayers are being asked to write. We have been supportive of 
the peacekeeping efforts, but we are concerned that 
peacekeeping is being driven by policies that are either not 
consistent with American policy or that are pulling American 
policy in a direction that is not necessarily where we want to 
go. This is especially true, it appears, in Africa.
    So I would like to get, first, your summary of where we are 
with respect to peacekeeping in Africa. I am also curious about 
the costs you project overall for peacekeeping for this coming 
year and where you expect the American taxpayer will have to 
pick up a significant bill for peacekeeping missions.
    Secretary Powell. It is an excellent question, Mr. 
Chairman, and I am glad to have the opportunity to speak to it.
    I wish there were a single statement that I could give 
about peacekeeping that would cover all of the different 
situations that we find ourselves in. But as a member of the 
United Nations--as a key and most important, frankly, member of 
the United Nations and the wealthiest member of the United 
Nations--we have an obligation to participate in the activities 
of that organization when it comes to peacekeeping operations.
    In almost every instance, it is a peacekeeping operation 
that we supported in the Security Council, and we voted for it, 
or else it would not take place in the first place. So there 
should always be some American policy interest in the 
particular peacekeeping operation that we are voting for in the 
Security Council.
    I think it is incumbent upon us when new operations come 
along to make a clear judgment as to whether our interest is 
being served as well as the interests of the United Nations and 
the interests of the country that is in question that is having 
the difficulty.
    When we have decided that a peacekeeping operation makes 
sense, that the circumstances are there so that the operation 
makes sense, and we go along with it and vote for it, then we 
have an obligation to support it, financially or in other ways.
    I prefer and the President prefers that we not provide 
troops to these operations if there are other troops that are 
available. A good example of a peacekeeping operation that I 
think meets this model and has gone very well is what we have 
been doing in East Timor, where we have provided political 
support, diplomatic support, and we have provided funding. 
There is a clear endpoint to this particular operation, and our 
colleagues in the region have provided the military and other 
on-the-ground leadership, the Australians in particular. That 
is an example of the kind of peacekeeping operation, and I 
think it is clear, and it is very, very deserving of our 
support.
    They do not all come out as neatly as that. The ones in 
Africa are particularly difficult because of the circumstances 
that we are going into. If you take a look at Sierra Leone, it 
is perhaps one of the most challenging. You have the RUF, the 
insurgents, a very rowdy band of criminals, insurgents, 
terrorists and all kinds of other things. The United Nations 
felt an obligation, and we supported the United Nations in 
going into Sierra Leone with peacekeepers--not U.S. 
peacekeepers, but peacekeepers--to try to bring the RUF under 
control, to try to train the Sierra Leone armed forces so they 
can handle this with their own resources. It is a tough one. It 
is a tough one that does not have a clear endpoint, in my 
judgment, but it is one that we supported at the beginning, and 
I think we have a continuing obligation, and we acted on that 
obligation recently when we supported the increase in the 
number of peacekeepers going in.
    Will it end as neatly and as quickly, and is there an exit 
strategy that is as clear as we might see in East Timor? No. 
But is that a reason to totally walk away from a nation and a 
group of people who are in desperate straights, who have been 
subjected to the worst kind of atrocity and cruelty?
    Similarly in the Democratic Republic of the Congo, this is 
another case where you have a much more complex situation, and 
it is a little harder to see what the outcome is liable to be. 
But, in many of these instances, you are going to have to go in 
and try to do the best you can, and the United States has an 
obligation to participate in such missions.
    The President has made it clear--he made it clear in the 
campaign, and he has made it clear since he became President--
that we will be looking at all of these in a far more critical 
way to make sure that we have a foreign policy interest 
associated with the particular peacekeeping operation and that 
we believe it is going to be run in a way that makes sense and 
will solve the problem we started out to solve. And, as he has 
also indicated in many instances, he will try to minimize U.S. 
troops actually committed to such operations--not that we are 
afraid of such operations, but the United States armed forces 
are stressed with deployments all around the world, and as you 
know, Secretary Rumsfeld is reviewing all of those now with the 
intent of getting some back.
    Sometimes it is not the United Nations; it is more of a 
NATO mission, such as we have in Bosnia and Kosovo. I was 
recently there and saw what those troops are doing. We are 
working hard to reduce the number of U.S. troops in these 
areas, Bosnia and Kosovo, but it is also clear that we are the 
glue that is holding this fragile situation together, so we are 
not going to be able to just say, well, we have had enough, and 
come out and leave, and leave our NATO colleagues who are in 
there, counting on us, and we are counting on them, and they 
are providing the bulk of the force and doing a heck of a job. 
So there are these fragile situations where the answer is not 
as clear.
    The amount of money going to all of these operations is 
rather significant. It is in the billions, as you know; and I 
will be delighted to provide the actual breakdown for each and 
every one of them. As you know, once one of these things is 
approved by the Security Council, we immediately have a 25 
percent capped obligation to support them, an obligation that 
we are trying to move up to 28 percent so that we do not accrue 
new arrears as to what we are capped to provide and the actual 
cost of such operations and the allocation assigned to us by 
the United Nations.
    Senator Gregg. Do you have an estimate of how much it is 
going to cost us to continue the operations in Sierra Leone and 
initiate operations in the Congo?
    Secretary Powell. I will have my staff look that up while 
we are continuing the dialogue, if I may, Mr. Chairman.
    Senator Gregg. We are working under a time frame here, and 
I think my time for the first round has probably expired.
    Senator Hollings.
    Senator Hollings. First, to the point, you are to be 
congratulated on restoring the morale at your Department and 
providing us with a realistic budget. We have been downsizing 
and neglecting--other than peacekeeping and security--diplomacy 
and foreign policy.
    To the point, though, you say you have looked critically--
because you know we listened to President Bush in the 
campaign--at getting out of Bosnia and Kosovo and cutting back 
our peacekeeping missions overseas. You indicated in your 
comments, that you are going to have a critical review of some 
14 of them. Then, Senator Gregg and I go to the Defense 
Appropriations Subcommittee, and Defense says the trouble is we 
are stretched too far, morale is low, that we do not have an 
adequate defense, and that we are no longer a two-army system 
because of peacekeeping.
    You were Chairman of the Joint Chiefs, and now you are 
coming around the corner, meeting yourself, saying whoopee for 
the 14 peacekeeping operations, and requesting $318 million for 
Sierra Leone----
    Secretary Powell. Yes.
    Senator Hollings. How do we get that? We have only $122 
million for Kosovo, and we had a war there. I have been to Camp 
Bondsteel in Bosnia. That is quite a commitment. We built up a 
billion-dollar facility there. Now, we have almost three times 
as much for Sierra Leone?
    Secretary Powell. That is the case at the moment. To answer 
the chairman's question, it is $83.5 million for the Congo and 
$318 million for Sierra Leone.
    Senator Hollings. And you looked at that, and that is how 
much is necessary for Sierra Leone?
    Secretary Powell. That is our obligation at the moment.
    Senator Hollings. And you endorse all 14 operations--East 
Timor is even more than Kosovo, too. That is $130 million.
    Secretary Powell. And that one I think is going rather 
well.

                      cost of Embassy construction

    Senator Hollings. I want to get into detail, if the 
chairman will permit, in just one other subject with respect to 
the cost of embassies--and I commend you for getting General 
Williams on board. It strikes me that these facilities are 
awfully expensive. Who ever heard of spending $97 million in 
Tashkent? Have you ever been there?
    Secretary Powell. No, sir.
    Senator Hollings. Well, you ought to go. I mean, you ought 
to be able to buy the place for $97 million.
    And then, Tbilisi, Georgia, $95 million; Phnom Penh, $65 
million; Zimbabwe, $86 million. I have got to sit down with the 
General and find out where he got all these expenses. I do not 
want to take the subcommittee's time.
    But we look and we know--for example, when I went down to 
Brazil earlier this year, I had the dog-and-pony show from the 
Ambassador about the important facility at Rio. I have been 
there several times, and when I got there, I found that we have 
a 10-story building and 27 personnel. The AID people wanted 
out; the Navy commander who escorted me around said he could 
move into those fine facilities with the Brazilian navy. In 
their replacement, they wanted to by a facility for $100 
million that has the same dangerous kind of condition that was 
the basis for your Department wanting to move out of the 
facility in Istanbul. They said we had to get a new facility 
because you could look down into the facility and, with a 
rifle, maybe shoot into the window or something. That is what 
they wanted to buy in Rio, and that is what they wanted to sell 
and get rid of and establish a new one in Istanbul.
    We have got to get around and look at these costs.
    Secretary Powell. I could not agree more, Senator Hollings, 
and that is what General Williams has been charged to do. In 
some instances, we are bound by requirements given to us by 
Congress. When you look at the Inman report and the Crowe 
report, they create standards for the construction of embassies 
to provide for security against the threats that are out there. 
The two East Africa bombings a couple of years back--who would 
have predicted that that is where somebody would have bombed 
us--but they found vulnerabilities, and they found weaknesses.
    So you cannot say that an Embassy in a place that seems to 
be rather quiet is safe. You have to look at each and every 
one.
    There are also requirements associated with who can 
actually build a secure facility for us. In many instances, we 
have to bring it all over from the United States--the 
communications requirements, the power requirements, all the 
other security issues associated with the construction of an 
Embassy run the costs up rather significantly. And General 
Williams has it as his charge to take a look and may well be 
coming back to the Congress to ask for some relief from some of 
the requirements that exist, because it is not clear that you 
really need this in all instances around the world.
    So I am very anxious to work with the committee and other 
committees of Congress to help drive these costs down, and that 
is General Williams' charge, to find ways to drive the costs 
down.
    What may be fine for the Brazilian navy may not be fine for 
the American navy coexisting in a similar facility because of 
security requirements or other requirements.
    Senator Hollings. Thank you, Mr. Chairman. I will come 
back.
    Senator Gregg. I completely agree with Senator Hollings' 
concern here, and I appreciate the focus that you are putting 
on it. I am almost of the opinion that we should probably have 
a special hearing just on these building costs. These Embassy 
costs have just gotten outrageous.
    Secretary Powell. Yes, they have; I am not disputing that.
    Senator Gregg. What is the number now for Beijing?
    Secretary Powell. It was in the hundreds of millions the 
last I checked.
    Senator Gregg. I thought it was closing in on $1 billion, 
actually.
    Secretary Powell. It is well over $600 million.
    Senator Gregg. We have got to figure out some way to 
address this, and if there are congressional mandates, we need 
to review them.
    Senator Murray.
    Senator Murray. Thank you, Mr. Chairman.
    Mr. Secretary, I join my colleagues in welcoming you here, 
and I would be remiss if I did not take this opportunity to 
invite you to my State. We are a very internationally-engaged 
community. Our trade is very important to my State. We have a 
number of sister city relationships. I think that we send more 
men and women to the Foreign Service than most States do--many 
of them retire back in my community--and for every issue you 
consider on a daily basis, I have constituents who are debating 
it somewhere at home, and we would love to have you come and be 
a part of that conversation.
    Secretary Powell. Thank you, Senator.

                china's bid for the 2008 summer olympics

    Senator Murray. Mr. Secretary, let me first take this 
opportunity to commend you for the handling of the recent EP-3 
incident in China. It came very close to home. I live on 
Whidbey Island, where our service men and women are stationed, 
and on behalf of my neighbors and my constituents, we 
appreciate the job that you did in bringing our service men and 
women home. We are all very, very proud of them.
    I think we have to continue to convey our disappointment to 
China on this issue, but I think we are really at a very 
delicate point, and I think we have to be very cautious in 
sending any message. I think we need to recognize that our 
words and deeds do have long-term consequences that will 
directly affect U.S. interests at this time.
    I understand that the House of Representatives is likely to 
take up and pass legislation that will oppose China's bid to 
the 2008 Summer Olympics, and I know that this week, the U.S. 
Commission on International Religious Freedom presented you 
with a report recommending that the U.S. Government oppose that 
bid.
    What do you think would be the long-term effect on United 
States-China relations if the United States is viewed by both 
the Chinese Government and the Chinese people as having stopped 
the Beijing Olympics bid?
    Secretary Powell. I am sure the Chinese Government and the 
Chinese people would be very, very unhappy and very 
disappointed. But there are other nations that are also bidding 
for the Olympics that are going to be very unhappy and 
disappointed if they do not get it.
    We have taken no position on this within the 
administration, and essentially it is an independent judgment 
by the International Olympic Committee, although I am sure they 
would be interested in what the Congress and the administration 
might say.
    We are trying to calibrate a response to this incident in a 
very, very careful way to make sure we do not cut off our nose 
to spite our face, and I think we have done rather well. The 
Chinese now have allowed our assessment team onto the island, 
and the assessment team is at work this morning; we had a 
meeting on this this morning. I think we will get past this, 
but we should have no illusions about the nature of the regime 
that exists in Beijing. It is a totalitarian government; they 
can turn human rights on or off as it suits their purpose. They 
can act in ways that we find very distasteful, and when they 
do, we should point it out to them and not let them get away 
with it, but at the same time recognize it is a nation, a 
powerful, strong, proud nation, in transition and 
transformation, and we should work with them to try to bring 
them into the international community.
    Senator Murray. On the question of the Olympics, then, I 
assume the administration is not going to take a position.
    Secretary Powell. We have not decided----
    Senator Murray. You have not decided.
    Secretary Powell [continuing]. Whether we will or will not.
    Senator Murray. Let me just read you a couple of quick 
items from the International Olympic Committee's Code of 
Ethics. They state that ``The Olympic Games are competitions 
between athletes in individual or team events and not between 
countries'' and that ``the Olympic parties shall neither give 
nor accept instructions to vote or intervene in a given manner 
with the organization of the IOC.''
    I think it is really important that we take this issue very 
seriously and abide by the rules of the International Olympic 
Committee. I think we all recall the last time the United 
States allowed our relations with another country to interfere 
with the Olympic movement. A number of Olympic games were 
affected, including the 1984 Los Angeles games, where we had 
athletes who lost their opportunity to participate.
    And U.S. foreign policy is still dealing with the 
ramifications of allowing politics to enter into the Olympic 
arena. You can talk to any wheat farmer in the State of 
Washington, and they will tell you about mixing politics with 
the Olympics.
    So I think I would just like to tell you the seriousness 
with which I view this and to really caution all of us to be 
very careful as we use words and the administration determines 
how they are going to handle this.
    Secretary Powell. I understand, Senator. Thank you.
    Let me also, through you, thank and congratulate the 
wonderful young men and women who did such a great job getting 
that plane on the ground and how they comported themselves 
during the 11 days that it took us to get them home.
    Senator Murray. Yes. We are all very proud of them.
    Secretary Powell. We all should be.
    Senator Murray. Thank you very much.
    Senator Gregg. Senator Mikulski?
    Senator Mikulski. Thank you very much.
    Secretary Powell, how wonderful to see you again.
    Secretary Powell. Nice to see you, ma'am.
    Senator Mikulski. I again wish to extend my hand to you to 
work to really advance American values around the world. I like 
the way that, in your testimony, you talked about your CEO 
responsibility and then these global policy issues.

             adequate support for foreign service officers

    On CEO responsibilities, I have the good fortune that a 
significant number of your Foreign Service Officers live in 
Maryland; they make Maryland their home as they do service 
abroad. This goes to my question. Looking at how we can keep 
our embassies secure, of course, is a key priority. But do you 
feel that in this year's budget we have done two things--one, 
in terms of our Foreign Service, are there adequate moneys to 
really be looking at pay, health care, pensions, and issues 
around spouses? And two, are we addressing demands on our 
embassies and our consulates? I think the consulates are among 
the most stressed-out operations within the State Department, 
with students abroad, more desire for business activity, more 
people traveling, and more places in the world open for 
Americans to travel.
    So I would like very much to play a role with you, to be 
sure, about our professional FSOs, but in addition to really 
look at the number and the support to the consulate offices.
    Secretary Powell. Thank you, Senator. I think you are 
absolutely right.
    Senator Mikulski. Because that is where Americans come in 
contact with----
    Secretary Powell. That is where they see their United 
States Government out there, when they have lost a passport or 
they have a problem of some kind, or they want to learn about 
the United States or want to come to the United States. I think 
we can do a much better job--and you are quite right, Maryland 
has been a great host for not only our Foreign Service 
employees but for so many of our civil service employees as 
well. I always like to put the two together and then add our 
Foreign Service nationals; it is all one family, one team, 
around the world.
    In this year's submission, I think we have a start on that 
problem. As I indicated in my opening statement, we have a lot 
of work that needs to be done, and as Senator Hollings 
mentioned earlier, we have not spent enough on this over the 
years. So I hope that I will be back here next year with the 
President's permission and with OMB's permission to make a case 
for even more resources for just the kinds of things you said, 
to make sure that people are getting what they need to do the 
job--and it isn't just $318 million going to Sierra Leone, but 
that we are taking care of all of our people around the world 
and their families. We just started a pilot program for spouse 
employment in Mexico City, and there are a lot of other things 
we are trying to do to make families more satisfied with their 
service overseas.
    Senator Mikulski. Well, I would really look forward to 
working with you, and judging from your answer, you are saying 
that this year's request is a down payment----
    Secretary Powell. A start, yes.
    Senator Mikulski [continuing]. And that over the next years 
that each year, we will look at how to upgrade and expand this 
most important service to both the Nation and to our people.
    Secretary Powell. Exactly right. I think the President was 
quite generous to the State Department in this first year of 
his administration, and he has indicated to me that if I come 
back and make the case, he will examine the case very, very 
carefully for future years.

                          middle east affairs

    Senator Mikulski. Now I would like to go into some foreign 
policy issues as well. Mr. Secretary, the issues around the 
great State of Israel, of course, are indeed complex and 
compelling, and we appreciate where you are heading.
    My question is that there seems to be a need for 
supplemental assistance to Israel in the area of military 
expenditures. Is the administration planning to send a 
supplemental expenditure up, and also some robust activity to 
move the Jordan Free Trade Agreement forward?
    Secretary Powell. Starting with the second point, we are 
very committed to the Jordan Free Trade Agreement. Jordan needs 
this agreement. Jordan is a good friend of the United States. 
Jordan plays a very key role in the region, especially now 
during these difficult times. So we are anxious to see that 
agreement come into force and be passed.
    Mr. Zoellick, our Trade Representative, is hard at work 
examining that one plus a number of others that are out there, 
as well as trade preference authority, to see whether we should 
package this or we should start moving them one at a time. I 
will leave it to Bob to figure out the answer to that question, 
but you can be sure that the President, this Secretary of 
State, and Mr. Zoellick are fully behind the Jordan Free Trade 
Agreement and will do everything we can to get it passed as 
quickly as we can, consistent with our other free trade needs.
    Senator Mikulski. I think there is strong bipartisan 
support.
    Secretary Powell. Yes, I see that; I have sensed that.
    Senator Mikulski. What about the supplemental issue?
    Secretary Powell. On the supplemental, I am well aware of 
the need that the Israelis have. We have discussed it with 
them, and at the moment, we do not have a proposal up here yet. 
It is something that we have under consideration, but it has 
not yet been acted on for submission to the Congress.
    Senator Mikulski. One last question. Has my time expired?
    Senator Gregg. No. Go ahead and ask the question.

                        special envoy to cyprus

    Senator Mikulski. On special envoys, the issue of Cyprus 
goes back, as you know, to another way you served the Nation. 
What is the administration's plan and your plan on being able 
to move on a continued special envoy on Cyprus and plans to try 
to resolve this issue? It has significant consequences.
    Secretary Powell. As you know, we are at a bit of an 
impasse right now because of the position taken by Mr. 
Denktash. We are supporting the U.N. efforts on this. At the 
moment, I am examining the whole issue of special envoys. When 
I took over, I discovered that we had over 50 special envoys 
and ambassadors-at-large here and there, and in order to sort 
of clean up things and start fresh, I eliminated quite a number 
of them. Some are in law, and they were not eliminated, and 
some are doing very, very useful work.
    I want to continue to examine Cyprus a bit longer to decide 
what best we can do with respect to our representation to move 
that process along. I have not made a decision yet.
    Senator Mikulski. Well, we would like to hear more about 
that.
    Secretary Powell. Yes.

                         trafficking in humans

    Senator Mikulski. Another area where we have bipartisan 
agreement has been on passing the Trafficking Victims 
Protection Act. This is legislation that Senator Brownback, 
Senator Kay Bailey Hutchison, myself, and others have been 
working on. You might not be familiar with this, because the 
legislation passed last year, but it is something in the world 
that I know you will find so repugnant if you are not already 
aware of it. It is the trafficking of women and children--out 
of Asia, in the Ukraine, et cetera.
    I wonder what efforts you have underway to implement the 
Act, and if you have not given it consideration, if you could 
review it.
    Secretary Powell. We will implement it in tone and intent.
    Senator Mikulski. Because it really does not come under the 
classic human rights, but----
    Secretary Powell. It really should--it is an abuse of human 
rights in the most fundamental sense.
    Senator Mikulski. Truly. And also on a human rights issue, 
I would hope we would continue to be working with Israel in 
terms of their missing soldier situation, with perhaps the 
encouragement of Red Cross.
    Secretary Powell. Yes. Foreign Minister Peres and I 
discussed that yesterday.
    Senator Mikulski. Thank you, Mr. Chairman.
    Senator Gregg. Senator Stevens.
    Senator Stevens. Pardon me, Mr. Secretary. Good morning.

                china's bid for the 2008 summer olympics

    I understand the Senator from Washington has made some 
comments about the Olympics. That is what I came over here for. 
I am involved in a little bit of an extracurricular activity 
called ``the budget'' right now, but I did want to come and 
greet you and thank you for coming.
    Secretary Powell. Thank you, sir.
    Senator Stevens. I too believe that the current crisis with 
China is one thing. But keeping the Olympics out of disputes 
between individual countries is a policy that this 
administration should adopt and pursue. I hope it will be your 
policy to not let our current relationship with China interfere 
with the decision of the International Olympic Committee as to 
where the Olympics will be held.
    Secretary Powell. As I said to Senator Murray, I am very 
sensitive to that, and we have made no decision with respect to 
this issue. We have talked about it when we had the crisis on 
our hands a few weeks ago; obviously, you would expect us to 
look at the full range of alternatives. Right now, we are 
anxious to get the relationship back on an even keel so we can 
move forward and work in areas with which we agree with the 
Chinese and work in areas where we disagree with the Chinese. 
So no decision has been made about what the United States might 
or might not do with respect to the Olympics.
    Senator Stevens. I told a group this morning that, in case 
they did not realize it, my home is just about the same 
distance from Peking as it is from where we sit right now. We 
have people who fly out of Anchorage daily to somewhere in 
China and return, with both FedEx and UPS and other carriers 
going through there daily.
    I am alarmed at some of the comments we are hearing about 
the muscle that the Chinese military is flexing in terms of 
civilian matters. Would you care to comment on that? Is that 
perception wrong, that the military, as reflected in the EP-3 
instance, was using extreme muscle and really interfering with 
the normal civilian relationship between our countries?
    Secretary Powell. The People's Liberation Army is more than 
just an army. It is an organ of power within that state. As we 
went through the EP-3 incident, I could see that the Chinese 
Foreign Ministry as it tried to handle that matter had to be 
enormously sensitive to the interests and equities of the 
People's Liberation Army.
    As you know, it is deeply involved in businesses, although 
recently, Chinese leaders have been trying to get the army out 
of business.
    So I do not think they are in a position of overruling what 
their civilian masters would choose to do or want to do. But, 
it is also clear that the civilian leaders, party leaders, 
political leaders, and the bureaucracy within the Chinese 
Government have to take into account very seriously the views 
and attitudes of the People's Liberation Army, and we could see 
that both in the circumstances we went through to get our young 
men and women out, and also we can see it as we work on getting 
our plane out.

               secretary's comments on middle east visit

    Senator Stevens. I am sorry to have been late, but have you 
commented on your trip through the Middle East and what the 
situation is there, as you see it?
    Secretary Powell. No, but I would be pleased to take a 
moment to do that, sir. I met with Foreign Minister Peres 
yesterday for a long period of time, and I also met with 
Foreign Minister Gutter, and I meet with leaders from the 
region on a regular basis. What is absolutely clear to me is 
that there has to be a reduction in the level of violence in 
the region before we can move forward to improve the economic 
situation of the Palestinians and before we can move forward to 
getting back on track toward negotiations for peaceful 
resolution of this crisis.
    Many people say, well, let us start negotiating right away, 
but it is clear to me, and I think it is clear to most of the 
leaders in the region, that the two sides are not going to be 
able to conduct fruitful negotiations under the conditions of 
violence that currently exist.
    When Mr. Peres was here yesterday, he described, and then 
he and I gave a press conference describing some ideas for 
negotiations that had been presented by the Jordanians and the 
Egyptians and the Palestinians that the Israelis are working 
with. So they are talking to each other about what they might 
do in a negotiation when they are able to get to a negotiation, 
but they are not going to be able to get to a negotiation until 
the level of violence has gone down. And that has been our 
consistent message to both sides, that leaders on both sides 
have to take every action within their power to restrain the 
passions that exist in the region and to call on their 
followers to foreswear violence, to knock it off, to bring it 
back down, not to zero--we will not get it to zero--but to 
bring it back down to a level where we can start building 
confidence again so that people are then willing to take 
chances for peace.
    The United States is heavily involved in this. I spend a 
large amount of my time speaking to leaders in the region, 
calling them on the phone day and night; the President spends a 
large amount of his time doing the same thing. So we are deeply 
engaged, but we have to make sure we understand that we are not 
going anywhere until the level of violence starts to go back 
down.
    We are sponsoring two sets of security consultations at the 
moment between the Palestinians and the Israelis. Those 
consultations back and forth are starting to show a little bit 
of progress. There is a little bit of traction. But this little 
bit of traction will not really be enough unless the level of 
violence goes down.
    I am repeating myself for purposes of the public audience 
out there and in the region. You have got to knock it off if 
you want to get back to discussions on permanent solutions and 
on peace.
    Senator Stevens. I can only make one last comment. Some of 
us were with Minister Peres yesterday, and he told us that he 
had had to request to move $1 billion from the civilian 
accounts to the military accounts in order to counter the 
current level of military activity in the region.
    When I was in Greece earlier this year, it was suggested to 
me that the trade between the countries in the Middle East is 
almost nil now and that if we had a role, perhaps we should try 
to find some way to restore the trade and urge some way to 
establish a free trade zone there between those countries. 
There may be some way they could get back together in terms of 
providing employment and jobs for their people, rather than 
this escalating violence. I would just pass it on to you for 
what it is worth.
    Secretary Powell. Mr. Peres and I talked about that 
yesterday. It would be terrific if we could see trade 
opportunities for the Jordanians on the West Bank. If the 
Jordanians had access to more markets on the West Bank, it 
would solve a large part of their financial problem right now. 
And Mr. Peres also said that the Sharon Government is going to 
be acting more aggressively to provide more work permits and 
access points to get through for Palestinian workers to come 
back to their jobs in Israel, so that we can get some flow of 
money going back and forth.
    I have every reason to believe that if the level of 
violence goes down, the Israelis will be very forthcoming with 
respect to starting up economic activity, because at the end of 
the day, the economic activity that is not taking place now, 
the lack of that economic activity not only hurts the 
Palestinians, but it is also hurting the Israeli economy. So 
that is step two, but step one has to be lowering the level of 
violence.
    Senator Stevens. Thank you very much, Mr. Secretary.
    Thank you, Mr. Chairman.
    Senator Gregg. Thank you, Mr. Chairman.
    Lowering the level of violence--I was wondering if you 
could----
    Senator Stevens. See if you can pass that on the Budget 
Committee, will you?
    Senator Gregg. That is impossible.

                       situation in iran and iraq

    Mr. Secretary, I was wondering if you could give us your 
thoughts on what is happening in Iran and Iraq.
    Secretary Powell. Let me start with Iraq. We have a country 
that was put under a regime 10 years ago, a very simple regime, 
that said if you foreswear weapons of mass destruction and 
trying to develop weapons of mass destruction, you could be 
welcomed back into a community that would be interested in the 
welfare of your people. You have enormous wealth in your oil 
resources and revenue, if only you would use it for productive 
purposes.
    Unfortunately, Saddam Hussein is still the same person he 
was 10, 12, 15 years ago, and wastes the treasure of his 
people, the treasure of his nation. So we are absolutely 
committed to imposing the sanctions that were passed by the 
United Nations directed against his weapons of mass 
destruction.
    I have been hard at work for the last several months with 
the members of the P-5, the United Nations and with Arab 
leaders in the region to reshape those sanctions so that 
everybody can see that those sanctions are clearly targeted at 
the weapons of mass destruction and are not targeted at 
commodities and goods for the Iraqi people.
    Our argument is with Saddam Hussein, his regime, and those 
weapons of mass destruction and not with the Iraqi people. The 
case we have been making to the people of the region to the 
``Arab street,'' as it is sometimes called, is that we are 
doing this to help you because he is developing those weapons 
of mass destruction not to aim at us but to aim at you, so it 
is in your interest to support the United States and the United 
Nations in this effort to have him come into compliance with 
the obligations he undertook at the end of the Gulf War.
    He has not been able to rebuild his forces. He is not able 
to project the kind of power he was 10 or 12 years ago, so 
Desert Storm did what it was supposed to do. It kicked his army 
out of Kuwait, and it brought him down to size. He is still a 
danger. He is still in a nation that we have to watch 
carefully. And he will not get out from under these sanctions, 
if the United States has anything to do about it, until he 
allows inspectors back in and behaves. We will keep control of 
the oil-for-food money, and we will do everything we can to 
stop leakage of that money, or other money, that he may acquire 
through sales of oil, leakage out of U.N. control. And we have 
some interesting ideas about how to do that.
    We will also keep in place the no-fly zone that exists, and 
we will also continue to work with Iraqi opposition groups that 
believe a regime change is the right answer.
    With respect to Iran, it is going to be very interesting in 
the upcoming election to see if the gentleman considered 
reasonably moderate by Iranian standards, Mr. Khatami, is 
actually going to participate in the election and run again.
    I think that Iran is a nation that has enormous treasure, 
an educated population, and has all the potential to enter the 
international marketplace, the international world, and be 
successful. Yet, it continues to hang onto an ideology that is 
not a political ideology that is really not relevant to the 
21st century, and they continue to find that it is in their 
interest to try to develop nuclear weapons and weapons of mass 
destruction, thinking that this will give them a position of 
power in the region and in the world when, at the end of the 
day, it will not, because we will contain them and we will 
deter them.
    We are working with a number of countries to try to cut off 
access to this kind of technology. Obviously, we are concerned 
about North Korea, which provides this kind of technology, and 
frankly, we have had some very direct conversations with the 
Russians about this sort of spread of technology to Iran.
    So we will have to watch Iran, be willing to engage when 
they show that engagement makes some sense. Wish the Iranian 
people the best, but be very guarded with respect to Iranian 
leadership. Keep in place the sanctions that we have put in 
place--as you know ILSA is coming up for reauthorization in 
August, and we will have some thoughts about that to share with 
the Congress and move forward together. But these two regimes, 
Iraq and Iran, are dangerous, have to be contained, and are 
out-of-step with the way the world is going, and it is a 
tragedy to see them waste the resources that they have in the 
pursuit of these evil technologies that threaten the region.
    Senator Gregg. Thank you.
    Just quickly, the Secretary of Defense suggested that we 
withdraw the American troops that are in Sinai.
    Can you tell us whether you support that position?
    Secretary Powell. The Secretary of Defense is reviewing 
that. At the moment, as you know, that mission is not a U.N. 
mission; it is a mission that is run by the United States, 
Israel and Egypt as a result of the agreements that were 
entered into in 1979.
    The size of that mission has come down over time. I would 
like to eventually see it go away. I have been to the Sinai, 
and I have seen those troops. It is not a very exciting 
mission, and it costs something. I would like to see it go 
away. At the moment, however, we have an obligation to Israel 
and to Egypt to support that multinational force.
    So Mr. Rumsfeld is reviewing it along with all the other 
deployments to see if there is a way to do it with fewer 
troops, to do it in a different way, to do it at less cost, but 
at the moment there is still a diplomatic and political 
necessity to keep a presence of some kind in the Sinai in 
accordance with the obligations we picked up in 1979.
    Senator Gregg. Thank you, Mr. Secretary.
    Senator Hollings.

                     asian-united states relations

    Senator Hollings. Mr. Secretary, Senator Stevens asked 
about the influence of the military in China with respect to 
getting that plane back. But this is another country you want 
to watch, they are having a dickens of a time trying to get $1 
billion more for their education budget, their military is 
coming along with $25 billion more, they have deployed 
militarily in 14 countries around the world, they have brought 
in from the military-industrial complex the Secretary of 
Transportation, and now they have the Joint Chiefs of Staff 
from the military in charge of foreign policy. You have got to 
watch that country.
    I just cannot go along with the idea that we have got to 
make China the enemy. We watch it with care, but don't make it 
the enemy. I went some 20 years ago with Lee Kuan Yew--
Mansfield said he is the ``wise man of the East''--and we were 
talking about the military and how we could not afford, here in 
the United States, all of this military and that we had to 
share that burden. And we were talking about not wanting Japan 
to build up an army or an air force, but maybe a navy. I 
suggested to give them from Okinawa down past the Philippines 
into Australia, let them go to Bali--they did not have to 
worry--and we would take on up around Korea and Vladivostok.
    And the prime minister said, ``But Senator, you should not 
give them nuclear.'' And I was sort of taken aback, because I 
was not even thinking about that, but I said, ``Would you give 
the Germans nuclear?'' and he said yes. But he said never give 
the Japanese nuclear. He said they do not think they lost that 
war. It is taught in the schools today that they did not lose 
that war, and historically, they have been the aggressor in the 
East, not China.
    Then, jump to the reality of our experience in Korea and 
the reality of our experience in Vietnam, where you served. I 
remember a conversation with you--yes, the United States has 
all these tinkertoys, all this technology and so on, we had the 
flame-throwers, the helicopters, the B-52s and everything 
else--but the Vietnamese were on foot and beat the hell out of 
us.
    So as we puff and blow about what we are going to do, ask 
yourself how many in the Congress are going to vote to commit 
troops again in that area.
    With respect to their activity running that country, I have 
some little, very, very minute--maybe it is mistaken--
understanding. I know that Tiananmen Square was brutal, and we 
all abhorred it, yet I ask myself how do you run a country with 
a population of 1.3 billion.
    I remember when I was Governor of South Carolina and had 
the dichotomy of the law saying you could not take over the 
streets--all the marry-ins, bed-ins, sit-ins--that is what the 
law said. But President Kennedy at that time said if they do 
not have recourse in the courts or in the Congress, they only 
have the streets of America.
    So I was in between the devil and the deep blue sea, and I 
adopted the old 12th Roman Canon, ``Salus populi supreme lex,'' 
or ``The safety of the people is the supreme law.'' And I was 
running around arresting and holding up people. I will never 
forget the lawyer for Woolworth's and what he was going to do 
in the Supreme Court. I told them to send down Chief Justice 
Earl Warren, and I would lock him up. I was in charge as 
Governor of the State.
    And so it was that we had no one hurt and no life lost in 
South Carolina. I wonder if you had some demonstrations here, 
there, or yonder, in China, and it got the least bit out of 
control--with 1.3 billion, within a year's time, it would be 
totally out of control. And at the same time, we are working 
our way--capitalism is defeating communism. That is what really 
prevails over the Soviets, and it is working. And as you said, 
our foreign policy--do not get all puffed up like some around 
here who use it pollster-wise as a political issue to get 
themselves elected--they are strong, they are against the reds, 
they are against communism and all that--but they have no idea 
of sending troops over there. We are deploying and puffing and 
blowing.

                   Embassy construction requirements

    Otherwise, get to the construction projects that we have, 
Mr. Secretary, on course--not just the new projects. For 
example in Moscow, if you go over there in the winter time, 
they have a lot of adoptions going on, and U.S. citizens are 
standing out on the streets, freezing. The adoption process 
takes around 3 weeks, where you have got to check in and stay 
and do this, do that, and so on. Our consulate is working 
around-the-clock. They are doing a magnificent job, but they 
need a facility, and they need it quick, more than Tashkent and 
security in Tashkent. We have got to get General Williams on 
the stick and have him set some priorities and get Moscow 
completed right away.
    Otherwise, go to Lebanon. I know there are some realtor 
developers, because I have been there, and they want to go way 
out on the edge of town, because that will get them a new 
development, and if they can get the American facility there, 
they can make money. It is like building a golf course and 
selling the lots. If they can get you, then they can sell the 
lots.
    But I have seen the facility that we stopped construction 
on. It is all right on three sides. But, on the back side, they 
could aim down, but tell them to get that contractor in 
Caracas, Venezuela who built the back side of the Embassy 
there. We paid a fortune for a particular site in Caracas so 
that you could look down the valley--but he built it with no 
windows so you cannot look down anywhere. If you just wall it 
off, seal it off, on that back side, you have a good facility, 
and you have construction started, and it ought to be completed 
so it would be available. Otherwise, you will have to go way 
out where nobody can get to it there in Lebanon.
    Chairman Gregg's staff has been down to look at the 
facility in Sao Paulo. I want to get a report from General 
Williams on that, because it seems like that building could be 
used. Do not tell me they have glass--everything--the State 
Department has glass. But it is right in the city, it is a 
beautiful site, and rather than tear it down, it seems to me it 
could be secure now. I am not all that wedded to Admiral Inman 
and General Crowe. We live in the real world, and they would 
have gotten rid of the Buenos Aires facility, and now they are 
very happy with it. You cannot build ``fortress America'' 
everywhere and get into $100 million projects. That is really 
bothersome.
    I will yield with that, Mr. Chairman. Thank you.
    Senator Gregg. Thank you. Did you want the Secretary to 
respond on any of those points?
    Senator Hollings. Yes, by all means. Tell us about China--
no kidding.
    Secretary Powell. Let me talk about embassies, and then I 
will go to China.
    On the embassies, thank you. I will point out all three of 
these cases to General Williams and see what we can do.

         secretary's comments on china-united states relations

    I first went to China in 1973 as a young lieutenant colonel 
on a fellowship program right after Nixon made his first trip. 
It was a shocking visit, a remarkable visit. There were 
bicycles everywhere. The only things one could aspire to were a 
bicycle, a sewing machine, and a radio--that was it. If you had 
all three of those, you were at the top of society. You could 
go anywhere in China and ask a question and get the same answer 
from anybody. It was total group thought. They were just coming 
out of the cultural revolution. It was a depressing 3 weeks--
but they were able to feed this country of, at that time, just 
short of one billion people.
    Now it is almost 30 years later, and there are skyscrapers 
popping up all over the place and a degree of wealth they never 
would have dreamed up. There is pollution, not from bicycles, 
but from cars running all over the place. And there is some 
level of openness that would have been undreamed of 30 years 
ago.
    Are they a society like ours? No. Are they totalitarian? 
Yes. Do they have an ideology that we find fatally flawed? Yes.
    But are they also understanding that in the international 
marketplace, there is wealth that they never dreamed of before? 
Yes. Forty percent of their products are coming to us, and this 
does not just benefit big American businessmen, it benefits 
your constituents who go to K-Mart and Home Depot and Office 
Depot and get products that they need perhaps a little more 
inexpensively.
    So they are coming out, and we need to keep encouraging it; 
but they are also running a country of 1.3 billion people, and 
they are determined--whether we think it is appropriate or 
not--they are determined that that philosophy, that ideology, 
and that country will not fall apart all at once the way the 
Soviet Union did, losing your political system, your economic 
system, your cultural identity all at once. They are determined 
that that is not going to happen.
    So I believe our strategy is rather clear--work with them, 
and our little ups and downs will come, but continue to work 
with them, continue to show them the benefit of moving in the 
direction that we think is the correct direction. When we do 
not like things about their society, about their government, 
about their way of doing business, about their lack of respect 
for international norms of human rights, then we should say so, 
just as we did to the old Soviet Union, and let the power of 
democracy, the power of openness, and the power of the free 
enterprise system work. It may take a generation or two. I do 
not know. It is up to the Chinese people to decide that. But 
let us not cut off our nose to spite our face in order to look 
like we are big and bad.
    I think President Bush understands this. I know he does. I 
think he demonstrated that in the way he handled the EP-3 
incident and the way he is handling the situation now--
calibrated, firm, but with an understanding of the nature of 
the total relationship between us and China.
    Senator Hollings. I was there just at the time when Mao 
passed in 1976. So we were the capitalist running dogs, the 
gang of five, or whatever. But then I was there in 1986, 1996, 
right on down the line, and we are winning as far as your 
philosophy and my philosophy. I saw Madame Kang back there in 
1976, 25 years ago, and she said if the seed of capitalism ever 
got planted--that is why they had to go out to the countryside 
and be reeducated under Chairman Mao's doctrine--if the seed of 
capitalism ever got planted, it would be uncontrollable. And 
its spread is uncontrollable in my opinion. We have 50,000 of 
their students here in the United States, going back and forth.
    In my time, I think I am going to see a lot happen there. 
China is headed in the right direction when you understand that 
when you have 1.3 billion people, the first human right is to 
feed them; the second is to house them; the third human right 
is to educate; and the fourth is to give them voting rights--
one man, one vote. But we have people running around in the 
Congress who want one man, one vote tomorrow and cannot 
understand why not.
    Secretary Powell. Well, it is a pretty good philosophy, but 
it is going to take time to get there.
    Senator Hollings. And finally on the trade matter, for 
example, I am a big cotton-producing State. You heard the 
Senator from Washington talk about her wheat. The truth of the 
matter is they already export more wheat than they import. They 
import more from us because they are smart; diplomatically is 
why they are doing it. We have a deficit in the balance of 
trade in cotton right now, and 700 million farmers are going to 
outdistance 3 million farmers. I do not care how much 
technology and equipment you have. So they are going to be an 
agricultural exporter, and then, all these people who get 
subsidized, the aircraft industry for research, the Export-
Import Bank. Then chastise me when I want no subsidy, just the 
enforcement of my textile agreement. The subsidized crowd says 
``You are protectionist,'' but they will learn before long, in 
the next few years.
    China has come along, and they are going to be quite a 
competitor, and we had better treat them as a competitor.
    Secretary Powell. May I say one more word, Senator--with 
your indulgence, Mr. Chairman.
    You talked about Japan, you talked about China, you talked 
about Vietnam, you talked about Korea--I also served in Korea 
after the war, so I have a little experience in the region. And 
the one thing that keeps things in balance and keeps China from 
becoming any more of a dangerous player, using its wealth for 
dangerous purposes--they will modernize their armed forces, and 
they will do a lot of other things that we may not like, but it 
is not clear to me that they are going to become the kind of 
aggressive nation that tries to expand beyond its borders--but 
the one thing that keeps it all in balance is the American 
presence. The one thing that keeps it all in balance--and 
nobody wants to see us leave for this reason--is that the 
investment of 100,000 American troops and American presence and 
American military commitment to the region underscores our 
diplomatic and political commitment to the region and keeps 
things in balance.
    So we should push for more burdensharing, and we should ask 
our friends in the region to do more, but we are the Asian 
power that keeps those very difficult competing interests in 
balance. At the end of the day, if you scratch any one of them, 
nobody really wants to see us leave.
    Senator Hollings. Thank you.
    Thank you, Mr. Chairman.
    Senator Gregg. Thank you.
    Senator Mikulski.

                             iraq sanctions

    Senator Mikulski. Mr. Chairman, I just have one question, 
and I hope you do not regard your experience here as a quiz. 
Mr. Secretary, I want to come back to Iraq. You have proposed 
reshaping sanctions on Iraq and that we call them ``smart 
sanctions,'' with a focus on limiting Saddam's ability to 
develop weapons of mass destruction.
    Could you share with us perhaps an elaboration on the 
concept, and have you given up using broader sanctions on 
getting the inspectors in? I regard you as really quite an 
expert on Iraq for obvious reasons, and I think we would all 
like to be supportive here.
    Secretary Powell. Others use the term ``smart sanctions.'' 
It is not a term that I have used. What I found when I became 
Secretary of State, and what the Bush Administration found when 
we came into office on January 20th, was that the whole 
sanctions regime was collapsing in front of our eyes. We had 
people running off hither and yon. We had people trying to 
undercut the compensation account. People were saying let us 
get rid of all the sanctions. We had difficulty with some of 
our best friends in the United Nations. The Arab nations were 
up-in-arms. And Saddam Hussein had very effectively put the 
blame on us for the suffering of his people, when the blame 
belonged right on him.
    So when we took a look at that and saw the whole thing 
collapsing, it was my judgment, shared by the President and 
approved by the President, that we ought to refocus the 
sanctions against their original target, which was weapons 
control, control of weapons of mass destruction and the 
technology to build them, and also control his ability to 
rebuild an armed force that would be threatening to the region.
    What I found was that the United States was placing holds 
on huge amounts of material and commodities that were heading 
into Iraq under the oil-for-food program at a rate 10 times 
higher than our allies were. So we were being very, very tough, 
and our allies were saying this is not going to work much 
longer--we have all got to have a common view of what we are 
doing.
    So what I have been working hard to do is to develop that 
common view, and I think we are having some success with it. In 
the PERM-5, I spoke to my Russian colleague, Foreign Minister 
Ivanov, about it again yesterday, and our teams are meeting. I 
think I will have good support from our Arab friends in the 
region. The Iraqis went to the Arab Summit and blew it and did 
not succeed in getting out of the constraints, did not get the 
Arab Summit to endorse their getting away from the control of 
these weapons as controlled by the United Nations.
    So I think we are going to have some progress, and I hope 
that by early June, when we have the next rollover of the 
sanctions regime in the United Nations, America's ideas will 
have taken root, and we will see a change in it.
    Senator Mikulski. Thank you very much, Mr. Secretary. 
Obviously, this is a work in progress. I think it does require 
new thinking while we are thinking about our national goals and 
our values.

                          global public health

    I know that we will be meeting again on May 15th in Foreign 
Operations, and at that time, I hope we can have a conversation 
on global public health issues--the growing rate of 
vulnerability, transnational threats to us in infectious 
disease, AIDS. And I am sure you are aware that yesterday, the 
House International Relations Committee voted 26-22 to reverse 
the gag rule. I would hope we could come up with a way of 
bridging that so that that is not the big fight--there are 
other real big fights--but many of us are quite concerned about 
the infectious disease issue, the AIDS problem in both Africa 
and Russia, that also, then, constitute threats to the United 
States and threats to them in terms of the ability to ever be 
able to grow an economy.
    Secretary Powell. There are 26 million people in Sub-
Saharan Africa who have been condemned to death by HIV/AIDS, 
tuberculosis, and malaria, and the infectious diseases that are 
driven by HIV/AIDS, and----
    Senator Mikulski. Why don't we save that, then, until May 
15th when you come up to Foreign Operations.
    Secretary Powell. Very well, Senator.
    Senator Mikulski. And we look forward to your hearings next 
week, Mr. Chairman, on such a comprehensive approach to 
terrorism. It is probably the most----
    Senator Gregg. I hope you will have a chance to 
participate.
    Senator Mikulski. I am going to try to come to everything 
that I can.
    Senator Gregg. The idea is to have everybody who wants to 
participate be able to do so, and we hope the Secretary can 
make it, or Mr. Armitage.
    Senator Mikulski. Thank you very much.
    Mr. Secretary, again, we really look froward to working 
with you.
    Secretary Powell. Thank you, Senator.

                            trade with china

    Senator Hollings. Just a heads-up on one other function, 
that is, studying at the Department of Defense level, along 
with the Secretary of State, those items necessary to our 
national security. What I am getting at is back in 1961, 40 
years ago, President Kennedy could not evoke or take action for 
his seven-point textile program unless under the statute it was 
found to be necessary to our national security. He brought the 
witnesses, including Secretary McNamara, Orville Freeman, and 
Secretary of Treasury Doug Dillon, and we had the hearings, and 
next to steel, they found that textiles were second most 
important to our national security.
    You mentioned Ambassador Zoellick a minute ago. This trade 
measure has gotten totally out of hand, and the tail is wagging 
the dog. That crowd that did not want to go overseas to produce 
anything 50 years has now found out that for 10 percent of the 
cost, you can move your production overseas and bring it back 
in. And as a result, at least two-thirds and probably 75 
percent of the clothing I am looking at is imported, and 86 
percent of the shoes on the floor here are imported.
    I noticed in the newspaper that you were embarrassed, I 
take it, to finally stop the production of the Rangers in 
China. I was a witness back at that particular time. Tom Dewey 
represented the Japanese Government, and they ran me all around 
the hearing room of the old International Tariff Commission. 
The thrust was, ``Governor, what do you want them to make? We 
will make the airplanes and the computers, but let them make 
the clothing and the shoes.'' The problem is that today, they 
make the shoes, the clothing, the airplanes, the computers--the 
whole kit and caboodle. I do not mind losing the textiles, 
because they are all Republican anyway. But I really worry 
about the disillusionment of the economic backbone of this 
Nation. It is like a three-legged stool--first, your values, 
which are admired the world around; second, the military, which 
is unquestioned; but the third, the economic leg, we have 
sacrificed intentionally, really, for the victory of capitalism 
over communism. Fine--give them some textiles, give them this, 
give them that--but now we are competing with ourselves. The 
United States Chamber of Commerce does not represent Main 
Street; it represents overseas. I do not have to see the 
Japanese Ambassador come in; I see the United States Chamber of 
Commerce, with free trade, free trade, and so on.
    I have lost 42,500 textile jobs since NAFTA. We have lost 
500,000 textile jobs. We used to have 41 percent in 
manufacturing at the end of World War II, and now they are down 
to 12 percent of the work force.
    So the only way to get the attention of these free trade 
addicts, really gutting our economic strength, and fracturing 
that third leg, is to have a hearing to find out from the 
Secretary of State and the Secretary of Defense those things 
necessary to our national security. Find business for Jordan; I 
will vote for that. Find business with Chile--I know we will 
have a problem with respect to their salmon and with respect to 
their wine, but they have the entities in Chile of a free 
economy. They have property rights, a respected judiciary, 
labor rights. They had none of that in Mexico, and that is 
where we tripped up, and now we have to get some sort of 
Marshall Plan--that is another thing over there.
    But as we go along with the State Department just 
parroting, free trade, free trade, free trade, it is not 
necessarily working in our interest. That plane--I would not 
have given that much to China for that Boeing 777--50 percent 
of it is made in China--because the Chinese know how to trade. 
Do not talk about the Chinese--I hear these Senators jumping up 
and down, ``Oh, they cheat, they cheat.'' Well, by gosh, the 
Japanese continue to cheat; the Koreans continue to cheat. And 
they all cheat because that is the rule of thumb, because we 
never enforce our dumping laws, because we do not want to be 
protectionist.
    You have the army to protect us from enemies without; the 
FBI to protect us from enemies within. We have Social Security 
to protect old age, Medicare to protect health. You can go 
right on down--that is the function of Government. We have got 
to protect our economy.
    So as the Secretary of State, understand that we are doing 
pretty good militarily, we are doing pretty good on the values, 
but we are enfeebled in a sense--we are going to wind up like 
England. They told them at the end of World War II, do not 
worry--instead of a nation of brawn, you are going to be a 
nation of brains. Instead of producing products, you are going 
to produce services; instead of creating wealth, you are going 
to handle it and be a financial center. They have a bunch of 
Parliamentarians, and downtown London is an amusement park. 
They do not do anything. Do not worry when you get into a 
conference with that crowd--they do not have anybody to go. 
Their army is not as big as our Marine Corps.
    So we have got to maintain our economic strength, because 
money influences. The Japanese are now giving more to the 
United Nations than we are in foreign aid in different 
countries. We passed a resolution--they are talking about human 
rights in China--we passed it 12 years ago and have never had a 
hearing, because the Chinese went down into Africa and places 
like that where they had influence, and they forestalled it, 
and we have never had a hearing.
    So money talks, and watch it as the Secretary of State.
    Secretary Powell. Thank you, Senator.
    Senator Gregg. We very much appreciate your attendance, Mr. 
Secretary, and we thank you for your time.
    We are going to begin a series of hearings next week on 
terrorism and would appreciate the State Department's 
participation in those. They will begin on Tuesday, May 8th, 
and run for 3 straight days, with every department that has any 
involvement in combating terrorism being in attendance. At 
these hearings, we hope to hear from each agency about what 
their role is in combating terrorism activity, what they think 
their role should be in combating terrorism activity, and with 
whom do they coordinate and to whom do they report.

                     Additional committee questions

    It is essentially a set of hearings the purpose of which is 
to develop a base from which we can make some intelligent 
decisions on how to get better coordination with respect to 
terrorism activity. I know the White House is also aggressively 
pursuing this issue, but the Congress does have a role here, as 
Senator Hollings was just saying. That will be the focus of our 
attention next week.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
             Question Submitted by Senator Pete V. Domenici
    Question. Mr. Secretary, I listened with great interest to the 
President's recent speech on transforming deterrence at the National 
Defense University. As he has indicated in earlier foreign policy 
statements, he believes it's time to shift from a purely offensive 
posture to some mix of reduced offensive capabilities and more emphasis 
on layered missile defense possibilities. He also indicated that the 
first step would be consultation with allies. At some later point, the 
United States would engage Russia and China on this approach.
    1. I would like to understand your view of how we best can achieve 
consensus among our allies, as well as our potential adversaries, on a 
shift from mutually assured destruction to an entirely new approach 
that includes defensive capabilities?
    2. How do you believe we can assure stability as we proceed to undo 
the framework that has dictated the course of arms control over the 
past several decades, but as the President rightly indicated is no 
longer applicable to today's world?
    Answer. 1. We are consulting with our allies and working to 
convince Russia and China of the need to shift from a purely offensive 
posture to some mix of reduced offensive forces because our 
relationship with Russia is different--and limited missile defense 
capabilities--because we face missile threats from new challengers. On 
his two recent European trips the President described this vision and 
our plans to date.
    The NATO allies are unanimous in their support for President Bush's 
decision to intensify work with Russia on strategic stability, missile 
defense and a framework to replace the Anti-Ballistic Missile (ABM) 
Treaty before the U.S. testing schedule bumps up against Treaty limits. 
As the pace of United States-Russia discussions continues, we will keep 
the Congress as well as our NATO allies informed of our gameplan with 
Moscow and the results of our bilateral discussions.
    With respect to Russia we are seeking to build a new strategic 
framework in which our ability to destroy each other is not the 
defining principle. We seek to build a new relationship based on mutual 
interests and cooperation in the political, economic, and security 
areas.
    With respect to China, the United States intends to continue 
consulting with Beijing. China was in the process of modernizing its 
strategic forces before President Bush's missile defense initiative. It 
has continued to modernize its aging deterrent force. We have 
established a dialogue with the PRC on our strategic framework, 
emphasizing in particular that our plans with respect to missile 
defense are not aimed at China's small strategic nuclear force. We 
intend to continue our discussions with China on our strategic 
framework to promote our broad nonproliferation, arms control, and 
transparency/confidence building objectives.
    2. The July 22 Joint Statement by Presidents Bush and Putin marks 
an important step in our efforts to establish a new strategic framework 
for ensuring security and stability into the future. The statement sums 
up the Presidents' shared understanding that major strategic changes 
require concrete discussions of both offensive and defensive systems 
and that there are already some strong and tangible points of 
agreement. Intensive consultations have already begun on the 
interrelated issues of offensive and defensive systems.
    We have told the Russians that we believe it is necessary to move 
beyond the structures of the Cold War, including moving beyond the ABM 
Treaty. We also seek to develop regular United States-Russian exchanges 
to ensure full transparency and understanding of each other's offensive 
and defensive systems and future plans. This will provide assurance to 
each side that neither side threatens the other's strategic deterrent.
    The missile defenses we will deploy will be too limited to affect 
the credibility of the Russian deterrent, even at levels of forces far 
below those reportedly being considered in Moscow. The reductions in 
nuclear forces we both will make also will help preserve the stability 
of nuclear deterrence. The United States intends to reduce its nuclear 
forces to the lowest level consistent with our national security needs, 
including our obligations to our allies.
    We will continue consulting with China as we move forward. I was in 
Beijing last month, and emphasized that we want to build positive 
political, economic, and cultural relations with China. In particular, 
the Chinese agreed to further experts' talks on nonproliferation 
related issues. These consultations are integral to our ongoing effort 
to monitor closely PRC implementation of its nonproliferation 
commitments, including its November 2000 commitment to establish an 
effective missile technology export control system. We will take action 
if we see backsliding, including sanctions, where appropriate.
                                 ______
                                 
           Questions Submitted by Senator Ernest F. Hollings
    Question. Mr. Secretary, concern has been raised that the State 
Department has been outmaneuvered on the United Nations Compensation 
Commission (UNCC) by Russia, France and China. There is a perception 
that those countries have implemented a strategy to benefit Iraq 
instead of compensating Kuwait and the other victims of Iraq's 
aggression. Last year, for example, they got concessions for Iraq at 
the UNCC by blocking for several months a $16 billion oil field damage 
award to Kuwait, and now they are proposing the use of UNCC 
compensation funds to pay for Iraqi consultants to help Iraq oppose 
Kuwait's environmental claims. These actions indicate these countries 
may be motivated by the prospect of future commercial and oil field 
deals with Iraq as well as future military sales to Iraq. Does the 
Administration believe Security Council members are attempting to 
appease Iraq in order to further their parochial, commercial and 
economic interests? If so, what is the Administration's plan to ensure 
this pattern of behavior is corrected?
    Answer. Fourteen of the fifteen Security Council members support 
our new approach on Iraq. The UNCC's Governing Council, consisting of 
the same members as the Security Council, has consistently supported 
our efforts to keep the UNCC focused on the technical, non-political 
completion of the UNCC's workplan, under which it verifies and pays out 
claims, including the large environmental claims of Kuwait.
    In UNCC meetings, countries have raised questions about the 
fairness of the UNCC's processes, especially given the size of the 
awards now being considered. We have accepted some adjustments to UNCC 
procedures to allow the UNCC to continue processing claims as quickly 
as possible, according to its technical standards. The result of these 
changes is that the UNCC Governing Council continues to operate 
effectively and to approve awards by consensus. The continued 
effectiveness of the UNCC in carrying out its mandate to compensate 
victims of Iraqi aggression in Kuwait will continue to be the standard 
by which we judge any future proposals for change in UNCC procedures.
    Question. Concern has also been raised that if the UNCC does not 
fully compensate Kuwait and others similarly situated for the damage 
Iraq inflicted on them, Iraq and other would-be aggressors will believe 
that the United Nations and the international community lack the 
collective will to make them pay for the damage that they cause. They 
may believe they can avoid compensating the victims of their aggression 
by stalling for time and offering commercial inducements to targeted 
members of the Security Council. What steps will you take with the UNCC 
to ensure that Iraq fully compensates the victims of its 1990 invasion 
of Kuwait instead of marshaling its assets to fund Iraq's military 
programs?
    Answer. The Department has led the support for the UNCC's Work 
Program in order to ensure that every claim filed before the UNCC is 
adjudicated, and is working to ensure that the Compensation Fund is 
adequately funded until all awards rendered are paid.
    Question. The largest Kuwaiti war damage claims, totaling more than 
$140 billion for environmental damage and reconstruction costs, are 
still pending in the UNCC and are due to be decided later this year. 
The 42 Kuwait government claims processed so far have received an 
average amount of 55 percent of the amount claimed. Do you believe that 
the pending claims, which go to the heart of the damage caused by Iraqi 
aggression, will receive at least as favorable a rate of compensation 
as the claims processed earlier?
    Answer. We are not privy to any of the claims filed with the UNCC 
by any other government, including the government of Kuwait and are 
therefore not in a position to make our own assessment of the strengths 
or weaknesses of the claims made. Even if we did have access to these 
materials, it is impossible to guess, in advance, how the independent 
panels of commissioners will decide any given claim.
    Question. There is a perception that the UNCC Governing Council has 
made recommendations by panels of commissioners before the United 
States has had an official opportunity to review the claims. Will you 
make sure that the State Department and its legal Advisers engage the 
UNCC earlier in the process, review the Commissioners' analysis of the 
claims, and take steps to ensure that their recommendations do not 
unfairly favor Iraqi interests or discount claims unnecessarily?
    Answer. The UNCC's panels of commissioners independently review the 
claims before them, including any supporting evidence, and arrive at 
their own independent conclusions regarding the dispositions of claims. 
They submit their written reports and recommendations to the UNCC 
Secretariat, which makes them available to all members of the Governing 
Council simultaneously. Neither the U.S. Government, nor any other 
Governing Council member, is privy to those reports before that time. 
Before the UNCC's rules of procedure were revised in December 2000, the 
UNCC circulated reports to all Governing Council members 30 days before 
the quarterly sessions of the Governing Council at which the given 
report was to be discussed and approved. As a result of the revisions 
to the rules, certain reports, including those containing significant 
legal, factual and technical issues and those containing claims with 
recommended awards of $100 million or more, are to be made available 
three months in advance of the relevant Governing Council session. 
Although it is not privy to the evidence and expert reports that 
underlie panels' recommendations, the Department reviews all such 
reports for patent errors prior to Governing Council consideration. 
While under the rules the Governing Council does not function as an 
appellate body, in appropriate but infrequent occasions, the United 
States has sought clarifications from panels or in the Governing 
Council resolution approving an award. To date, all awards have been 
approved by consensus among Governing Council members.
    Question. Concern has been raised that of the $34 billion awarded 
by the UNCC to date only $11 billion has been paid. In addition, the 
United Nations reduced the amount Iraq had to contribute to the U.N. 
Compensation Fund from the oil-for-food proceeds from 30 percent to 25 
percent. What steps does the United States plan to take to ensure that 
this rate is not further reduced and that the remaining awards, 
including those resulting from the $140 billion in remaining Kuwaiti 
claims, will actually be paid?
    Answer. As part of an agreement that led to UNCC Governing Council 
approval of a $16 billion award to Kuwait, the United States accepted a 
temporary reduction in the allocation from Iraqi oil revenues to the 
U.N. Compensation Fund. These funds that made up the reduction are 
earmarked exclusively for humanitarian projects under the control of 
the United Nations to benefit the people of Iraq, not to the Iraqi 
regime. During negotiations on the Security Council resolution that 
would have established a new approach to Iraq, we have supported a 
return to a 30 percent allocation. Within the UNCC we will continue to 
ensure that the UNCC has the resources to pay awards and that its award 
adjudication and payments reflect the technical merits of the awards 
and UNCC procedures claims and not extraneous political factors.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski
    Question. President Bush promised during his campaign to 
immediately begin the process of moving the U.S. Embassy in Israel to 
Jerusalem. What funds in the Embassy Security and Construction request 
will be used for that purpose?
    Answer. The President remains committed to beginning the process of 
moving our Embassy to Jerusalem. However, we are not in a position to 
establish an embassy in Jerusalem at this time. A fundamental and 
overarching foreign policy and national security goal of the United 
States is to help the parties end the current violence in Israel, the 
West Bank and Gaza.
    The President has determined that moving the embassy now would 
complicate our ability to play a helpful role in bringing and end to 
this violence. That is why on June 11 the President exercised the 
waiver authority given him by the Jerusalem Embassy Act to waive for 
six months the Act's limitations on the Department's ability to 
obligate the funds appropriated for overseas buildings.
    Question. U.S. citizen Zachary Baumel and two other Israeli 
soldiers have been missing since June 1982, when they were captured 
after a tank battle with Syrian forces. Three other Israeli soldiers 
were kidnapped in northern Israel and taken to Lebanon last October. 
What are we doing to help find these Israeli soldiers captured and 
taken into Lebanon or Syria? Why hasn't the Red Cross and Red Crescent 
even managed to locate them?
    Answer. The Department considers ascertaining the fate of all 
Israelis missing in Lebanon as an important humanitarian goal. U.S. 
citizen Zachary Baumel, and fellow Israeli soldiers Yehuda Katz, and 
Zvi Feldman have been missing since 1982, while Israeli pilot Ron Arad 
has been missing since 1986. In October, 2000, Hizballah captured three 
Israeli soldiers, Avi Avitan, Benny Avraham, and Omar Souad while they 
were patrolling the Israeli side of the United Nations certified Blue 
Line. Shortly thereafter, Hizballah seized Israeli businessman Elchanan 
Tanenbaum, though the circumstances remain unclear.
    The Department is in close touch with Israel and the families, with 
whom the Secretary met in June. We have endeavored to be as helpful as 
possible in pushing for International Committee of the Red Cross access 
and in ascertaining the fate of all missing Israelis. At every 
opportunity we call on Syria and Lebanon to do their utmost to help 
achieve the release of, and/or information about the missing Israelis. 
Assistant Secretary Burns stressed our concerns directly in Beirut and 
Damascus in July, and met again with the families in Washington on 
August 2.
    The United States maintains a strict prohibition against contact 
with Hizballah. Negotiations on the prisoners have accordingly been 
pursued through non-U.S. channels. The Department of State will 
continue to monitor and raise this issue whenever and wherever doing so 
will contribute to the resolution of this humanitarian issue.
    Question. Last year, the State Department requested $30 million in 
the Foreign Operations bill to establish a Center for Anti-Terrorism 
and Security Training (CAST). The purpose of CAST is to provide one 
good site to be shared by Diplomatic Security service for its own 
training and for the International Narcotics and Law Enforcement (INL) 
bureau to provide training for selected foreign officials. That request 
was not met, because it was felt that building such a facility should 
be funded in Commerce-Justice-State, not Foreign Ops. I hope you will 
look into getting this important facility established.
    I believe Aberdeen Proving Ground in Maryland could be an 
outstanding site for the CAST. It has the space you need as well as 
other related institutions. It is within easy distance of Washington 
and close to BWI airport.
    Why didn't the Administration request CJS funds for CAST this year? 
Would you please ensure that your DS and INL officials fully consider 
the advantages of locating the facility at Aberdeen Proving Ground?
    Answer. The Antiterrorism Assistance Program's CAST initiative is 
intended to significantly increase training for foreign law enforcement 
and Government officials. The Department is continuing to explore 
sites, which would serve the CAST training requirements, as well as 
those of the Diplomatic Security Service. Proximity to Washington, DC, 
existing infrastructure, and potential for dual use are among the 
criteria being reviewed. The Aberdeen Proving Ground is among a number 
of venues, which continue to be vetted.
    However, while the Department firmly believes in the value of CAST, 
the prioritizing of needs for the fiscal year 2002 budget cycle could 
not accommodate funding for CAST. While we cannot now commit to fiscal 
year 2003 spending initiatives, the CAST program will be given every 
consideration.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
    Question. In my opening statement, I mentioned the Bureau for 
Democracy, Human Rights and Labor. The Administration has already made 
its budget request, which I believe falls short, and I will be talking 
to the Chairman and Ranking Member about that.
    But there is also a lot that can be done, without spending money, 
to strengthen that office. It all depends on what message you, as the 
Secretary, send to the rest of the Department. If you make clear that 
you want their unvarnished views whenever there are potential human 
rights issues at stake, that would make a difference. Would you comment 
on this?
    Answer. Since taking office, I have made it clear to all my Under 
Secretaries and Assistant Secretaries that I want to be presented with 
all views on an issue even where a position may affect our relationship 
with a foreign country. This understanding applies directly to human 
rights issues. For example, Assistant Secretary of State for Democracy, 
Human Rights and Labor Lorne Craner, who is a key member of my team and 
participates in my daily senior staff meetings, accompanied me on my 
recent trip to Asia. I value his unvarnished views.
    Question. An election will be held in East Timor later this year to 
establish an independent government. I know there is a waiting list for 
construction of new embassies, and for the renovation of existing 
embassies and other facilities. However, we do need an embassy in East 
Timor, and I would like to know the status of the Department's efforts 
to open a fully functioning diplomatic mission there.
    Answer. The Department shares your desire for an expeditious 
opening of diplomatic mission in Dili. A U.S. presence in East Timor is 
essential to monitor our bilateral assistance programs and work with 
officials of U.N. transitional administration in East Timor as well as 
the nascent East Timorese government.
    On May 7, 2001, the Department transmitted a notification letter to 
the Congress requesting reprogramming of funds for facilities 
renovation and operating expenses associated with opening a U.S. 
diplomatic post in Dili, East Timor. However, language included in the 
Report (107-42) accompanying the fiscal year 2002 Senate Commerce-
Justice-State Appropriations Bill (S. 1215) puts a hold on this 
reprogramming action. In the Report, the Committee expresses its 
concern with the safety of American people and property in East Timor 
and directs the Department to report on the situation by January 1 
2002, at which time the Committee will reconsider our request to open a 
post in Dili. While we will provide the Committee with the requested 
report, we still believe that opening a U.S. diplomatic mission in Dili 
as soon as possible is in our national interest, and we would hope the 
committee could find a way to allow the administrative preparation for 
opening a post to proceed in the interim.
                      office of war crimes issues
    Question. I am pleased that you decided to keep the position of 
Ambassador-at-Large for War Crimes. There have been reports that there 
is consideration within the State Department to place the Office of War 
Crimes (S/WCI) under the authority of either the Under Secretary of 
State for Arms Control and International Security (T) or the Office of 
the Legal Advisor (L). Do you intend to maintain the current structure 
where S/WCI reports directly to the Secretary of State?
    Answer. I have decided that the Office of War Crimes Issues (S/WCI) 
will continue to report directly to me. Pierre-Richard Prosper, our new 
Ambassador-at-Large for War Crimes Issues, advises me directly on U.S. 
efforts to address serious violations of international humanitarian 
law, including genocide, crimes against humanity and war crimes, 
committed throughout the world. President Bush and I count on him to 
ensure that the United States remains a leader in the effort to punish 
war criminals and to prevent the commission of future crimes.
    Question. Don't you think the best strategy is to remain a 
signatory [to the ICC treaty]--to maintain our leverage in the 
negotiations and allow our representatives to get more protections for 
Americans?
    Answer. The Administration's primary objective in its ICC review is 
to find avenues to protect United States officials and service 
personnel from politically motivated prosecutions by the International 
Criminal Court. That review is currently underway.
    Question. Does the Administration's policy on the ICC include 
``unsigning'' the treaty or actively pressuring our friend and allies 
not to ratify it?
    Answer. As you know the Administrative has no intention to submit 
the ICC treaty to Senate for advice and consent to ratification. The 
Administration has currently underway a review of the ICC and is 
seeking to develop a strategy that best protects the interests of the 
United States.

                          subcommittee recess

    Senator Gregg. I thank you for your attendance, and this 
hearing is recessed.
    Secretary Powell. Thank you, Senator.
    [Whereupon, at 11:18 a.m., Thursday, May 3, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED 
              AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2002

                              ----------                              


                         TUESDAY, MAY 15, 2001

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Judd Gregg (chairman) presiding.
    Present: Senators Gregg, Stevens, Hollings, Inouye, and 
Murray.

                         DEPARTMENT OF COMMERCE

            National Oceanic and Atmospheric Administration

STATEMENT OF SCOTT B. GUDES, ACTING UNDER SECRETARY AND 
            ADMINISTRATOR
ACCOMPANIED BY:
        JACK KELLY, ASSISTANT ADMINISTRATOR, NATIONAL WEATHER SERVICE
        BILL HOGARTH, ASSISTANT ADMINISTRATOR, NATIONAL MARINE 
            FISHERIES SERVICE

    Senator Gregg. The subcommittee will come to order.
    It is a pleasure today to have the Acting Administrator of 
NOAA, Scott Gudes, with us. He is reasonably familiar to the 
committee.
    I have no opening statement. Senator Hollings.
    Senator Hollings. Thank you, Mr. Chairman.
    I note the bio or resume here of Scott B. Gudes, and I see 
mentioned Fullerton and scuba diving and many other things, but 
it does not mention my name.
    I think of the time that Bess Truman--they used to tell all 
kinds of stories about President Harry Truman--had gone to have 
her annual physical, and she was standing in front of the 
mirror, admiring herself. The President looked at her and 
asked, ``What in the world are you doing?''
    She said, ``I have just had my annual physical, and the 
doctor said I am in the best shape of anyone he has ever seen 
my age.''
    And Harry asked, ``Well, what did he say about your big, 
fat . . .''
    And she said, ``Harry, he did not even mention your name.''
    Thank you, Mr. Chairman.
    Senator Gregg. That may go down as one of the more original 
opening statements.
    Mr. Gudes. You cannot say those things in the executive 
branch, so I will just listen.
    Senator Gregg. Senator Inouye, did you have any opening 
remarks?
    Senator Inouye. I do not think I can add to that.
    Senator Gregg. No, I do not think any of us can.
    Senator Inouye. I just want to welcome Scott.
    Senator Gregg. Mr. Gudes, the floor is yours.
    Mr. Gudes. Thank you, Chairman Gregg, Senator Hollings, 
Senator Inouye.

               opening statement by under secretary gudes

    I will submit my full statement for the record, and I would 
like to use these powerpoint slides and just make some oral 
comments if I could.
    First of all, let me say on behalf of Secretary Evans and 
our 12,500 men and women working around the country that I want 
to thank you for this opportunity to come here today and 
testify on behalf of our fiscal year 2002 budget for your 
National Oceanic and Atmospheric Administration.
    I also want to thank this subcommittee for your unwavering 
and strong support through the years for our Nation's ocean and 
atmospheric programs and especially highlight your outstanding 
professional staff who have worked so closely with NOAA--Jim 
Morhard and Luke Nachbar, Lila Helms, Jill Shapiro-Long, Nancy 
Ragland-Perkins, and Dana Quam.
    Mr. Chairman, I would also like to recognize my management 
team that is here today--my deputy chief financial officer and 
budget director, Jolene Lauria Sullens; Sonya Stewart, our 
chief financial officer and chief administrative officer; 
Margaret Davidson, head of the Oceans Service; Bill Hogarth, 
head of Fisheries; Jack Kelly, head of the Weather Service; 
Louisa Koch, deputy head of research; Greg Withee, who is here 
for satellites; Bob Taylor from Office of Marine Aviation 
Operations.
    These are, I think, testament to the fact that NOAA is much 
greater than the sum of its parts, and I rely on this whole 
management team to help run the agency.
    For fiscal year 2002, the NOAA budget totals $3.152 
billion. That is a $61 million reduction from the current year. 
So we are not talking about how much real growth above the 
current year or below the current year.
    That really does not tell the whole story. We have about 
$330 million in reductions and about $270 million of 
investments or add-backs. That is most of what I will talk 
about today. But when you look at those add-backs, Mr. 
Chairman, I think you will see that in fact they really do 
emphasize NOAA's core mission; that Secretary Evans really did 
come to us and say ``Please invest in the things that will help 
NOAA do its mission in the future.'' And I think you will see 
that that $270 million is wisely invested.
    I also believe that this subcommittee will find this budget 
to be more realistic than past budgets that have been submitted 
in that we have fully funded programs that this subcommittee 
has been telling us for years are important and high priority 
that have too often come up being cut or terminated in the 
President's budget.
    So that, for example, the Coastal Services Center is fully 
funded; the Joint Hydrography Center; CICEET, the National 
Undersea Research Program. We are almost at last year's level 
for the Steller sea lion programs. The Juneau lab in Alaska for 
the first time has a substantial funding request, and Sea Grant 
is fully funded. Coastal Zone Management actually has an 
increase. Those are programs that this committee for years has 
supported and told NOAA that it wants to be funded.

                      noaa management improvements

    If I could turn to the first slide that shows management 
improvements, before talking about what we are asking for in 
terms of funding this year, I would like to show you what we 
have been doing with the funding that this subcommittee and 
committee have been providing to us in the past and just show 
you some of the impacts we have had.
    If you look at the box in the middle, that is hurricane 
track forecasts. What the slide shows is that since the mid-
1980's, we have reduced the error in hurricane track forecasts 
from about 400 nautical miles out at 72 hours down to 200 
nautical miles. We are coming down every year a few percentage 
points. We can do better, but we have cut it in half since the 
mid-1980's, and that is a factor of better satellites, better 
training, better research, but most importantly, better 
supercomputers and models. That really shows the impact of 
that.
    Another example is tornado lead time, where in the early 
1990's, we had very little lead time; we got a nationwide 
system of NEXRAD Doppler radars, of AWIPS communications and 
forecasting systems, and now we are up to 10\1/2\ minutes of 
lead time, and that is for all types of tornadoes. If we are 
looking at the larger tornadoes on the Fujita Scale, we have 
greater lead times.
    On acquisition reform, this committee played a real 
leadership role. In the 1991 time frame, we had one 
geostationary satellite left in this country. I remember when 
this subcommittee got together with the Commerce Committee and 
held a special hearing to get on top of the situation and do 
something about the fact that we had one geostationary 
satellite, and we did not think it was going to last until the 
next series came and replaced it. And by the leadership of this 
committee, Loral Corporation, our satellite service, and Ray 
Kamer, who just retired from NIST and was the Deputy Under 
Secretary of NOAA at the time, we made real improvements and 
fixed those instruments.
    The situation we now have is that we basically kept the 
costs of a geostationary satellite in constant dollars frozen 
or slightly less than it was. We have two--one West, one East--
geostationary satellites, one in cold storage in orbit, ready 
to turn on; and a fourth satellite that is going to be launched 
this summer. So we have gone from a situation through better 
acquisition management of keeping down costs but also providing 
robustness to our system and being able to maintain coverage 
for the American people.
    Turning to the budget for this fiscal year, the next slide 
shows some of the cross-cutting themes that we have used and it 
highlights some of the numbers that I showed you before.

                         noaa budget priorities

    The next slide shows my number one priority. If you ask me, 
``Scott, you are Acting Administrator. What is your top 
priority in the budget?''--it is our people. It is funding our 
adjustments to base--the pay raises, the rent costs, the must-
pay bills. That is about $60 million of our request, and about 
$24 million of that is for the Weather Service, which is the 
most people-intensive part of NOAA. For too long, too many 
years, the President's budgets did not come up fully funding 
it, and we have done that.
    The next slide shows my next-highest priority, which is 
infrastructure--equipment, facilities, maintenance. It is what 
I call infrastructure, and it is about areas where we have not 
traditionally done well in NOAA, worrying about how this agency 
is going to continue to do its mission, not just today but in 
the future.
    I would just like to highlight a few of the things that are 
covered in here. Three million is to help start building our 
new Honolulu Fisheries Laboratory. It is collocated at the 
University of Hawaii. It is non-ADA-compliant right now--that 
is the Americans for Disabilities Act. It has leaks in the 
computer areas, and I think it was originally designed for 45 
employees, and we currently have about 120 there.
    Then, $1.7 million is for overall safety and environmental 
issues; $5.8 million is for overhaul and repair of two of our 
NOAA fisheries vessels, including the Albatross IV, which is 
home-ported in Woods Hole and is the workhorse of our Northeast 
surveys.
    And $7.5 million is for a backup telecommunications gateway 
for our National Weather Service. The gateway puts out all 
products to emergency managers, the media, and to the public. 
We have a single point of failure in Silver Spring. We talk 
about critical infrastructure a lot on this committee and in 
the executive branch. This is about giving us a backup 
telecommunications gateway so that we do not have that single 
point of failure. It is the right thing to do.

                          cross-cutting issues

    The next slide, I will just go through very quickly, but 
there are a few cross-cutting issues. I want to talk about 
satellites and our weather forecasting.
    Under coastal conservation--that is a program sometimes 
called Lands Legacy, coastal ocean activities--we have a number 
of programs there from coral reefs to marine sanctuaries to the 
estuarine research reserve program, like Ace Basin and Great 
Bay. The total increase for that is $34.4 million, and included 
in the marine sanctuary request is $6.5 million to build and 
fully fund the Nancy Foster complex in Key West for the Florida 
Keys Sanctuary.
    On the right, modernizing NOAA fisheries--we are really 
following the lead of this committee, and we have an increase 
of $60.1 million for science, for management, and for 
enforcement; $13.3 million for surveys, which is largely by 
contract, days at sea--829 days, I believe, by contract. We 
have $2.5 million for Fisheries Management Councils. They are 
really the way that we manage fisheries in this country in 
partnership with the industry and the States, and they have 
adjustments to base as well, and they have not gotten an 
increase in quite some time.
    We have $2 million for the community-based Habitat 
Restoration Program, which has been making a big impact across 
the country. We have some $16.5 million in increases requested 
for the Climate Services Initiative, like Argo floats, which 
are like radiosondes, weather balloons, if you will, for the 
ocean, for studies of carbon in Arctic ice. It includes $3 
million for supercomputing to get our capability at the 
Geophysical Fluid Dynamics Lab, our principal climate modeling 
center in this country, up to speed with the Japanese and the 
Europeans, which have more capable supercomputers right now.
    Climates, both seasonal and long-term--this is a major 
interest of NOAA and of this country. Increasingly, we are 
realizing that it is of interest to the energy industry as 
well, something that we have increasingly become aware of and 
they have increasingly become aware of. And of course, it is 
also about the oceans. Of course, climate is one of the areas 
in NOAA that is not about atmospheric NOAA or oceanic NOAA; it 
really is both, because in order to understand climate, you 
need to understand the oceans and their impact.

                     maritime transportation system

    One slide that you have up there, a final area before I 
turn to satellites, is the maritime transportation system. I 
know this is a major area of interest to a number of people on 
the committee. What we are talking about there is really 
looking at our maritime transportation system in the same way 
we do at aviation, at surface transportation. We have a number 
of specific initiatives--$3 million for working with 
communities in coastal storms, $2 million for oil and hazardous 
spill response, and $3.6 million for electronic navigational 
charts to really move the smart charts, vector charts, and a 
digital database to cover 200 of the most important ports of 
this country.
    I would just like to highlight--there is an image of a NOAA 
polar satellite here on the bottom--I would like to cover two 
programs that are under satellites and weather, because I think 
they are highly important, and one of them is the biggest 
budget initiative that we have in here.

                         hurricane forecasting

    The first is a $2.2 million increase for something called 
the U.S. Weather Research Program. I guess I would probably 
refer to that as hurricane forecasting, if you will. It is 
about hurricane track forecasts, about intensity, about 
quantitative precipitation forecasts. Increasingly, the number 
one killer from hurricanes is not the storm surge and the winds 
at the coast--we are doing a better job getting the public to 
pay attention to that--but it is about inland flooding. In 
Hurricane Floyd, we lost over 50 people to inland flooding. So 
the U.S. Weather Research Program is really about doing the 
science, working with our partners in the academic community 
and other agencies, doing a better job in all of those areas, 
being able to determine where a hurricane is going to hit, with 
what intensity and how much rainfall.
    If you turn to the next slide, I just want to show you an 
example of why I think we need to move on this area, and I am 
pretty proud that it is in our budget. On this side is a 
depiction of Hurricane Georges. Hurricane Georges came over Key 
West and did not intensify quite as much as we had thought, 
which was good. But 48 hours later, it came in to southern 
Mississippi just about exactly where we predicted it would; it 
did a few things in between that scared the people in New 
Orleans, but it came in pretty much where we said 48 hours 
later. So it is an example in 1998 of where we got it right.
    On the other side of the page is Hurricane Mitch. Hurricane 
Mitch came across the Caribbean, and it actually came back into 
tropical storm status and then went down over Honduras and 
became sort of like Hurricane Agnes here on the East Coast, 
with major flooding, and killed over 10,000 people.
    No model--NOAA's GDFL hurricane model, the Navy's model, or 
the European model--predicted that hurricane to come south like 
it did or to stall. So 98 years or so after the Galveston 
hurricane, we lost 10,000 people just 3 years ago. So it is an 
example of how far we have got to go in terms of hurricane 
forecasting in this country.

                           npoess satellites

    The last major program that I would like to mention is 
NPOESS, the National Polar-Orbiting Environmental Satellite 
System. The satellites that you see on television are 
geostationary satellites; you see them every night. You do not 
see our polar satellites. Our polar satellites do several 
functions. They get the meteorological measurements, which are 
the backbone of how we do our numerical weather prediction, 
those models we talk about for winter storms and for all the 
long-term forecasting that we do. They do search and rescue, 
SARSAT with the Coast Guard. We have saved over 12,000 lives 
since 1982. They do ozone, and they also do imaging. And 
actually, with our very high advanced resolution radiometer, I 
have some pictures of how that satellite actually does disaster 
assistance all over the world. It is a global satellite.
    This shows some examples of where we got Mozambique some 
forecasts of flooding, and Ethiopia and the Horn of Africa, 
with drought and fires. These really are global satellites; 
they cover the globe every day.
    In the polar satellite area, we have two programs. We have 
the NOAA civil satellite, and we have the Air Force satellite, 
called DMSP. For 40 years, these two agencies have run separate 
satellite systems--NOAA runs two, and the Air Force runs two. 
In about 1993-1994, the previous administration said we are not 
going to do that anymore; we are going to have one system, and 
we are going to call that NPOESS, National Polar-Orbiting 
Environmental Satellite System, and merge them together and 
only have three satellites at any time.
    It is an issue of improving those forecasts, improving the 
data. It is also an issue of continuity. And that is the one 
thing I want to leave you with today. It is the largest budget 
increase in our budget, $83 million. It is a 50-50 program, 
half in NOAA, half in the Department of Defense, Air Force.
    We only have three current-generation polar satellites left 
on the ground to get us to the first NPOESS satellite, and that 
is in 2008-2009 for delivery if everything works on time.
    So my point is that I would like us not to take a chance of 
getting back into a gap like we were in the geostationary 
program. I think it is very important to keep NPOESS on 
schedule. It is very important for the civil community, which 
is represented by NOAA, to be an equal partner in that program 
along with the Department of Defense.

                           ocean exploration

    Finally, you talked about the ``O'' in NOAA. At the 
Secretary's hearing, you heard that ocean exploration is about 
the ``O'' in NOAA. It is responding, I think, to the points 
that have been made here. It is one of the areas that the 
Stratton Commission asked NOAA to be involved in that we really 
never stepped up to the plate on. And really following your 
lead, you gave us $4 million, and we are moving expeditiously 
to do missions in the East, called Big East, diving in the 
Hudson Canyon off the East with the Alvin submersible, along 
with our partners in universities, NSF, and Woods Hole; out on 
the West Coast, working in Astoria Canyon in the Gulf. We are 
moving ahead on that program, and we have requested an increase 
of $10 million. It follows the recommendations of the 
President's blue ribbon panel on ocean exploration headed by 
Dr. Marcia McNutt, which also included Dr. Bob Ballard, the 
fellow who found the Titanic, and Dr. Shirley Pomponi from 
Harbor Branch, and a number of other oceanographers. So I think 
it is doing the right thing for what you want.
    The final slide shows that ocean exploration is also about 
education and outreach. That is a major part of what we are 
doing. Ten percent of the program--any number that you give us, 
10 percent will be for education and outreach.
    The final slide is of our website, www.noaa.gov. I for one 
think that NOAA's core mission includes training the 
meteorologists, the oceanographers, the marine biologists, the 
explorers, if you will, of tomorrow. And as I go around the 
country, one thing that is very rewarding to me is to have 
students and teachers and the public come out and talk about 
how great our website is and how they can really navigate from 
anything from our hurricane imagery, satellite imagery, to our 
weather forecasts, to learning about whales and marine mammals.
    It really is about reaching your constituents and my 
customers, really, and it is about education and outreach, and 
we are usually in the top 10 websites in Government and private 
sector on any given week--when we have severe weather, it is 
even higher. But it has really been an example of where our 
people got together and did the right thing in engineering and 
taking a look at how to outreach the agency.
    The last point I would like to make is that this committee 
played a leadership role in keeping our NOAA Corps 7th 
Uniformed Service a uniformed service in this country. Last 
Wednesday night, I had the opportunity to go to Kings Point, to 
the U.S. Maritime Academy, to the graduation ceremony for the 
100th basic officer training class. This is a picture of that 
class, and those ensigns are now being deployed to ships across 
the country. One is going to work in South Carolina; two are 
going to work in Seattle; and one of these ensigns, Ensign 
Sook, is from the University of New Hampshire and grew up in 
New Hampshire. So I thank you for what you did to keep our NOAA 
Corps.
    Thank you very much, Mr. Chairman.
    [The statement follows:]
                   Prepared Statement Scott B. Gudes
    Thank you, Mr. Chairman, and members of the Subcommittee, for this 
opportunity to testify on the President's fiscal year 2002 Budget 
Request for the National Oceanic and Atmospheric Administration (NOAA).
    I am accompanied today by Sonya Stewart, Chief Financial Officer/
Chief Accounting Officer.
    Let me begin by saying that NOAA, a key component of the Department 
of Commerce, plays a vital role in the everyday lives of our citizens 
through our numerous contributions to the Nation's economic and 
environmental health. In a period of strongly competing Government 
priorities, the President's fiscal year 2002 Budget Request for NOAA is 
$3,152.3 million in total budget authority for NOAA and represents a 
decrease of $60.8 million below the fiscal year 2001 enacted levels. 
Within this funding level, NOAA proposes essential realignments that 
allow for a total of $270.0 million in program increases in critical 
areas such as infrastructure, severe weather prediction, coastal 
conservation, living marine resources, and climate.
    The funding requested in the fiscal year 2002 President's Budget 
Request will allow NOAA to ensure that our vision for environmental 
stewardship and assessment and prediction of the Nation's resources 
becomes a reality and that NOAA will continue to excel in our science 
and service for the American people.
    From weather forecasting to fisheries management, from safe 
navigation to coastal services, remote sensing to climate research and 
ocean exploration, NOAA is at the forefront of many of this Nation's 
most critical issues. NOAA's people, products and services provide 
vital support to the domestic security and global competitiveness of 
the United States, and positively impact the lives of our citizens, 
directly and indirectly, every single day.
    NOAA's mission is to describe and predict changes in the Earth's 
environment and to conserve and manage the Nation's coastal and marine 
resources to ensure sustainable economic opportunities. NOAA implements 
its mission through its line and staff offices: the National Ocean 
Service (NOS); the National Marine Fisheries Service (NMFS); the Office 
of Oceanic and Atmospheric Research (OAR); the National Weather Service 
(NWS); the National Environmental, Satellite, Data and Information 
Service (NESDIS); the Office of Marine and Aviation Operations (OMAO); 
and Corporate Services (CS).
    Today, the Nation and the world look to NOAA to provide timely and 
precise weather forecasts that protect lives and property; to manage 
fisheries and protected species; to promote and sustain healthy 
coastlines; to make America more competitive through safe navigation; 
to examine changes in the oceans; and to inspire and create approaches 
that will protect and keep our precious natural resources alive for the 
generations to come.
    NOAA conducts research to develop new technologies, improve 
operations, and supply the scientific basis for managing natural 
resources and solving environmental problems. NOAA's comprehensive 
system for acquiring observations from satellites and radars to ships 
and submersibles provides critical data and quality information needed 
for the safe conduct of daily life and the basic functioning of a 
modern society.
    NOAA's products and services include short-term weather and space-
weather forecasts, seasonal climate predictions, long-term global 
change prognoses, environmental technologies, nautical charts, marine 
fisheries statistics and regulations, assessments of environmental 
changes, hazardous materials response information, and stewardship of 
the Nation's ocean, coastal, and living marine resources.
    NOAA's programs for fiscal year 2002 support several key cross-
cutting initiatives. These cross-cutting initiatives illustrate the 
degree to which NOAA's programs are inter-related. Each of the 
component programs within a cross-cutting initiative uniquely 
contributes to NOAA's ability to meet its mission.
    The fiscal year 2002 President's Budget Request supports NOAA's 
cross-cutting initiatives, each of which is I will discuss in greater 
detail.
People and Infrastructure
    The request of $73.3 for the People and Infrastructure cross-
cutting initiative brings together the heart of what NOAA is and does. 
These are the underlying and interconnecting threads that hold NOAA and 
its programs together. Investments in NOAA's scientific and technical 
workforce and NOAA's facilities and equipment is essential to the 
agency carrying on its mission into the 21st Century. ``People and 
Infrastructure'' is about investing in the future.
            People ($60.0 million)
    NOAA requests $60.0 million in base adjustments that are critical 
to preserve and develop NOAA's human capital, our greatest asset. The 
demand for NOAA's scientific work products and services is expected to 
increase significantly in fiscal year 2002 and beyond. This trend is 
evidenced by market responses to increasingly accurate seasonal 
forecasts, protection of life and safety, competing interests for 
marine resources and the need to protect and recover endangered 
species, and the application in pharmaceutical manufacturing of the 
earliest rewards from increased ocean exploration. Similar increases in 
demand for NOAA's products and services are expected from the national 
energy community and other potential user communities. To ensure NOAA's 
mission capacity is adequate to respond to these demands, NOAA must 
continue to invest in its people.
    This investment will ensure NOAA's programs are maintained at the 
current services level. These are ``must-pay'' bills like pay raises, 
benefits, inflation, and rent. Failure to receive these adjustments in 
any given year results in program dislocations and minor cutbacks. 
Failure to receive these adjustments over time has a cumulative erosion 
effect that can be programmatically devastating. Consequently, these 
adjustments to NOAA's funding base are essential for NOAA to continue 
meeting core mission-related requirements and the expectations of the 
American public.
            Infrastructure ($73.3 million)
    NOAA's facilities and information technology infrastructure 
directly and immediately impacts the ability of NOAA's program offices 
to satisfy mission demands. The condition, readiness and 
vulnerabilities of this infrastructure have direct consequences on 
human welfare, economic well being, and the advancement of the state of 
the sciences. To ensure mission capacity, NOAA requests infrastructure 
funding of $73.3 million in the following key categories: critical 
systems, construction, maintenance and repair, and NOAA program 
support.
            Systems ($16.4 million)
    The total request of $4.0 million for the National Marine Fisheries 
Service (NMFS) Computer Hardware and Software represents an increase of 
$0.5 million. This continued investment will be used for information 
technology refreshment to support the scientific and computational 
needs of the NMFS. Many of the observational data elements obtained 
from the new sensors, observers, Fisheries Research Vessels (FRVs) and 
survey and census data collection programs in this budget submission 
will rely on the NMFS Information Technology infrastructure for all or 
part of their life cycle. The cumulative effect of rising costs, the 
unmet need for adjustments to base, and expanding requirements have 
created an erosion of base program functionality. These funds will 
result in a continuous process of technology refreshment to keep pace 
with the increasing information flow created by the deployment of new 
sensors, platforms and data collection activities throughout NMFS' 
initiatives.
    NOAA requests a total of $7.5 million for the National Weather 
Service (NWS) Telecommunications Gateway (NWSTG) Backup, to provide 
critical infrastructure protection. This investment will enable NOAA to 
acquire the equipment and facility infrastructure necessary to ensure 
continuity of operations at the NWSTG. The NWSTG is the Nation's 
critical telecommunications hub for collecting, processing, and 
distributing weather data and information. The data processed by the 
NWSTG are used by hundreds of customers worldwide but the current NWSTG 
facility, located in NWS headquarters in Silver Spring, MD has no 
operational backup and is therefore a single point of failure 
vulnerable to natural disasters, human error, computer viruses, hacker 
attacks, and terrorism. This investment will mitigate these risks and 
will enable NOAA to comply with Presidential Directives on critical 
infrastructure protection and continuity of government operations.
    NOAA requests a total of $0.3 million to begin to address the 
critical single point of failure for NOAA's satellite products. This 
investment will fund a study to evaluate the backup capabilities for 
critical satellite products and services currently delivered from 
Federal Building 4 in Suitland, MD. This initiative is essential to 
address the potential for a catastrophic outage, which would prevent 
the delivery of critical satellite data and products to the NWS. In the 
event of such an outage, approximately 85 percent of the information 
used in weather forecast models would be lost, seriously limiting the 
ability to make accurate weather forecasts. This would be particularly 
dangerous if data was not available during times of severe weather 
events.
    NOAA requests a total of $4.6 million to ensure Continuity of 
Critical Facilities for Satellite Operations. This investment will 
allow NOAA to address deficiencies and risks associated with the 
infrastructure of the NOAA environmental satellite command and control 
centers at Wallops, VA and Fairbanks, AK. This initiative forms a 
cohesive approach to resolving known infrastructure problems by 
reducing facilities' threats and risks, and completing the renovation/
repair of the Satellite Operations Control Center. These problems could 
jeopardize NESDIS' ability to control the Nation's environmental 
satellite systems and potentially lose in- orbit assets.
            Construction ($16.0 million)
    NOAA requests a total of $3.0 for the Honolulu laboratory. This 
investment will continue the replacement of the Honolulu Laboratory 
which consists of a main lab building and two annex building. This 
funding will enable the project to proceed with work needed to correct 
several deficiencies such as overcrowding, lack of laboratories, 
inadequate or nonexistent handicap access, and hazardous materials.
    The total request of $12.0 million for National Weather Service 
(NWS) Weather Forecast Office Construction represents an increase of 
$2.5 million above the fiscal year 2001 enacted level. This continued 
investment will ensure the continuation of critical facility 
modernization efforts in the NWS. In fiscal year 2002, NWS plans to 
finalize construction of the new Weather Forecast Office in Caribou, 
Maine and complete the new Alaska Tsunami Warning Center in Palmer, 
Alaska. NWS also plans to complete modernization of the weather offices 
in Hilo, Hawaii and Kotzebue, Alaska.
    The fiscal year 2002 Presidents Budget request includes a total of 
$1.0 million for the Coastal Services Center Wing. This investment will 
allow for construction of a new wing adjacent to the main facility of 
the Coastal Services Center (CSC) in Charleston, SC. This small 
expansion will add an estimated 6,000 square feet to house office 
space, a storage area and a loading dock. The funding will also allow 
for a partial demolition of CSC's obsolete and deteriorating 
structures. The demolition would eradicate some, but not all, of the 
structures that pose threats to CSC's inhabited buildings. Additional 
needs for security enhancements and other expansion remain under 
consideration in the comprehensive facilities plan being completed in 
fiscal year 2001.
            Maintenance ($24.4 million)
    The total request of $4.4 million for the National Marine Fisheries 
Service Facilities Operations and Maintenance represents an increase of 
$0.4 million above the fiscal year 2001 enacted level. This continued 
investment will be used to cover increased operation and maintenance 
costs of two key NMFS facilities, the new Santa Cruz, California 
Laboratory, and the Kodiak, Alaska Laboratory.
    The total request of $4.6 million for Weather Forecast Office (WFO) 
Maintenance represents an increase of $0.3 million above the fiscal 
year 2001 enacted level. This continued investment will allow NWS to 
fund recurring maintenance contracts and address a backlog of over $7.0 
million in deferred maintenance repair actions. WFOs provide 
forecasters with modernized facilities, supporting the advanced 
technology systems and the provision of weather service to the public. 
As the WFOs continue to age, the facilities require a significant 
investment in recurring and cyclic maintenance, including replacement 
of major facility support systems such as power backup and heating, 
ventilation, and air conditioning. The request will allow NWS to 
protect the $250 million capital investment in modernized facilities in 
accordance with GSA and private industry standards.
    NOAA's request of $3.6 million for Facilities Maintenance, Repairs 
and Safety represents an increase of $1.7 million above the fiscal year 
2001 enacted level. This continued investment will allow for 
remediation of NOAA's deteriorating facilities. NOAA's capital assets, 
totaling 496 installations spread across all 50 states are valued in 
the hundreds of millions of dollars. The majority of these facilities 
are over 30 years old, and 29 percent are over 40 years in age. To 
date, renovations have been relatively few, and maintenance has been 
deferred. NOAA has already identified over $50 million in maintenance 
and repair projects, and this continues to grow as a comprehensive 
facility assessment unfolds. Major systems in many facilities are in 
imminent danger of failure, or are well past their useful lives. The 
requested funds will help address these facilities maintenance, repair 
and safety needs.
    Funding in the amount of $1.0 million is requested for NOAA's 
Beaufort Laboratory. This investment will allow for repairs at NOAA's 
Beaufort, NC Laboratory. The funds will be used to address health and 
safety issues, primarily the installation of a sanitary sewage 
connection and electrical repairs. The Beaufort Laboratory is the 
Nation's second oldest marine research center--a national treasure--and 
is collocated with the Rachel Carson National Estuarine Research 
Reserve.
    NOAA's request of $1.8 million for the GORDON GUNTER will allow for 
the upgrade of the vessel to meet modern safety standards and to 
provide a more capable platform to support fisheries research, stock 
assessment and other missions such as submersible operations. The 
upgrade will include modifications to an engine-room bulkhead that will 
enable the ship to meet modern safety standards for one-compartment 
damage stability, allowing a compartment to be fully flooded and the 
ship to remain afloat with stability. This funding also would provide 
positioning and instrumentation upgrades. The GORDON GUNTER, homeported 
in Pascagoula, MS, is a former Navy T-AGOS vessel which has been 
converted and currently serves in the Gulf of Mexico, the Caribbean Sea 
and the Southeast Atlantic Ocean.
    Included in NOAA's fiscal year 2002 Presidents Budget request is 
$4.0 million for the ALBATROSS IV. This investment will allow for 
repairs and the extension of the ship's useful life until a new 
Fisheries Research Vessel (FRV) can be constructed for the Northeast 
Fisheries Science Center (NEFSC). In order to calibrate the new vessel 
with the ALBATROSS IV, the ALBATROSS IV must be upgraded and its 
service extended until a new vessel is completed. This calibration-
overlap protects the integrity of long-term surveys.
    Additional funding has also been requested for the FAIRWEATHER. 
This investment is identified under the Marine Transportation System 
crosscut.
    The total request of $5.0 million for Boulder Facilities Operations 
represents an increase of $1.0 million above the fiscal year 2001 
enacted level. This provides funds for rent charges levied by the GSA 
which owns and operates the facility. This is a ``must pay'' bill, 
without which the science programs would bear the burden.
            Support ($16.5 million)
    The President's Budget request for fiscal year 2002 includes $2.3 
million for the Cooperative Observer Network, which represents an 
increase of $1.9 million above the fiscal year 2001 enacted level. This 
continued investment supports a nationwide network of over 11,000 
volunteer operated weather observing sites used by NOAA to maintain the 
Nation's climate record and to provide data to local NWS field offices. 
These sites are staffed by citizens dedicated to maintaining climate 
records and assisting the NWS. In a recent report, the National 
Research Council recommended that NOAA take immediate steps to sustain 
and modernize this critical network. NWS plans to replace 900 rain 
gauges and 200 temperature sensors in fiscal year 2002. This is the 
first of an anticipated 3 year rescue effort which will result in the 
total replacement of 2,700 rain gauges and 5,000 temperature sensors.
    The total request of $14.2 million for Aircraft Services represents 
an increase of $2.4 million above the fiscal year 2001 enacted level. 
This continued investment will provide an additional 300 flight hours 
for data collection for a total of 1,970 flight hours. Of these 
additional flight hours, 150 flight hours are specifically for 
hurricane surveillance and for severe winter storms. Another 150 flight 
hours will support measurements of ocean winds during high windspeed 
conditions, which are critical to planning for future satellite 
sensors. These flying hours will enable NOAA to more efficiently use 
its heavy aircraft and to maintain pilot proficiency during data 
collection under severe weather conditions.
Maintain Satellite Continuity and Severe Weather Forecasts ($712.3 
        million)
    Critical to meeting our 21st Century mission is the continuity of 
NOAA's Satellites and Severe Weather Forecasts. In order to ensure our 
success, the fiscal year 2002 President's Budget Request includes a 
total of $712.3 million, of which $127.1 million is new funding. The 
programs that comprise this initiative are summarized in the preceding 
table and the program descriptions below.
            Satellite and Data Services ($693.8 million)
    NOAA's total request of $65.0 million for Environmental Observing 
Services represents an increase of $14.3 million above the fiscal year 
2001 enacted level. This continued investment supports the operations 
of all of the NESDIS satellite systems, the ingesting and processing of 
satellite data, and the development of new product applications 
required for continuity of operations. NESDIS provides satellite 
command and control services on a 24 hours per day, 365 days per year 
schedule. Funding is required to keep up with increases in labor costs, 
software licensing, communications, and ground system maintenance. 
Requirements have expanded due to greater demands on operations and 
control, greater amounts of data requirements for new products, 
requirements for more advanced software and the development of improved 
products, and increased demand to support users.
    The total request of $146.3 million for Polar Orbiting Satellites 
represents an increase of $9.6 million above the fiscal year 2001 
enacted level. This continued investment will allow for the 
continuation of spacecraft production (NOAA K-N'). It will also allow 
for completion of the instruments for the European Meteorological 
Operational (METOP) satellites which will replace NOAA's morning polar 
orbiting satellite during calendar year 2005. Funding is included for 
upgrading and replacing aging and deteriorating ground systems to allow 
for continuation of operations for the Polar K-N' series through the 
end of its lifetime in about 2012. These ground systems are needed in 
order to communicate with the satellites until the last of the series 
is decommissioned. In addition, funds provide for replacing and 
upgrading the aging product generation and distribution system.
    Funding in the amount of $156.6 million is included in NOAA's 
budget request for the National Polar Orbiting Environmental Satellite 
System (NPOESS) represents an increase of $83.4 million above the 
fiscal year 2001 enacted level. This continued investment will allow 
for the convergence of NOAA's Polar program, the Department of 
Defense's (DOD) Defense Meteorological Satellite Program and National 
Aeronautic and Space Agency's (NASA) research and development into a 
single satellite system that will save the United States Government 
millions of dollars over the life of the program. NPOESS is essential 
to meeting both NOAA's requirements in weather forecasting, 
oceanography, climate and search and rescue services as well as the 
DOD's National Security mission. NOAA has only three remaining current 
generation satellites on the ground to use until the first NPOESS 
satellite is delivered in late 2008. NPOESS needs to stay on schedule 
as provided for in this fiscal year 2002 Budget Request to help ensure 
that polar data continuity is maintained. NPOESS satellites are 
critical for weather forecasting, climate observations, U.S. military 
operations on a worldwide basis, and search and rescue operations.
    The total request of $293.3 million for the Geostationary Orbiting 
Environmental Satellite (GOES) Program represents an increase of $3.1 
million above the fiscal year 2001 enacted level. This continued 
investment will fund the spacecrafts and launch services, including the 
launch vehicle and launch control personnel. Funding is necessary to 
maintain continuity of geostationary operations.
    NOAA requests a total of $1.2 million for the Commercial Remote 
Sensing Licensing Program. This investment will ensure the timely 
review and processing of satellite license applications. Under the Land 
Remote Sensing Policy Act of 1992 (as amended in 1998), NOAA is charged 
with licensing and enforcing licenses of the U.S. private sector remote 
sensing industry. Funding will be used to establish a program to 
provide technical support for such reviews, support of an industry 
advisory mechanism, and computer infrastructure. Major monitoring and 
compliance activities will include review of quarterly licensee 
reports, on-site inspections, audits, license violation enforcement, 
and implementation of shutter control in national security and foreign 
policy crisis situations.
    The total request of $31.4 million for Data and Information 
Services--operational activities represents an increase of $6.5 million 
above the fiscal year 2001 enacted level. This continued investment is 
for core operational activities and will increase the Data Centers 
capacity to ingest, process, and archive data as well as continue the 
rescue of valuable environmental data. Requirements have expanded due 
to growing customer demands for data and products, and increased data 
management has become a necessity as the volume of new data continues 
to grow. Combined with other funding for fisheries oceanography, 
habitat characterization, the climate reference network, climate 
database modernization, and environmental data systems modernization, 
these funds support NESDIS' Data and Information sub-activity request.
            Severe Weather Forecasts ($18.5 million)
    The total request of $3.7 million for the U.S. Weather Research 
Program (USWRP) represents an increase of $2.2 million above the fiscal 
year 2001 enacted level. This continued investment in research will 
improve the accuracy of hurricane landfall predictions for location, 
intensity, and rainfall estimates. Decreased error and uncertainty in 
hurricane forecasts will save lives and will help reduce the length of 
coastline recommended for evacuation during these powerful storms. This 
will allow localities to avoid millions of dollars worth of unnecessary 
preparations, and, at the same time, encourage those in the warned 
areas to have greater confidence in the accuracy of the warnings. The 
USWRP is a partnership between NOAA, other Federal Agencies, and 
universities.
    NOAA's total request of $5.1 million for Automated Surface 
Observing Systems (ASOS) represents an increase of $1.3 million above 
the fiscal year 2001 enacted level. This continued investment will 
complete the acquisition of 346 new ASOS dewpoint sensors. The existing 
dewpoint sensors fail on average every ten days and have the highest 
failure rate in the ASOS suite of sensors, and consequently are in need 
of replacement. These funds will also complete the acquisition of 346 
new ASOS processor units which are needed because the current 
processors are over capacity. Lastly, these funds will allow NOAA to 
begin acquisition of the all-weather precipitation gauge necessary for 
climate record continuity and aviation safety. In fiscal year 2002, 
NOAA will acquire 115 all-weather precipitation gauges.
    The fiscal year 2002 total request of $5.9 million for the National 
Center for Environmental Prediction (NCEP)--Environmental Modeling 
Center represents an increase of $1.7 million above the fiscal year 
2001 enacted level. This continued investment will sustain operations 
at NCEP's Environmental Modeling Center (EMC). The EMC develops the 
computer models and other numerical forecast products which provide the 
basic guidance that forecasters use in making weather and climate 
forecasts. Today, the EMC is overly dependent on external sources of 
funding for its operations, degrading its ability to transfer proven 
weather forecasting science into NWS operations. The National Research 
Council in its report From Research to Operations in Weather Satellites 
and Numerical Weather Prediction: Crossing the Valley of Death, states 
``Almost all of the Nation's operational weather and climate guidance 
products come from EMC, which does not presently possess the necessary 
resources to transfer many of the U.S. advances in observations and 
modeling to operations.'' In fiscal year 2002, NWS plans to provide 
direct base support for its suite of operational forecast models, 
including the aviation, regional, and global models.
    NOAA requests a total of $3.8 million for Data Assimilation and the 
Joint Center for Satellite Data Assimilation. This request comprises 
$3.0 million for data assimilation and $0.8 million for the Joint 
Center for Satellite Data Assimilation. The investment for data 
assimilation will allow NOAA to improve data assimilation and modeling 
at the National Center for Environmental Prediction (NCEP). Data 
assimilation is the collection and processing of weather observations 
(satellite, aircraft, radar, data buoys, upper-air balloons) for use in 
operational numerical weather prediction models. These models are the 
foundation for all short and medium range and severe weather forecasts 
including aviation, marine, hurricane, rainfall, and severe weather. 
This critical funding request aims to improve forecasts through the use 
of enhanced satellite data and other data-sets in the NCEP prediction 
models, leveraging one of the Nation's largest capital investments in 
global and environmental observing systems. Investment in data 
assimilation ensures that the large investment in observing systems and 
computers has maximum benefit for the public.
    In addition to data assimilation, $0.8 million will be used to 
establish the Joint Center for Satellite Data Assimilation with NWS, 
NESDIS and NOAA Research in order to accelerate and improve the use of 
satellite data in forecast models. The core scientific staff and 
computing facilities of this ``virtual'' Center will consist of current 
NOAA resources. This request will allow for NOAA to accelerate the use 
of current and future satellite data in NWS weather and climate 
prediction operations. In addition to the NOAA contributions, NASA, 
with a similar level of support, will be a partner in a coordinated 
national effort to realize the full potential of the vast quantities of 
new satellite data that are becoming available. This center will make 
more effective use of NOAA remotely sensed data as well as integrate 
NASA, Department of Defense, and international satellite data into 
NOAA's operational models.
            Coastal Conservation Activities ($284.4 million)
    Over the past several years NOAA has proposed, through various 
initiatives and programs, funding to address some of the most serious 
challenges facing the U.S. coasts and oceans. Through those programs 
NOAA has made significant progress in addressing a number of critical 
environmental issues. The Coastal Conservation Activities Initiative 
will continue to build on the progress made to preserve the Nation's 
coasts and oceans.
    In the fiscal year 2002 President's Budget, NOAA requests $284.4 
million to continue environmental programs that are critical to 
ensuring the continued preservation of our Nation's coastal and ocean 
resources. The fiscal year 2002 Budget Request includes resources to 
enhance our ability to effectively manage the National Marine 
Sanctuaries, enhance habitat protection through the National Estuarine 
Research Reserve System and strengthen and improve Marine Protected 
Area (MPA) programs and their conservation goals. These funds will be 
leveraged through improved Federal, state, local, tribal, and 
territorial coordination and collaboration to fill shared information, 
technical and operational needs. Also included are additional resources 
to increase Coastal Zone Management grants to states to enable coastal 
states to address such issues of national importance as the impact of 
coastal storms, declining water quality, shortage of public shoreline 
access, loss of wetlands, deteriorating waterfronts, and the challenge 
of balancing economic and environmental demands in the coastal zone. 
With the funds requested in fiscal year 2002 NOAA will also continue to 
implement recommendations of the Coral Reef Task Force and enhance the 
recovery of threatened and endangered coastal salmon. The programs that 
comprise the Coastal Conservation Activities cross-cut are highlighted 
below.
            Coral Reef Activities ($27.7 million
    The total request of $27.7 million for Coral Reef Activities 
represents an increase of $0.7 million above the fiscal year 2001 
enacted level. This continued investment will allow for NOAA's support 
for coral reef activities across the Nation. Funding will enable NOAA 
to continue implementing priorities of the U.S. Coral Reef Task Force 
and recommendations included in the America's Ocean Future Report. 
Working with state, territorial, and local partners, this level of 
funding will support research, monitoring, and local level projects to 
reduce human impacts and increase sustainable use of America's valuable 
coral reefs.
            Coastal Zone Management Program ($75.4 million)
    The total request of $75.4 million for the Coastal Zone Management 
(CZM) Program represents an increase of $12.2 million above the fiscal 
year 2001 enacted level. This includes an increase of $8.6 million for 
CZM grants, a technical change in the transfer from the CZM Fund, and 
an increase of $0.4 million for Program Administration. In addition, 
$10.0 million is requested for Nonpoint Pollution Implementation 
Grants, a separate but integral program, which will be discussed later.
    The total request of $69.0 million for CZM Grants represents an 
increase of $8.6 million over the fiscal year 2001 enacted level. This 
continued investment will allow NOAA to provide direct grants to 
coastal states for implementing and improving their approved coastal 
management programs. Currently 33 of the 35 eligible coastal states 
have an approved coastal management program, with approval of the 34th 
state program, Indiana, expected in fiscal year 2002. Combined, these 
programs serve to manage and protect 99.9 percent of the Nation's 
shoreline to the benefit of the environment and the economy. The 
requested investment would provide resources for coastal states to more 
fully implement their coastal management plans. Specifically, NOAA 
provides grants to coastal states and territories to address issues of 
national importance such as the impact of coastal storms and flooding, 
declining water quality, shortage of public access to the shoreline, 
loss of wetlands, deteriorating waterfronts and harbors, and the 
challenge of balancing economic and environmental demands in 
increasingly competitive ports.
    In order to streamline CZM administrative processes, NOAA proposes 
to consolidate all funding for CZM Program Administration under ORF. 
Doing so requires replacement of the $3.2 million that had been 
transferred from the CZM Fund (a non-ORF account) in prior years. In 
fiscal year 2002, the CZM Fund is proposed as a general offset to CZM 
Act activities.
    The total request of $6.4 million for the CZM Program 
Administration represents an increase of $0.4 million above the fiscal 
year 2001 enacted level. This continued investment will support NOAA's 
national program administration responsibilities under the Coastal Zone 
Management Act (CZMA), which continues to grow. This request will 
assist NOAA's ability to bring together representatives from state, 
Federal, and tribal governments and the private sector, to address 
issues such as coastal hazards, habitat and polluted runoff. It will 
allow NOAA to address the increasing requests of the states (33 in the 
program, one state program in development) for support and technical 
assistance. This level of funding will also enable NOAA to maintain 
national support for the 25 National Estuarine Research Reserves.
            Nonpoint Pollution Implementation Grants ($10.0 million)
    NOAA requests a total of $10.0 million for Nonpoint Pollution 
Implementation Grants. This investment will provide states with 
resources to reduce nonpoint pollution, the greatest single threat to 
coastal water quality. Coastal waters are increasingly impacted by 
polluted runoff. Symptoms include the impacts of Pfiesteria in coastal 
waters of the eastern seaboard, nutrient over-enrichment in the Gulf of 
Mexico, the loss of salmon fisheries in the Pacific Northwest and local 
closures of shellfish beds and beaches throughout the country. NOAA 
will provide grants to states with approved plans to address the causes 
of these and other symptoms of the degradation of our coastal water 
quality.
            National Estuarine Research Reserves ($26.3 million)
    The total request of $26.3 million for the National Estuarine 
Research Reserves (NERRS) represents a decrease of $29.3 million below 
the fiscal year 2001 enacted level. This funding level supports an 
increase in operations of $1.7 million for a total of $16.4 million in 
the Operations, Research and Facilities (ORF) Account, and a decrease 
in one-time construction items of $24.5 million, for a total request of 
$9.9 million in the PAC Account. With regard to the increase for NERRS 
operations, these funds will improve the ability of NOAA and its state 
partners to understand, manage, and protect these special estuarine 
habitats and biodiversity. The NERRS is a network of protected areas 
established to improve the health of the Nation's estuaries and coastal 
habitats through long-term research, protection, and education and to 
address such issues as water quality, loss and degradation of habitat, 
and loss of species biodiversity. The increase will significantly 
enhance the monitoring and technical training programs at the 25 
designated reserves, and ultimately lead to healthier estuaries, 
coastal water quality, and fisheries.
    Of particular interest is the NERRS' System-Wide Monitoring Program 
(SWMP). The SWMP is a national monitoring system that will integrate 
water quality, and biological and land-cover change elements, making 
the information available to scientists and managers. The 25 existing 
reserves will expand their participation in SWMP by increasing spatial 
coverage of water quality stations, and by monitoring additional 
biological indicators. Reserve staff will also improve estuarine 
resource management by providing enhanced technical training for 
planners, policy-makers, and other state and local coastal decision-
makers on water quality, habitat, invasive species, and sustainable 
ecosystem issues.
    Funding of $9.9 million for infrastructure investments in the 
Procurement, Acquisition, and Construction (PAC) account includes 
resources to complement these activities by providing resources for 
research, education, and visitor facilities at multiple reserve sites 
across the Nation. The NERR system uses a competitive priority-setting 
process each year to fund the best projects from the long list of 
eligible proposals. At some sites, land acquisition from willing 
sellers may be a high priority to enhance the protection of key 
resources. At other sites, facilities and related structures, such as 
interpretive centers, laboratories, boardwalks, and boat docks may be 
the best use of funds to enhance the outreach, education, and research 
programs within the NERRS.
            National Marine Sanctuaries ($52.0 million)
    The total request of $52.0 million for the National Marine 
Sanctuaries represents an increase of $16.6 million above the fiscal 
year 2001 enacted level. This increase of $16.6 million is comprised of 
$3.6 million for operations (for a total ORF request of $36.0 million), 
and an increase of $13.0 million for new construction (for a total PAC 
request of $16.0 million). With regard to National Marine Sanctuaries 
operations, this continued investment will provide funding to upgrade 
the operating and technical capacity in the thirteen national marine 
sanctuaries. The results will improve protection of important sanctuary 
resources, including coral reefs, endangered marine mammals, sensitive 
habitats, and significant cultural resources. In addition to supporting 
the operations, this investment will provide for additional site 
characterization, additional enforcement capabilities, public 
education, and the implementation of key management changes. Changes 
are expected in a wide range of activities, including drafting and 
amending regulations, establishing new partnerships, expansion of 
outreach and education efforts, and additional research, monitoring and 
restoration.
    The Congress has called for sufficient resources for operational 
staff, facilities and equipment, effective implementation of management 
plans, enforcement, and particularly for site characterization 
including cultural resources and inventory of existing natural 
resources. Elements that must be compiled for cultural and natural 
resource inventories include location of shipwrecks, data on marine 
mammals, fish, shellfish and sea birds, habitat types, and physical 
characteristics, such as bottom typography, water quality, and water 
temperature. The goal is to gather enough characterization information 
at each site to be able to effectively manage the resources. New 
funding will support these efforts and the Sustainable Seas 
Expeditions. This fiscal year 2002 Budget responds to Congressional 
direction and the recently passed National Marine Sanctuary Amendments 
Act.
    With regard to the increase of $13.0 million for Marine Sanctuaries 
construction in the PAC Account, NOAA will continue to implement the 
detailed, comprehensive facilities plan developed in fiscal year 2000 
in order to respond to the growing public interest in the ocean 
environment and the Marine Sanctuary System. NOAA will work in 
partnership with other Federal agencies and private institutions such 
as museums, aquaria, and foundations. NOAA will establish or upgrade 
facilities to ensure access to sanctuary resources and allow public 
appreciation of the unique marine habitats in those sanctuaries. These 
facilities provide important outreach and education functions for these 
special places, since many visitors are unable to visit the actual 
sanctuary sites which, in several cases, are many miles offshore or 
require individuals to be certified scuba divers in order to view 
firsthand these national treasures.
    Within these funds, an estimated $6.5 million is targeted for the 
Dr. Nancy Foster Florida Keys Environmental Center to complete 
renovation and construction at this former Navy installation and 
properly support the multi-agency partnership and the Center's mandates 
to promote environmental education, protection, marine safety and 
rescue, and coastal stewardship. This center, which was dedicated last 
year, stands as a tribute to the late Dr. Nancy Foster, NOAA's 
Assistant Administrator for the National Ocean Service. One of the two 
buildings will host a state-of-the-art multi-agency (NOAA, National 
Park Service, Fish & Wildlife Service) visitor center. The other 
building will become the operations center for the Florida Keys 
National Marine Sanctuary and host office space; laboratory space; a 
diving locker; a maintenance area for mooring buoys, boats and 
vehicles; and dock space. The new facility will also provide 
consolidation of office space and boat docks that are currently 
scattered across multiple leased facilities in the Key West area.
            Marine Protected Areas ($3.0 million)
    NOAA requests a total of $3.0 million for Marine Protected Areas. 
This investment will strengthen and improve agency-wide Marine 
Protected Area (MPA) programs and their conservation goals. This effort 
supports NOAA's responsibilities for fulfilling the National Marine 
Sanctuaries Program, National Estuarine Research Reserve Program, 
Coastal Zone Management Program, and coral reefs. This funding will 
foster collaboration with the Department of the Interior and other 
Federal agencies, state, local, tribal and territorial governments as 
well as non-governmental partners. Efforts will focus on developing a 
supporting framework for effective communication and collaboration 
among MPA programs by creating a national system of marine protected 
areas including NMS, NERRS, and other Federal, state, and tribal marine 
protected areas. These funds will also support preparation of the first 
comprehensive inventory and assessment of the existing system of U.S. 
MPAs. The NOAA MPA Program will consist of a Marine Protected Areas 
Center, comprised of a small core staff in Washington, DC and two 
regional Institutes of Excellence.
            Pacific Coastal Salmon Recovery Fund ($90.0 million)
    The total request of $90.0 million for the Pacific Coastal Salmon 
Recovery Fund represents an increase of $0.2 million above the fiscal 
year 2001 enacted level. This continued investment will allow the 
states and tribes to continue support for habitat restoration and 
protection, research and enhancement, monitoring and evaluation, and 
salmon recovery planning and implementation efforts. Funding will be 
used to enhance Pacific coastal salmon recovery and for the purpose of 
helping share the costs of state, tribal and local conservation 
initiatives. Programs funded within this account will assist in the 
conservation of Pacific salmon runs, some of which are at risk of 
extinction in the states of California, Oregon, Washington, and Alaska. 
Funds provided to these states will have at least a 25 percent matching 
requirement. This request responds to current and proposed listings of 
coastal salmon and steelhead runs under the Endangered Species Act by 
forming lasting partnerships with states, local and tribal governments 
and the public for saving Pacific salmon and their important habitats.
            Climate Services ($34.7 million)
    From the storms of next week to the drought of next season to the 
potential human-induced climate change over the coming century, issues 
of climate variability and change will be continue to be a major issue 
for the Nation. Whether responding to the ongoing drought in the 
Pacific Northwest and its effect on power generation and endangered 
salmon, or in determining how much atmospheric carbon dioxide is taken 
up by the North American biosphere, these questions influence users 
from the Western water manager to the shapers of national policy. The 
challenge is to extend the research successes, maintain the 
observational backbone, and improve the capability to provide useful 
information services to our customers. Improved climate predictions 
will enable resource managers in climate sensitive sectors such as 
agriculture, water management, and energy supply to alter strategies 
and reduce economic vulnerability. Building on the understanding of the 
Earth's climate system that has resulted from the Nation's strong 
scientific research and numerical modeling programs, this Climate 
Observations and Services Program will begin the transition of research 
data, observing systems and understanding from experiments to 
applications, and from basic science to practical products.
    NOAA maintains a balanced program of focused research, large-scale 
observational programs, modeling on seasonal-centennial time scales, 
and data management. In addition to its responsibilities in weather 
prediction, NOAA has pioneered in the research and operational 
prediction of climate variability associated with the El Nino Southern 
Oscillation (ENSO). With agency and international partners, NOAA has 
been a leader in the assessments of climate change, stratospheric ozone 
depletion, and the global carbon cycle. NOAA scientists have been 
leaders internationally in the Intergovernmental Panel on Climate 
Change (IPCC). It maintains national coordination through participation 
in the U.S. Global Change Research Program.
    The agency-wide Climate Observations and Services activity 
represents a partnership that allows NOAA to facilitate the transition 
of research observing and data systems and knowledge into operational 
systems and products. During recent years, there has been a growing 
demand from emergency managers, the private sector, the research 
community, decision-makers in the United States and international 
governmental agencies and the general public to provide timely data and 
information about climate variability, climate change and trends in 
extreme weather events. The economic and social need for continuous, 
reliable climate data and longer-range climate forecasts has been 
clearly demonstrated. NOAA's Climate Observations and Services 
Initiative responds to these needs. The following efforts will be 
supported by this initiative:
            Continuing Climate Services ($11.0 million)
    The total funding request for NOAA's Continuing Climate Services is 
$11.0 million. These continued investments will allow NOAA to build on 
the climate activities started in fiscal year 2001.
    NOAA's fiscal year 2002 budget request includes $3.0 million for 
the Climate Reference Network. In order to ensure NOAA's capability to 
monitor very long-term changes of temperature and precipitation, a 
climate reference network consisting of several hundred stations must 
be developed by making use of the historical data from the best sites 
in the network of 11,000 cooperative observing sites. This climate 
reference network will build on data from stations identified as those 
with the longest environmentally stable records, most dedicated 
observers, and most reliable data with few interruptions.
    Also included in NOAA's request of $1.0 million for improving the 
Availability of Climate Data and Information: $1.0 million. As the 
observational capabilities increase and the observing networks expand, 
it is essential that data management and dissemination systems are in 
place to make the resulting data and information widely and easily 
accessible to public and private sector decision makers. During recent 
years, NOAA has struggled to respond adequately to questions from 
industry, the general public, and the Government regarding potential 
changes in weather and climate events. NOAA is developing the required 
infrastructure to assemble, develop, and communicate the data, 
information, and knowledge about the trends, likelihoods, and future 
expectations of climate and weather events.
    The request for funding for Baseline Observatories is $2.0 million. 
Funding for this activity is for operations at NOAA's remote manned 
Global Atmospheric Baseline Observatories, measuring up to 250 
different atmospheric parameters relevant to the study of climate 
change at: Barrow, AK; Mauna Loa, HI (since 1957); American Samoa; and 
the South Pole, Antarctica (also since 1957). These observations are 
critical to the collection and continuity of the world's longest 
atmospheric time series, supplying the scientific community with 
information on the state and recovery of the ozone layer, global carbon 
dioxide, and other trace gases impacting the global climate.
    NOAA's request for Ocean Observations in fiscal year 2002 is $5.0 
million. NOAA maintains the sustained global observing and data 
stewardship system necessary for climate research and forecasting as 
well as the long-term monitoring system necessary for climate change 
detection and attribution. The observation network is based on a set of 
``core'' observations (e.g., temperature, surface wind stress, 
salinity, sea level, carbon dioxide), consisting of both in-situ and 
remotely sensed measurements, that have been identified in NOAA and 
other national and international reports as needed to satisfy research 
and operational climate requirements.
            Regional Assessments, Education and Outreach ($1.9 million)
    NOAA requests a total of $1.9 million for Regional Assessments, 
Education and Outreach. This investment will allow for regional 
assessments, education and outreach related to climate variability. The 
impacts of climate variability from season-to-season or year-to-year 
manifest themselves on regional and local levels. The goal is 
utilization of climate variability information by regional and local 
managers and decision-makers to maximize economic gain and mitigate 
potential harmful impacts.
            Weather-Climate Connection ($0.9 million)
    NOAA requests a total of $0.9 million for Weather-Climate 
Connection. This investment will assist in understanding predictions 
variability beyond the El Nino Southern Oscillation (ENSO) and 
predicting the weather-climate connection. As during El Nino, other 
sub-seasonal tropical fluctuations can also lead to shifts in the 
Pacific storm track, affecting the paths of storms approaching the U.S. 
west coast, and influencing weather across the entire country. Sub-
seasonal tropical-mid-latitude interactions thereby provide a 
potentially important additional source of predictability beyond ENSO. 
NOAA will expand its diagnostic and modeling efforts to understand the 
relationship between sub-seasonal tropical variability and changes in 
the frequency, location and intensity of extreme weather events over 
the United States, and document the structure of variations in tropical 
rainfall on weekly to monthly time-scales, as well as air-sea 
interactions in both tropical systems and in mid-latitude oceanic and 
land-falling storms.
            Carbon Cycle ($2.3 million)
    NOAA requests a total of $2.3 million for the Carbon Cycle. This 
investment, as part of a multi-agency effort, will allow NOAA to 
establish a network of more densely spaced airborne and tall-tower 
based sampling sites over North America. The U.S. scientific community 
recently completed a plan for an integrated carbon cycle science 
program which aims to quantify, understand and project the evolution of 
global carbon sources and sinks in order to better predict future 
climate.
            Ocean System for Improved Climate Services ($7.3 million)
    NOAA requests a total of $7.3 million for the Ocean System for 
Improved Climate Services. This investment will contribute to the 
global operational ocean-observing system by enhancing its present 
components and establishing new components. Of the $7.3 million 
requested, $3.2 million is required to support the U.S. commitment to 
deploy and maintain 1,000 ARGO profiling floats in the proposed global 
array of 3,000 floats. This commitment requires a deployment of 280 
ARGO floats per year. The remainder of this request, $4.1 million, 
supports other observational components including Arctic Ocean fluxes, 
ocean reference stations, oceanic carbon, and augmentation of the 
volunteer observing ship (VOS) instrumentation. Finally, investments 
are to be made for data management and assimilation. Based on a firm 
scientific foundation, this ocean observing system is closely coupled 
with other United States and international observing efforts, and will 
greatly improve the data available for understanding climate variation.
            Climate Change Assessments ($0.7 million)
    NOAA requests a total of $0.7 million for Climate Change 
Assessments. This investment will continue contributions to 
environmental assessments that have become the primary tool to deliver 
climate information to governments, industry, the scientific community 
and the general public. Over the past two years NOAA has led and 
contributed to Ozone assessments under the Montreal Protocol, the 
Intergovernmental Panel on Climate Change (IPCC), and U.S. National 
Assessments. This investment will support NOAA's leadership in 
assessing climate change and its global impact on the United States and 
other communities.
            High Performance Computing and Communications Program/
                    Geophysical Fluid Dynamics Laboratory: $7.0 million
    The total request of $7.0 million (in the PAC Account) for the High 
Performance Computing and Communications (HPCC) Program and Geophysical 
Fluid Dynamics Laboratory represents an increase of $3.0 million above 
the fiscal year 2001 enacted level. This continued investment will 
provide full-year support for the High performance supercomputer system 
at NOAA's Geophysical Fluid Dynamics Laboratory (GFDL). The system will 
be used full-time to attack some of the most difficult but critical 
obstacles to developing and testing new and more realistic models for 
predicting climatic variability, detecting climate change, and 
forecasting hurricanes. Expansion of GFDL's supercomputer is needed to 
answer questions regarding long-term global warming and to evaluate 
various scenarios reflecting different levels of anthropogenic 
influences on the atmosphere.
            Comprehensive Large-Array data Stewardship System ($3.6 
                    million)
    The total request of $3.6 million for the Comprehensive Large-Array 
data Stewardship System (CLASS) represents an increase of $1.6 million 
in the Procurement, Acquisition and Construction (PAC) Account. This 
continued investment will afford efficient management of high volumes 
of data, including radar and satellite data, as well as data from 
radiosondes and ocean data buoys. This data is critical to the joint 
U.S. Global Change Research Program (USGCRP) and the scientific 
community. Significant increases in the volume of data require a rapid 
expansion in storage capacity, currently located in Asheville, NC. 
Similarly, telecommunications and automated access systems upgrades are 
needed to ensure easy and efficient access to the data.
            Modernization of NOAA Fisheries ($143.8 million)
    The fiscal year 2002 President's Budget Request for the National 
Marine Fisheries Service (NMFS), referred to as ``NOAA Fisheries,'' 
follows Congressionally enacted levels in fiscal year 2001 and invests 
in core programs needed for NOAA to meet its mission to manage 
fisheries, rebuild stocks, and protect endangered species such as sea 
turtles and whales. NOAA Fisheries modernization funds will be 
allocated within NMFS to ensure that existing statutory and regulatory 
requirements are met for fisheries and protected species management 
programs (including the Magnuson-Stevens Act, National Environmental 
Protection Act, Endangered Species Act, Marine Mammal Protection Act, 
and other statutory requirements). In fiscal year 2002, there are 
sufficient funds for NMFS to meet its statutory and regulatory 
requirements.
    This budget request builds upon last year's effort to begin the 
modernization of NOAA Fisheries. The Modernization of NOAA Fisheries 
Initiative encompasses a long-term commitment to improve the NMFS' 
structure, processes, and business approaches to meet its mission of 
sustaining the Nation's living marine resources and their habitat. This 
initiative focuses on improving NMFS' science, management, and 
enforcement programs and beginning to rebuild its aging infrastructure. 
These improvements will result in measurable progress in the biological 
and economic sustainability of fisheries and protected resources. In 
order to ensure the viability of these modernization efforts, the 
fiscal year 2002 President's Budget Request includes the following 
program investments:
            Science ($54.6 million)
    A total of $1.9 million is requested for research and monitoring 
activities for the South Florida ecosystem, an increase of $0.6 million 
over the fiscal year 2001 enacted level. As a result of the U.S. Army 
Corps of Engineers construction projects within the Florida Everglades, 
NMFS must monitor the impact of inland restoration efforts and the 
changing freshwater inflow on Florida Bay habitats, nutrient flow, 
hydrodynamics, and ultimately on measurable ecosystem productivity and 
health.
    The total request of $15.0 million for Expanding Annual Stock 
Assessments represents an increase of $13.3 million above the fiscal 
year 2001 enacted level. This continued investment will provide for 
additional scientific survey data collection to improve NMFS' ability 
to make accurate, timely stock predictions. Funding at this level would 
add 829 chartered ship days toward the deficit of 2,564 days identified 
in the NMFS Stock Assessments Improvement Plan as needed for adequate 
stock assessment coverage. Included in this increase is $1.0 million to 
enhance the assessment of marine mammal population status and trends as 
required by the Marine Mammal Protection Act.
    A total request of $2.0 million for fisheries oceanography 
represents a $2.0 million increase above the fiscal year 2001 level. 
This request is comprised of two increases, $1.5 million for NMFS and 
$0.5 million for fisheries oceanography within the National 
Environmental Satellite, Data and Information Service (NESDIS). The 
$1.5 million increase will enable NMFS to assess how long-term 
environmental factors affect fish stocks. By better identifying the 
potential environmental causes of fish population fluctuations, NMFS 
will be able to improve its stock predictions and resultant management 
actions. The $0.5 million increase will enable NESDIS to explore using 
Synthetic Aperture Radar technology and data in fishery resources 
monitoring. This investment would build on applications demonstrated in 
October 1999 using RADARSAT-1 imagery in Alaska, and would result in 
radar data and products useful in fisheries enforcement, NMFS 
laboratories and for other agencies such as the Coast Guard.
    NOAA requests a total of $1.0 million to promote environmentally 
sound marine aquaculture. NOAA will improve the aquaculture regulatory 
framework by developing and implementing of a code of conduct for 
responsible aquaculture. NOAA will also address the important 
environmental aspects of aquaculture in the non-indigenous species 
area, especially for shrimp viruses.
    NOAA requests a total of $1.0 million for Pacific highly migratory 
species research. This request would fund growing and critical research 
needs as a new Fishery Management Plan for these species is 
implemented. Activities include: conducting stock assessments and 
biological studies for four major tuna species and three species of 
sharks, conducting research to evaluate the extent of bycatch and 
effectiveness of mitigation measures in purse seine fishing using fish 
aggregating devices, and developing and implementing assessment 
methodologies tailored for highly migratory species.
    A total request of $6.0 million for Cooperative Research represents 
an increase of $0.5 million over the fiscal year 2001 enacted level. 
This request will expand cooperative research activities in the 
Southeast and will involve fishermen in designing and conducting 
research programs, utilizing their expertise and insights in resource 
survey design and interpretation. By working together to design and 
implement data collection programs, these partnerships between NMFS and 
the industry significantly strengthen fisheries research. This 
Southeast cooperative research effort compliments similar efforts, 
including Northeast Cooperative Research funded at $5.0 million, 
cooperative research coordinated by the Northeast Consortium funded at 
$5.0 million and, and National Cooperative Research efforts, funded at 
$3.0 million.
    A total request of $4.4 million for expanding economic and 
statistics research represents a $1.4 million increase over the fiscal 
year 2001 level. This request is needed to conduct economic and social 
assessments of management alternatives by improving NMFS' economic and 
social science staff capability, and initiation of data and applied 
research programs. This funding will enable NMFS to better evaluate and 
predict the economic and community impacts of potential management 
actions, and satisfy statutory, regulatory and Executive Order 
requirements for assessing the benefits and costs of fisheries 
management and protected species management actions.
    NOAA requests a total of $8.0 million for the National Fisheries 
Information System. This investment will begin the implementation of a 
National Fisheries Information System to improve the quality, 
timeliness, coverage and access to data collected by state and Federal 
entities for use in the science and management of fisheries. This 
system will be developed in cooperation with the fishing industry, 
states, interstate fisheries commissions, and other stakeholders as 
outlined under section 401 of the Magnuson-Stevens Act. The funding 
provided to the Atlantic States Marine Fisheries Commission for 
regional implementation activities in fiscal year 2001 is included in 
addition to this funding. The proposed system would improve the 
accuracy and effectiveness of existing data collection programs by 
establishing common data collection, information technology, and 
quality standards for regional programs, and integrating the results 
into unified Web-enabled information system. The proposal will also 
fill critical information gaps through initiation of new data 
collection programs that will subsequently improve living marine 
resource policy decisions by reducing data uncertainties.
    NOAA requests a total of $1.0 million to reduce fishery impacts on 
essential fish habitat. This request funds research that will focus on 
the effects of specific fishing activities on essential fish habitat, 
comparing those impacts with other sources of habitat degradation, 
monitoring habitat recovery in areas where fishing has been curtailed, 
and developing management strategies to ensure sustainable harvesting 
practices.
    NOAA requests $4.0 million for additional Fishery Observers--
Improving Data Collection. This investment will provide for increased 
observer coverage to minimum levels around the country as required by 
regulation or to optimal levels as recommended by fisheries scientists 
for statistical validity, and initiates coverage in fisheries that were 
previously not observed. Observers are increasingly essential to 
managing fisheries and marine mammal stocks. To improve the quality of 
data collected by observers and to provide a more sound base for 
fishery management decisions, the plan includes resources to provide 
better coordination and consistency of NMFS observer program policies 
and procedures. It also provides for the development of technological 
enhancements to make the future observer program less costly and more 
efficient.
    A total request of $10.0 million for Fisheries Habitat Restoration 
represents an increase of $2.0 million over the fiscal year 2001 level. 
These funds will expand NMFS involvement in community-based restoration 
projects. This highly successful national effort encourages 
partnerships with groups outside NOAA and has regularly leveraged 
appropriated funds by factors of five to six, and by as much as ten to 
one. Presently, NOAA receives many more high-quality habitat 
restoration proposals than it has funds to support. The requested funds 
would enhance national restoration efforts to meet this enthusiastic 
demand.
    NOAA requests a total of $0.3 million for Habitat Characterization. 
This investment will allow NESDIS to develop maps of fishery habitat 
distributions in space and time, and to answer important questions with 
such maps. A computer mapping capability will be created that will 
allow spatial/statistical delineations (stratification) of the 
landscape. Such maps can represent inferred ecosystem ``potentials'' 
that are critical in monitoring, assessment, and management. The system 
will allow rapid iteration of the mapping process, thus affording 
opportunities to test, modify, and document model criteria, statistical 
mapping technique, and data selection. In this manner, habitat maps can 
be adaptively maintained.
            Management ($41.9 million)
    NOAA requests a total of $1.5 million to refine essential fish 
habitat designations. This request funds programs to collect critical 
scientific data needed to identify essential fish habitat more 
precisely for managed species, enhancing the effectiveness of fishery 
management actions, and filling data gaps that can result in 
litigation.
    NOAA requests a total of $3.5 million for the Northeast Fisheries 
Management program. This investment will enable NMFS to continue 
rebuilding overfished and overcapitalized Northeast fisheries including 
groundfish and scallops by reducing the amount of fish takes by 
fishermen, thus giving the fish stocks time to recover. Funding will 
also be used, in part, to implement new and innovative cooperative 
research efforts in the Region.
    The total request of $15.6 million for Regional Councils represents 
an increase of $2.5 million above the fiscal year 2001 enacted level. 
This continued investment will support all eight Regional Councils' 
increased workload from new programs and regulations as a result of 
implementing the Sustainable Fisheries Act amendments to the Magnuson-
Stevens Act. The Regional Councils are integral partners with NOAA in 
the management of the Nation's fisheries. NOAA is the Regional 
Fisheries Councils' only source of funding to carry out their mission.
    The total request of $6.3 million for marine sea turtle activities 
represents an increase of $3.0 million over the fiscal year 2001 
enacted level. This investment will allow NOAA to recover Atlantic and 
Pacific marine sea turtle stocks threatened by domestic and 
international fisheries interactions as well as inadequate conservation 
of marine turtles on nesting beaches.
    The total request of $4.5 million for dolphin conservation and 
recovery represents an increase of $1.0 million over the fiscal year 
2001 enacted level. This investment will allow NOAA to expand current 
activities in dolphin stock identification and assessment, to reduce 
mortality incidental to commercial fishing activities, and to initiate 
efforts to use bottlenose dolphins as an indicator of the health of the 
ecosystems they occupy.
    The total request of $3.5 million for Atlantic salmon represents 
and increase of $1.5 million over the fiscal year 2001 enacted level. 
This investment will allow NOAA to conserve and restore healthy 
populations of Atlantic salmon in the Gulf of Maine Distinct Population 
Segment (DPS) and their habitats. NOAA will use this investment to 
expand the monitoring of Atlantic salmon population dynamics, expand 
habitat assessment and conservation, enhance scientific knowledge 
related to human resource usage and development activities that are 
affecting species survival, and strengthen evaluations to minimize risk 
through coordinated planning, innovative partnering, and on-site 
involvement in restoration, conservation, and protection activities.
    The total request of $7.0 million for Northern Right Whales 
represents an increase of $2.0 million over the fiscal year 2001 
enacted level. This investment will allow NOAA to expand current 
Northern Right Whale population and health assessments and recovery 
efforts in the North Atlantic and in the North Pacific.
            Enforcement ($47.3 million)
    The total request of $47.3 million for Enforcement Activities 
represents an increase of $10.0 million above the fiscal year 2001 
enacted level. This continued investment will allow NOAA to modernize 
its fisheries and protected species enforcement programs. Improved 
enforcement is essential to ensuring that fisheries regulations are 
effective and yield conservation benefits for the industry and the 
public. Of the total funding amount, $7.4 million (of which $6.1 
million is new funding) is included for additional support, continued 
modernization and expansion of the vessel management system (VMS) 
program. The VMS national program is capable of accommodating nearly 
10,000 vessels throughout a number of different fisheries. The request 
also includes $39.9 million (of which $3.9 million is new funding) to 
expand and modernize base enforcement programs. These programs include 
Alaska and west coast groundfish enforcement, protected species 
enforcement, state and local partnerships, specialized Magnuson-Stevens 
Act investigatory functions, community oriented policing and problem-
solving, and swordfish/Patagonian toothfish import investigations.
Modernization of the Marine Transportation System (MTS) $20.1 million
    Since our Nation's founding, maritime trade has been vital to 
economic prosperity. NOAA's lineage dates back to 1807 when President 
Thomas Jefferson called for charting the coasts and harbors. Today, 
more than 95 percent of U.S. foreign trade moves by sea. In 1998, about 
2.4 billion tons of cargo moved on our waterways and through our ports. 
U.S./foreign waterborne commerce grew about 23 percent from 1993 to 
1997--about 4.6 percent per year. Trade is projected to at least double 
by 2020. Vessels have also grown dramatically; over the last 50 years, 
the length, width, and draft of commercial vessels has doubled, pushing 
the limits of many ports and posing significant safety concerns. 
Ensuring safe and efficient port operations is vital to maintaining the 
competitiveness of the U.S. port industry and exports. Growth in ferry, 
cruise line, and recreational boating is contributing to increased 
congestion on our waterways. Nearly half of all goods in marine 
commerce are petroleum products or other hazardous materials. One key 
to reducing risk is to invest in the national information 
infrastructure that supports the safe and efficient movement of goods 
and people.
    In 1998, Congress directed Federal agencies to produce an 
assessment of the U.S. Marine Transportation System (MTS) and a plan 
for modernizing government navigation services. This fiscal year 2002 
request is NOAA's effort to direct a set of targeted investments to 
expand and capitalize on its existing programs in Mapping and Charting, 
Survey Backlog, Geodesy, Tide and Current Data, Response and 
Restoration, and Fleet Replacement to further the goals of this ongoing 
effort. This is a first step toward developing a 21st century 
transportation system that can address the major issues faced by the 
country in maritime safety, security, infrastructure, the environment, 
and competitiveness.
    NOAA maintains the Nation's suite of nautical charts, the coastal 
water level observations system, and the geodetic positioning reference 
system needed to ensure safe navigation. NOAA also maintains the 
scientific expertise to respond to hazardous releases when they occur. 
NOAA charts are developed from NOAA's hydrographic and shoreline 
surveys, tide and current measurements, and national geodetic/
geographic positioning data, as well as information from other sources. 
Demonstration projects have shown that these programs can provide the 
accurate data necessary for determining precise under-keel and 
overhead/bridge clearances and support near zero visibility docking, 
allowing commercial vessels to more safely navigate and efficiently 
load and move cargo in and out of depth-limited harbors. NOAA's 
integrated suite of surveying, charting, water level, and positioning 
services is capable of increasing the efficient movement of goods while 
significantly reducing the risk of marine accidents and resulting 
environmental damage. When accidents do occur, NOAA can provide the 
necessary support to ensure a scientifically-based response and 
restoration of damaged coastal resources. Economic benefits include 
reducing vessel fuel consumption and port pollution, supporting just-
in-time delivery of goods, enhancing the competitiveness of U.S. 
exports, and restoration of important coastal resources that support 
tourism, fishing, and other ocean- and coastal-dependent industries. 
Specific program increases are described in detail below.
    NOAA requests an increase of $3.6 million for Electronic 
Navigational Charts (ENCs). This continued investment will allow for 
the ongoing production and maintenance of ENCs and the ability to 
enhance and expand the full suite of ENCs to a total of 200 from the 70 
in existence at the end of fiscal year 2000. ENCs provide a more 
complete picture of coastal waterways.
    NOAA requests an increase of $1.0 million for Shoreline Mapping. 
This investment will allow for a more accurate national shoreline. An 
increased emphasis on shoreline mapping is required to keep pace with 
the growing stress on our Nation's marine transportation system and to 
assist states and coastal managers.
    NOAA requests an increase of $0.5 million for the National Spatial 
Reference System (NSRS). This investment will increase the Nation's 
access to the Continuously Operating Reference Stations (CORS), a set 
of Global Positioning System (GPS) stations, and the mainstay of the 
NSRS. This investment will expand the number of National CORS, expand 
the Federal Base and Cooperative Base Network stations connected to the 
national standard for vertical heights, which are used for all 
applications that require surveying. These activities will provide 
better access to accurate and consistent height data for a wide-range 
of economic pursuits.
    NOAA requests a total of $0.5 million to Implement Forecast Models. 
This investment will enhance tides and tidal current services to the 
user by obtaining new current meter measurements at locations critical 
to the navigation community and by accelerating the development of 
nowcast/forecast products for users of oceanographic data.
    NOAA requests a total of $3.0 million for Coastal Storms. This 
investment will build upon existing NOAA environmental monitoring and 
data management capabilities and will enhance our efforts to provide 
Marine Transportation System users, as well as coastal resource 
managers, with the data and tools needed to safely maximize commercial 
shipping, mitigate hazards, and sustain the environmental health of 
coastal communities and resources when disasters strike. Initial 
efforts will focus on a pilot project in Florida and include updating 
shallow water bathymetry, adding sensors to National Water Level 
Observation Network stations, and developing a hydrodynamic model for 
improved forecasting applications.
    NOAA requests an increase of $2.0 million for Spill Response and 
Habitat Restoration. This investment will develop and distribute tools 
and guidance to assist decision makers when releases of contaminants 
occur within the Marine Transportation System and other coastal 
environments. These funds will enable NOAA to more accurately evaluate 
the effectiveness of spill response measures, leading to improved 
response techniques as well as better methods of restoring injured 
resources.
    The total request of $9.5 million for the FAIRWEATHER repair and 
activation represents an increase of $2.7 million above the fiscal year 
2001 enacted level. This continued investment will complete the 
refurbishment and reactivation of the FAIRWEATHER and help reduce the 
survey backlog, a high marine transportation priority. This project was 
directed by Congress in 2001 and makes efficient use of this vessel 
which has been located at NOAA's Pacific Marine Center. With its home 
port in Alaska, the FAIRWEATHER will provide a platform that will help 
reduce the critical hydrographic survey backlog.
            Other Key NOAA Programs
    The total request of $14.0 million for Ocean Exploration represents 
an increase of $10.0 million above the fiscal year 2001 enacted level. 
Despite covering 70 percent of Earth's surface, the oceans remain 
largely unexplored and unknown. Not surprisingly, most of the oceans' 
resources remain untapped. Our best scientists believe that fewer than 
25 percent of the species that live in the oceans have ever been 
identified. Even within America's own Exclusive Economic Zone (EEZ), 
less than five percent of the ocean floor has been mapped in high 
resolution. In fact, prior to fiscal year 2001, the United States did 
not even have a concentrated program of ocean exploration. As a result, 
NOAA has pursued a course of ocean resource management without adequate 
decision-making data and information being available to policy makers, 
regulators, and commercial users of the ocean's resources.
    However, today we live in an age of technological innovation. There 
are many opportunities that simply were not available in earlier 
decades. We now can completely rethink how we might conduct exploration 
in Earth's oceans. Developments in sensors, telemetry, power sources, 
microcomputers, and materials science have greatly improved our ability 
to go into and study the undersea frontier.
    The benefits of such a program of exploration are potentially 
enormous. For example, gas hydrates comprise more than 50 percent of 
all of our planet's carbon--and potentially hold more than 1,000 times 
the fuel in all other estimated reserves combined! In addition, there 
are certain to be other benefits which currently are beyond our ability 
even to conceive. With 95 percent of the underwater world still unknown 
and unseen, what remains to be explored may hold clues to the origins 
of life on earth, cures for human diseases, answers to how to achieve 
sustainable use of our oceans, links to our maritime history, and 
information to protect the endangered species of the sea.
    We are stewards of our oceans' resources. We need to explore and 
know more about our oceans if we are to effectively manage them. We 
need to explore the oceans in the same way that the United States has 
successfully explored space. We need to determine what our marine 
resources are, their relative abundance, and the rates at which they 
can be used and replenished. Accurate knowledge of the oceans is 
essential for environmental, economic, and national security.
    The fiscal year 2002 budget increase will enable NOAA to fund six 
major and several minor interdisciplinary voyages of discovery that 
will map the physical, geological, biological, chemical, and 
archaeological aspects of parts of the U.S. EEZ. NOAA will conduct 
missions of exploration in the Gulf of Mexico, South Atlantic Bight, 
Northwest Hawaiian Islands, Northeast Pacific, California, and the Gulf 
of Alaska. Education and outreach is a major component of NOAA's Ocean 
Exploration Initiative. NOAA will carry-out this program relying on 
partnerships with universities, the private sector, and other agencies. 
NOAA's Ocean Exploration Initiative will help us to fulfill our 
national strategic goals to Sustain Healthy Coasts, Recover Protected 
Species, and Build Sustainable Fisheries.
            Marine Environmental Research ($11.6 million)
    The total request of $11.6 million for Marine Environmental 
Research represents an increase of $1.8 million above the fiscal year 
2001 enacted level. This continued investment will support ongoing 
operations at OAR's Atlantic Oceanographic Meteorological Laboratory 
(AOML) and the Pacific Marine Environmental Laboratory (PMEL). The 
requested funds will enable AOML's Remote Sensing Division to 
reactivate its field measurements that provide data for major community 
health-related decisions in contaminant-release emergencies in Florida 
and elsewhere. Coral reef monitoring activities are also supported. 
These funds will also enable PMEL's Fisheries Oceanography program to 
continue ocean measurements planned for the Gulf of Alaska and the 
Bering Sea. These funds are important to the study of the potential 
influences of climate changes on recent shifts in the species 
composition of these ecosystems including declines in salmon and 
steller sea lion populations.
    NOAA requests a total of $2.0 million for the Estuary Restoration 
Act. This investment will allow for NOAA-wide activities mandated by 
the Estuary Restoration Act of 2000. NOAA will work with other partners 
to implement a national estuary habitat restoration strategy designed 
to ensure a comprehensive approach towards habitat restoration 
projects. Healthy estuarine ecosystems provide a number of benefits 
pertaining to wildlife habitat, commercial and recreational fisheries, 
water quality, flood control, erosion, and outdoor recreation. NOAA's 
activities include the development of scientifically sound monitoring 
protocols and standards for coastal habitat restoration projects 
throughout the United States and its protectorates. NOAA will develop 
restoration databases that provide quick and easy access to accurate 
and up to date information regarding all projects funded under the 
Estuary Restoration Act of 2000. This work will provide scientists and 
resource mangers with information critical to successful estuary 
habitat restoration efforts.
    NOAA requests a total of $19.8 million for the Commerce 
Administrative Management System (CAMS). This investment will allow for 
the full benefit and value of CAMS to be realized in NOAA. CAMS is in 
the final stages of completion, expected in fiscal year 2003, and 
adequate funding will ensure that CAMS is deployed in a timely manner, 
allowing all modules to progress toward completion. Once fully 
deployed, CAMS will contribute in significant ways to maintaining a 
clean NOAA financial audit through systematic controls rather than 
through labor-intensive manual efforts. It will provide managers with 
on-line, real-time, and accurate financial information in support of 
their programmatic missions, and will be legally compliant. Requested 
funding for CAMS is vital to preserve NOAA's ability to have a 
satisfactory financial accounts system and allow NOAA and DOC to meet 
statutory obligations under the Federal Managers' Financial Integrity 
Act (FMFIA) and the Chief Financial Officer Act (CFO Act).
    The total request of $63.8 million for Marine Services represents 
an increase of $1.9 million above the fiscal year 2001 enacted level. 
This continued investment will allow NOAA to operate its fleet of 15 
vessels capable of safely collecting hydrographic and coastal 
assessment data, conducting fishery independent scientific and survey 
operations, and conducting sustained oceanographic and atmospheric data 
collection in various marine environments and provides funds for 
outsourcing to meet some data-collection requirements. The request 
includes an increase of $1.0 million to provide days-at-sea, primarily 
through University-National Oceanographic Laboratory System (UNOLS) and 
charter vessels, to support research in the Gulf of Mexico concerning 
the interactions of the Mississippi River plume, nutrient loading, and 
resulting effects of hypoxia on Gulf fisheries. These funds will also 
maintain or increase day-at-sea levels supporting other NOAA programs, 
including the science programs in NOS and the sanctuary program. The 
request also includes an increase of $0.9 million which will be used to 
pay the increased costs for operating the ADVENTUROUS' and to add days-
at-sea on fisheries research vessels. The ADVENTUROUS, which will 
replace the TOWNSEND CROMWELL, is a larger and more capable vessel that 
will carry more scientists and complete more research on a daily basis.
            NOAA's Budget and Financial Management
    For the fiscal year 2000, NOAA received an unqualified opinion on 
NOAA financial statements from an independent auditor. The fiscal year 
2000 audit represents the second consecutive year NOAA has received a 
clean audit and demonstrates the intensive efforts made by NOAA to 
improve financial management. NOAA continues to place a high priority 
on improving fiscal and financial management in order to increase 
accountability and efficiency.
    Over the past several years, NOAA has been working to respond to 
Congressional concerns stemming from the NOAA budget structure. The 
Congressional Appropriation Committees have challenged NOAA to make 
recommendations to simplify its budget structure. NOAA has taken 
several actions that address the restructuring of its budget and 
financial management processes. The outcome of these actions is already 
apparent and demonstrated in its improved budgetary communications as 
well as in the improved accuracy of its documentation (e.g., sustaining 
a clean audit and improved timeliness in the distribution of funds). 
NOAA continues to work toward meeting the challenges of restructuring 
the NOAA budget and is excited about the improved efficiency a new 
budget structure will bring.
    As evidenced by NOAA's improving financial and budgetary 
management, NOAA is doing its part to exercise fiscal responsibility as 
stewards of the Nation's trust as well as America's coastal and ocean 
resources. And, in the same way that NOAA is responsible for assessing 
the Nation's climate, we are responsible for assessing our management 
capabilities. It is within this broader management context that NOAA 
continues looking for opportunities to improve. As in past years, 
NOAA's fiscal year 2002 Budget Request includes measures which track 
results to the level of public investment. NOAA will continue to 
leverage its programs and investments by developing those associations 
that most efficiently and economically leverage resources and talent, 
and that most effectively provide the means for successfully meeting 
mission requirements.

    Senator Gregg. Thank you for that comprehensive 
presentation on what NOAA is up to these days and where the 
money is going. I appreciate it.
    Senator Inouye was here before anybody else, including 
myself, so I will turn to him first.
    Senator Inouye. Thank you very much, Mr. Chairman.
    I wanted to come by today because Hawaii in a real sense is 
the NOAA State. I wanted to come by to thank you, Mr. Gudes, 
for all that you have done for us and continue to do so.
    Mr. Chairman, if I may, I have just one question, and I 
would like to submit the rest.
    Senator Gregg. As you wish.

                  jurisdictional authority of interior

    Senator Inouye. Mr. Gudes, we have had an ongoing problem 
with Interior as to who has jurisdiction over 3 miles from 
shore. What is the present situation? I know that the legal 
counsel of Justice issued an opinion which called into question 
Interior's authority, but we gather that Interior continues to 
exert management authority over marine resources.
    Mr. Gudes. Are you talking about specifically in the 
Northwest Hawaiian Islands, Senator?
    Senator Inouye. Yes.
    Mr. Gudes. In the Northwest Hawaiian Islands, I thought 
that basically had been settled at the end of last year, partly 
through the legislation that you put forward in terms of the 
marine sanctuary authorization as well as the former 
President's Executive order on the Northwest Hawaiian Islands.
    We do work closely with Interior in a number of areas. They 
do run National Parks which have coral reefs; we work on coral 
reefs. But in the case of the Northwest Hawaiian Islands, the 
land site, if you will, is a national refuge, and after 3 miles 
is the Northwest Hawaiian Islands--I guess currently, a ``coral 
reef preserve'' is the right term--with legislation telling us 
to move and hold public hearings toward becoming a marine 
sanctuary.
    Senator Inouye. As you know, Palmyra is an important 
addition. At the present time, we have been advised that 
Interior is exerting strong influence and jurisdiction over the 
resources of Palmyra. Is that true?
    Mr. Gudes. In the case of Palmyra, I think they actually 
were given jurisdiction under the previous administration--it 
is south, as I understand it, not in the Northwest Hawaiian 
Islands. In the case of Palmyra, I think they did. In the case 
of the Virgin Islands, they have jurisdiction over the undersea 
national parks. In American Samoa, actually, which you are very 
familiar with, we have a marine sanctuary, and they actually 
have a new national park. Both of us are very interested in 
preserving corals. We are working very hard in terms of corals, 
as you know and your staff knows. I think about 70 percent of 
the funding that this committee gave us for corals is going to 
the Pacific, and the Northwest Hawaiian Islands is a major area 
that we are focusing on.

                       fisheries lab construction

    Senator Inouye. Can you tell us about the status of the 
fisheries lab construction?
    Mr. Gudes. Yes. This committee has actually previously 
given us appropriations over some number of years for I want to 
say about $4.5 million or so. This year's budget request is $3 
million for the Honolulu laboratory. In total, we are going to 
need about another $34 million to finally build that lab to the 
specifications that we have, the design that we have.
    I think it is very significant, because we have been trying 
for some number of years to get funding in the President's 
request up to you, and to move ahead and get that lab built.
    Senator Inouye. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Gregg. Over what period are you going to need that 
$34 million?
    Mr. Gudes. We will be back going into the 2003 process and 
probably the 2004 process, realistically, the way most NOAA 
construction projects have worked over time. Chairman Stevens 
has just come in--the Juneau laboratory, for example, has 
really started, I think, around 1991 in a similar fashion where 
Senator Stevens had some money put in, and it was not--really, 
last year was the first time we got a President's request for 
$1 million, and this year, we have over $11 million. So it will 
probably take some number of years.
    Senator Gregg. As is the tradition in this committee, when 
the chairman of the full committee arrives, we recognize him.
    Senator Stevens. Thank you very much for the courtesy. I 
have visited three other committees so far this morning, and 
this is where I am going to sit for a while, so I will wait my 
turn.
    Thank you.
    Senator Gregg. Senator Hollings.

                   hurricane tracking and forecasting

    Senator Hollings. First, that is about as good a 
presentation as I have heard since I have been here over 
several years, and I commend you for it.
    I am still hung up on Hurricane Mitch. What caused 
Hurricane Mitch to turn tail and start back inland in an 
opposite direction? You say we have got to do some more 
studying. From the studies on air currents and hurricanes, what 
causes that?
    Mr. Gudes. Senator, there are a number of factors that 
affect where a hurricane will steer, where it will go. A lot of 
it has to do with the boundary conditions, the area where the 
hurricane is moving into. A lot of it has to do with water 
temperature; when the sea surface temperature gets over 80 
degrees, it is a much higher probability of feeding the energy; 
a hurricane has an energy engine.
    In the case of a number of hurricanes, it has to do with 
other meteorological conditions. For example, when we see a lot 
of these hurricanes come up the East Coast, and then they turn 
out, it is often because we have some frontal action that takes 
place that is a blocking motion toward that hurricane, and as 
it goes into colder water, it tends to lose energy.
    In the case of Mitch--Jack or Louisa--do we know why it 
went south the way it did? I will have Jack Kelly respond, who 
is head of the Weather Service.
    Mr. Kelly. There a host of factors, as Scott explained, 
that influence where a hurricane goes. With Mitch, you had a 
stronger weather system to the north, which prevented it from 
going in the direction everyone anticipated it to go, so it got 
pushed south. Everyone thought that that would not materialize 
as strongly as it did, and the storm would have gone to the 
north. So you just had a stronger air mass to the north, and it 
shifted to the south and then went stationary.
    What really caused the damage in Central America was not so 
much the winds with that storm but the fact that it went 
stationary and rained for 3 or 4 days and dumped tens of inches 
of rain per day over the mountainous areas.
    Senator Hollings. But there is really no inadequacy of our 
hurricane studies. I mean, we have the plane up there and so 
on, right in the middle of it.
    Mr. Kelly. No, Senator. What it is is an inadequacy of our 
understanding of how the atmosphere unfolds many days in 
advance. In spite of all the progress that we have made, we 
really do not have perfect knowledge on how the atmosphere will 
respond, and we make mistakes on forecasts.
    Senator Hollings. But there is nothing money-wise that we 
can do to improve it, is there?
    Mr. Kelly. The U.S. Weather Research Program will have the 
universities try to understand better how the atmosphere 
unfolds, and in terms of that, yes, we can do that. In terms of 
satellites and aircraft to monitor what is happening, we have 
enough satellites and enough aircraft. The question is how will 
the atmosphere unfold in the next 24 to 48 hours, and we do not 
know that with perfect certainty.
    Senator Hollings. Thank you.
    I like your presentation on the satellites. We both 
remember Bernard Schwartz from Loral coming in and saving that 
contract from Ford, and on time and under cost, getting that 
geostationary satellite up first.

                        steller sea lion issues

    Let me ask a question now that both sides are represented 
here. Some kind of sea lion ruling held up the budget, the 
appropriations process, the Congress, and the Government until 
December because of Fisheries not taking a position, or a 
ruling or whatever. All that I remember is that you said, or 
somebody over in NOAA said that we ought to get in there 
earlier and get the information out or make the decision early 
so the same issue will not get into one of those political 
snarls.
    Have you corrected that?
    Mr. Gudes. I am watching Senator Stevens as I answer this.
    Senator Hollings. And look at Senator Murray, too--oh, she 
has gone.
    Mr. Gudes. The Steller sea lion issue took place over some 
period of time. It was not just last year--it probably started 
in the early 1990's with closed areas starting and some people 
arguing that we had not done enough to space out the fishing 
pressure and the sea lions.
    Definitely since the biological opinion and since the judge 
allowed us to proceed with fishing again, we have been working 
very hard with the North Pacific Fisheries Management Council 
in Anchorage, to try to find every opportunity that we can to 
be sensitive to the impact on fishermen, to allow the maximum 
amount of fishing that we can in a way that still protects the 
sea lions. We are still under the Endangered Species Act, we 
still have a finding of jeopardy, we are still working with the 
courts, and we still have to find a way to work to protect 
those sea lions. Their populations have been declining. So we 
are trying every opportunity that we can.
    We had an emergency rule that allowed jig and line fishing 
to take place there. We have been doing some satellite tagging 
to take a look at how far the sea lions go from the rookery 
areas. Actually, we are finding that a lot of them actually go 
about 10 miles out rather than 20 miles, and we are working 
with the Council on that issue.
    Then, finally, often we talk about science and data, and 
this committee and this Congress came forward and gave us $43 
million last year to start putting together the best science to 
deal with this issue, and we have been doing that--Bill Hogarth 
and the people at Fisheries and Jim Balsinger and the people up 
in Alaska have been doing everything they can to try to get 
this research and this effort going expeditiously to really try 
to solve this problem.
    We are extremely sensitive and extremely knowledgeable of 
the economic impact that it has had and the impact that it has 
had on Alaska, and we are trying everything we can to work with 
them.

                       hollings marine laboratory

    Senator Hollings. Very good. Let me make the record on the 
marine science center that is just opening up down at Fort 
Johnson. This is the most modern, updated marine scientific 
research center tied in with medical research. At that site, we 
also have the agricultural research center, which is the most 
modern and updated one of the Federal Government.
    Now, it has just come to my attention that the American 
Health Foundation along with Rockefeller University in New York 
City are interested in the study of proteomics. They tell me 
that with the human genome--and we can look at the morning news 
and hear about all the things being done with cancer--but that 
is for the study of human genes. They say the genes give a 
message to the proteins, and the proteins overlap, and if they 
overlap too fast, it is like stepping on the gas, or if they 
overlap too slow, it is like stepping on the brakes. But at the 
earliest stage, it can be studied and researched with what they 
call a geomagnetic resonance imager. There has got to be a 
follow-through to that marine science center working on 
medicine. If they can do that, Dr. Burley and others who have 
won Nobel Prizes up there in New York are convinced that we can 
get to the prevention of cancer, because at the early stage, it 
is very effective; down the road, the proteins have hundreds of 
thousands of mutations, and it is way too late. That is why we 
just treat it, treat it, and treat it all over the country. But 
this gene research is a thrust and endeavor to prevent it. The 
``big blue'' IBM has promised free of cost to follow through 
with this and correlate all the information that we can get, so 
we are looking at that very closely.
    Mr. Gudes. Senator, I will just say that we are very 
excited about the Hollings Marine Laboratory at Fort Johnson. I 
totally agree with you that working with the Medical University 
of South Carolina, with the partners that we have there in the 
State of South Carolina--Margaret Davidson is here from the 
Ocean Service, which that lab comes under, and if there is 
anybody we have who really knows how to bring in different 
people into issues and really make a result that is bigger than 
the sum of the parts, it is Margaret. In terms of the marine 
sciences, there are any number of drugs that have been found by 
using marine organisms--that is part of what ocean exploration 
is about as well--and we are really excited about the 
laboratory there and the role it can play in NOAA and actually 
with the country.
    Senator Gregg. Thank you.
    Senator Stevens.
    Senator Stevens. Thank you very much.
    We welcome you as the spokesman for NOAA, Mr. Gudes. I want 
you to know that obviously, there is nothing personal in my 
comments.

                     findings on steller sea lions

    I would ask first, though, have your people been briefed by 
the North Pacific University's Marine Mammal Consortium on 
their findings regarding the Steller sea lion?
    Mr. Gudes. I believe so, Senator. Let me ask Dr. Hogarth, 
the head of Fisheries.
    Mr. Hogarth. Yes.
    Mr. Gudes. Yes, we have.
    Senator Stevens. You realize that they do not believe there 
is an endangered species there, that there is just one species. 
Your people singled out the eastern portion of the species to 
declare them under the Endangered Species Act.
    I urged the Secretary to be briefed by them. I wonder why 
we have ignored them. I also wonder why NOAA ignored its own 
study that showed that sea lions rarely go beyond 10 miles from 
a haul-out. In preparing your biological opinion, you set aside 
a basic finding of your own scientists--that sea lions rarely 
go beyond 10 miles--and required that we protect 20 miles from 
a haul-out. This has had a devastating effect on the fishery. 
The Coast Guard urged you not to do it for safety reasons, and 
your people rejected that.
    I wonder why we should wait for another study when you have 
ignored your own findings in the past. And you refused to 
accept the findings of the North Pacific University's Marine 
Mammal Consortium.
    We are going to be in for another battle, that is for sure, 
if NMFS now comes up with another unproven theory, ignores the 
Marine Mammal Protection Act, ignores the Magnuson-Stevens Act, 
and uses the Endangered Species Act to bring about a collision 
course with the State of Alaska over the most significant 
source of employment in our State, the fisheries from Kodiak to 
Atka. Then we are going to have another battle. I may lose, but 
I have got to tell you, it will be another battle.
    I do not understand why NOAA will not get with it and pay 
attention to its own studies.
    I am told that you are now on another course, having lost 
the round on the biological opinion. I am told that there is a 
draft Environmental Impact Statement using the same unproven 
theories to put another level of environmental attack on our 
commercial fisheries.
    Are we now facing a situation where the biological opinion 
is subject to an agency-generated Environmental Impact 
Statement, as required supposedly by the Endangered Species 
Act, when there is still no agreement that we are dealing with 
an endangered species?
    How far do I have to go. I am asking you, in order to keep 
my people at work? North Pacific University's Marine Mammal 
Consortium says that these mammals are not being depleted 
because the food chain is based upon pollock. It says that they 
are depleting for a whole series of reasons, and they believe 
that despite the depletion, they should not be listed as an 
endangered species.
    What do I have to do--ask the Commerce Committee to have a 
special hearing on this in order to expose this? How do I get 
some kind of response to the truth and to scientific fact in 
relation to pollock and the sea lion?
    Mr. Gudes. Mr. Chairman, I will ask Dr. Hogarth in a second 
if he would like to respond as well, but I would say that, as I 
often point out to NOAA employees, I am the one non-scientist 
in NOAA leadership, but I do get a chance to look at some of 
these issues and try to understand them in their entirety, and 
I think one of the problems that we have in Alaska--and I think 
the Steller sea lion is just one example--is conflicting 
messages on laws, on what we are required to do. And when we 
tend not to do what some people believe we are tasked to do 
under the law, the courts move in, and they say, ``NOAA, we are 
going to take this authority away from you.'' And I think in 
part with Steller sea lions, that is part of what happened.
    A year ago, we had a situation where a Federal judge 
stepped in and shut down all the fisheries----
    Senator Stevens. Yes, but keep in mind--you prepared three 
biological opinions that the courts did not disturb. You 
changed the scientists and the lawyers involved, and you came 
up with a fourth and a fifth that the court would not accept.
    I do not understand how you could destroy your own 
credibility with the courts any more than you did in that 
process.
    But beyond that, how are you going to get your credibility 
back? The North Pacific Regional Council--and I believe it 
includes the top national marine fisheries scientists from 
Seattle--have agreed on a set of rules to protect the sea lions 
and still allow the fisheries to go forward.
    I am told that Washington people, particularly the lawyers, 
have said that that recommendation will not be followed, and it 
will not be defended in court.
    Now let me tell you a little story about Roosevelt. In 
World War II, when Roosevelt wanted to start the lend-lease 
program, he called in the Secretary of the Navy, and he said, 
``Mr. Secretary, I want to start this program, and I want to 
let the British have some of our gear, but it is up to you to 
work this out. Now go and work out a program--we will call it 
lend-lease--so we can get this material to them so they can 
defend themselves.''
    The Secretary of Navy came back the day after that and 
said, ``Mr. President, I am sorry to tell you that my lawyers 
tell me that it is not possible.''
    The President said, ``Which lawyer?'' This is God's truth--
he said it--``Which lawyer?''
    And he said, ``My chief counsel.''
    And the President said, ``Mr. Secretary, you go back to 
that legal group, and the first person you find who is a lawyer 
and who agrees with me is your new general counsel.''
    I would suggest to you that if you have some problem with 
your legal office that it be remedied. I was the chief counsel 
for the Department of the Interior, and I know that Government 
lawyers are bent upon finding a different client than the 
public at times. But these people had better not hold up a 
decision by the Regional Council's decision that is based upon 
science and supported by the North Pacific University's Marine 
Mammal Consortium and by your top scientists in the field. 
Lawyers are not going to deter us from seeing that that opinion 
is enforced.
    Mr. Hogarth, what are you going to do with it when it comes 
to Washington?
    Mr. Hogarth. Thank you.

                        eis on steller sea lions

    There are several things going on. Number one, the draft 
Environmental Impact Statement was required by the courts, and 
it is a draft.
    Senator Stevens. Wait a minute. The court that required the 
biological statement also required the Environmental Impact 
Statement? Under the same act?
    Mr. Hogarth. The courts required us to do a programmatic 
EIS to open the fishery. That is----
    Senator Stevens. Just a minute. Where were your lawyers? 
The Marine Mammal Protection Act protected the sea lions to 
start with. They should have defended on that basis. The 
Magnuson-Stevens Act protected those. Never before have we had 
an Environmental Impact Statement or a biological opinion on a 
marine mammal.
    Mr. Hogarth. Because if it was considered endangered, it 
was under the Endangered Species Act.
    Senator Stevens. That is strange. You began with three 
biological opinions that were accepted. You change the 
personnel. It is filed; you go to court and do not defend it, 
and the court says you are not properly defending it, go and 
write another one. You go back with a fifth one, and the court 
says it is still insufficient and puts into effect a moratorium 
that puts all my people out of work. Now, that is bad 
management and bad law.
    I want you to know that I am not going to give up on this. 
You are allowing the courts to make a decision affecting one 
species which destroys opportunities for commercial fishing and 
at the same time subjects you to further restrictions under the 
Endangered Species Act, and you are already subject to a third 
because you have to comply with the Magnuson-Stevens Act.
    I do not understand why you do not stand up and tell that 
court what the law is. The law is clear--Congress did not 
intend the Endangered Species Act to override the Magnuson-
Stevens Act. Congress did not say that you had to have an 
Environmental Impact Statement every time you made a decision 
under the Magnuson-Stevens Act.
    These significant decisions are not yours to make. The 
decisions are made by the regional councils. The Secretary 
makes the decision that you might have to have an Environmental 
Impact Statement once in a while, but you as an agency do not 
because you do not have jurisdiction. The jurisdiction is with 
the regional council.
    Someone had better read the Magnuson-Stevens Act. Beyond 
that, did you know that the emergency provisions that you used 
were from the Magnuson-Stevens Act? There is no emergency 
provision in the Endangered Species Act. I do not know what 
kind of lawyers you have down there, but they did not study the 
law like I did. Somehow we have got to get control over this.
    Now, is it true that you are going to hold up fishing until 
you get the approval of the Environmental Impact Statement?
    Mr. Hogarth. No, sir. Right now, we have a group that was 
set up by the Council called the Reasonable and Prudent 
Alternative (RPA) Committee, to look at reasonable and prudent 
alternatives. They have made a recommendation to the Council, 
and the Council has made that recommendation to us. That is 
under review right now, and it looks very good. One thing we 
are looking at is in the Steller conservation area, we have 
always had some kind of limits, even back in 1998. They have 
removed all of those limits, so right now, we are looking to 
see if we should approve that. They will be in place for the 
second half of this year.
    I have set up a process so hopefully we will not go through 
another issue like we went through last fall. We have set up a 
process for any disagreements to be resolved, and if they 
cannot resolve them in the region, they will come to me with 
the options, and I will make the decision.
    We are going----
    Senator Stevens. Excuse me. I do not want to be offensive, 
but the Magnuson-Stevens Act gave the regional councils the 
right to make the decisions that you are making. The reasonable 
and prudent alternatives are decided by the regional council.
    Mr. Hogarth. That is correct.
    Senator Stevens. I understand you are now negotiating with 
the plaintiffs in a lawsuit what is a reasonable and prudent 
alternative.
    Mr. Hogarth. The plaintiffs are part of that committee. The 
Council put them on the committee. The plaintiffs have come 
forward and said that they may go forward and ask the judge for 
another injunction if we implement all this because they feel 
like they have deviated so far from the biological opinion.
    Senator Stevens. I hope they do, because we will then amend 
the Magnuson-Stevens Act for sure and take them out of it 
entirely. What is a group of plaintiffs in a lawsuit doing on a 
committee of the Magnuson-Stevens Act which deals with the 
regional council's activities?
    Mr. Hogarth. Because the Council felt it was better to have 
them part of the process than to have them taking potshots, I 
guess. So they are part of it, but they are one member out of 
11, if I am not mistaken.
    Senator Stevens. Well, I do not remember the good Lord 
inviting the Devil to the last supper, my friend.
    They have no business trying to decide the outcome of this 
by negotiation. We did not create regional councils for 
negotiation. We created them for decisionmaking. The courts 
have got to get out of the business of making those decisions, 
and you brought them into it by letting the Endangered Species 
Act be part of this process. It is not part of this process.
    Mr. Hogarth. If I can do anything about it, we are going to 
get them back out of it. I do not think the courts should make 
those decisions, either.
    There are several things that have happened that I think 
are very positive. There is some data from Sea Grant on the 
Steller sea lions and the use of rookeries and the haul-outs. 
There is some scat data and food habits and so on that shows 
very little reliance on pollock. There is also the telemetry 
data that we have done, which shows that about 92 percent of 
the adults go no further out than 10 miles, and 88 percent of 
the sub-adults do not go any further than 10 miles.
    Senator Stevens. You had that study even before you even 
made the last biological opinion.
    Mr. Hogarth. We have a lot more data now that has been 
utilized by this RPA Committee. We also will, in my opinion, 
reinitiate the consultation for the 2002 season, because I 
think there is so much more data that is available to look at, 
and that biological opinion needs to be reinitiated and 
revisited for the 2002 season. But for the second half of this 
year, there will be changes again made based on your rider and 
the additional data that we have. So there will be some changes 
the rest of this year.
    The only thing I can tell you is that things are being done 
differently than they were in the last go-around, and they will 
continue to be done differently. We are in constant contact 
with the Council and the region. There is a 4-hour conference 
to go over everything. We are having regular conversations. We 
have a different process set up so that we do not come to a 
stalemate. It is all transparent. We have never let a 
biological opinion be reviewed in draft form before; this one 
will be. I have released three biological opinions--the Hawaii 
long line was released as a draft; the Pellagic long line for 
the South Atlantic was released, and this one will be released 
in draft form to get input before it is finalized.
    Senator Stevens. We are going to have to go back, I am 
sure. My two colleagues are on the conference committee, as I 
am. The Marine Mammal Act was passed because Congress did not 
believe the Endangered Species Act applied to marine mammals. 
It was passed after the Endangered Species Act was in place. 
The Marine Mammal Act was the result of Congress' intention to 
protect marine mammals under that Act, and that was Muskie's 
Act.
    Somehow, we have got to get a sense of the history here and 
understand that the Endangered Species Act was not designed to 
protect marine mammals. It is not Congress' intention that it 
be so used. But no one in your department has ever argued that. 
Why did we need the Marine Mammal Protection Act if the 
Endangered Species Act, which was already in existence, was 
effective as far as marine mammals were concerned?
    We have to get to where we have management control under 
scientific principles. But what is happening is that more and 
more of these environmental litigation agencies are destroying 
your agency with litigation that is just too redundant.
    I have taken too much time, and I apologize, but somehow, 
this has got to come to a halt. We cannot afford it. My people 
are not that rich that they can keep going to court with your 
agency and these environmental organizations. They work on 
donated funds. They do not make enough money to do this, and 
they are being squashed out of this business because they 
cannot afford legal fees. Are you aware of this? They just 
cannot do it.
    Mr. Gudes. Can I respond?
    Senator Hollings. Yes, surely. Mr. Chairman, you are asking 
the gentleman to explain Congress, and even I cannot do that. 
But the record should show that I heard about this controversy, 
so I asked about this Mr. Bill Hogarth, and let the record show 
that they said he is a good man.
    Senator Stevens. I know he is.
    Senator Hollings. Yes, and he has withstood your wrath 
better than I can.
    Do you have any comment, Mr. Hogarth or Mr. Gudes? No 
kidding--it is a serious problem, and the Senator from Alaska 
is right on target about the seriatim of the enactments with 
respect to the Endangered Species Act and the Marine Mammal 
Protection Act. Our frustration is that you are disregarding 
the recent Act and the real controlling Act.

                          nmfs lawsuit backlog

    Mr. Gudes. I am not a lawyer, and I am talking to some of 
the authors of the Magnuson-Stevens Act, so I want to be 
careful. But I think the general issue that you have raised is 
much more than just Steller sea lions in Alaska. We have 110 or 
so lawsuits right now. It is not just from environmental 
groups, as you said, Senator. It is from both sides. When 
someone, even with something that has nothing to do with the 
Endangered Species Act, is not happy with the decision--
sometimes it happens at the Council--they go to court. Often, 
when I go to these fisheries meetings with Bill, I feel as 
though I am in a law school class instead of talking about 
fisheries. Very often, we are talking about the Administrative 
Procedures Act, and when is this rule going to come forward, 
and Notice of Rulemaking.
    Senator Hollings. What can this subcommittee do to undo 
that logjam? I mean, having 110 lawsuits backed up--something 
is wrong there.
    Mr. Gudes. Well, some of it is probably more appropriate--
although the three of you are on the Commerce, Science, 
Transportation Committee of the authorization committee--but it 
is a problem in terms of the laws and the conflicting laws and 
how the laws are being used.
    Senator Stevens. Well, could I make a suggestion? These 
decisions that are theoretically based on science should not be 
appealable to courts to be handled by a bunch of lawyers who do 
not understand. If there is going to be an appeal, it ought to 
be to a group of scientists.
    Mr. Gudes. Well, Bill just helped solve an issue on summer 
flounder by working with the States. We had a situation where 
we had two conflicting laws, but more important than that, we 
had two conflicting Federal judges, one of whom was saying one 
thing and one of whom, here in Washington, D.C. was saying 
something different.
    Senator Stevens. What they do, Scott, is they find a judge 
where they know what he is going to decide. I can tell you what 
the judge in Seattle is going to decide, or the one here, or 
the one down in San Francisco.
    Mr. Gudes. And Senator Hollings, part of what you did last 
year was give us funding through your leadership to try to 
respond to things like NEPA, to try to get some of our EISs 
updated. In the case of Steller sea lions, it was giving us the 
idea to do some of the research and get the data that we need 
to be able to determine--that is part of it, because sometimes 
when we lose in court, it is because we do not have good enough 
data. And this is not only Department of Commerce, this is 
Department of Justice; they are the ones who litigate for us in 
court. This is a bigger issue.
    To end, Mr. Chairman, I understand exactly everything that 
you have said and your passion about this issue. We are in a 
situation where, if we do not do things right, we will end up 
back in the court, right or wrong, with the judge shutting down 
the fishery again, and we do not want that to happen.
    Senator Stevens. You are right. As a matter of fact, let us 
get off fish and look at the airport and SeaTech. For 19 years, 
we have been waiting for that Seattle runway to be completed, 
and every time it is just about ready to go, there is another 
lawsuit and another review by some judge, and we are told to do 
something different.
    You are about to get in the same position, where every 
year, everything you do will be reviewed by some court, and a 
group of lawyers will tell you what to do, when you thought 
your decisions were based on scientific data.
    So I think we have got to find some way to make these 
decisions appealable to a group of scientists. Tell the courts 
they can only get involved if someone has violated the law. 
They are substituting their feelings--not even their judgment, 
but their feelings--about the science, rather than allowing our 
scientists to make the decisions and see if they were the right 
decisions. I think these cases should be appealable to a 
scientific process and not the legal process.
    Mr. Gudes. If I could, one final comment on what Bill 
mentioned. Secretary Evans very strongly said to both Bill and 
me that he wants an open process that brings in everyone who is 
affected, and Bill has really worked very hard on biological 
opinions, on EISs, as he referred to, to try to open up that 
process, to bring in stakeholders, to bring in the Fisheries 
Management Councils ahead of time.
    Senator Inouye talked to us about long line issues and 
biological opinion issues--very similar--Endangered Species Act 
issues, and in this case, sea turtle interactions. So it is not 
a Marine Mammal Protection Act, it is what you would argue is 
an Endangered Species Act issue. And Bill went out and met with 
the Fisheries Management Council and with all the commercial 
fishermen in the area, and at least opened up the process in a 
way that had not been done before. That did not mean that what 
finally came out of NOAA and Fisheries was what those fishermen 
wanted to see, but it was a much more open and transparent 
process, and that is what we are working toward.

           factor's contributing to steller sea lion decline

    Mr. Hogarth. I would just like to say one final thing, that 
we are doing two other things to take a look at this. We have 
reconstituted the Steller sea lion recovery team with new 
members, and it will get to work right away. We hope we have a 
good group there to take another look.
    Also, we have gone outside and gotten a group to look at 
how to integrate Marine Mammal, Magnuson-Stevens, and ESA, 
because as an agency, I do not think we have really integrated 
them as they should be, and that is what has caused many of the 
problems. We are supposed to have that report back by the first 
of June, and then we can move forward.
    Senator Stevens. I hope that you will show all of those 
people the videos of the killer whales and the young sea lions.
    Mr. Hogarth. That has been documented, too, yes, sir.
    Senator Stevens. And the picture of the stomach of the one 
that had 17 Steller sea lion tags in the stomach.
    The Endangered Species Act apparently does not deter killer 
whales, which are increasing in number and overwhelming in our 
area. And if you listen to the consortium people, they will 
tell you that it is a combination of factors that are leading 
to the decline of the Steller sea lion, and one of them is 
predation. We are not taking them; other mammals are taking 
them. So I do not think we should base a recovery for the sea 
lions entirely upon stopping man from harvesting pollock.
    Incidentally, your people also overlooked the fact that 
pollock as a biomass is about four times the size it was when 
we passed the Magnuson-Stevens Act.
    Mr. Hogarth. It was an all-time record last year, the 
biomass.
    Senator Stevens. So I do not understand anyone saying there 
is not enough pollock for sea lions. But the problem lies in 
where they are located and where the Steller sea lions are 
located. The fatty fish are no longer there. If you want to do 
anything for us, find some way to restore the fatty fish and 
the Steller sea lion will come back.
    Mr. Hogarth. Yes. I have to agree with that.
    Senator Stevens. Thank you.
    Senator Hollings [presiding]. Our distinguished chairman is 
momentarily on the floor with the education bill.
    Senator Inouye.
    Senator Inouye. I have no questions.
    Senator Hollings. Very good. And thank you, Senator 
Stevens.

                critical backlog in hydrographic surveys

    With respect to the critical backlog in the surveys, Mr. 
Gudes, what are we doing there, with the marine transportation 
system?
    Mr. Gudes. I think the number is somewhere around 32,000 
nautical miles of critical backlog. Actually, the largest event 
of that is in Alaska, Senator Stevens' State.
    We are doing a number of things. One, we have about $20 
million in this budget for private contracting for hydrographic 
surveys. That is the first time that our budget actually has 
fully funded where Congress has been asking us to use more 
private sector. On the Gulf of Mexico, for example, we use all 
private sector ships.
    We are modernizing the FAIRWEATHER. This is a NOAA ship, 
the sister ship to the RAINIER, which has six launches and is 
very capable. This committee came forward and gave us funding 
last year, and our budget actually has the funding to complete 
the modernization of that ship. The sister ship, the RAINIER, 
which is currently operating off Alaska, is actually our most 
productive hydrographic ship and is very capable.
    This is an area that we are focused on more and more in 
trying to work down that backlog. I think we are working down 
about 4 percent per year. We would like to do better than that. 
It is a very important issue, and we are working in the most 
critical areas.

                       coastal storms initiative

    Senator Hollings. Under the funding for the modernization 
of the marine transportation system, you have a $3 million item 
there. Is that for the National Ocean Service, a pilot program 
there?
    Mr. Gudes. Yes, most of this comes under the National Ocean 
Service. Which specific program--the Coastal Storms?
    Senator Hollings. Yes. What are we getting there for that 
$3 million?
    Mr. Gudes. I think the $3 million that you are talking 
about is the Coastal Storms Initiative; is that correct?
    Senator Hollings. Right.
    Mr. Gudes. Coastal Storms is really taking a look at how 
much of the American population is moving to areas just like 
Isle of Palms, where we have more and more people living who 
are in danger of coastal storms, evacuation routes. It is about 
doing better bathymetric models, better slosh models, taking 
existing current meters and providing oceanographic and 
atmospheric sensors. It is really about taking a look at the 
whole system and doing a better job. It includes the Weather 
Service as well, working in hydrology and floods.
    The first prototype that is in this budget actually 
proposes an effort in northeastern Florida, Jacksonville and 
the St. John's River area.
    Senator Hollings. Let me ask one final question, because we 
have to move on to the Small Business Administration.

                  funding for pacific salmon recovery

    With respect to the Pacific salmon funding for coastal 
salmon, we had $100 million, and now it is $90 million. I was 
surprised that the Bush administration put that $90 million in, 
because there is some question that the money is all being used 
for Columbia River salmon, and they have the dams there, and it 
is not doing what was intended.
    What is your comment on that?
    Mr. Gudes. The Pacific Coastal Salmon program, habitat 
restoration program, is about $90 million. It is a high 
priority to us. It really is a grant to States to work on 
habitat with a memorandum of understanding----
    Senator Hollings. But can you enumerate for the committee 
any successes at all?
    Mr. Gudes. It is having an impact in States like 
Washington, where we really have good community-based efforts 
to restore watersheds, to bring back the salmon.
    I would say, Mr. Chairman, that primarily it is in coastal 
areas. When Congress created the first appropriation, it gave 
us funding for Columbia River tribes, Native American groups. 
There is an issue this year that is significant which has to do 
with the drought in the Northwest, and one of the issues is--I 
think the State of Washington is using some of those funds to 
buy water rights, because in the Columbia River, we are going 
to have a real problem where we are not going to be able to get 
salmon back down the river. So that is an issue up the Columbia 
River.
    There is a related program, as you know. We fund the 
Mitchell Act hatcheries on the Columbia River--I want to say 
$16 or $18 million--which NOAA has been responsible for since 
we were created as an agency.

                     additional committee questions

    Senator Hollings. The record will remain open for any 
further questions.
    The committee thanks you for your outstanding presentation. 
Thank you very much, Mr. Gudes.
    Mr. Gudes. Thank you, Senator. Thank you, Senator Inouye.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted by Senator Judd Gregg
                     weather buoys in the northeast
    Question. How many weather buoys currently cover the Northeast 
fishing grounds?
    Answer. NWS operates 11 marine buoys and Coastal Marine Automated 
Network Systems (C-MAN) in the Northeastern United States (ie. North of 
40 degrees). This includes 7 marine buoys and 4 C-MAN Stations. Canada 
also operates 8 marine buoys off the coast of Nova Scotia.
    Question. Are there any holes in the coverage?
    Answer. NOAA is aware of some recent concerns with buoy coverage 
from various marine associations. NOAA will review these issues and 
report back to the Committee as soon as possible.
    Question. Does NOAA own all of these buoys?
    Answer. Yes, the 11 marine buoys and C-MAN stations in the 
Northeastern United are base funded and owned by NOAA. Of note, NOAA 
currently operates a total of 136 buoys and C-MAN stations. This 
includes 108 base funded and 28 reimbursable stations.
    Question. What did the 1997 National Research Council Report say 
about the adequacy and priority for buoys in the Northeast?
    Answer. The 1998 NRC study recommended that a core network of buoy 
and C-MAN stations should be established and maintained. The report 
recommended the network should be based on NOAA's 1995 Marine 
Observation Plan (MAROB) which called for additional buoys. However, 
the NRC stated the exact number and placement of additional buoys 
should be determined through an objective assessment and numerical 
analysis. With regard to priorities, the NRC study stated ``where and 
how fast changes should be made were beyond the scope of the study''.
    Question. Is NOAA currently considering moving any of these buoys? 
If so, why?
    Answer. No, NOAA does not plan to move any of these buoys. NOAA has 
received a request from the Cape Cod Commercial Hook Fishermen's 
Association to move the Nantucket Marine Buoy (#44008). However, the 
current location is optimal for NWS mission needs and provides critical 
observations to other marine users in the area.
    Question. If coverage is inadequate for the fishing fleet, how many 
more buoys would be required to complete the coverage? Please provide a 
plan for complete buoy coverage.
    Answer. NOAA is aware of some recent concerns with buoy coverage 
from various marine associations. As indicated in the previous 
response, NOAA will review these issues and report back to the 
Committee as soon as possible.
    Question. How long would it take to bring these buoys online?
    Answer. NOAA would need to review the current situation and assess 
the need for additional buoys. The deployment schedule for a buoy 
varies from 1-2 years. The actual deployment time can depend on the 
type of buoy, availability of a Coast Guard ship to deliver the buoy, 
production capacity at the National Data Buoy Center, and marine 
weather in the deployment area.
                       nmfs cooperative research
    Question. I've noticed that your budget request for the National 
Marine Fisheries Service (NMFS) includes an increase for Cooperative 
Research. This idea shows great promise for the future of fisheries 
management, but only if your fisheries scientists and managers are 
equipped and willing to use the data that is being collected. Can you 
demonstrate that they are willing and equipped to do so?
    Answer. NOAA's fiscal year 2002 request includes $3.5 million for 
NMFS cooperative research implementation under the Northeast Fisheries 
Management Programs line item. These funds cover the NMFS costs 
associated with cooperative research in the Northeast, including 
specific research design, field scientific staff, data assimilation and 
analysis, program administration, and application of the research 
results to Council management issues. These NMFS cooperative research 
implementation funds complement our $16 million request for specific 
cooperative research activities to utilize the expertise and insights 
of fishers in research including resource survey design and 
interpretation. For the Northeast, this two-part request provides both 
the resources for NMFS and the industry to ensure future cooperative 
research programs are successful and provide needed data.
                           fisheries lawsuits
    Question. As you know, NMFS' untimely action in the Ninth Circuit 
Court last year resulted in a temporary shutdown of one four nation's 
biggest fisheries. A NEPA-related lawsuit could threaten the lobster 
fishery in New England. How do you intend to approach the backlog of 
litigation? What is your plan to avoid this kind of backlog in the 
future? How are you planning to reduce the agency's risk to litigation? 
What steps are you taking to ensure that the entire staff of the agency 
is not pulled into litigation, and away from the science and 
regulations that they are required to implement? Many of the lawsuits 
involve a debate about the science. How is NMFS evolving to ensure that 
it makes decisions based upon the most up-to-date and sound science? 
You have requested $8 million for NEPA in fiscal year 2002. How do you 
intend to spend these funds?
    Answer. NOAA is certainly concerned about NMFS' litigation load, as 
it has approximately doubled in the last five or six years. Some of 
this increase is inevitable. The more species or populations an agency 
lists under the Endangered Species Act, the more litigation will ensue. 
Another example is the Sustainable Fisheries Act, which in 1996 
increased NMFS' responsibilities to rebuild overfished fisheries, 
minimize bycatch, and protect essential fish habitat. Those who believe 
NMFS has gone too far in conserving fish stocks and habitat have sued 
the agency, and so have those who think NMFS has not done enough to 
protect fish stocks.
    NMFS may be able to avoid other lawsuits in the future if it can 
improve its compliance with procedural statutes such as the National 
Environmental Policy Act and the Regulatory Flexibility Act. We have 
new guidelines for complying with the Regulatory Flexibility Act, and 
recently received an honorable mention from the Small Business 
Administration for our improved performance under that statute. We have 
a task force working now, with assistance from a contractor, to 
identify ways to better manage our decision making process by 
incorporating all of these procedural requirements more efficiently. We 
expect to make improvements in our compliance with procedural statutes 
that will result in better decision making, as well as ameliorate our 
litigation problems. Where possible, we have tried to continue programs 
in addition to meeting the needs associated with the court cases. 
However, in many cases this has not been possible and ongoing programs 
have suffered as staff have had to work on issues associated with the 
cases.
    The $8 million appropriated in fiscal year 2001 will address two 
primary needs. First, there is an immediate need to update numerous 
Environmental Impact Statements (EISs) around the country. The short-
term needs of the agency to comply with court ordered deadlines and 
reduce the overall vulnerability to NEPA-related lawsuits will be 
addressed by allocating $5.6 million among the regions to support the 
highest priority projects. Second, NMFS is in need of systemic change 
to address the demands of NEPA on a continuing basis. We have 
established a task force and contracted for a study to aggressively 
review the agency's decision making process and compliance with all 
applicable law including NEPA.
    The $8 million continued in the fiscal year 2002 budget will be 
used to build on the task force recommendations and institute a 
management process that improves the decision making and integration of 
the agency's growing statutory, regulatory, and legal requirements. 
Additionally, the fiscal year 2002 budget request includes several 
items that will improve the agency's science. For example, proposed 
funding of $13.3 million for additional stock assessments, and $1.4 
million for more socio-economic analysis. Support for these requests 
would provide better data for the management arena and help reduce 
future litigation regarding science.
                      headquarters office support
    Question. According to your budget request, it appears that there 
are 14 staff offices that report to you, is that true?
    Answer. Of the 14 functional activities shown on the organizational 
chart accompanying the budget request, only nine (9) may be 
appropriately described as staff offices reporting to the Under 
Secretary (e.g., Chief Scientist, Public and Constituent Affairs, 
Policy and Strategic Planning, Sustainable Development and 
Intergovernmental Affairs, Legislative Affairs, International Affairs, 
General Counsel, Military Affairs, and Federal Coordinator for 
Meteorology). The resources supporting the Federal Coordinator for 
Meteorology are requested to be transferred from the National Weather 
Service to the Under Secretary and Associate Offices in fiscal year 
2002.
    Program Coordination and Executive Secretariat are operationally 
integrated with the Office of the Deputy Under Secretary. The resources 
for the NOAA High Performance Computing Center are carried in NOAA's 
Office of Oceanic and Atmospheric Research.
    Finally, the Office of Finance and Administration and the Office of 
Marine and Aviation Operations are operational offices supporting the 
NOAA mission.
    Question. What is the mission of each of these offices?
    Answer. The Under Secretary for Oceans and Atmosphere and 
Administrator of NOAA formulates policies and programs for achieving 
the objectives of NOAA and has the authority for program execution. The 
Assistant Secretary for Oceans and Atmosphere and Deputy Administrator 
of NOAA assists the Under Secretary/Administrator in formulating 
policies and programs and directs their execution.
    The Deputy Under Secretary for Oceans and Atmosphere serves as a 
key advisor to the Under Secretary/Administrator and Assistant 
Secretary/Deputy Administrator on all program and policy issues and is 
responsible for ensuring the timely and effective implementation of 
NOAA policies and objectives; oversees the development of and recommend 
policies and programs to meet NOAA's objectives; coordinates the 
implementation of policies promulgated by the Under Secretary/
Administrator and Assistant Secretary/Deputy Administrator; coordinates 
actions required of NOAA in response to Executive Branch policy 
decisions; develops, plans, and coordinates major program efforts; and 
exercises delegated authority in committing NOAA to courses of action; 
assists the Under Secretary/Administrator and Assistant Secretary/
Deputy Administrator in the administration of programs and operations 
of NOAA; and represents NOAA in executive level liaison with other 
Federal agencies, the Congress, and private industry. The Executive 
Secretariat and the Program Coordination Office are part of the Deputy 
Under Secretary's office.
    The Chief Scientist of NOAA is the principal scientific advisor to 
the Under Secretary. The Chief Scientist is NOAA's principal 
spokesperson on scientific and technological issues, formulates and 
recommends scientific policy to the Under Secretary/Administrator, and 
provides guidance to NOAA Line and Program Offices on scientific and 
technological issues; is NOAA's primary point of contact with the 
National Science Foundation, the National Academy of Sciences, the 
National Academy of Engineering, and other national and international 
science and technology organizations; superintends a continual process 
of independent peer evaluation to determine the quality and relevance 
of NOAA's science and technology programs, products, services, and 
professional staff, and recommends where and how improvements should be 
made; ensures that all NOAA services are based on sound science, that 
NOAA research programs are designed to improve existing NOAA services 
or establish the basis for needed new services, and that NOAA's 
research laboratories are meeting the agency's mission goals; and 
fosters sound research strategies and scientific program development 
within NOAA to meet long-range societal needs and emerging scientific 
and technological opportunities.
    The Office of Public and Constituent Affairs provides advice and 
counsel to the Office of the Under Secretary, Assistant Administrators, 
Program and Staff Office Directors and their staffs on media and 
constituent relations. The Office of Public and Constituent Affairs: 
establishes policies for communicating NOAA's activities to the media, 
constituencies and other audiences both internally and externally; 
provides a wide range of services to the media including responding to 
all inquiries, planning and conducting press conferences and media 
briefings; provides services to the public and NOAA's constituencies 
including writing fact sheets and press releases, responding to 
inquiries, coordinating conferences, briefings and luncheons, and 
responding to other constituency needs; serves as NOAA's central focus 
for internal communications; work with public and private sector 
organizations for collaborative outreach projects, planning and 
conducting ceremonies; produces video news releases and slide shows, 
full-length videos or films, maintains libraries of existing NOAA 
photographs, slides, film, videos and television news footage; responds 
to all public mail with materials updated and maintained by the 
correspondence unit; and coordinates the office's activities with the 
Office of Public Affairs, Department of Commerce.
    The Office of Sustainable Development and Intergovernmental Affairs 
provides advice and counsel to the Office of the Under Secretary, and 
the Department of Commerce on matters dealing with sustainable 
development and intergovernmental affairs. The Office, through 
consultation within NOAA and with the Department of Commerce, 
identifies opportunities for the deployment of coordinated interagency/
intergovernmental policy strategies which recognize the importance of 
linking economic and environmental goals; provides advice and 
assistance on intergovernmental issues affecting NOAA; facilitates new 
partnerships among governments, private industry, academic 
institutions, trade and professional associations to bring Federal, 
state, and local resources to bear on economic problems aggravated by 
conflicts over resource management and other issues; supports the 
Secretary of Commerce and Under Secretary/Administrator on policies to 
encourage positive relationships between economic growth and 
environmental protection; reviews proposed NOAA policies and programs 
to assess their impacts on state, local and regional governments; 
prepares reference documents, and coordinates studies and analyzes data 
that will be the basis for recommendations to NOAA management in its 
areas of responsibility.
    The Office of Policy and Strategic Planning provides advice and 
counsel to the Office of the Under Secretary to achieve NOAA's goals 
through policy development, planning, and monitoring of appropriate 
agency policies. The Office develops and evaluates in coordination with 
the Assistant Administrators, and Program and Staff Office Directors, 
policies, strategies, and long-range plans for new initiatives and 
modification of existing programs; conducts and coordinates planning 
research and program and economic evaluations to provide a rigorous 
analytical basis for identifying changing national needs in NOAA's 
mission areas, identifies strengths and weaknesses in NOAA's programs 
to respond to national needs, and designs new strategies and approaches 
to achieve NOAA's high priority mission objectives; updates, as 
appropriate, the NOAA Strategic Plan; coordinates all NOAA activities 
implementing the National Environmental Policy Act (NEPA) and ecology 
and environmental conservation matters; and serves as the focal point 
for the Department's NEPA compliance and implementation.
    The Office of Legislative Affairs coordinates all NOAA contacts 
with the Congress other than those relating to appropriations; and is 
responsible for the planning, direction, and coordination of 
legislative programs that are of immediate concern to the Office of the 
Under Secretary. The Office serves as the primary liaison for NOAA with 
the members and staff of the Congress; identifies and tracks all 
legislation of interest to NOAA, keeping the Assistant Administrators 
and Office of the Under Secretary informed; assists in the development 
of positions setting forth NOAA's views on the merits of proposed or 
pending legislation, receives requests for preparation of testimony 
before the Congress and coordinates responses to questions submitted 
for the record by members and staff; directs and coordinates NOAA 
cross-cutting and special interest congressional and legislative 
activities; provides leadership to improve communications and 
coordination among legislative activities within Line and Program 
Offices and provides oversight of those programs; and coordinates the 
Office's activities with the Office of Legislative and 
Intergovernmental Affairs, Department of Commerce.
    The Office of International Affairs, which includes the Deputy 
Assistant Secretary for International Affairs, is responsible for 
planning and coordinating NOAA's international programs and carries 
out, as directed by the Office of the Under Secretary, tasks of special 
interest related to international activities. The Deputy Assistant 
Secretary for International Affairs exercises a leadership role in 
establishing policies, guidelines, and procedures for NOAA's 
international programs, including the coordination of NOAA's major 
international activities including those programs that overlap 
Assistant Administrators' or Program Directors' interests or 
responsibilities; provides support for the development and coordination 
of NOAA's international policies regarding ``trade and environment'' 
issues and the negotiation of trade agreements; coordinates NOAA's 
interactions on international issues with other Federal departments and 
agencies, as well as other bureaus within the Department of Commerce; 
develops Administration policy on international issues affecting NOAA; 
coordinates NOAA's participation in U.S. delegations to international 
fora; and participates in the negotiation of international agreements 
and appropriate representation of NOAA and the Department of Commerce 
at international fora on environmental issues.
    The Office of General Counsel assists the General Counsel of NOAA 
in carrying out his/her statutory functions established by 
Reorganization Plan No. 4 of 1970.
    The Office of Military Affairs facilitates coordination and joint 
planning with the military services and other Department of Defense 
(``DOD'') offices as required, on programs of mutual organizational 
interest.
    The Office of the Federal Coordinator for Meteorological Services 
and Supporting Research, more briefly known as the Office of the 
Federal Coordinator for Meteorology, is an interdepartmental office 
established to ensure the effective use of federal meteorological 
resources by leading the systematic coordination of operational weather 
requirements and services, and supporting research, among the federal 
agencies.
    Question. Are they in any way duplicative of each other or 
duplicative of similar offices within the NOAA Line Offices?
    Answer. Similar positions exist in the NOAA line offices, however, 
the work they complete is not duplicative. The staff supporting the 
Under Secretary and Associate Offices are responsible for producing 
NOAA-wide workproducts.
    Question. How many people, Full-Time Equivalents (FTEs), detailees, 
and contractors work in each of these offices? What is each office's 
budget level? Which accounts in NOAA's budget support these offices?
    Answer. See attached table entitled ``Resource Analysis for Under 
Secretary and Associate Offices''.

   RESOURCE ANALYSIS--UNDER SECRETARY AND ASSOCIATE OFFICES, MAY 2001
                          [Dollars in millions]
------------------------------------------------------------------------
                                            FTE     Detailees    Amount
------------------------------------------------------------------------
USEC \1\...............................         12  .........       $3.2
DUS \2\................................          8          8         .7
Chief Scientist........................          5  .........         .6
Public & Constituent Affairs...........         36          5        3.7
Policy & Strategic Planning............         10  .........        1.2
Sustainable Development &                       10  .........        1.2
 Intergovernmental Affairs.............
Legislative Affairs....................         21  .........        2.0
International Affairs..................          8  .........         .8
General Counsel........................        129  .........       10.6
Military Affairs \3\...................  .........  .........  .........
Federal Coordinator for Meteorology \4\         11  .........         .8
                                        --------------------------------
      Subtotals \5\....................        250         13       24.9
    Detailees..........................         13  .........  .........
                                        --------------------------------
      Totals...........................        263  .........       24.9
------------------------------------------------------------------------
\1\ Includes Offices of Assistant Secretary for Oceans & Atmosphere and
  Deputy Administrator. Also includes $1.7 million in GSA rent and
  utilities for all Under Secretary and Associate Offices with exception
  of Office of General Counsel and OFCM.
\2\ Includes resources supporting Program Coordination Office (7
  detailees, 1 contractor) and Executive Secretariat (4 FTEs) which are
  operationally integrated with the office of Deputy Under Secretary. As
  of May 7, 2001, Office of Deputy Under Secretary was supplemented by
  one contractor position.
\3\ Military Affairs is supported by non-NOAA detailees from Department
  of Defense.
\4\ Resources shown above are as of May 2001. The fiscal year 2002
  budget request reflects the Congressionally-approved transfer of
  $1,059,000 and 12 FTE from the National Weather Service base to
  Corporate Services' base.
\5\ Includes 10 Presidential Appointees and 6 Schedule ``C''
  appointments.

    Question. Which accounts in NOAA's budget support these offices?
    Answer.

                          [Dollars in millions]

                                                                  Amount
Direct Appropriations.............................................  17.4
Mgt Fund..........................................................   5.9
Earnings..........................................................   1.6
                                                                  ______
      Total.......................................................  24.9

    Question. Is it your intention to continue to support all of these 
offices, or are there some offices which you intend to terminate?
    Answer. Yes, NOAA will continue to support all of these offices.
                   real facility and equipment needs
    Question. The Committee is concerned that NOAA continues to defer 
its real facility, construction, and equipment needs into the outyears, 
without regard for the costs associated with putting off critical 
repairs. In the fiscal year 2002 Budget request, NOAA is asking for $1 
million in the Construction Account for critical repairs to the 
Beaufort Laboratory. Will this funding be sufficient to address all of 
the Lab's critical infrastructure concerns?
    Answer. The $1 million for Beaufort Lab repair projects requested 
in fiscal year 2002 is not sufficient to complete all of the required 
repair and renovation work. These funds would allow NOAA to address the 
two highest priority repairs: major electrical repairs and the 
planning, design and construction of a sewage and water system hookup 
to the Town of Beaufort system to avoid potentially harmful releases 
into the environment from the antiquated septic system.
    Question. What level of funding is required to solve the Beaufort 
problem?
    Answer. An additional $2 million (total of $3 million) would be 
required to complete the full suite of identified repairs at the 
facility. These additional needs include: Replacement of obsolete 
modular space (mobile homes that house laboratory and office space); 
replacement of the fish sampling platform; upgrade of shop electrical 
equipment; renovation of the radiation building; replace multiple heat 
pumps and AC units; window replacement; damaged seawall replacement; 
final electrical system renovations; mechanical renovation in the Main 
lab; elevator replacement; repair/conversions of old, damaged turtle 
rearing pens; lighting efficiency upgrades; fire alarm system 
evaluation; and refurbish the coatings on salt water tanks.
    Question. If resources are available this year, could you use them 
to solve this problem?
    Answer. Yes, the required repairs at Beaufort could be completed 
with additional resources.
    Question. Please provide a prioritized list of all of NOAA's needed 
facilities upgrades.
    Answer. See attached list entitled ``NOAA Facilities Maintenance, 
Repair & Safety''.

                                                      NOAA FACILITIES MAINTENANCE, REPAIR & SAFETY
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                          Priority                                                                                             Remaining
   LO       State/Installation Name   ----------------                                  Project Description                                      Funds
                                        Rank     Cat                                                                                             Req'd
--------------------------------------------------------------------------------------------------------------------------------------------------------
    NOS NC--Beaufort, NC, Lab           10   ......  Major Electrical Repairs (1,154 comb)................................................    $270,480
    NOS NC--Beaufort, NC, Lab           10   ......  Elect. upgrade--ADP Bldg, Satwater Tower, Dock.......................................  ..........
    NOS NC--Beaufort, NC, Lab           10   ......  Structural repairs...................................................................  ..........
    NOS NC--Beaufort, NC, Lab           10   ......  Repair bridge to Pivers Island.......................................................  ..........
    NWS HI--Ewa Beach, HI, Tsunami      10   ......  Electrical Distrib. System Repair....................................................  ..........
         Warning Ctr
   NMFS TX--Galveston, TX, Lab          10   ......  Complete rehab of lab--Phase III--Design.............................................     100,800
   NMFS TX--Galveston, TX, Lab          10   ......  Complete rehab of the laboratory--phase I............................................  ..........
   NMFS TX--Galveston, TX, Lab          10   ......  Complete rehab of lab--Phase II......................................................  ..........
   NMFS HI--Honolulu, HI, Lab           10   ......  Auto-fire alarm system (all bldgs)...................................................  ..........
   NMFS AK--Juneau, AK, AFSC            10   ......  Replacement and repair of dock.......................................................  ..........
         Subport
   NMFS AK--Juneau, AK, AFSC            10   ......  Replace subport floats (funded and in progress)......................................  ..........
         Subport
   NMFS AK--Juneau, AK, Auke Bay        10   ......  Design Spec. to Repair Subport Pier Facing...........................................  ..........
         Lab
   NMFS AK--Juneau, AK, Auke Bay        10   ......  Freight Elevator Elim.&Crane Install. (completed 1997)...............................  ..........
         Lab
   NMFS CA--La Jolla, CA, S.W.          10   ......  Replace light fixtures in basement aquarium..........................................  ..........
         Fisheries Science Ctr
   NMFS CA--La Jolla, CA, S.W.          10   ......  Further Planning studies for LaJolla Remed. Project..................................  ..........
         Fisheries Science Ctr
   NMFS AK--Little Port Walter, AK,     10   ......  Install fire suppress. systm kitchen (completed 1997)................................  ..........
         Lab
   NMFS FL--Miami, FL S.E.              10   ......  Structural analysis and repair--Main lab.............................................  ..........
         Fisheries Science Center
    OAR FL--Miami, FL, AOML             10   ......  Electrical Upgrade of Lab Building...................................................  ..........
   NMFS CT--Milford, CT, Lab            10   ......  Seawater tank supports...............................................................  ..........
   NMFS CT--Milford, CT, Lab            10   ......  Structural Investigations............................................................  ..........
    OAR MI--Muskegon, MI, GLERL Lab     10   ......  Erosion repair and control...........................................................  ..........
    OAR MI--Muskegon, MI, GLERL Lab     10   ......  Safety and security repairs--GERL....................................................  ..........
   NMFS RI--Narragansett, RI, Lab       10   ......  Construct chemical storage building..................................................  ..........
   NMFS RI--Narragansett, RI, Lab       10   ......  Facility Chiller Replacement.........................................................  ..........
   NMFS FL--Panama City, FL, Lab        10   ......  Replace HVAC--Study mold problem.....................................................     378,000
   NMFS MS--Pascagoula, MS, Lab         10   ......  Replace old dock bldg................................................................     728,000
   NMFS AK--Pribilof Islands, AK,       10   ......  St. Paul Catwalk repair..............................................................  ..........
         St. Paul Lab
   NMFS NJ--Sandy Hook Lab              10   ......  Travel for Construction Inspection...................................................  ..........
    OFA WA--Seattle, WA Western         10   ......  Fence repairs........................................................................      72,800
         Regional Ctr
   NMFS WA--Seattle, WA, NW             10   ......  Abate mold and install controls......................................................      95,200
         Fisheries Science Ctr,
         Montlake
   NMFS WA--Seattle, WA, NW             10   ......  East Building Ventilation system upgrade.............................................     896,000
         Fisheries Science Ctr,
         Montlake
    OFA WA--Seattle, WA, Western        10   ......  Emergency Repairs Child Care Center (80k-100k).......................................  ..........
         Regional Ctr
   NMFS CA--Tiburon, CA, Lab            10   ......  Structural integrity of Tiburon Physiology Bldg......................................  ..........
   NMFS MA--Woods Hole, MA, N.E.        10   ......  New Bulkhead.........................................................................  ..........
         Science Ctr & Lab
   NMFS MA--Woods Hole, MA, NE          10   ......  Construct chemical storage building..................................................  ..........
         Fisheries Science Center
   NMFS MA--Woods Hole, MA, NE          10   ......  Install fueling and safety equipment.................................................  ..........
         Fisheries Science Center
   NMFS MA--Woods Hole, MA, NE          10   ......  Upgrade laboratory electrical system.................................................  ..........
         Fisheries Science Center
   NMFS MA--Woods Hole, MA, NE          10   ......  Replace sand filters--Aquarium.......................................................  ..........
         Fisheries Science Center
   NMFS MA--Woods Hole, MA, NE          10   ......  Repair basement ceiling--Aquarium....................................................  ..........
         Fisheries Science Center
   NMFS MA--Woods Hole, MA, NE          10   ......  New Warehouse @ Otis AFB (land/100k).................................................  ..........
         Fisheries Science Center
   NMFS MA--Woods Hole, MA, NE          10   ......  Public Aquarium Electrical Panel Replacement.........................................  ..........
         Fisheries Science Center
   NMFS CT--Milford, CT, Lab             9   ......  Construct chemical storage building..................................................  ..........
    OAR AK--Barrow, AK, GMCC             9       A   General rehab 8 projects.............................................................  ..........
         Observatory
    NWS AK--Barrow, AK, WSO              9       A   City Water Line Connection--NWS FUNDED...............................................  ..........
    OAR AK--Barrow, AK,GMCC              9       A   New garage/Replace storage bldg......................................................  ..........
         Observatory
    NOS NC--Beaufort, NC, Lab            9       A   Replacement of fish sampling platform................................................      29,400
    NOS NC--Beaufort, NC, Lab            9       A   Construct Sanitary Sewer Collection System...........................................     823,200
    OAR CO--Boulder, CO, Table           9       A   New Roof Building I-10-C.............................................................  ..........
         Mountain Observatory
    NOS SC--Charleston, SC, Coastal      9       A   CSC Building #2 Fire Alarm...........................................................  ..........
         Services Center
    NWS HI--Ewa Beach, HI, Tsunami       9       A   Sanitary Sewer System................................................................  ..........
         Warning Ctr
    NWS HI--Ewa Beach, HI, Tsunami       9       A   Replace deteriorated water mains.....................................................  ..........
         Warning Ctr
    OAR CO--Fritz Peak, CO               9       A   Pave Loading Dock/Entranceway Steps..................................................  ..........
         Observatory
    OAR CO--Fritz Peak, CO               9       A   Install fire detection system........................................................  ..........
         Observatory
    OAR CO--Fritz Peak, CO               9       A   Peak Exterior Stairs.................................................................  ..........
         Observatory
    OAR CO--Fritz Peak, CO               9       A   Replace power receptacles............................................................  ..........
         Observatory
    OAR CO--Fritz Peak, CO               9       A   Main Lab: replace switchgear, elec. panls, etc.......................................  ..........
         Observatory
   NMFS OR--Hammond, OR, Pt. Adams       9       A   Mezzanie Structural Reinforcement....................................................  ..........
         Field Station
   NMFS AK--Juneau, AK, Auke Bay         9       A   Chemical Fume Hoods for Safety at Lab (10 hoods).....................................     140,000
         Lab
   NMFS AK--Juneau, AK, Auke Bay         9       A   ABL foundation leak repair (NMFS completed 1997).....................................  ..........
         Lab
    NOS HI--Kihei, HI Marine             9       A   Upgrade non-conforming electrical wiring.............................................  ..........
         Sanctuary
    NOS HI--Kihei, HI, Marine            9       A   Repair foundation columns of Main Building...........................................  ..........
         Santuary
    NOS HI--Kihei, HI, Marine            9       A   Main Building Roof Replacement.......................................................  ..........
         Santuary
    NOS HI--Kihei, HI, Marine            9       A   Visitors Activity Center Roof Repair.................................................  ..........
         Santuary
    NOS HI--Kihei, HI, Marine            9       A   Repair insect damaged beams & joists (Main Bldg.)....................................  ..........
         Santuary
   NMFS AK--Kodiak, AK, Gibson Cove      9       A   Rmvl of electrical safety hzrds in main bldg & pier..................................  ..........
   NMFS CA--La Jolla, CA, S.W.           9       A   Concrete stairway Concrete stairway repair...........................................  ..........
         Fisheries Science Ctr
   NMFS CA--La Jolla, CA, S.W.           9       A   Repair/replace concrete pad under water tower........................................  ..........
         Fisheries Science Ctr
   NMFS AK--Little Port Walter, AK,      9       A   White House masonry repairs & Weir Cabin Roof Replac.................................     560,000
         Lab
   NMFS AK--Little Port Walter, AK,      9       A   Panabode found; Weir warehse repairs (CIP funds).....................................  ..........
         Lab
   NMFS AK--Little Port Walter, AK,      9       A   Correct nonconforming hazardous electrical wiring....................................  ..........
         Lab
   NMFS AK--Little Port Walter, AK,      9       A   Replace power generator system (cip funds, almost compl).............................  ..........
         Lab
   NMFS AK--Little Port Walter, AK,      9       A   Install communications system (LO done)..............................................  ..........
         Lab
   NMFS AK--Little Port Walter, AK,      9       A   Install Automatic Fire Alarm/All Bldgs. (in progress)................................  ..........
         Lab
   NMFS AK--Little Port Walter, AK,      9       A   Weir Hoist-Rail support beam footbridge replacmt.....................................  ..........
         Lab
   NMFS AK--Little Port Walter, AK,      9       A   Replace unsafe fire escapes and structures...........................................  ..........
         Lab
    NWS Pac.Is--Majuro & other           9       A   Relocate hydrogen generators.........................................................  ..........
         Pacific WSOs; Marshall Is,
         Lihue, AmSamoa, Wake, WSOs
    OAR HI--Mauna Loa, HI, GMCC          9       A   Emergency Electrical Repairs.........................................................  ..........
         Observatory
   NMFS FL--Miami, FL S.E.               9       A   Ground electrical receptacles--Main Lab (Safety Funded)..............................  ..........
         Fisheries Science Center
   NMFS FL--Miami, FL S.E.               9       A   Life Safety Modifications--Annex (Safety Funded).....................................  ..........
         Fisheries Science Center
   NMFS FL--Miami, FL S.E.               9       A   Replace card reader system...........................................................  ..........
         Fisheries Science Center
   NMFS CT--Milford, CT, Lab             9       A   Masonary and concrete repairs........................................................      89,600
    OAR MI--Muskegon, MI, Fld Sta        9       A   Renovate Bldg. I.....................................................................     717,360
   NMFS RI--Narragansett, RI, Lab        9       A   Replace Trailers (see e071)..........................................................  ..........
   NMFS RI--Narragansett, RI, Lab        9       A   Fire Detection System for Trailers...................................................  ..........
   NMFS OR--Newport, OR, Lab             9       A   Exhaust fumehoods vertically from roof...............................................      11,200
   NMFS OR--Newport, OR, Lab             9       A   Improvement of facility fire protection sys. (done by LO)............................  ..........
   NMFS OR--Newport, OR, Lab             9       A   Fire Safety in Aquaculture Lab.......................................................  ..........
   OMAO VA--Norfolk, VA, Atlantic        9       A   Bulkhead Repairs.....................................................................  ..........
         Marine Center
   OMAO VA--Norfolk, VA, Atlantic        9       A   Dockside fire sup. sys. (study funded, sys. not needed)..............................  ..........
         Marine Center
   OMAO VA--Norfolk, VA, Atlantic        9       A   Patch Bulkhead.......................................................................  ..........
         Marine Center
    OAR TN--Oak Ridge, TN, AT&D Lab      9       A   Upgrade darkroom exhaust ventilation.................................................  ..........
    OAR TN--Oak Ridge, TN, AT&D Lab      9       A   Replace Walker Branch site bldgs.....................................................  ..........
    OAR TN--Oak Ridge, TN, AT&D Lab      9       A   Replace electrical wiring--main bldg.................................................  ..........
    OAR TN--Oak Ridge, TN, AT&D Lab      9       A   Flooring Reinforcements..............................................................  ..........
    OAR AmSam--Pago Pago, AmSamoa,       9       A   Construct concrete reinforced sampling bldg..........................................  ..........
         GMCC Observatory
    OAR AmSam--Pago Pago, AmSamoa,       9       A   Replace Stairway/Rehab. Generator Bldg...............................................  ..........
         GMCC Observatory
   NMFS FL--Panama City, FL, Lab         9       A   Investigate condition of piles.......................................................  ..........
   NMFS FL--Panama City, FL, Lab         9       A   Replace HVAC system..................................................................  ..........
   NMFS FL--Panama City, FL, Lab         9       A   Replace Boiler and controls..........................................................  ..........
    OAR CO--Platteville, CO              9       A   General bldg rehab. (incl. Fencing & ground impr.)...................................  ..........
   NMFS AK--Pribilof Islands, AK,        9       A   Sewage System Upgrade................................................................  ..........
         St. Paul Lab
    OAR NJ--Princeton, NJ, ERL           9       A   Masonry Repairs......................................................................     106,400
         Geophysys. Dynam. Lab
    OAR NJ--Princeton, NJ, ERL           9       A   Ceiling Asbestos Removal.............................................................   1,624,000
         Geophysys. Dynam. Lab
    OAR NJ--Princeton, NJ, ERL           9       A   Asbestos Removal Study...............................................................  ..........
         Geophysys. Dynam. Lab
   NMFS WA--Seattle, WA, NW              9       A   Demolish Pilot Plant.................................................................   1,008,000
         Fisheries Science Ctr,
         Montlake
    OFA MD--Silver Spring Metro          9       A   Plaza Tiles..........................................................................  ..........
         Center
    NWS     Various NWS Sites--60        9       A   Hydrogen valve repl:NWS FUNDED, DONE.................................................  ..........
             WSOs
   NMFS MA--Woods Hole, MA, NE           9       A   Second Means Egress&Handicap Access--Aquarium........................................  ..........
         Fisheries Science Center
    NWS AmSam--American Samoa, Pago      9       B   Arch. Upgrade for WSO (delete--WSO to be replaced)...................................     336,000
         Pago WSO
    NOS CO--Boulder, CO, Table           9       B   General Building Rehab--F-6..........................................................      16,800
         Mountain Observatory
    OAR CO--Boulder, CO, Table           9       B   Renovate bldg E-12-B.................................................................      72,800
         Mountain Observatory
    OAR CO--Boulder, CO, Table           9       B   Renovate bldg I-10-C.................................................................     168,000
         Mountain Observatory
    NOS CO--Boulder, CO, Table           9       B   Resurface roof--F6 Lab...............................................................  ..........
         Mountain Observatory
    NOS CO--Boulder, CO, Table           9       B   Resurface driveway & parking lot.....................................................  ..........
         Mountain Observatory
    NOS SC--Charleston, SC, Coastal      9       B   CSC bulding #2 roof (funded by NOS)..................................................  ..........
         Services Center
    OAR CO--Erie, CO, Field Sta          9       B   Erie Facilities upgrade..............................................................      72,800
    NWS HI--Ewa Beach, HI, Tsunami       9       B   Roof replacement (NWS Funded)........................................................  ..........
         Warning Ctr
    OAR CO--Fritz Peak, CO               9       B   Cottage: repair/upgrade mech, elec. wins., doors, tiles; paint.......................      29,904
         Observatory
    OAR CO--Fritz Peak, CO               9       B   Renovate ceiling and lighting........................................................      77,280
         Observatory
    OAR CO--Fritz Peak, CO               9       B   Replace Cottage roof.................................................................  ..........
         Observatory
    OAR CO--Fritz Peak, CO               9       B   Replace HVAC & hot water system......................................................  ..........
         Observatory
    OAR CO--Fritz Peak, CO               9       B   Replace lightning protection.........................................................  ..........
         Observatory
    OAR CO--Fritz Peak, CO               9       B   Main Lab: replace exterior equipment elevator........................................  ..........
         Observatory
   NMFS TX--Galveston, TX, Lab           9       B   Variable speed drive pump............................................................      60,480
   NMFS TX--Galveston, TX, Lab           9       B   Replace Salt Water Tanks.............................................................      64,960
   NMFS TX--Galveston, TX, Lab           9       B   Variable air controls for the buildings 213 & 302....................................      67,200
   NMFS OR--Hammond, OR, Pt. Adams       9       B   Replace termite damaged wood storage building foundation.............................      33,600
         Field Station
   NMFS HI--Honolulu, HI, Lab            9       B   Central Air Conditioning.............................................................  ..........
   NMFS HI--Honolulu, HI, Lab            9       B   Electrical upgrade...................................................................  ..........
    NWS TX--Houston, TX, WSO             9       B   Complete--NWS FUNDED.................................................................  ..........
   NMFS AK--Juneau, AK, Auke Bay         9       B   Genetics lab foundation repair & reinforcement.......................................      95,200
         Lab
   NMFS AK--Juneau, AK, Auke Bay         9       B   Eng. Design for Repl. Water Line Auke Creek Hatchery.................................     448,000
         Lab
   NMFS AK--Kodiak, AK, Gibson Cove      9       B   Refurbish Sanitary Sewage Treatment Unit.............................................  ..........
   NMFS CA--La Jolla, CA, S.W.           9       B   Repair the deterioration of the exterior walkway edges...............................      50,400
         Fisheries Science Ctr
   NMFS CA--La Jolla, CA, S.W.           9       B   Boiler retubing and repair...........................................................  ..........
         Fisheries Science Ctr
   NMFS AK--Little Port Walter, AK,      9       B   General rehab--safety systems upgrade................................................  ..........
         Lab
    OAR FL--Miami, FL, AOML              9       B   Replacement of cooling tower.........................................................      29,344
    OAR FL--Miami, FL, AOML              9       B   Roof Replacement.....................................................................      56,168
    OAR FL--Miami, FL, AOML              9       B   Replacement of Existing York 250 Ton Cent. Liq. Chiller..............................     306,880
   NMFS CT--Milford, CT, Lab             9       B   Seawater Chiller (NMFS funded).......................................................  ..........
   NMFS RI--Narragansett, RI &           9       B   Replace Service Entrance Switchgear & Generators.....................................     240,800
         Milford, CN Labs
    NWS TN--Nashville, TN, Upper         9       B   Replace doors on upper air bldg......................................................  ..........
         Air Facility
    OAR TN--Oak Ridge, TN, AT&D Lab      9       B   New roof for modular office bldg.....................................................      56,000
    OAR TN--Oak Ridge, TN, AT&D Lab      9       B   Replace roofing--main bldg (funded by DOE)...........................................  ..........
    OAR TN--Oak Ridge, TN, AT&D Lab      9       B   Repl. Roof Ship./Rec. Bldg. (funded by OAR)..........................................  ..........
   NMFS CA--Pacific Grove, CA            9       B   Rehab of heating & ventilation system (LO done)......................................  ..........
   NMFS CA--Pacific Grove, CA            9       B   Roof Drain Repairs (completed by NMFS)...............................................  ..........
    OAR AmSam--Pago Pago, AmSamoa,       9       B   Restore solar power sys.; rehab main lab (w/o A&E, etc)..............................      61,600
         GMCC Observatory
    OAR AmSam--Pago Pago, AmSamoa,       9       B   Repair roof/water catchmain sys.; rehab main lab.....................................     168,000
         GMCC Observatory
    OAR AmSam--Pago Pago, AmSamoa,       9       B   Rehabilitate government house (Bldg. 2)..............................................     168,000
         GMCC Observatory
    OAR AmSam--Pago Pago, AmSamoa,       9       B   Rehabilitate Govt. Employee Housing (bldg. 1)........................................  ..........
         GMCC Observatory
    NWS AK--Palmer, AK, Tsunami          9       B   Basement water damage repairs (NWS Funded)...........................................  ..........
         Warning Ctr
   NMFS FL--Panama City, FL, Lab         9       B   Replace Overhead htrs................................................................       3,920
   NMFS FL--Panama City, FL, Lab         9       B   Upgrade Electrical system............................................................      11,200
   NMFS FL--Panama City, FL, Lab         9       B   Foundation erosion engineering evaluation............................................      22,400
   NMFS FL--Panama City, FL, Lab         9       B   Shoreline Stabilization..............................................................      22,400
   NMFS FL--Panama City, FL, Lab         9       B   Dock and bulkhead stability study....................................................      56,000
   NMFS FL--Panama City, FL, Lab         9       B   Engineering Evaluation...............................................................      64,960
   NMFS MS--Pascagoula, MS, Lab          9       B   Replace Chapman Warehouse............................................................     147,840
   NMFS MS--Pascagoula, MS, Lab          9       B   Replacement of Floor and Wall Coverings..............................................  ..........
   NMFS MS--Pascagoula, MS, Lab          9       B   HVAC repairs (funded 1997, not complete).............................................  ..........
    OAR CO--Platteville, CO              9       B   Remove Asbestos Floor Tile...........................................................  ..........
   NMFS AK--Pribilof Islands, AK,        9       B   Rehab of Garco Building--St.Paul.....................................................      84,000
         St. Paul Lab
    NWS AK--Pribilof Islands, AK,        9       B   Reroof Composite Building (NWS funded)...............................................  ..........
         St. Paul WSO
    OAR NJ--Princeton, NJ, ERL           9       B   Chiller #3 Replacement (funded by OAR)...............................................  ..........
         Geophysys. Dynam. Lab
    OAR NJ--Princeton, NJ, ERL           9       B   Chiller Plant Upgrade (funded by OAR)................................................  ..........
         Geophysys. Dynam. Lab
    OAR NJ--Princeton, NJ, ERL           9       B   Chiller Plant Upgrade Design.........................................................  ..........
         Geophysys. Dynam. Lab
   NMFS WA--Seattle, WA, NW              9       B   Fire alarm system--all buildings.....................................................  ..........
         Fisheries Science Ctr,
         Montlake
    OFA WA--Seattle, WA, Western         9       B   Roof replacement bldg 3, incl. canopy................................................     504,000
         Regional Ctr
    OFA WA--Seattle, WA, Western         9       B   Roof replacement bldg 4..............................................................     657,664
         Regional Ctr
    NWS OR--Sexton Summit, OR, WSO       9       B   Repair/replace water line to Weather Svc Station.....................................      67,200
    NWS LA--Slidell, LA, NEXRAD          9       B   Flood control dyke around NEXRAD (Funded by LO)......................................  ..........
    NWS AK--Barrow, AK, WSO              8       A   Upgrade heating systems (NWS Funded).................................................  ..........
    NWS     Eastern Region--10 WFOs      8       A   Install 10 fire detection and alarm systems..........................................     224,000
    OAR CO--Erie, CO, BAO                8       A   OAR Tower safety repairs & replacement...............................................      39,200
    OAR CO--Erie, CO, Observatory        8       A   BAO Trailer & Storage Space Upgrades.................................................      39,200
    OAR CO--Fritz Peak, CO               8       A   Install inter. stairs, firedr/wall, janit. closet (Desgn funded).....................      63,168
         Observatory
    OAR CO--Fritz Peak, CO               8       A   New Roof and Lighting--Main Lab Bldg.................................................      95,200
         Observatory
    OAR CO--Fritz Peak, CO               8       A   Cottage Site Grading/Drainage........................................................  ..........
         Observatory
    OAR CO--Fritz Peak, CO               8       A   Site grading, paving, install parking area...........................................  ..........
         Observatory
    OAR CO--Fritz Peak, CO               8       A   Flammable Liquid & Gas cylinder storage area.........................................  ..........
         Observatory
    OAR CO--Fritz Peak, CO               8       A   Bldg. & Site security system upg. DOC sy funded......................................  ..........
         Observatory
   NMFS TX--Galveston, TX, Lab           8       A   Bldg demolition--East Lagoon Bldg....................................................      91,840
   NMFS TX--Galveston, TX, Lab           8       A   Construct Boat Barn..................................................................     247,520
    NWS KS--Goodland, KS, WFO            8       A   Installation of LED Exit Lights......................................................       6,944
    NWS KS--Goodland, KS, WFO            8       A   Condensing Units Disconnect Switches.................................................      10,080
    NWS KS--Goodland, KS, WFO            8       A   Installation of Smoke Detectors (NWS Funded).........................................  ..........
   NMFS OR--Hammond, OR, Pt. Adams       8       A   Marina Shop Life Safety Upgrade......................................................      39,078
         Field Station
   NMFS OR--Hammond, OR, Pt. Adams       8       A   Fire/intrus. detect. & fire suppress. systm (Complete Secyfnds)......................  ..........
         Field Station
   NMFS OR--Hammond, OR, Pt. Adams       8       A   Remed. unprotect wiring/Marina Bldg (NMFS complete 1997).............................  ..........
         Field Station
   NMFS AK--Juneau, AK, AFSC             8       A   Crane for Subport Pier...............................................................     168,000
         Subport
   NMFS AK--Juneau, AK, Auke Bay         8       A   Replace gangway to the ABL Float with a new covered gangway..........................      85,120
         Lab
   NMFS AK--Juneau, AK, Auke Bay         8       A   Relocation of Sewage Pumping Tank & Pier Decking.....................................     112,000
         Lab
   NMFS AK--Juneau, AK, Auke Bay         8       A   Arrest earth movement in parking lot.................................................     224,000
         Lab
   NMFS AK--Kodiak, AK, Gibson Cove      8       A   Replace heating boiler (completed by LO).............................................  ..........
   NMFS AK--Kodiak, AK, Gibson Cove      8       A   Install fire detection & security alarm systems......................................  ..........
   NMFS CA--La Jolla, CA, S.W.           8       A   Replace space heaters w/HVAC sys. in Library.........................................      50,400
         Fisheries Science Ctr
   NMFS CA--La Jolla, CA, S.W.           8       A   Walkway Coating Repair (810 combined)................................................     448,000
         Fisheries Science Ctr
   NMFS CA--La Jolla, CA, S.W.           8       A   Upgrade exhausthoods & exhaust fans (NMFS completed 1997)............................  ..........
         Fisheries Science Ctr
   NMFS AK--Little Port Walter, AK,      8       A   Implement Safety Measues, Railings, Eyewash, etc.....................................  ..........
         Lab
   NMFS WA--Manchester, WA Field         8       A   Correct electrical safety issues.....................................................      11,200
         Station
   NMFS WA--Manchester, WA Field         8       A   Provide retaining wall outside bldg. 13..............................................      28,000
         Station
   NMFS WA--Manchester, WA Field         8       A   Electrical Upgrade and exterior lighting.............................................      42,000
         Station
   NMFS WA--Manchester, WA Field         8       A   Provide Adequate Lateral Bracing.....................................................      65,296
         Station
   NMFS WA--Manchester, WA Field         8       A   Install fire hydrant.................................................................      78,400
         Station
   NMFS WA--Manchester, WA Field         8       A   Dock/pile repair.....................................................................     103,712
         Station
   NMFS WA--Manchester, WA Field         8       A   Replace fume hoods (NMFS funded).....................................................  ..........
         Station
    NWS AK--McGrath, AK, WSO             8       A   Water treatment system (NWS Funded)..................................................  ..........
   NMFS FL--Miami, FL S.E.               8       A   Entrance modification................................................................  ..........
         Fisheries Science Center
    OAR FL--Miami, FL, AOML              8       A   Miscellaneous Electrical Repairs.....................................................      26,096
    OAR FL--Miami, FL, AOML              8       A   Structural Study of Concrete Decks...................................................      59,472
   NMFS OR--Newport, OR, Lab             8       A   Install mag. door rel.& close gapsfire doors (LO done)...............................  ..........
   OMAO VA--Norfolk, VA, Atlantic        8       A   Eng. Study on Bulkhead Replacement...................................................     106,400
         Marine Center
    OAR TN--Oak Ridge, TN, AT&D Lab      8       A   Structural investigation.............................................................  ..........
    NWS CA--Oakland, CA, Upper Air       8       A   Facility repairs.....................................................................      84,000
         Facility
   NMFS CA--Pacific Grove, CA            8       A   Upgrade Emergency lighting system....................................................       6,608
   NMFS FL--Panama City, FL Lab          8       A   Install carbon monoxide detector.....................................................       2,240
   NMFS FL--Panama City, FL, Lab         8       A   Fire alarm & lighting................................................................      49,616
    OFA WA--Seattle, WA Western          8       A   Master fire panel upgrade for WRC campus.............................................     112,000
         Regional Ctr
    OFA WA--Seattle, WA Western          8       A   Hangar door lead based paint abatement & repair, bldg 32 & 33........................     288,288
         Regional Ctr
    OFA WA--Seattle, WA Western          8       A   Structural renovation of pedestrian skybridges, Buildings 1, 3 & 4...................     338,240
         Regional Ctr
    OFA WA--Seattle, WA Western          8       A   Install bird netting as an emergency remedy to potential hlth. problem...............     370,048
         Regional Ctr
    OFA WA--Seattle, WA Western          8       A   Fire alarm panel replacement for buildings 3, 4 and 8................................     448,000
         Regional Ctr
   NMFS WA--Seattle, WA, NW              8       A   Install chemical lab fume hoods......................................................  ..........
         Fisheries Science Ctr,
         Montlake
    OFA WA--Seattle, WA, Western         8       A   Repair skybridges....................................................................     338,240
         Regional Ctr
    OFA WA--Seattle, WA, Western         8       A   Auto. Fire sprinkler System, Bldg. 8 ofc.............................................     118,720
         Regional Ctr
   NMFS CA--Tiburon, CA, Lab             8       A   Replace Lab Hoods (NMFS Funding).....................................................  ..........
    NWS AK--Valdez, AK, WSO              8       A   Safety hazard correction.............................................................  ..........
 NESDIS VA--Wallops Island, VA,          8       A   Hurricane shutters...................................................................     198,240
         Data Acquis. Station
 NESDIS VA--Wallops Island, VA,          8       A   Screen Walls.........................................................................     333,760
         Data Acquis. Station
 NESDIS VA--Wallops Island, VA,          8       A   Strengthen Ext. Walls................................................................     991,200
         Data Acquis. Station
    NOS NC--Beaufort, NC, Lab            8       B   Repl. of pkg.heat pump & AC unit--Larva Rearing Lab..................................       6,468
    NOS NC--Beaufort, NC, Lab            8       B   Repl. thru-wall heat pump in Ecology Wing Main Lab...................................      31,634
    NOS NC--Beaufort, NC, Lab            8       B   Upgrade shop electrical equipment....................................................      58,240
    NOS NC--Beaufort, NC, Lab            8       B   Renovation--Radiation Bldg. (Survey Prop. #6)........................................     109,015
    NWS NY--Buffalo, NY WFO              8       B   Replace upper air inflation building (UAIB)..........................................     196,000
    NWS     Eleven Sites                 8       B   UPS Replacements.....................................................................     616,000
    NWS HI--Ewa Beach, HI, Tsunami       8       B   Resurface asphalt roadways to PTWC...................................................     212,800
         Warning Ctr
    NWS HI--Ewa Beach, HI, Tsunami       8       B   Structural repair of residences damaged by ants......................................  ..........
         Warning Ctr
    NWS HI--Ewa Beach, HI, Tsunami       8       B   Replace concrete window sills........................................................  ..........
         Warning Ctr
 NESDIS AK--Fairbanks, AK, Gilmore       8       B   Paint 4 Exterior Buildings...........................................................      28,000
         Creek CDA Sta
 NESDIS AK--Fairbanks, AK, Gilmore       8       B   Road Pavement Repair (funded by LO)..................................................  ..........
         Creek CDA Sta
    OAR CO--Fritz Peak, CO               8       B   Upgrade electrical service...........................................................  ..........
         Observatory
   NMFS OR--Hammond, OR, Pt. Adams       8       B   Replace heating boiler in station main bldg..........................................      28,000
         Field Station
   NMFS OR--Hammond, OR, Pt. Adams       8       B   Repair Termite-damaged Foundation....................................................      58,430
         Field Station
   NMFS OR--Hammond, OR, Pt. Adams       8       B   Combine & upgrade elect. svcs on site (NMFS completed)...............................  ..........
         Field Station
   NMFS HI--Honolulu, HI, Lab            8       B   Main Building Roof...................................................................      32,032
   NMFS AK--Juneau, AK, Auke Bay         8       B   Structural repair of General Purpose Bldg. roof......................................     134,400
         Lab
   NMFS AK--Juneau, AK, Auke Bay         8       B   Hydronics System Repair to Main Bldg.................................................  ..........
         Lab
   NMFS AK--Juneau, AK, Auke Bay         8       B   Repair foundation, ABL Main Bldg (NMFS funded).......................................  ..........
         Lab
    NOS HI--Kihei, HI, Marine            8       B   Repair old Garage and construct Shed endwall (fund LO)...............................  ..........
         Santuary
   NMFS AK--Kodiak, AK, Gibson Cove      8       B   Repair timber/retain. walls/timber pier repair.......................................      89,600
   NMFS AK--Kodiak, AK, Gibson Cove      8       B   Replace bldg exterior closure (LO funded)............................................  ..........
   NMFS CA--La Jolla, CA, S.W.           8       B   Replace Seawater chiller sys., incl. cool tower & Pumps..............................     168,000
         Fisheries Science Ctr
   NMFS WA--Manchester, WA Field         8       B   Marine Net-pen System Repair.........................................................     196,000
         Station
    NWS AK--McGrath, AK, WSO             8       B   Correct heating problems (6 residences)..............................................     247,520
    NWS AK--McGrath, AK, WSO             8       B   Replace electrical panel, etc. (NWS Funded)..........................................  ..........
   NMFS FL--Miami, FL S.E.               8       B   Packaged Heat Pump Replacements......................................................      10,416
         Fisheries Science Center
   NMFS FL--Miami, FL S.E.               8       B   Replace Fresh-Air Unit...............................................................      22,400
         Fisheries Science Center
   NMFS FL--Miami, FL S.E.               8       B   Repair 2nd Flr interior walls of the east wing.......................................      33,600
         Fisheries Science Center
   NMFS FL--Miami, FL S.E.               8       B   Paint exterior of the buildings......................................................      89,600
         Fisheries Science Center
   NMFS FL--Miami, FL S.E.               8       B   Replace condensing unit--Main Lab....................................................  ..........
         Fisheries Science Center
    OAR FL--Miami, FL, AOML              8       B   Caulking AOML windows................................................................      11,200
    OAR FL--Miami, FL, AOML              8       B   Replace condensing unit--Lab Building................................................  ..........
    NWS TX--Midland/Odessa, TX,          8       B   Replace doors on upper air bldg (funded by NWS)......................................  ..........
         Upper Air Facility
   NMFS CT--Milford, CT, Lab             8       B   Building 1 HVAC Upgrades.............................................................     280,000
   NMFS CT--Milford, CT, Lab             8       B   Heat Exchangers (NMFS funded)........................................................  ..........
   NMFS RI--Narragansett, RI, Lab        8       B   Re-pave Entrance Road and Parking Lot................................................      61,600
   NMFS RI--Narragansett, RI, Lab        8       B   Replace HVAC System--Lab Building....................................................     168,000
   NMFS RI--Narragansett, RI, Lab        8       B   Replace Facility Office/Storage Bldg.................................................     196,000
   NMFS RI--Narragansett, RI, Lab        8       B   Replace Greenhouse (NMFS Funded).....................................................  ..........
   OMAO VA--Norfolk, VA, Atlantic        8       B   Replace Windows......................................................................      89,600
         Marine Center
   OMAO VA--Norfolk, VA, Atlantic        8       B   Replace HVAC Systems Building 1......................................................     476,000
         Marine Center
   OMAO VA--Norfolk, VA, Atlantic        8       B   Roof Replacement (funded by ONCO)....................................................  ..........
         Marine Center
    OAR TN--Oak Ridge, TN, AT&D Lab      8       B   New shipping/receiving and storage bldg..............................................     196,000
    OAR TN--Oak Ridge, TN, AT&D Lab      8       B   HVAC system replacement in main bldg (pd DOE)........................................  ..........
   NMFS CA--Pacific Grove, CA            8       B   Electrical repairs...................................................................      10,080
   NMFS CA--Pacific Grove, CA            8       B   Exterior concrete repairs and modification...........................................      33,600
   NMFS CA--Pacific Grove, CA            8       B   Reroofing............................................................................      39,200
   NMFS FL--Panama City, FL, Lab         8       B   Replace windows......................................................................       4,704
   NMFS FL--Panama City, FL, Lab         8       B   Replace Entrance doors...............................................................       8,400
   NMFS FL--Panama City, FL, Lab         8       B   Upgrade Lighting.....................................................................      11,200
   NMFS FL--Panama City, FL, Lab         8       B   Replace pilings......................................................................      11,984
   NMFS FL--Panama City, FL, Lab         8       B   Paint Buildings......................................................................      28,448
   NMFS FL--Panama City, FL, Lab         8       B   Replace roof system--main bldg.......................................................  ..........
   NMFS MS--Pascagoula, MS, Lab          8       B   Boiler and pump replacement..........................................................      33,891
    NWS PA--Pittsburgh, PA WFO           8       B   Overhaul PBZ UAIB....................................................................      72,800
    OAR CO--Platteville, CO              8       B   Electrical upgrade & repair..........................................................  ..........
   NMFS AK--Pribilof Islands, AK,        8       B   Rehab staff quarters--St. Paul.......................................................     308,000
         St. Paul Lab
    NWS AK--Pribilof Islands, AK,        8       B   Electric & furnace renovation (NWS Funded)...........................................  ..........
         St. Paul WSO
    NWS UT--Salt Lake Cty, UT,           8       B   Improve Access Road: NWS FUNDED......................................................  ..........
         Tremonton Radar Site
    OFA WA--Seattle, WA Western          8       B   Asphalt repairs and seal coating of parking lots at BLD 1, 3, 4 and road surfaces         149,539
         Regional Ctr                                 area.
    OFA WA--Seattle, WA Western          8       B   Replace (7 HVAC roof top units, Building 3)..........................................     802,576
         Regional Ctr
   NMFS WA--Seattle, WA, NW              8       B   Electrical upgrade--West bldg........................................................      63,028
         Fisheries Science Ctr,
         Montlake
   NMFS WA--Seattle, WA, NW              8       B   Ceiling grid system and tiles East building..........................................     168,000
         Fisheries Science Ctr,
         Montlake
   NMFS WA--Seattle, WA, NW              8       B   Replace boiler in east building......................................................     224,000
         Fisheries Science Ctr,
         Montlake
   NMFS WA--Seattle, WA, NW              8       B   Roof replace--East, West bldgs, & library (NMFS funded)..............................  ..........
         Fisheries Science Ctr,
         Montlake
    OFA WA--Seattle, WA, Western         8       B   Asphalt repairs & Seal coating parking lots 1, 3, 4 & surfaces.......................     149,539
         Regional Ctr
    OFA WA--Seattle, WA, Western         8       B   Replace HVAC controls & operators....................................................     235,200
         Regional Ctr
    OFA WA--Seattle, WA, Western         8       B   Roof replacement Bldg. 1 incl. canopy................................................     598,080
         Regional Ctr
    NWS FL--Tampa, FL, Ruskin Upper      8       B   Replace doors on upper air bldg (funded by NWS)......................................  ..........
         Air Facility
 NESDIS VA--Wallops Island, VA,          8       B   Water plant upgrade (funded by NESDIS)...............................................  ..........
         Data Acquis. Station
    NWS FL--West Palm Beach, FL,         8       B   Roof replacement: NWS FUNDED.........................................................  ..........
         WSO
   NMFS MA--Woods Hole, MA, NE           8       B   Repl. windows--Aquar. & Maint. Bldgs. (NMFS part fnd)................................      61,600
         Fisheries Science Center
    NOS SC--Charleston, SC, Coastal      8        C  Inst. new HVAC in bldg #2 (funded by NOS--contr. prob.)..............................     319,200
         Services Center
   NMFS WA--Manchester, WA Field         8        C  Electrical upgrade of armored power cable to facility................................     112,000
         Station
   NMFS WA--Manchester, WA Field         8        C  Upgrade seawater delivery system.....................................................     112,000
         Station
    OAR HI--Mauna Loa, HI, GMCC          8        C  General construction.................................................................  ..........
         Observatory
   OMAO VA--Norfolk, VA, Atlantic        8        C  Building 2 office space..............................................................     184,800
         Marine Center
    OAR OK--Norman, OK Nat'n.            8        C  Repair of Norman radar dome facility (OAR funded)....................................  ..........
         Severe Storms Lab
   NMFS FL--Panama City, FL, Lab         8        C  Replace/repair underground dosmestic water lines.....................................       5,600
   NMFS FL--Panama City, FL, Lab         8        C  Repairs for walk in freezer..........................................................      11,200
   NMFS MA--Woods Hole, MA, NE           8        C  Seal Pool Upgrades--Aquarium.........................................................     448,000
         Fisheries Science Center
    NWS UT--Salt Lake City, UT,          8       D   Paint exterior and seal exterior walls (funded by NWS)...............................  ..........
         Upper Air Facility
    NWS AmSam--American Samoa, Pago      7       B   Residence repairs: NWS FUNDED........................................................  ..........
         Pago WSO
    NWS AK--Barrow, other AK WSOs:       7       B   Energy conservation renovations......................................................      56,000
         Nome, St. Paul, AnnetteIs,
         McGrath, AK
    NOS NC--Beaufort, NC, Lab            7       B   Window Replacement--Admin. Wing......................................................      23,520
    NOS NC--Beaufort, NC, Lab            7       B   Window Replacement Project--Fisheries Wing...........................................     119,952
    NOS NC--Beaufort, NC, Lab            7       B   Electrical ystem renovation--Main Lab................................................     151,312
    NOS NC--Beaufort, NC, Lab            7       B   Mechanical Renovation, Main Lab (Ecology wing).......................................     175,392
    NOS NC--Beaufort, NC, Lab            7       B   Seawall Replacement--North Side of Pivers Island.....................................     486,864
    NOS NC--Beaufort, NC, Lab            7       B   Misc. building upgrade--Main Lab (completed).........................................  ..........
    OAR CO--Fritz Peak, CO               7       B   Main Laboratory Rehab................................................................      69,776
         Observatory
   NMFS TX--Galveston, TX, Lab           7       B   Roof Repairs--Bldgs. #302 & #306.....................................................  ..........
   NMFS AK--Juneau, AK, AFSC             7       B   Subport Drainage and Paving..........................................................     280,000
         Subport
   NMFS CA--La Jolla, CA, S.W.           7       B   Freight Elevator Upgrade (incl. A/E des. & Tvl)......................................      78,400
         Fisheries Science Ctr
   NMFS CA--La Jolla, CA, S.W.           7       B   Office heaters, a-201, library (NMFS funded).........................................  ..........
         Fisheries Science Ctr
   NMFS WA--Manchester, WA Field         7       B   Dicap ramp and exterior repairs......................................................      39,200
         Station
    OAR HI--Mauna Loa, HI, GMCC          7       B   Repair Access Road...................................................................      33,600
         Observatory
    NWS AK--Nome, AK, WSO                7       B   Heating system Renovation (Removal asbestos).........................................      19,600
   OMAO VA--Norfolk, VA, Atlantic        7       B   Replace bulkhead--Parcel 1...........................................................   4,032,000
         Marine Center
    OAR TN--Oak Ridge, TN, AT&D Lab      7       B   Main Bldg. Floor Finish Replacement..................................................      72,800
    OAR TN--Oak Ridge, TN, AT&D Lab      7       B   Replace siding--main bldg (funded by DOE)............................................  ..........
   NMFS CA--Pacific Grove, CA            7       B   Refurbish heating and ventilation system.............................................      22,400
   NMFS FL--Panama City, FL, Lab         7       B   Replace roof system--other than main bldg............................................      62,272
   NMFS WA--Seattle, WA, NW              7       B   Replace heating system--West bldg....................................................     324,800
         Fisheries Science Ctr,
         Montlake
 NESDIS VA--Wallops Island, VA,          7       B   Replace Generators 1 & 2.............................................................     201,600
         Data Acquis. Station
 NESDIS VA--Wallops Island, VA,          7       B   Roof Repair--funded by NESDIS........................................................  ..........
         Data Acquis. Station
   NMFS MA--Woods Hole, MA, NE           7       B   Replace Ceiling--Aquarium............................................................     106,400
         Fisheries Science Center
   NMFS MA--Woods Hole, MA, NE           7       B   Replace Floor Coverings (tile)--Aquarium.............................................     106,400
         Fisheries Science Center
   NMFS MA--Woods Hole, MA, NE           7       B   Replace Fac. Elec. Svc. Entrance--Maint. Bldg........................................     224,000
         Fisheries Science Center
   NMFS MA--Woods Hole, MA, NE           7       B   Install new mech. system--Aquarium...................................................  ..........
         Fisheries Science Center
   NMFS MA--Woods Hole, MA, NE           7       B   Replace emergency generator..........................................................  ..........
         Fisheries Science Center
    NWS AK--Yakutat, AK, WSO             7       B   Water/electrical system renovation...................................................      56,000
    NOS NC--Beaufort, NC, Lab            7        C  Engineering study for bridge repair..................................................  ..........
    NOS SC--Charleston, SC, Coastal      7        C  Correct sinkhole problem.............................................................      28,000
         Services Center
 NESDIS AK--Fairbanks, AK, Gilmore       7        C  Construct Vehicle Maintenance Facility...............................................   2,576,000
         Creek CDA Sta
    OAR MI--Muskegon, MI, Fld Sta        7        C  Build New Harbor (CG funding harbor dredging)........................................     403,200
   NMFS RI--Narragansett, RI, Lab        7        C  New storage building: NMFS FUNDED....................................................  ..........
   NMFS MS--Pascagoula, MS, Lab          7       D   Replace roof, upgrade roof insulation................................................     194,040
   NMFS MS--Pascagoula, MS, Lab          7       D   Old Wing Window Renovation Replmt. (funded by LO)....................................  ..........
   NMFS WA--Seattle, WA, NW              6   ......  Construct water recycling facil: CIP FUNDED..........................................  ..........
         Fisheries Science Ctr,
         Montlake
    NOS NC--Beaufort, NC, Lab            6       A   Elevator Replacement.................................................................     130,536
    OAR CO--Boulder, CO, Table           6       A   Replace Bldg. T-2....................................................................     112,000
         Mountain Observatory
   NMFS OR--Hammond, OR, Pt. Adams       6       A   Lighting improvement.................................................................      17,920
         Field Station
   NMFS HI--Honolulu, HI, Lab            6       A   Replace the outside stor. structure--NMFS complete 1997..............................  ..........
   NMFS FL--Miami, FL S.E.               6       A   Replace Generator....................................................................      89,600
         Fisheries Science Center
   NMFS OR--Newport, OR, Lab             6       A   Electrical Repairs...................................................................       6,720
   NMFS OR--Newport, OR, Lab             6       A   Replace existing roof on 2 bldgs (incl. A/E Design & Tvl)............................     756,000
   NMFS FL--Panama City, FL, Lab         6       A   Handicap Access./Safety/Exit Sign....................................................      46,144
    OAR CO--Platteville, CO              6       A   Rehab Warehouse Office Space.........................................................     106,400
    NWS AK--Pribilof Islands, AK,        6       A   Emergency communication system.......................................................      95,200
         St. Paul WSO
    OFA WA--Seattle, WA Western          6       A   Improve HVAC duct distrubution to American Society for heating, refrigeration, a/c        623,056
         Regional Ctr                                 engine.
    NOS SC--Charleston, SC, Coastal      6       B   Exterior Survey......................................................................      50,400
         Services Center
   NMFS CA--La Jolla, CA, S.W.           6       B   Replace some heaters throughout facility.............................................      84,000
         Fisheries Science Ctr
    OAR FL--Miami, FL, AOML              6       B   Roof replacement--Lab Bldg (OAR Funded)..............................................  ..........
   NMFS CT--Milford, CT, Lab             6       B   Replace Roofing--Several buildings...................................................      95,200
   NMFS CT--Milford, CT, Lab             6       B   Repave Parking Lot...................................................................      95,200
   NMFS CT--Milford, CT, Lab             6       B   Building 2 HVAC Upgrade..............................................................     140,000
   NMFS CT--Milford, CT, Lab             6       B   New Storage/Office Building..........................................................     252,000
   NMFS OR--Newport, OR, Lab             6       B   Renovate seawater sand filter system; repair temp rms................................      36,736
    OAR TN--Oak Ridge, TN, AT&D Lab      6       B   Upgrade HVAC system in wind tunnel bldg (funded DOE).................................  ..........
    NOS MD--Oxford, MD, Lab              6       B   Construct new storage bldg (funded QP4AOX)...........................................  ..........
   NMFS FL--Panama City, FL, Lab         6       B   Resurface parking lot and roadway....................................................     118,832
   NMFS AK--Pribilof Islands, AK,        6       B   Rehab of Laboratory Bldg--St. Paul...................................................     196,000
         St. Paul Lab
    OAR NJ--Princeton, NJ, ERL           6       B   Exterior Repairs (Masonry & Link Roofs)..............................................      50,400
         Geophysys. Dynam. Lab
    OFA WA--Seattle, WA, Western         6       B   Replace 7 HVAC rooftop units, bldg 4.................................................     802,592
         Regional Ctr
 NESDIS VA--Wallops Island, VA,          6       B   Painting and Doors (NESDIS funded)...................................................  ..........
         Data Acquis. Station
   NMFS MA--Woods Hole, MA, NE           6       B   Replace Siding--Aquarium Building....................................................      95,200
         Fisheries Science Center
   NMFS MA--Woods Hole, MA, NE           6       B   Install new HVAC System--Laboratory..................................................     448,000
         Fisheries Science Center
    NWS AK--Barrow, AK, WSO              6        C  Water treatment system (funded by NWS)...............................................  ..........
    NOS NC--Beaufort, NC, Lab            6        C  Repair/Conversion of old turtle rearing pens.........................................     448,000
    NWS AL--Birmingham, AL, WFO          6        C  Underfloor water sensor..............................................................       5,600
   NMFS OR--Hammond, OR, Pt. Adams       6        C  Restore emergency generator system...................................................      33,600
         Field Station
   NMFS OR--Hammond, OR, Pt. Adams       6        C  Wet Lab Repair & Maintenance.........................................................     231,840
         Field Station
   NMFS CA--La Jolla, CA, S.W.           6        C  Install Riprap Revetment.............................................................     761,600
         Fisheries Science Ctr
   NMFS WA--Manchester, WA Field         6        C  Develop Freshwater recycle system....................................................     180,320
         Station
   NMFS RI--Narragansett, RI, Lab        6        C  Replace sea water system.............................................................     392,000
    NWS LA--New Orleans, LA, WFO         6        C  Walter Filtration System.............................................................      22,400
   NMFS OR--Newport, OR Lab              6        C  Replace Seawater Heating system......................................................      16,800
   OMAO VA--Norfolk, VA, Atlantic        6        C  Security Upgrade (ASC/EASC Secy. Proj. funded).......................................  ..........
         Marine Center
   NMFS FL--Panama City, FL, Lab         6        C  Install temperature alarms, walk-in freezers.........................................       2,240
   NMFS MA--Woods Hole, MA, NE           6        C  Install security system--Laboratory (ASC secy. funded)...............................  ..........
         Fisheries Science Center
    NOS NC--Beaufort, NC, Lab            6       D   Fire Alarm System Evaluation.........................................................      11,760
    NOS NC--Beaufort, NC, Lab            6       D   Underground Outflow collector system.................................................      15,758
    NOS NC--Beaufort, NC, Lab            6       D   Lighting Efficiency Upgrade..........................................................      73,472
    NWS KS--Goodland, KS, WFO            6       D   Lighting Efficiency Upgrade..........................................................      17,024
   NMFS AK--Juneau, AK, Auke Bay         6       D   Modify fire sprinkler system in fish house and pier..................................     212,800
         Lab
    NOS HI--Kihei, HI, Marine            6       D   Repair asph.concrete drivewy & parking lot (done by LO)..............................  ..........
         Sanctuary
   NMFS WA--Manchester, WA Field         6       D   Upgrade building and site for ADA accessibility......................................      95,200
         Station
   NMFS WA--Manchester, WA Field         6       D   Install High Security Locks (funded by Security).....................................  ..........
         Station
   NMFS WA--Manchester, WA Field         6       D   Intrusion detection system (completed w/security fnds)...............................  ..........
         Station
   NMFS FL--Miami, FL S.E.               6       D   Replace doors and frames.............................................................      67,200
         Fisheries Science Center
   NMFS FL--Miami, FL S.E.               6       D   Restroom Renovation..................................................................      75,040
         Fisheries Science Center
    OAR FL--Miami, FL, AOML              6       D   Fire Alarm System Evaluation.........................................................      17,920
    OAR FL--Miami, FL, AOML              6       D   Lighting Efficiency Upgrade..........................................................      93,632
    OAR MI--Muskegon, MI, GLERL Lab      6       D   Finish new boat maintenance bldg.....................................................      39,368
   OMAO VA--Norfolk, VA, Atlantic        6       D   Security Upgrades....................................................................      56,000
         Marine Center
   OMAO VA--Norfolk, VA, Atlantic        6       D   Handicapped Accessibility............................................................     280,000
         Marine Center
    OAR TN--Oak Ridge, TN, A&TD Lab      6       D   Modify restrooms for handicapped accessibility (DOE fnd).............................  ..........
   NMFS FL--Panama City, FL, Lab         6       D   Replace Entrance Gate................................................................      10,080
   NMFS FL--Panama City, FL, Lab         6       D   Replace irrigation pumps.............................................................      12,085
   NMFS FL--Panama City, FL, Lab         6       D   Replace doors........................................................................      16,800
   NMFS FL--Panama City, FL, Lab         6       D   New Emergency Generator..............................................................      84,000
    OFA WA--Seattle, WA Western          6       D   Facility Condition survey............................................................     280,000
         Regional Ctr
 NESDIS VA--Wallops Island, VA,          6       D   Handicapped Access...................................................................     106,400
         Data Acquis. Station
   NMFS MA--Woods Hole, MA, NE           6       D   Handicapped Access. Renovations--Cottage.............................................      61,600
         Fisheries Science Center
   NMFS MA--Woods Hole, MA, NE           6       D   Handicapped Access. Renovations--Lab Bldg............................................     252,000
         Fisheries Science Center
   NMFS MA--Woods Hole, MA, NE           6       D   Renovate public restrooms--Aquarium (NMFS funded)....................................  ..........
         Fisheries Science Center
    NOS NC--Beaufort, NC, Lab            5       B   Sea wall repair......................................................................     200,704
   NMFS FL--Miami, FL S.E.               5       B   Install new roof--Annex--NMFS FUNDED.................................................  ..........
         Fisheries Science Center
    NWS AK--Pribilof Islands, AK,        5       B   Residence renovation.................................................................      16,800
         St. Paul WSO
    OAR NJ--Princeton, NJ, ERL           5       B   Repair & resurface parking lot--OAR funded...........................................  ..........
         Geophys. Dynam. Lab
    OFA WA--Seattle, WA, Western         5       B   Carpet Replacement Bldg. 1...........................................................     320,656
         Regional Ctr
    NWS VA--Sterling, VA, R & D Ctr      5       B   Resurface Roadway (Funded by LO).....................................................  ..........
   NMFS CA--Tiburon, CA, Lab             5       B   Replace roof 2nd floor admin bldg (NMFS funded)......................................  ..........
 NESDIS VA--Wallops Island, VA,          5       B   Replace roof--ops bldg...............................................................     212,800
         Data Acquis. Station
   NMFS MA--Woods Hole, MA, NE           5       B   Replace sea water supply system--NMFS funded.........................................  ..........
         Fisheries Science Center
   NMFS MA--Woods Hole, MA, NE           5       B   Repave parking lots at Aquarium/Cottages.............................................  ..........
         Fisheries Science Center
    NWS GA--Atlanta, GA, WSO             5        C  Parking lot extension (NWS funded)...................................................  ..........
    NOS NC--Beaufort, NC, Lab            5        C  Refurbish Coatings on Salt Water Tanks...............................................       5,264
    NWS AL--Birmingham, AL, WFO          5        C  Construct WFO Storage Building.......................................................      56,000
    NWS TX--Brownsville, TX, WFO         5        C  Construct WFO storage bldgs..........................................................      56,000
    NWS FL--Jacksonville, FL, WFO        5        C  Construct WFO Storage Building.......................................................      56,000
   NMFS AK--Kodiak, AK, Gibson Cove      5        C  UFAS (ADA) upgrade...................................................................      67,200
    NWS FL--Melbourne, FL, WSO           5        C  Replace ceiling and lights (funded by NWS)...........................................  ..........
    NWS AL--Mobile, Alabama, WFO         5        C  Construct WFO Storage Building.......................................................      56,000
    NWS TN--Morristown, TN, WFO          5        C  Construct WFO Storage Building.......................................................      56,000
         Site
   NMFS OR--Newport, OR Lab              5        C  Upgrade Emergency distribution.......................................................      44,800
   NMFS OR--Newport, OR, Lab             5        C  Balance air pressure in Aquaculture Lab..............................................     112,000
    OAR TN--Oak Ridge, TN, AT&D Lab      5        C  Wind Tunnel Bldg. Addition...........................................................     420,000
   NMFS FL--Panama City, FL, Lab         5        C  Replace boat house doors.............................................................       3,920
    OFA WA--Seattle, WA Western          5        C  Utility vault replacement............................................................     112,000
         Regional Ctr
    NWS VA--Sterling, VA, R & D Ctr      5        C  Storage Building (NWS funded)........................................................  ..........
 NESDIS VA--Wallops Island, VA,          5        C  Resesl Antenna Found.................................................................      72,800
         Data Acquis. Station
 NESDIS VA--Wallops Island, VA,          5        C  Construct equip. storage bldg (funded by NESDIS).....................................  ..........
         Data Acquis. Station
    NOS NC--Beaufort, NC, Lab            5       D   Split type heat pump sys. replacement--radiation bldg................................       4,234
    NOS NC--Beaufort, NC, Lab            5       D   Exterior Rehab.--Nine Buildings......................................................      74,144
    NOS SC--Charleston, SC, Coastal      5       D   CSC Building #2 Former Boilder Room..................................................      28,000
         Services Center
    NWS TX--Corpus Christi, TX, WFO      5       D   Exterior lighting (funded by Security)...............................................  ..........
    OAR CO--Fritz Peak, CO               5       D   Handicap Accessibility Modifications.................................................     268,576
         Observatory
   NMFS TX--Galveston, TX, Lab           5       D   Construct Freezer Building (NWS Funded)..............................................  ..........
    NWS KS--Goodland, KS, WFO            5       D   New water softner/water filtering system.............................................       3,472
    NWS KS--Goodland, KS, WFO            5       D   Install New Temperature Control System (NWS Funded)..................................  ..........
   NMFS HI--Honolulu, HI, Lab            5       D   Air Conditioning Upgrade.............................................................      22,400
   NMFS HI--Honolulu, HI, Lab            5       D   Complete restroom upgrade--NMFS FUNDED...............................................  ..........
   NMFS CA--La Jolla, CA, S.W.           5       D   Repl. inadeq. windows, doors & louvers...............................................     336,000
         Fisheries Science Ctr
   NMFS WA--Manchester, WA Field         5       D   Fire Support system..................................................................      67,200
         Station
   NMFS WA--Manchester, WA Field         5       D   Foundation corrections...............................................................     282,912
         Station
   NMFS WA--Manchester, WA Field         5       D   Site Paving (NWS Funded).............................................................  ..........
         Station
   NMFS FL--Miami, FL S.E.               5       D   Rebuild Parking lot..................................................................      42,560
         Fisheries Science Center
   NMFS FL--Miami, FL S.E.               5       D   Replace windows......................................................................     134,400
         Fisheries Science Center
   NMFS FL--Miami, FL S.E.               5       D   Remodel Bathrooms....................................................................     168,000
         Fisheries Science Center
    OAR FL--Miami, FL, AOML              5       D   Replace Exterior Doors and Frames....................................................       6,944
    OAR FL--Miami, FL, AOML              5       D   General Repairs to Exterior of Storage Bldg..........................................      11,021
    OAR FL--Miami, FL, AOML              5       D   Solar Film Replacement...............................................................      24,304
   NMFS OR--Newport, OR Lab              5       D   Install handling unit smoke detectors................................................       7,280
   NMFS OR--Newport, OR Lab              5       D   Powerwash roofs......................................................................      33,600
   NMFS OR--Newport, OR Lab              5       D   Install Environmental Controls System................................................      84,000
   OMAO VA--Norfolk, VA, Atlantic        5       D   HVAC Upgrades........................................................................      56,000
         Marine Center
   OMAO VA--Norfolk, VA, Atlantic        5       D   Handicapped elevator access (delete--part of E1271)..................................  ..........
         Marine Center
    OAR TN--Oak Ridge, TN, AT&D Lab      5       D   Paving and Landscaping...............................................................      50,400
   NMFS CA--Pacific Grove, CA            5       D   Access control system................................................................      11,200
   NMFS CA--Pacific Grove, CA            5       D   Retrofit light fixtures..............................................................      13,440
   NMFS CA--Pacific Grove, CA            5       D   UFAS compliance......................................................................     168,000
   NMFS CA--Pacific Grove, CA            5       D   Fence maintenance repair (Funded by Security)........................................  ..........
   NMFS WA--Seattle, WA, NW              5       D   Complete Asphalt Paving Repairs (NMFS completed).....................................  ..........
         Fisheries Science Ctr,
         Montlake
    OFA WA--Seattle, WA, Western         5       D   lighting upgrade, bldg. 4............................................................     195,888
         Regional Ctr
    NWS     Southern Region, NWS         5       D   Refurbish radar domes and towers (NWS funded)........................................  ..........
             multiple locations
    NWS     Southern Region, NWS         5       D   Rehab upper air bldgs & radomes (funded by NWS)......................................  ..........
             multiple locations
 NESDIS VA--Wallops Island, VA,          5       D   Upgrade Water & Sewer................................................................     392,000
         Data Acquis. Station
   NMFS MA--Woods Hole, MA, NE           5       D   Renovate Restrooms--Lab..............................................................      72,800
         Fisheries Science Center
   NMFS MA--Woods Hole, MA, NE           5       D   Pier & Bulkhead Water Service........................................................      78,400
         Fisheries Science Center
   NMFS MA--Woods Hole, MA, NE           5       D   Replace existing elevator--Lab.......................................................     123,200
         Fisheries Science Center
   NMFS MA--Woods Hole, MA, NE           5       D   Replace Elevator--Maintenance Bldg...................................................     123,200
         Fisheries Science Center
   NMFS MA--Woods Hole, MA, NE           5       D   Install sprinkler system--laboratory.................................................     168,000
         Fisheries Science Center
   NMFS MA--Woods Hole, MA, NE           5       D   Install sprinkler system--Aquarium...................................................     336,000
         Fisheries Science Center
   NMFS MA--Woods Hole, MA, NE           5       D   Install new entrance--Laboratory.....................................................  ..........
         Fisheries Science Center
   NMFS MA--Woods Hole, MA, NE           5       D   Repl handcppd ramp at main entry to Lab Bldg.........................................  ..........
         Fisheries Science Center
    NWS NM--Albuquerque, NM, WFO         4        C  Parking lot Extension................................................................      16,800
    NWS AL--Birmingham, AL, WFO          4        C  Parking Lot Extension................................................................      16,800
    NWS TX--Brownsville, TX, WFO         4        C  Parking lot Extension................................................................      16,800
    NWS TX--Corpus Christi, TX, WFO      4        C  Water line to UAIB...................................................................       3,360
    NWS TX--Corpus Christi, TX, WFO      4        C  Parking Lot Extension................................................................      16,800
   NMFS OR--Hammond, OR, Pt. Adams       4        C  Enclose lean-to & add sliding doors..................................................      56,000
         Field Station
    NWS FL--Jacksonville WFO             4        C  Parking lot Extension................................................................      16,800
    NOS HI--Kihei, HI, Marine            4        C  General upgrade of Visitor Center....................................................      67,200
         Santuary
    NOS HI--Kihei, HI, Marine            4        C  General upgrade of Main Building (part. compl. by LO)................................     115,360
         Santuary
    NWS TN--Knoxville, TN, WFO           4        C  Parking lot Extension................................................................      16,800
    NWS LA--Lake Charles, LA, WFO        4        C  Parking Lot Extension................................................................      16,800
    NWS AR--Little Rock, AR, WFO         4        C  Parking lot Extension................................................................      16,800
   NMFS FL--Miami, FL S.E.               4        C  Interior painting....................................................................      50,400
         Fisheries Science Center
    NWS TX--Midland/Odessa, TX, WFO      4        C  Parking Lot Extension................................................................      16,800
    NWS AL--Mobile, AL, WFO              4        C  Parking Lot Extension................................................................      16,800
   NMFS WA--Mukilteo, WA, Field          4        C  Sea Water System.....................................................................      46,816
         Station
    OAR MI--Muskegon, MI, GLERL          4        C  New boat maintenance bldg (OAR funded)...............................................  ..........
         Vessel Ops Facility
   NMFS FL--Panama City, FL, Lab         4        C  Seawater system......................................................................     231,840
    OFA WA--Seattle, WA Western          4        C  Smoking shelters & signs.............................................................      44,800
         Regional Ctr
    OFA WA--Seattle, WA Western          4        C  Halon fire suppression system replacement............................................     104,944
         Regional Ctr
    NWS FL--Tampa, FL, Ruskin WSO        4        C  Parking lot repair: NWS FUNDED.......................................................  ..........
    NOS SC--Charleston, SC, Coastal      4       D   Security Fence Installation..........................................................      61,600
         Services Center
    NOS SC--Charleston, SC, Coastal      4       D   Demolition of 2 towers & assoc. small buildings......................................      72,800
         Services Center
    NWS HI--Ewa Beach, HI, Tsunami       4       D   Replace existing water sprinkler system..............................................     185,920
         Warning Ctr
    NWS HI--Ewa Beach, HI, Tsunami       4       D   Clear & Grub for Security Access (NWS funded)........................................  ..........
         Warning Ctr
    NWS HI--Ewa Beach, HI, Tsunami       4       D   PTWC Solar Hot Water & outdoor Lighting DOE fund.....................................  ..........
         Warning Ctr
    NWS TX--Ft. Worth, TX, WFO           4       D   OPS Room Lighting....................................................................       5,600
    NWS TX--Ft. Worth, TX, WFO           4       D   Loading Dock.........................................................................      11,200
   NMFS OR--Hammond, OR, Pt. Adams       4       D   Oil cedar shake roofs................................................................       5,600
         Field Station
   NMFS HI--Honolulu, HI, Lab            4       D   Painting and relighting-NMFS FUNDED..................................................  ..........
   NMFS AK--Juneau, AK, Auke Bay         4       D   Replace sec. gates at ABL & Subport (NMFS complet 1997)..............................  ..........
         Lab
   NMFS CA--La Jolla, CA, S.W.           4       D   Painting and relighting (NMFS Funded)................................................  ..........
         Fisheries Science Ctr
   NMFS WA--Manchester, WA Field         4       D   Upgrade Bldg. lab counters, sinks, shelves (NMFS funded).............................  ..........
         Station
    OAR FL--Miami, FL, AOML              4       D   Seal Coating of Access Drives & Parking Lots.........................................      10,192
    NOS MD--Oxford, MD, Lab              4       D   Replace pump house windows & doors (QP4AOX)..........................................  ..........
   NMFS FL--Panama City, FL, Lab         4       D   Install Security Screens.............................................................       5,320
   NMFS MS--Pascagoula, MS, Lab          4       D   Cork removal.........................................................................      42,336
    NWS TX--San Antonio, TX, WFO         4       D   Misc. interior repairs...............................................................       8,400
   NMFS MA--Woods Hole, MA, NE           4       D   Install New HVAC System--Cottage.....................................................      84,000
         Fisheries Science Center
   NMFS MA--Woods Hole, MA, NE           4       D   Upgrade Interior Finishes--Lab Bldg..................................................     235,200
         Fisheries Science Center
   NMFS AK--Kodiak, AK, Gibson Cove      3        C  Complete bldg interior (LO funded)...................................................  ..........
    NOS SC--Charleston, SC, Coastal      3       D   Seismic Survey.......................................................................      72,800
         Services Center
   NMFS OR--Hammond, OR, Pt. Adams       3       D   Paint main bldg......................................................................      44,800
         Field Station
   NMFS OR--Newport, OR, Lab             3       D   Replace fluorescent lights w/energy efficient fixtures...............................      44,800
   NMFS OR--Newport, OR, Lab             3       D   Replace fluorescent lights w/energy efficinet fixtures...............................      56,000
   NMFS WA--Seattle, WA, NW              3       D   Exterior Painting--All Bldgs.........................................................     151,200
         Fisheries Science Ctr,
         Montlake
   NMFS MA--Woods Hole, MA, NE           3       D   Construct new park lots..............................................................  ..........
         Fisheries Science Center
    NOS NC--Beaufort, NC, Lab            2       D   Infrared Scan and Reliability Testing................................................       2,464
    NOS SC--Charleston, SC, Coastal      2       D   Resurfacing exterior grounds.........................................................      95,200
         Services Center
   NMFS FL--Panama City, FL, Lab         2       D   Repair Fence.........................................................................      13,888
   NMFS MS--Pascagoula, MS, Lab          2       D   Underground sprinkling system........................................................      19,404
   NMFS MS--Pascagoula, MS, Lab          2       D   Refurbishing of Existing Warehouses..................................................      42,336
   NMFS MS--Pascagoula, MS, Lab          2       D   Laboratory Cabinets..................................................................      48,451
    OFA WA--Seattle, WA Western          2       D   Art works restoration................................................................     280,000
         Regional Ctr
   NMFS OR--Hammond, OR, Pt. Adams       1       D   Cedar shingle roof coating (NMFS completed 1996).....................................  ..........
         Field Station
--------------------------------------------------------------------------------------------------------------------------------------------------------

                ocean exploration and education programs
    Question. In recent years, NOAA has expanded its role into 
exploratory oceans research and education. This expanded role is 
evident in NOAA's Ocean Exploration, Sustainable Seas, and JASON 
Programs. What is your goal in expanding NOAA's mission into these 
areas?
    Answer. NOAA's expanded role in ocean exploration is actually 
overdue. It can be traced back to the 1970 report of the Stratton 
Commission which recommended that NOAA develop U.S. Leadership in Ocean 
Exploration. In October 2000, the report of the President's Panel on 
Ocean Exploration, ``Discovering Earth's Final Frontier: A U.S. 
Strategy for Ocean Exploration'', recommended (page 33) that a single 
lead agency be designated as, ``. . . in charge and accountable for the 
Program and its budget.'' NOAA has had over 30 years of experience in 
managing the conservation, sustainable use, and commercial aspects of 
our oceans. Recognizing our stewardship role regarding the oceans, the 
Secretary of Commerce offered NOAA to the President as lead agency for 
the new national effort in ocean exploration. Congress also recognized 
NOAA's role by appropriating $4 million in NOAA in fiscal year 2001 to 
begin the program.
    The chief goal of the Ocean Exploration Program (OE) is to increase 
our body of knowledge by collecting scientific data on areas of the 
ocean, particularly the U.S. Exclusive Economic Zone (EEZ), where no or 
inadequate data exist today to serve NOAA and other policy and 
decision-makers in managing ocean resources. We will engage in the 
search and systematic investigation of the oceans for the purpose of 
discovery, and will record the findings for future research. We also 
intend to educate America's school children and the general public on 
ocean science and related issues. The purpose of the Program is to gain 
fuller knowledge of the fundamental aspects of ocean phenomena and of 
observable facts without specific applications toward processes or 
products in mind. Thus, it differs somewhat from NOAA's traditional 
applied research role which is intended to solve specific management 
concerns.
    Ocean exploration efforts such as Sustainable Seas Expeditions 
(SSE) and JASON do not represent an expansion of NOAA's mission. 
Instead, they represent mechanisms for integrating much of NOAA's 
exploration and research activities in a more cohesive manner. 
Exploration linked to: (1) learning more about areas we know nothing or 
very little about; (2) addressing scientific hypotheses related to the 
resources we are mandated to manage and protect; and (3) educating the 
public whose behavior can affect these resources provides a solid 
foundation for existing NOAA programs. The information derived from 
these efforts is inextricably linked to how NOAA does business.
    Given the regional nature of ocean exploration efforts such as SSE, 
these endeavors also provide the opportunity for existing programs to 
collaborate on shared problems. This is especially true in relation to 
marine protected areas whose boundaries often do not reflect the true 
nature of dynamic oceanic processes. Exploration provides the impetus 
for looking beyond these boundaries and striving to understand how 
these processes influence the resources the areas were established to 
protect. In the long term, this approach provides much needed 
information for identifying, implementing, and monitoring more 
meaningful management strategies.
    The mission of The JASON Foundation for Education is to excite and 
engage students in science and technology, and to motivate and provide 
professional development for their teachers through the use of advanced 
interactive telecommunications. JASON expeditions, supported by 
extensive professional development for teachers and award-winning 
curricula, feature live, interactive broadcasts from distinctive sites 
on our planet through advanced technologies in robotics, fiber optics, 
television production, computer science, mechanical and electrical 
engineering, and satellite communications. Far behind the exploration 
of space and the investment of educational programs based on space 
exploration, NOAA is facing a deficit of programs and resources to meet 
the basics in educating our nation's youth on the importance of oceans 
and coastal areas. The JASON Project helps NOAA meet the challenge of 
educating the public about the importance of marine resources, 
particularly those protected by the National Marine Sanctuaries.
    Question. Why is NOAA the best agency for this field of research? 
Do you have any concerns that a shift toward this kind of research will 
come at a cost for your mission-critical programs?
    Answer. Ocean exploration is a part of NOAA's mission and the 
President's budget request reflects a balance that will serve all NOAA 
missions. In fact, rather than detract from existing programs, Ocean 
Exploration, Sustainable Seas and JASON complement and benefit other 
programs by improving the quantity and quality of information 
available, providing for additional education and outreach, and by 
increasing the effectiveness of NOAA at-sea missions by engaging in 
multidisciplinary voyages. These efforts actually provide a means to 
strengthen NOAA's other programs by providing basic information that is 
critical for making decisions related to targeting additional research 
and managing resources. Up to now, NOAA has not had a mechanism like 
SSE for integrating traditional scientific research with manned and 
unmanned submersible operations with a focus on improving our programs. 
Nor has NOAA had an effective mechanism, such as the Ocean Exploration 
program, to search and systematically investigate the oceans for the 
purpose of discovery, and record the findings for future research and 
application. Ocean exploration provides the agency with a means to both 
gather essential basic information about the oceans to provide 
information critical for selecting new areas requiring the attention of 
our programs and evaluate the effectiveness of existing programs and 
management measures.
    Question. In fiscal year 2002, you are asking for $18.5 million in 
funding for these programs. How do you intend to spend this money?
    Answer. In fiscal year 2002, the $14 million Ocean Exploration 
money will be spent as follows: $1 million (7 percent) for eight (8) 
full-time-equivalents and related operating expenses to manage the 
program; $1.4 million (10 percent) for education and outreach to 
stimulate interest in ocean sciences among the youth of America, and 
better inform all Americans about the oceans and their importance to 
life on Earth; $11.6 million (83 percent) on Science, which includes 6 
major and several minor multidisciplinary Voyages of Discovery to 
observe and record the biological, chemical, geological, and 
archaeological characteristics of the ocean areas being studied. Major 
voyages will include expeditions to the Gulf of Maine, South Atlantic 
Bight, Gulf of Mexico, Baja to the Bearing Sea, the Northwest Hawaiian 
Islands, and one of the Polar Regions.
    In terms of SSE, fiscal year 2002 represents the last year of the 
original five-year project. The funds invested in SSE will build on the 
ecosystem approach established this year in conjunction with the 
Islands in the Stream expedition. The fiscal year 2002 request for $2 
million for ``Sanctuaries and SSE Data Collection'' includes about 
$900,000 to support SSE. Specifically, the money will be invested in 
ensuring that the proper mix of resources are available (ships, 
submersibles, sampling equipment, personnel) to collect qualitative 
(visual) and quantitative (environmental data, bathymetric information) 
data in existing marine protected areas and other critical habitats 
along the west coast of North America from Baja California to the 
Bering Sea, Alaska areas that are environmentally important, and that 
are under increasing pressure from human activities. The data collected 
will be targeted at supporting existing management efforts, as well as 
continuing to educate the public that uses and influences these areas. 
The remaining portion of the $2 million request, about $1.1 million 
will be used to support non-SSE habitat and cultural resource 
characterization and science missions in the National Marine Sanctuary 
System.
    In fiscal year 2002, JASON ($2.5 million) will focus on one or more 
of NOAA's National Marine Sanctuaries. Using these ``living 
laboratories'', JASON will focus the minds of America's youth on the 
marine sanctuaries and broaden the knowledge and understanding of their 
resources and importance. NOAA's National Marine Sanctuary System is 
working with JASON and the Institute for Exploration on a pilot 
education effort. The goal of this joint effort is the creation of a 
pilot educational effort using these new technologies like 
telepresence, distance learning and virtual experience learning 
techniques with interactive capabilities. The initial program will be 
linking, in real time, Monterey Bay National Marine Sanctuary in 
Monterey, California and the Mystic Aquarium in Mystic, Connecticut. 
This joint effort will include the creation and testing of new 
underwater video equipment; the usage of new and emerging transmission 
technologies including satellite, broadband lines and web based 
programs; new ``immersion'' or virtual and interactive learning 
technologies; the creation of new marine science-based curriculum; and 
the evaluation of the video technologies, transmission techniques and 
educational accomplishments. The JASON Project funding is a pass-
through grant.
    Question. What do you expect to learn from this research? How do 
these programs benefit the American Public? How do they benefit NOAA?
    Answer. The chief product and benefit of the Ocean Exploration 
program will be knowledge. The value of collecting and having this 
knowledge available is comparable to the value of education itself--
which is not quantifiable. The result will be a better informed science 
community, and better information for policy and decision-making. With 
95 percent of the underwater world unseen and unknown to man, what 
remains to be explored may hold clues to the origins of life on Earth, 
cures for diseases, answers to how to achieve sustainable use of ocean 
resources, links to our maritime history, or information to protect 
endangered species. The potential return on investment is immense, but 
exploration and the collection of knowledge should be considered a 
success regardless of what is ultimately discovered.
    The SSE program will also visit areas that have never been seen 
before and gather new information about our ocean resources, primarily 
in the National Marine Sanctuaries. The information on habitat, fish, 
marine mammals, cultural resources, and other resources will provide a 
foundation for stimulating ideas, generating questions, and influencing 
future efforts to understand more about these resources. These areas 
may provide the Nation with new resources that we currently have no 
knowledge of, or that require a level of protection and management from 
adverse influences that we know little about. The effort will also 
provide the managers of existing marine protected areas with additional 
information critical to their programs.
    OE and SSE also benefit both NOAA and the nation by providing for a 
broad program of exploration of ocean resources across many scientific, 
cultural, and technological disciplines, and among many participants. 
These two projects provide the Government--NOAA--with a means to build 
an in-house capability for (a) directly engaging in undersea research 
using our own resources; and (b) helping to direct the efforts of other 
undersea research efforts conducted by private institutions to help 
address mandated needs. The programs promote discovery-based science, 
collaboration, education and outreach.
    The JASON Project helps NOAA meet the challenge of educating the 
public about the importance of marine sanctuaries and resources they 
protect. The JASON Project offers students and teachers in grades 4 
through 9 a comprehensive, multimedia approach to enhance teaching and 
learning in science, technology, math, geography, and associated 
disciplines. JASON excites and engages students in science and 
technology, and motivates and provides professional development for 
teachers. This education of our Nation's children is a clear benefit to 
the American public and is an important part of NOAA's mission.
    The SSE project and the collaboration with the National Geographic 
and other public and private institutions has proven to be a catalyst 
for new education and outreach partnerships and activities. The 
National Marine Sanctuary Program, as well as other NOAA programs that 
support SSE, have been the focus of unprecedented coverage from local 
and national media. Numerous products, including over 300 print 
articles and a variety of long-term workshops on topics such as marine 
resources, teacher education, marine geographic information systems, 
and others that use the information collected, are just some of the 
results.
    The information gained to date from SSE has been applied directly 
to current management issues in the Sanctuaries, i.e., the management 
plan revision for the Channel Islands, California site and the Tortugas 
2000 Initiative for the Florida Keys. Similar direct benefits are 
expected from OE expeditions. OE and SSE are collaborating on the 
``Islands in the Stream'' expedition set for May through September 2001 
in the Gulf of Mexico and the U.S. east coast. This expedition targets 
specific areas along the Gulf Stream as it flows from Belize and along 
the Eastern U.S. Coast. The expedition includes characterization of 
Marine Protected Areas in Mexico, the anoxic zone beneath the Texas-
Louisiana border, and the area of high productivity along Florida's Big 
Bend. It, and other expeditions will provide valuable opportunity for 
academic collaboration and heightened public awareness of coastal 
processes through exposure by National Geographic media. With knowledge 
as the chief product and benefit of OE, expeditions aim to characterize 
ecological systems in near-totality, looking at biota, geology, food 
web interactions, history, and benthos of a region, enabling potential 
better management of fisheries populations.
    Forty years ago, space and ocean exploration were both plunging 
into unknown realms at about the same pace. While we have made 
significant progress in space, our knowledge of earth's oceans has 
lagged. The Russians and Japanese have vehicles that provide them with 
access to deeper waters than we do. The Irish have mapped a larger 
portion of their EEZ than we have. America leads the world in Space 
Exploration and related technologies, and these ocean exploration 
programs are the first steps toward regaining our leadership in Ocean 
Exploration.
                       budget development process
    Question. How does NOAA develop its budget initiatives?
    Answer. NOAA has engendered the Government Performance and Results 
Act goal of linking planning and budget. NOAA implements a planning and 
budget process that forms a framework by which policy, program, and 
budget decisions are made. NOAA's annual request is arrayed as an 
operations-based budget, with performance indicators directly tied to 
the proposed application of resources. NOAA's Strategic Plan describes 
the goals and objectives that have been established to fulfill its 
visions. The strategy consists of seven interrelated goals that are 
grouped within the two missions of Environmental Assessment and 
Predication; and Environmental Stewardship. NOAA's budget initiatives 
are generated through the Strategic Team process by the seven teams; 
vetted through a series of reviews and meetings, with final decisions 
made by NOAA senior management.
    Question. How much staff time is spent developing NOAA's budget 
request?
    Answer. The budget development process is an agency-wide 
collaborative effort, and is difficult to track total staff hours spent 
on the development of the budget. The Office of Finance and 
Administration, and NOAA's five Line Offices' management and budget 
staffs, focus a significant part of their workforce on budget 
development. The NOAA Office of Budget, alone, dedicates approximately 
37,440 staff hours a year to the formulation process. Almost without 
exception, every office and program within NOAA devotes some time to 
budget development, and the amount of time depends upon the size, 
complexity and sensitivity of their individual program or project. This 
includes staff at regional and field offices who provide valuable 
expertise about program implementation and budgetary needs. The 
formulation process begins in February and continues through June with 
the Department budget submission; followed by the September OMB 
submission; and the submission of the President's Budget the following 
fiscal year.
    Question. In your view, is the time spent developing NOAA's budget 
request the best use of your staff's time?
    Answer. Yes. NOAA is a diverse agency responsible for providing 
timely and precise weather and climate forecasts that protect lives and 
property, managing fisheries and building healthy coastlines, making 
our nation more competitive through safe navigation and examining 
changes in the ocean. NOAA's budget formulation warrants the energy and 
focus. Since budget management (formulation, presentation, and 
execution) is one of the primary management functions of any 
organization, and considering the size and complexity of the NOAA 
budget, it is indeed the best use of staff time.
    Question. Do you intend to change this process in the future?
    Answer. The NOAA Office of Finance and Administration, NOAA Office 
of Budget, in 2001 conducted an assessment of the budget formulation 
process. One aspect of the process that was problematic was the fact 
that the budget formulation process was divided between the Office of 
Budget and the Office of Policy and Strategic Planning. A large part of 
the budget development was conducted outside the financial management 
chain of command. This created unwanted complexity in the budget as 
well as difficulties in matching what was developed to the actual 
budget structure. The outcome was that the formulation process was 
obfuscated by the separation of budget formulation and performance 
planning into separate offices. At the request of the Acting Under 
Secretary, the Director of the Office of Budget implemented a change in 
fiscal year 2001 to address this challenge. The budget development 
process was consolidated under one office--the Office of Finance and 
Administration (which houses the NOAA Office of Budget). This 
consolidation more firmly links budget formulation and development of 
program performance creating a unified framework within which policy, 
program and budget decisions are made.
                       research vessel allocation
    Question. Why did you decide to consolidate the Days At Sea 
responsibility under the Office of Marine and Aviation Operations 
(OMAO)?
    Answer. Consolidation of funds from the data acquisition line items 
to OMAO Marine Services will allow NOAA greater flexibility to meet 
high priority ship needs. Previously, the National Ocean Service, 
National Marine Fisheries Service, and Office of Oceanic and 
Atmospheric Research contained separate data acquisition line items 
that funded Line Office days-at-sea. With consolidation of NOAA's 
marine services, funding is now centrally located. An advantage of this 
consolidation is that it will allow NOAA increased integration of high 
priority programs of the agency as a whole, without being solely 
focused on Line Office missions. OMAO can ensure that the agency's 
vessel needs are best achieved with the funding provided for NOAA days-
at-sea.
    Question. Which programs that have ship times do not fall under 
OMAO?
    Answer. The following are fiscal year 2002 ship days supporting 
NOAA programs which are not funded by the Marine Services account. The 
Office of Oceanic and Atmospheric Research, National Undersea Research 
Program (NURP) will use approximately 150 ship days of university and 
commercial charter ships to support underwater vehicle operations. The 
National Marine Fisheries Service will use approximately 2,265 ship 
days of university and commercial charter ships to provide fisheries 
stock assessment and habitat research data. Additional, yet to be 
determined ship support, will be required for NOAA's Ocean Exploration 
Program. National Ocean Service plans to contract for $20.5 million of 
charting survey data, most of which is collected from ships and small 
craft and will use approximately 50 days of university and commercial 
charter ships to collect data for the National Marine Sanctuary 
Program.
    Question. Why is this the case?
    Answer. The funds include items other than ship time, (e.g., 
scientist salaries and overtime, contract support), so the funds are 
requested under the programs to avoid multiple internal NOAA fund 
transfers. The Marine Services request includes funds for NOAA ships 
and over 900 ship days of charter time, but these funds for charter 
time are used only to procure ship time.
    Question. Where does that ship time appear in NOAA's budget?
    Answer. The funds for shiptime that do not fall under OMAO are 
included in the line items that fund the programs.
    Question. How will this new allocation process change the 
individual Line Office allocations?
    Answer. The new budget structure will not affect the NOAA ship 
allocation process nor will it affect the ship time allocated to NOAA 
line offices. The NOAA ship allocation council will continue to 
allocate ship time to the line offices independent of the budget 
structure.
    Question. How will this process change the allocations of Days At 
Sea on NOAA-owned vessels versus NOAA-chartered vessels?
    Answer. There will be no change in the process for allocating ships 
days on NOAA ships and chartered ships. The NOAA ship allocation 
council will continue to allocate marine services funds for charter and 
university ship time as well as NOAA ship time. The line offices will 
continue to use funds separate from the marine services account for 
some outsourced ship time and associated support items.
    Question. How will you ensure that the critical science programs 
within NOAA still get their fair allocation of Days At Sea on their 
customary research vessels?
    Answer. The restructuring of the data acquisition accounts to the 
marine services account will not impact the NOAA ship allocation 
process. NOAA's science programs will still be represented as before on 
the NOAA ship allocation council and will have the same opportunity as 
before to acquire their needed ship time.
    Question. What proportion of the OMAO budget line will support the 
Sustainable Seas Expedition?
    Answer. Approximately 1 percent of the Marine Services budget is 
planned in fiscal year 2002 for ship support of the Sustainable Seas 
Expedition.
    Question. Who makes the final decision on the allocation of Days At 
Sea?
    Answer. The NOAA allocation process is a collaborative process 
which involves a working group with representatives of all the NOAA 
ship users, and an allocation council, composed of the NOAA Line Office 
Assistant Administrators and chaired by the NOAA Deputy Under 
Secretary. In those rare instances where conflicts cannot be resolved 
by the working group or by the council, the Deputy Under Secretary 
makes the final NOAA decision.
    Question. Can you provide me with the Days At Sea allocations for 
the last five years, including fiscal year 2001?
    Answer. The NOAA Fleet and Outsourced days-at-sea for fiscal years 
1997 through 2000 and the allocation plan for 2001 are shown below. The 
outsourced days include days funded through acquisition of data 
accounts and through other line office accounts, except for fiscal 
years 1997 and 1998. The files that included outsourced days funded 
through other line office accounts for 1997 and 1998 were temporarily 
misplaced. Also, the NOS outsourced days exclude the days for contracts 
for hydrographic data because the contracts are for square nautical 
miles of hydrography rather than days-at-sea.

------------------------------------------------------------------------
                                           NOAA
        Fiscal Year/Line Office           Fleet    Outsourced    Total
------------------------------------------------------------------------
1997:
    NOS...............................        835  ..........        835
    NMFS..............................      1,709          96      1,805
    OAR...............................        447         221        668
                                       ---------------------------------
      Totals..........................      2,991         317      3,308
                                       =================================
1998:
    NOS...............................        793          97        890
    NMFS..............................      1,565         103      1,668
    OAR...............................        548         236        784
                                       ---------------------------------
      Totals..........................      2,906         436      3,342
                                       =================================
1999:
    NOS...............................        735         220        955
    NMFS..............................      1,596         935      2,531
    OAR...............................        604         428      1,032
                                       ---------------------------------
      Totals..........................      2,935       1,583      4,518
                                       =================================
2000:
    NOS...............................        782         305      1,087
    NMFS..............................      1,621       1,223      2,844
    OAR...............................        530         397        927
                                       ---------------------------------
      Totals..........................      2,933       1,925      4,858
                                       =================================
2001:
    NOS...............................        833         396      1,229
    NMFS..............................      1,947       1,650      3,597
    OAR...............................        559         470      1,029
                                       ---------------------------------
      Totals..........................      3,339       2,516      5,855
------------------------------------------------------------------------

    Question. Could you provide a plan for the fiscal year 2002 
allocation?
    Answer. The NOAA Fleet and outsourced allocation for fiscal year 
2002 is shown below. The outsourced days include days funded through 
Marine Services and through line office accounts. The outsourced days 
shown for OAR exclude days to be outsourced for the Ocean Exploration 
Program because details are still in process. The NOS outsourced days-
at-sea exclude $20.5 million in contracts for hydrographic data because 
the contracts are for square nautical miles of hydrography rather than 
days at sea.

------------------------------------------------------------------------
                                           NOAA
              Line Office                 Fleet    Outsourced    Total
------------------------------------------------------------------------
NOS...................................        925         485      1,410
NMFS..................................      1,985       2,265      4,250
OAR...................................        460         670      1,130
                                       ---------------------------------
      Totals..........................      3,370       3,420      6,790
------------------------------------------------------------------------

                            nautical charts
    Question. I understand that the critical survey backlog encompasses 
less than 1.5 percent of the entire U.S. Exclusive Economic Zone (EEZ), 
and only 9 percent of the navigationally significant areas. If funded 
at the requested level, how long would it take to chart both the 
critical areas and the navigationally significant areas?
    Answer. At fiscal year 2001 funding levels, it will take just under 
20 years to eliminate the 43,000 square nautical mile critical survey 
backlog. Currently NOAA contracts out over $20 million in survey funds. 
The remaining navigationally significant areas (507,000 square nautical 
miles) would take 312 years to survey at current rates.
    Responsible for over 3.4 million square nautical miles of the U.S. 
Exclusive Economic Zone (EEZ), NOAA has prioritized the EEZ to maximize 
the efficiency of resources available for hydrographic survey data. 
NOAA has identified approximately 550,000 square nautical miles as 
navigationally significant, which are further prioritized by threat of 
hazard to surface navigation. The critical survey backlog addresses the 
43,000 square nautical miles, or approximately 1.3 percent of NOAA's 
charting responsibility, considered the most important to safe 
navigation. The highest priority are those critical waterways that have 
high commercial traffic volumes (cargo, fishing vessels, cruise ships, 
ferries, etc.), extensive petroleum or hazardous material transport, 
compelling requests from users, and/or transiting vessels with low 
under-keel clearance over the seafloor. Over half of the critical 
backlog area exists in Alaskan waters. This hydrographic survey 
information supports the production of Electronic Navigational Charts, 
and other navigation products and services, and also benefits other 
users such as ports authorities and coastal zone managers.
    Question. At this rate, how does NOAA intend to tackle the survey 
backlog?
    Answer. As stated above, NOAA has made the 43,000 square nautical 
miles considered most critical to safe navigation its top survey 
priority. Between in-house capability and funds allocated to contract 
surveys, NOAA has reduced the survey backlog to about 32,500 square 
nautical miles through the end of fiscal year 2000. NOAA will continue 
its mix of methods, contracting, in-house surveying, and possible 
future leased vessels, in efforts to eliminate the survey backlog. 
Funds were appropriated in fiscal year 2001 and proposed in the fiscal 
year 2002 President's Request to bring the deactivated NOAA Survey 
Vessel FAIRWEATHER back online in fiscal year 2003. Reactivation of the 
FAIRWEATHER would contribute significantly to reducing the backlog in 
Alaskan waters.
    Question. What will it take to collect hydrographic survey data and 
create electronic navigational charts (ENCs) to connect the 
navigationally significant waterways between the charted ports and 
harbors?
    Answer. Some areas between the ports charted on ENCs are also 
considered part of the critical survey backlog, particularly along the 
East and Gulf Coasts. Other areas between ports are considered 
navigationally significant, but are not part of the critical backlog. 
Ideally, surveys of these waters would be acquired before building the 
ENCs, but resource limitations have required a survey prioritization 
schedule. It would take significant additional resources, including 
contracts, charters, and in-house capabilities, to survey these areas 
in a reasonable time frame. The cost would depend heavily upon the time 
table established to complete the effort.
    NOAA supports a phased approach to building ENCs of U.S. waterways. 
With the proposed fiscal year 2002 funding increase, NOAA will build 65 
new ENCs in 2002 to complete the suite of 200 ENCs that cover the 
Nation's 40 major ports and harbors. The ENCs will then be continually 
maintained with new data and updates as part of NOAA's nautical 
charting database. The prioritization of the top 40 major U.S. ports 
and harbors for commercial navigation was determined by analyzing data 
ranking U.S. ports by cargo tonnage and major ports of call visited by 
the cruise line industry.
    NOAA's proposed next step would be to provide minimum contiguous 
ENC coverage for U.S. waters, in order to connect coastal waters 
between U.S. ports for safe navigation. A total of 660 ENCs would be 
required to achieve this goal. This next step is not included in the 
President's Request for fiscal year 2002. The estimate for full ENC 
coverage for U.S. waters, including specialized charts NOAA now 
produces in paper format, is 1,000 ENCs. NOAA would like to produce a 
seamless database of ENCs, which would significantly aid the U.S. Coast 
Guard and U.S. Navy, professional mariners, maritime pilots, commercial 
fishers, recreational boaters, and many other chart database users, 
such as coastal managers and emergency planners.
    Question. Are there new technologies, such as ships or charting 
equipment, that could speed up the process?
    Answer. Additional hydrographic survey vessel capacity would 
certainly speed up the process, whether NOAA platforms, funds for 
additional contracting, or leased vessels operating at NOAA's 
direction. Similarly, expansion of NOAA's Navigation Response Teams 
would increase the rate of production. These teams provide on-the-
ground field verification and generate small-scale, fast-response 
hydrographic surveys and item investigations for major port and harbor 
ENCs. Currently, there are two such teams operating in the United 
States.
    Installing the newest survey technology on all NOAA hydrographic 
survey ships and Navigation Response Team launches would also increase 
production capability and data accuracy and contribute to reducing the 
survey backlog. Multi-beam sonar systems collect a wide full-bottom 
swath or fanshaped coverage of the seafloor for highly accurate depths, 
and high-speed/high resolution side scan sonar, which searches and 
detects objects on the seafloor, is very useful for identifying wrecks 
and obstructions, particularly in the shallower waters of the East 
Coast. Installing multi-beam sonars on NOAA's other research vessels 
would serve dual purposes, e.g., collecting fisheries habitat data and 
hydrographic survey data at the same time, since many of the areas that 
are important to fisheries research are also navigationally significant 
areas.
    Question. What areas do you intend to survey in fiscal year 2003?
    Answer. In fiscal year 2003, NOAA plans to survey or contract for 
surveys in: the Mid-Atlantic Corridor (Delaware-New Jersey), Eastern 
Long Island Sound (New York-Connecticut); Southern Chesapeake Bay 
(Virginia-Maryland); Block Island Sound (Rhode Island-New York); the 
Gulf of Mexico shipping corridors; Sitka Sound and adjacent waterways 
(Alaska); SW Alaska Peninsula; Eastern Prince William Sound; SE Alaska 
and Chatham Strait; and the Bering Strait.
    Question. Why did you decide to survey those areas first?
    Answer. These areas are all part of the identified critical survey 
backlog, and NOAA has scheduled them based on survey priority, 
stakeholder need and requests for survey from various government 
agencies and commercial groups.
    Question. What uncharted regions stand to be the most at risk from 
potential maritime disasters?
    Answer. The uncharted regions most at risk for potential maritime 
disasters are Alaskan waters where glaciers are receding at a rapid 
pace. Cruise ships ``pushing the envelope'' for the view enter these 
uncharted waters. A number have run aground in recent years, each one a 
potential catastrophe.
    Aside from Alaska, there are many other areas portrayed on nautical 
charts that have never been adequately surveyed. Nearly half of the 
depths on current charts were acquired before 1940 using less 
efficient, less accurate, and less complete leadline techniques. While 
charted, areas such as Houston/Galveston, Puget Sound and Prince 
William Sound, which see high commercial traffic, particularly in 
hazardous material cargo including oil and liquified natural gas, are 
also at tremendous risk for maritime disasters.
                          restoration programs
    Question. NOAA spends a significant amount of resources on habitat 
restoration. Much of this work is outstanding and has led to the 
restoration of thousands of acres of habitat. However, it has come to 
my attention that the restoration programs are scattered throughout 
NOAA in at least six different offices. What NOAA offices are currently 
involved in some aspect of habitat restoration, and how much are they 
spending on restoration work?
    Answer. NOAA is involved in the restoration of coastal habitats in 
a variety of ways and through a number of offices and programs. The 
diversity of programs reflects the wide variety of mandates under which 
NOAA operates and the complex series of issues captured under the 
umbrella term of ``restoration.'' NOAA has successfully implemented 
mechanisms for cooperative management of restoration programs 
encouraging cooperation and efficient use of resources. Restoration 
activities of the three NOAA line offices (National Marine Fisheries 
Service (NMFS), National Ocean Service (NOS), and Office of Oceanic and 
Atmospheric Research (OAR) are described below.
National Marine Fisheries Service (NMFS)
    The major restoration activities of the National Marine Fisheries 
Service include the programs of the NOAA Restoration Center and as well 
as activities by the Exxon Valdez Oil Spill Restoration Center, Pacific 
Salmon Recovery Fund, South Central Florida Restoration Initiative, and 
the NMFS Coral Reef Initiative.
            Damage Assessment and Restoration Program (DARP)
    The Damage Assessment and Restoration Program (DARP) is a cross-
cutting program composed of the NOAA Restoration Center, the Damage 
Assessment Center (housed in the NOAA National Ocean Service) and the 
Natural Resources section of the NOAA Office of General Counsel. (The 
Damage Assessment Center is mentioned again below in the NOS section.) 
The program receives its mandate from statutory authorities including 
the Comprehensive Environmental Response, Compensation, and Liability 
Act (CERCLA), the Oil Pollution Act, the Clean Water Act, and the 
Marine Protection, Research, and Sanctuaries Act (MPRSA). These 
statutes authorize NOAA, through the DARP, to assess and claim damages 
for injuries to trust resources in marine and coastal settings 
resulting from discharges of oil or hazardous substances or other 
human-induced environmental disturbances.
            Restoration Center
    The NOAA Restoration Center uses recovered damages to restore, 
replace, or acquire the equivalent of injured resources and has 
initiated restoration efforts at over one hundred sites around the 
country with over $313 million to date. NMFS uses approximately $1.6 
million of NOAA Restoration Center appropriated operational funds to 
support planning for and implementing restorations resulting from 
settlements with responsible parties.
    The NOAA Restoration Center also engages in regional restoration 
programs, including the Coastal Wetlands Planning, Protection, and 
Restoration Act (also known as the Breaux Act) to develop and implement 
habitat projects to restore salt marshes in Louisiana lost to erosion, 
subsidence and hydrological alterations. Today, the NOAA Restoration 
Center is actively involved in implementing twenty-two large- and 
small-scale wetland restoration projects benefiting more than 80,000 
acres with approximately $92 million in project funding. While most of 
these activities result from reimbursable Breaux Act funds made 
available through the Army Corps of Engineers, the NOAA Restoration 
Center annually uses between $50,000 and $100,000 of its operational 
funds to support the Breaux Act. In support of CWPPRA, the NMFS 
Galveston Laboratory invests a portion of its appropriated funds for 
scientific studies of the ecology, fishery productivity and restoration 
of Louisiana's coastal wetlands.
    The NOAA Restoration Center also actively supports special area 
regional restoration activities throughout the country. Examples 
include the Bronx River, NY (funded in fiscal year 2001 with $8.5 
million), and Pinellas County, FL (funded in fiscal year 2001 with $1.5 
million). Another regional program is Kentucky PRIDE (Personal 
Responsibility In a Desirable Environment) which undertakes regional 
and local riparian habitat restoration to benefit significant aquatic 
resources. To date over $55 million in Federal grants have been awarded 
to address aquatic resources issues in the south eastern part of 
Kentucky.
    The NOAA Restoration Center coordinates with the Damage Assessment 
Center and the Office of General Council to assist in the development 
of a proposed Regional Restoration Planning Program for Louisiana on a 
state-wide basis that addresses natural resource injuries caused by oil 
spills. The planning program is intended to increase efficiency and 
effectiveness in addressing restoration needs for small injury cases.
    The NOAA Restoration Center is home to the Community-Based 
Restoration Program (CRP) which involves communities in the restoration 
of local marine and estuarine habitat. Partnerships with Federal 
agencies, states, local governments, non-governmental and non-profit 
organizations, businesses, industry and schools have helped over 170 
local efforts restore coastal habitat. The NOAA Restoration Center and 
its partners provide funding and expertise to numerous coastal 
community projects that promote coastal stewardship and develop a 
conservation ethic. Through partnerships, the CRP has been able to 
leverage $4-$10 for every Federal appropriated dollar. These 
partnership are implemented at the national, regional and local levels. 
In the fiscal year 2000, a partnership with Restore America's Estuaries 
and the NOAA Restoration Center initiated the development of a National 
Coastal Restoration Strategy to further improve the effectiveness of 
this and other regional restoration programs. The CRP began with an 
investment of $250,000 in 1996, increased to $2 million in fiscal year 
2000 and is being implemented with an appropriation of $8 million in 
fiscal year 2001.
            Exxon Valdez Oil Spill Restoration Center
    The NMFS Exxon Valdez Oil Spill Restoration Center, housed in the 
Alaska Fisheries Science Center assists the Exxon Valdez Oil Spill NRDA 
Trustee Council in implementing projects valued at over $700 million to 
restore significant coastal habitat damaged from the oil spill. The 
funds are principally targeted at land acquisition to preserve high 
priority coastal resources and the understanding the long-term natural 
resource injuries and the associated recovery processes.
            Pacific Salmon Recovery Fund
    NMFS staff from the Alaska, Northwest, and Southwest Regional 
Offices are assisting the States of Alaska, Washington, Oregon, and 
California and regional tribes in implementing restoration under the 
Pacific Coastal Salmon Recovery Fund (PCSRF). Congress appropriated $58 
million in fiscal year 2000 to be used for salmon habitat restoration, 
salmon stock enhancement, salmon research, and implementing the Pacific 
Salmon Treaty Agreement and related agreements. The $58 million PCSRF 
appropriation was distributed as follows: $50 million to the states 
($18 million for Washington, $14 million for Alaska, $9 million for 
Oregon, and $9 million for California), $6 million to Pacific coastal 
tribes, and $2 million for Columbia River tribes. Fiscal year 2001 
funding in support of the PCSRF is $74 million.
            South Central Florida Restoration Initiative
    The NMFS Southeast Fisheries Science Center supports the $500 
million South Central Florida Restoration Initiative (Everglades 
restoration). This Federal and State partnership is aimed at restoring 
significant national fish and wildlife resources and the Everglades 
ecosystem that supports them. NMFS support includes restoration methods 
research and monitoring ($401,000), technical program oversight 
($450,000), and education/outreach of ecological restoration principles 
and practices ($130,000).
            Support for Restoration: Funding, Technical Assistance, and 
                    Information
    The NOAA Chesapeake Bay Office (NCBO) supports the Chesapeake Bay 
Program, a unique regional partnership aimed at restoring the 
Chesapeake Bay ecosystem. A major component of Bay restoration includes 
reestablishing once abundant oyster populations which have value as 
harvestable resources as well as habitat for living marine resources 
and water quality enhancement. Towards this end, the NCBO administers 
the Oyster Recovery Program, a cooperative effort with Bay waterman to 
replant over-fished beds and address critical issues related to 
successful oyster restoration, including the importance of oyster 
sanctuaries, benefits of protecting historically productive areas and 
the importance of reef design. The Oyster Recovery Program received 
$850,000 for fiscal year 2001.
    The five NMFS Science Centers each conduct local programs of basic 
research on the structure and function of coastal ecosystems. This 
includes evaluating restoration techniques on such diverse habitats as 
salt marshes, seagrasses, coral reefs, and riverine systems important 
to salmon. In fiscal year 2001, NMFS will spend about $2-$3 million in 
restoration related research.
National Ocean Service (NOS)
            Response and Restoration Programs
    NOAA's Office of Response and Restoration (OR&R) protects and 
restores coastal ecosystems threatened or harmed by releases of oil and 
hazardous substances and other environmental disturbances, such as ship 
groundings. OR&R uses sound science and effective partnerships with 
other NOAA components, other government agencies, industries, and the 
public to accomplish its legislative mandates under CERCLA, the Oil 
Pollution Act (OPA), the Clean Water Act, and the National Marine 
Sanctuaries Act. OR&R houses the Damage Assessment Center (DAC), part 
of NOAA's Damage Assessment and Restoration Program (DARP) that is 
described in the NMFS portion of this answer. OR&R:
    Responds to over 100 oil and hazardous materials spills and other 
incidents in the coastal and marine waters each year. OR&R uses the 
best available scientific information and technologies to improve 
response strategies at these incidents, setting the stage for effective 
and efficient habitat restoration.
  --Restores coastal natural resources by improving recovery and 
        expediting restoration at coastal waste sites (intervening 
        successfully at more than 500 sites since 1984).
  --Restores coastal natural resources directly by providing funding 
        for restoration projects through settlements of liability under 
        CERCLA and OPA (both as part of the Damage Assessment and 
        Restoration Program and through comprehensive government 
        settlements with EPA).
  --Implements restoration, develops restoration plans, monitors 
        projects to ensure success, and promotes regional restoration 
        planning to maximize benefits of individual projects on a 
        broader scale (for example, as a leader in funding and 
        developing the first ever National Strategy for Coastal Habitat 
        Restoration).
  --Supports coastal managers to build state and local capabilities to 
        protect and restore our coasts through technology transfer and 
        training and by providing tools and information that can be 
        directly applied to improve restoration planning and 
        implementation.

                        [In millions of dollars]

OR&R Funding for Restoration:
    Base funding for fiscal year 2001 focused on restoration......   7.0
    Expected settlement funding for restoration in fiscal year 
      2001 \1\....................................................  48.5
    CERCLA funding through EPA....................................  2.45

\1\ OR&R has collected and used $313 million in settlement funds to 
restore coastal habitat since its restoration programs were initiated.
---------------------------------------------------------------------------
            The National Marine Sanctuary System
    The National Marine Sanctuary System (NMSS) is involved in habitat 
restoration at many of its sites. The National Marine Sanctuaries Act 
allows the program to recover funds for restoration from those parties 
responsible for injury to sanctuary resources. In addition to 
restoration efforts funded by its base appropriation, NMSS uses damage 
assessment settlement funds from specific cases to support actual 
restoration project implementation.

NMSS Funding for Restoration:
    Base funding for fiscal year 2001 focused on restoration..  $300,000
    Settlement funding for restoration in fiscal year 2001 \1\   350,000

\1\ NMSS settlements vary by year, ranging from approximately $2 million 
in fiscal year 1999 to $350,000 in fiscal year 2001.
---------------------------------------------------------------------------
            National Estuarine Research Reserve System
    The National Estuarine Research Reserve System (NERRS) conducts a 
small amount of restoration work through the Reserve system and the 
Cooperative Institute for Coastal and Estuarine Environmental 
Technology (CICEET), an innovative partnership between the National 
Ocean Service and the University of New Hampshire. NERRS is also 
engaged in a number of activities related to restoration and is 
currently preparing a NERRS Restoration Science Strategy. CICEET 
currently has 12 active projects developing innovative restoration 
technologies and methods for estuarine and coastal ecosystems.

                        [In millions of dollars]

Base funding in fiscal year 2001 for CICEET restoration activities   2.3
            Support for Restoration: Funding, Technical Assistance, and 
                    Information
    The following NOS programs provide funding, technical support, 
data, and other resources that are critical to restoration nationwide:
  --NOAA Coastal Services Center participates in coastal habitat 
        restoration through the sponsorship of conferences, the 
        development of tools, and the funding of restoration projects. 
        CSC partners extensively with the private sector, academia, 
        Federal agencies, and other NOAA offices. For example, CSC has 
        partnered with the National Marine Fisheries Service's 
        Southeast Fisheries Science Center to establish a joint 
        collaborative effort at Lafayette, Louisiana, whose primary 
        interest is coastal habitat restoration. The amount of funds 
        expended each year is variable, but can approach $500,000 per 
        year.
  --The Office of Ocean and Coastal Resource Management (OCRM) 
        administers the Coastal Zone Management Act (CZMA), a federal 
        state partnership for managing the nation's coastal areas. 
        Through the CZMA, OCRM provides funding and other support, some 
        of which states devote to restoration activities. OCRM also 
        administers two new programs: the Great Lakes Coastal 
        Restoration Grants Program and the Coastal Impact Assistance 
        Program. These are referenced below.
  --The National Centers for Coastal Ocean Science conducts scientific 
        research to support agency mandates that require habitat 
        restoration. Approximate funding for NCCOS restoration 
        activities in fiscal year 2001 is $3.45 million. Such research 
        is directed at providing NOAA and state and local managers with 
        new and advanced restoration protocols and tools, as well as 
        monitoring and assessment techniques and strategies, and the 
        development of success criteria for multi-year restoration 
        activities.
  --The National Geodetic Survey (NGS) plans and conducts highly 
        accurate vertical control surveys, assisting partners such as 
        the U.S. Army Corps of Engineers in conducting coastal habitat 
        restoration. In south Florida, leveling surveys will be used 
        throughout the Everglades Restoration Project as a baseline for 
        determining local water flow patterns. The allocation for 2001 
        is $469,000.
  --The Center for Oceanographic Products and Services provides the 
        accurate water level information critical to successful 
        restoration. COOPS generates tidal elevation data through its 
        nation-wide network of tide gauges and, in many major port 
        areas, Physical Oceanographic Real Time Systems (PORTS). COOPS 
        is also collaborating with other NOS and NOAA programs, with 
        state and local agencies, and with the private sector to 
        develop new techniques for integrating tidal elevation 
        information into local restoration projects.
            Specific directed restoration grant programs
    In fiscal year 2001, NOS also had a number of directed projects 
that provided funds to outside recipients for restoration activities. 
Most of these are short-term efforts and are not included in the fiscal 
year 2002 President's request. These include:
  --Great Lakes Coastal Restoration Grants Program (GLCRGP).--There is 
        approximately $29.9 million under the GLCRGP available to 
        states and coastal communities to support the legislative 
        purpose of protecting and restoring Great Lakes coastal 
        resources and water quality.
  --Brown Marsh Grant Program.--$3 million grant to the Louisiana 
        Department of Natural Resources for science studies and 
        restoration and remediation efforts focused on the large marsh 
        die back in the state.
  --New Hampshire Marsh Restoration.--$1 million for several new and 
        on-going salt marsh restoration projects.
  --River Restorations.--$11.5 million grants for restoration projects 
        along the DuPage River, Illinois, and the Detroit and Lower 
        Rouge Rivers in Michigan. These projects will provide for 
        study, characterization and restoration efforts along these 
        three rivers.
  --National Fish and Wildlife Foundation Grants.--Part of the $2 
        million provides resources for some small-scale restoration 
        projects. (This is requested to continue at a level of $2 
        million in fiscal year 2002--$1 million each in NOS and NMFS.)
  --Some small portion of the Coastal Impact Assistance Program (CIAP) 
        may also be made available for restoration projects in the 
        seven states that will receive these grants (Alaska, 
        California, Texas, Louisiana, Alabama, Mississippi, and 
        Florida).
Office of Oceanic and Atmospheric Research (OAR)
            National Sea Grant College Program
    In fiscal year 2001 to date, NOAA's Sea Grant College Program 
awarded $2.339 million of their funding (plus $1.5 million in matching 
funds from the grantees) for habitat related research. Of that amount, 
$2.2 million ($1.4 million matching) went to habitat structure and 
function; $139,000 ($115,000 matching) was awarded to habitat 
restoration research.
    Question. How is NOAA coordinating these habitat restoration 
efforts to ensure the most efficient and effective use of its 
resources?
    Answer. NOAA's offices and programs cooperate on restoration at a 
number of levels. The Damage Assessment and Restoration Program (DARP) 
is a cooperative program among the National Marine Fisheries Service's 
Office of Habitat Conservation, National Ocean Service's Office of 
Response and Restoration, and NOAA's General Counsel for Natural 
Resources to address the coastal impacts of oil and chemical spills and 
releases, as well as the physical damage resulting from events such as 
ship groundings. Through DARP, NOAA scientists, economists, and 
managers participate in the evaluation of damage to coastal resources, 
development of restoration plans, and implementation and monitoring of 
restoration projects.
    To implement the Estuary Restoration Act, NOAA has established a 
``Secretariat,'' a cross-line office body that will assure that NOAA 
expertise, tools, and databases are efficiently and effectively applied 
to coastal restoration throughout the United States and the 
protectorates.
    Coordination also occurs between offices in instances such as the 
restoration of damage to NOAA's protected resources. For example, 
scientists and managers from NOAA's Marine Sanctuary System and the 
DARP collaborate to design, implement, and monitor coastal habitat 
restoration projects within the sanctuaries. Informal coordination and 
cooperation is very common throughout the country, with staff from the 
line offices working together on all aspects of coastal habitat 
restoration. In order to capitalize on the extensive regional-level 
interaction, a NOAA-wide restoration workshop was held to discuss means 
of facilitating communication across the NOAA restoration community and 
to continue to improve the agency's ability to restore coastal 
habitats. An outgrowth of this workshop was the NOAA Restoration 
Network, which provides electronic communication for the diverse and 
widespread employees of NOAA and its partners to share information and 
assist one another in the more efficient completion of restoration 
activities.
    Question. Does NOAA have a comprehensive habitat restoration plan?
    Answer. NOAA funded the development of a National Strategy for 
Coastal Habitat Restoration through Restore Americas Estuaries (RAE), a 
consortium of all of the major non-governmental organizations involved 
in estuary restoration, in fiscal year 2000. RAE identified, evaluated, 
and synthesized existing restoration plans and programs to form the 
foundation of a national strategy for restoration. The strategy will 
identify a common set of restoration principals, goals, objectives, 
monitoring protocols and priority setting methods to increase 
effectiveness and efficiency of ``on-the-ground'' restoration 
activities. The strategy is intended to assist both NOAA and other 
Federal agencies in undertaking restoration activities.
    Question. Would such a plan make better use of the integration 
between offices?
    Answer. NOAA and RAE hope that the National Strategy for Coastal 
Habitat Restoration will provide a common a framework for the 
integration of restoration programs and activities at the national and 
regional levels, both within NOAA and outside of NOAA. NOAA believes 
that the strategy's development along with the improved communication 
and coordination through such mechanisms as the Restoration Network and 
the creation of the Secretariat under the Estuaries Restoration Act 
will provide a comprehensive approach to restoration planning, and 
implementation that should lead to improved use and integration of NOAA 
conducted restoration activities. It will also promote federal, state, 
local, and private cooperation and leverage these efforts to contribute 
to successful restoration based on needs and priorities established at 
the regional level.
    Question. NOAA is asking for $2 million in fiscal year 2002 to 
implement the Estuary Restoration Act. What is NOAA's role in the Act 
and how will NOAA spend this funding?
    Answer. The Estuary Act assigns specific responsibilities to NOAA, 
including:
  --Developing monitoring protocols for restoration projects, including 
        standards for data collection and frequency of monitoring 
        efforts;
  --Developing and maintaining a database of information on all 
        projects carried out under the Act, including progress toward 
        achieving the restoration goals;
  --Compiling and making available relevant information on estuary 
        restoration to assist in successful and efficient restoration 
        efforts; and
  --Enhancing monitoring and research capabilities through NERRS and 
        CICEET to ensure the use of sound science and encourage 
        innovative technologies.
    The $2 million request will help fund these activities through 
existing programs.
    In addition to the legislative mandates above, NOAA has been 
identified in the Estuary Restoration Act as a member of the Estuary 
Habitat Restoration Council. Council membership will include 
participating in the setting of goals for the program, evaluation of 
proposed projects, development of a national restoration strategy, and 
collaborating with non-Federal partners to implement projects.
    NOAA's National Estuarine Research Reserve System (NERRS) and 
Cooperative Institute for Coastal and Estuarine Environmental 
Technology (CICEET) were specifically identified as participating in 
the development of innovative restoration technology.
                           fisheries vessels
    Question. I am concerned that as NOAA's fisheries research vessels 
are pushed into proposed future budget requests that the cost per 
vessel will increase. As you know, the NOAA fleet is aging and many of 
the NOAA vessels must be replaced. Why wasn't the second fisheries 
vessel included in the budget request? Will you support its funding if 
we find resources for it? Can you assure me that next year we will see 
the third vessel in budget request?
    Answer. Delaying funding for the second Fishery Research Vessel 
(FRV) to fiscal year 2003 delays the production schedule one year. The 
production design of the first FRV did not begin until last month, 6 
months later than anticipated. This pushes back construction of the 
first vessel to fiscal year 2002. Designing and constructing the second 
FRV in fiscal year 2003 would allow the second vessel to benefit from 
some lessons learned in constructing the first one, but does not 
provide continuity for the workforce to transition from one hull to the 
next. Funding two ships in fiscal year 2003 or fiscal year 2004 saves 
approximately $1 million over consecutive year funding and might still 
allow for calibration with retiring ships, thus preserving the validity 
of decades of time series data.
    The construction contract (signed this year) for the new Fisheries 
Research Vessel funded by the fiscal year 2000 and fiscal year 2001 
budgets, includes options to build three additional vessels. The 
Department is committed to replacing the aging NMFS fleet to assure 
continuity of NOAA's mission.
                                 ______
                                 
               Questions Submitted by Senator Ted Stevens
                         marine protected areas
    Question. Will Executive Order 13158 regarding ``marine protected 
areas'' impact any rulemaking or other regulatory activity specifically 
authorized by Congress through the Magnuson-Stevens Act, the Marine 
Mammal Protection Act, and other laws? If so, please describe the 
process.
    Answer. With the exception of Clean Water Act authorities of the 
Environmental Protection Agency (see below), Executive Order 13158 does 
not promulgate of new regulations, make existing MPAs more restrictive, 
or establish new MPAs. The Executive Order does not supplant existing 
statutory authorities or create new legal authority to regulate marine 
resources and activities conducted under this Order will be consistent 
with current law. It tasks NOAA with providing information and services 
on existing MPAs, and leaves all management and establishment of MPAs 
with the agencies who have existing authorities. Any actions by these 
authorities, including rulemaking or other regulatory activity, to 
modify existing MPAs or establish new MPAs are subject to all of the 
currently existing and applicable laws, regulations, etc. This includes 
National Environmental Policy Act requirements for impact assessments, 
public notice and public review.
    The following proposed regulation was published in the Federal 
Register by EPA in early fiscal year 2001 and is currently under 
review.
    Section 4(f) of the Executive Order states ``To better protect 
beaches, coasts, and the marine environment from pollution, the 
Environmental Protection Agency (EPA), relying upon existing Clean 
Water Act authorities, shall expeditiously propose new science-based 
regulations, as necessary, to ensure appropriate levels of protection 
for the marine environment. Such regulations may include the 
identification of areas that warrant additional pollution protections 
and the enhancement of marine water quality standards. The EPA shall 
consult with the Federal agencies identified in subsection 4(a) of this 
order, States, territories, tribes, and the public in the development 
of such new regulations.''
                  authorizations for marine activities
    Question. Is it NOAA's position that existing laws regarding 
activities in the marine environment, including the Magnuson-Stevens 
Act, the Marine Mammal Protection Act, the Coastal Zone Management Act, 
and other laws, do not provide sufficient authority for NOAA to carry 
out its mission?
    Answer. NOAA believes that the existing legal authorities 
mentioned, as well as the Endangered Species Act, National Marine 
Sanctuaries Act, and other laws, do indeed provide sufficient authority 
for NOAA to carry out its mission. However, the independent application 
of these authorities for the distinct purposes of each statute may 
still leave gaps in the conservation and management of marine 
resources, particularly from an ecosystem perspective. The MPA 
Executive Order promotes improved coordination among key Federal 
agencies involved in management of marine areas and provides for the 
development of better information and tools to enhance the benefits of 
existing authorities.
                     cost for executive order 13158
    Question. Please provide the Committee with a full accounting of 
all costs and expenses, including FTE's, that NOAA has incurred in its 
implementation of Executive Order 13158 to date, and the expected costs 
through the end of fiscal year 2001.
    Answer. In fiscal year 2000, NOAA spent approximately $312,000 to 
support the tasks defined in the Marine Protected Areas (MPA) Executive 
Order. The equivalent of 2 FTEs were involved in this effort from June 
through September 2000. Estimated expenses for fiscal year 2001 are 2 
FTEs and $490,000. These funds are planned for expenditure as follows:
    1. Inventory/Website/Library.--$125,000 funds contracts with state 
organizations to assist in the collection of information about state 
protected areas.
    2. Outreach/Education/Federal Advisory Committee.--$157,000 
supports the first Advisory Committee meeting, provides for the 
preparation of educational and public information materials, sponsors 
two meetings with MPA stakeholders, and enables NOAA to conduct an MPA 
education workshop with Sea Grant, National Estuarine Research Reserve, 
National Marine Sanctuary, zoo, and aquarium staff.
    3. National Center and Institutes for Marine Protected Areas.--
$208,000 supports activities of the National Center and its Science and 
Training/Technical Assistance Institutes including conduct of MPA 
natural and social science strategy workshops and regional coordination 
workshops.
                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye
                        highly migratory species
    Questions. NOAA's fiscal year 2002 budget request includes a new 
program for the West Coast of the United States to research and manage 
highly migratory species. The budget request also includes funds for 
the Joint Institute of Marine and Atmospheric Research (JIMAR) to 
continue ongoing research and related management of highly migratory 
species in the Western, Central and South Pacific. While I recognize 
that there are some species of distinct importance to each region, 
given the nature of highly migratory species, there are also species 
which the two regions have in common. What is NOAA doing to ensure 
coordination between the West Coast and Pacific region programs and to 
avoid duplication of effort and jurisdictional conflicts?
    Answer. The Pacific Highly Migratory Species initiative was 
developed to deal with management information needs arising from the 
purse seine fisheries operating under the existing Tuna Treaty, the 
developing Multi-lateral High Level Conference on the Management of 
Highly Migratory Species in the Pacific Ocean (MHLC Treaty), as well as 
the Inter-American Tropical Tuna Commission (IATTC). A preliminary 
spending plan for the $1 million proposed in the President's fiscal 
year 2002 request is outlined below and focuses on the new scientific 
research and monitoring that will be undertaken. While the Southwest 
Fisheries Science Center's La Jolla Laboratory has responsibility for 
these purse seine fisheries and so would be the beneficiary of this 
proposed increase, the Center's Honolulu Laboratory would share 
significantly in other Presidential fiscal year 2002 requests, 
including the Expanded Stock Assessment Initiative and Sea Turtle 
Recovery Activities, as well as receiving directly funds for the 
Adventurous Refit and Honolulu Laboratory Renovation Planning.
            Preliminary Spending Plan
    Economic assessments of purse seine fisheries, including capacity 
issues--$0.150 million.
              commerce jurisdiction over marine resources
    Question. A debate continues on the issue of which Federal 
department has jurisdiction over marine resources between 3 to 200 
miles. This issue was at the core of efforts during the previous 
Administration to establish an area of protection around the coral 
reefs in the Northwestern Hawaiian Islands. Initially, the Department 
of the Interior sought to extend its existing wildlife refuge out to 12 
miles, or in the alternative to establish a national monument. During 
this debate, the Justice Department's Office of Legal Counsel issued a 
legal opinion which called into question the Department of the 
Interior's authority to exert jurisdiction beyond the 3 miles from 
shore.
    The Department of the Interior continues to exert management 
authority over marine resources beyond 3 miles from shore. The most 
recent examples are the Fish and Wildlife Service's establishment of 
refuges at Kingman Reef and Palmyra Atoll which extend out to 12 miles 
from shore. What is the Department of Commerce doing to protect its 
management jurisdiction over marine resources within the 3 to 200 mile 
zone?
    Answer. The NOAA Office of General Counsel has responded:
    The Department of Commerce is the primary management authority for 
living marine resources, including fish and corals, in federal waters 
and the underlying seabed and subsoil, pursuant to its authorities 
under statutes including the Magnuson-Stevens Act, the National Marine 
Sanctuaries Act, the Marine Mammal Protection Act, and the Endangered 
Species Act.
    DOC regards its authority and jurisdiction under these laws as 
unaffected by the wildlife refuges around Kingman Reef and Palmyra 
Atoll. The Western Pacific Fishery Management Council has established 
fishery management plans that include the territorial sea around 
Kingman Reef and Palmyra Atoll and the Department gives full effect to 
its regulations for these fishery management plans. The Department also 
continues fully to exert its management authority and jurisdiction 
around Kingman Reef and Palmyra Atoll under federal laws including the 
Endangered Species Act (for listed species under its jurisdiction such 
as sea turtles in the marine environment and whales), the Marine Mammal 
Protection Act, and the Lacey Act.
                northwestern hawaiian islands sanctuary
    Question. The reauthorization of the National Marine Sanctuaries 
program enacted last year authorized the Commerce Department to 
initiate a sanctuary designation process for the Northwestern Hawaiian 
Islands. This legislation also authorized the President to establish an 
interim coral reef reserve during the pendency of the sanctuary 
designation process. The clear intent of the Congress was that upon 
completion of the sanctuary designation process, the critical areas 
around the Northwestern Hawaiian Islands would be managed as a 
sanctuary. Despite Congress' clear intent, some officials at NOAA are 
taking the position that the sanctuary will overlay the reserve. 
Indeed, timelines prepared by NOAA officials for the implementation of 
the reserve and for the sanctuary show no target dates for the 
transition from a reserve to a sanctuary, implying that the reserve 
will continue indefinitely. What is NOAA's official position on this 
matter?
    Answer. NOAA's official position is that a Sanctuary designation 
process for the Northwestern Hawaiian Islands is underway, and that 
when a Sanctuary is designated as a result of that process, it will 
replace the Reserve.
    Question. If NOAA's position differs from the intent of Congress as 
outlined above, please specify the authority upon which NOAA justifies 
its departure from Congressional intent.
    Answer. NOAA's position does not appear to differ from the intent 
of Congress as outlined above.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
              biological opinion for columbia river salmon
    Question. Thank you, Mr. Chairman. And thank you, Mr. Gudes, for 
your testimony. I would like to compliment you on many of the 
initiatives included in NOAA's budget request, such as your emphasis on 
infrastructure and ocean exploration. In many ways, this is a budget 
proposal I can support. I also appreciate your willingness to learn 
more about projects important to Washington state, such as the 
Northwest Straits Initiative. As I mentioned when Secretary Evans 
appeared before the Subcommittee, I strongly support your request to 
maintain funding for the Pacific Coastal Salmon Recovery account and 
the Pacific Salmon Treaty account. But there is a crucial cross-cutting 
issue that I must raise: How does the Administration propose to fund 
the Biological Opinion for Columbia River salmon? The Bi-Op is already 
being challenged by litigation. It is estimated that the Bi-Op will 
cost hundreds of millions of dollars to fully fund. I am also posing 
this question to other Federal agencies, such as the U.S. Fish and 
Wildlife Service, the Army Corps of Engineers and the Bureau of 
Reclamation. But NMFS must play a crucial role as well. How can we get 
a cross-cut budget from relevant Federal agencies detailing the funding 
necessary to implement the Biological Opinion?
    Answer. NOAA and NMFS realize that this is a significant issue that 
is made more critical because of the current drought in the Northwest. 
While NOAA is not currently contemplating a supplemental budget request 
including funding for the Biological Opinion, we will continue to 
review this situation as part of the normal budget development process.
                         permit backlog problem
    Question. On a related issue, I appreciate the progress made 
impartially lifting the hiring freeze. But I am concerned that NMFS 
still doesn't have enough staff in the Northwest Region to adequately 
address the permits backlog caused by ESA consultations. I frequently 
hear about this issue from constituents who are very frustrated with 
how long it takes for them to get permits. Unfortunately, the backlog 
undermines support for protecting endangered species and threatens the 
regional economy. How do you propose to address the permits backlog 
problem in this budget?
    Answer. The NMFS Northwest Regional Office is proceeding to hire 4 
additional staff to address the existing backlog in consultations in 
Puget Sound. Unfortunately, the Corps of Engineers is also facing a 
huge backlog on projects requiring Endangered Species Act 
consultations, and as the Corps addresses their backlog, the demands on 
NMFS consultations increase since many of the actions have been pending 
for months with the Corps. Also, our constituencies have encouraged us 
to devote additional resources to development of Recovery Plans through 
the Shared Strategy arena and to implement the 4d rules for 
municipalities--all of which will add to workload on staff and require 
prioritizing these needs with ESA Section 7 consultations with the 
Corps' backlog on private citizen permit action.
               agreement between noaa and port of everett
    Question. The Northwest Fisheries Science Center has a research 
facility located on a former U.S. Air Force Tank Farm in Mukilteo, 
Washington, about 30 miles north of Seattle. NOAA is currently working 
with the Port of Everett to incorporate the research center into long-
term plans for redevelopment. These plans include constructing a 
commuter rail station, upgrading ferry terminals, expanding a marina 
and building commercial space along 22 acres of waterfront property.
    NOAA wants to own a portion of the land instead of leasing it from 
the Port of Everett. The Port will receive the land from the Air Force 
because of legislation I worked to pass last year. I am committed to 
facilitating an agreement amenable to all parties involved. Are you 
aware of this effort and does it have NOAA's support at the highest 
levels?
    Answer. NOAA supports this effort and has been involved with the 
ownership discussions. Representatives from the NMFS Northwest Regional 
Office, the NOAA Facilities Office, the Port of Everett, Senator 
Murray's office and others met on May 4, 2001 to try to resolve 
ownership issues at the Mukilteo tank farm facility. It is our desire 
to own the site rather than lease it because of flexibility in making 
improvements, etc. The Port is amenable to NOAA owning the site. We 
believe this could be accomplished through legislation or through an 
agreement between NOAA and the Port that would result in transfer of 
title to the site immediately upon the Port obtaining title. The two 
sides agreed to develop an option for accomplishing the transfer 
without legislation. Both agreed in principle that the site could 
revert to the Port if NOAA ever abandons it. NOAA plans to continue its 
operations at the site indefinitely. While no specific plans have been 
made for improving the site, we will continue to consider improvements 
within available resources. We will keep you informed of our progress.
               industry and government buy-back programs
    Question. Last year the omnibus appropriations bill authorized $50 
million for a North Pacific crab vessel and permit buy-back program. 
The West Coast Groundfish recovery plan developed by the Pacific 
Council also includes a buy-back program dependent upon $25 million 
from the Federal Government. Other sectors of the commercial fishing 
industry are also interested in buy-back programs. I realize budget are 
tight, but this is an issue I hear about frequently. I also support 
providing relief to sectors of the industry that are suffering from 
major downturns in the resource. What is your position on government 
and industry funded buy-back programs to address some of the fisheries 
crises currently facing us? And if you can't support buy-back programs 
because of the costs, how do you propose to help crab fishermen in the 
North Pacific and groundfish fishermen along the West Coast in the 
short term?
    Answer. NOAA recognizes the need to reduce capacity in some 
fisheries and that buy-backs is a management tool to reduce capacity. 
The Magnuson-Stevens Act Section 312(b) includes provisions for 
industry funded buy-backs. We have begun the necessary regulatory 
actions to conduct the crab buyout, however, we do not have full 
funding for this program. The total estimated cost for the buyout is 
estimated at $100 million per legislation included in the fiscal year 
2001 appropriation. However, NMFS has only received enough subsidy for 
a $50 million buyback loan. The additional $50 million needed for the 
buyout has not been appropriated, only authorized.
    Likewise, the Pacific Fishery Management Council has determined 
that the West Coast groundfish fishery capacity needs to be reduced by 
at least 50 percent. The Fishermen's Marketing Association has been 
holding meetings along the coast to gage industry interest in a buyback 
program that would involve a combination of government and industry-
funding. The plan includes the purchase of vessels, all federal 
groundfish permits, and all state permits (shrimp, crab, salmon, etc.) 
assigned to the vessel. The plan includes the purchase of state permits 
to address concerns about groundfish fishermen increasing their effort 
in other fisheries because of the buyback. The plan is based on a 
bidding system that ranks the bids according to the amount of total 
fishing revenue the vessel earned over the 1998-2000 period. The 
industry needs federal funds to help pay for the buyback and for 
establishing a buyback loan. The industry will repay the loan through 
landings fees. A total of $50 million ($25 million direct and $25 
million loan) is needed to fund the buyback. Not only would groundfish 
fishermen be responsible for paying back the loan but shrimp, salmon, 
and crab fishermen would also be responsible as this plan would reduce 
capacity in these fisheries as well.
                     SMALL BUSINESS ADMINISTRATION

STATEMENT OF JOHN WHITMORE, ACTING ADMINISTRATOR
ACCOMPANIED BY GREG WALTERS, DEPUTY CHIEF FINANCIAL OFFICER

    Senator Hollings. We will now hear from Mr. John Whitmore, 
Acting Administrator of the Small Business Administration.
    Very good, Mr. Whitmore. Your statement in its entirety 
will be included in the record, and you can summarize or 
deliver it as you wish.
    Mr. Whitmore. Thank you, Senator Hollings, Senator Inouye, 
for inviting me here today to testify.
    I am pleased to present the Small Business Administration's 
budget request for fiscal year 2002. With me today is Greg 
Walters, the Deputy CFO at SBA.
    The budget request of $539 million represents a renewed 
focus on SBA's core programs. It will provide credit, capital, 
and technical assistance to America's small businesses at a 
substantially reduced cost to the taxpayer. It includes $5 
million for SBA's portion of the President's New Freedom 
Initiative to help small businesses comply with the Americans 
with Disabilities Act, and $5 million as part of the Paul G. 
Coverdell Drug-Free Workplace Program.
    The budget also seeks to streamline the agency and 
eliminate duplicative programs.
    The budget proposes funding the SBA technical assistance 
programs at last year's levels, with three exceptions. We are 
proposing to increase funding for the SCORE program by $250,000 
up to a level of $4 million. SCORE is one of SBA's most cost-
efficient programs and will soon implement an electronic 
delivery system to broaden its reach.
    The Veterans' Business Development Program was not funded 
in 2001 but will receive $750,000 in 2002. The budget proposes 
a funding level of $88 million for the Small Business 
Development Center Program, $75.8 million coming from 
appropriations and $12 million in fees. Some SBDCs already 
impose a variation on the counseling fee by requiring new 
start-up businesses to take their training courses at a cost of 
$35 to $45 before receiving counseling. This is also in line 
with other SBA technical assistance programs such as the 
Women's Business Center program.
    Charging a modest fee of under $11 an hour will maintain 
the current service levels while reducing the cost to the 
taxpayer.
    The budget proposes funding the Government contracting 
assistance programs at the 2001 level, but does include 
$500,000 for a Women's Contract Initiative and a contract 
bundling study.
    The budget fairly demands that those who benefit most from 
SBA programs share in its cost. In the exact language of the 
President's budget, ``These programs will become self-financing 
by increasing fees. The budget acknowledges that some small 
businesses may have trouble accessing private capital in the 
absence of a Government guarantee but does not require the 
Government to subsidize the cost of borrowing. The budget 
increases fees sufficiently to make these programs self-
financing and would save $141 million.'' This will reduce the 
burden on appropriations, will allow for expanded program 
levels, and is fair to the taxpayer.
    The budget also proposes increasing fees for the Small 
Business Loan Program and the Small Business Investment Company 
Program. In the Small Business Loan Program, the budget raises 
fees for small business loans above $150,000. There is no fee 
increase for loans made under $150,000 benchmark, and we will 
continue a rebate to the lender.
    We hope this will encourage small loans to those who are in 
the start-up phase. This will also serve to provide capital to 
those most in need and will support a zero subsidy rate.
    The new administrator faces many challenges once confirmed. 
Two principal, large-scale challenges include antiquated 
programs and delivery systems that are out of touch with 
today's dynamic small business environment and resource and 
personnel questions. SBA needs to transform itself into an 
entity that is governed by efficiency, flexibility, and the 
empowerment of small business through knowledge.
    More specifically, within the SBA loan program, the number 
of loans has decreased by 21 percent between the period of 1995 
and 2000, while the dollar volume has increased 26 percent. 
While the dollar volume has increased, the Small Business Loan 
Program suffers from lack of reach. Larger loans have gone to 
fewer companies. This is where the program faces its biggest 
challenge. Cultivating businesses in their initial stage of 
growth is crucial to advancing America's small business 
community. This is where SBA should focus its attention. This 
is true gap lending.
    The fastest-growing groups in America's small business 
community are Hispanic and women-owned businesses. These 
groups, along with African Americans, Native Americans, and 
veterans, are also the most underrepresented in SBA's Small 
Business Loan Program. While the volume to Asian Americans went 
up significantly, loan volume to women, veterans, and other 
minorities has been flat or trending down.
    Another major challenge facing us is the need to focus on 
the current organizational and functional structure of SBA. 
This challenge has been exacerbated in recent months by the 
hiring in the November-January time period without regard to 
the agency's top priorities--the small business investment 
company, loan monitoring, and lender oversight 
responsibilities.
    I would also like to address the SBA Loan Monitoring 
Project which was authorized in December of 1997. I have 
concluded that the congressionally-mandated loan monitoring 
system has become commingled with an internally-sought Systems 
Modernization Initiative where cost and time lines for 
implementation have risen significantly. I have since directed 
that the program be refocused on activities for which Congress 
authorized and appropriated.

                           prepared statement

    With this in mind, we have signed a contract with KPMG to 
provide us with expertise in assessing available options. Other 
efforts of the modernization effort will wait until the loan 
monitoring system is fully operational.
    Thank you. I will be pleased to answer any questions.
    [The statement follows:]
                  Prepared Statement of John Whitmore
    Mr. Chairman, Ranking Member Hollings, and members of the 
committee, thank you for inviting me here today. I am pleased to 
present the U.S. Small Business Administration's (SBA) budget request 
for fiscal year 2002. This request of $539 million signals a renewed 
focus on SBA's core programs and a commitment to do them well. It will 
provide record levels of credit, capital, procurement, and 
entrepreneurial development assistance to America's 25 million small 
businesses at one of the lowest costs to the taxpayers ever. This is a 
fiscally sound budget request that will provide more than $17.5 billion 
in loans and guarantees, and counseling and training assistance to over 
1 million firms and entrepreneurs, to help them start, sustain and grow 
their businesses.
    As I said, this budget request will allow us to focus on our core 
programs and delivering them to those who need them most. The 
proliferation of new programs at the SBA has come at a cost of diluted 
focus and lack of attention to our bread and butter programs. We are 
concerned with the recent performance of key programs, such as our 7(a) 
loan, 8(a) business development assistance, and HUBZone programs. We 
are concerned that neither our programs nor our delivery structure are 
ready to serve small business needs in 2002 and beyond. We will present 
the Administrator, upon his confirmation, with an array of decision 
options to address these and other concerns.
                     financial assistance programs
    President Bush's budget will provide SBA's Financial Assistance 
Programs with a record level of financial support to our nation's small 
businesses--$17.5 billion. SBA's 7(a) Loan Guaranty Program, SBA's 
primary loan program, will support $10.7 billion in lending while 
saving the taxpayers $114.5 million. The savings will be accomplished 
by increasing the tax-deductible fees to those who benefit from the 
larger loans in the 7(a) program and to those Small Business Investment 
Companies using participating securities. However, loans of $150,000 
and less will have no change in their fees. In fiscal year 2000, of the 
43,748 total number of 7(a) loans, approximately 60 percent were under 
$150,000. For specific groups of borrowers, loans under $150,000 made 
up: 69 percent of the 2,000 loans to African Americans, 58 percent of 
the 5,359 loans to Asians, 65 percent of the 3,221 loans to Hispanics, 
81 percent of the 525 loans to Native Americans, 69 percent of the 
4,809 loans to veterans, and 74 percent of the 9,206 loans to women.
    From fiscal year 1995 through fiscal year 2000, the number of SBA 
7(a) loans dropped from 55,591 to 43,748, while the dollar volume of 
loans increased from $8.26 billion to $10.5 billion. The number of 
loans to Asian-Americans went up dramatically, but for Native 
Americans, other minorities, women and veterans, loan numbers have 
remained level or gone down slightly--even though businesses owned by 
Hispanics and women were the fasting growing segments of the business 
community.
    In an effort to encourage more of these smaller loans, the 
President's proposal makes no change in fees for loans under $150,000. 
The proposal aims to encourage the smaller loans that many banks are 
reluctant to make, which are the ones that help the neediest of small 
businesses.
    Finally, eliminating the need for appropriations will ensure that 
the 7(a) Program will not run out of money if there is a significant 
increase in demand, an approach that has worked well for other SBA 
programs.
    The 504 Certified Development Company Program provides financing 
for major fixed assets. The program will provide $3.75 billion in 
lending in fiscal year 2002, the same as fiscal year 2001, with a 
slight decrease in the fee paid by the users of the program. This 
program has not had a subsidy from taxpayers since fiscal year 1996. 
The 7(a) proposal is based on the 504 model.
    Through the Microloan Direct Program, SBA provides small loans up 
to $35,000 to small businesses through a network of locally based not 
for profit intermediary lenders. The fiscal year 2002 budget will 
provide $20 million for new loans to intermediary lenders. The average 
loan to microborrowers in this program is $10,500 and over the last 
five years the average number of microloans made each year has been 
around 1,500. Small businesses in economically distressed urban and 
rural areas have benefited from this program. The Microloan technical 
assistance aspect of the program will also receive $20 million in 
fiscal year 2002. These funds will be used to support technical 
assistance to microborrowers, increasing their chance of success and 
enhancing their ability to repay their loans. Training and other 
technical assistance will also be funded to help additional 
microbusinesses obtain financing from sources outside SBA.
    The program level for the Small Business Investment Company (SBIC) 
Program, a venture capital investment program, will increase to $3.1 
billion in fiscal year 2002, an increase of $600 million over fiscal 
year 2001. With a small increase in fees for participating securities, 
the SBIC Program, including the debentures program, will be fully self-
supporting. I note that the National Association of Small Business 
Investment Companies accepts this approach because it allows for a 
larger program volume.
    The Surety Bond Guarantee Program guarantees bid, performance, and 
payment bonds for small business contractors working on construction, 
service and supply contracts for public and private sector projects. 
The program will be level funded at $1.7 billion and does not require 
taxpayer funds.
              counseling and technical assistance programs
    The budget provides $5 million as SBA's share of the President's 
New Freedom Initiatives. The funds will provide technical assistance to 
help small businesses comply with the Americans with Disabilities Act 
(ADA) and hire more people with disabilities. This funding will also 
help SBA increase awareness and promote use of the Disabled Access 
Credit, which provides a 50 percent tax credit on up to $5,000 of 
eligible expenses annually to help small businesses make their 
facilities ADA compliant.
    The budget includes funding for the Paul D. Coverdell Drug-Free 
Workplace Program that awards grants to organizations helping small 
businesses establish drug-free workplace programs. This is part of the 
President's initiative to combat drug abuse. To date, SBA has not been 
able to meet the demand for assistance from intermediary partners. For 
example, in 1999 SBA received 160 grant applications from 
intermediaries, but issued only 16 grants. To help meet this need, the 
President's budget includes $5 million and proposes to spend $25 
million over the next five years.
    Business Information Centers (BICs) provide both counseling and 
information for start-up and early operating businesses. There are 70 
locations nationwide in both distressed and non-distressed areas. The 
program will be level funded at $500,000.
    One Stop Capital Shops (OSCSs) provide financial and business 
assistance to small businesses. Located in 22 socially and economically 
disadvantaged areas nationwide, OSCSs will be level funded at $3.1 
million.
    Small Business Development Centers (SBDCs) provide management and 
technical-assistance. This 21-year old program has slowly evolved as a 
counseling program for more mature businesses, not start-up businesses, 
although SBDCs do counsel some start-ups.
    SBDCs will receive $76 million in fiscal year 2002, plus $12 
million through the collection of nominal fees-for-counseling, as is 
currently done for training. After the initial first free hour, the 
estimated cost will be $10.75 per hour. The average use of counseling 
is 5.3 hours, which means clients will pay on average $46.23 for 
counseling. The fee proposal will allow the program to continue to grow 
while reducing the expense to the taxpayers. Currently the average SBDC 
counseling case costs Federal and state taxpayers approximately $700.
    Charging fees is not precedent setting. SBDCs have always charged 
fees for training and other services, such as publications and 
conferences. Some SBDCs already impose a variation on a counseling fee 
by requiring new start up businesses to take their training course, at 
a cost of $35 to $45, before receiving any counseling. During 1998 (the 
latest year that figures are available), SBDCs generated over $7 
million of program income over and above their Federal and matching 
funds.
    Beneficiaries of most SBA programs pay fees, directly or 
indirectly, including fees for loan programs, investment capital, pre-
qualification counseling. Even some of our small Women's Business 
Centers charge fees in excess of $50 per hour for counseling.
    In fiscal year 2000, the SBDCs trained 326,000 clients and 
counseled 262,000 clients. From fiscal year 1995 to fiscal year 2001, 
SBDCs funding increased $14 million while funding for SCORE only 
increased $500,000 and funding for 7(j), a technical assistance program 
for all low income areas as well as 8(a), was reduced by $4.5 million.
    For the Service Corps of Retired Executives (SCORE), we are 
proposing to increase to $4 million the amount to help pay the expenses 
of the 11,400 SCORE volunteers. These volunteers counseled and trained 
over 377,000 clients in fiscal year 2000. SCORE is making more and more 
use of electronic means to be able to use its expert counselors 
anywhere in the country.
    A recent Washington Post article recounted how SCORE counselors 
Gene Rosen and Herbert Robinson helped Sarah Hill start an antique 
business in Alexandria, Virginia by providing invaluable assistance on 
many aspects of their business, from negotiating the lease to pricing 
merchandise. The time and advice of these volunteers was free. The 
government paid 34 cents a mile for their expenses. Sarah is projecting 
annual sales of over $100,000 in each of the next several years.
    The SBIR (Small Business Innovation Research) Program awards grants 
or contracts to small businesses for their innovative ideas to meet the 
specific research and R&D needs of the federal government. SBA's budget 
will provide $5 million in fiscal year 2002 to fund two programs to 
help small businesses compete for SBIR awards. The FAST (Federal and 
State Technology Partnership) will receive $3.5 million under this 
proposal. The SBIR Technical Assistance Outreach Program will receive 
$1.5 million.
    A nationwide network of U.S. Export Assistance Centers (USEACs) 
combine in single locations the trade-promotion and export-finance 
assistance of the SBA with the programs of the Department of Commerce 
and the Export-Import Bank. USEACs will be level funded at $3.1 
million.
    The Veteran's Business Outreach Program will receive $750,000 in 
fiscal year 2002. The program ensures that small businesses owned and 
controlled by eligible veterans have access to entrepreneurial 
training, business development assistance, counseling and management 
assistance. The program was not funded in fiscal year 2001. The 
Veterans Business Development Corporation, which was funded at 
$4,000,000 in fiscal year 2001, will no longer be funded through SBA's 
budget, but will have its own separate appropriation.
    Women's Business Centers (WBC) provide women entrepreneurs with 
business training and counseling, technical assistance, mentoring, and 
access to SBA's programs and services. The centers also have programs 
to assist economically and socially disadvantaged women, especially 
those on welfare. Each center tailors its services to the needs of the 
local community. SBA awarded 15 new grants, funded 62 centers with 
regular grants, and provided sustainability grants to seven centers 
with its fiscal year 2001 appropriation of $12 million. In fiscal year 
2002, the budget request is for $12 million.
    The Women's Council supports programs and research on behalf of 
women's business enterprise. In the President's Budget, the Council 
will receive $750,000 in fiscal year 2002.
    In fiscal year 2000, women business owners received only 2.8 
percent of Federal procurement dollars. The Office of Federal Contract 
Assistance for Women Business Owners (CAWBO) was established within 
SBA's Office of Government Contracting to increase the number and size 
of federal contracts to women business owners. Additionally, the Office 
of Government Contracting is charged with providing studies on how 
contract bundling affects all small businesses. We request $500,000 to 
implement a recently-enacted procurement initiative, including 
conducting a legislatively mandated study on women's procurement, 
creating a contract bundling database, and conducting analysis of 
procurement trends and practices.
    The 8(a) Business Development (BD) Program assists the development 
of small companies owned and operated by socially and economically 
disadvantaged individuals. Eligible companies may be awarded set-aside 
federal contracts and other business development assistance. The number 
of contracts in this program has gone down. The new Administration is 
looking at ways to more efficiently and effectively run this program. 
In the interim, funding for fiscal year 2002 is requested at the same 
level as fiscal year 2001.
    The HUBZone (Historically Underutilized Business Zone) Program 
encourages economic development in distressed areas through the 
establishment of Federal contract award preferences for qualified small 
businesses located in such areas. This program has gotten off to a very 
slow start. Under the President's budget, the program will receive $2 
million in fiscal year 2002, the same as fiscal year 2001 again with an 
emphasis by the new Administration on more efficient and effective ways 
to fulfill the intent of the program.
    PRO-Net (Procurement Marketing & Access Network) is a government-
wide online database used as a link to procurement opportunities and as 
a marketing tool for small companies. We request level funding at 
$500,000.
    The 7(j) Technical Assistance Program provides management and 
technical assistance to small and emerging businesses owned and 
controlled by socially and economically disadvantaged individuals and 
also individuals in areas of low income and high unemployment. Under 
the President's budget, the program will receive $3.6 million in fiscal 
year 2002.
                    disaster assistance loan program
    The Bush Administration is fully committed to meeting the needs of 
disaster victims and has proposed a base loan volume of $300 million 
for SBA's Disaster Assistance Loan Program. Additional needs for the 
Disaster Program will be funded through the proposed National Emergency 
Reserve.
    However, there will be no interest rate change for disaster home 
loans. Under the President's proposal, businesses without access to 
credit elsewhere will receive disaster assistance loans at the U.S. 
Treasury Rate, with a ceiling of 8 percent. Based on current rates, the 
business loan interest rate would be increased from the current 4 
percent ceiling to 5.4 percent. On an average loan of $56,300 over 15 
years, the monthly payments would rise from $429 to $473. Over the life 
of the loan, the business would incur an additional cost of $7,344. 
Also, SBA will have the flexibility of keeping the payment at $429 by 
extending the maturity of the loan.
                          sba operating costs
    Although the budget request proposes a small increase in SBA's 
operating costs, we are looking at streamlining SBA's operations and 
doing away with redundant programs. SBA will contract out, as 
appropriate and consistent with the Federal Activities Inventory Reform 
(FAIR) Act, and will continue its asset sales program.
    A major challenge facing SBA is improving its level of customer 
service to meet the growing and changing needs of small business. Over 
the last 10 years, SBA has dramatically changed the way it delivers 
services to small business, using private-sector partners to make and 
service its loans and to provide training and counseling. Yet the 
structure has not changed. For example, by taking advantage of 
electronic commerce, the oversight function carried out today by SBA's 
Procurement Center Representatives could be streamlined and 
centralized.
    SBA has been downsized over the last eight years, but its structure 
has not. SBA still needs to reduce its staff while maintaining critical 
positions.
    SBA met with GAO on April 27, 2001 to discuss the findings in its 
study of SBA's structure. We will take an aggressive look at additional 
privatization and streamline what we do to reduce duplication and 
increase efficiencies. We will develop succession plans and 
reprioritize the use of resources. We will be preparing options for the 
confirmed Administrator to ensure that both SBA's programs and 
structure can serve America's small businesses efficiently and 
effectively.
                         loan monitoring system
    SBA's loan monitoring system (LMS), a four-year project authorized 
in December of 1997 with $8 million appropriated each year since fiscal 
year 1998, is undergoing a substantitive review. In early February 
2001, after I became Acting Administrator, I began looking into the 
status of the project. I have reported my findings to both your 
Committee and the Appropriators. In brief, I have concluded that the 
LMS had become commingled with an internally-sought Systems 
Modernization Initiative (SMI).
    I have since ordered that the program be refocused on the 
activities for which the Congress authorized and appropriated the 
funds--an information technology-based system for risk management, 
lender oversight, and loan monitoring. SBA intends to contract on a 
pilot basis with several established financial institutions that 
already have operational risk management/loan monitoring systems. 
Rather than develop a proprietary system--with all its attendant costs 
and risks--we intend to determine if such a system already exists.
    To this end, we have put Janet Tasker in charge of overseeing all 
of our lender and portfolio oversight. She is a Certified Public 
Accountant (CPA) and served as the Director of the Office of Government 
Sponsored Enterprises Oversight, responsible for providing oversight to 
FANNIE MAE and FREDDIE MAC. She is taking the lead for the LMS project 
and has developed the requirements for our LMS system. These concepts 
have been presented to your staff and the GAO. We are in negotiations 
with highly experienced project management organizations to provide us 
with the expertise to manage and assess the various options that are 
available, and to assist us in presenting those options to our new 
Administrator upon confirmation. In fiscal year 2002, we have requested 
an appropriation of $8 million to bring the original program's scope to 
completion.
    At this point, I emphasize that the agency must have a new 
financial system in place by the end of this fiscal year--September 30, 
2001--when the current Federal Financial System run by Treasury is 
scheduled to be phased out. SBA is proceeding with an Oracle-based 
integrated standard general ledger that will integrate program and 
accounting data, resulting in more timely and accurate financial 
reports and program analysis. This is one of the elements of SMI I felt 
we must pursue. Other elements will wait for decisions by the 
Administrator after his confirmation.
          programs that will not be funded in fiscal year 2002
    The Administration supports the objectives of the New Markets 
Venture Capital (NMVC) Program but believes those objectives can be 
achieved more efficiently and at a lower cost through other existing 
means. Several vehicles and incentives to direct investment into 
economically distressed communities already exist. Communities targeted 
by NMVC have access to a wide range of private for-profit and economic 
development programs, including the federally supported community 
development financial institutions administered through the Department 
of Treasury. In addition, SBA's SBIC program, which has 412 licensed 
venture capital companies with total capital resources amounting to 
$17.7 billion, is implementing incentives to encourage investment in 
economically distressed areas.
    The NMVC Program is also expensive relative to the impact it is 
expected to have. The total cost of the program in fiscal year 2001 is 
$52 million, not including the administrative cost of running the 
program. Since the program is expected to generate $150 to $200 million 
of investment activity, it will yield only $3 to $4 of investment for 
every taxpayer dollar spent. In comparison, under the Small Business 
Investment Company (SBIC) Program, there is no cost associated with the 
debenture portion of the program. The participating securities portion 
of the SBIC program required a $26.2 million credit subsidy in fiscal 
year 2001. Since this subsidy generates $3 billion of investment 
activity, each taxpayer dollar spent provides $114 of investment 
activity in the participating securities program.
    The NMVC legislation also included a $15 billion tax credit for new 
investment in the same communities targeted by the NMVC Program. The 
Administration believes that targeted tax policy and other private 
sector incentives are the right formula to spur economic development 
with less emphasis on government outlays. The NMVC Program has been 
funded in fiscal year 2001. However, until the program can show some 
results in the way of established return on equity, any additional 
funding would be premature.
    The Program for Investment in Microentrepreneurs (PRIME) Program, 
like the NMVC Program, is duplicative of existing SBA programs and 
other programs within the Federal government and the private sector, 
i.e., community development organizations and local financial 
institutions (see attached chart). SBA has a wide array of funded grant 
programs that provide technical assistance to small businesses. SBA's 
Microloan Program, for example, provides grants enabling intermediaries 
to provide marketing, management, and technical assistance to 
individual microborrowers. Additionally, the Microloan Program provides 
funding to non-lending technical assistance providers to help low-
income individuals start or improve their own business. Microloan 
intermediaries and non-lending technical assistance providers are the 
same groups targeted by PRIME grants. There are also other private-
sector entities, such as trade organizations, whose members are engaged 
in the microenterprise industry and provide similar services. Other SBA 
programs available for these customers include SCORE, SBDCs, OSCS and 
WBCs.
    The Business Learning, Innovation, Networking and Collaboration 
(BusinessLINC) program was designed to create and foster mentor-protoge 
relationships that would promote the growth of small businesses by 
matching them with larger concerns. The program is similar to other SBA 
technical assistance programs already in place. One of SBA's most 
successful technical assistance programs, SCORE, manages a nationwide 
network of 11,400 volunteers who provide free expert advice based on 
their many years of experience on virtually every aspect of business. 
SCORE's free counseling service provides a mentor framework to assist 
small businesses similar to that envisioned for BusinessLINC. The SBDC 
consulting service is another means of providing technical assistance 
and services to more mature companies seeking to expand their 
relationships or customer base to include larger concerns. SBA also 
provides the 8(a) mentoring program and a women's mentoring program. 
Other agencies such as the Department of Defense and NASA support 
mentor-protege programs.
    BusinessLINC is duplicative of SBA's 7(j) management and technical 
assistance program, which authorizes contract grants and cooperative 
agreements to organizations that provide direct assistance to small and 
emerging businesses owned by socially and economically disadvantaged 
individuals. SBA is authorized to target 7(j) services to businesses 
and individuals located in areas of high unemployment and low income. 
Many of these providers were successful in fostering business-to-
business relationships between larger and smaller firms. Service 
providers report direct assistance to nearly 3,000 eligible businesses. 
Many BusinessLINC activities can be accomplished using the existing 
7(j) authorization.
    BusinessLINC was designed to provide small businesses with an 
online information source and database of companies interested in 
mentor-protege programs. These goals may be achieved through existing 
BICs, WBCs, TBICs, OSCSs and PRO-Net. Private sector alternatives that 
would provide incentives for larger businesses to enter into mentoring 
programs should also be examined.
    As I mentioned at the beginning of my testimony, SBA's fiscal year 
2002 request is a good budget for small businesses. Thank you for the 
opportunity to appear here today. I will be happy to answer your 
questions.

    Senator Hollings. Thank you, Mr. Whitmore.
    Senator Inouye.
    Senator Inouye. Mr. Chairman, I just wanted to come by to 
thank SBA for all the help they have provided. One of the 
lesser-known facts about Hawaii is that 98 percent of our 
businesses are small businesses. In fact, on a per capita 
basis, if it were not for SBA, we would still be in a slump.
    It is no secret that about 7 or 8 years ago, there was a 
major downturn in the economy in Asia, and as a result, it 
affected tourism in Hawaii. But with your help, we put new 
businesses into operation, and we are back in business. Our 
unemployment rate, incidentally, is less than the national rate 
thanks to these people here.
    So I have no questions. I just want to thank you.
    Senator Hollings. Very good.
    Mr. Whitmore, the SBA has been doing an excellent job. We 
depend on it substantially in the State of South Carolina.
    You mentioned the 1997 Act, and in that 1997 Act, we 
prohibited the Small Business Development Centers from charging 
fees. In your testimony, you talk about empowering small 
business, but then you burden them by charging them fees, 
otherwise in violation of the 1997 statute. Where do you get 
the authority to impose a fee?
    Mr. Whitmore. We are proposing a new legislative proposal 
to accompany the budget that would allow the charging of fees. 
Currently, the SBDCs do charge training fees, and they also 
charge some processing fees in the beginning. Our other 
technical assistance programs, like the Women's Business 
Centers, also charge fees. With the new Administration, we 
looked at all of our programs to find a way of controlling the 
rising cost of delivering technical services.
    We are proposing charging a fee of $10.75 an hour. We know 
that the average counseling hours in a given year for a small 
business is approximately 5 hours, Senator. We propose no fee 
charge for the first hour, so it would be about $44 over the 
course of the year. We think that that is a rather modest fee 
to pay for the advice given by the SBDCs, and it helps share 
the burden of the cost with those who benefit from the service.
    Senator Hollings. SBA, of course, is a Government program 
for small businesses that do not have the wherewithal. They 
cannot hire counsel, lawyers, consultants, computer experts and 
otherwise. That is why the Federal Government furnishes this 
service and assistance to small business--and it works. I am 
beginning to be of the Bush school--give a tax cut wherever we 
can, particularly for small business. Do not start taxing 
them--you call it a ``fee'' but all of a sudden, they are going 
to pay a tax. Let us go right to the 7(a) program, not just the 
$12 million that you have got to make up for SBDC's, but under 
7(a), you have got to make up $114.5 million in fees annually 
in the 7(a) guaranteed loan program. Is that right?
    Mr. Whitmore. Yes, sir. In the 7(a) loan program, we do not 
intend to charge fees where the loans are most needed, and that 
is loans under $150,000. We think that that is the area where 
small businesses really struggle to obtain loans.
    On loans of $1 million, the cost to the business would be 
about $42 a month more. We think that borrowing at that level, 
they should be able to pay some of that cost.
    Under $150,000, we have no proposal to increase fees to 
small business. Sixty percent of our loans are less than 
$150,000, so the fees would only be on approximately 40 percent 
of the loan program.

                     additional committee questions

    Senator Hollings. Well, we will have to see if the 
committee wants to go along with that justification.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted by Senator Judd Gregg
                              7(a) program
    Question. I am concerned that SBA's budget request would drive both 
small business borrowers and lenders from the 7(a) program. I do not 
believe that it is the intent of the Administration to deny needed 
business loans to small business borrowers at the same time the economy 
is slowing and credit underwriting standards have tightened 
significantly. Has the SBA analyzed the effect of the 7(a) proposal on 
borrowers and lenders? Approximately how many entities would no longer 
take advantage of the program?
    Answer. The Administration believes that the 7(a) program plays a 
valuable role in strengthening the nation's economy by making credit 
available to small businesses that would be unable to access loans in 
the commercial marketplace.
    SBA agrees with the Administration in that it is unfair for 
taxpayers to subsidize the government costs for such loans. With this 
in mind, the Administration's budget provides for modest fee increases 
only on loans over $150,000. In effect, those who benefit most from the 
program should share in the cost.
    Last year, more than 60 percent of the loans that SBA guaranteed 
were at or below $150,000. Since we are proposing no change in the fees 
paid on those size loans, none of the borrowers with smaller credit 
needs would be impacted by the proposed fee changes. This allows for 
those businesses who are in the most crucial stage of business 
development to secure valuable funding.
    While it is difficult to quantify how many borrowers or lenders 
might not take advantage of the 7(a) program because of the fee 
changes, SBA thinks that both parties will adjust to the changes. SBA 
cannot guarantee a loan if the credit is otherwise available. Thus, 
most of the borrowers that require SBA's support of their loans would 
continue to make appropriate use of the 7(a) program.
    Question. This Committee believes that the 7(a) program is already 
operating at or near a zero subsidy rate. How were the subsidy cost of 
the 7(a) program estimated? Please provide in writing a list of experts 
from within SBA, the OMB, the GAO, and outside of the government groups 
who could be charged with compiling an accurate accounting of the 
subsidy rate.
    Answer. SBA's 7(a) subsidy rate model has been refined over a 
number of years. Principal model inputs include actual loan performance 
over an approximate 15-year period, and technical assumptions on the 
structure/operation of the program. These assumptions produce a series 
of estimated cash flows over the life of the loans for a given year. 
These cash flows are then discounted using the Treasury discount rate 
provided by OMB to generate an estimated subsidy cost of the program.
    The principal assumptions used by the model, and added by SBA each 
year, are the distribution of the dollar value of loans to be made by 
size, the fee structure, the Treasury discount rate (provided by OMB), 
and the level of prepayments (provided by Bloomberg). The remaining 
significant modeling factors are derived from the loan portfolio's 
actual performance over the approximate 15-year period, including 
defaults, recoveries, expenses, and fee income.
    SBA's Office of Financial Analysis calculates these subsidy rates 
and is staffed with finance, economic, and modeling experts to provide 
the appropriate level of skills and knowledge to this complex process. 
We supplemented this expertise with private-sector experts from 
PriceWaterhouseCoopers (PwC), Ernst & Young (E&Y), and use a private 
firm (Bradson Corp.) to independently validate our annual results. 
Additionally, GAO has worked closely with us over the last several 
years to extensively review these models. In their 1997 report, they 
cited SBA as one of only two agencies in government able to do 
reasonable cost estimates of its programs.
    The models are also annually audited by our Inspector General and 
its private-sector auditor, Cotton & Co. Finally, experts in Federal 
Credit Reform at the Office of Management and Budget (OMB) thoroughly 
review and approve the SBA models and results, and provide final 
decision authority over methodologies and results. As part of the 
annual budget process, the Congressional Budget Office (CBO) also 
reviews these models.
    As indicated above, SBA's subsidy rate modeling process undergoes 
an extensive and comprehensive review. While there are certainly 
different modeling methods that could be used that would produce 
different results, the current process is sound and attested by a large 
number of experts in Federal Credit Reform and financial/econometric 
modeling.
                         disaster loan program
    Question. Your budget provides for a $300 million disaster loan 
program. In fiscal year 2001, Congress provided for a $900 million loan 
level. My understanding is that your budget request proposes to cover 
the cost of loan guarantees above the $300 million level through a $5.6 
billion government-wide emergency reserve. Have you made plans to cover 
the cost of disaster loans without the use of this reserve? If so, 
please provide them in writing. Assuming an emergency reserve were 
available, what is the mechanism that would trigger loan authority as 
needed? Assuming that the SBA would be in competition with other 
agencies, how would SBA be guaranteed to qualify for use of this 
reserve?
    Answer. In the President's budget request, enough funds were 
included in a National Emergency Reserve to cover a five year average 
for programs that make up a large part of the Federal Government's 
response to man-made and natural disasters. However, in the Budget 
Resolution that Congress passed, a National Emergency Reserve was not 
included nor was the $5.6 billion to cover the five year average. 
Therefore, in fiscal year 2002, additional funding may be needed in one 
form or another.
                   small business development centers
    Question. In 1997, in response to an SBA request for fiscal year 
1998 which directed that the SBDCs begin charging fees, the Congress 
passed the Small Business Reauthorization Act of 1997. The Act 
prohibits the SBDCs from imposing or collecting fees in connection with 
small business counseling services provided by the program. What 
circumstances have changed whereby, in your opinion, the Congress and 
the small business community would support repealing this provision?
    Answer. The SBA is aware of the current legal prohibition against 
charging fees in the Small Business Development Center program. Since 
1997, when the prohibition was enacted, the Federal share of the SBDC 
program has gone from $73,500,000 to $84,281,000. The number of clients 
counseled and trained in those years is shown below:

------------------------------------------------------------------------
                     Year                        Counseled     Trained
------------------------------------------------------------------------
1997..........................................      245,766      377,651
1998..........................................      237,655      309,382
1999..........................................      263,927      331,464
2000..........................................      258,306      324,292
------------------------------------------------------------------------

    In each year, SBDCs trained many more clients than they counseled 
and, in most cases, charged fees for that training.
    Total income for the SBDC program in the preceding three years is 
shown below:

        Year                                              Program Income
1998....................................................      $7,000,388
1999....................................................       7,884,864
2000 estimate...........................................       8,300,000

    Training events generated the majority of this income. Many of the 
fees for a single training event are equal to the potential total cost 
for the average counseling client. Therefore SBA's fiscal year 2002 
proposal simply builds upon the SBDCs' success in already generating 
program income through training.
           program for investment in microenterprises (prime)
    Question. When will applicants be able to submit proposals for the 
first round of PRIME grants? When will the PRIME grants be awarded?
    Answer. The final regulations were published in the May 29, 2001 
Federal Register, along with a ``Notice of Funds Available'' inviting 
eligible entities to submit funding proposals to the Agency. The PRIME 
regulations will become final on June 28, 2001 which is also the 
closing date for acceptance of the funding proposals.
    PRIME grant awards will be made late in the forth quarter of fiscal 
year 2001.
                    systems modernization initiative
    Question. Please provide a report in writing on exactly how funds 
for the Systems Modernization Initiative have been spent. In this 
report, please include any funds that were appropriated for the Systems 
Modernization Initiative that were spent for other activities. It is my 
understanding that SBA will review its plans for the Systems 
Modernization Initiative and report a revised schedule to the Congress. 
When will this report become available? Who will write this report? 
Have you considered contracting with an outside expert to head this 
project?
    Answer. As stated in the oral and written testimony, the creation 
of a Loan Monitoring System (LMS) expanded to include an internally 
sought modernization initiative. John Whitmore, Acting Administrator, 
asked both this subcommittee as well as the House not to act on the $8 
million spending plan for fiscal year 2001 submitted by the previous 
Administration until he had time to determine where we were and where 
we should be going. We have retained KPMG to assist in assessing 
available options. The following is an accounting of the $23,934 
(includes rescission) 4 million, appropriated in fiscal year 1998-2000:

LMS:
    Planning..................................................$2,941,000
    Systems Acquisition....................................... 1,371,000
    Infrastructure............................................   175,000
    Other costs (travel, etc).................................   508,000
    Personnel................................................. 2,849,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Subtotal................................................ 7,844,000
                    ==============================================================
                    ____________________________________________________
Financial Accounting and Management System:
    Project Planning..........................................   717,000
    Training..................................................    48,000
    Systems Acquisition....................................... 1,579,000
    Systems Integration....................................... 3,673,000
    Other Costs (travel, etc).................................    39,000
    Personnel................................................. 1,187,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Subtotal................................................ 7,243,000
                    ==============================================================
                    ____________________________________________________
Other:
    Project Planning..........................................   238,000
    Subsidy Rate Analysis.....................................   678,000
    SBLC Reviews..............................................   740,000
    Infrastructure............................................   421,000
    Personnel.................................................    19,000
    Disaster project planning.................................   150,000
Other SBA programs: Project planning..........................   100,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Subtotal................................................ 2,464,000
                    ==============================================================
                    ____________________________________________________
FEDSIM (includes $2,300,000 transferred from operating funds 
    in fiscal year 2000)...................................... 8,683,000

    SBA is presently taking steps to determine the exact cost of 
implementing an effective and reliable loan monitoring system. With the 
information to date, the Agency believes the total of implementation of 
both the LMS and Financial Accounting and Management system will be $40 
million or less.
    The Acting Administrator plans to send a spending letter once 
precise cost estimates are determined, which we hope will happen within 
the next month.

                          subcommittee recess

    Senator Hollings. I have momentarily a requirement to be on 
the floor, so let me say that the record will remain open 
subject to the direction of our distinguished chairman, and 
unless you have anything further, we will stand in recess 
subject to the call of the chairman.
    Thank you very much, both of you.
    [Whereupon, at 11:13 a.m., Tuesday, May 15, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED 
              AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2002

                              ----------                              


                         THURSDAY, MAY 17, 2001

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Judd Gregg (chairman) presiding.
    Present: Senators Gregg, Domenici, Hollings, and Murray.

                         DEPARTMENT OF JUSTICE

                    Federal Bureau of Investigation

STATEMENT OF LOUIS J. FREEH, DIRECTOR

                    opening remarks of senator gregg

    Senator Gregg. We will begin the hearing.
    I understand Senator Hollings is in another hearing and 
will be joining us, as will a number of members of the 
Subcommittee on Commerce, Justice, State of the Appropriations 
Committee.
    Let me briefly say a couple of things, because this will be 
the last hearing that we have the Director with us, as he is 
moving on.
    I want to congratulate him for being an extraordinary 
leader of the FBI. This committee has had an intimate and 
intricate relationship with the FBI. We have had some 
disagreements, but we have had many more agreements.
    During the period of the Director's service, the FBI has 
expanded its role and resources dramatically. It has had to 
take on all sorts of new issues involving the question of 
protecting America and Americans, especially the issue of 
counterterrorism; the issue of cybercrime; the issue of crimes 
against our children, especially over the Internet; the issue 
of a nation which is more complex every day, and bigger, and 
the crime issues associated with that.
    We have dramatically expanded the number of agents, 
dramatically expanded the resources, and under your leadership, 
significantly improved innumerable functions within the FBI. 
When issues have arisen, of which there have been a few, such 
as the labs, they have been addressed aggressively, in my 
opinion, and effectively.
    And as a result, I think your tenure at the FBI will be 
marked down as one of the finer periods of leadership of that 
agency. And I certainly admire your leadership.
    That is not to say that we do not have issues, and we 
obviously have issues pending that are fairly significant, very 
significant, especially relating to the document-handling 
activities in the McVeigh case and the potential that that 
might reflect for systematic problems within the agency.
    And I know that the Bureau, under your leadership, is 
setting up processes for addressing those. This committee may 
take a look at additional ways to address that. I know we are 
going to--I personally, want to take a look at--I know you are 
going to have the Inspector General looking at the issue, I 
know you are personally looking at the issue, and I know you 
have brought in a specialist to look at the issue.
    But we may want to take a look at setting up an independent 
group to come in, such as Arthur D. Little or some management 
team, because, after 10 years and a dramatic amount of money 
and personnel expansion, it might be appropriate to get an 
evaluation by an independent group.
    But that is not to be looked on, from my point, as a 
negative, rather as simply a reasonable management decision 
that should be considered.
    The Bureau is our premier effort in this country to protect 
our citizens and to make sure that people who commit crimes 
which affect our citizenry are brought to justice. And you do 
an exceptional job. Mistakes happen, some of them are terrible.
    And certainly, in the McVeigh situation, this is a man who 
under no circumstances should escape the justice of our system, 
and who committed a crime so heinous that it is hardly even 
believable.
    And the people that he harmed continue to be harmed by it. 
And we want to make sure that no activities occur which will 
negatively impact his conviction and would in any way relieve 
him of the responsibility of the crime he committed.
    But I think I understand, and I think most of us 
understand, that this was not an international oversight. It 
was an oversight of error and management that has to be looked 
at and which is being looked at and will be corrected.
    And, obviously, there are other areas in which you are 
proceeding, dealing with agents who have not acted 
appropriately.
    So I just wanted to make the point that, having worked with 
you for these last 7 years it has been a pleasure. I admire 
what you have done. I think you have taken a very strong agency 
and made it a lot stronger.
    And it needs, obviously, to address some very significant 
issues. But on balance, America is lucky to have the FBI. And I 
feel fortunate to have worked with you over the years, Mr. 
Director.
    And so, with that, I give you the floor.

                   director freeh's opening statement

    Mr. Freeh. Thank you, Mr. Chairman. Good morning, and thank 
you for your very kind words.
    And let me reiterate my great honor and great pleasure in 
this period of my government service, the last 8 years, in 
working with the Senate, of course, but particularly the 
committees with which we have had such daily and intensive 
interaction, and particularly this committee.
    I would like to thank you for your leadership in broad 
areas of responsibility that have been strengthened with the 
support, as well as the interest, and the hearings and the 
examination and the questioning, tough questioning, as 
appropriate to our mission, how it has been shaped by changes 
in the global world and the technology. And I think that we are 
better for that.

       counterterrorism, technology, and crimes against children

    I am particularly proud of your leadership in the 
counterterrorism area, the technology area, and the crimes 
against children area. And I just wanted to mention those very, 
very briefly.
    The Innocent Images Project, which was initiated by 
interest in this committee several years ago, has now developed 
into a full-blown operation that saves children's lives and 
protects people in a very extraordinary way. We have now over 
1,000 convictions in the Innocent Images operations, which, as 
you know, are in 22 offices and occupy dozens of our FBI 
special agents and personnel.
    These are crimes and threats which were not addressed 
heretofore by any Federal agency. And there was certainly no 
focused and directed resources and attention placed on these 
types of crimes until this committee and, quite frankly, your 
leadership, took charge of that.
    The problem is really not solved, as we know; 2,000 
children are reported missing every day in the United States, 
not all because of criminal conduct, but many because of that. 
The Innocent Images initiative, which now has grown into a 
Crimes Against Children Program where we have at each of our 
offices two agents who are the coordinators of that program, 
interfacing directly, not just on Innocent Images modality, but 
all the other aspects of that program, is something that did 
not exist a long time ago.
    As the Director, and certainly as a father, I want to thank 
you for your support for that particular program of which I am 
very, very proud.
    In the counterterrorism area, I visited Kenya and Tanzania 
about 3 weeks ago. The purpose of my visit was to return to 
those countries before the end of the prosecution in New York 
so I could thank the police officers and the leadership of 
those two governments for the assistance that they provided--
remarkable assistance--in the embassy bombings case, which is 
now before a jury deliberating in New York City.
    The ability to investigate that case, from the initial 
deployment of resources to the expenditure of personnel and 
other materials to develop the investigation, obtain the 
evidence, bring it back to the United States as well as all of 
the preparation that had to be done, could not have been done 
in my view, 5, 6, 7 years ago. The FBI was not equipped either 
organizationally or, maybe more importantly, on a funded level 
to do that type of a case as successfully, as it was done 
almost on the other side of the world.

                 threefold increase in counterterrorism

    Your support of the rapid deployment teams, all of the 
laboratory enhancements, and the ability to give us a threefold 
increase in the counterterrorism program, is what enabled FBI 
agents to go to East Africa and, in conjunction with their 
colleagues in those countries, make a case which I often say 
the FBI was not entitled to make, because it was far outside 
our jurisdiction and authority. But you gave us the 
infrastructure and the support to do that.
    I am very thankful for that, and I think the FBI and the 
American people are grateful for the ability that we have in 
the counterterrorism area.
    It goes well beyond that, though, in your support for the 
overseas operations of the FBI. Also, I would like to note in 
my final appearance before the committee--Senator Hollings, 
good morning.
    Senator Hollings. Good morning.
    Mr. Freeh. When I arrived in Nairobi to, as I said, thank 
the two principal leaders of the country and the police for 
their assistance, they gave me a newspaper as I landed.
    I will just pass it up to the committee with your 
permission.
    And the headline reads, this was the day I arrived in 
Nairobi, ``Three Americans Rescued in Kidnap Ordeal.'' It was 
not timed for my arrival, but what it exemplified is the 
gratitude I just expressed for the support of our overseas FBI 
programs.
    What happened in this case is that two American businessmen 
from California thought they found on the Internet a supporter 
for a financial enterprise that they wanted to engage in, and 
they traveled to Nairobi.
    But instead of meeting their business partners, the two 
Americans were kidnapped. Using e-mail, very sophisticated e-
mail, as well as cellular phones, the kidnappers communicated 
with the families of the two Americans to extort them for a 
sizable sum of money under threat of death.
    The FBI agents who were in Nairobi, and were there because 
of the committee's support and were not there a couple of years 
ago, actually worked on this kidnapping with the Kenyan police 
on the ground. They mounted the operation that led to the 
direct rescue of these two Americans.
    In fact, the FBI agent was on the phone negotiating with 
the hostage takers and was the individual directly responsible 
for their release.
    When the two Americans were released, they mentioned that a 
third American was being held. There was a third kidnap victim 
who had been held for 4 months by the same group, but his 
disappearance had not been reported. Nobody knew that he was 
being held. The agents were told after they secured his release 
that he thinks other people, Americans, may have been held 
during that period and perhaps even killed.
    The ability to work a kidnapping case in Nairobi and the 
necessity to exploit and intercept e-mail communications and 
deploy people back and forth, again, is something that was not 
present in the FBI a short time ago, but is there now because 
of the commitment that has been made, not just to the 
counterterrorism program, but to our ability to operate 
overseas.

               national infrastructure protection center

    Finally, in the technical area, whether it is the National 
Infrastructure Protection Center, which supports Innocent 
Images, or the funding that this committee has provided does 
not make us the perfect model for information technology. We 
know that is not the case and we have a lot to build in that 
area.
    But we have been furnished with the raw materials, with 
what the leadership in this committee has provided. The 
mission, and now I believe the expertise on board at the FBI is 
enough to not just make the Trilogy project a successful IT 
model, but to help us through the difficulties that the 
information age necessarily portends for an agency that is 
involved in collecting information every day.
    So in those three areas--and I could highlight others--I 
want to particularly thank you, Mr. Chairman, Senator Hollings, 
and the other members of this committee.
    You have had hearings well beyond the normal scope of the 
appropriations process into the counterterrorism area. You 
organized a very extraordinary hearing last week by several 
Senate committees, who, as I understood it, have never gotten 
together before on the central issue of counterterrorism. And 
for that, I want to compliment you and tell you how grateful we 
are.

                 Mc Veigh matter and records management

    With respect to the McVeigh matter, I have a statement, 
which the committee has received and which I read yesterday at 
my hearing. I do not want to repeat it again; I am certainly 
pleased to answer any questions that you or the members have.
    I will highlight, however, that we note in that statement 
that we are taking some particular steps which we believe are 
necessary, but also will be instrumental in dealing with a 
fundamental problem, which is not a technology problem. We 
believe it is just a management and execution problem.
    And even given the very extraordinary scope of this case, 
in terms of the numbers of materials involved, millions and 
millions, we did a less than good job with respect to the 
accumulation and the discovery of documents called for in an 
unprecedented type of discovery agreement, but nevertheless 
called for and not produced as they should have been by the 
FBI. And I take responsibility for that.
    I am also taking some steps to try to address it. As I 
mentioned yesterday, we asked for the recruitment of a records 
management expert, who would be a senior official concerned 
only with this particular problem, the problem of records 
management. We have over 6 billion paper records, as well as 
many electronic records, and we are going to look at it as a 
separate and critically important structure to improve on its 
own.
    We are also going to take some steps to increase the 
training of all of our personnel with respect to the management 
of records. We are going to propose a modification of the 
Trilogy project, which will give us, we believe, the ability to 
account and order documents in an electronic format, which we 
have not done. We are going to have a stand-down in the FBI, as 
I mentioned yesterday, so we can take full measure of both the 
importance and the necessity of correcting this problem.
    The creation, filing, and dissemination of our own 
investigative records is as important to ensuring the rights of 
those that we protect, as well as those who we investigate, and 
that is as important as every other constitutional requirement 
that we have.
    So I will endeavor to not only get that initiative going, 
but to make sure that it is followed through. And you have our 
commitment for that.

                          2002 budget request

    With respect to the 2002 budget, I just wanted to briefly 
comment on the matters, which are well-known to the committee 
and the staff. The budget calls for four new initiatives with 
respect to increased program support. The categories are 
counterintelligence, counterterrorism, cybercrime, and 
infrastructure. There are a number of subissues with respect to 
those main categories.
    The budget will take us where we need to be on the 
information technology front. Also, the budget will give us the 
additional enhancements in the counterintelligence and 
counterterrorism programs that are required to meet some of the 
new challenges. And with respect to cybercrime, which is really 
the cross-cutting technology affecting all of our programs, 
some of the requests for enhancement will give us the ability 
to manage not only the programs that we currently employ, but 
also give us network data interception abilities. It will go a 
long way to at least beginning to deal with the encryption 
issue.

         Communications assistance for law enforcement (CALEA)

    One of the pieces of unfinished business which I regret to 
leave is the encryption issue. We have not made much progress 
over the course of 8 years in addressing that central problem. 
The CALEA statute and the $500 million in support of that 
program have been very successful with respect to solving the 
access issue. However, remaining behind is the plain text issue 
of the materials that will now be accessed by the CALEA funding 
and the common carriers' cooperation as set forth in the 
statute.
    My prediction as I leave is probably equal to what it was 
several years ago, and that is, if we do not solve the 
encryption problem very decisively, in a very short period of 
time, many of the avenues of investigative opportunities will 
become either difficult or closed to us.
    The speed with which the digital systems are being employed 
and telecommunications are migrating from the old analogue 
environment to the digital environment will preclude law 
enforcement officers with court orders in hand from 
understanding, if not accessing, materials, evidence, and 
information which they will receive in due course.
    Unless we can address that problem, the main complicated 
areas of our programs, particularly in counterterrorism, 
complex international crime, but also everything else, will 
suffer as a result.
    We take a couple of small steps in the 2002 request to lay 
the foundation for the counterencryption strategy. What is 
going to be needed in the years to come, is a lot more 
measures: the technical support center, the integration of our 
efforts with our State and local counterparts in this 
particular area.
    The voluntary approach I think has worked with the 
industry, but the industry is looking for statutory support for 
those voluntary efforts of assistance to the FBI and to the 
government.
    The Cyberspace Electronic Surveillance Act statute, which 
came up to the Congress last year, would give the industry some 
measure of protection in the areas where we will be asking them 
for their assistance.
    These are the kinds of measures that I think are going to 
need to be addressed. And I am very thankful, Mr. Chairman, for 
your leadership on this issue.
    This has been a very difficult issue. It is where law 
enforcement and privacy intersect. There are very good 
arguments and very persuasive arguments on both sides, but I 
think a balance has to be struck between those equities.
    I do not think law enforcement should have a free rein 
here, but I also do not think that valid privacy interests 
should preclude the effectiveness of a Federal court order that 
allows and authorizes an agent of the United States to 
intercept information and evidence. If they cannot understand 
the evidence that is being intercepted, the order almost 
becomes a nullity in itself.
    So one of my continuing recommendations will be to keep the 
interest and the movement in this particular area, which, is 
very cumbersome. It is easy to get distracted, and it is easy 
to get frustrated, either on the privacy side or on the law 
enforcement side, which is why I think a voluntary approach 
really needs to be struck. I believe this voluntary approach 
can be struck. And that would be my hope in the years to come.

                           prepared statement

    I will certainly be pleased to answer any of your questions 
at this point.
    [The statement follows:]
                  Prepared Statement of Louis J. Freeh
    Good morning, Chairman Gregg, Senator Hollings and other members of 
the Subcommittee. Once again, I am pleased to discuss the fiscal year 
2002 budget request for the Federal Bureau of Investigation (FBI).
    The work of the FBI, whether it is catching criminals, drug 
traffickers, terrorists, and spies; providing training, investigative 
assistance, and forensic and identification services to our law 
enforcement partners; or developing new crime-fighting technologies and 
techniques, is made possible by the strong support of this 
Subcommittee. On behalf of the employees of the FBI, I thank you.
                       challenges facing the fbi
    Before discussing our fiscal year 2002 budget request, I would like 
to highlight for the Subcommittee several of the challenges facing the 
FBI, and update you on the implementation of the FBI Strategic Plan 
that we adopted in 1998 to prepare the FBI for the 21st Century. This 
plan and its vision of the FBI is especially important given the 
challenges and changes facing the FBI.
    Increasingly, the crime problems and national security threats 
facing the FBI are transcending the traditional investigative programs 
under which the FBI operates. For example, the Southwest Border and 
East Caribbean crime strategies are based upon a coordinated attack 
against drug trafficking (organized crime/drugs program), violent 
crimes and gangs (violent crimes program), and public corruption 
(white-collar crime program). Emerging criminal enterprises from 
Eastern Europe and Eurasia tend to be involved not only in 
``traditional'' organized crime activities, such as extortion, loan 
sharking, and street crime, but also complex money laundering, tax 
evasion schemes, medical fraud, and other ``white-collar'' offenses and 
international trafficking in prostitution.
    We are also facing a growing internationalization of crime. 
Increasingly, cases being worked by FBI Agents on the streets of 
America are developing leads that take us to foreign lands for 
resolution. Recent events, such as the abductions and brutal murders of 
Americans in Uganda and Colombia, required the FBI to exercise its 
statutory extraterritorial jurisdiction and deploy investigative teams 
overseas. Organized criminal enterprises are often involved in related 
illegal activities on several continents. Communications networks and 
the Internet allow criminals in foreign countries to commit theft and 
fraud or to distribute child pornography in the United States without 
leaving their homelands.
    To respond to these types of emerging crime problems and national 
security issues more quickly, the FBI must focus its efforts and 
resources along broader investigative strategies.
    Another challenge facing the FBI is the changing demographics of 
our workforce. Since assuming the position of Director in September 
1993, the FBI has hired and trained approximately 4,800 new Special 
Agents. Agents hired since September 1993 represent about 41 percent of 
the agents on board today. While I am immensely proud of our agent 
workforce, I am also aware that it is a young workforce in terms of 
experience. Similarly, we have hired nearly 7,800 new support employees 
since September 1993; nearly 36 percent of our current support 
employees entered on duty since September 1993.
    Keeping current with the fast pace of technology and more complex 
crime problems and issues requires a more technically trained and 
competent workforce. This applies not only in terms of our 
investigators, but also with respect to the scientists, engineers, 
analysts, and other support staff who help our agents do their jobs. We 
are also recognizing that technically trained specialists are becoming 
an increasingly important part of our investigative teams.
    Emerging technologies present both a challenge and an opportunity 
for the FBI to develop new methods and capabilities for preventing and 
investigating crime and protecting the national security. Criminals, 
terrorists, and foreign intelligence agents, mirroring legitimate 
businesses and society in general, have embraced information technology 
and recognize the potential of new efficiencies and capabilities in 
developing and maintaining criminal enterprises and other illegal 
activities. Traditional crimes, especially financial and commercial 
crimes, are now being committed in a digital world. Paper trails are 
now electronic trails. Records which were once written and stored in a 
safe are now written to electronic media and encrypted. At the same 
time, the same efficiencies and capabilities being exploited by 
criminals and others to commit crimes can also be used to improve the 
effectiveness of the FBI and law enforcement in fighting those very 
same illegal activities. We must be able to upgrade existing 
investigative techniques and technologies and to take advantage of 
emerging technologies to develop new capabilities to keep abreast of 
changing criminal problems and national security issues.
    Ensuring an infrastructure to support the operational, information 
technology, administrative, safety, and security requirements of the 
FBI also presents challenges. The FBI employs over 27,000 employees, 
located in 56 major field offices, approximately 400 smaller resident 
agencies, four information technology centers, a fingerprint 
identification and criminal justice information complex, a training 
academy, an engineering research facility, and FBI Headquarters. We 
also operate Legal Attache Offices in 44 foreign countries on the 
continents of Africa, Asia, Europe, North and South America, and 
Australia. Tying these offices together are large, complex radio 
communications and telecommunications networks. In addition, we also 
operate and maintain a nationwide criminal justice, forensic, and 
investigative information systems and services, such as the Integrated 
Automated Fingerprint Identification System, the National Crime 
Information Center, the National Instant Criminal Background Check 
System (NICS), Law Enforcement On-line, the Violent Criminal 
Apprehension Program, and the Combined DNA Identification System, that 
are relied upon by federal, state and local law enforcement and 
criminal justice agencies.
                       fbi strategic plan update
    Three years ago, I issued the FBI Strategic Plan, 1998-2003. This 
plan represented the culmination of work performed over a year's time 
by a strategic planning task force. This group conducted strategy 
sessions with every FBI investigative program, both criminal and 
national security, and met with FBI Special Agents in Charge and other 
field office representatives. In doing so, the task force not only 
identified the strategic direction and national priorities for the FBI, 
but it also performed a self-assessment of the FBI's capacity to 
achieve these goals. This self-assessment identified deficiencies and 
performance gaps that must be improved or completely eliminated if we 
are to be successful in dealing with emerging crime problems and more 
challenging threats and issues related to protecting the national 
security. Some of these deficiencies and performance gaps are being 
corrected by reengineering processes and implementing policy decisions, 
while others may require funding and resources to mitigate.
    Guiding the implementation of our national priorities is a 
statement of core values for performing the mission of the FBI, which I 
personally wrote. Briefly, the core values that I have established for 
FBI employees can be summarized as follows: rigorous obedience to the 
Constitution; respect for the dignity of all those we protect; 
compassion; fairness; and uncompromising personal and institutional 
integrity.
    To accomplish the mission of the FBI, we must follow these core 
values. The public expects the FBI to do its utmost to protect people 
and their rights. As I have told FBI employees, observance of these 
core values is our guarantee of excellence and propriety in meeting the 
Bureau's national security and criminal investigative responsibilities.
    The FBI Strategic Plan, 1998-2003 identified three major functional 
areas that define the FBI's strategic priorities. These three national 
priorities are: national and economic security; criminal enterprises 
and public integrity; and individuals and property. Within these three 
functional areas the FBI identified nine strategic goals emphasizing 
the FBI's need to position itself to prevent crimes and 
counterintelligence activities, rather than just reacting to such acts 
after they occur, as follows:
    National and Economic Security.--Our highest national priority is 
the investigation of foreign intelligence, terrorist, and criminal 
activities that directly threaten the national or economic security of 
the United States. We have established four strategic goals for this 
area:
  --Identify, prevent, and defeat intelligence operations conducted by 
        any foreign power within the United States, or against certain 
        U.S. interests abroad, that constitute a threat to U.S. 
        national security;
  --Prevent, disrupt, and defeat terrorist operations before they 
        occur;
  --Create an effective and ongoing deterrent to prevent criminal 
        conspiracies from defrauding major U.S. industries and the U.S. 
        Government; and
  --Deter the unlawful exploitation of emerging technologies by foreign 
        powers, terrorists, and criminal elements.

              KEY TIER 1 PERFORMANCE INDICATORS, 1999-2000
------------------------------------------------------------------------
                                                       1999       2000
------------------------------------------------------------------------
Foreign Intelligence Surveillance Act Applications        531        562
 Processed........................................
Counterespionage (CE) Arrests and Locates.........         16         11
CE Information and Indictments....................         18          9
CE Convictions and Pre-trial Diversions...........         17          6
Joint Terrorism Task Forces.......................         23         29
Counterterrorism (CT)-related Arrests and Locates.        305        596
CT-related Information and Indictments............        139        223
CT-related Convictions and Pre-trial Diversions...        186        241
FBI Field Computer Intrusion (CI) Squads/Teams....         10         16
National Infrastructure Protection Center (NIPC)            6          3
 Crisis Action Teams Activated....................
NIPC Threat and Warning Notices Issued............         33         36
Key Assets Identified.............................      2,745      5,384
Infragard chapters................................          8         31
Infragard participants............................         18        392
CI-related Arrests and Locates....................         40         62
CI-related Information and Indictments............         49         66
CI-related Convictions and Pre-trial Diversions...         54         62
Health Care Fraud (HCF) Arrests and Locates.......        376        362
HCF Information and Indictments...................        696        825
HCF Convictions and Pre-trial Diversions..........        607        653
HCF Recoveries and Restitutions ($000)............    312,861    581,517
HCF Fines ($000)..................................     51,724    137,456
------------------------------------------------------------------------

    Criminal Enterprises and Public Integrity.--Our second national 
priority is crimes that affect the public safety or which undermine the 
integrity of American society. These investigations are often targeted 
at criminal organizations, such as the La Cosa Nostra, cartels and drug 
trafficking organizations, Asian criminal enterprises, and Russian 
organized crime groups that exploit social, economic, or political 
circumstances. Another focus within this area is public corruption and 
civil rights. For this area, we have established four strategic 
objectives:
  --Identify, disrupt, and dismantle existing and emerging organized 
        criminal enterprises whose activities affect the United States;
  --Identify, disrupt, and dismantle targeted international and 
        national drug-trafficking organizations;
  --Reduce public corruption at all levels of government with special 
        emphasis on law enforcement operations; and
  --Deter civil rights violations through aggressive investigative and 
        proactive measures.

              KEY TIER 2 PERFORMANCE INDICATORS, 1999-2000
------------------------------------------------------------------------
                                                       1999       2000
------------------------------------------------------------------------
U.S. based drug organizations affiliated with 13
 national priority targets that were:
    Identified....................................         64        201
    Dismantled....................................          8         16
Percent of La Cosa Nostra members incarcerated....         18         22
Eurasian Criminal Enterprises dismantled..........          3          6
Asian Criminal Enterprises dismantled.............          4         15
Safe Streets Task Forces (SSTFs)..................        165        175
SSTF Arrests and Locates..........................     17,473     16,147
SSTF Information and Indictments..................      2,049      1,989
SSTF Convictions and Pre-trial Diversions.........      2,576      2,300
Violent Gang Task Forces..........................         45         49
Violent Gang Arrests and Locates..................        N/A      5,987
Violent Gang Information and Indictments..........        N/A      2,549
Violent Gang Convictions and Pre-trial Diversions.        N/A      2,315
Violent Gangs affiliated with 7 national target            31         37
 groups that were dismantled......................
Public Corruption (PC) Arrests and Locates........        355        422
PC Information and Indictments....................        597        606
PC Convictions and Pre-trial Diversions...........        552        551
Civil Rights (CR) Arrests and Locates.............        240        145
CR Information and Indictments....................        204        149
CR Convictions and Pre-trial Diversions...........        257        195
------------------------------------------------------------------------

    Individuals and Property.--Our third national priority is crimes 
that affect individuals and property. Within this area, we will develop 
investigative strategies that reflect the public's expectation that the 
FBI will respond to and investigate serious criminal acts that affect 
the community and bring those responsible to justice. Our strategic 
goal for this area is:
  --Reduce the impact of the most significant crimes that affect 
        individuals and property.

               KEY TIER 3 PERFORMANCE MEASURES, 1999-2000
------------------------------------------------------------------------
                                                       1999       2000
------------------------------------------------------------------------
Crimes Against Children (CAC) Resource Teams......         35         35
CAC Arrests, Locates, Summons.....................        872      1,004
CAC Information and Indictments...................        621        731
CAC Convictions and Pre-trial Diversions..........        591        802
Number of Missing Children Located................         90         92
``Innocent Images'' National Initiative (IINI)             10         14
 Undercover Operations............................
IINI Arrests, Locates, Summons....................        337        482
IINI Information and Indictments..................        307        421
IINI Convictions and Pre-trial Diversions.........        315        476
Safe Trails Task Forces (STTFs)...................          6          6
Indian Country (IC) Arrests and Locates...........        668        733
IC Information and Indictments....................        819        755
IC Convictions and Pre-trial Diversions...........        726        735
------------------------------------------------------------------------
[Note: In some instances, data shown reflects updated information from
  that presented in the Department of Justice Fiscal Year 2000
  Performance Report and Fiscal Year 2000 Performance Plan issued in
  April 2001.]

    Overall, during fiscal year 2000, FBI investigations led or 
contributed to the indictment of 19,134 individuals, the conviction of 
21,420 individuals, and the arrest of 36,387 persons on federal, state, 
local, or international charges. Additionally, FBI investigative 
efforts led or contributed to $946,811,505 in fines being levied, 
$1,012,851,257 in recoveries of stolen property, and $3,259,384,477 in 
court-ordered restitutions.
    To achieve the strategic objectives that we have identified, the 
FBI has developed five operational support strategies that are designed 
to build enhanced investigative capabilities and effectiveness. These 
operational support categories are: intelligence, information 
technology, applied science and engineering, management, and assistance 
to State, local, and international law enforcement partners.

            KEY SUPPORT PERFORMANCE INDICATORS, 1999 AND 2000
------------------------------------------------------------------------
                                                  1999          2000
------------------------------------------------------------------------
Students trained, FBI Academy:
    New FBI Special Agents..................           718           312
    FBI employees (in-service, advanced)....        11,250        11,767
    Other federal, state, local, and                 4,881         5,796
     international..........................
Other students trained (regional, local):
    State, local............................       117,599       120,233
    International...........................         7,105         7,709
        Countries represented...............           121           161
Forensic examinations performed:
    Federal agencies........................       727,354       651,751
    Non-federal agencies....................       139,354       120,101
Fingerprint identification services:
    Criminal cards processed................     5,926,920     8,577,911
    Civil card processed....................     6,496,415     6,743,428
    Civil submissions with criminal records.       565,929       701,164
    Civil submissions using false identity..        66,213        82,036
National Crime Information Center (NCIC)       764,189,606   850,351,631
 transactions...............................
National Instant Check System:
    Checks performed by States..............     3,480,832     4,511,866
    Checks performed by FBI.................     3,346,743     4,489,113
    Persons with criminal records prevented         62,189        71,890
     from purchasing firearms (FBI checks)..
------------------------------------------------------------------------

    For the fiscal year 2002 budget, FBI program managers continued to 
use the FBI Strategic Plan, 1998-2003, and the five operational support 
strategies as guides for developing their resource requirements. 
Through an integrated strategic planning and budget framework, the FBI 
has significantly sharpened its focus for allocating resources based 
upon national priorities and strategic objectives that concentrate on 
the most significant crime problems and threats to the Nation.
              overview of fiscal year 2002 budget request
    For fiscal year 2002, the FBI is requesting a total of 
$3,507,109,000 and 24,938 permanent positions (10,420 agents) and 
24,490 workyears for its Salaries and Expenses ($3,505,859,000) and 
Construction ($1,250,000) appropriations. For FBI Salaries and 
Expenses, this amount represents a net increase of $277,377,000 from 
the current year and consists of $106,569,000 for adjustments to base 
and $170,808,000 for program increases. The adjustments to base include 
such items as the proposed 3.6 percent pay raise for fiscal year 2002, 
higher federal employee health insurance costs, additional General 
Services Administration (GSA) rent costs, and annualization of prior 
year increases and pay raises provided by Congress. Program increases 
proposed for fiscal year 2002 would provide 279 new positions, 
including 76 new agents, and $170,808,000 for four budget initiatives: 
Counter-intelligence; Counterterrorism; Cybercrime; and Infrastructure.
    In addition to direct funded resources, the fiscal year 2002 budget 
request assumes a total of 2,826 reimbursable workyears, including 
1,041 agents. Under the auspices of the Interagency Crime and Drug 
Enforcement (ICDE) program, the FBI would be reimbursed for a total of 
912 workyears, including 547 agents, and $115,436,000 for FBI drug and 
gang-related task force investigations and operations. Pursuant to the 
Health Insurance Portability and Accountability Act of 1996, the FBI 
will receive $101,000,000 in fiscal year 2002 to fund 793 workyears, 
including 465 agents, for health care fraud enforcement. For user fee 
programs of the Criminal Justice Services program, a total of 692 
workyears are planned, based on estimated fees. The remaining 
reimbursable workyears are used to facilitate a variety of other 
activities, including victim/witness assistance, name checks for other 
federal agencies, facility and maintenance support to other agencies 
sharing FBI facilities, pre-employment background investigations, and 
detail assignment to other agencies.
    At this point, I would like to describe in more detail the four 
budget initiatives proposed for fiscal year 2002.
                          counterintelligence
    Despite the fall of the Iron Curtain and the emergence of democracy 
in many of the countries formerly under the rule of communism, the 
threat posed to U.S. national, military, and economic security from 
foreign countries remains significant. Investigations in this area have 
become more complex as foreign intelligence services have expanded 
their focus from traditional military-related targets to new areas, 
including technology, intellectual property, economic espionage, and 
proliferation. The FBI continues to work closely with the intelligence 
community to identify and reduce the presence of hostile intelligence 
services in the United States.
    To keep pace with the changing counterintelligence threat to the 
United States, the FBI is proposing a counterintelligence initiative 
that would provide an additional $31,277,000 and 182 positions (62 
agents) in four areas of this mission-critical responsibility:
  --enhancing field investigative activities focused on identifying, 
        preventing, and defeating intelligence operations conducted by 
        any foreign power within the United States or against U.S. 
        interests abroad that pose a threat to U.S. national security;
  --improving national-level program management and coordination of 
        field investigative activities;
  --developing and acquiring technology to support FBI 
        counterintelligence activities; and
  --improving security countermeasures to ensure the reliability of FBI 
        personnel and contractors and security of information and 
        facilities.
                            counterterrorism
    The United States continues to face a serious, credible threat from 
terrorists both abroad and at home. The number of groups and 
individuals capable of carrying out a terrorist act has increased over 
the past several years. Of continuing concern to the FBI are groups and 
individuals for which political or religious beliefs constitute 
sufficient motivation for carrying out a devastating terrorist act.
    To deal effectively with domestic and international terrorism, the 
FBI must concentrate on both prevention and response. The FBI's 
counterterrorism strategy is focused upon five inter-related elements 
to build and maintain an operational capacity for identifying, 
preventing, deterring, and investigating terrorist activities. First, 
the FBI must have the capacity to respond to acts of terrorism 
committed in the United States and abroad when those acts are directed 
against the U.S. government or its interests. Second, the FBI must have 
the capacity to receive, react to, and disseminate counterterrorism 
information. Third, the FBI must develop its internal capacities to 
support proactive counterterrorism programs and initiatives. Fourth, 
the FBI must have the capacity to establish and maintain sound and 
productive relationships with other domestic and foreign law 
enforcement and intelligence counterparts. Fifth, the FBI must have the 
capacity to use all of the necessary assets and capabilities of the FBI 
and other U.S. government agencies to support and initiate complex 
investigations and operations against domestic and international 
terrorists and terrorist organizations. For fiscal year 2002, the FBI 
is requesting increases totaling $32,059,000 and 42 positions (8 
agents) to improve and enhance existing counterterrorism capabilities 
and operations.
    2002 Winter Olympics Preparation.--The 2002 Winter Olympic Games 
have been designated a National Special Security Event. Consistent with 
FBI lead-agency responsibilities for intelligence collection and crisis 
management as contained in PDD-39 and PDD-62, the FBI is working 
closely with the United States Secret Service and other federal, State, 
and local law enforcement and consequence management agencies to plan 
for security and public safety issues for the 2002 Winter Olympic Games 
that will be hosted by Salt Lake City, Utah.
    For fiscal year 2002, the FBI requests increases totaling 
$12,302,000 for 2002 Winter Olympic Games deployment. The funding 
requested will cover travel, per diem, vehicle lease, utilities, 
telecommunications, and FBI overtime costs for the planned deployment 
of over 800 FBI personnel for the event period. The Salt Lake City 
games will be conducted at 20 official Olympic venues spread over a 
6,000 square mile area. Olympic competition will take place 
simultaneously at 10 venues in 3 major cities and 6 remote mountain 
resort areas.
    Recurring Security Services.--The FBI is committed to implementing 
the security standards contained in the June 1995 Department of Justice 
report entitled, ``Vulnerability Assessment of Federal Facilities.'' 
FBI facilities are often the target of potential terrorist threats. 
Safeguarding agency employees and physical security must be a priority. 
For fiscal year 2002, the FBI requests an increase of $2,020,000 to 
acquire contract guard services for 6 stand-alone field office 
facilities where GSA does not provide such service ($1,600,000), 
replace an outdated closed-circuit television (CCTV) security system at 
FBI Headquarters ($320,000), and replace three guard booths at FBI 
Headquarters to facilitate new visitor identification procedures 
($100,000).
    Incident Response Readiness.--Consistent with the provisions of 
PDD-62, the FBI initiated a long-term program in fiscal year 2000 to 
develop law enforcement capabilities for the technical resolution of a 
weapons of mass destruction incident involving chemical, biological, or 
radiological threats or devices. Initial funding for this effort was 
provided through an interagency agreement with the Department of 
Defense. For fiscal year 2002, the FBI requests 42 positions (8 agents) 
and $17,737,000 to support ongoing efforts in the areas of threat 
assessment, diagnostics, and advanced render safe equipment.
                               cybercrime
    In recent years, technological advances have fundamentally changed 
the way of life in this country. Computers and networks allow millions 
of individuals to access, on a daily basis, a broad range of 
information services, databases, commerce, and communications 
capabilities that were previously unavailable. A combination of reduced 
cost for computer technology and increased storage capacity allows the 
accumulation, storage, and management of large amounts of information 
by individuals on personal computers and peripheral devices. Many FBI 
investigations, especially those involving organized crime, drug 
trafficking, crimes against children, white-collar crime, 
counterintelligence, and counterterrorism, are encountering the use of 
computer technology to facilitate illegal activities. As a result, the 
FBI must develop the investigative and forensic capacities and 
capabilities to deal with the use of computer technology by criminals 
and others to commit crimes or undermine national security. For fiscal 
year 2002, the FBI is requesting an increase of 33 positions (6 agents) 
and $28,144,000 for providing specialized technical assistance to field 
investigators and for developing investigative tools for law 
enforcement to counter the use of digital technology by criminals, 
terrorists, and others.
    Technical Support to Field Offices.--Criminals and other subjects 
of FBI investigations are employing advanced, complex physical and 
electronic security technology to protect their operations from 
competing criminal groups and to thwart law enforcement from executing 
lawful searches of premises and conducting court-approved interceptions 
of communications. The ability of the FBI to overcome such defensive 
measures is often critical to the success of high profile 
investigations and operations and the collection of evidence. The FBI's 
Laboratory Division provides technical support to FBI field offices, as 
well as the Drug Enforcement Administration, United States Customs 
Service, and other federal, state, and local law enforcement 
encountering such problems. To be able to continue providing this 
assistance, the FBI is requesting an increase of 10 positions (4 
agents) and $1,358,000.
    Network Data Interception.--In the Omnibus Safe Streets Act of 
1968, as amended, Congress provided the FBI with the basic legal 
authority to conduct the interception of oral, wire, or electronic 
communications in criminal investigations. The statutory authority to 
intercept communications in national security cases was provided by 
Congress in the Foreign Intelligence Surveillance Act. The use of 
court-authorized intercepts is the investigative tool of last resort, 
and allowed only after all other logical investigative avenues are 
exhausted. Often, the evidence collected through the use of court-
authorized intercepts of communications is critical to the prosecution 
of criminal enterprise leadership who are otherwise able to insulate 
themselves through the use of intermediaries from direct ties to 
criminal acts and illegal activities. The increasing use of the 
Internet and world-wide web by criminals, terrorists, and intelligence 
agents to commit illegal acts and carry out conspiracies against U.S. 
national security has presented the FBI and law enforcement with new 
challenges in conducting court-approved interceptions of communications 
and obtaining evidence and intelligence.
    Increasingly, affidavits for the interception of communications are 
including e-mails, file transfers, and Internet Relay Chat messages, 
within the scope of court orders. Emerging new digital technologies, 
such as Internet telephony, digital subscription lines, cable Internet, 
wireless Internet, and satellite communications, are likely to be 
exploited by criminals and others in their continuing efforts to thwart 
law enforcement detection. Law enforcement requires the development of 
capabilities and techniques for conducting court-approved interceptions 
of communications in existing and emerging digital environments.
    For fiscal year 2002, the FBI requests an increase of 7 positions 
(2 agents) and $7,664,000 to develop and procure network digital 
interception technologies; to provide on-site assistance to field 
offices, pursuant to court-approved orders; and to provide training to 
FBI technically trained agents.
    Counterencryption.--The widespread use of digitally-based 
technologies and the expansion of computer networks incorporating 
privacy features and capabilities through the use of cryptography 
presents a significant challenge to the continued ability of law 
enforcement to use existing electronic surveillance authorities. The 
FBI is already encountering strong encryption in criminal and national 
security investigations. In 1999, 53 new investigations encountered 
encryption. The need for a law enforcement cryptanalytic capability is 
well documented in several studies, including the National Research 
Council's 1996 report entitled, ``Cryptography's Role in Securing the 
Information Society.'' The report recommends high priority be given to 
the development of technical capabilities, such as signal analysis and 
decryption, to assist law enforcement in coping with technological 
challenges.
    The Administration supports the enhancement of a centralized law 
enforcement capability within the FBI for engineering, processing, and 
decrypting lawfully intercepted digital communications and 
electronically stored information. For fiscal year 2002, the FBI 
requests an increase of $7,000,000 to further develop an initial 
operating capability that will allow law enforcement to obtain plain 
text and meet the public safety challenges posed by the criminal use of 
encryption. With this funding, the FBI intends to work with existing 
national laboratories and other government agencies to ensure all 
existing resources are used in executing processing functions. This 
approach will prevent duplication of effort. Additionally, the FBI 
plans to acquire necessary computer hardware, software tools, technical 
expertise, and services to develop capacities in four counterencryption 
program areas: (1) analytical engineering; (2) signal analysis 
research; (3) counterencryption deployment; and (4) industry-assisted 
technology transfer. The FBI also requests an increase of 13 positions 
and $1,202,000 for the collection and examination of evidence (devices 
and communications) which include encrypted materials and other 
electronic analysis forensic and technical examinations.
    Electronic Surveillance Data Management System.--With funding 
appropriated by Congress in fiscal year 2001, the FBI is acquiring and 
installing new digital collection systems to update existing analog 
equipment currently being used in FBI field offices. For fiscal year 
2002, the FBI requests an increase of 3 positions and $10,920,000 for 
the Casa de Web project which would serve as a distributed database 
that provides agents and analysts with access to minimized (not 
unprocessed) recordings of audio, data, and reports generated by 
digital collection systems. The Casa de Web system will consist of two 
separate databases, one for criminal law enforcement data and one for 
foreign counterintelligence data. This separation ensures compliance 
with Executive Order 12333 that prohibits the commingling of such 
materials. Firewalls and security protocols will prevent data from 
being accessed by unauthorized users and prevent external access of the 
system. The Casa de Web project is being coordinated with Trilogy, the 
FBI's information technology upgrade program.
    Casa de Web will allow authorized agents, analysts, and translators 
to share and analyze minimized data on an inter and intra office basis. 
Analytical tools planned for Casa de Web, such as key word speaker 
identification, and speech recognition, will improve information and 
intelligence sharing capabilities and permit FBI Agents and analysts to 
view, listen, and act on collected minimized electronic surveillance 
information on a more timely basis.
                             infrastructure
    To be successful, the FBI must have the capacity for collecting, 
storing, managing, analyzing, and disseminating case and intelligence 
information on a timely basis to its own investigative personnel, as 
well as other federal, State, and local law enforcement and the 
intelligence community. Existing systems and capacities must be 
upgraded to meet increased investigative demands. New technologies also 
present opportunities for making for effective and timely use of case 
information and intelligence currently being collected. On a daily 
basis, the FBI depends on its core infrastructure to ensure its agents 
and support staff can perform their jobs. A strong, solid 
infrastructure is necessary for providing everyday tools and services, 
such as replacement and safe automobiles for responding to and 
conducting investigations and equipment and supplies for conducting 
forensic examinations of evidence.
    Trilogy.--Trilogy is the FBI's three-year information technology 
infrastructure upgrade initiative. Trilogy consists of three key 
components: User Applications, a collection of user-specific software 
applications and tools to enhance the ability of agents and support 
employees to organize, access, and analyze information; Information 
Presentation, replacement computer hardware and office automation 
software within each office to link employees at their desks with 
counterparts throughout the FBI; and Network, upgrades to acquire high-
speed local and wide area networks and telecommunication circuits to 
deliver information between users and locations securely and quickly.
    Congress provided the approval to proceed with the first year of 
the Trilogy implementation plan in fiscal year 2001 and authorized the 
expenditure of $100,700,000 in appropriated and unobligated prior year 
funds. Since receiving approval to proceed with this project, the FBI 
acquired the services of Mitretek Systems to provide management and 
technical assistance to the FBI Trilogy Program Office and the services 
of GSA's Federal Systems Integration and Management Center (FEDSIM) to 
act as the acquisition agent for the project. The FBI also selected the 
GSA Millenia contract as the acquisition vehicle for the project. In 
January 2001, the FBI, through FEDSIM, issued two task order requests 
(TORs) to the Millenia contractors. One TOR addresses the User 
Applications component of Trilogy, while the second TOR addresses the 
Information Presentation and Network components. In April 2001, after 
separately reviewing vendor proposals for both TORs, the FBI selected 
vendors. Contractor work is expected to commence by June 2001.
    Second year implementation costs of the Trilogy project are 
estimated at $142,390,000. To help meet this requirement, the FBI plans 
to allocate $38,230,000 of existing base funding and apply $36,500,000 
of unobligated prior year funds toward Trilogy in fiscal year 2002. To 
complete second year funding requirements, an enhancement of 
$67,660,000 is required. Second year activities of the Trilogy project 
will focus on implementing multi-case analytical tools, intranet 
upgrades, and multi-media electronic case files; continuing office 
automation upgrades in field offices; and continuing upgrades to local 
and wide-area networks and telecommunications circuits. The third year 
of implementation will complete the office automation upgrades in field 
offices and at Headquarters, provide for additional wide-area network 
circuits, and permit additional improvements to FBI case databases.
    Telecommunications Services.--An enhancement of $6,500,000 is 
requested to begin the replacement and upgrade of telecommunications 
equipment used to provide connectivity between FBI legal attache 
offices and the Department of State's (DOS) worldwide network and to 
provide telecommunications support for FBI participation in High 
Intensity Drug Trafficking Area (HIDTA) multi-agency investigations and 
meet special case needs. The DOS Diplomatic Telecommunications Service 
(DTS) is upgrading its telecommunications network over the next five 
years. This upgrade will require the FBI to replace its legacy 
equipment with new equipment compatible with the DTS network.
    Motor Vehicle Program.--An increase of $4,007,000 is requested for 
the FBI motor vehicle program, including $2,557,000 to replace an 
additional 110 vehicles with mileage exceeding 80,000 miles, $450,000 
for automotive diagnostic tools, and $1,000,000 to upgrade the Vehicle 
Management System to enhance fleet management and maintenance.
    FBI Laboratory Activation.--Occupancy of the new FBI Laboratory 
facility at Quantico, Virginia, is scheduled to begin in Summer 2002. 
Activation of the facility will require an increase of 22 buildings and 
facilities management employees and $1,161,000 to properly operate and 
maintain the new building.
    Additionally, the fiscal year 2002 budget proposes that $40,000,000 
from the Department of Justice Working Capital Fund be used to meet 
costs associated with the activation of the new facility. These costs 
include the following:
  --$3,868,750 for the transfer of 125 Laboratory Division employees;
  --$15,000,000 for general and specialized equipment;
  --$4,695,812 for office furniture and shelving;
  --$600,000 for information technology equipment, such as network 
        routers, hubs, and multiple access units;
  --$908,438 for moving services;
  --$792,000 for part-year fiscal year 2002 operations and maintenance 
        costs, such as utilities; maintenance supplies; environmental 
        testing, trash removal, and other miscellaneous services; and 
        housekeeping, landscaping, and other building maintenance; and
  --$14,135,000 for decommissioning and renovation/alteration of 
        existing Laboratory Division space in the J. Edgar Hoover 
        Building being vacated. This amount includes $3,000,000 for 
        abatement and clean-up activities and disposal of hazardous 
        materials/waste and $11,135,000 for renovations and alterations 
        of approximately 131,000 square feet of space.
                 related departmental funding requests
    Mr. Chairman, I would like to highlight several requests for 
funding included within other Department of Justice programs that are 
considered important to FBI initiatives and programs.
    State and Local Bomb Technician Equipment.--Within the funding 
proposed for the Office of Justice Programs (OJP), $10,000,000 is 
included to continue an FBI Laboratory-managed program of training and 
equipping approximately 386 accredited State and local bomb squads 
located in communities throughout the United States.
    Continuation of funding for this program will ensure State and 
local bomb squads are properly trained and equipped to deal traditional 
improvised and explosive devices, as well as the initial response to 
devices that may be used by terrorists or others to release chemical or 
biological agents. Through this program, the FBI has provided State and 
local bomb squads with weapons of mass destruction (WMD) protective 
search suits, real-time x-ray devices, multi-gas monitoring systems, 
portable radiation detectors, and computers to access the Chemical and 
Biological Organisms--Law Enforcement database. This initiative 
compliments the State and local bomb technician training and 
accreditation program that the FBI Laboratory provides at the Hazardous 
Devices School, Redstone Arsenal, Alabama.
    Grants for DNA Convicted Offender and Crime Scene Backlog 
Reduction.--Also, requested under Community Oriented Policing Services 
(COPS) program is $35,000,000 for grants to reduce the backlog of DNA 
profiles for entry into the FBI's national Combined DNA Information 
System (CODIS) database ($15,000,000), and to reduce the backlog of 
crime scene evidence awaiting DNA testing ($20,000,000). These 
proposals are related to several on-going FBI Laboratory initiatives 
for improving State and local crime-fighting and forensic capabilities.
    White-Collar Crime.--The OJP, Justice Assistance appropriation 
proposes $9,230,000 for the operations of the National White-Collar 
Crime Center (NW3C). The FBI has entered into a partnership with the 
NW3C to staff the Internet Fraud Complaint Center (IFCC), which opened 
in May 2000. The IFCC serves as a focal point for receiving and 
analyzing complaints from citizens and private industry victimized by 
Internet fraud and as a resource to federal, State, and local law 
enforcement and regulatory agencies.
                         legislative proposals
    Mr. Chairman, the fiscal year 2002 budget request includes several 
general provisions proposed by the FBI, including: danger pay, foreign 
cooperative agreements, railroad police training, and warranty 
reimbursement authorities. I encourage the Subcommittee to include 
these general provisions as part of the fiscal year 2002 Justice 
Appropriations Act.
    Danger Pay.--Section 108 would extend to the FBI the same authority 
that the Drug Enforcement Administration (DEA) currently enjoys for 
authorizing danger pay for personnel assigned to high risk overseas 
locations. For the FBI, this is both a pay equity issue for FBI Agents 
assigned to DEA Country Offices and a recognition of the increased 
threat facing FBI personnel performing extraterritorial investigations 
in foreign locations due to our counterterrorism responsibilities. At 
times, FBI personnel are deployed to overseas locations where, due to 
the nature of our work, they face a threat or hostile environment that 
does not always extend to all members of the United States diplomatic 
team in a particular country. This authority would allow me to address 
those situations. This authority has been requested by the 
Administration in each of the past three budgets.
    Foreign Cooperative Agreements.--Section 109 would allow the FBI to 
credit to its appropriation funding that is received from friendly 
foreign governments for that country's share of joint, cooperative 
projects with the FBI. This authority would facilitate projects with 
friendly foreign governments, especially in support of our national 
security mission. The authority was first proposed by the 
Administration last year, was adopted by the House, but did not make 
its way into the final Conference bill.
    Railroad Police Training.--Section 110 would allow the FBI to 
establish and collect a fee to pay for the costs of railroad police 
officers participating in FBI law enforcement training programs 
authorized by Public Law 106-110, and to credit those fees to its 
Salaries and Expenses appropriation to cover the costs of providing 
such training. Public Law 106-110 authorized railroad police officers 
to attend FBI training programs, but directed that no federal funds be 
used to provide such training. Railroad police officers are willing to 
pay for such training; however, the law does not provide an authority 
for the FBI to collect and retain the fees to pay for the training. 
This provision provides the requisite authority.
    Reimbursement for In-house Warranty Work.--Section 111 would allow 
the Attorney General to seek and retain reimbursement from vendors for 
warranty repairs and maintenance performed in-house by Department of 
Justice employees when it is not possible for the vendor to perform 
such services. For example, FBI motor vehicles are equipped with radios 
that use government encryption devices. As a result, these vehicles 
cannot be left unattended at vendor repair facilities for servicing. 
FBI mechanics currently perform warranty work that normally would be 
provided at no cost by the vendor. Many vendors are willing to 
reimburse or credit the FBI for the cost of the warranty work provided 
in-house. This provision would provide the authority needed to enter 
into such agreements when there is a law enforcement, security, or 
mission-related reason that precludes vendor servicing and permits the 
crediting of payments received to the appropriate appropriation.
                                summary
    Mr. Chairman, I am especially proud of the work being performed 
everyday by the employees of the FBI. Their ability to do that work--
the work asked of us by the Congress through the laws it passes, by the 
President through executive orders, and by our federal, state, local, 
and international law enforcement partners--is a reflection of the 
strong fiscal support given to the FBI by this Subcommittee.
    The budget proposed for the FBI for fiscal year 2002 addresses 
critical resource needs identified through our Strategic Planning 
process. These important investments will allow the FBI to meet the 
investigative and technological challenges we face as the FBI enters 
the 21st Century. These investments will also enable us to develop the 
core competencies that will allow us to be successful in investigating 
crimes, protecting national security, developing and sharing technical 
and forensic expertise, and working better with our federal, state, 
local, and international partners. I believe that the national 
priorities and objectives we have put forth reflect the expectations 
for the FBI that are held by the American people, as well as the 
Congress.
    Congress, and this Subcommittee in particular, has been extremely 
generous in its financial support of the FBI over the past several 
years. Our successes in the field, whether they be preventing 
pedophiles from luring children over the Internet, to bringing 
terrorists from foreign lands back to the United States to stand trial 
for their actions, to protecting our Nation's critical infrastructure 
from cyber attacks, to fostering greater cooperation with foreign law 
enforcement through our Legal Attache Offices, were made possible 
because of your support for the FBI. As we look forward to fiscal year 
2002, I am hopeful that we can continue to depend upon your support.
    Again, I thank you for this opportunity to appear before the 
Subcommittee.

                            Encryption issue

    Senator Gregg. It would be helpful on the encryption issue 
if you could send us, before you depart, a memo listing where 
you think Congress could take action to be constructive in this 
area. You have noted a couple places, but this is such a big 
issue and such a difficult issue, if you could give us your 
parting thoughts on----
    Mr. Freeh. Yes, sir.
    Senator Gregg [continuing]. Where you think agreements can 
be reached, either legislatively or through some sort of 
compact of understanding between law enforcement and the people 
who produce the products that encrypt these different 
communication devices.
    Mr. Freeh. Pleased to do that.
    Senator Gregg. Senator Hollings, you were not here. I made 
a brief opening statement reflecting----
    Senator Hollings. You go ahead with your questions, because 
I have questions here.
    Senator Gregg. Well, go ahead.

                         Mc Veigh matter error

    Senator Hollings. All right.
    Mr. Director, let the record show that I have had a long 
affiliation with the Federal Bureau of Investigation. Back in 
1954, I served on the Hoover Commission, the task force 
investigating the intelligence activities.
    I came to the old Senate office building, which is now 
known as the Russell Building. And the Director, Mr. Hoover, 
turned over a cardboard box full of all the McCarthy charges to 
General Clark and myself, and I sat down at the GAO building 
and went over all of those with the Director.
    Since that time, I have been over 30 years here at the 
appropriation subcommittee level of the Federal Bureau of 
Investigation, I am an honorary FBI agent. So I speak with 
affection and admiration for the department.
    But let me ask you, I keep reading here in the last few 
days about this error. Is that your position that this was just 
an error, something that just slipped through the cracks?
    Mr. Freeh. Yes, sir, it is. It was a grievous error and one 
that should not have occurred, given the number of requests 
that were made. The only context in which to place it is the 
context of volume, in terms of the millions and millions of 
records that were part of the discovery agreement and the 
several hundred that were not.
    But my information at this point is that this was an error. 
This was an oversight. The Inspector General of the Department 
of Justice is conducting a thorough investigation.
    But I have no reason at this point to think that it was 
anything but an error. This error was brought to the attention 
of the court and the defendant by the FBI, by FBI analysts who 
were archiving all of the records of the case.
    Now, the archiving statute requires that this be done in 25 
years. They decided to do it in year three. Instead of just 
putting the documents in boxes and filing them away, which is 
all they were legally required to do, they started to check all 
of these documents against the database. When they discovered 
that some of them were not in this database, they reported 
this.
    So I do believe it was an error, a terrible error, and one 
that I think we can take steps to correct. I also think it will 
not affect justice in this case.
    Senator Hollings. Specifically, so everyone will 
understand, the record ought to show that the Office of the 
Inspector General has an exceptional assignment with the 
Federal Bureau, in that they are not regularly, as the OIG 
would do in any other governmental department, looking and 
reviewing for fear that they would mess up a case or whatever 
it is. Usually these things are handled by the Office of 
Professional Management or whatever it is in the Department.
    But in addition to the claims of an error, there has been 
inference too that we may have had improper or antiquated 
computerization. Is that the case?
    Mr. Freeh. I do not believe that was the case here, 
Senator. And again, I have looked at this as carefully as I can 
look at it without conducting a separate investigation. But I 
do not think this was a computer failure here.
    All of the materials that got to Oklahoma City were 
uploaded into their database, and those are reliably there. 
This is what was not either given to Oklahoma City or had not 
found its way into the database.
    So it is really not a computer failure. It is a human 
failure, and one which goes to the basics: keeping records and 
making them available when requested.

            Congressional automation funding and FBI culture

    Senator Hollings. Well, overall, let the record show that 
in the last 10 years, this subcommittee of the Congress has 
appropriated $1.81 billion for that automation communications 
computerization. So we never have been conservative or puny or 
denied the FBI request, because we know, at the subcommittee 
level, from experience that if you go down on the floor and the 
FBI has not been provided for, an FBI add-on amendment would 
easily pass. No one wants to vote against the FBI.
    The record should show that over the 10 years we have 
appropriated--you have requested $29.3 billion, and we have 
appropriated $28.714 billion. So we have given you 99 percent 
of your requests.
    I wanted to make sure of that, because I have seen some 
coverage of this, and it is my considered opinion from 
experience that this is not just an error. On the contrary, Mr. 
Director, this is the culture in the bureau.

                      FBI discovery process errors

    And the reason for that is, I know of other similar cases. 
I don't want to use the committee's time in getting to all of 
the cases, but let me refer to the Lost Trust case that we had 
down in the State of South Carolina that the judge asked the 
Department of Justice to look in.
    The OIG, Office of Inspector General, went to work and made 
its report through the Office of Professional Management. And 
thereafter, the Office of Inspector General wasn't satisfied. 
They continued the investigation over the last 10 years. And 
they filed in February this year this voluminous report.
    And what happened was, they had been defending these 
misdoers in the legislature in the State of South Carolina, 
they had been defending two former U.S. attorneys, so they knew 
the ropes. They knew the game.
    And they knew, for example, about these 302s. When an FBI 
agent interviews a witness, they make notes, and that is called 
a 302 memo. And they knew different 302 memos were made about 
payoffs and everything of that kind.
    And let me quote something, so you will understand why I 
even ask the questions, and the record ought to reflect it. And 
I quote, ``As set out in this report, we are critical of the 
government's management in its discovery obligations.'' This 
was way in the mid-1990s.
    ``An embarrassing amount of arguably disclosable material 
was not found, considered or produced during discovery. We are 
critical of the FBI's failure to attend to this responsibility, 
to provide effective assistance or supervision to new, 
overworked special agents, to seek guidance from the U.S. 
Attorneys Office, or to apply resources necessary to support 
the investigation and trial.''
    Later on, with respect to agent Michael Clemens on his 
several FBI 302s, his memos, quote, ``The controversy arose in 
part because the FBI 302s were not produced in discovery and in 
part because the substance of the reports led to allegations 
that their nonproduction was based upon the government's 
intention to allow Cobb to testify inconsistently or 
perjuriously at trial.''
    Cobb was a special undercover agent that they had. I read 
further.
    The OIG report notes, quote, ``FBI 302s covered by standard 
discovery requirements were not produced. Indeed, some were not 
even located and considered for possible production during the 
first wave of prosecutions in 1990.''
    Then, ``During the second wave,'' that same quote, ``During 
the second wave of prosecutions back in 1991, defense counsel 
called FBI Special Agent Clemens to testify, and Clemens was 
asked, `Did you do a 302 or anything concerning that debriefing 
of Mr. Cobb?' Clemens denied preparing an FBI 302. Assistant 
U.S. Attorney Barton argued to the court, `Defense counsel is 
looking for the secret 302 of Ron Cobb, where the payment to 
Lindsay is discussed. It does not exist.' ''
    That response was false.
    I am quoting further, ``The most remarkable fact concerning 
pretrial preparation for further trial, namely the Derrick 
trial, is that the FBI 302s that had not been provided in 
discovery in the Taylor, Blanding or Gordon cases were to a 
large extent given to Derrick, specifically the FBI 302 about 
payments to Senator Lindsay and Clemens that testified did not 
exist in February 1991 was produced in March 1991 to Derrick 
and his counsel.''
    I am still quoting, this is from the Office of Inspector 
General, ``Other FBI 302s that the district court would later 
conclude had been withheld purposefully from previous 
defendants also were produced during the discovery in the 
Derrick trial.''
    And finally, Mr. Director, ``We believe the FBI''--this is 
from the Office of Inspector General--``We believe the FBI 
supervisors had sufficient information to alert them to the 
fact that the discovery process was fraught with difficulties. 
We concluded that the deficiencies in the FBI's early pretrial 
preparation had an adverse impact on the subsequent trials and 
should have been dealt with more effectively and sooner. While 
the immediate fault for this discovery failure was Clemen's 
disorganization, his superiors contributed to this shortcoming 
by failing to guarantee adequate support,'' end quote.

                       errors in Mc Veigh matter

    You can see that is why I asked the question, because the 
OIG says they are not really getting support or direction or 
discipline, if you might say, from the Director and from the 
main office. Because you have in here, between August of 1995 
and November of 1996, this is your statement, sir: Eleven 
separate communications were sent to the field offices 
requesting that all evidence be sent to the OKBOMB command 
post.
    And nothing happened. It did not come in. And as recently 
as last week, you were still giving more directions. You 
finally made the local people sign off under oath that they had 
sent everything in, and then some Baltimore information came.
    So what we really have is a culture at the bureau that 
agents don't have to worry about even the top standing 
directors and everything else. We send what we can get our 
hands on. Some casually, perhaps; some intentionally, perhaps.
    But this thing should not be looked upon as an error. It 
should be looked upon as a culture and absolutely cleaned up.
    And there is no expert necessary. I know your abilities. 
You have outstanding abilities. And with this knowledge, I wish 
you were going to stay here because we could clean this thing 
up.
    Any comment?
    Mr. Freeh. Your insight and your comments are very much on 
the mark and very fair. Let me just say two things.
    I have no information and no evidence and no basis to 
believe at this point that there was anything done here 
purposefully. I think you could probably distinguish the 
situation we have here, which is an egregious one, and the one 
reflected in the report, which does find purposeful withholding 
and also finds that the substance in those 302s could have 
adversely affected the trial.
    I do not believe either of those circumstances are true 
here. But I do not know, and I could be mistaken. The Inspector 
General is going to do as thorough a job as they have done in 
other reviews, whether it is the laboratory or the Lost Trust 
case that you mentioned.
    There was an enormous amount of discovery here, and there 
was an extraordinary agreement. The agreement was any interview 
anywhere would be turned over. That is never called for under 
the Federal rules of criminal procedure or even discovery 
orders that many judges enter beyond the Rule 16 requirements. 
This was an extraordinary agreement to give them every single 
interview.
    In the course of that, they received thousands and 
thousands and thousands of interviews and had access to 
millions and millions of records.
    The questions now is twofold.
    One, whether there was a purposeful withholding. I agree 
with you, that it is a critical question that has to be 
answered. I see no evidence of that at this point.
    The other question is whether any of that information would 
go to the guilt or innocence of the defendant. My very strong 
belief at this point, as well as the prosecutors who have 
looked at it, is that this is not the case. A judge is going to 
decide that, and perhaps, may come out differently. But I do 
not see either a purposeful withholding here or materials that 
go to the guilt or innocence of someone.
    That is not to diminish the seriousness and the 
egregiousness of this matter, which I have accepted as such and 
will take some sincere efforts to change.

                          FBI culture problem

    Senator Gregg. Could you address Senator Hollings' point, 
though, on culture?
    Senator Hollings. In addressing that, if you do not mind--
excuse me, Mr. Chairman--you and I are both lawyers. The law 
presumes a purposeful nature of the natural consequences of 
your act.
    I was looking at this case of the young lad convicted down 
there in Florida. He claims that the trigger went off. If I 
fire a pistol down Constitution Avenue and six blocks down 
somebody gets hit, drops dead, I cannot throw up my hands, 
``Oh, I did not even know him. I did not have any intent of 
killing that fellow.'' That is nonsense.
    And the same with the fellow who aims a gun at someone 
right between the eyes and claims that the trigger went off 
accidently. ``I did not think it would go off.''
    Similarly here on the purposeful nature, when you come in 
and you, as the Director--boy, this would really tee me off if 
I was the director--send 11 separate communications--these are 
your words--to the field offices requesting all evidence to be 
sent in. That is back in 1996. And here you are 5 years later, 
2001, still sending up directives and still getting information 
from Baltimore.
    So don't say it was not purposeful. It is the culture. 
Excuse me. And answer the chairman's question about culture.
    Senator Gregg. Actually, it was your question. I just----
    Senator Hollings. Yes, sir.
    You are right.
    Senator Gregg. I thought it was a good point and wanted to 
just hear----
    Mr. Freeh. It is a good point. I think there is a cultural 
problem here by not taking seriously the very clear and 
explicit commands that were given in a very important case.
    But in any case, if a field office is required and asked 
specifically and unquestionably to send in all materials 
relating to a case, the culture ought to take that with the 
seriousness that would result in a complete, timely disclosure 
and dissemination, which was not the case here.
    That is a cultural defect, which I will attempt to address 
by the stand-down that we are going to do, by all the different 
training protocols and efforts and interests that I can bring 
to bear on this problem.
    Senator Hollings. Yes. Don't hire anybody. Fire some 
people. Make them accountable. They will know. They will 
understand. Until you do that, they will play the game.
    When they ignore 11 separate communications from the 
Director back in 1996 and you are still having to say, ``The 
only way I can catch you is to make you under oath sign a 
statement that you have sent the information in,'' that is 
pretty poor administration.
    Some heads ought to roll where they didn't respond to these 
communications appropriately.
    And incidentally, as lawyers, we are not to determine at 
the FBI level whether it is material to the case or not. It is 
the defense counsel's decision. You have to give it all to them 
in discovery, and let him decide.
    Mr. Freeh. Yes. You are absolutely right.
    Senator Gregg. Thank you.
    Senator Hollings. Thank you, Mr. Chairman.

                        training and experience

    Senator Gregg. On the budget--this is a part of our hearing 
process--but obviously this issue goes to a very significant 
question which has to be resolved and which we intend to work 
with you on to try to make sure that it does not happen again.
    In fact, following up on that, we have had the lab issue, 
and we have had the rogue agent issue, and now we have the 
documents issue.
    Do you see another area where we may have such a system 
failure? I am sure if you do, you have already addressed it, 
but where should we take extra caution--that the Bureau might 
be overwhelmed and we could have a system failure?
    Mr. Freeh. I think it is in the training and experience 
level, and this is a demographic problem. We have the majority 
of our employees--the overwhelming majority of our employees 
with very small years of experience. I think 41 percent of our 
current FBI special agents have less than 6 years' experience, 
which means in major divisions the youngest agents, in some 
cases, are getting the most complex cases, the most difficult 
cases.
    On the support side, the technical side, we have also hired 
thousands of new employees over the last couple of years, not 
enhancements as much as replacements.
    So one of our intense internal concerns is the experience 
level, the training level. And there is much that can be 
learned on the job, but then there is a lot of things, which 
cannot be learned on the job; they have to be pre-trained and 
pre-ordered and pre-configured.
    So I think we are going to have in the next couple of years 
this shaking out period in terms of getting the training, 
particularly the academic type of training and the practical 
operations type of training. And we are taking some measures to 
do that, particularly in the computer area, but also in the 
basic areas, in white collar crime investigations, and in 
counterintelligence investigations.
    We do not have an FBI anymore where only a small percentage 
of new agents are running major cases. Now we have most of the 
major cases being run by relatively inexperienced agents.
    I think, in the long term, it is very good for the country, 
because I think if our attrition rate stays as it has stayed--
very, very low--in another 4 or 5 years, we will probably be 
more competent in these areas than ever before in our history.
    In the meantime, the experience level, the training level, 
and the margin for error, is going to be at risk unless we can 
take active training measures and institutional measures to 
address that.
    And we are taking those problems, but that is a major 
concern.

               analyses of training and automation needs

    Senator Gregg. Well, if you see that coming, maybe you 
could give us an assessment of it, of how you are trying to 
manage that issue. A little more complete analysis of it, and 
how you are trying to manage it, so that we could see if there 
is something there that we can be of assistance on.
    As a tangential point, one of our concerns on this 
committee--I know, Senator Hollings' concern and my concern--
has been the tooling up of the lab and the tooling up of the 
technology capability of the computers, not only on the 
hardware side but on the people side. In particular, getting 
the good people and keeping them in a competitive marketplace, 
maybe a little less competitive than a year ago, but still a 
competitive marketplace.
    So could you give us an analysis of where you are and what 
you need in both of those areas?
    Mr. Freeh. Yes. With respect to the computer training, we 
have, as you mentioned, a challenge here that is going to go 
beyond the basic computing challenge into the practical 
application of what all of these investigators are going to be 
expected to do in the information age.
    We have a ``train the trainer'' program, which we are 
actively perpetuating and particularly now directed at our card 
examiners. We have, as you know, a limited number of card 
examiners. You have given us the wherewithal to increase that 
support, and make some conversions to full-time examiners. But 
the training of the trainers in that area is going to be a 
major focus.
    The second level will be the evidence response technicians, 
who are not only required to work crime scenes and exploit 
physical evidence, but also hard-drive and computer evidence, 
which is almost as routine as everything else. The technicians 
in all of these different areas, particularly card related, is 
going to be a major challenge for us.
    Dr. Kerr, who you know, the Director of our laboratory, is 
working with the Training Division to develop this tiered 
approach: train the trainers; get to the technicians in the 
field; and make sure that the equipment, which is coming on-
line, particularly new laboratory equipment, is going to be 
exploitable and usable, whether we are working a crime scene in 
the United States or someplace else.

               State forensic computer technology centers

    Senator Gregg. Can I break in there?
    We are getting a fair amount of pressure in this committee 
to create forensic computer technology centers at the State 
level. A lot of States are now asking us to try to get some 
Federal funds to do that.
    Is it a good idea for there to be State forensic computer 
capability or should it be regional?
    Mr. Freeh. I think you are going to need to do both, Mr. 
Chairman, in the years to come, because the number of 
examinations is exploding.
    We had 3,400 computer forensic searches, examinations in 
fiscal year 2000 and estimated 5,494 for fiscal year 2001. We 
expect about 9,000 or more in fiscal year 2002.
    I think you are going to need an enhanced regional ability, 
but I think it is also going to devolve down to the State 
level. So just like they now manage fingerprint evidence in 
many local laboratories, the computer evidence is going to 
become as routine.
    The San Diego lab, the regional computer forensic lab, 
which was funded here, has been a remarkable success as a 
regional operation. There is one in Texas, which we are also 
participating in.
    I think this is a good format for certainly coordinating 
State and Federal resources and responses in that area. But I 
think the States on their own are going to need this capacity.
    What I would recommend is that if we build this bridge from 
two sides, which is maybe the best way to build a bridge, we 
should coordinate what we are doing. It would be a very good 
investment to ensure that the Federal efforts, particularly the 
ones coming out of the FBI, and its regional forensic labs, are 
coordinated and that they are interfacing with large 
investments into State or local capability. What you want is a 
national law enforcement computing ability in this particular 
area. And, we should interface like national labs interface on 
their technology issues. I think that is the way to build the 
bridge.

                      Lab and equipment situation

    Senator Gregg. I broke into your statement. Were you going 
to tell us about the lab situation and equipment there?
    Mr. Freeh. With respect to the laboratory, the activation 
and the operation is, as you know, scheduled for the summer of 
2002. And that is moving along on time and under budget.
    The laboratory will provide world-class forensic services, 
not just for the FBI but for State and local partners, much 
like our criminal justice information systems in West Virginia 
provide on the informational side.
    The laboratory will also have a very significant research 
and development component, which our laboratory now has in the 
Engineering Research Facility (ERF) at Quantico, as well as the 
forensic laboratory capability of Quantico.
    But this will give us, right alongside the workbench, 
Research and Development (R&D) capability where we can 
hopefully attract and get scientists from other law enforcement 
departments and from universities.
    We have now several scientists working with our laboratory 
from local universities. We want to integrate this R&D with not 
just national laboratories but also the private sector.
    The other aspect of it is we are designing this facility to 
be a teaching laboratory. In addition to providing forensic 
services, we can also bring in State and local scientists. We 
can have faculty that are experts themselves in teaching. We 
can also use technology for long-distance learning, as well as 
information technologies to help compare and work on actual 
cases.
    This laboratory will give us a strength in the forensic 
area that we have not had. We have mostly been a reactive 
laboratory over the years. And what happens is the number of 
requests build up and every year there is more and more of a 
backlog. This will not simply address the backlog, but it will 
give the State and local laboratories enhanced abilities where 
they will be able to do a lot of this technology and 
examinations by themselves.
    We want to have the laboratory doing what they did in the 
mitochondrial DNA area. That was a FBI-developed forensic tool 
of immense investigative value. We can make a case out of a 
genetic sample, which could not be made in any other way but 
for the mitochondrial technique developed in our laboratory.
    There are probably all kinds of things that can be done in 
that regard. There are laboratories around the world that do 
things that we do not. This will be, on the R&D side and the 
teaching side, hopefully, a center of expertise that we have 
not had in the past.

                  role of Dr. Kerr in Lab improvement

    Senator Gregg. Senator Domenici?
    Senator Domenici. Mr. Chairman, I have no questions.
    I am assuming this is the last appearance of the Director 
before this subcommittee, and I just want to personally and on 
behalf of my constituents thank you for the job you have done 
and wish you the very best.
    I am hopeful that your laboratory will improve, and I 
wholeheartedly support the ideas you have just described.
    Mr. Freeh. Thank you.
    Senator Domenici. I gather that Dr. Kerr is still there 
with you.
    Mr. Freeh. Yes, sir, he is.
    Senator Domenici. And you are finding him to be quite a 
scientist in helping you build this laboratory? Or how would 
you assess it?
    Mr. Freeh. We could not build it without him. And I think 
the vision that he has for its future is one that we had to 
import. We did not have it in the FBI.
    We had, as you know, for many years, assistant directors 
who were sometimes scientists, mostly not, running the 
laboratory. They did a fairly respectable job.
    But in terms of research, teaching, peer review, and state-
of-the-art capabilities, we needed to bring in somebody of his 
caliber. So that was one of the good decisions I made.
    Senator Domenici. I might just say that the doctor that I 
referred to at one point in his life was the director of the 
National Laboratory at Los Alamos, and was out looking for 
work, doing something else, and he was recruited.
    And I gather that from the day he came on, there has been 
just tremendous changes in what we are going to be doing in 
that laboratory and how we do it.
    Mr. Freeh. Yes, sir.
    Senator Domenici. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Gregg. Thank you, Senator.

                    Polygraphs and national security

    Senator Hollings. Mr. Director, I know polygraphs are not 
conclusive, but they are good indicators. What is the policy at 
the bureau for its agents?
    Mr. Freeh. We polygraph all new employees who come into the 
FBI. We have done that since 1994. We have regularly 
polygraphed people who work in our most sensitive 
counterintelligence programs.
    Prior to the recent espionage case, for instance, 73 
percent of the agents in the National Security Division were 
polygraphed because of the sensitive matters on which they were 
working.
    We have not had a random polygraph policy. We have not had 
a policy that went beyond the national security context that I 
just described.
    We are waiting now for Judge Webster's specific 
recommendations on this area. With his permission and consent, 
in the interim, we have taken some steps to broaden the pool of 
individuals who should be polygraphed. We have also taken some 
steps in the information assurance area by protecting the 
computerized information systems that we have from people going 
into them who should not go into them.
    We are also taking some steps on the whole security 
program, making significant changes in both the structure and 
leadership of that program and the resources needed to support 
it.
    Senator Hollings. It is interesting you note that it 
started in 1994. I know, serving on the Intelligence Committee 
here in the Senate back in the 1980s, you could not get a job 
on the Capitol police force unless you were polygraphed.
    When last was Hanssen polygraphed?
    Mr. Freeh. He was not polygraphed.
    Senator Hollings. I see.
    And the Hoover Commission recommended 45 years ago that all 
agents be polygraphed every 5 years, and those in 
counterintelligence, every 3 years. And they have followed that 
at the Central Intelligence Agency. But they have not followed 
it at the FBI, and only commenced it, according to your answer, 
in 1994. Is that right?
    Mr. Freeh. In 1994, we started to polygraph all new 
employees. Yes, sir.

                    law enforcement school in Mexico

    Senator Hollings. Then let me jump to the Mexico question, 
because I have been trying my best to get any kind of facet of 
a Marshall Plan started there.
    And you and I discussed at a previous hearing the idea of 
an FBI school down below the border. Have you made any progress 
on that?
    Mr. Freeh. We have made some progress. I have met 
personally with the foreign minister, Mr. Castaneda, Mr. 
Aguilar, the National Security Adviser, the new Attorney 
General of Mexico, as well as the head of the Federal Judicial 
Police. We are in discussions in conjunction with the State 
Department about exactly that establishment.
    They have made a request; the new government should be 
commended for making the request that we become directly and 
overtly involved in the training of the Federal Judicial 
Police, which the new government wants to model as a National 
Bureau of Criminal Investigations.
    We are very excited about this opportunity. I have 
discussed it with Secretary Powell, and it is something that I 
am sure is going to come before the committee at some point for 
a request for assistance.

                               conclusion

    Senator Hollings. Well, I thank you, and I thank you for 
your service, Judge. Good luck to you.
    Mr. Freeh. Thank you, Mr. Hollings.
    Senator Gregg. Let me join Senator Hollings in those 
comments.
    We appreciate your service. The country has been well-
served. And you are generous to have given this large chunk of 
your life to our nation, and we thank you for doing that.
    We look forward to continuing to work with you and wish you 
Godspeed as you move forward.
    Mr. Freeh. Thank you, Mr. Chairman, very much. I appreciate 
it.
    Senator Gregg. Thank you, Mr. Director.

                 Immigration and Naturalization Service

STATEMENT OF KEVIN D. ROONEY, ACTING COMMISSIONER

                   opening remarks of chairman gregg

    Senator Gregg. We will now hear from the acting 
Commissioner and Administrator of DEA and INS, Mr. Marshall and 
Mr. Rooney.
    Well, we thank you, gentlemen, for waiting and being so 
patient. I recognize you have a busy day and appreciate you 
participating.
    We will open the hearing up to your statements, if you wish 
to make any.
    So we can start with you, Mr. Commissioner, and then we 
will go to the Administrator.

            opening statement of acting commissioner rooney

    Mr. Rooney. Well, thank you, Mr. Chairman. I appreciate the 
opportunity to appear here today to discuss the President's 
fiscal year 2002 budget request for the Immigration and 
Naturalization Service.
    In recent years, this subcommittee's strong support has 
allowed INS to make significant improvements in how we carry 
out our dual enforcement and service responsibilities.
    Our fiscal year 2002 budget request at $5.5 billion is 10 
percent higher than our current funding level and will enable 
the agency to build on a solid foundation and further 
strengthen the nation's immigration system.
    INS's aim has been to build a seamless web of enforcement, 
extending from our borders to the Nation's interior. The 
proposed budget continues support for the comprehensive 
strategies that we have been implementing in pursuit of this 
goal. The focus is on border control, which is the anchor for 
our entire enforcement web.

                        border control strategy

    Our border control strategy is designed to create and 
maintain borders that both facilitate the legal flow of people 
and products into our Nation, while preventing illegal 
immigration and the smuggling of drugs and other contraband.
    To move closer to our goal in fiscal year 2002, we are 
seeking 570 Border Patrol agents. These new agents, plus an 
additional 570 that the Administration has proposed for next 
year--fiscal year 2003--will complete the 5,000 agent increase 
authorized by Congress in 1996. We are also asking for $20 
million for intrusion detection technology, which has a force-
multiplying effect on the border.
    We plan to deploy the bulk of these resources along the 
Southwest border, particularly in Arizona and eastern 
California, where we want to replicate the recent success we 
have had in San Diego and elsewhere.
    Enhanced enforcement between our ports-of-entry is not 
enough, however. INS must also continue to strengthen 
activities occurring in the ports, at the border, and in the 
Nation's interior.
    And this budget request will allow us to do that by 
providing $50 million for 417 new immigration inspectors. It 
also earmarks $26 million for improving various automated 
information systems, including the database that the inspectors 
use to prevent criminals, suspected terrorists, and other 
inadmissible individuals from entering the country.
    Border Patrol agents and immigration inspectors will be 
further aided by proposed improvements to INS's intelligence 
program. We have asked for 78 positions and $7 million to 
expand the intelligence program on our borders, where 
intelligence plays a critical role in preventing the entry of 
undocumented aliens, drug traffickers, and terrorists, as well 
as in detecting and dismantling smuggling rings.

                effective detention and removal program

    Without an effective detention and removal program, 
however, detecting and apprehending deportable aliens becomes 
little more than a training exercise, lacking in credibility 
and producing few results. And that is why we are asking for an 
additional 158 positions and $82 million in fiscal year 2002 
for detention and removal.
    With these new resources, we will be able to use 1,600 more 
beds in State and local detention facilities, which are crucial 
for accommodating a daily average population now of more than 
19,000 detainees, which is triple the 1995 number.

                          immigration benefits

    As INS continues to strengthen enforcement in response to 
the unprecedented pressure that illegal immigration has created 
at our borders and in the Nation's interior, we must also 
handle the skyrocketing demand for immigration benefits.
    Based on receipts to date, we project that by the end of 
this fiscal year, we will receive some 9.5 million applications 
and petitions for benefits. That is 50 percent more than we 
received last year and 80 percent more than the year before 
that.
    The demand for services is being fueled by both changes in 
immigration law and record-level legal immigration. Preliminary 
figures indicate that we welcomed more newcomers in the last 10 
years than in any decade in U.S. history.
    INS is currently implementing the Legal Immigration Family 
Equity Act, the LIFE Act, which was signed into law in 
December. We estimate that the agency will receive nearly 4.5 
million LIFE Act related applications by the end of fiscal year 
2003.
    In fact, we are already feeling the impact of the law. It 
is the chief reason why we received more non-naturalization 
applications in March than in any other month in more than a 
decade.
    In recent years, INS has worked diligently to rebuild a 
service structure that was weak and woefully inadequate to 
handle the agency's workload. Reconstruction is far from 
complete, but I can assure you that considerable progress has 
been made.
    Last year, for example, we completed 24 percent more 
benefit applications than we did in 1999. As a more meaningful 
measure for those applicants who had languished in line, we 
completed last year 430,000 more applications than we received.
    The Administration has proposed establishing a universal 
62-month standard for processing all benefit applications and 
petitions within the next 5 years. To meet this goal, the 
Administration has pledged to support a $500 million initiative 
to fund new personnel and enhance technology and to make 
customer satisfaction a first priority. Our fiscal year 2002 
budget request includes the first $100 million installment of 
this 52-year plan.
    Mr. Chairman, from what little of the budget request that I 
have just highlighted, you can see that in both enforcement and 
in services INS faces enormous challenges in this fiscal year 
and fiscal year 2002.
    However, as I have seen since taking over as Acting 
Commissioner 7 weeks ago, I believe there are clear indications 
that the agency is moving in the right direction to start to 
meet those challenges, and I look forward to working with you 
to maintain this momentum.
    Thank you, Mr. Chairman. I look forward to any questions 
that you may have.
    Senator Gregg. Thank you, Commissioner.
    [The statement follows:]
                 Prepared Statement of Kevin D. Rooney
                              introduction
    Thank you Mr. Chairman, Senator Hollings, and Members of the 
Subcommittee for the opportunity to appear before you today to discuss 
the President's fiscal year 2002 budget request for the Immigration and 
Naturalization Service (INS). This INS budget request builds upon the 
accomplishments that have been achieved with your strong support. The 
resources Congress has provided have enabled INS to meet new challenges 
and strengthen the Nation's immigration system. They have resulted in 
improvements in how we enforce immigration laws and how we deliver 
services to our customers.
    The President's fiscal year 2002 budget request for the Immigration 
and Naturalization Service totals $5.5 billion, a 10 percent increase 
over the fiscal year 2001 funding level. This budget includes $380 
million in enhancements to go with a base funding level of $5.1 
billion. The budget will add a total of 1,364 new staff positions, 
which will allow INS to grow to over 36,200 workyears by the end of 
fiscal year 2002.
    The INS budget for fiscal year 2002 continues to support the 
immigration goals and strategies that the agency has pursued over the 
past several years. The thrust of INS' fiscal year 2002 budget is to 
extend the ongoing initiatives aimed at controlling the Nation's 
borders and maintaining the physical integrity of those borders. INS 
intends to build on its successful multi-year strategy to: effectively 
regulate the border; deter and dismantle smuggling or trafficking of 
aliens and narcotics in the interior of the United States, as well as 
other immigration-related crime; identify and remove suspected 
terrorists; identify and remove incarcerated criminal aliens from the 
United States, and minimize recidivism; enhance services and reduce 
processing backlogs; and reduce immigration benefit fraud and other 
document abuse.
Border Management
    The fiscal year 2002 budget includes an additional 570 Border 
Patrol Agents and $75 million to support the border control strategy. 
We would propose that these resources will be primarily directed to the 
Southwest border so as to increase the emphasis provided to the eastern 
California, Arizona and Texas borders. These new agents, plus 570 in 
fiscal year 2003, will complete the 5,000-agent increase authorized by 
the Congress.
    The fiscal year 2002 budget also requests $20 million so that 
deployment of intrusion detection technology, including high-resolution 
color and infrared cameras and state-of-the-art command centers, will 
continue. This technology acts as a ``force multiplier'' to supplement 
the new agents and provide continuous monitoring of the border from 
remote sites. This combination of intrusion detection technology and 
the increased number of Border Patrol Agents will permit INS to enforce 
the rule of law and enhance border management over larger portions of 
the U.S. border. This technology assists agents in determining the 
source of the ``hit,'' including the number of intruders, and if they 
are armed, thereby increasing agent safety. The Integrated Surveillance 
Intelligence System (ISIS) enhancement is an important part of the 
overall strategy for strengthening control of the border against 
illegal entry. ISIS will improve remote detection and tracking 
capabilities, resulting in increased deterrence of illegal border 
crossing and increased officer safety. Ultimately, it will provide the 
INS, in particular, the Border Patrol, with the capability to 
effectively monitor the integrity of the United States/Mexico and 
United States/Canada national boundaries for purposes of border 
management.
    The INS Intelligence program provides strategic and tactical 
intelligence support to INS offices enforcing the provisions of the 
Immigration and Nationality Act, and assists other federal agencies in 
addressing national security issues. Intelligence program activities 
contribute support to: preventing the entry of illegal aliens, 
terrorists and narcotics traffickers; identifying and dismantling alien 
smuggling operations; detecting fraudulent documents and false claims 
to U.S. citizenship; and detecting other individuals or organizations 
involved in the manufacture and sale of counterfeit documents, in 
application and benefit fraud schemes, and other related criminal 
activity. The fiscal year 2002 budget includes 78 positions and $7 
million to expand the intelligence program on the northern and southern 
borders of the United States.
Air and Sea Ports-of-Entry
    INS must balance its limited resources between its goals of 
detecting those who should not be allowed to enter the United States 
and managing legal travel across the border. The fiscal year 2002 
budget request includes $50 million for 417 new Immigration Inspectors 
to staff newly activated air and sea port terminals, high-growth 
understaffed gateway ports, and joint INS/U.S. Customs passenger 
analysis units. The request also includes 122 inspection assistants and 
clerks, along with detention and removals resources to support the 
significant increases in workloads at high-growth air and sea ports-of-
entry. The budget provides for an expansion of the Carrier Consultant 
Program to enhance airline carrier training and for the increased 
workload attributable to the 2002 Winter Olympics.
    With these resources, the Service will strive to process 77 percent 
of all commercial flights within 30 minutes and make strides in 
streamlining and automating manual processes, improving data integrity, 
and supporting enforcement requirements. To finance these initiatives, 
the fiscal year 2002 budget includes language that will increase the 
current airport inspections fee by $1 from $6 to $7 for arriving 
international air passengers. It would also lift the cruise ship fee 
exemption, instituting a $3 fee for those passengers currently exempt. 
The increase is to provide resources to cover more of the true costs of 
operating the program.
    In addition, the fiscal year 2002 budget contains $26 million to 
expand significant resources for information technology initiatives. 
Resources are provided to update the National Automated Inspections 
Lookout System (NAILS) a centralized lookout database which is a 
compilation of information supplied by automated systems within INS and 
other federal and local law enforcement agencies. It is a critical 
system that contains data on individuals who are inadmissible, 
including criminals and suspected terrorists. The request includes 
resources to study technology for automated airport inspection 
alternatives. This budget will provide resources to purchase Live Scan 
Devices that will send electronic fingerprint submissions to the FBI, 
develop the Vessel Inspection Processing System (VIPS), and purchase 
portable workstations to access NAILS at the seaports. The fiscal year 
2002 budget will also provide the initial investments necessary to 
develop an automated entry/exit system as required in the INS Data 
Management Improvement Act of 2000.
Detention and Removal
    In addition to the expansion of INS' more visible enforcement 
functions, additional funding will strengthen the detention and removal 
process. It is critical that INS continue to have resources to 
efficiently house and repatriate illegal aliens encountered both at the 
border and through enforcement of immigration laws beyond the immediate 
border area. To that end, 173 positions and $89 million are requested 
in fiscal year 2002 for detention and removal initiatives in the areas 
of expanded national transportation, improved health services for 
detained aliens, increased detention bed space, and improved 
coordination with U.S. Attorneys. Included in the $89 million is a 
projected $40 million in Breached Bond/Detention Fund revenue which is 
anticipated as a result of the reauthorization of adjustment of status 
provisions of section 245(i) of the Immigration and Nationality Act 
(INA), and $7 million for detention beds to support increases in 
workloads at high-growth air and sea ports of entry.
Consolidated Detention Bed Space
    To continue to meet the mandatory detention requirements of the 
Illegal Immigration and Immigrant Responsibility Act of 1996, the 
budget request includes $69 million for 131 positions (68 Detention 
Enforcement Officers, 33 Deportation Officers, and 30 support 
positions) and an additional 1,607 average daily state and local 
detention bed spaces. This initiative includes resources to detain, 
transport and remove aliens.
National Transportation System
    The INS uses the Justice Prisoner and Alien Transportation System 
(JPATS), created in 1995 by INS and the U.S. Marshals Service, to 
transport large numbers of detained aliens each year, transferring them 
to detention facilities or repatriating them. The budget includes an 
increase of $9 million to fund the costs associated with the INS' share 
of JPATS. This increase, when combined with current funding, will fund 
additional air movements to transfer or repatriate detainees.
Public Health
    The budget includes funding of $9 million to support the increased 
cost of providing health care for detainees. The INS is committed to 
ensuring that its facilities are safe and humane, and that adequate 
medical care is provided to aliens in its custody.
Coordination with U.S. Attorneys
    The budget includes 42 positions (28 attorneys and 14 support 
personnel) to enable the INS to better fulfill its role of providing 
agency counsel support to the U.S. Attorneys Offices and the Office of 
Immigration Litigation in immigration-related matters arising in the 
Federal courts. This critical role involves such efforts as preparing 
litigation reports when lawsuits arise, and coordinating agency 
witnesses and evidence. These litigation efforts will facilitate the 
removal of detained aliens, a substantial number of whom are convicted 
felons. It will also ensure that aliens not eligible for immigration 
benefits are appropriately identified and denied any benefit.
Immigration Services
    The INS is proud of its accomplishment of processing over one 
million naturalization applications during fiscal year 2000, and plans 
to continue the quality and timely processing of applications. The 
President's fiscal year 2002 budget includes $100 million to implement 
the first installment of the President's five-year, $500 million 
initiative to process all applications within six months and provide 
quality service to all legal immigrants, citizens, businesses and other 
INS customers. These resources will be used for increased personnel, 
enhanced information technology and other resources to make customer 
satisfaction a priority.
Infrastructure Improvements
    The INS continues to face a number of challenges in maintaining its 
infrastructure during a period of rapid growth. New and expanded 
facilities are required to support a work force of over 32,000. The 
Border Patrol's infrastructure needs are most serious and have been and 
continue to be given priority attention. Since the authorization of the 
INS Construction Account in fiscal year 1995, the Congress has provided 
much-needed resources to allow INS to replace, expand and renovate 
facilities and to enhance border infrastructure. The INS budget request 
for fiscal year 2002 continues support for critical infrastructure 
requirements. It includes $75 million for construction projects. This 
total includes $69 million for Border Patrol and detention construction 
projects, and $6 million for additional work on the San Diego Border 
Barrier System and for the enhancement of border infrastructure through 
the critical direct support of Joint Task Force Six (JTF-6) for 
projects such as fences, roads, and border barriers.
Significant Accomplishments
    There are several areas of INS operations that should be 
highlighted due to the accomplishments that have been achieved.
Border Patrol Recruiting and Hiring
    The President's blueprint states his intention to fund the INS to 
hire the remaining 1,140 Border Patrol agents needed to complete hiring 
of the 5,000 agents authorized by the Congress in the Illegal 
Immigration Reform and Immigrant Responsibility Act (IIRIRA) of 1996. 
His plan is that the INS will be funded to hire 570 agents in each of 
fiscal year 2002 and fiscal year 2003 to achieve the hiring goal. With 
these 1,140 additional agents, the total increase of 5,000 Border 
Patrol Agents will be achieved, and the authorized strength of the 
Border Patrol will be about 11,000.
    In fiscal year 2000, INS experienced record increases in the number 
of Border Patrol applicants and hires as a result of: (a) a more 
focused, local recruitment process, (b) the training of 300 Border 
Patrol Agents as recruiters, (c) intensified advertising, and (d) 
offering a $2,000 recruitment signing bonus. The enhanced recruitment 
program was supported in part by $1.5 million included in the fiscal 
year 2000 appropriation for these efforts. The Border Patrol has been 
able to attract sufficient numbers of applicants to meet hiring goals 
through fiscal year 2001. The INS is currently recruiting to ensure 
maintenance of a qualified pool of applicants for fiscal year 2002 and 
is no longer experiencing Border Patrol hiring problems and is 
confident that hiring commitments will be met in fiscal year 2002 and 
fiscal year 2003.
    In fiscal year 2000, the INS implemented ``compressed testing'' at 
10 Sectors. This allowed applicants to take the written test and 
receive results immediately upon completion of the exam. If the 
applicant passed the written exam, he/she could schedule the oral board 
examination in 2 weeks. This process is 5 or more weeks shorter than 
the traditional testing process and resulted in a 44 percent increase 
in applicants actually showing up to take the test.
    In fiscal year 2000, the Border Patrol trained 300 agent recruiters 
who participated in over 1,400 recruiting events ranging from campus 
and military job fairs, to open houses, to booths at local malls. 
Border Patrol recruiters were encouraged to establish personal contact 
and feedback with all interested applicants with positive results. We 
significantly increased advertising and recruitment incentives.
    As a result, in fiscal year 2000, the INS achieved a record number 
of applicants (an 80 percent increase over fiscal year 1999) due to 
aggressive recruitment and hiring initiatives to address Border Patrol 
Agent hiring shortfalls. The increase in recruitment provided the 
applicant pool with sufficient candidates for an associated increase in 
hiring. In fiscal year 2000, the INS hired 52 percent more agents than 
in fiscal year 1999.
    During this fiscal year, INS has hired 900 new Border Patrol agents 
and will hire another 700 by the end of the year. Our training classes 
are already full through July.
Anti-Smuggling and Anti-Fraud Activities
    The INS has a number of significant accomplishments to report in 
anti-smuggling and anti-fraud operations. During fiscal year 2000, INS 
disrupted alien smuggling organizations at source countries, the 
borders and the interior of the United States. The agency used 
traditional and non-traditional investigative techniques, cooperation 
and coordination with the FBI, and broadened use of statutory 
authorities. The INS presented 7 major cases and 2,520 smuggling 
principals for prosecution. For example, the ``Operation Knight 
Riders'' investigation involved a large-scale alien smuggling 
organization that specialized in moving large numbers of undocumented 
aliens from Central and South America and the Middle East into the 
United States. The successful completion of this case resulted in 9 
criminal arrests and the closure of a major smuggling pipeline. In 
``Operation Telecom'' INS investigated and shut down a sophisticated 
alien smuggling organization that engaged in recruiting and arranging 
for the smuggling of Chinese nationals from the People's Republic of 
China. This investigation also involved a law firm that assisted the 
smugglers by arranging bonds so aliens could be released and returned 
to the smugglers. The firm also filed fraudulent political asylum 
claims on behalf of the aliens to ensure that they would remain in the 
United States.
Border Management and Control
    The INS' border management and control efforts have been producing 
significant impacts on the border. In fiscal year 2000, INS carried out 
immigration inspections for nearly 438 million travelers at the land 
borders and nearly 92 million travelers at airports and seaports. In 
fiscal year 2001, these inspections are projected to reach 450 million 
at the land border and 98 million at airports and seaports, with 
continued growth in fiscal year 2002. The INS has set fiscal year 2001 
performance targets of 80 percent of land border inspections in 20 
minutes or less, and 72 percent of air flights cleared within 30 
minutes. The INS will also continue the use of automated systems such 
as dedicated commuter lanes to facilitate the flow of inspection 
traffic.
    During fiscal year 2001, INS is continuing to implement the Border 
Patrol's National Strategic Plan, a systematic four-phase approach to 
strengthen control of the border with a national focus of ``prevention 
through deterrence.'' It is a means to restrict illegal traffic and 
encourage legal entry. The plan has been implemented in San Diego, El 
Paso, Brownsville and Nogales and it is getting results. For example, 
in San Diego apprehensions are at a 25-year low. Apprehensions at other 
points on the border have also declined. With the deployment of 
additional personnel and equipment this year, we expect this trend to 
continue. Changes in apprehension trends will be monitored carefully.
Interior Enforcement/Quick Response Teams
    Considerable progress has been made in establishing and staffing 
the Quick Response Teams (QRTs). In the fiscal year 1999 INS 
appropriation, Congress provided for the creation of QRTs and directed 
INS to establish 45 teams with 200 positions. These teams work directly 
with State and local law enforcement officers to take into custody and 
remove illegal aliens. Of the 200 QRT officers that have been selected, 
193 have entered on duty at their assigned locations. The remaining 
officers are expected to enter on duty before the end of fiscal year 
2001.
    Based upon costs incurred during deployment of QRTs to date, INS 
estimates that it costs approximately $1.2 million to make each 
additional QRT site fully operational. Operating costs primarily 
include an average of estimated personnel-related costs for the 
combination of INS special agents, detention officers, and deportation 
officers, any projected acquisition and build-out costs of any new 
offices, standard alterations (as required) to existing facilities, and 
funding to purchase and retrofit the additional vehicles needed. Hence, 
the funding provided in the fiscal year 1999 appropriations was not 
fully sufficient to deploy the 45 QRTs, and base funds had to be 
identified to fund the shortfall. The proposed use of the QRT funds 
provided in fiscal year 2001 is under development.
    Much has been accomplished with the QRTs. During the first quarter 
in fiscal year 2001, the teams received 2,532 requests for assistance 
from State and local law enforcement agencies. This figure reflects the 
largest number of requests received by the QRTs in any given quarter to 
date. Of the 2,532 requests, QRTs were able to respond to 92 percent 
(2,317). The response time for 98 percent of all requests was less than 
three hours. In addition, QRT officers made 2,246 administrative 
arrests. Of these arrests, 1,214 were voluntarily returned to their 
respective countries of citizenship. Special Agents deployed at QRT 
sites presented 171 individuals for criminal prosecution related to 
alien smuggling, document fraud, and illegal entry.
Detention and Removal
    Since the early 1990's, the average daily population of INS 
detainees has grown from less than 6,000 to over 19,000. This rate of 
growth was the result of INS' expanded enforcement capability and 
changes in detention requirements contained in the IIRIRA of 1996. That 
law requires the agency to detain without bond virtually any alien 
subject to removal on the basis of a criminal conviction. The INS is 
also required to detain aliens who have been ordered removed from the 
United States for up to 90 days or until they are removed, regardless 
of the basis for the order and the prospects that their home countries 
will accept their return. As a result, annual removals in fiscal year 
2000 were over 180,000. Over 64,000 of these were criminal alien 
removals. In fiscal year 2001, we project that 67,000 criminal aliens 
will be removed from the country.
    In dealing with the growth in the detention population, INS has 
issued detailed standards aimed at ensuring consistent treatment and 
care for all detainees. The standards apply to INS' 9 Service 
Processing Centers as well as contract facilities and state and local 
facilities under intergovernmental service agreements. In addition to 
standards for safe, secure and humane confinement, they provide for 
consistent and expanded access to legal representation, telephones and 
family visits.
Immigration Services
    Due to an intense, two-year Naturalization Backlog Reduction 
Initiative, the INS has made tremendous progress in increasing its 
immigration services' productivity and customer service. In fiscal year 
1999, the INS met its first stage goal of completing 1.2 million 
naturalization applications. In fiscal year 2000, INS again met its 
naturalization goal by completing approximately 1.3 million 
applications while achieving a processing time goal of six to nine 
months nationwide. In fiscal year 2000, INS also completed 564,000 
adjustment of status applications, more than in any other year in the 
INS' history, and outperformed its national processing time goal. The 
Service also streamlined the ``Green Card'' renewal process, decreasing 
the processing time significantly from between 12 and 24 months to 90 
days. In fiscal year 2000, the INS also reduced the processing time for 
employment petitions from 18 months to 90 days. By transmitting 
fingerprints electronically to the FBI, the INS decreased the average 
processing time for background investigation checks from 21 days to one 
day. The INS enhanced its customer service quality and accessibility by 
expanding the National Customer Service Center's live, toll-free (1-800 
telephone) assistance area across the U.S. mainland, Puerto Rico, the 
U.S. Virgin Islands, and Guam. In fiscal year 2001, the INS continues 
working diligently to meet its goal of completing 800,000 
naturalization and 800,000 adjustment of status applications.
    The INS faces significant challenges in delivering immigration 
services in the years ahead: (1) eliminating backlogs in all 
immigration benefit applications; (2) managing and responding to new 
and changing workload; (3) ensuring process integrity; and (4) 
positioning itself for the future, including making needed investments 
in information technology. Over the last several years, the INS has 
seen a dramatic rise in the number of applications and petitions 
received. The LIFE Act amendments alone will add an additional caseload 
of 2.3 million applications and petitions in fiscal year 2001 and 1.2 
million applications and petitions in fiscal year 2002 to the current 
6.9 million applications received annually, a 26 percent increase over 
a two-year period. Because this additional workload will strain the 
existing infrastructure, the INS is exploring new ways of doing 
business to manage the new workload effectively while continuing to 
tackle the backlogged caseload aggressively. Premium Processing Service 
and electronic filing are examples of these new ways of doing business. 
Besides increased productivity, the INS continues working towards 
achieving process integrity through its anti-fraud and quality control 
efforts. Most importantly, the INS strives for excellence in customer 
service through process reengineering, effective and new use of 
technology, and greater accessibility to information and services.
                               conclusion
    The fiscal year 2002 request will provide INS with resources needed 
to carry out an effective immigration strategy. As you know, this 
Administration is committed to restructuring and splitting the INS into 
two agencies with separate chains of command that report to one policy 
official within the Department of Justice. I look forward to working 
with the Subcommittee. With your continued support, we can add to the 
improvements that have already been made and address problem areas and 
ensure the agency's integrity.
    This concludes my formal statement on the fiscal year 2002 budget 
request for INS. I would be happy to answer any questions which you, 
Mr. Chairman, and Members of the Subcommittee may have.
                                 ______
                                 
                 Biographical Sketch of Kevin D. Rooney
    Kevin D. Rooney was appointed Acting Commissioner of the 
Immigration and Naturalization Service, effective March 26, 2001. Prior 
to assuming this position, he served as Director of the Executive 
Office for Immigration Review (EOIR) since 1999. EOIR oversees the 
immigration court system, including the Board of Immigration Appeals 
and 52 immigration courts nationwide. Mr. Rooney previously served as 
Deputy Director of EOIR from 1995 to 1997.
    As the Assistant Attorney General for Administration from 1977 to 
1984, Mr. Rooney served as the Department of Justice's senior career 
official and chief management and financial officer under three 
Attorney's General during the Carter and Reagan Administrations. He was 
Assistant Director of the Bureau of Prisons from 1997 to 1999, and 
practiced law in Washington, D.C. from 1984 to 1995.
    Mr. Rooney is a native of Palmer, Massachusetts and a graduate of 
St. Mary's Seminary and University and George Washington University 
School of Law.

                    Drug Enforcement Administration

STATEMENT OF DONNIE R. MARSHALL, ADMINISTRATOR
    Senator Gregg. Mr. Marshall.
    Mr. Marshall. Mr. Chairman, good morning, and thank you. I 
appreciate the opportunity to be here this morning, and I want 
to first take this opportunity to express my gratitude to this 
subcommittee and the entire committee for your ongoing support 
of the 9,000 very dedicated and courageous and talented men and 
women of DEA.
    As the world's premier drug law enforcement agency, DEA's 
mission, quite simply, is to identify and dismantle the world's 
most sophisticated drug trafficking organizations.
    Throughout the United States and, in fact, the world, DEA 
is at the cutting edge of drug law enforcement. We continuously 
adapt our methods to the quickly changing dynamics of the 
criminal enterprises and the drug trade.
    DEA's efforts, Mr. Chairman, have had a major impact on 
global drug trafficking. The demise of the Medellin and Cali 
cartels in Colombia are due, in large part, to DEA's aggressive 
investigations and our long-standing domestic and international 
cooperative efforts.
    Our successes against Southeast Asia drug trafficking 
organizations have really all but eliminated Southeast Asia 
heroin from the United States market.
    And we have had an impact on Mexico-based methamphetamine 
organizations, which has resulted in a marked decrease in the 
purity of methamphetamine coming out of laboratories operated 
by those criminal groups.
    But despite that good news, we have many challenges ahead. 
We see in the United States now that Colombian-based 
traffickers dominate the heroin market. We see that the Mexican 
organizations have really evolved into what I think is the most 
significant challenge that faces law enforcement in the United 
States today and, perhaps, in our history.
    Along with the traditional drugs of cocaine, heroin, 
methamphetamine, marijuana, we see new drugs coming on the 
market, and they continue to emerge. Two of the most recent 
examples of those are the popular club drug, so-called Ecstasy, 
and the very newest threat of OxyContin.
    Now, if we are to successfully address each of these new 
challenges, we have to rely on the resourcefulness, dedication, 
and integrity of our agents, our cooperation with other law 
enforcement agencies, and the consistent support that we have 
received from this committee.
    Now, in that context of, I hope, continued success and 
continued addressing of these new and emerging threats, let me 
briefly summarize our budget request that is before you today.

                           dea budget request

    In our salaries and expenses appropriation, we are 
requesting a total of $1.5 billion and a little over 7,600 
positions. That represents an increase of about $120 million 
over the 2001 enacted levels.
    Our request contains $62.5 million needed to maintain 
current levels of operations and $58.2 million and 134 
positions for three basic program initiatives, and I will very 
briefly outline those three initiatives.

               special operations division budget request

    First, we are seeking $15.1 million and 62 positions for 
the Special Operations Division and Communications Intercept 
Initiative. The Special Operations Division, as you may know, 
is designed to coordinate multiagency, multijurisdictional, 
even multinational investigations, which we aim at the command 
and control structures of the criminal drug organizations 
operating both domestically and abroad.
    Senator, the Special Operations Division has really, over 
the last several years, become our very most effective tool 
against the command and control structure of those major drug 
trafficking organizations.
    Now, the resources we are asking for will be used to 
enhance staffing levels at our Special Operations Division 
investigative units that focus on the Southwest border, Latin 
America, the Caribbean, Europe, and Asia. And it also augments 
our funding base for contract linguists, communications 
intercept equipment, and technical support personnel.

                        firebird budget request

    The second initiative is an enhancement of $30 million and 
three positions for our FIREBIRD network. The FIREBIRD network 
is the primary office automation infrastructure that serves, as 
the communications backbone for DEA, for our intelligence 
network, and for many other mission-critical databases and 
operational systems.
    We are requesting funding to complete the deployment of the 
FIREBIRD system, to provide network security, and support 
technology renewal so that the system can be updated and so 
that we can replace outdated equipment and software on a 
regular schedule.

            laboratory operations initiative budget request

    The third and final initiative is for $13.1 million and 69 
positions for our Laboratory Operations Initiative, which will 
help us meet mission-critical requirements within that 
laboratory services program.
    DEA's forensic chemists provide a variety of essential 
services, including drug and evidence analysis, on-site 
assistance for clandestine laboratory seizures and crime scene 
investigations, and vital courtroom testimony to support 
prosecution efforts, which is the ultimate goal and product of 
all the work that we do.
    Now, these resources, I think, will enable DEA to more 
effectively meet our mission requirements of both our special 
agent workforce and to better support the prosecution of drug 
offenders through timely analysis of evidence.

                           prepared statement

    Mr. Chairman, that concludes my summary. I do have a 
written statement that I would like to enter for the record, 
and I will be happy to answer any questions that you may have.
    [The statement follows:]
                Prepared Statement of Donnie R. Marshall
    Mr. Chairman and Members of the Subcommittee, I appreciate the 
opportunity to appear before you today to discuss the fiscal year 2002 
budget request of the Drug Enforcement Administration (DEA).
    Before I begin my testimony today, I would like to take this 
opportunity to express my sincere gratitude for the subcommittee's 
ongoing support. Without your support, DEA could not continue to safely 
and effectively meet the growing challenges posed by increasingly 
sophisticated and dangerous international drug trafficking 
organizations operating throughout the global community. The 
subcommittee's support has helped us to send a message to these 
traffickers that their assault on the citizens of this nation will not 
be taken lightly, and that we will continue to fight to ensure that our 
streets remain safe for generations to come.
    The mission of the DEA is to enforce the Controlled Substances laws 
and regulations of the United States and to bring to the criminal and 
civil justice system of the United States, or any other competent 
jurisdiction, those organizations involved in the growing, 
manufacturing and/or distribution of controlled substances destined for 
illicit traffic in the United States. The DEA also recommends and 
supports non-enforcement programs aimed at reducing the availability of 
illicit controlled substances on both domestic and international 
markets. To accomplish this mission, DEA works with international, 
federal, and state and local law enforcement partners to target and 
immobilize the organizations of major drug traffickers operating at all 
levels of the drug trade.
    I have long said this fight cannot be won through law enforcement 
alone. There must be a ``holistic'' approach to a global problem. DEA 
has in place a five-year strategic plan, which addresses the problems 
posed by illicit drug availability and abuse and provides for a 
comprehensive balanced approach. There is no doubt that interdiction 
and enforcement, coupled with education, prevention and treatment, are 
the essential elements for reducing the supply and demand of illicit 
drugs in this country.
    DEA, in its capacity as the world's leading drug enforcement agency 
and the only single-mission federal agency dedicated to drug law 
enforcement, has developed the unique ability to direct resources and 
manpower to identify, target, investigate and dismantle drug 
organizations headquartered overseas and within the United States. 
DEA's strategy to successfully accomplish these goals is 
straightforward, requiring that the agency's resources and manpower be 
focused on all three levels of the drug trade: the international, 
national/regional, and local levels. Each of these categories 
represents a critical aspect of the drug continuum, which affects 
communities across the nation.
    The 9,000 dedicated men and women of the DEA are committed to 
improving the quality of life of the citizens of the United States. The 
agency directs and supports investigations against the highest levels 
of the international drug trade, their surrogates operating within the 
United States and those traffickers whose violence and criminal 
activities threaten towns and cities across the country. These 
investigations are intelligence-driven and frequently involve the 
cooperative efforts of numerous other law enforcement organizations.
    DEA's strategy to reduce drug trafficking at all levels of 
operation is flexible and reflects the constantly changing nature of 
the drug trade. In concert with the Department of Justice, our sister 
law enforcement agencies, and the Office of National Drug Control 
Policy (ONDCP), DEA has crafted an innovative and effective program to 
keep pace with developments and shifts in the drug trafficking spectrum 
and bring both national and international drug traffickers to justice.
                    fiscal year 2002 budget request
    Consistent with this strategy, DEA is requesting additional 
resources to implement these plans. For fiscal year 2002, DEA is 
requesting a total of $1.6 billion, 8,314 positions, and 8,171 FTE, of 
which $1.5 billion, 7,654 positions and 7,515 FTE are funded by our 
Salaries and Expenses (S&E) Appropriation, and the remainder is funded 
by the Diversion Control Fee Account. For the S&E Appropriation, this 
represents an increase of $120.6 million and 134 positions over the 
fiscal year 2001 enacted levels. The increase consists of $62.5 million 
needed to maintain our current level of operations and $58.2 million 
and 134 positions (including 13 Special Agents) for three program 
initiatives: a Special Operations Division (SOD) and Communications 
Intercept Initiative, a FIREBIRD Initiative, and a Laboratory 
Operations Initiative. I will briefly discuss each in turn.
    First, DEA is seeking $15.1 million and 62 positions (including 13 
Special Agents) under the Special Operations Division and 
Communications Intercept Initiative to provide critical enhancements to 
its SOD and Investigative Technology programs. SOD is a comprehensive 
enforcement operation designed specifically to coordinate multi-agency, 
multi-jurisdictional and multi-national Title III investigations 
against the command and control elements of major drug trafficking 
organizations operating domestically and abroad. These resources will 
be used to enhance staffing levels in key investigative units within 
the SOD, to include support for drug enforcement investigations 
associated with the Southwest Border, Latin America, the Caribbean, 
Europe, and Asia. This request also augments DEA's funding base for 
contract linguists, and enhances DEA's investigative technology 
programs through new resources for equipment, technical support 
personnel, and training.
    Second, under our FIREBIRD Initiative, DEA requests an enhancement 
of $30 million and 3 positions for the global FIREBIRD network. 
FIREBIRD is DEA's primary office automation infrastructure. It provides 
essential computer tools for agents and support staff, including E-
mail, uniform word processing, and many other forms of office 
automation software. FIREBIRD also serves as the communications 
``backbone'' for DEA's MERLIN intelligence network, and serves as the 
platform for numerous other mission critical databases and operational 
systems. DEA is requesting funding to complete deployment of the 
system, provide vital network security, and support technology renewal 
of the system. The technology renewal resources will allow DEA to 
replace outdated technology and adopt a reasonable replacement cycle 
for FIREBIRD equipment.
    Third and finally, DEA requests $13.1 million and 69 positions 
(including 46 chemists) for our Laboratory Operations Initiative to 
meet mission-critical requirements within our laboratory services 
program. DEA's forensic chemists provide a variety of essential 
services, including drug and evidence analysis, on-site assistance for 
clandestine laboratory seizures and crime scene investigations, and 
vital courtroom testimony to support prosecution efforts. Likewise, the 
recent success of DEA's Operation Breakthrough program in providing the 
U.S. Government with new scientific data on coca cultivation and 
cocaine production in Colombia has demonstrated the crucial role played 
by DEA forensic chemists and intelligence analysts in supporting the 
critical intelligence needs of senior U.S. policy makers and the 
counterdrug intelligence community. We must be able to enhance our 
capability to carry out this type of strategic analysis and reporting. 
The requested funds and staffing are needed to address a growing 
backlog of exhibits and establish a laboratory equipment base that will 
better support program operations. Collectively, these resources will 
enable DEA to more effectively meet the mission requirements of its 
Special Agent workforce and better support the prosecution of drug 
offenders through timely analysis of evidence.
      the challenge: international drug trafficking organizations
    DEA targets, investigates, and dismantles the most powerful drug 
syndicates operating around the world which are responsible for 
supplying drugs to American communities. The most significant drug 
syndicates operating today are far more powerful and violent than any 
of the other organized criminal groups that we have experienced in the 
history of American law enforcement. Unlike traditional organized 
crime, these new criminals operate on a global scale with transnational 
networks to conduct illicit enterprises simultaneously in many 
different countries. DEA has grown in sophistication and effectiveness 
to meet the challenge posed by international drug trafficking in the 
new century.
    The main challenge DEA faced during the late 1980's was posed by 
the major drug traffickers from Medellin, Colombia. These drug lords 
were investigated, arrested and prosecuted by the Colombian National 
Police (CNP), the DEA, and U.S. Federal prosecutors, beginning with the 
landmark return of Carlos Lehder to face drug charges in the United 
States, and ending with the death of Pablo Escobar in a shoot-out with 
the CNP. During this same time frame, narcotics investigations by the 
DEA and other Federal, state and local entities created a choke point 
in South Florida and the Caribbean, through which most of the illicit 
drugs arriving in our country were being transported. These enforcement 
strategies led to the demise of the Medellin Cartel.
    As the Medellin traffickers disintegrated, the Cali traffickers 
quietly coalesced and assumed power equal to that of their 
predecessors. Due to law enforcement's response to the trafficking in 
the Caribbean, the Cali traffickers would later form an alliance with 
Mexican trafficking groups in order to stage and transport drugs across 
the Southwest Border. The drug traffickers from Cali were far more 
sophisticated than the Medellin group and eventually became deeply 
involved in all aspects of the cocaine trade, including production, 
transportation, wholesale distribution and money laundering. Whereas 
the Medellin traffickers seemed to revel in the terror and violence 
that became their trademark--and ultimately contributed to their 
downfall--the Cali traffickers attempted to avoid indiscriminate 
violence and sought to build their image as legitimate businessmen. The 
Cali leaders--the Rodriguez-Orejuela brothers, Jose Santacruz Londono, 
and Helmer ``Pacho'' Herrera-Buitrago--amassed fortunes and ran their 
multi-billion dollar cocaine businesses from high-rises and ranches in 
Colombia. Miguel Rodriguez-Orejuela and his associates comprised what 
was, until then, the most powerful international organized crime group 
in history.
    During 1995 and 1996, intense law enforcement pressure was focused 
on the Cali leadership by the brave men and women of the Colombian 
National Police. As a result, all of the top trafficking leaders from 
Cali were either in jail or killed. During that time frame, U.S. law 
enforcement agencies were effectively attacking Colombian cells 
operating within the United States. With the Cali leaders' imprisonment 
in Colombia and the successful attacks by law enforcement on their U.S. 
cells, traffickers from Mexico took on greater prominence. A growing 
alliance between the Colombian traffickers and the organizations from 
Mexico worked to benefit both sides.
    Traffickers from Mexico had long been involved in smuggling 
marijuana, heroin, and cocaine across the United States/Mexico border, 
using entrenched distribution routes to deliver drugs throughout the 
United States. The emergence of the Mexico-based organizations as major 
methamphetamine producers and traffickers also contributed to making 
them a major force in international drug trafficking. The Mexican 
traffickers, who were previously paid in cash by the Colombian 
traffickers for their services, began to routinely receive up to one-
half of a shipment of cocaine as their payment. This led to Mexican 
traffickers having access to multi-ton quantities of cocaine and 
allowed them to expand their markets and influence in the United 
States, thereby making them formidable cocaine traffickers in their own 
right.
    The United States/Mexico border is now the primary point of entry 
for cocaine shipments being smuggled into the United States. According 
to a recent assessment, more than half of the cocaine smuggled into the 
United States crosses the Southwest Border. Today, traffickers 
operating from Colombia continue to control wholesale level cocaine 
distribution throughout the heavily populated northeastern United 
States and along the eastern seaboard in cities such as Boston, Miami, 
Newark, New York City, and Philadelphia. Traffickers operating from 
Mexico, however, control wholesale cocaine distribution throughout the 
western and Midwestern United States. The distribution of multi-ton 
quantities of cocaine once dominated by the Colombia-based drug groups 
is now controlled by Mexico-based trafficking groups in cities such as 
Chicago, Dallas, Denver, Houston, Los Angeles, Phoenix, San Diego, San 
Francisco, and Seattle.
    Members of international crime groups today pose a much greater 
threat than did their Medellin and Cali predecessors. They have at 
their disposal the most sophisticated communications technology, 
including faxes, the Internet, and cell phones. Additionally, they have 
in their arsenal radar-equipped aircraft, weapons and an army of 
workers who oversee the drug business from its raw beginnings in South 
American jungles to the urban areas and core city locations within the 
United States. All of this modern technology and these vast resources 
enable the leaders of international criminal groups to build 
organizations which, together with their surrogates operating within 
the United States, reach into the heartland of America. The leaders of 
these crime groups work through their organizations to transport drugs 
into the United States, and franchise others to distribute drugs, 
thereby allowing them to remain beyond the reach of American justice. 
Those involved in drug trafficking often generate such tremendous 
profits that they are able to corrupt law enforcement, military and 
political officials in order to create a safe haven for themselves.
    Successes against the Medellin and Cali drug lords accelerated the 
decentralization of the international cocaine trade. In this new 
century, we are seeing ``second generation'' traffickers emerge as 
major players in the Colombian cocaine trade. They tend to be less 
willing to directly challenge government authority and are much more 
sophisticated in their methods of operation. They extensively use 
wireless communication devices, which they change with great frequency. 
Other emerging characteristics are the use of computerized 
communications, elaborate concealment of clandestine cargo, and 
avoidance of direct involvement in retail distribution or even direct 
distribution to the U.S. market. The successful identification, 
investigation, and prosecution of these violators has become an even 
greater challenge to law enforcement both in the United States and 
Colombia.
                       the response: today's dea
    DEA is continuing to identify and build cases against the leaders 
of the new criminal groups from Colombia. As the criminals have become 
more sophisticated, we have built what is in many ways a new DEA, far 
more sophisticated than that which was created in the 1970s.
    As an organization, DEA has grown and changed tremendously over the 
years. From 1,446 agents and 1,422 support personnel in 1973, we have 
grown to 3,772 agents and 4,340 support staff at the end of 2000. From 
our first budget of $74 million in 1973, DEA's budget authority has 
grown to $1.44 billion for the current year.
    Domestically, we now operate through 21 Field Divisions, in 
addition to the Special Operations Division at DEA Headquarters, with 
offices in every State. Also within the United States, we work through 
the Organized Crime Drug Enforcement Task Forces (OCDETF) program. This 
program was initiated in 1982 to combine federal, state, and local law 
enforcement efforts into a comprehensive attack against organized crime 
and drug traffickers. DEA continues to be the leading initiator of 
OCDETF cases.
    Overseas, the DEA now maintains 78 offices in 57 countries. These 
offices support DEA domestic investigations through foreign liaison, 
training of host country officials, bilateral investigations, and 
intelligence gathering. Through the International Visitor Program, DEA 
provides foreign officials and U.S. diplomats with briefs on drug 
trafficking trends and national and international counter narcotics 
activities.
    Electronic surveillance is critical to our success in combating the 
drug problem in the United States. In fact, the vast majority of court 
authorized electronic surveillance actions are directly tied to 
enforcement of the controlled substances laws and regulations of the 
United States. Without this essential tool, we in drug law enforcement 
would be unable to prevent, investigate, and solve many of the crimes 
associated with the growing, manufacture, or distribution of illegal 
drugs. In order to meet the challenges presented by these sophisticated 
drug trafficking organizations, it is necessary for us to attack the 
command and control mechanisms of these organizations. Our center for 
targeting command and control is the Special Operations Division (SOD), 
a combined DEA, U.S. Customs, FBI, IRS/Criminal Investigations, and 
DOJ/Criminal Division effort that supports ongoing investigations by 
producing detailed and comprehensive analyses of data revealing the 
activities and organizational structures of major drug trafficking and 
drug-related money laundering organizations and identifying 
relationships among traffickers and their related enterprises.
    Today's international drug trafficking organizations are the 
wealthiest, most powerful, and most ruthless organized crime entities 
we have ever faced. We know from our investigations that they utilize 
their virtually unlimited wealth to purchase the most sophisticated 
electronic equipment available on the market to facilitate their 
illegal activities. The Special Operations Division has enabled us to 
build cases against the leaders of these powerful organizations by 
targeting their command and control communications with multi-
jurisdictional criminal investigations based on state-of-the-art, court 
approved Title III electronic interceptions. We rely on the information 
and evidence gathered from these Title III interceptions of their 
communications to build a picture of the organizations, identify the 
individual members, and obtain evidence enabling us to make arrests and 
take apart whole sections of the criminal organizations at a time. The 
capability provided by SOD is at the core of our ability to make cases 
against the leadership and U.S.-based infrastructure of these powerful 
organizations that control the drug trade in our hemisphere.
    Our State & Local Task Force program carries out one of the DEA's 
priority initiatives: addressing the problem of drug-related violent 
crime with our state and local counterparts. There are currently 1,134 
Special Agent positions dedicated to this enforcement effort working 
alongside 1,868 State or local police officers in 203 Task Forces. Of 
this number, 45 task forces are funded through the HIDTA program.
    DEA's Mobile Enforcement Teams (METs) were conceived in 1995 in 
response to the overwhelming problem of drug-related violent crime in 
towns and cities across the nation. MET teams assist local law 
enforcement officers in identifying major drug traffickers and 
organizations that commit homicide and other violent crimes, 
collecting, analyzing, and sharing intelligence, arresting drug 
traffickers and assisting in the arrests of violent offenders and 
gangs, seizing assets, and assisting prosecutors. METs have completed 
294 deployments so far, with 18 more currently under way. There are 262 
DEA Special Agents assigned to the MET Program nationwide, comprising 
24 teams.
    The High Intensity Drug Trafficking Areas (HIDTA) program was 
authorized by the Anti-Drug Abuse Act of 1988 and is administered by 
the Office of National Drug Control Policy. Its mission is to reduce 
drug trafficking throughout the country by coordinating federal, state, 
and local law enforcement efforts.
    To ensure that criminals do not benefit financially from their 
illegal acts, federal law provides that profits from drug-related 
crimes may be legally seized. Asset forfeiture is an effective weapon 
because it removes the profit from illegal activities thereby 
financially disabling the drug-trafficking organizations. Property is 
seized by the DEA only when it is determined to be a tool for, or the 
proceeds of, illegal activities such as drug trafficking, organized 
crime, or money laundering. The DEA has also launched major operations 
specifically targeting the money-laundering capabilities of major 
trafficking organizations.
    DEA is also in the forefront of the forensic science industry. 
DEA's eight Regional laboratories make up the largest accredited 
federal lab system in the United States. They provide the best 
available forensic drug analysis to the law enforcement community. 
These Labs each serve a region of the country. The Northeast Laboratory 
is located in New York City, the North Central Laboratory in Chicago, 
the Southeast Laboratory in Miami, the South Central Laboratory in 
Dallas, the Southwest Laboratory in National City (CA), the Western 
Laboratory in San Francisco, and the Mid-Atlantic Lab in Washington, 
D.C. In addition, the Special Testing Laboratory is in the Washington, 
D.C. suburbs.
    The DEA's Computer Forensics Program (CFP) is the application of 
computer technology and specialized seizure and evidence handling 
techniques to retrieve information from computer systems for 
investigative or intelligence purposes. Like many other business 
people, drug traffickers rely on computers and electronic pocket 
organizers to store information. Modern law enforcement routinely 
encounters and seizes home computers, laptops, computer networks, 
pocket organizers, and magnetic media in every conceivable size and 
format. These items, when seized, are forwarded to the CFP for 
duplication and extraction of information in such a way as to preserve 
the integrity of the evidence in a court-admissible manner. The 
Computer Forensics Program was established in October 1994, and has 
processed hundreds of computer items and pieces of electronic equipment 
each year since then. Over the last five years, the number of cases and 
computer seizures have increased by approximately 30 percent each year.
    Most of the drugs in the illicit traffic are products of illicit 
processing or synthesis. Prior to 1988, there were virtually no legal 
impediments to obtaining the chemicals necessary to manufacture drugs 
of abuse, no records required to be maintained for inspection, and no 
penalties for negligence or willful diversion. However, the Chemical 
Diversion and Trafficking Act of 1988 extended the concept of commodity 
control to those chemicals most often used for the manufacture and 
synthesis of drugs of abuse. With the support of the State Department, 
the DEA pursued the same goal for incorporation into the U.N. 
Convention Against Illicit Drug Traffic of 1988 (the Vienna 
Convention). On these legal bases, DEA has established controls over a 
list of critical chemicals commonly diverted for the production of the 
major drugs of abuse.
                          major investigations
    Using the law enforcement tools available to today's DEA, as 
outlined above, in the past several years we have participated in a 
number of very significant investigations. These actions demonstrate 
not only the new sophistication of drug trafficking organizations at 
the beginning of the Twenty-First Century, but also the significance of 
the law enforcement response.
    We continue to carry out cutting-edge, sophisticated 
investigations, which successfully targeted major traffickers who had 
previously operated without fear of capture or prosecution in the 
United States, believing that only their low-level operatives were at 
risk. These operations underscore the importance of cooperation among 
international drug law enforcement agencies. Such operations benefit 
from the closest possible cooperation between the DEA and our foreign 
counterparts. These investigations will continue to lead to the 
dismantling of major portions of the most significant drug trafficking 
organizations operating today. Allow me to review just a few of DEA's 
recent successes.
    Operation Millennium, brought to a successful conclusion in 1999, 
effectively demonstrated that even the highest level traffickers based 
in foreign countries could not manage drug operations inside the United 
States with impunity. Operation Millennium was made possible by direct 
support from the governments of Colombia and Mexico. Operation 
Millennium effectively targeted major cocaine suppliers who had been 
responsible for shipping vast quantities of cocaine from Colombia 
through Mexico into the United States. Operation Millennium 
specifically targeted drug kingpin Alejandro Bernal-Madrigal, who, by 
his own admission, had been smuggling 30 tons, or 500 million dosage 
units, of cocaine into the United States every month.
    Operation Mountain Express was a joint operation between DEA's 
Special Operations Division and the Office of Diversion Control. 
Mountain Express targeted traffickers of the methamphetamine precursor, 
pseudoephedrine. Existing regulations make it possible for California-
based Mexican criminal organizations to purchase multi-ton quantities 
of pseudoephedrine for use in methamphetamine production. Since January 
2000, SOD coordinated a number of multi-jurisdictional investigations 
targeting pseudoephedrine traffickers, many of whom were of Middle 
Eastern origin, using 11 wiretaps during the course of the 
investigations.
    Operation Tar Pit was a DEA led multi-jurisdictional investigation 
targeting a Mexican heroin transportation and trafficking organization 
based in Tepic, Nayarit, Mexico. Primarily, this organization imported 
multi-kilogram quantities of black tar heroin from Mexico into the 
United States. During the course of the operation, more than 30 Federal 
Title III investigations were conducted. In June 2000, a nationwide 
takedown occurred against Operation Tar Pit targets, which included the 
principal Mexican command and control members in Mexico, U.S. based 
cell heads, workers for each cell, couriers, and customers.
    In November 2000, the DEA, FBI, U.S. Customs Service, and Federal 
prosecutors culminated an 18-month investigation targeting a multi-
ethnic, transnational MDMA (Ecstasy) and cocaine distribution 
organization, following-up on enforcement action by Dutch police in the 
Netherlands. The investigation, known as Operation RED TIDE, was a 
textbook example of the new multi-agency, multi-national law 
enforcement cooperation needed to thwart organized crime in the 21st 
Century. As a result of this cooperative effort, Customs agents seized 
1,096 pounds (2.1 million tablets) of MDMA, the largest single seizure 
of the drug in history. The head of the organization, Tamer Adel 
Ibrahim fled the United States after the seizure, but was quickly 
traced to Mexico and then to Europe by the multi-agency team. Ibrahim, 
along with others, was arrested and the Dutch National Police seized 
1.2 million tablets of MDMA.
    Operations like RED TIDE exemplify the unprecedented level of 
international law enforcement cooperation in effect today. The 
investigation targeting a transnational MDMA and cocaine trafficking 
syndicate was a cooperative effort by the U.S. law enforcement 
agencies, as well as the Dutch National Police/Regional Team South, 
Mexico's Fiscalia Especializad Para La Atencion De Delitos (FEADS), the 
Israeli National Police, the German Federal Police (Bundes Kriminal 
Amt), the Cologne Germany Police Department, the Duissburg Germany 
Police Department, the Italian National Police and the French National 
Police.
    This investigation is extremely important because MDMA (Ecstasy) is 
a new threat with the potential to cause great damage, especially to 
America's youth. Operation Red Tide has ensured that a large volume of 
Ecstasy that would have made it into the hands of our youth never hit 
the streets, and sent a strong message to the traffickers that the DEA 
is leading a truly global response to the drug threat.
    Last December, the DEA, together with U.S. Customs and the FBI, 
completed Operation Impunity II, resulting in 141 arrests and the 
seizure of 5,266 kilograms of cocaine, 9,325 pounds of marijuana, and 
approximately $9,663,265 in U.S. currency and assets. Impunity II 
follows earlier successes dating back to 1996 in Operation Limelight 
and Operation Impunity I and was the result of the outstanding 
coordination between federal, state, and local law enforcement 
officials and prosecutors across the country.
    Operation Impunity II was a multi-agency law enforcement effort 
that targeted a wide-ranging conspiracy to smuggle thousands of pounds 
of cocaine and marijuana from Mexico, across the southwest border into 
Texas, for distribution throughout the United States. Impunity II 
targeted an organization that placed managers in the United States and 
retained the organizational command and control elements in Mexico. In 
addition to remnants from the Carrillo-Fuentes organization, agents 
learned that some members of the Mexican Gulf Cartel had also become 
associated with the organization, including Osiel Cardenas-Guillen, 
allegedly a former Gulf Cartel lieutenant. In addition to the domestic 
enforcement activity in this country, the United States Government 
presented provisional arrest warrants for extradition for eight Mexican 
nationals in Mexico and one Dominican national in the Dominican 
Republic.
    In January of this year, Operation White Horse targeted a large 
scale heroin trafficking organization, directed by Wilson SALAZAR-
Maldonado, which was responsible for sending multi-kilogram quantities 
of heroin from Colombia to the Northeastern United States via Aruba. 
The investigation was conducted jointly by the Colombian National 
Police, DEA Bogota, Curacao, Philadelphia and New York, and the Special 
Operations Division. This investigation resulted in 96 arrests, as well 
as the seizure of multi-kilograms quantities of heroin and cocaine, 
weapons and U.S. currency.
          current drug trafficking threat to the united states
    Drug law enforcement agencies face an enormous challenge in 
protecting American communities from drug traffickers who smuggle in 
cocaine, heroin, methamphetamine, and marijuana for distribution in 
U.S. neighborhoods as well as from domestic suppliers of these drugs.
Cocaine Trends
    The primary U.S. drug threat is cocaine, particularly in its 
smokable form known as ``crack'' cocaine. The trafficking, 
distribution, and abuse of cocaine and crack cocaine over the past 
decade, along with increasing drug-related violence, seriously 
debilitate the quality of life in many cities and towns across the 
country. Most of this nation's drug law enforcement assets are directed 
against cocaine traffickers.
    Crack, the inexpensive, smokable form of cocaine, continues to be 
distributed and used in most major cities. While cocaine use in the 
United States has declined over the past decade, the rate of use in 
recent years has stabilized at high levels. Crack cocaine usage, which 
drove these rates, has reached the saturation point in large urban 
areas throughout the country. Street gangs, such as the Crips and the 
Bloods, and groups of ethnic Dominicans, Puerto Ricans, and Jamaicans 
dominate the retail market for crack cocaine nationwide.
Heroin Trends
    Heroin is readily available in many U.S. cities as evidenced by the 
unprecedented level of average retail, or street-level, purity. The 
increased availability of high-purity heroin, which can effectively be 
snorted, has given rise to a new, younger user population. While 
avoiding the stigma and additional health hazards of needle use, this 
user group is ingesting larger quantities of the drug and, according to 
drug treatment specialists, progressing more quickly toward addiction.
            South American Heroin
    The availability of South American (SA) heroin, produced in 
Colombia, has increased dramatically in the United States since 1993. 
South American heroin is available in the major metropolitan areas of 
the Northeast and along the East Coast. Investigations also indicate 
the spread of South American heroin to smaller U.S. cities as well. 
Within the United States, ethnic Dominican criminal groups have played 
a significant role in retail-level heroin distribution in northeastern 
markets for at least the past two decades. Currently, Dominican groups 
dominate retail heroin markets in northeastern cities such as New York, 
Boston, and Philadelphia.
            Mexican Heroin
    Mexican heroin has been a threat to the United States for decades. 
It is produced, smuggled, and distributed by polydrug trafficking 
groups, many of which have been in operation for more than 20 years. 
Nearly all of the heroin produced in Mexico is destined for 
distribution in the United States. Organized crime groups operating 
from Mexico produce, smuggle, and distribute the black tar heroin sold 
in the western United States. Once the heroin reaches the United 
States, traffickers rely upon well-entrenched polydrug smuggling and 
distribution networks to deliver their product to the market, primarily 
in the metropolitan areas of the Midwestern, southwestern, and western 
United States with sizable Mexican immigrant populations.
            Southeast Asian Heroin
    High-purity Southeast Asian (SEA) heroin dominated the market in 
the United States during the late 1980s and early 1990s. Over the past 
few years, however, all indicators point to a decrease in SEA heroin 
available domestically. Despite the recent decline in trafficking of 
SEA heroin, Chinese criminal groups based in Asia remain the most 
sophisticated heroin trafficking organizations in the world.
            Southwest Asian Heroin
    While a large portion of Southwest Asian (SWA) heroin is consumed 
in Western Europe, Pakistan, and Iran, traffickers operating from 
Middle Eastern locales smuggle SWA heroin to ethnic enclaves in the 
United States. Criminal groups composed of ethnic Lebanese, Pakistanis, 
Turks, and Afghans are all involved in supplying the drug to U.S.-based 
groups for retail distribution. West African traffickers, who primarily 
smuggled SEA heroin to the United States in the 1990s, now also deal in 
SWA heroin.
Methamphetamine Trends
    Domestic methamphetamine production, trafficking, and abuse are 
concentrated in the western United States. Methamphetamine is also 
increasingly available in portions of the South. Clandestine 
laboratories in California and Mexico are the primary sources of supply 
for methamphetamine available in the United States.
    Over the last decade, the methamphetamine trafficking and abuse 
situation in the United States changed dramatically. In 1994, ethnic 
Mexican drug trafficking organizations operating ``super labs'' (labs 
capable of producing in excess of ten pounds of methamphetamine in one 
24-hour production cycle) based in Mexico and California began to take 
control of the production and distribution of methamphetamine 
domestically. The entry of ethnic Mexican traffickers into the 
methamphetamine trade in the mid-1990s resulted in a significant 
increase in the supply of the drug.
    The primary points of entry into the United States for 
methamphetamine produced in Mexico have traditionally been California 
ports of entry, particularly San Ysidro. Although a great amount of 
methamphetamine still transits this area, ports-of-entry in south Texas 
are experiencing significant increases in smuggling activity.
    The vast majority of methamphetamine precursor chemicals diverted 
to clandestine laboratories in the United States are dosage-form 
pseudoephedrine or ephedrine drug products. They are usually purchased 
from U.S. manufacturers and distributors who sell case quantities of 
the tablets. The finished methamphetamine is then distributed 
throughout the United States through preexisting smuggling methods to 
the traffickers.
Marijuana Trends
    Marijuana is the most widely abused and readily available illicit 
drug in the United States with an estimated 11.5 million current users. 
At least one-third of the U.S. population has used marijuana sometime 
in their lives. The drug is considered a ``gateway'' to the world of 
illicit drug abuse.
    Marijuana smuggled into the United States, whether grown in Mexico 
or transshipped from other Latin American source areas, accounts for 
most of the marijuana available in the United States. Marijuana 
produced in Mexico remains the most widely available. Moreover, high-
potency marijuana enters the U.S. drug market from Canada. The 
availability of marijuana from the Far East, primarily Thailand, 
generally is limited to the West Coast. U.S. drug law enforcement 
reporting also suggests increased availability of domestically grown 
marijuana.
MDMA Trends
    Commonly referred to as Ecstasy, XTC, Clarity or Essence, the 
chemical substance known as 3, 4-methylenedioxymethamphetamine (MDMA) 
is a synthetic psychoactive drug possessing stimulant and mild 
hallucinogenic properties. In the early 1990s, MDMA became increasingly 
popular among European youth. However, it is within the last five years 
that MDMA use in the United States has increased at an alarming rate.
    Although the vast majority of MDMA consumed domestically is 
produced in Europe, a limited number of MDMA laboratories operate in 
the United States. Law enforcement seized seven clandestine MDMA 
laboratories in the United States in 2000 compared to 19 seized in 
1999. It should be noted that these labs were primarily capable of 
limited drug production. While ``recipes'' for the clandestine 
production of MDMA can be found on the Internet, acquiring the 
necessary precursor chemicals in the United States is difficult.
    MDMA is manufactured clandestinely in Western Europe, particularly 
in the Netherlands and Belgium. Much of the MDMA is manufactured in the 
southeast section of the Netherlands near Maastricht. International 
MDMA traffickers based in the Netherlands and Belgium consistently use 
other European countries, such as France, England, Germany, and Spain 
as transshipment points for MDMA shipments destined for the United 
States. Russian, Israeli and European criminal organizations, the 
principal traffickers of MDMA worldwide, supply the United States with 
the drug.
                             drug diversion
    The purpose of DEA's Drug Diversion Control Program is to prevent, 
detect, and investigate the diversion of controlled substances from 
legitimate channels. The goal is to ensure that these ``controlled 
substances'' are readily available for medical use, while preventing 
their distribution for illicit sale and abuse.
OxyContin<Register>
    OxyContin<Register> is a Schedule II controlled release form of the 
narcotic oxycodone. It is legitimately used as a medication to treat 
moderate to severe pain and is becoming the drug of choice in many pain 
management clinics. In a little over four years, sales have reached $1 
billion.
    The pharmacological effects of OxyContin<Register> make it 
attractive to abusers as it offers reliable strength and dosage levels 
and may, in some instances, be covered by the abuser's health 
insurance. Abusers have discovered that the controlled release formula 
of OxyContin<Register> can be easily compromised by inhalation or 
injection resulting in a powerful, morphine-like high.
    Reports of the diversion and abuse of OxyContin<Register> are 
currently concentrated in rural areas of the eastern United States; 
however, DEA's Office of Diversion Control has identified this activity 
as a growing problem throughout the nation. This is consistent with the 
increase in emergency room episodes involving oxycodone. The estimated 
number of episodes involving oxycodone were stable from 1990 through 
1996. However, the number of emergency room episodes doubled from 1996 
to 1999: 3,190 episodes in 1996 to 6,429 in 1999.
    In order to combat the serious and growing problems stemming from 
the diversion and abuse of OxyContin<Register>, DEA has developed and 
initiated its first national action plan for a prescription medication. 
The elements of this plan are: coordinating enforcement and 
intelligence operations, to include interagency efforts; utilizing 
regulatory and administrative authorities, including the support of 
other regulatory agencies; seeking industry cooperation; and 
implementing aggressive education and outreach efforts.
                      impact on the united states
    None of the major drug traffickers headquartered overseas could 
operate without the assistance of national and regional drug 
trafficking organizations which are responsible for trafficking huge 
quantities of drugs into U.S. communities. These organizations are 
comprised of a network of operatives who transport, store and 
distribute drugs and collect and repatriate drug proceeds throughout 
the United States and whose activities are directed by drug lords based 
in foreign countries. In many cases, national and regional drug 
trafficking organizations are comprised of numerous cells whose 
directors are responsible for specific tasks such as communications, 
financial matters and/or logistics. These cell heads are sent to the 
United States for a period of time to carry out the business mandates 
of the top drug lords and are given specific tasks to accomplish. The 
national and regional drug syndicates have infiltrated many states and 
communities, bringing with them the crime and violence once limited to 
major urban areas. A survey of recent DEA investigations revealed that 
over 400 investigations stemming from Operations Reciprocity and 
Limelight involved drug traffickers from foreign countries who had set 
up operations in various cities across the United States.
    Local violent drug trafficking organizations also operate across 
the United States and are responsible for eroding the quality of life 
in many American communities. Previously centered in major urban areas, 
violent drug trafficking groups are now part of the landscape in 
smaller cities and rural areas. Fueled in large part by methamphetamine 
production and trafficking, violent drug trafficking organizations are 
now affecting the crime rates in smaller cities such as Spokane, 
Washington and Cedar Rapids, Iowa. While these local, violent groups 
appear to be unrelated to the large international drug trafficking 
organizations headquartered overseas, it is important to note that all 
of the cocaine and heroin that is trafficked by these groups is 
produced overseas and transported to the United States for eventual 
distribution on the local level.
                            demand reduction
    The number one goal of the National Drug Strategy is to educate and 
enable America's youth to reject illegal drugs as well as alcohol and 
tobacco. DEA believes that there is a role for everyone to play in this 
goal, including law enforcement. Law enforcement may not take the lead 
in demand reduction efforts, but it has a unique perspective and wealth 
of experience to bring to the prevention arena. DEA special agents have 
seen first hand the terrible impact of drug abuse in communities, and 
speak with a compelling authority in explaining to citizens why this 
problem needs to be conquered. They also have great expertise in 
planning, organizing and implementing proactive efforts to deal with 
drug abuse.
    As an example of DEA's contribution to drug prevention, Demand 
Reduction Coordinators (DRC's) have been instrumental in working with 
media to place public service announcements from the Partnership for a 
Drug-Free America in support of the President's Youth Media Campaign. 
Demand Reduction Coordinators worked collaboratively with state and 
local authorities to produce an educational video (several thousand 
distributed to date) for adults and adolescents in the Midwest to 
educate them about the dangers of methamphetamine. In New York and 
Washington, D.C., Demand Reduction Coordinators developed an ad 
campaign geared to engaging youth that is being posted on busses, 
subway trains, and taxis. And the Demand Reduction Section has 
participated in satellite video conferences that were broadcast all 
over the United States.
    Additionally the Demand Reduction Section, the Bureau of Justice 
Assistance, and the National Crime Prevention Council have conducted 
seminars for teams of community leaders from cities and towns that 
received MET deployments. The objective is to educate community leaders 
to start programs that prevent the return of the drug trafficking and 
violent crime that plagued their neighborhoods. CPD hosted a group of 
national experts in drug and crime prevention to review the proposed 
curriculum for this training.
    The DEA web page is yet another way of reaching a large segment of 
the public with demand reduction information both for young people and 
their parents. But not everyone has access to computers, or is 
computer-literate. Therefore, DEA also reaches the public through 
publications and direct contact such as seminars, conferences and 
meetings with youth, parents, employers, employees, businesses, 
community and civic groups, teachers, coaches, clergy, prisoners, as 
well as law enforcement personnel.
    The driving force behind DEA's demand reduction program has always 
been the particular credibility that law enforcement, and especially 
federal law enforcement officers bring to the drug prevention arena. 
DEA agents possess a certain authority because of their background and 
job experiences, which play an important role in the overall drug 
demand reduction picture. This is why DEA's current demand reduction 
program has been so successful.
                          dea's strategic plan
    In order to meet the enormous challenges posed by internationally-
based narcotics traffickers and their surrogates within the United 
States, DEA has developed a five-year Strategic Plan which is a key 
part of our commitment to establish and maintain a clear focus on the 
outcome of our efforts. In its unique capacity as the world's leading 
drug enforcement agency, DEA carries out its legal mandate for 
enforcing provisions of the controlled substances and chemical 
diversion, trafficking laws and regulations, and serves as the single 
point of contact for the coordination of all international drug 
investigations.
    To ensure mission success, DEA attacks all levels of drug 
trafficking using both traditional and innovative drug control 
approaches, focusing its enforcement operations on the full continuum 
of drug trafficking. This overall strategic approach is based on the 
recognition that the major drug traffickers, operating both 
internationally and domestically, have insulated themselves from the 
drug distribution networks but remain closely linked to the proceeds of 
their trade. Consequently, the identification and forfeiture of 
illicitly derived assets is a powerful tool in successfully destroying 
the economic base of the drug trafficking organization, as well as a 
means of proving a connection between violators and a criminal drug 
conspiracy at the time of prosecution.
    In view of this assessment, DEA's investigative efforts are 
directed against the major international drug trafficking organizations 
and their facilitators at every juncture in their operations--from the 
cultivation and production of drugs in foreign countries, to their 
passage through the transit zone, and eventual distribution on the 
streets of America's communities. DEA's Strategic Plan takes into 
account the current drug trafficking situation affecting the United 
States, and works to identify the characteristics and exploit the 
vulnerabilities of all three levels of the drug trade. By focusing 
directly on the agency's investigative priority targeting system, DEA 
responds to each of the following levels simultaneously:
    International Targets.--DEA will eliminate the power and control of 
the major drug trafficking organizations and dismantle their 
infrastructure by disrupting and dismantling the operations of their 
supporting organizations that provide raw materials and chemicals, 
produce and transship illicit drugs, launder money worldwide, and halt 
the operations of their surrogates in the United States.
    National/Regional Targets.--DEA will continue an aggressive and 
balanced enforcement program with a multi-jurisdictional approach 
designed to help focus Federal and interagency resources on illegal 
drug traffickers, their organizations and key members who have control 
of an area within a region of the United States, and the drugs and 
assets involved in their activities.
    Local Initiatives.--DEA will continue to assist States and 
localities in attacking the violence that plagues our cities, rural 
areas, and small towns to protect our citizens from the impact of 
drugs, and help restore a positive quality of life. DEA considers this 
an important part of its overall strategy to complement the state and 
local efforts with specialized programs that bring DEA's intelligence, 
expertise, and leadership into specific trouble spots throughout the 
nation.
    In each of the aforementioned forums, DEA seeks to identify, 
target, investigate, disrupt, and dismantle the international, 
national, state, and local drug trafficking organizations that are 
having the most significant impact on America. DEA's strategic goals 
reflect the agency's efforts to use its unique skills and limited 
resources in a manner designed to achieve maximum impact. This requires 
maintaining a clear focus on Deals core competency--the destruction and 
dismantlement of drug trafficking organizations. The implementation of 
DEA's strategic plan is carried out with the ``holistic'' approach, 
which I mentioned at the beginning of my statement. This approach 
addresses the problems posed by illicit drug availability and abuse and 
provides for a comprehensive approach of interdiction and enforcement, 
coupled with education, prevention and treatment.
    Mr. Chairman, that concludes my prepared remarks. I will be happy 
to take any questions you may have for me at this time.

        <greek-l>[ins] deg.more Immigrants entering the country

    Senator Gregg. Thank you very much, and we will include 
your written statements in the record.
    Commissioner, you mentioned that in the last decade we had 
more immigrants coming into the country than in any period in 
the country's history?
    Mr. Rooney. Yes. It was rather surprising to me, but in the 
last decade more than in any other decade, including the 
beginning of the last century, the first 10 years, which is 
rather staggering.
    Senator Gregg. Are you referring to legal and illegal, or 
are you just talking about legal immigrants?
    Mr. Rooney. Legal.
    Senator Gregg. Legal immigrants. And what percent----
    Mr. Rooney. I am talking about applications that come in, 
yes.
    Senator Gregg. Applications?
    Mr. Rooney. Right. The processing of applications for 
benefits.
    Senator Gregg. All right. And what percentage of those 
folks become citizens?
    Mr. Rooney. I do not know that off hand.
    Senator Gregg. Now, you said you had an 80 percent increase 
in applications last year and 50 percent over last year this 
year?
    Mr. Rooney. Yes. The applications this year, in 2000, were 
50 percent more than the previous year and 80 percent more than 
the year before that.
    Senator Gregg. And what percentage of those applications do 
you approve?
    Mr. Rooney. Well, looking at two different types of 
applications.
    We take the naturalization applications, for example, Mr. 
Chairman, in fiscal year 2000, we completed 1.3 million of 
those and reduced the backlog down to 800,000. The backlog 
previously had been 1.8 million. So we are on our way to 
getting that backlog eliminated, which is part of the 
President's 52-year plan to do that.

               <greek-l>[ins] deg.Guest worker proposals

    Senator Gregg. Right. Have you taken a look at all of the 
guest worker proposals that have been floating around? The 
President talked, I guess, to President Vicente Fox about it, 
and it has been mentioned a number of times by Senator Gramm.
    Mr. Rooney. Yes, Mr. Chairman. In fact, I had the 
opportunity in my first week at INS, about 5 or 6 weeks ago, to 
participate in the first round of those talks with the Mexican 
Government.
    The President put the Attorney General and Secretary Powell 
as the head of the talks, and a staff group from the State 
Department and Justice and INS--INS is part of Justice--
participated in those. And there have been several proposals 
that have come forward in the last week.
    The guest worker program, employment opportunities, is 
clearly a priority of the Mexican Government in those talks. 
And at the moment, we have looked at Senator Gramm's guest 
worker proposals, and we have looked at some of the other 
proposals that previously had been introduced in the Congress, 
and they vary. But we are working closely with the other 
agencies.
    Senator Gregg. Well, as a general statement, what do you 
think the effect of a guest worker program would be on illegal 
immigration coming over the Mexico border?
    Mr. Rooney. The past problems with the types of programs 
that we have had, going back to the Bracero program several 
years ago, is that the people come into work and then they 
stay. Now, of course, the argument can be made, ``Well, people 
are coming in to work illegally and staying.'' But in general, 
the programs differ in many different ways.
    The Mexican Government is particularly interested in the 
opportunity for people to come in in a circularity concept; 
people coming in, working, and going home.
    One of the proposals would be opened only to agriculture 
workers. Other proposals would be opened to a broader range of 
workers.
    Some would offer the opportunities to apply ultimately for 
adjustment of status for permanent residency or citizenship. 
Other proposals would not.
    But if we can keep track--and this is a major part and a 
burden that falls upon INS, of improving the data systems so 
that we can monitor income and outgo of the people who would be 
part of these programs--it would certainly go a long way toward 
making it less likely that illegals would come in and stay.

                   <greek-l>[ins] deg.Detention space

    Senator Gregg. Now, you said you had 1,600 new beds under 
this proposal. How many new beds do you actually need?
    Mr. Rooney. I do not know if I could give you a direct 
response. The 1,600 bed request, which was made and is being 
made here before the Congress, is consistent with the 
projections. So we have about 19-some odd now, 19,000, and 
1,600 would put us just over----
    Senator Gregg. So if we funded that, you would have 
adequate detention capability so that you would not have to be, 
as you say, going through a training exercise anymore.
    Mr. Rooney. We believe so. Now, we also are very interested 
and hopefully the agency will be aggressive about looking at 
some alternatives to detention and exploring in more depth some 
of the programs that we have already experienced in the past 
where there has been success, so that we can free up some of 
those beds.

              <greek-l>[ins] deg.Border Patrol facilities

    Senator Gregg. The border facilities, which the Border 
Patrol use, are in pretty tough shape. In fact, my staff tells 
me that 63 of the 85 outposts on the Southwest border are 
overcrowded. Is that accurate?
    Mr. Rooney. Yes, that is, Mr. Chairman. I think we have 
about 70 facilities that are at double the capacity for the 
number of agents.
    Senator Gregg. And under the budget that you have sent up, 
what is the workout time to get those facilities into a 
percentage that is reasonable?
    Mr. Rooney. The budget here does not focus much on 
increases for that purpose. We have some projects going on, and 
the focus, though, here has been to get more agents.
    Senator Gregg. Where are you going to put them?
    Mr. Rooney. We are going to increase the population of each 
of those Border Patrol stations.
    Senator Gregg. Now, do you have--I presume you have sent it 
to us--but do you have the facilities' workout sheet that would 
tell us what we would need to spend in order to bring these----
    Mr. Rooney. Yes. I do not have it handy, but we certainly 
can get it to the subcommittee. We have a long-range plan for 
all of our facilities, vehicles, fences, et cetera, 
helicopters, replacement plans, but unfortunately the funding 
has simply not been available.
    Senator Gregg. Okay. I have some questions for you too, 
Administrator Marshall, but I wanted to let Senator Murray go.
    [The information follows:]

      <greek-l>[ins] deg.Facilities Construction Funding Requests

    While Congress has consistently provided Immigration and 
Naturalization Service (INS) facilities construction funding, 
including $133 million in fiscal year 2001, and $128 million 
included in the fiscal year 2002 President's budget, Border 
Patrol facilities funding has not kept pace with the growth in 
new agents. INS has a facilities shortfall that it is 
addressing through a long-range plan. However, the backlog in 
facilities will require a number of years to overcome.

             <greek-l>[ins] deg.Long-Range Facilities Plans

    The long-range facilities plans workout sheets for the 
Immigration and Naturalization Service were delivered to the 
Subcommittee in July 2001.

                   <greek-l>[ins] deg.Northern border

    Senator Murray. Thanks very much, Mr. Chairman.
    Mr. Rooney, I particularly want to address my comments to 
you, although you may have some responses as well.
    I am really concerned about the lack of commitment the INS 
has had in recent years on the northern border. The level of 
staff for the Border Patrol inspections hasn't grown at the 
northern border but threats of drug trafficking and terrorist 
attacks have grown substantially.
    We have seen commercial traffic moving across the northern 
border, and it has increased by more than 30 percent over the 
last decade. Our incidence of drug trafficking have increased 
threefold during that same time. And many of the world's 
terrorist groups have established themselves in Canada, they 
seek safe haven, they set up operational bases, and they 
attempt to gain access to the United States.
    And I think the incident last year with Ahmed Ressam in 
December of 1999 actually, who was trying to cross into the 
State of Washington from Canada with 100 pounds of bomb-making 
supplies, is just one example of what our northern border folks 
have to deal with.
    We are seeing an increasing number of criminal enterprises 
set up above our northern border that our Border Patrol has to 
deal with.
    An inspector general report was published last year--I am 
not sure if you are familiar with it--but it said that there 
were 300 Border Patrol agents assigned to patrol the entire 
4,000 miles of border between Canada and the United States. 
That is one agent for every 13 miles of border.
    Now, in comparison, on the Southwest border, it is 2,000 
miles and has 8,000 agents, so they have four agents for every 
mile. They have four for every mile; we have one for every 13 
miles.
    I think that that is significant, particularly with the 
increasing problems we are having with drug trafficking and 
terrorism that we see.
    And I will add that traffic across our border is just 
awful. We hear complaints on a constant basis. It is 
increasing, the lines are increasing. We have a good 
relationship with our friends north of the border, and we do a 
lot of trade, and the traffic is really impacting the economy 
as well.
    I am happy to see that your proposed budget adds 570 
additional Border Patrol agents in 2002 and 2003 and fully 
funds the 5,000 positions, but this increase is not going to 
achieve the level of control that is outlined in your own 
strategic plan.
    And I think I am concerned that your plan looks at the 
Southwest border to deal with that before the problems of the 
northern border, where we are seeing incredible problems that 
have developed. And my own constituents are becoming 
increasingly concerned about that.
    I think if we are going to meet those threats, a 
substantial portion of the new border agents and inspection 
staff have to be deployed at the northern border. And I have 
submitted a request actually to this committee to require that 
25 percent of those new Border Patrol agents be assigned to the 
northern border.
    I wanted your comments on that, to see if you would support 
it, and to find out whether you think that the INS staffing on 
the northern border is adequate.
    [The statement follows:]
               Prepared Statement of Senator Patty Murray
    Mr. Chairman, thank you.
    Mr. Rooney, I appreciate you coming before this committee.
    I am very concerned about the lack of commitment the INS has had in 
recent years to protecting the Northern Border. The level of staff for 
Border Patrol and Inspections have not grown at the Northern Border 
despite large increases in your budget, but the threats of drug 
trafficking and terrorist attack have grown substantially.
    Several developments over the last decade have made security at the 
Northern Border a major concern.
  --Commercial traffic moving across the Northern Border has increased 
        by more than 30 percent over the last decade.
  --Incidents of drug trafficking have increased three-fold during that 
        same period.
  --Many of the world's terrorist groups have established themselves in 
        Canada, seeking safe haven, setting up operational bases and 
        attempting to gain access to the United States. The arrest of 
        Ahmed Ressam in December of 1999, who was trying to cross into 
        the state of Washington from Canada with 100 pounds of bomb 
        making supplies, is one frightening example of our security 
        concerns at the Northern Border.
    It is clear that criminal enterprises see the Northern Border as 
easy access to the United States, when compared to the iron fence they 
meet when they try to enter the United States through Mexico.
    An Inspector General report published last year underscores my 
point. The report noted that there are only about 300 Border Patrol 
Agents assigned to patrol the entire 4,000 miles of border between the 
two countries.
    That is about one agent for every thirteen miles of border.
    In comparison, the Southwest Border is 2,000 miles and has 8,000 
agents.
    Four agents for every mile.
    It found that Northern Border agents were fourteen times more 
likely to encounter aliens involved with smuggling weapons, and they 
were nine times more likely to encounter aliens involved with smuggling 
drugs when compared to agents along the Southwest Border.
    Many other studies have shown that inspection staff at the Northern 
Border is also inadequate to address its needs. In fact, in the state 
of Washington, traffic is often stacked up for miles at many of our 
Washington state/Canadian border crossings, and this traffic has gotten 
progressively worse. They simply lack the inspection staff to handle 
the traffic.
    The Illegal Immigration Reform and Immigrant Responsibility Act of 
1996 authorized 5,000 additional Border Patrol agents. To date, only 
3,860 positions have been funded.
    I am pleased that the Administration's proposed budget for fiscal 
year 2002 would add 570 additional Border Patrol agents in both 2002 
and 2003, fully funding the 5,000 positions.
    However, this increase will not allow the Border Patrol to achieve 
the level of control outlined in your own strategic plan.
    This plan outlines achieving control of the Southwest Border before 
dealing with problems on the Northern Border. Considering this focus on 
the Southwest Border, it would take 161 years before Northern Border 
the INS turned to the concerns of the Northern Border.
    It is obvious that the proposed strategy of achieving control of 
the Southwest Border before turning attention to the Northern Border is 
unrealistic and short-sighted. The Border Patrol and inspection staff 
need to develop a unified strategy that focuses the limited resources 
on as many areas of activity as possible. This strategy must be 
flexible enough to quickly adapt to the inevitable shifts in such 
activity. It does little good to maintain control over small stretches 
of border when the rest of the border is overwhelmed.
    It is clear that if we are to meet the threats that exist at the 
Northern Border, a substantial proportion of new Border Patrol agents 
and Inspection staff must be deployed at the Northern Border. I have 
submitted a request to this committee requiring that at least 25 
percent of new Border Patrol agents be assigned to the Northern Border.

    Mr. Rooney. Yes, Senator.
    First of all, going to the strategy, the plan, you are 
correct in that our procedures for implementing the border 
control plan is on the Southwest border first in San Diego and 
El Paso, et cetera, and ultimately to include the Northern 
border.
    But as you indicated, the lines that are growing for people 
coming in, not on the Border Patrol side, but on the inspection 
side, that is a situation that we are aware of and that we are 
trying to address.
    And what we have done is we have taken a workload analysis 
model of ideal staffing at the borders all over the country. 
And with the available resources, both Border Patrol agents and 
inspectors--and I must say, it is not 25 percent for the 
northern border. I am not sure exactly what the breakdown, 
maybe somebody here has it.
    But increased agents as well as inspectors are deployed in 
accordance with a percentage of the overall needs at the 
border. And we are clearly not----

        <greek-l>[ins] deg.meeting needs at the Northern border

    Senator Murray. Do you take into account the increasing 
needs at the northern border? I am concerned that your 
strategic plan, focusing on the south border, is ignoring the 
facts of the increased jeopardy we are placing our staff at the 
northern border in. The morale is low. We are having trouble 
retaining or recruiting any agents, because it is a dangerous 
job.
    And I am worried that your strategic plan will simply mean 
that all of the new border patrols will go to the south border, 
and we will be left behind in the northern border at an 
increasingly difficult time.
    Mr. Rooney. Well, yes, the strategic plan does focus more 
on the deterrent effect starting at the Southwest border.
    The staffing plan, however, where we look at both Border 
Patrol agents as well as inspectors, we take an overall picture 
of what the need is, and then based upon the number of agents 
that we have, we fill the need. That need, particularly in the 
inspections area, which you also mentioned, is based upon the 
percentage that would naturally be--for example, if we needed 
1,000 more, and 300 were at the northern borders, then if we 
got a hundred, 30 would go to the northern borders, on 
inspections.
    Senator Murray. Well, I am asking that as you take a look 
at where you place those, both inspection agents and border 
patrols, that you recognize the extreme difficulty we are 
putting those folks in today, and that they are being asked to 
do a job that is much more complex than on our southern border, 
because of the miles that they have to cover, particularly our 
Border Patrol, obviously.
    And we have had a problem in the past with INS transferring 
a number of our agents to the southern border every time there 
is a problem and leaving our border even more impacted.
    And can you assure me that that will not occur, under your 
watch, that we will not just simply see our Border Patrol 
agents transferred to the south when we know how important that 
is that they be on the northern border?
    Mr. Rooney. Well, we certainly will. Anytime we have an 
emergency situation--and we actually have had some up on the 
Northern border at times, particularly the concern about the 
demonstrations that were going on up there last month. But, 
yes, generally we would try not to do that, move them out of 
the north to the south.

                   <greek-l>[ins] deg.Workload models

    Senator Murray. I have met and talked with our Border 
Patrol, in particular, many times. And it is a very tough duty 
we are asking them to do.
    There is increasing terrorist activity that has developed 
in Canada and comes across at my border. And we want to make 
sure we are not forgotten, as these new agents are put into 
place. I think that that is extremely critical.
    And finally, we have not seen the workload model that you 
are referring to. And if I could get a copy of that, I would 
really appreciate it.
    Mr. Rooney. Sure. We will provide you what we can, 
certainly.
    Senator Murray. Okay. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Gregg. Thank you, Senator.
    Yes, we have a border crossing in New Hampshire. We have 
three or four moose there, and we have actually had an agent 
come through once or twice.

             <greek-l>[dea] deg.DEA's progress with Mexico

    Mr. Marshall, what sort of progress are we making with 
Mexico?
    Mr. Marshall. I just visited Mexico about a month ago, and 
I met with the Attorney General and a number of other Cabinet 
members. And I am optimistic, cautiously optimistic, about our 
prospects in Mexico.
    I believe that the Fox administration has some good ideas. 
I believe that they want to do the right thing. President Fox 
has announced his priorities as addressing corruption and drug 
trafficking. And from some of the actions that the Government 
has taken since he has been in office, I believe he is making 
steps in that direction.
    He has done a number of things in the corruption area. One 
of the most significant, I think, is creating a system where 
they track officers that are fired from agencies for 
corruption, so it is not as easy for those officers to move to 
some other agency in some other part of the country and get 
rehired without knowing their history. That is a good sign.
    The Administration has made progress on extradition. We 
have actually very recently, within the last week or two, 
extradited the first top-echelon Mexican citizen drug-
trafficker, that person being Arturo Paez.
    I have long said that extradition of the top drug kingpins 
out of Mexico is the first step toward breaking the cycle of 
corruption and intimidation, and allowing us to work with our 
partners in Mexico to really create a climate where we can 
begin to address all of these issues.
    Now, I want to temper that optimism, however, with a bit of 
realism. And the realism is that corruption does pervade many 
institutions in Mexico, not only public institutions, such as 
law enforcement, the judiciary and the prosecutors, but also 
private institutions with which we have to work; utility 
companies, telephone companies and things of that sort.
    So while I am very optimistic that the Fox administration 
is moving in the right direction, we need to recognize that it 
is a monumental problem, and it will take time to fix. But I 
believe that the Fox Government is making the right first steps 
in that direction.

                 <greek-l>[dea] deg.OMB budget request

    Senator Gregg. Did you make any submissions to OMB that 
were not funded?
    Mr. Marshall. Well, we have a budget formulation process, 
obviously. And I suppose any agency probably never gets 100 
percent of its budget request. But I will report to you, 
Senator, that the three broad areas of enhancements that we did 
receive were among my very top priorities.
    And I have a strategic plan that I have established for 
DEA, and I believe these are the top three that I need to move 
us in the right direction in that strategic plan. I would 
expect future budget requests to have more items that will move 
us further in that direction in the areas of intelligence, 
infrastructure, the Special Operations Division that I talked 
about, and computer forensics, perhaps.
    But I am pleased that we got our top priorities, and that 
will allow us to move in the right direction.

              <greek-l>[dea] deg.Methamphetamine resources

    Senator Gregg. Do you have all the resources you need in 
the methamphetamine area?
    Mr. Marshall. We have increased our resources to 
methamphetamines substantially over the last 3 or 4 budget 
years, I would say.
    And again, Senator, if you ask any field commander, I 
suppose, or any head of an agency, ``Do you have everything 
that you need to adequately address the problem?'' the answer 
is generally going to be, ``I could use more resources.''
    But we have made progress on methamphetamine. We have put 
resources in there, and I am pleased with the progress that we 
have made.

                 <greek-l>[dea] deg.DEA/FBI cooperation

    Senator Gregg. How are the efforts of cooperation at the 
agent level with the FBI?
    Mr. Marshall. It is very good. We have had a relationship 
that has been in existence for now, I suppose, close to 20 
years with the FBI having Title 21 jurisdiction. And that 
relationship, frankly, was a bit rocky when it started out in 
the early 1980s.
    But we have committed to a partnership. We have committed 
to a productive relationship and a cooperative relationship. 
And we are working together very well, particularly in our 
Special Operations Division, where most of our substantial 
national operations come out of now.
    Now, the relationship obviously is never totally problem-
free, as you would expect with any two agencies, but we have 
very good cooperation. I would say that the cooperation between 
DEA and FBI, and really among law enforcement in general, 
Senator, is better now than I have ever seen it in my career.

             <greek-l>[dea] deg.Quantico training facility

    Senator Gregg. Well, we hear grumblings that the DEA and 
the FBI have turf issues. And this has been a hangup of mine 
for a long time, as you know, and it is the reason I was 
willing to build the building at Quantico for DEA, because I 
wanted to at least start the agents out going to school 
together.
    And I am not even sure that that is worked out down there. 
I have a sense that you are operating pretty independently, 
down there, of each other.
    But I do hope, and I am concerned with Director Freeh's 
leaving, because I know he was committed to this. I am 
concerned that there is no systematic activity in place to 
create cross-culture cooperation.
    Mr. Marshall. Senator, we have done a number of things. As 
you referred to, we shared the FBI Academy down there for our 
training purposes for, I suppose, it was close to 10 years. And 
during that time, we did build good relationships.
    Now, that also caused some problems. I mean, there were 
space problems, as you would expect when a space is designed 
for one agency and then you have two agencies in there. And the 
space was basically the reason that we separated our academies.
    Periodically, we do other things, such as, joint Special 
Agent in Charge conferences. We do cross-detailing and cross-
assignments of agents in many cases--our agents to their office 
and theirs to ours. We have in many places FBI agents or FBI 
supervisors running drug routes. We have DEA agents supervising 
FBI agents in some of those drug routes. We have HIDTA task 
forces. We have Organized Crime Drug Enforcement Task Forces. 
We are working together in many, many arenas.
    And I think that what Director Freeh and I have done to 
cement that was to establish our own very close relationship. 
We consult very frequently, and we let it be known very vocally 
that we expect cooperation among our two agencies.
    And while there are grumblings from time to time, and while 
there are some issues occasionally, I would characterize those 
really as bumps in the road, not major potholes. And they are 
issues that we generally work through very quickly.
    Senator Gregg. Well, I thank you both for your testimony.
    We look forward to working with you. We know you both have 
huge obligations, huge areas to cover. And this committee 
certainly intends to try to be supportive and give you the 
resources you need to accomplish it.
    Good luck.
    [The following questions were not asked at the hearing, but 
were submitted to the agencies for response subsequent to the 
hearing:]
       Questions Submitted to the Federal Bureau of Investigation
            Questions Submitted by Senator Pete V. Domenici
            black tar heroin and methamphetamine trafficking
    Question. This Subcommittee has been very helpful over the past two 
years in tackling an issue of great concern to me. That issue is the 
serious ``black tar'' heroin problem that has plagued several northern 
New Mexico counties.
    Both the Federal Bureau of Investigation (FBI) and the Drug 
Enforcement Administration (DEA) have cooperated with the state and 
local law enforcement officials in New Mexico to try to break the 
serious cycle of black tar heroin trafficking and use. Several major 
drug busts have been implemented in this area of New Mexico.
    Would you please give the subcommittee the Department's assessment 
of the progress these joint law enforcement operations in breaking the 
Black Tar Heroin ring in Northern New Mexico?
    Answer. In December 1999, DEA's Special Operations Division 
initiated ``Operation Tar Pit,'' a multi-jurisdictional investigation 
targeting a Mexican heroin trafficking organization. The FBI's 
Albuquerque Division, the DEA and the New Mexico State Police (NMSP) 
with other local LEAs in northern New Mexico have focused this 
investigation on a well-entrenched heroin distribution organization 
controlled by individuals from Tepic, Nayarit, Mexico. Primarily, this 
organization smuggles multi-kilogram quantities of high purity Mexican 
black tar heroin from Mexico into the United States along the 
California and Arizona borders. However, one of the organization's 
primary distribution cells was located in northern New Mexico. The 
organization routinely sent couriers and distributors from Nayarit to 
the United States to transship and sell heroin. After approximately 6 
months, the leaders of the organization would order the distributors 
back to Mexico and other individuals would be sent as replacements.
    On June 15, 2000, a nationwide takedown of ``Operation Tar Pit'' 
targets occurred in several cities throughout the United States. In New 
Mexico, 34 subjects were arrested and prosecuted, with all of these 
subjects convicted of drug-related offenses. To date, ``Operation Tar 
Pit'' has resulted in the seizure of approximately 64 pounds of high 
purity black tar heroin, $300,000, numerous vehicles, 10 weapons, 1 
residence, and the arrest of 249 individuals.
    The FBI, DEA, NMSP and the various state and local law enforcement 
agencies continue to work closely together to target heroin 
distribution organizations operating in northern New Mexico. These 
investigations, in conjunction with ``Operation Tar Pit,'' have greatly 
reduced the availability of black tar heroin and its associated crime 
problems. Also, multi-agency efforts targeting multiple organized 
criminal enterprises involved in drug trafficking show considerable 
result and only through a sustained multi-agency effort will LEAs be 
able to eliminate the distribution and use of heroin as a major drug 
problem in northern New Mexico.
    In fiscal year 2001, the FBI allocated 21 agents to the Albuquerque 
Division and local resident agencies to address the drug problem. The 
Albuquerque Division has 2 agents assigned to the DEA task force. This 
task force relationship maximizes both the FBI's and the DEA's 
investigative efforts in the northern New Mexico area. Additionally, 
the Albuquerque Division's assistant special agent in charge is the 
Chairman of the New Mexico High Intensity Drug Trafficking Area (HIDTA) 
Executive Board.
    During February 2001, the Albuquerque Division of the FBI, in 
conjunction DEA and LEAs, culminated the first phase of a 16-month drug 
investigation with the arrest of 25 federal subjects and 35 state 
subjects, who were the primary source of the organization transshipping 
cocaine from Mexico and California to distribution organizations in 
northern New Mexico and California. The organization was transshipping 
cocaine from Mexico and California to distribution organizations in 
northern New Mexico and other area of California. The organization was 
also associated with 2 drug trafficking organizations on the FBI's 
National Priority Target List.
    Question. An equally serious problem is methamphetamine trafficking 
and usage. I believe both the FBI and DEA have encountered this illegal 
activity in its law enforcement activities in New Mexico, including 
northern New Mexico.
    Would you please give the subcommittee your assessment of the 
effect these joint law enforcement operations in northern New Mexico 
have had on methamphetamine trafficking in the area?
    Answer. Traditionally, northern New Mexico's primary illegal drug 
threat has been the transshipment and distribution of cocaine, black 
tar heroin and marijuana. In recent years, however, the manufacture, 
transshipment and distribution of methamphetamine have developed into 
significant problems in New Mexico. The FBI crime survey and the New 
Mexico High Intensity Drug Trafficking Area (HIDTA) Threat Assessment 
have identified methamphetamine as a sizeable drug problem throughout 
the state. The drug trafficking threat in northern New Mexico is 
largely a result of the new trafficking patterns and local distribution 
networks. Mexican drug trafficking organizations smuggle bulk 
quantities of methamphetamine into the state from laboratories in 
Mexico and California. Law enforcement agencies (LEAs) have also 
discovered an increased number of methamphetamine laboratories being 
operated within the state.
    To address the growing drug problem within the existing complement 
of resources, the FBI has pursued a Task Force strategy throughout the 
state and is participating in the following task forces: Southern New 
Mexico Violent Gang Task Force; the FBI-led Central New Mexico Violent 
Gang Task Force; the Otero County HIDTA Task Force; the Lee County 
HIDTA Task Force; and the Santa Fe/Rio Arriba HIDTA Task Force. The 
Task Forces are composed of state, local and federal LEAs in northern 
New Mexico and enable all participating LEAs to maximize their 
investigative efforts.
    The LEA joint efforts resulted in the seizure of 48 methamphetamine 
laboratories during fiscal year 2000 and 18 methamphetamine 
laboratories during fiscal year 2001. Two of the laboratories seized 
were classified as ``super-labs,'' capable of producing more than 10-
pounds of the drug per production run. Also, during fiscal year 1999 
and fiscal year 2000, the Albuquerque Division participated in 12 
Organized Crime Drug Enforcement Task Force cases. Methamphetmine 
distribution organizations operating in the northern New Mexico area 
will continue to be identified and dismantled by joint LEA efforts.
    Several other methamphetamine investigations have resulted from 
interdiction seizures on airplanes, trains, buses, and New Mexico 
highways. Over 15 kilograms of methamphetamine have been seized since 
October 1, 2000. Additionally, one seizure from a semi tractor-trailer 
near Gallup, New Mexico resulted in the seizure of over 363 pounds of a 
combined load of methamphetamine and cocaine. Analysis is proceeding to 
determine exactly what percentage of the load was methamphetamine and/
or cocaine. The driver of the tractor-trailer, a Mexican National 
resided in Calexico, California and has admitted to driving three prior 
loads of narcotics for the organization; however, he was uncertain what 
drugs and what quantities had been in these prior loads.
    Six investigations conducted by Albuquerque DEA in fiscal year 2001 
have focused on methamphetamine trafficking groups operating within New 
Mexico. These investigations deal primarily with individuals or small 
groups of individuals who distribute from 1 gram to 1 ounce of 
methamphetamine. Areas involved in these investigations have included 
the cities of Albuquerque, Clovis, Grants, and Farmington. The most 
significant of these investigations was a seven-pound buy/bust 
operation in Farmington, New Mexico. The eventual target of this 
investigation was, at the time of his arrest, also under investigation 
as a primary heroin source of supply in Albuquerque, New Mexico.
    Intelligence information obtained from the above detailed 
investigations indicates the following:
  --While the majority of methamphetamine distributed in northern New 
        Mexico is Mexican produced and distributed, the majority of 
        resources and efforts are directed at the numerous small 
        clandestine methamphetamine production laboratories. Because 
        they pose such significant environmental and safety hazards and 
        because they continue to increase in numbers, these clandestine 
        manufacturing laboratories will continue to be a priority for 
        Albuquerque DEA.
  --Cooperative local impact investigations disrupt the availability 
        and distribution of methamphetamine in northern New Mexico 
        communities for a brief time; however, the continued 
        availability of Mexican produced methamphetamine allows these 
        distribution markets to recover within a few months.
  --As with all other illegal narcotics, the primary methamphetamine 
        trafficking problem in New Mexico is the transshipment of 
        multi-pound/multi-kilogram quantities of methamphetamine 
        through New Mexico destined for distribution markets in the 
        east. Follow-up investigations on interdiction seizures are 
        perhaps the most significant investigations currently conducted 
        by the Albuquerque District Office. These investigations will 
        significantly impact the distribution of methamphetamine in New 
        Mexico and also will help to dismantle/disrupt Mexican-based 
        distribution networks located in Arizona, California and Mexico 
        that are distributing methamphetamine throughout the United 
        States.
  --While the user and distribution base for methamphetamine in New 
        Mexico is increasing, cocaine and heroin remain the ``drugs of 
        choice'' in New Mexico. The majority of the investigative 
        efforts of the DEA Albuquerque District Office are directed 
        against these two drugs.
             fbi development of domestic terrorism division
    Question. The Federal Bureau of Investigation has separated the 
functions of counterintelligence and antiterrorism, placing each under 
an assistant director who would first report to the Bureau's deputy 
director and then to the Director. However, it is still unclear what 
constitutes domestic terrorism. This permits the Bureau to now enter 
into any case, no matter how small, and in practical terms means that 
hundreds of agents can now enter into any number of crime scenes that 
once belonged to a variety of agencies. Worse, this could create 
circumstances in which the Bureau's agents, in the name of counter-
domestic terrorism, poke into the activities of any organization deemed 
subversive, no matter how innocuous it really was.
    What constitutes the Bureau's definition of domestic terrorism? Has 
the Bureau established clear guidelines about the decision made to 
enter into a case it has deemed one of domestic terrorism?
    Background: The development of terrorism as a major threat and the 
need to meet it with increased funding and personnel has provided a 
solid budgetary base for the Bureau that promises to continue 
developing. While it is reasonable to consider such incidents as 
Oklahoma City and the 1996 Atlanta Oylmpic games as domestic-terrorism, 
the Bureau has used this rationale to take over the investigations of 
scores of crimes that are just that--crimes--with no hint of a greater 
plot for domestic violence. Meanwhile, the Bureau's failure with 
respect to the Investigation of Chinese spying on the nation's nuclear 
labs or its insistence--despite significant evidence to the contrary--
that TWA Flight 800 was a terrorist incident rather than a mechanical 
failure, gives pause to the idea that we should continue to endorse the 
Bureau's expansion of the Division, or even its reorganization into 
``spy-catching and domestic terrorism'' functions. As Dan Thomasson 
wrote in the Washington Times: ``The concern in law enforcement . . . 
is that a large number of agents now will have nothing more to do than 
to seek out potential terrorism and deal with it no matter under whose 
bed they believe they have found it.''
    The FBI must provide parameters to define the problem and 
appropriate actions; otherwise, permitting the Bureau to justify 
anything it does under the guise of preventing it is too sweeping a 
concession of power.
    Answer. The FBI categorizes terrorism as either domestic or 
international, depending on the origin, base, and objectives of the 
terrorist organization. In this context, domestic terrorism is the 
unlawful use, or threatened use, of force or violence by a group or 
individual based and operating entirely within the United States or its 
territories without foreign direction and whose acts are directed at 
elements of the United States Government or its population, in the 
furtherance of political or social goals. The FBI has entered into 
agreements with other agencies clearly defining the role of the FBI in 
exercising its primacy over terrorism matters. The FBI only operates 
within the confines of those agreements and pursuant to clear statutory 
authorities. A discussion of these authorities is set forth below.
    Effective March 1, 1973, jurisdictional guidelines were adopted by 
the Attorney General (with the concurrence of the Postal Inspection 
Service and the Department of the Treasury) and published in the United 
States Attorneys Bulletin on April 13, 1973, governing investigations 
of violations of the federal explosives control statute found in Title 
18, Sections 841-848. These guidelines clarified jurisdiction for the 
FBI, the Bureau of Alcohol, Tobacco and Firearms, and the Postal 
Inspection Service. The guidelines state that the FBI will exercise 
primary jurisdiction over all Section 844 violations perpetrated by 
terrorist/revolutionary groups or individuals unless otherwise directed 
by the Department of Justice.\1\
---------------------------------------------------------------------------
    \1\ The 1973 guidelines may also be consulted in order to determine 
which investigative agency has primary jurisdiction to investigate 
explosives violations not involving a terrorism nexus. For example, the 
investigative agency having jurisdiction over the underlying felony is 
assigned primary jurisdiction over Section 844(h) violations (use/
carrying of explosives in commission of a felony).
---------------------------------------------------------------------------
    In addition, pursuant to Title 28, Section 533, the Attorney 
General ``may appoint officials to detect and prosecute crimes against 
the United States.'' This statute confers on the Attorney General broad 
general investigative authority with respect to federal criminal 
offenses.
    The Attorney General has delegated investigative authority to the 
FBI for all crimes not specifically assigned (through statute or 
otherwise) by Congress to another agency. This delegation was 
officially published under Title 28, Subpart P, Section 0.85 of the 
Code of Federal Regulations, which also provides in paragraph (l) that 
the FBI should ``exercise lead agency responsibilities in investigating 
all crimes for which it has primary or concurrent jurisdiction and 
which involve terrorist activities or acts in preparation of terrorist 
activities within the statutory jurisdiction of the United States. 
Within the United States, this would include the collection, 
coordination, analysis, management and dissemination of intelligence 
and criminal information as appropriate. If another federal agency 
identifies an individual who is engaged in terrorist activities or in 
acts in preparation of terrorist activities, that agency is requested 
to promptly notify the FBI.''
    Furthermore, Presidential Decision Directive (PDD) 39, dated June 
21, 1995, sets forth the United States policy on counterterrorism and 
outlines the FBI's jurisdictional responsibilities in relation to 
terrorism. This PDD built upon previous directives for combating 
terrorism, further elaborated a strategy and an interagency 
coordination mechanism and management structure to be undertaken by the 
Federal Government to combat both domestic and international terrorism 
in all its forms. The FBI was appointed the lead federal agency for 
both investigations and crisis or operational management of terrorist 
incidents. Based on the above sources, the FBI may exercise lead agency 
authority over any federal violation if there is a terrorism nexus. It 
should be noted that the FBI does not always have absolute knowledge 
that a criminal act is one committed by a terrorist. In those instances 
where it is known, or reasonably presumed (by the nature of the act or 
target) to be a terrorist act, the FBI should exercise its lead agency 
authority in order to maintain investigative control over the incident 
so that evidence may be preserved and investigative leads may be 
pursued. In those instances where the FBI does not know the motivation 
for the crime, it has authority to work concurrently with other 
agencies to pursue leads and maintain evidence control until a clear 
terrorism nexus is found. If the incident involves only ordinary 
criminal activity, the FBI defers to the agency which has primary 
jurisdiction.
    In connection with the execution of investigative activities, 
guidelines exist to govern decisions to initiate investigations of 
domestic terrorists and to manage crisis incidents involving terrorist 
attacks. Some of these investigations necessitate and require 
coordination with other government agencies. The FBI is proud of the 
cooperative working relationships established with local, state and 
other federal agencies to ensure effective investigation of terrorist 
activities and appropriate crisis management. Such is demonstrated by 
the thirty Joint Terrorism Task Forces (JTTFs) initiated by the FBI 
throughout the United States. These JTTFs consist of local, state, and 
other federal law enforcement personnel working cooperatively with FBI 
special agents.
    Some of the guidelines and agreements governing investigation of 
domestic terrorist activities and management of crisis incidents 
include the following:
    (1) The Attorney General's Guidelines on General Crimes, 
Racketeering Enterprise and Domestic Security/Terrorism Investigations;
    (2) Advice to FBI Field Offices Regarding Domestic Security/
Terrorism Investigations and Preliminary Inquires Under the Attorney 
General's Guidelines on General Crimes, Racketeering Enterprise and 
Domestic Security/Terrorism Investigations;
    (3) Manual of Investigative Operations and Guidelines, Part I, 
Sections 100, 266 and 279;
    (4) PDD/NSC-39, U.S. Policy on Counterterrorism;
    (5) PDD/NSC-62, Protection Against Unconventional Threats to the 
Homeland and Americans Overseas;
    (6) PDD/NSC-63, Critical Infrastructure Protection;
    (7) Weapons of Mass Destruction (WMD) Incident Contingency Plan;
    (8) United States Government Interagency Domestic Terrorism Concept 
of Operations Plan (CONPLAN);
    (9) Federal Response Plan;
    (10) Guidelines for the Mobilization, Deployment, and Employment of 
U.S. Government Agencies in Response to a Domestic Threat or Incident 
of Terrorism in Accordance with PDD-39; and
    (11) Title 28, Code of Federal Regulations, Subpart P, Section 
0.85.
    Specifically, the Attorney General's Guidelines on General Crimes, 
Racketeering Enterprise and Domestic Security/Terrorism Investigations 
serve as a means to ensure that FBI investigations are performed with 
care to protect individual rights and confined to matters of legitimate 
law enforcement interest. These guidelines provide guidance for all 
investigations by the FBI of crimes and crime-related activities, 
except investigations involving foreign counterintelligence and 
international terrorism matters. Furthermore, all investigations 
undertaken pursuant to the Attorney General's Guidelines on General 
Crimes, Racketeering Enterprise and Domestic Security/Terrorism 
Investigations are conducted to ensure appropriate application of 
privacy laws.
                                 ______
                                 
         Questions Submitted by Senator Ben Nighthorse Campbell
                          international crime
    Question. What types of international crime are of principal 
concern to the FBI, and what is the basis for that concern?
    Answer. The types of international criminal activities that are of 
principal concern to the FBI are committed by those international 
criminal enterprises that pose the greatest threat to Americans and 
their communities, United States businesses and financial institutions, 
and global security and stability. The violations committed by these 
criminal enterprises that fall under FBI jurisdiction include drug 
trafficking, alien smuggling, trafficking in women and children, crimes 
against children, arms trafficking, trafficking in precious gems, non-
drug contraband smuggling, intellectual property rights violations, 
financial fraud and money laundering, international art theft, and 
parental kidnaping.
    The International Crime Threat Assessment is one of many resources 
upon which the FBI relies to develop its response to international 
crime. Through these threat assessments, field office crime surveys and 
liaison with foreign police organizations, the FBI has identified those 
international criminal enterprises that pose the greatest threat to 
Americans and their communities, United States businesses and financial 
institutions, and global security and stability.
    Question. What new steps will the FBI take to improve the Federal 
Government's response to international crime?
    Answer. To improve the Federal Government's response to 
international crime, the FBI will continue to provide leadership and 
implement international crime control initiatives such as:
    Budapest Project.--The FBI/Hungarian National Police Task Force has 
been established in Budapest, Hungary to identify emerging Eurasian 
criminal enterprise threats to the United States and to disrupt those 
enterprises before they can become entrenched in the United States.
    Linchpin Initiative.--Operation Linchpin was established to 
facilitate the sharing of information and operational leads, both 
domestic and foreign, between the law enforcement and intelligence 
communities. Linchpin focuses on significant international criminal 
groups (e.g., Eurasian, Italian, and Asian organized crime). Several 
law enforcement and intelligence agencies, including the FBI, are 
involved in sharing intelligence at regularly scheduled Linchpin 
meetings.
    Project Millennium.--The FBI, along with law enforcement agencies 
from 23 countries, has provided INTERPOL with the names and profiles of 
thousands of Eurasian organized crime subjects in order to establish a 
worldwide database that would allow participating countries to cross-
reference and coordinate leads involving Russian and Eastern European 
organized crime members.
    United States-Mexico Fugitive Initiative.--An initiative with the 
FBI, the Department of Justice (DOJ) and the Mexican Government, 
designed to improve procedures for obtaining provisional arrest 
warrants for fugitives that have fled to the United States from Mexico.
    United States-Canada International Fugitive Initiative--The DOJ, 
FBI, United States Marshals Service, Royal Canadian Mounted Police 
(RCMP), Toronto Police Service, and Immigration and Naturalization 
Service exchange intelligence and improve efficiency in locating/
apprehending fugitives who flee to the United States from Canada and to 
Canada from the United States.
    Canadian Eagle.--This joint initiative between Canadian law 
enforcement agencies and the FBI targets unscrupulous Canadian 
telemarketers victimizing United States citizens, particularly the 
elderly. The FBI is working with the RCMP and other police agencies to 
identify, investigate, and prosecute these individuals.
    The International Securities and Commodities Working Group.--This 
group was established to bring together individuals dealing in 
international markets, primarily through FBI Legal Attaches and their 
counterparts, to discuss ways to effectively coordinate investigations 
relative to United States and international financial markets.
    Plan Colombia.--DOJ and the FBI are assisting Colombia in 
developing a comprehensive program to investigate kidnapings. This 
program will include the establishment of a Colombian law enforcement 
task force consisting of specially trained investigators. Where 
appropriate, the task force will work closely with the FBI, 
particularly in cases involving United States nationals. The FBI is 
implementing a comprehensive training initiative designed to train law 
enforcement and military personnel from Colombia in anti-kidnaping 
investigative methods and procedures.
    The High Intensity Financial Crimes Area (HIFCA).--This program is 
a Congressionally mandated approach to addressing complex and egregious 
money laundering conspiracies in a task force environment. The 
designation of HIFCA is intended to concentrate law enforcement efforts 
at the federal, state, and local levels to identify, target, and 
prosecute money laundering activity. Due to the international nature of 
most money laundering crimes, HIFCA efforts to address money laundering 
domestically will have an impact on international money laundering 
conspiracies. HIFCAs have been established in the New York/Newark, Los 
Angeles, San Juan, Phoenix, El Paso, and San Antonio Divisions. 
Applications for similar designations have been made by the San 
Francisco and Chicago Divisions.
    INTERPOL Project Rockers.--With respect to Outlaw Motorcycle Gangs 
the FBI participates in the INTERPOL Project Rockers annual conference 
and takes part in the Project Rockers Steering Committee. 
Representatives from Europe, Australia, and Canada also participate. 
The goals of the meetings center on efforts to evaluate and strengthen 
the international cooperation between the countries that are affected 
by criminal activities engaged in by Outlaw Motorcycle Gangs and its 
members.
    Project Stocar.--This joint initiative between the FBI and INTERPOL 
was implemented to share and exchange data regarding international 
vehicle theft.
    In addition to the above ongoing initiatives, the FBI is working 
with seven European nations to develop an automated system to connect 
existing art theft databases.
    Question. How does the FBI propose to coordinate its response to 
international crime with the efforts of other federal agencies--such as 
the Departments of State and the Treasury--to ensure that the response 
is focused and the potential for bureaucratic overlap is reduced?
    Answer. FBI executive management will continue to provide 
leadership to international crime working groups, and will continue its 
liaison with other federal agencies in this regard. With regard to its 
response to international crime, the FBI maintains effective liaison 
with the Central Intelligence Agency (CIA); Drug Enforcement 
Administration (DEA); United States Customs Service; and the United 
States Department of State.
    The FBI will also continue to detail supervisors to the CIA and DEA 
in order to maintain its close relationship with these federal 
agencies. Further, the FBI will continue to expand its partnership with 
DEA in the Special Operations Division, looking to increase coverage 
beyond the traditional drug trafficking arena into those areas of the 
world currently being dominated by organized crime groups.
    Question. Also, recognizing that considerable law enforcement 
activity to counter international crime occurs in foreign countries, 
how does the State Department propose to coordinate its efforts with 
its foreign counterparts?
    Answer. The FBI cannot speak to the State Department's coordination 
efforts with its foreign counterparts.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                       data storage and retrieval
    Question. In a July 1999 report, the Justice Department's Inspector 
General strongly criticized the Federal Bureau of Investigation's 
(FBI's) information management system. He concluded: ``The FBI's 
procedures for culling information for its teletypes and electronic 
communications and inputting it into its databases essentially makes it 
impossible for the FBI to state with confidence that a database search 
has yielded all information in the FBI's files about a particular 
subject.''
    What steps have you taken over the years to update and improve the 
FBI's data storage and retrieval system?
    Answer. Currently, the FBI's Information Technology (IT) 
environment is composed of historic stovepipe systems. The FBI has 
consolidated all systems under the Chief Information Officer, Assistant 
Director Bob E. Dies (rather than maintaining them by individual 
Divisions). The Trilogy upgrade investment plans the initial movement 
to a modem database structure, to enable consolidating investigative 
data into a central ``data warehouse.'' As an interim step, however, 
the FBI has developed a ``global search'' of its five most frequently 
used investigative applications databases to improve the ability to 
find data it already has (spread across numerous systems).
    Since the initial deployment of Automated Case Support (ACS), the 
FBI has made many software updates and enhancements to increase the 
efficiency and effectiveness of the system. The Manual of 
Administrative Operations, which sets forth FBI policy on records 
management, has been updated to include policy on these enhancements of 
ACS.
    The serialization (attributes only) of Top Secret/SCI documents was 
incorporated into ACS in September 1997 (and reiterated in February 
2000,) thereby increasing the accountability of all documents related 
to a specific case.
    Beginning in the latter half of 1998, the FBI began uploading into 
ACS all teletypes received from other government agencies into a 
control file. The uploading of these teletypes provides full-text 
retrieval for the yearly receipt of over 300,000 messages. A technical 
design and implementation plan is in place to transition the current 
semi-automated and manual processing of these teletypes to more direct, 
secure, audited, and automated methods by the second quarter of fiscal 
year 2002. The planned implementation will transition the current 
system from manual profiling to automated profiling, and from paper 
delivery to direct delivery of teletypes to an authorized FBI user's 
desktop. This system will also automatically upload these teletypes 
into the existing ``control file,'' which will allow full-text 
retrieval, but with added security functions to protect the integrity 
and access to the data and information, and provide the appropriate 
accountability, identification, and authentication of users.
    The FBI is continuing to improve its data storage and retrieval 
systems.
    Question. Does the Federal Bureau of Investigation have adequate 
resources in its fiscal year 2002 budget request to correct the 
problem?
    Answer. Today's record storage (as exemplified in the Oklahoma City 
Bombing case recently) is paper intensive and subject to manual error. 
The FBI is currently standing down in July to reinforce procedures that 
have been in place, but not always followed, in its Records Management 
System. As an immediate step, the FBI is planning a document tracking 
addition to its Trilogy program, which will not require additional 
funding. However, the long-term solution to the FBI's records 
management problem requires database management systems (Trilogy) in 
addition to the use of ``electronic signatures'' to avoid the need for 
paper transfers and reduce the chance of manual errors. The FBI is 
currently assessing the resource requirements for these improvements.
    Question. When did you first learn that the Federal Bureau of 
Investigation (FBI) had withheld evidence from prosecutors in the 
Birmingham church bombing case? Why did the FBI wait as long to hand 
over everything it had?
    Answer. The FBI's original investigation into this matter was 
initiated in September 1963 and was actively pursued for more than 5 
years. This investigation consisted of thousands of interviews, 
extensive evidence examination and a variety of other investigative 
techniques. The original investigation, which utilized hundreds of 
agents throughout the United States, resulted in approximately 90 
volumes of material in Birmingham (consisting of tens of thousands of 
pages). In addition to the Birmingham file, there were auxiliary office 
files opened in each of the FBI's other field offices and at FBI 
headquarters. In 1968, the active phase of the FBI investigation ended 
and, in 1972, the case was formally closed for lack of a prosecutable 
federal violation.
    In response to a request from the Alabama Attorney General's office 
in 1977, the FBI made the Sixteenth Street Baptist Church Bombing case 
file available to an investigator from that office, Mr. Robert Eddy, 
for the purpose of establishing a basis for state prosecution. The 
entire file was provided with the exception of specific informant 
files, to include voice recordings of conversations involving an 
informant and one of the primary suspects, Thomas Blanton. Under an 
agreement with the Alabama Attorney General, case file information that 
would reveal the identities of FBI informants--many of whom were still 
in danger--was not to be disclosed. This understanding was--and still 
is--consistent with federal law and policy that enables federal law 
enforcement agencies to protect their informants.
    While the voice recordings were not provided to Mr. Eddy, summaries 
of information derived from some of the tapes were included in the 
files made available. The tape recordings fell into two distinct 
categories: body recordings made by an FBI informant of conversations 
with Thomas Blanton; and recordings made through a microphone, or 
``bug'' placed in the wall adjoining Mr. Blanton's kitchen, which 
became known as the ``kitchen tapes.'' It is unclear from our review of 
the file to date, or from recent contact with Mr. Eddy, whether or not 
he was aware of the existence of any tape recordings in this matter. 
Summaries of information derived from the informant tape recordings 
were included in the files that were made available to Mr. Eddy. 
Although the file did not contain summaries of the ``kitchen tapes,'' 
there were references within the file regarding information obtained 
from the kitchen tapes.
    Mr. Eddy was provided FBI office space and an agent was assigned to 
facilitate his review of the case file. Mr. Eddy was also provided 
access to case agents, including those who had retired or had 
transferred to other field offices. Mr. Eddy's review took 
approximately 6 months, during which time he had access to 90 volumes 
of material.
    In response to concerns expressed by various civic leaders, the 
special agent in charge of the FBI Birmingham office reopened the 
investigation in 1995 on his own initiative. During the ensuing case 
file review by FBI personnel, the presence of the tape recordings was 
discovered. All tapes were subsequently released to the United States 
Attorney for the northern District of Alabama, who ultimately used them 
in the 2001 state prosecution of Mr. Blanton.
    There is no indication that the ``kitchen tapes'' provided to the 
United States Attorney in 1995 were intentionally withheld from Mr. 
Eddy. With hindsight, some explanations for the reasons the tapes were 
not discovered by Mr. Eddy are more probable than others. With respect 
to the ``kitchen tapes,'' the technique of recording conversations 
without the consent of either party, although not prohibited by law at 
that time and authorized by FBI Director Hoover, pursuant to Department 
of Justice policy in existence at the time, was considered highly 
sensitive. For this reason, information obtained through this technique 
was not clearly documented as being attributable to a ``bug.''
    Second, it was the general policy of the FBI to use non-consensual 
tape recordings for criminal intelligence and internal security 
purposes, and they were not commonly viewed as evidence in the 
traditional prosecutive sense. Therefore, they were typically kept 
apart from witness interviews and other information of a clearly 
evidentiary nature. In 1967, the United States Supreme Court made clear 
in Katz v. United States that the non-consensual interception of 
private communication constituted a ``search'' under the Fourth 
Amendment and therefore, required the same constitutional protection as 
physical searches. Congress followed in 1968 with the Federal Wiretap 
Act, which established fixed procedural requirements to record private 
conversations and admit them into evidence in a criminal trial. This 
was 4 years after the tapes were made.
    Third, Mr. Eddy's review occurred 13 years after the tapes were 
made and 9 years after active FBI investigation ceased. While Mr. Eddy 
had access to and interviewed agents who were familiar with the 
original investigation, it appears that the existence of the tapes was 
never discussed. Finally, summaries of the informant tapes and 
references to information derived from the ``kitchen tapes'' were 
contained in files made available to Mr. Eddy; however, the primary 
focus of his investigation was Robert Chambliss, not Thomas Blanton. 
This focus on Chambliss, combined with the limited time period he was 
given to complete his review and investigation were likely factors in 
Mr. Eddy's not discovering the existence of either the ``kitchen 
tapes'' or the informant tapes.
    Question. What steps have you taken to determine whether the FBI 
has been sitting on evidence in other cases and to ensure that it does 
not happen again?
    Answer. As explained above, the belated discovery of the tape 
recordings in the Birmingham case was not the result of the FBI 
``sitting on,'' or hiding evidence. With respect to other FBI 
investigations involving civil rights violations, the FBI has received 
no indication from any source--including federal prosecutors, the 
defense bar, judicial rulings, and its own internal inspection 
process--that there exists a practice of withholding evidence or of 
failing to adhere to criminal discovery requirements in any other 
manner.
    FBI agents are throughly trained in the rules of discovery, 
including their legal obligations to adhere to those rules, beginning 
with new agent training. This training continues on a regular basis 
throughout a field agent's career in all FBI field offices and is 
continuously reinforced in practice through guidance from federal 
prosecutors and FBI field supervisors. Finally, the handling of 
evidence in a manner that both preserves its integrity and efficiently 
serves the discovery process is a significant part of the thorough 
inspection that each FBI field office receives every 3 years. Our 
inspection process mandates, for example, that the Chief Judge of that 
District be interviewed about the FBI's role in the District's federal 
criminal prosecutions. Other mandatory interviews include the local 
United States Attorney and members of his/her staff. These interviews 
are designed to elicit feedback about the FBI's performance in ongoing 
federal prosecutions and serve as the basis for recommendations for 
policy changes.
                            ``hanssen'' case
    Question. With respect to the Hanssen case, the question on 
everyone's mind is how the alleged espionage could go on uninterrupted 
for 15 years without being detected. Until recently, the Federal Bureau 
of Investigation (FBI), unlike other national security agencies like 
the Central Intelligence Agency and the Department of Energy, did not 
routinely polygraph its employees who had access to classified 
information, even though some experts recommended that such screening 
be done. What were the reasons for the FBI's policy against using 
polygraph examinations?
    Answer. The FBI has had a limited polygraph program in place since 
1978. The polygraph program was established in 1978 for on-board 
investigators on a case-by-case-basis. In 1983, the FBI expanded the 
program to include employees who had a need for special access. This 
included counterintelligence focused polygraph examinations for 
personnel with access to selected, highly sensitive information. A 
threshold was established to determine who qualifies on a case-by-case 
basis for the special access polygraph exams. In December 1992, the 
FBI's polygraph program was updated to incorporate a requirement for 
contract employees who have access to sensitive information and/or are 
assigned to select locations. This included contract linguists, select 
task force personnel, and other contractors on a case-by-case-basis 
depending on their job requirements. In March 1994, a comprehensive 
polygraph examination program was established for all FBI applicants. 
Furthermore, in June 1994, issue-based polygraph examinations began in 
security adjudication and other personnel administrative inquiries.
    Between 1994 and 1996, serious consideration was given to 
instituting routine polygraph examinations of on-board employees. 
However, the FBI did not adopt a mandatory polygraph program due to 
differing views on effectiveness and the significant impact resulting 
from false positives.
    The FBI will be glad to provide you a briefing on this issue at 
your convenience.
    Question. Do you believe that if the Federal Bureau of 
Investigation had been conducting routine polygraph screening, 
Hanssen's alleged espionage would have been detected sooner?''
    Answer. Due to the sensitive nature of Mr. Hanssen's assignments 
within the FBI, had the FBI's current interim polygraph program, which 
was initiated subsequent to his arrest and is described in the response 
to the next question, been in place earlier, he would have been tested. 
It can only be speculated as to whether such a test, if administered to 
Hanssen, would have led to earlier detection of his alleged espionage.
    Question. According to press reports, in the wake of Hanssen's 
arrest, the Federal Bureau of Investigation decided to give polygraph 
examinations to 500 of its employees who have access to intelligence 
information. Why was this kind of testing appropriate after Hanssen's 
arrest but not before?
    Answer. As a result of the Hanssen case, the FBI has been caused to 
rethink the issue of security with regard to the ``trusted insider.'' 
Polygraph examinations of on-board employees are merely one of the 
tools which will be used in the personnel security reinvestigation 
processing of existing employees.
    Question. The Judiciary Committee recently held a hearing on 
``Issues Surrounding Use of the Polygraph.'' All of the expert witness 
[es] we heard (both pro- and anti-polygraph) agreed that polygraph 
screening will produce a certain percentage of ``false positive'' 
responses, that is, where an innocent person's reactions falsely show 
deception on the polygraph. According to a recent public statement by 
Attorney General Ashcroft, polygraph screening has a false-positive 
rate of about 15 percent. If we accept that figure, that means that if 
you administer polygraphs to 500 people, approximately 75 people will 
have false positive polygraph results. What is the Federal Bureau of 
Investigation doing to protect the rights of those employees who may 
have false positive polygraph test results?
    Answer. The population being tested is very selective, and the 
polygraph questions being asked are very focused, resulting in an 
anticipated false positive rate significantly lower than 15 percent. 
Further, independent of the exact rate of false positives, the Federal 
Bureau of Investigation has established a process to ensure that 
negative polygraph results are carefully investigated. Adverse actions 
against employees will not be taken based solely on the results of a 
polygraph examination. Rather, information developed as the result of 
investigative activity taken subsequent to the conduct of the polygraph 
examination will be used to determine if an adverse action is 
appropriate.
    Question. Do you believe that any adverse action should be taken 
against an Federal Bureau of Investigation employee based solely on the 
results of a polygraph examination, in the absence of any corroborating 
evidence that they have done anything wrong or given any deceptive 
answers?
    Answer. In a legal sense, an adverse action under 5 U.S.C. chapter 
75, is a suspension in excess of 14 days up through termination or a 
demotion in grade. The FBI does not believe that such actions should be 
taken against FBI employees based solely on the results of polygraph 
examinations. Having said this, however, it must be readily apparent 
that federal agencies are obligated to take all reasonable and prudent 
actions to protect the interests which they represent. Therefore, 
though the FBI will take no adverse actions against FBI employees based 
solely on the results of polygraph examinations, it may, as necessary, 
temporarily transfer persons to positions with less sensitive access, 
at no loss of pay, during the pendency of investigations pursuant to 
polygraph examinations.
                                 ______
                                 
       Questions Submitted to the Drug Enforcement Administration
            Questions Submitted by Senator Pete V. Domenici
                  linking dea's budget to performance
    Question. The DEA has benefited in recent years from publicity 
attendant to a series of ``largest seizure in history'' busts. 
According to Nexis, in the past year newspapers have reported 66 of 
these ``biggest busts'' in history whether by state or type of drug or 
whatever.
    Biggest bust stories suggest that we are now winning the war on 
drugs. While it is true that more drugs are interdicted, for example 
cocaine seizures rose from 9,000 kilos in 1983 to 108,000 in 1997, one 
might wonder whether, in fact, more drugs are crossing our borders. 
Street prices for cocaine and heroin are holding constant or even 
falling which also suggests that plenty of these drugs are still 
crossing the borders.
    Americans seem willing to pay for illegal drugs and, no matter how 
many biggest busts in history are accomplished, replacement smugglers 
and dealers, even replacement countries, are ready to step in to take 
the place of those arrested.
    What is the DEA's intention with respect to balancing a focus on 
supply with a focus on demand reduction?
    Answer. Drug law enforcement is the primary focus of the DEA as 
expressed in the agency's mission statement: ``To enforce the 
controlled substances laws and regulations of the United States and 
bring to the criminal and civil justice system, those organizations and 
principal members of organizations involved in the growing, 
manufacturing, or distribution of controlled substances appearing in or 
destined for illicit drug traffic in the United States; and to 
recommend and support non-enforcement programs aimed at reducing the 
availability of illicit controlled substances on domestic and 
international markets.''
    Because DEA's mandate is primarily supply reduction, the agency 
will continue to focus its resources, financial and human, toward this 
supply focused mission responsibility.
    However, without detracting significant financial and human 
resources from the mission to focus on supply reduction, DEA attempts 
to bring balance to the agency's approach by providing demand reduction 
activities both in the field and at the headquarters level.
    Established in 1986, DEA's Demand Reduction Section (CPD) provides 
information to the public including youth, community groups, educators, 
law enforcement organizations and businesses about drug prevention and 
the dangers of drugs. This is accomplished through the efforts of the 
agency's 22 field Demand Reduction Coordinators (DRC) and headquarters 
support staff. The staff closely coordinates training programs, 
seminars and other prevention-related activities with federal, state, 
and local drug prevention agencies and organizations nationwide, 
providing training and technical assistance to audiences around the 
country. In total, the Demand Reduction program represents less than 
one percent of the agency's annual budget appropriation.
    DEA's Demand Reduction program has four national priorities. These 
priorities include: mobilization of communities and public awareness; 
education of youth; education of parents; and drug free workplaces. 
Stemming from these priorities are numerous initiatives to increase 
awareness about drugs and provide organizations with advice and the 
tools they need to succeed. They include:
  --MET II /``Cutting Edge'' Training.--DEA has Mobile Enforcement 
        Teams (METs) that, at the invitation of a community's police 
        chief, sheriff, or prosecutor, discretely work in a community 
        for several months to eliminate targeted violent drug-
        trafficking organizations impacting the community. After the 
        MET team completes its work, DEA sends a team of five leaders 
        from that community to a three-day training session to learn 
        how to develop and operate a community coalition and develop 
        and implement a drug-and-crime-prevention plan. This training 
        is called ``MET II'' and it incorporates the ``Cutting Edge'' 
        crime prevention and community mobilization curriculum widely 
        used in crime prevention. The Department of Justice and DEA pay 
        for the training, so there is no cost to the participants. 
        DEA's goal is to offer the training to every community that has 
        hosted a MET deployment. To date, DEA has hosted 5 training 
        sessions for 394 leaders in 87 communities across the United 
        States DEA is in the process of surveying these communities to 
        see how they are using what they learned in the training.
  --Teens in Prevention (TiP).--TiP is a network of youth-driven, 
        community-supported, school-based organizations. The goal of 
        this network is to increase the number and effectiveness of 
        young people, adults, and community organizations involved in 
        drug and violence prevention. With a focus on individual 
        responsibility and positive peer pressure, TiP is based on the 
        idea that teens hear information coming from adults as 
        lectures, but they hear information coming from their peers as 
        gospel. TiP was launched in El Paso, Texas, in 1998 and now 
        over 5,000 teens belong to TiP groups in Texas as well as in 
        New Mexico and Colorado.
  --Youth Leadership Conferences.--Keeping in mind the impact that 
        youths have on other youth, DEA holds these conferences around 
        the country. The purpose of this week-long event is to promote 
        leadership skills and education about prevention issues. 
        Conferences have been held in San Antonio, Texas as well as in 
        Milton, Florida (at a Naval Air Station), and at the Pensacola 
        Naval Air Station in Pensacola, Florida. To date, over 100 
        youth leaders have attended these sessions.
  --Law Enforcement Explorers.--Throughout the United States, DEA DRCs 
        are working with Boy Scouts and Law Enforcement Explorers. In 
        some cases, DEA sponsors the Explorer post. DRCs provide 
        training in the area of narcotic enforcement, community 
        involvement, and general drug abuse issues for Explorers. The 
        CPD always participates in the Boy Scout Jamboree every 4 
        years, as well as the biennial Law Enforcement Explorer 
        Conference and Explorer Leadership Training sessions held at 
        both the DEA and FBI Academies during the summer.
  --Drug Free Workplace Training.--Most DRCs are conducting this 
        training on a routine basis. While most large corporations have 
        adopted Drug Free Workplace policies, small businesses are 
        still in need of training. DRCs can provide this training, 
        helping to develop policy for the company, implement Department 
        of Transportation regulations, and assist in providing updates 
        on the drug abuse situation in any particular community.
  --Regional Club Drug Conferences.--Following an International Club 
        Drug Conference in July, 2000, CPD planned Regional Club Drug 
        Conferences in a number of cities in the United States. The 
        first conference was recently held in Atlantic City, New Jersey 
        and was attended by approximately 250 participants from the law 
        enforcement, treatment and prevention communities. Two other 
        conferences are planned for fiscal year 2001 in San Diego and 
        Chicago. The focus of these conferences is to provide 
        information on the dangers of club drugs and work to find 
        solutions for dealing with the problem. Evaluations of the 
        first conference were outstanding. Additional Regional 
        Conferences are planned for fiscal year 2002 throughout the 
        United States.
    In addition to these programs, there are a variety of demand 
reduction initiatives going on in each of DEA's 22 field divisions 
around the country. Many DRCs provide drug prevention and education 
training for parents, teachers, community leaders and law enforcement.
    It has been and will continue to be the DEA's position that agency 
efforts will be focused primarily on its supply-based mission. However, 
DEA will continue to pursue opportunities to partner with government 
agencies and other organizations with demand-based missions to address 
demand-based issues. Such collaborative efforts will receive DEA 
attention to the fullest extent possible without detracting from the 
agency's given mission.
    Question. Since quantities interdicted seem to produce ever upward 
budgets for the agency, when the seizures may indicate a failure to 
stem the flow of drugs, what should we use as an indicator of success 
in the war on drugs?
    Answer. The perception that seized quantities of illicit substances 
has a causal and proportionate relationship to the size of the DEA's 
budget is unfortunate when there are factors, such as the cost of 
investigative tools and basic agency support functions (i.e., Title III 
support, Firebird), that account for significant portions of the 
agency's recent budget increases.
    The collective seizure trends of the DEA and of the other federal, 
state and local law enforcement entities may or may not indicate 
success in the overall assessment of the United States law enforcement 
community to impact the supply of drugs in the United States. The 
ability to isolate seizure data as an indicator is troublesome at best 
given the other potentially contributing factors such as the 
improvement of data-sharing relationships and investigative techniques 
among agencies. Other externally-based factors may include the per-
shipment distribution methods employed by traffickers and their 
concealment methods.
    But beyond these difficulties in assessing the relationship, if 
any, between seizure data and success in anti-drug activities by the 
DEA, the most appropriate indicator has very little to do with data 
such as drug quantities seized. The DEA has developed a 5-year 
strategic plan in which more appropriate indicators have been 
introduced. Termed Measures of Effectiveness, DEA sets forth 
Anticipated 5-Year Outcomes in 3 areas: International Impact Targets, 
National Impact Targets, and Local Impact Targets. While DEA includes 
indicators tailored to each area, the indicator common to each 
references the disruption of targeted drug organizations. It is this 
disruption assessment that is the most appropriate indicator to measure 
DEA's success in anti-drug efforts.
    The indicators apply to DEA's contribution to the nation's anti-
drug efforts. Any more comprehensive assessment must be made a higher 
level and include an assessment of the efforts put forth by all 
agencies with anti-drug functions, whether supply- or demand-based.
                linking dea's budget to gpra indicators
    Question. According to the 2002 budget, the Administration has 
mandated that agencies use performance-based budgeting on selected 
programs in the fiscal year 2003 budget cycle.
    Under this mandate, agencies will be required to submit 
performance-based budgets for selected programs in the fiscal year 2003 
budget process, the first time agencies have been required to tie their 
spending decisions to performance goals.
    The Department of Justice (DOJ) was among the poorest performers 
under the criteria by which performance plans were reviewed by the GAO 
as well as in the Mercatus evaluation.
    Please tell me what specific steps you see necessary to improve the 
agency's performance plan and how this will be coupled with the 
Department's performance plan in order to fulfill the new mandate.
    Answer. While, it is true that the Justice Department's fiscal year 
2001 Performance Plan received low marks from the Mercatus Center and 
GAO; the evaluation of the combined fiscal year 2000 Performance Report 
and fiscal year 2002 Performance Plan noted significant improvement. In 
the recent ranking by the Mercatus Center, the DOJ moved from 23rd to 
the 5th position. In addition, GAO addressed many of the improvements 
that DOJ made under the section comparing the performance report and 
plan with the previous year's report and plan. In regard to planning 
and reporting of DEA's mission accomplishments, we are continuing our 
efforts to improve performance measurement.
    To accomplish our mission, the DEA developed a Strategic Plan, 
which sets forth the agency's strategic goals and objectives over a 5-
year time frame. It provides the long range goals and strategies by 
which we will measure our progress and be held accountable. This 
Strategic Plan is key to establishing and maintaining a clear focus on 
the outcome of our efforts in response to the Government Performance 
and Results Act (GPRA) of 1993. The plan builds on the statutory 
mandated mission of the DEA. It provides the framework within which we 
prioritize and allocate our resources and establishes the foundation 
for the development of more detailed annual performance plans, budgets, 
and related program performance information.
    In order to improve the agency's performance plan there must be 
clearly articulated Critical Success Factors set forth in the agency's 
Strategic Plan in measurable terms. In other words, the actual 
performance measures must be set. This is the articulation of how DEA 
will measure its primary indicators, i.e., the disruption or 
dismantlement of targeted drug trafficking organizations. Second, DEA 
must set its performance goals for the assessment period. The 
performance goals will be based on a Priority Target list assembled 
from the field and refined by headquarters. Third, DEA must adopt 
whatever data collection mechanisms necessary to accurately and 
efficiently assemble the measurement. This is likely to include some 
traditional databases measuring operational output, but more 
importantly will include the development of a data system sufficient to 
capture resource data that is connected to the activity on drug 
trafficking organizations contained in the agency's Priority Target 
list.
    This information will feed the Department's performance plan by 
providing meaningful data that can easily be blended with that of other 
DOJ counterparts without relying solely on traditional statistics, such 
as arrests and seizures.
    Question. Do you have preliminary thoughts on which programs will 
be chosen for performance-based budgeting?
    Answer. DEA plans to submit future budget requests in a format that 
is consistent with its Strategic Plan framework. Specifically, funding 
will be tracked by the 4 DEA Strategic Focus Areas: International 
Targets, National/Regional Targets, Local Impact, and Management 
Infrastructure.
    DEA has not yet set in motion a decision process to determine which 
agency programs will receive the benefit of performance-based 
budgeting. Until a comprehensive assessment mechanism is in place, it 
is premature to identify any programs, therefore no preliminary 
selections can be put forth at this time.
                   dea work with amtrak in new mexico
    Question. Although this program ended some 3 weeks ago, for several 
years Amtrak provided federal drug police in Albuquerque with ticketing 
information about passengers. As part of a singular arrangement, a 
computer with access to Amtrak's ticketing information resides in the 
DEA's local office. This computer can provide drug agents with 
information such as passengers' names, origination and destination, and 
whether the passenger paid for their travel with cash or credit as well 
as when the ticket was purchased. Information obtained from Amtrak 
helped drug agents determine which passengers they speak to and whose 
luggage could be checked by a canine as trains roll into Albuquerque. 
Amtrak receives 10 percent of any cash seized from suspected drug 
couriers at the Downtown Albuquerque Station.
    When the article was written, the Albuquerque DEA office indicated 
that, although ``substantial,'' it did not immediately know how many 
arrests had been made or how much cash had been seized. Also, the 
specter of Constitutional concerns, such as ethnic targeting and 
unreasonable searches and seizures, seemed to be arising.
    Please provide me with specific information on the number of 
arrests, cash seized, and all demographics of those arrested including 
such data as origin of travel.
    Answer. Statistics are for October 1, 1999--April 12, 2001
Demographics of Arrested Subjects:
    White Non-Hispanic Males: 30.2 percent.
    White Hispanic Males: 25.4 percent.
    Black Non-Hispanic Males: 23.8 percent.
    Black Non-Hispanic Females: 6.3 percent.
    White Non-Hispanic Females: 6.3 percent.
    White Hispanic Females: 6.3 percent.
    Other: 1.6 percent.
Travel Origin Cities:
    Los Angeles, California
    San Bernardino, California
    Fullerton, California
    Flagstaff, Arizona
Seizures:
    U.S. Currency--$2,427,848.
    Marijuana--470.7 kilograms.
    Cocaine--20.55 kilograms.
    Crack Cocaine--3.25 kilograms.
    Methamphetamine--2 kilograms.
    Heroin--.4 kilograms.
    Ephedrine (Precursor for methamphetamine)--74 kilograms.
    DEA does not utilize racial profiling or employ a national drug 
trafficker profile that our Special Agents invoke in deciding whether 
to approach or investigate a particular individual. Rather, DEA agents 
rely upon their experience and training in determining when to commence 
an investigation. Experience has shown that there are clear patterns of 
activity that some drug traffickers, particularly drug couriers, often 
display. DEA does train its agents and law enforcement personnel from 
other agencies concerning behaviors and activities that experience has 
shown are consistent with drug trafficking. Proactive narcotic law 
enforcement is an effective strategy to protect the public from the 
drug-related crime and violence. Drug enforcement activity based on 
race, national origin or gender is not only ineffective, but it is 
unethical and illegal. Such methods have no place in DEA, or in law 
enforcement in general.
    Question. What is the status of any Constitutional challenges, 
including those based on sharing of private information by federal 
agencies, to this practice? Please provide information concerning the 
numbers of cases in which a Constitutional challenge was raised and the 
disposition.
    Answer. DEA is not aware of any Constitutional challenges regarding 
DEA's access to the AMTRAK reservations systems. Based on our research 
to date, we find no such issues. DEA's access to the AMTRAK 
reservations systems is a matter of public record, and is thoroughly 
reported in the federal case law. AMTRAK also monitors its reservations 
systems for suspicious activity. The core issue here is that the 
information DEA accesses belongs to AMTRAK, not the individual, and the 
Supreme Court has held that an individual does not have an expectation 
of privacy in information he or she has disclosed to a third party.\1\ 
If the government's access to information is not prohibited by the 
Fourth Amendment, the only other protection a party might have is 
statutory, such as exists with information maintained by electronic 
communications service providers,\2\ and financial institutions.\3\ But 
we know of no statutes that prohibit the government from obtaining 
train manifests from AMTRAK.
---------------------------------------------------------------------------
    \1\ See United States v. Jacobsen, 466 U.S. 109, 118, 104 S. Ct. 
1652, 80 L. Ed. 2d 85 (1984) (``It is well settled that when an 
individual reveals private information to another, he assumes the risk 
that his confidant will reveal that information to the authorities, and 
if that occurs the Fourth Amendment does not prohibit governmental use 
of that information.''); United States v. Miller, 425 U.S. 435, 443, 96 
S. Ct. 1619, 48 L. Ed. 2d 71 (1976) (``This Court has held repeatedly 
that the Fourth Amendment does not prohibit the obtaining of 
information revealed to a third party and conveyed by him to Government 
authorities, even if the information is revealed on the assumption that 
it will be used only for a limited purpose and the confidence placed in 
the third party will not be betrayed.'').
    \2\ See 18 U.S.C. Sec.  2703(c)(1)(A)(2001) (``Except as provided 
in subparagraph (B), a provider of electronic communication service or 
remote computing service may disclose a record or other information 
pertaining to a subscriber to or customer of such service . . . to any 
person other than a governmental entity.'').
    \3\ See 12 U.S.C. Sec.  3402 (``no Government authority may have 
access to or obtain copies of, or the information contained in the 
financial records of any customer from a financial institution'').
---------------------------------------------------------------------------
    To date, defendants whose arrests have flowed from DEA's access to 
AMTRAK's reservations records have unsuccessfully raised Equal 
Protection objections based on race,\4\ and unsuccessfully challenged 
the government's ability to use administrative subpoenas to obtain 
passenger information.\5\ Those issues disposed of, our research has 
disclosed no other constitutional issues.
---------------------------------------------------------------------------
    \4\ See United States v. Gordon, 173 F.3d at 761-768 (``[The 
defendant] makes much of the fact that the description provided by 
[AMTRAK] referenced his race and from that he reasons the tip was race-
based. This rampant speculation is not supported by any evidence in the 
record. . . . [The defendant] ignores the evidence that prompted the 
Amtrak employee to contact the DEA in the first place--he had purchased 
a one-way ticket, with cash, only minutes before the train departed. 
The AMTRAK employee contacted the DEA after noting these facts because 
the employee previously had been told by the DEA that these facts fit 
the DEA profile of an individual who is a likely transporter of 
drugs.'').
    \5\ See United States vs. Moffett, 84 F.3d 1291-1293 (10th Circuit 
1996) (defendant lacked standing to challenge Government's use of 
administrative subpoena against AMTRAK).
---------------------------------------------------------------------------
    Question. What are your plans to share this information with other 
enforcement agencies?
    Answer. The passenger information contained in the Amtrak database 
was used by members of the Albuquerque District Office's interdiction 
unit working at the train station. An officer with the AMTRAK Police 
Department is a member of this interdiction unit. The passenger 
information provided some indicators that, coupled with the agent or 
officer's training and experience, gave them reasonable suspicion to 
believe that an individual may be a drug courier. The agent or officer 
would either approach the individual in the Albuquerque train station, 
or pass the information on to a law enforcement agency in a city where 
the train was destined.
    DEA did not utilize passenger information contained in the Amtrak 
database to develop a separate DEA database so that DEA could share the 
names of all AMTRAK passengers with other law enforcement agencies. DEA 
was only interested in identifying and interviewing suspected drug 
couriers.
                                 ______
                                 
         Questions Submitted by Senator Ben Nighthorse Campbell
                                ecstasy
    Question. It has come to my attention that there is a new drug on 
the streets of our country known as Ecstasy and we have seen a dramatic 
increase in the use of it over the last year or so. There have been a 
couple of high profile cases in my home state of Colorado where young 
adults who have taken this drug have died.
    What, if any, findings has the DEA come across with regard to 
Ecstasy manufacturing, distribution, and use? Has the DEA seen an 
increase in the amount of Ecstasy tablets penetrating our borders from 
overseas distributors? Given this, can we determine from what region, 
or what specific countries these tablets are coming from? What are the 
major ports of entry?
    Answer. Methylenedioxymethamphetamine (MDMA), or Ecstasy, is a 
synthetic, psychoactive drug possessing stimulant and mild 
hallucinogenic properties. Ecstasy is a dangerous drug--deceptively 
dangerous. For this reason, the widespread growth of Ecstasy use has 
been nothing short of alarming. Ecstasy-related emergency room 
incidents have increased from 1,143 in 1998 to 2,850 in 1999, the last 
full year for which data is available. In 2000, DEA seized over 3 
million tablets of Ecstasy, compared to slightly over 1 million tablets 
in the previous year.
    The oral form of MDMA is usually sold in tablets inscribed with 
brand logos such as the trade symbols of Mitsubishi, Rolex, and the 
Rolling Stones. MDMA was temporarily listed as a Schedule I controlled 
substance on an emergent basis in 1985 and permanently placed into 
Schedule I in 1988. The vast majority of MDMA consumed worldwide is 
manufactured in clandestine laboratories based in Western European 
countries such as the Netherlands and Belgium. Once the MDMA reaches 
the United States, a domestic wholesale distributor will sell the drug 
for $6 to $8 per tablet. The retailer then distributes it for $25 to 
$40 per tablet.
    The MDMA manufactured in Europe is routinely transported and 
distributed by factions of Israeli and Russian organized crime groups. 
These organizations also utilize couriers, common carriers and parcel 
services to facilitate the transport of MDMA into and within the United 
States. Recently, Colombian and Dominican trafficking organizations 
have become involved in the transportation and distribution of MDMA.
    The increase in MDMA consumption is directly related to the 
increased popularity of a social gathering known as the ``rave,'' an 
all night techno-dance party. The common rave participant can be as 
young 14 years old and as old as the mid to late 20s. Participants can 
take several MDMA tablets during an evening spent at a rave to enhance 
the rave experience. Unfortunately, many teens do not perceive MDMA as 
harmful or dangerous. Acute effects of MDMA ingestion include bruxism 
(teeth grinding), trismus (jaw clenching), increased heart rate, 
increased blood pressure, hyperthermia, sweating and dehydration. 
Complications from MDMA use include acute renal failure, cardiac 
arrhythmia, cardiovascular collapse, cerebral infarction, depression, 
mental fatigue and psychosis.
    The Drug Abuse Warning Network (DAWN) estimates reveal that 
nationwide hospital emergency room mentions for MDMA increased 
dramatically from 1993 to 1998. Seizures of MDMA also have increased 
drastically from 1993 to 1999. There have been reports of deaths in the 
United States and abroad related to the ingestion of PMA (para-
methoxyamphetamine), which is represented and sold as MDMA. While the 
drugs may be chemically similar, it appears that PMA does not share the 
same physiological effects as MDMA. Believing that the tablets have a 
lower concentration of MDMA, the user will take several more tablets in 
a short period of time (``stacking'') to attempt to achieve the desired 
effect. This repeated ingestion of tablets could lead to toxicity and a 
potentially fatal overdose.
    Question. What has been done to stem the rising number of incidents 
involving the use of this drug? What specific action or plan of action 
is the DEA taking to curtail the illegal importation of Ecstasy into 
the United States? On a national front? On a local front (communities 
and schools)?
    Answer. Due to the exponential growth of MDMA use and abuse, DEA 
has developed a very ambitious multi-faceted MDMA/Club Drug Initiative. 
The primary objective of this approach is to target and dismantle 
various elements of the MDMA trafficking groups from all fronts--
international, national and local. To augment this enforcement 
initiative, DEA also has instituted a very aggressive demand reduction 
program targeted at students and parents alike.
    Through close coordination and the sharing of intelligence with our 
foreign host counterparts, DEA has identified several international 
MDMA drug trafficking organizations and their surrogates that transport 
and distribute MDMA throughout the United States. Because the 
Netherlands is the principal source zone for ecstasy destined for the 
United States, DEA has worked closely with Dutch and other European law 
enforcement authorities in an effort to dismantle these MDMA 
trafficking organizations. On a national front, through close multi-
agency coordination, DEA continues to pursue the domestic command and 
control networks of these organizations. By utilizing the resources of 
the Special Operations Division, DEA, in conjunction with the Federal 
Bureau of Investigation, the United States Customs Service, the 
Internal Revenue Service and other federal, state and local agencies, 
has effectively identified and dismantled several of these 
organizations.
    On a local level, it has been well established that raves are the 
primary venues in which MDMA is used. It is quite evident that many 
rave club owners and operators cater to MDMA users and appear to 
advocate the club drug culture. As such, in furtherance of this 
initiative, DEA, in close coordination with state and local 
counterparts, has attempted to reduce rave activity through enforcement 
of juvenile curfews, health and fire code ordinances and various 
licensing requirements. Furthermore, DEA field divisions identify the 
most active rave clubs in their areas of responsibility as well as 
resources necessary to target these clubs and their owners/promoters. 
One anti-rave initiative of note was undertaken in New Orleans, 
Louisiana, by the DEA New Orleans Field Division, the New Orleans 
Police Department and the U.S. Attorneys Office. Through the innovative 
use of 21 U.S.C. 856, also referred to as the ``Crack House'' statute, 
a rave promoter was arrested and the largest rave operation in New 
Orleans was closed. Perhaps most significant is the fact that since the 
completion of this operation, ``club drug'' related overdoses in New 
Orleans have dropped 90 percent, with ecstasy overdoses disappearing 
altogether. This statistic clearly shows a very strong correlation 
between rave activity and club drug overdoses resulting in emergency 
room visits.
    To focus national attention on the MDMA threat, DEA hosted the 
International Conference on Ecstasy and Club Drugs in partnership with 
approximately 300 officials from domestic and foreign law enforcement, 
judicial, chemical, prevention and treatment communities. The 
conference was held from July 31, 2000, to August 2, 2000, at DEA 
headquarters in Arlington, Virginia. As a follow-up to last year's 
conference, DEA is planning a series of regional club drug conferences, 
that will serve the purpose of taking DEA's demand reduction message 
out to a variety of selected communities. The first of these regional 
conferences was held in Atlantic City, New Jersey on May 2-3, 2001. 
Hosted by the DEA Newark Division in conjunction with the New Jersey 
State Police, and New Jersey Prevention Network, the conference focused 
on providing community based solutions to problems relating to the 
abuse of club drugs. Future regional conferences will be held in 
Austin, Texas, San Diego, California and Chicago, Illinois. 
Furthermore, the following demand reduction objectives have been 
institutionalized by DEA. These objectives include:
  --Working with local, state, and other federal agencies and nonprofit 
        organizations in an effort to advance drug education and 
        prevention;
  --Enhancing parental knowledge of raves and club drugs and engage 
        their active participation in education and prevention of drug 
        abuse; and
  --Educating high school and college students on the realities of 
        raves and the effects of club drugs on the human body.
    The education of high school and college students on the realities 
of raves and the effects of club drugs in the human body is a necessary 
part of DEA's demand reduction program. Institutions of higher 
education that receive federal funds are required under the Higher 
Education Act to implement a drug and alcohol abuse prevention program 
for students and staff, and the DEA, working with the Department of 
Education, must focus institutions' efforts on meeting this 
requirement.
    Finally, DEA will continue to apply a ``holistic approach,'' 
utilizing a well coordinated combination of programs that include 
Demand Reduction, Education, Treatment, and a Law Enforcement strategy 
that makes maximum use of realistic penalties that reflect the 
destructive nature of Ecstasy trafficking.
                                 hidta
    Question. As you know, the DEA has participated in the Rocky 
Mountain HIDTA program since it was created in 1996. This combined 
anti-drug enforcement effort among federal, state, and local law 
enforcement agencies has been expanding its anti-drug efforts in the 
Rocky Mountain region. I would be interested in your opinions and 
observations as to the success and effectiveness of the HIDTA program 
generally, and the Rocky Mountain HIDTA specifically.
    Answer. The HIDTA program has shown some definite results, and has 
been particularly effective in uniting local, state and federal 
agencies in the pursuit of high level regional, national and 
international investigations.
    In general the HIDTA program has been very successful in achieving 
its individual goals and objectives in support of the National Drug 
Control Strategy. In most instances there have been continuously 
improving coordination and cooperation among all the HIDTA participants 
at all levels. Even the newly established HIDTAs have this as a 
principal goal to achieve for success. It should be noted that HIDTA 
functions through task forces that are chaired by various participating 
agencies. HIDTAs have continued to have a regional impact on drug 
enforcement operations.
    The Rocky Mountain HIDTA is unique in its geographical scope. It is 
one of only a few HIDTAs that covers more than one state. The Rocky 
Mountain HIDTA covers 3 states covering approximately 286,000 square 
miles with a total population of approximately 7 million people. The 
region includes two major interstate highways, I-70 and I-80, that are 
primary corridors for illicit drugs going from California to areas of 
the midwest and the eastern United States. Traffickers from the 
southwest border are using rural highways through New Mexico and 
Arizona with no need to hit major interstates until well into Colorado 
and Utah where they are able to reach I-25 and the I-70 corridor.
    Due to the large geographical area involved, the Rocky Mountain 
HIDTA has a greater number of initiatives than most other HIDTA's. Many 
of these initiatives do not have direct federal participation due to 
the limited number of federal resources in such a large geographic 
area.
    Investigative initiatives have upgraded their investigations to 
focus on a more regional and national level. There is new emphasis on 
pursuing the investigations as far as possible, even outside their 
initial jurisdiction and outside their state. There is a new attitude 
of cooperation, coordination and support among the different 
initiatives working more closely than they have in the past. Arrest of 
drug traffickers, drug seizures, clan lab seizures and dismantling/
disrupting of drug trafficking organizations have all increased. The 
number of investigations that were coordinated outside the Rocky 
Mountain HIDTA region also has increased.

                          subcommittee recess

    Senator Gregg. If there is nothing further, the 
subcommittee is recessed.
    [Whereupon, at 11:34 a.m., Thursday, May 17, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED 
              AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2002

                              ----------                              


                        THURSDAY, JUNE 28, 2001

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:23 a.m., in room SH-216, Hart 
Senate Office Building, Hon. Ernest F. Hollings (chairman) 
presiding.
    Present: Senators Hollings, Inouye, Kohl, and Stevens.

                   FEDERAL COMMUNICATIONS COMMISSION

STATEMENT OF MICHAEL K. POWELL, CHAIRMAN
    Senator Hollings. The committee will come to order. We 
apologize for the lateness, but these votes and work on the 
floor has kept our ranking member, Senator Gregg, from being 
here. He is handling the bill on the floor.
    We welcome Chairman Powell this morning and we would be 
delighted to hear from you, sir.
    Mr. Powell. Thank you, Senator. It is always an honor and a 
privilege to appear before you. I am particularly pleased to do 
so given that so many of the members of this subcommittee are 
also on our authorizing committee. It gives us an opportunity 
to continue the dialogue that we began in one forum and 
continue it in another to make sure that we have the resources 
we need to deal with the challenges we face.
    Simply put, we know the old adage is things change. 
Sometimes they do more than change, they transform and 
metamorphosize, and I would suggest that that is the basis of 
the challenges we are facing in the communications industry 
today.
    The Federal Communications Commission is in a period that 
it has never faced before. Virtually every segment of its 
portfolio is in the midst of its most profound revolution, 
whether that be television, cable, wireless technologies, or 
satellite technologies. All of them are struggling to take 
advantages of substantial and dramatic technological 
breakthroughs that will change forever not only the way they 
provide service, but the potential kinds of products and 
services that are going to be available to our citizens. The 
Federal Communications Commission is going to sit in the midst 
of this, trying to figure out the proper and thoughtful 
regulatory paradigm that will govern in this period of 
transformation. All the while, service providers attempt to 
move their architectures to the advanced IP based, digital type 
of architectures that are more efficient and offer more 
possibility and potential for consumer welfare. So the role of 
the Federal Communications Commission is going to be critical 
in that regard.
    It seems to me that in order for us to do our job well, we 
are going to have to have a period of change ourselves to make 
sure that we have what equates to a blueprint or business plan 
that allow us to be an efficient, effective, and responsive 
institution in the midst of this uncertainty, cacophony, and 
change. We believe that that challenge is going to be 
paramount, and so we have begun to develop what I fondly refer 
to as the Commission's business plan. That business plan will 
have four key planks.
    The first is to constantly struggle to provide a clear, 
substantive policy vision that guides our deliberation. It is 
becoming crystal clear to me that we have to have a very 
pointed focus on advanced technology development and 
deployment, broadband technology for our citizens whether that 
is wireline and cable and DSL, whether it is in the wireless 
space in the name of third generation and advanced wireless 
infrastructures, or whether it is new satellite offerings. 
These are the products and services that our consumers are 
waiting to receive and I think that that has to be a central 
focus of the Commission.
    But all the vision in the world is useless if we do not 
take our responsibilities to operate and manage the agency 
effectively and efficiently. I take great pride--it is not a 
burden to me--in being the central manager of the Federal 
Communications Commission. I take that part of the 
responsibility deeply seriously. I think the Commission needs 
to be an agency that can get to the bottom of things 
effectively and make decisions quickly to remove the 
uncertainty associated with regulatory action.
    We are working hard to do that. We have developed annual 
strategic planning cycles. We are looking to measure our 
productivity measures across bureaus and offices. We are 
working hard to modernize our internal IT structure, putting 
greater emphasis on efficient electronic filing and the kinds 
of automated processes that allow us to get through our work 
more efficiently. And we are working on telecommuting so that 
our employees have the opportunity both to invest in their 
families as well as their workplace, and can continue to use 
the technology to provide a contribution to the public 
interest.
    The third component, and I think perhaps the most important 
component of an FCC----
    Senator Hollings. I started to say ``amen.'' You are doing 
great, but I heard the expression ``public interest'' and I 
appreciate it.
    Mr. Powell. Thank you. I know that is of interest to you 
and all of us.
    The third component, which I think is the most important, 
that has been neglected, frankly, over the years, and that is 
the understanding that the agency is in a position of needing 
an independent indigenous technical capability. I will tell 
you, I have been at the Commission 4 years and I have seen the 
pitfalls of regulating companies and dealing with regulatory 
decisions with the likes of Steve Case or Bill Gates having to 
teach us how their technology works at the same time we are 
supposed to make an independent regulatory judgment about that.
    It is at some levels at crisis stage, and we are fond of 
pointing out that in 4 years, 40 percent of our engineers are 
eligible for retirement and we simply are not replacing that 
capability at anywhere near that rate of attribution. We need 
to make sure that our engineering and technical components will 
get improved upon so that we can make those decisions more 
effectively in a world to which the technology is the central 
driver of change in that industry.
    Not only do we need focus on the recruitment and retention 
of technical talent, we need to have professional development 
and training when we get them. Engineers have to stay current 
in their guild. They have to have the programs and policies 
that allow them to continue to stay on the cutting edge and we 
need to modernize our own engineering laboratory facilities so 
that we can use the tools there to measure conflicting and 
competing claims about technology and interference and issues 
of the like.
    And finally on that component, I think we have to remember 
that the technology issues are not just one for technologists. 
They are for lawyers and economists and policy makers and 
analysts, as well. We have to have a confluence in that regard. 
One of the things I am most proud of is we are building what I 
like to refer to as the ``FCC University''. We are working hard 
to develop an annual curriculum of courses in which we use our 
most talented individuals to hold instructional courses. We 
have partnered on occasion with universities, with professors, 
with scholars, with technologists, so that our employees have 
an annual cycle of being able to access that curriculum, take 
courses to stay current in their field, and hopefully be 
revitalized both in their morale and their attention to public 
service, which I think is also critical to the country.
    And finally, the Commission needs to take a concerted and 
thoughtful study of its organizational structure to see whether 
it is organized optimally to make the kinds of decisions that 
these markets are increasingly demanding. We have all heard the 
overused word and concepts of ``convergence'', but what it does 
mean is the traditional ``buckets'' which we often look at in 
terms of regulatory policy are more and more strained by the 
cross-interests of different organizations and we need to look 
at whether there are thoughtful ways to reorganize the 
Commission in a way that it can more effectively respond to 
those functions.
    But to be clear on that, in my opinion, that is not cutting 
the agency. I don't envision any significant diminution of 
personnel or assets, but more an optimization of the way we are 
organized and a more fruitful use of the people that we do have 
so that we can make decisions in this world of converged 
uncertainty.
    So within that regard, the Commission's budget submission, 
we ask that you and the American taxpayer invest $248.5 million 
in that regard. That is maintaining the current level of the 
labor force at about 1,975 FTEs. This represents approximately 
an 8 percent increase over last year.
    As is usually the case with the Commission, we have chosen 
to seek most of that increase in the form of regulatory fees as 
opposed to direct appropriations. The direct appropriations 
component of the budget submission remains flat over last year, 
and that is the program that we hope to work with this 
committee and our authorizers to put into place and, hopefully, 
make it an institution that not only the committee but the 
American taxpayer is proud of.

                           prepared statement

    And so with that, I am more than honored and happy to 
entertain your questions.
    [The statement follows:]
                Prepared Statement of Michael K. Powell
    In order to serve the American public, the Federal Communications 
Commission, as an institution, must be efficient, effective, and 
responsive. The challenges of reaching these goals at the Commission 
are complicated by the sweeping, fast-paced changes that characterize 
the industries that we regulate. Indeed, the Commission is experiencing 
a challenge it has never faced--each industry segment in our portfolio 
is in the midst of revolution, and is attempting to adapt to 
fundamental economic and technological changes. There are new markets, 
new competitors, and new regulatory challenges.
    Our fiscal year 2002 budget reflects the Commission's mission to 
keep abreast of industry changes and set rational productivity and 
regulatory goals. We are asking you to invest $248.5 million to ensure 
that the FCC has the tools to facilitate its reform efforts, upgrade 
its technological capabilities and further enhance its workforce. My 
goal is not only to make the Commission an example of efficient 
management practices, but to create and maintain an employee friendly 
environment--a place where employees can hone their skills and take 
pride in their service to the American people, as well as a place where 
employees have plenty of time to invest in their families. We can work 
together to encourage participation in telecommuting programs, build 
internal training programs, and utilize programs designed to lure the 
best and the brightest to government service. We can do this by 
purchasing and maintaining state of the art technological equipment to 
ensure better service to the public as well as a productive workplace.
    My request for funding is tied to a specific business plan that I 
present here today for your evaluation. We have developed this plan 
along four dimensions: (1) a clear substantive policy vision, 
consistent with the various communications statutes and rules, that 
guides our deliberations; (2) a pointed emphasis on management that 
builds a strong team, produces a cohesive and efficient operation, and 
leads to clear and timely decisions; (3) an extensive training and 
development program to ensure that we possess independent technical and 
economic expertise; and (4) organizational restructuring to align our 
institution with the realities of a dynamic and converging marketplace.
    My goal is to improve the agency on all these levels--and to make 
many of these changes within the next year. To that end, I have been 
seeking opinions from a wide range of participants, including Members 
of Congress and their staffs, the businesses that come before the 
Commission, consumer groups, and our own skilled employees.
    I cannot predict the future, nor can anyone else at the Commission. 
When faced with future challenges that are uncertain, the best approach 
is to build a first-class operation, with top talent, that is trained 
and disciplined enough to adapt quickly to new and changing situations. 
I hope to build, along with my colleagues and the outstanding FCC 
staff, just such a unit--one well suited to an uncertain future.
    Mr. Chairman, Ranking Minority Member, and Members of the Commerce, 
Justice, State Appropriations Subcommittee, thank you for inviting me 
to appear before you today to present the Federal Communications 
Commission's (``FCC'') fiscal year 2002 Budget and discuss our 
priorities for the year ahead.
    Although I have testified before the Senate before, this is my 
first appearance before your subcommittee. I want to use this 
opportunity to affirm my commitment to working with the Members of this 
Subcommittee to build a better FCC. I also want to thank the members of 
this subcommittee for their unyielding support in seeing to it during 
the past few years that the Commission received sufficient funding to 
complete its core mission. Although the Commission is an independent 
regulatory agency, the assessment, development and implementation of 
communications policy is a team-effort, with shared responsibilities 
between the various branches of government. It is my primary 
responsibility to ensure that the FCC follows its statutory mandates in 
enforcing communications laws. And, I want to work with you to make the 
Commission a model of efficiency and transparency for all independent 
regulatory agencies.
    I believe that a critical part of my job is to be a leader and 
steward of the Commission, and I take this responsibility very 
seriously. In order to serve the American public, the FCC as an 
institution must be efficient, effective, and responsive. The 
challenges of reaching these goals are complicated by the sweeping, 
fast-paced changes that characterize the industries that we regulate. 
Indeed, the Commission is experiencing a challenge it has never faced--
each industry segment in our portfolio is in the midst of revolution, 
and is attempting to adapt to the most fundamental changes. There are 
new markets, new competitors, and new regulatory challenges.
    Serving as Chairman of the FCC at this juncture in history gives me 
a unique opportunity to take stock and assess our regulatory framework, 
and to develop guiding principles that will encourage economic growth 
in the communications sector and maximize consumer welfare. Our fiscal 
year 2002 Budget request represents a critical part of our efforts to 
make the Commission more cost-effective and results-oriented. Today, I 
will provide you with a summary of our fiscal year 2002 Budget 
Estimates and discuss our plans for using these funds to enhance the 
Commission's productivity, and ensuring that we are capable of meeting 
the future needs of both consumers and the communications industry.
                  new beginnings for an old commission
    In order to understand our budget request, it is important to 
assess where we are now, and how we plan to use our resources in the 
future. The Federal Communications Commission received its initial 
statutory authorization when Congress passed the Communications Act of 
1934. It was a time of severe economic depression--but also of 
technological change necessitating regulation of the cacophony of 
voices on the nation's airwaves. The Commission became part of 
Washington's alphabet soup, and developed a culture and structure 
designed to handle the licensing of radio stations. When change came in 
the beginning, it was slow and gradual, from the hardwiring of American 
homes for telephones, even in rural areas, to the advent of television, 
and the introduction of cable--these are the issues that the Commission 
had to deal with in the middle part of the twentieth century. The 
Commission divvied up the airwaves according to what was seen as the 
highest and best use of the spectrum and often decided who would 
receive the spectrum based on the subjective evaluation of the 
character of the applicants.
    The Commission's processes and mission have evolved during the past 
70 years. While we still spend a great deal of time on spectrum 
management, the number of potential users and uses increases 
dramatically each year. Instead of exclusively focusing on broadcasting 
and hardwired phones, we concentrate on expanding the spectrum to 
accommodate new technologies like third-generation wireless and ultra-
wideband. Our goals and regulatory mission are defined in a host of 
adjustments to the Communications Act of 1934, including the 
Telecommunications Act of 1996. Our responsibility to auction the 
spectrum is a creation of the budget and appropriations process, and it 
currently represents both a mechanism for encouraging competition and a 
valuable source of revenue for the U.S. Treasury. Today, the 
Commission's primary mission is to promote a fully competitive 
marketplace as well as access for all Americans to communications 
services. We achieve our mission with a combination of manpower and 
technology--from electronic auctions, to automated licensing, and 
innovative spectrum management techniques.
    No one in 1934, or even 1964, could have foreseen the revolution in 
communications that we have experienced in the last decade alone. We 
know that communications developments are not finite and that they will 
no longer come slowly. The winds of profound and dynamic change, 
unleashed in part by the 1996 Act, have buffeted the Commission and 
blown it into a position where its decisions have far-reaching impact 
on the future of communications, not only in the United States, but 
also throughout the world. We have come a long way from an agency where 
the principal focus was the assignment of radio licenses, and its 
principal activity was conducting lengthy comparative hearings to 
assign those licenses. This new environment is no longer linear, but 
chaotic and dynamic. During the next part of this decade, we expect the 
communications markets to expand exponentially and develop in a 
competitive environment.
    In thirty years, the Commission will not be our FCC, but our 
children's FCC. I want to join with you to make the FCC a better place 
and to ensure that we keep in step with the future. To facilitate 
progress and not stand in its way, we must review our mission and goals 
within the confines of Congress' mandate and develop an internal 
mechanism for improving our ability to foster competition in an ever-
changing marketplace. For this agency to fulfill its congressional 
charge, indeed to remain relevant at all, it must put together a new 
business model and build the type of team that can execute it 
effectively. And with your help, that is precisely what we intend to 
do.
           an investment in the future: the fcc's 2002 budget
    To realize a more effective, efficient and responsive FCC, it 
requires enhancing productivity, management review and retraining, as 
well as technological upgrades to integrate all of these facets into a 
productive work environment. Today, I ask you to invest in achieving 
these objectives. Our fiscal year 2002 Budget requests that you commit 
$248,545,000 to the future of communications policy. Our total budget 
request is $18.5 million over last year's appropriation, representing 
slightly more than an eight-percent increase. This increase is critical 
to financing programmatic and mandatory costs. The budget supports a 
staffing level of 1,975 full-time equivalents (``FTEs''). This level 
includes FTEs funded from both appropriations and auctions resources.
    Much of the increase--41 percent--covers uncontrollable cost 
increases to fund proposed government-wide pay raises, rent increases 
and other inflationary increases. Specifically, our request includes $6 
million for mandatory salary and benefit increases and $1.6 million for 
Consumer Price Index adjustments in contract services. The remaining 
portion of our budget--and, by far the most critical--comprises 
programmatic increases to accomplish the Commission's comprehensive 
information technology strategic plan initiatives. We are requesting 
$10,997,000 for these information technology (``IT'') enhancements. 
This amount includes funding for equipment originally scheduled (but 
not funded) for replacement in fiscal year 2000 and fiscal year 2001.
    We intend to use our requested funding to build upon past 
improvements. In the past few years, we have streamlined our licensing 
procedures and implemented electronic filing capability in 78 
applications--that is 72 percent of all major information systems. At 
the end of fiscal year 2000, approximately 62 percent of all 
applications were filed electronically. And, 93 percent of all 
applicants were acted on within our processing goals. The use of 
information technology has led to improved processing time as well as a 
significant decrease in the number of backlogged applications. The 
failure to invest in our information technology systems, either in the 
form of lifecycle replacement or technological upgrades, could lead to 
backsliding in our backlog elimination operations, and undermine our 
efforts to reform the Commission. It is important, however, that we do 
not automate what may be a flawed process. I intend to initiate a 
strategic review of our processes to ensure that they are accomplishing 
their intended goals.
    I am cognizant of the fact that the funds I request here today 
belong to the taxpayer and not the Commission. For that reason, we ask 
only what is necessary to maintain and improve the Commission's 
services and resources. It is important to note, however, that since 
1987, the Commission has worked to reduce the cost of government 
operations by implementing the congressionally mandated user fee cost 
recovery programs. The first program, the ``Application Processing Fee 
Program,'' was designed to recover a substantial portion of the costs 
of the Commission's application processing functions, which account for 
the majority of the licensing activity costs.
    In 1994, we implemented the ``Regulatory Fees Cost Recovery 
Program.'' Since that time, we have collected fees to recover the costs 
attributable to the Commission's competition, enforcement and public 
information services. Unlike the Application Processing Fee Program, 
these fees can be retained by the Commission and applied to obligations 
incurred during the current fiscal year, thereby reducing the amount of 
appropriated funds required from the General Fund of the Treasury. 
Since fiscal year 1994, the fee offset to our appropriation has 
increased from 38 percent to approximately 87 percent in fiscal year 
2001. I plan to maintain that level and even increase it slightly to 88 
percent during fiscal year 2002. The actual appropriation requested by 
the Commission for the next fiscal year represents $29,788,000 in net 
direct budget authority since we intend to collect $218,757,000 in 
offsetting collections from regulatory fees. I am proud of our work in 
reducing our direct appropriation, and I believe that given the 
appropriate tools, we will improve on this record.
                    keeping our part of the bargain
    Two months ago, I testified before the House Subcommittee on 
Telecommunications and the Internet concerning FCC reauthorization and 
reform. Last month I testified before the House Commerce, Justice, 
State Appropriations Subcommittee. In both of those instances, I gave 
my commitment to following through on reform and asked our House 
authorizers and appropriators to join me in this effort. Although the 
financial needs outlined here are an important component of our reform 
efforts, we already have implemented a management review designed to 
make the Commission a model agency. I pledge to you that I will use the 
taxpayers' funds constructively as a way to improve our services and I 
provide you here with a four-point business plan that you can use to 
evaluate the financial worth of our efforts. Let me emphasize that we 
are not ``reinventing'' the Commission, because that would be Congress' 
prerogative, and until legislation provides us with the ability to 
reprioritize some of our functions, we will work within the statutory 
limits set by Congress. My plan is designed to use our requested 
funding in a constructive fashion--to improve the management and 
employment environment in a way that benefits the American people.
                   fcc reform: the new business plan
    I conceive of FCC reform as a comprehensive retooling and 
redirection of the Commission's entire mission. Our approach is to 
write and execute a new business plan built along four dimensions: (1) 
a clear substantive policy vision, consistent with the various 
communications statutes and rules, that guides our deliberations; (2) a 
pointed emphasis on management that builds a strong team, produces a 
cohesive and efficient operation, and leads to clear and timely 
decisions; (3) an extensive training and development program to ensure 
that we possess independent technical and economic expertise; and (4) 
organizational restructuring to align our institution with the 
realities of a dynamic and converging marketplace.
Substantive Vision
    The United States has a proud legacy in the area of communications 
services. This nation built the finest voice communication system in 
the world, as well as top-notch mass media delivery systems in the form 
of radio, television, and cable. These systems have reached maturity 
though--we understand the basic technology and architecture; we largely 
understand the cost characteristics; and, we understand what the 
consumer wants and what the product is. And, government regulation and 
policy had coalesced around these understandings, principally in the 
form of regulated monopoly and oligopoly.
    We are now only beginning to appreciate and deploy the new advanced 
architectures and technologies of services like broadband. The cost 
characteristics may differ substantially from those of traditional 
networks to which we are accustomed. Broadband Internet products are 
still being developed and we all wait to see what service offerings 
consumers will and will not embrace. It is a world of dynamic and 
chaotic experimentation and unpredictable change.
    I believe government policy needs to migrate steadily toward the 
digital broadband future, but recognize that we will be unable to 
anticipate every change before it happens. I submit that this digital 
broadband migration should be built around incubation, innovation and 
investment. At the Commission, our policy direction will focus on this 
migration and will have several directional guideposts:
  --Facilitate the timely and efficient deployment of broadband 
        infrastructure. Endeavor to promote the growth of a wide 
        variety of technologies that can compete with each other for 
        the delivery of content and will strive not to favor--or 
        uniquely burden--any particular one.
  --Pursue the universal service goals of ubiquity and affordability as 
        new networks are deployed, and do so in creative fashion.
  --Redirect our focus onto innovation and investment. The conditions 
        for experimentation and change and the flow of money to support 
        new ventures have often been misunderstood or neglected. If the 
        infrastructure is never invented, is never deployed, or lacks 
        economic viability we will not see even a glimmer of the bright 
        future we envision.
  --Harness competition and market forces. Drive efficient change and 
        resist the temptation, as regulators, to meld markets in the 
        image of any particular industry player.
  --Rationalize and harmonize regulations across industry segments 
        wherever we can and wherever the statute will allow.
  --Shift from constantly expanding the bevy of permissive regulations 
        to strong and effective enforcement of truly necessary ones. To 
        that end, I support H.R. 1765, which would increase by 10 fold 
        statutory levels for forfeitures, as well as extend the statute 
        of limitations for common carrier enforcement actions to two 
        years. When combined with solid auditing and enforcement of our 
        rules, especially those prohibiting regulated entities from 
        passing along their fines to ratepayers, I believe that these 
        changes will have a solid, deterrent effect against illegal 
        activities.
Operations and Management
    All the vision in the world is useless if you do not build and 
manage an institution that can execute it. We intend to actively manage 
the agency. Indecision and avoidance are not legitimate policies and, 
thus, we will strive to reduce backlogs and put systems in place that 
will prevent these problems. Managers will be measured, in part, on 
this basis. The Commission will develop an annual strategic planning 
process that will be integrated with the federal budget cycle and the 
review of our performance as an institution and as individuals. We are 
working to establish uniform measures of productivity across the agency 
to facilitate this activity.
    The Commission is developing a set of internal procedures that will 
allow it to function more smoothly. These procedures will cover 
subjects such as Commission deliberation, voting procedures and 
internal document security.
    The Commission should continue to modernize its information 
technology infrastructure to ensure productivity gains. We must strive 
to be a virtual agency--one in which someone in Connecticut is able to 
access us as easily and readily as someone on Connecticut Avenue. We 
are working to make this goal a reality through increased electronic 
access capability. We are engaged in a time-consuming and expensive 
project, but one that is critical to our ability to remain relevant in 
this new millennium. We must continue with due speed to use the 
advances of technology to our advantage.
    We have 18 major information technology systems that incorporate 
electronic filing or offer public access to data. The industry can file 
most license requests, equipment authorizations, and comments 
electronically. A 72 percent electronic filing capability is not 
enough--we will do better. We administered well over three million 
licenses last year, so it is critical that we are efficient in this 
area. It is also important that citizens all over the United States 
have the ability to contact us easily and from anywhere--whether by 
computer, phone or letter. Last year, we received well over one million 
inquiries from consumers. The public must be an active voice in the 
communications transformation, for they are the ultimate beneficiaries 
of the abundant choices resulting from competition.
    Better management and a wider application of technology initiatives 
leads to enhanced productivity and an improved quality of life for 
employees. The Commission should be a place to work, not live. 
Employees should have a fair opportunity to work from home, providing 
greater flexibility to meet the demands of modern family life. That is 
why the Commission undertook an ambitious rollout plan for 
telecommuting last year. We intend to overlay our virtual agency 
concept to the benefit of FCC staff through an expansive telecommuting 
program, which is open to nearly 100 percent of the Commission's 
employees. Approximately 400 of our eligible employees, about 20 
percent, have chosen to telecommute on either a regular or ad hoc 
basis. We began the telecommuting program to increase productivity, 
improve morale, improve job satisfaction and reduce absenteeism. I am 
pleased to say that other agencies look to us as a model.
Technical and Economic Expertise
    Since advances in technology are driving the communications 
revolution, the Commission must have a strong fluency in the language 
of technology. We cannot depend on those we regulate for on-the-job 
tutorials while we make decisions. Over the last six years, our 
engineering staff has decreased by more than 20 percent. Within the 
next four years, 40 percent of our engineering staff will be eligible 
to retire. Conversely, we are not replenishing the coffers at the other 
end by bringing in new employees. Like other governmental departments 
and agencies, we are competing for this talent in a tight labor market 
and are challenged to convince talent to enter government service. This 
has been most apparent trying to recruit entry-level engineers at the 
GS-5 and GS-7 levels.
    To address this situation the Commission is developing an agency-
wide ``Excellence in Engineering'' program. We will examine creative 
ways to gain greater personnel and pay flexibility to attract technical 
talent. Increased salaries alone, however, will not do the trick, nor 
is it the sole motivator for anyone entering government service. While 
government service in and of itself should elicit a sense of pride, we 
will increase our technical employees' worth by ensuring that they are 
able to continue to develop in their field, through strong training and 
development programs and job rotation. Our laboratory facilities in 
Columbia, Maryland need to be upgraded to provide engineers with the 
tools to engage in critical and challenging work. If we receive full 
funding this year, we believe that we can adequately address the 
initial needs of this program, and then have the flexibility to plan 
for the future to request additional funding during the next budget 
cycle.
    It also is vital that we train our non-engineering staff in the 
areas of engineering and advanced technology. We already have begun to 
develop an FCC ``university'' of sorts using our own staff and guest 
lecturers, and taking advantage of various programs currently available 
through the government and local academic institutions. We can use this 
Washington, D.C. location to our advantage and tap into industry and 
academia. We can use local scholars and have them participate in an 
educational curriculum, to provide lectures, to provide classroom 
instruction, to provide counsel and advice.
    I am putting similar emphasis on economics and market analysis. 
These tools are essential to our agency's mission. We have the 
opportunity to take advantage of both internal resources, visiting 
experts, and outside educational programs to help not only our 
economists improve their skills but to help all the FCC's employees 
understand better the impact of our rules on technological innovations, 
and competitive markets. It is critical that we look to a plethora of 
information sources in gathering opinions and forming our policy.
Restructuring
    Communications policy has been written in carefully confined 
buckets premised on certain types of technology. The FCC's 
organizational structure largely mirrors that premise. But the 
convergence of technology tears down those traditional distinctions and 
makes it evermore difficult to apply those labels to modern 
communications providers. In the same way, it makes it more important 
than ever for us to examine whether those organizational buckets still 
hold water.
    About a year ago, we began breaking down the technology-based 
divisions with the creation of the Enforcement Bureau and the Consumer 
Information Bureau. With those reorganizations, we created two bureaus 
aligned along functional responsibility. We created the Enforcement 
Bureau to improve the effectiveness of our enforcement activities in an 
increasingly competitive and converging market. We created the Consumer 
Information Bureau to enhance consumers' ability to obtain quick, clear 
and consistent information about communications regulations and 
programs. These changes have proven to be beneficial. As the industry 
moves toward fuller competition, the missions of these bureaus become 
even more critical. For consumers to take full advantage of the choices 
that competition brings, it is important that they have access to 
information that allows them to make an informed choice. Their ability 
to easily and quickly convey to us instances where the markets are not 
providing useful information to consumers in a particular circumstance 
or with a particular business is our early warning system for market 
failure or malfeasance on the part of industry players. While the 
consolidation of these functions is almost complete, there are some 
additional functions that are transferable into or out of those two 
bureaus.
    We have undertaken a structural reorganization project that builds 
on some of the initial efforts of my predecessor, Chairman William E. 
Kennard. Our efforts will be guided by a few key objectives: (1) a 
functional organization designed along market lines, rather than 
technical ones; (2) a flatter substantive bureau structure; and (3) 
greater consolidation of key support functions.
    Our program will proceed in phases. We have begun by systematically 
taking account of the agency's activities and functions to see what is 
working well and what is not. From that review we will produce a Phase 
I, short term, restructuring plan and a Phase II, longer range plan. 
The Phase II plan will consider whether wholesale change is necessary 
and whether it is timely to move away even more from technology-based 
buckets. We will be looking at what economic or marketplace triggers 
are indicative of the need for further restructuring. The question has 
been asked whether the Commission should be aligned along functional 
lines--e.g., enforcement, consumer information, spectrum management, 
licensing and competition--given increased convergence in the industry. 
This question deserves to be asked and answered. But first, we must 
seek additional and substantial information, and be completely 
satisfied that it is the right thing to do, before we move to rearrange 
substantially the organizational structure of the agency.
    My goal is to improve the agency on all these fronts. An informed 
decision, however, is better than one based merely on supposition. We 
are seeking the opinions and thoughts from a wide range of participants 
as we proceed down the path of reform. I also look forward to working 
closely with this Subcommittee and other Members of Congress and their 
staffs on this matter.
                               conclusion
    The primary impetus for my reform program is to ensure that the 
Commission develops an enhanced ability to carry out its core mission: 
promoting the public interest through communications competition in a 
cost-effective, efficient, and transparent regulatory environment. We 
are not here to find a solution to every problem related to 
communications. We can promote an atmosphere of competition where we 
step into the picture to ensure fairness of process, to stop predatory 
and anti-competitive behavior, and to make certain that the airwaves 
are free from clutter and pirates. We can and should make certain that 
the public interest and public safety are protected, while recognizing 
that we must work within the four-corners of our statutory mandate.
    I cannot predict the future, nor can anyone else at the Commission. 
When faced with future challenges that are uncertain, the best approach 
is to build a first-class operation, with top talent, that is trained 
and disciplined enough to adapt quickly to new and changing situations. 
No army, for example, can know in advance what it will find when it 
engages on the battlefield. The fog and terror of war never afford the 
luxury of predictability. The key to success is to have a force that is 
well-trained in tactics, strategy and the weapons it will need. A force 
that is disciplined and able to adjust quickly and adapt to fluid 
conditions--threats and opportunities both will present themselves 
through the haze. I hope to build, along with my colleagues and the 
outstanding FCC staff, just such a unit--one well suited to an 
uncertain future.
    Thank you. I would be happy to answer any questions this 
Subcommittee may have.

    Senator Hollings. Does this take care of the engineers, 
experts, and lawyers, too, that you need, because it looks like 
everything you do is appealed and joined or what have you, so 
you have got to make a complete record. On the one hand, you 
have got to have the personnel in order to do the work. 
Otherwise, you have got to have the engineers, like you say, to 
know what we are talking about. This takes care of it?
    Mr. Powell. No, it does not take care of it.
    Senator Hollings. Two-hundred-and-forty-eight-point-five.
    Mr. Powell. It does not, over time, take care of it. I 
mean, what I envision is that we have a program that is a 
multi-year program and this is the first step of the program, 
which is critical. This budget submission includes resources 
that we intend to dedicate to this function and to this 
program. But I assure you that we will, as we learn more about 
our needs in subsequent years, continue to pursue additional 
funding in support of that program. In a perfect world, I would 
love more now. But I think that we, if we are fully funded, we 
will have the critical resources we need to begin the first 
steps of this program and make a meaningful difference in our 
functions within the next fiscal year.
    Senator Hollings. Well, on the House side, they cut the FCC 
some $9 million, I think?
    Mr. Powell. Yes, sir. I think it is more than $9 million, 
roughly $10 million, which is fairly significant because if you 
remove that amount, you have essentially removed all of the 
funding requests dedicated to new initiatives or the 
restoration of IT infrastructure. Basically, the majority of 
what remains are the cost-of-living adjustment increases that 
are the uncontrollable expenses of the Commission.
    Senator Hollings. That is good. I think the committee will 
want to make sure you have the entire amount requested. As a 
matter of curiosity, over the years, this argument has ensued 
until recently with the bankruptcy court in the Next Wave case. 
Not getting into the case, but rather to the fundamentals, who 
owns the spectrum? Are you and I trustees for that spectrum or 
do you just really sell at auction, time, for example, a 
license, for that spectrum?
    Mr. Powell. It is clearly the case that the spectrum is the 
public property of the American taxpayer and that we try to 
create the highest and efficient best use of that spectrum on 
behalf of that taxpayer.
    Senator Hollings. We have licensing.
    Mr. Powell. Yes.
    Senator Hollings. Let us assume you gave me a license, a 
10-year license. Aren't there conditions under that license for 
performance?
    Mr. Powell. Yes.
    Senator Hollings. In other words, suppose I just took the 
license and just sat on it. Could the Commission take action to 
recover that license or take it back for nonperformance?
    Mr. Powell. Yes. Indeed, the Commission often establishes 
conditions and benchmarks that allow it to efficiently and 
effectively reclaim the spectrum to reissue it for a higher and 
best use.
    Senator Hollings. You are good, and I appreciate it very 
much.
    Excuse me. Boy, I am honored. Here is the senior Senator. I 
am a junior Senator, not only to Strom, but to Senator Inouye. 
Senator Inouye, excuse me, Senator. You are so quiet and 
polite.
    Senator Inouye. Mr. Chairman, I thank you very much. I have 
an opening statement I would like to have made part of the 
record.
    Senator Hollings. That will be included in the record.
    [The statement follows:]

             Prepared Statement of Senator Daniel K. Inouye

    Thank you Commissioner Powell for addressing us today. The 
FCC is tasked with many important undertakings as it encounters 
the rapidly changing marketplace and works toward fostering and 
protecting open and fair competition.
    I applaud you for your goal to reform the efficiency and 
structure of the FCC, however, we cannot afford to lose sight 
of what is most important--providing affordable and reliable 
access to telecommunications services for all consumers 
regardless of income level and regardless of whether they live 
in densely populated urban areas, as well as sparsely populated 
rural America.
    I look forward to hearing from you about the Commission's 
funding requirements and plans for fiscal year 2002.

                             Tauzin-Dingell

    Senator Inouye. May I ask a question, which may not be 
completely relevant, but every time I turn on the radio or the 
television set, almost every 5 minutes, there is Tauzin-
Dingell, either for or against.
    Mr. Powell. Yes.
    Senator Inouye. I suppose you have views, don't you? Can 
you share them with us?
    Mr. Powell. Senator, I generally do not take a position on 
legislation, but I will give you what I think the tradeoffs 
are. There are two competing visions for competition currently 
struggling for ascendancy. In my opinion, one vision is 
represented in part by the bill, which is the most important 
market to the American citizens is the digital broadband 
market, and that the most efficient way and the most likely way 
that that is going to be provided to consumers are going to be 
through technology-differentiated products. So the telephone 
company or the telephone infrastructure will be one broadband 
service. The cable industry will be a separate, competing, 
substitutable broadband service. Wireless might provide a 
third. Satellite might provide a fourth.
    And if that vision were to be realized, some will argue 
that then you do not have to worry as much about concentration 
within one of those stovepipes, that those are each competitors 
with each other, using differentiated technologies. I will 
leave for other people's judgment whether that day has arrived 
or whether you have a sufficient amount of confidence in that.
    It is clear that we have very viable mass market products 
out in the marketplace on cable and DSL. Wireless is out there, 
but somewhat further behind as a technology, as is satellite. 
Is two enough? Is three enough? Is four enough before one has 
the confidence to be less concerned about intra-competition?
    The other vision says that it is still very important to 
have competition within a technology so that you still have to 
have effective interconnection relationships, et cetera, et 
cetera, and that those should be preserved for now. I think 
that in many ways, those are the two competing visions, even 
though the advertisements do a bad job of describing them, that 
are being wrestled about in that, and so that is my view of 
what is at issue.
    Senator Inouye. Do the present laws provide for 
competition?
    Mr. Powell. The present laws do provide for competition. I 
think the issue is at what cost and to whom. There is no 
question that there is an inherent difficulty--they are not 
necessarily insurmountable--when competition has heavy 
dependencies, critical dependencies to get your inputs from 
those to whom you compete. The Bell interconnection regime, 
which has its value, from my perspective, as a competitive 
approach, but just frankly does require an enormous amount of 
regulation and an enormous amount of arbitration to resolve 
conflict of interconnection. It is a very time consuming and 
expensive approach, but it is an effective approach up to a 
point.
    It just seems to me that there are different players who 
gain differently from any regime you choose, but I do believe 
that we have some fundamentals in place for competition, yes.
    Senator Inouye. Will the adoption of this measure have an 
impact upon your operations?
    Mr. Powell. Oh, it would have a fairly dramatic impact. It 
would be essentially a substantial change, a reformation of the 
current telecommunications statute. There would be a, though I 
have not done the analysis, there would be a whole host of 
regulatory proceedings and rulemakings that would be either 
changed, modified, or abrogated as a consequence of the change, 
and I suspect that the Commission would have another extensive 
period of reevaluating its regulatory base, its rules, to be 
consistent with the new statutory backdrop of the regulation.
    So though we have not necessarily analyzed every aspect of 
what would be affected and what resources would be required. I 
think it is fair to say it would be a pretty major undertaking, 
even if inherently deregulatory in nature. I mean, unwinding 
things is an exercise as much as introducing things, and so the 
Commission certainly would adopt and adjust changes.
    Senator Inouye. Thank you very much.
    Mr. Powell. Thank you, Senator.
    Senator Hollings. The committee will stand in recess until 
the return of the Chair. Thank you very much.
    Mr. Powell. Thank you, Senator.
    Senator Kohl [presiding]. Chairman Powell.
    Mr. Powell. Senator Kohl.

                              Telecom Act

    Senator Kohl. It has been over 5 years since we enacted the 
Telecom Act and there have been serious questions as to its 
real effectiveness. Instead of competition, it seems that what 
we have is litigation, and instead of more companies competing, 
we have got companies merging into even fewer companies. Before 
the Act, we had seven big telephone companies and now we are 
down, as you know, to four. So we are not sure what the 
solution is and we would like to hear what your ideas are to 
bring about more robust competition in the telecom industry, 
especially the local phone and cable television markets.
    More importantly, how would you convince Wisconsin citizens 
that passage of the Telecom Act was a good thing for them? 
Residents in Wisconsin haven't seen the benefits of increased 
choice or even something as simple as lower cable rates. So 
what would you say to the people of Wisconsin?
    Mr. Powell. I would be happy to talk to them. I think that 
part of the challenge in explaining the value, which I will 
argue is immense to consumers, that there have been many 
values, some of which are attributable to the 1996 Act. I think 
one of things that we have to do is figure out how we measure 
the consumer value.
    In 1996, there were an extraordinary amount of things 
unavailable to consumers that are now available to them and in 
extraordinary numbers. For example, very few Americans owned 
mobile telephone services in 1996, a fairly small percentage. 
Today, 40 percent of every man, woman, and child in the United 
States owns a mobile telephone and uses that telephone to a 
great degree unrivaled anywhere in the world in terms of the 
number of minutes used by consumers. That is competition, 
because if I make a telephone call on my mobile phone in my 
driveway rather than walk in and pick up the telephone, that is 
a call that would have previously occurred on the telephone 
infrastructure. But we do not capture that very well when we 
think about competition, but there is no question in my mind 
that mobile telephony has proven to be a very substantial set 
of competitors to wireline telephone and brought great value to 
consumers.
    In 1996, very few people had access to the Internet. In 
year 2000, 90 percent of Americans have access to at least 
narrowband with 10 ISPs or more. What is interesting about that 
is that it provided new ways to communicate that we also do not 
capture. If I want to talk to my sister, I might call her, but 
I might send her an e-mail. It is still a communication. The 
communication that I did not pick up the phone to make, I sent 
her an e-mail to make. Or I used the new innovations of instant 
messaging to have chats with her while I was talking to her.
    Broadband was nonexistent in 1996 for consumers and it 
really comes into the market in 1998. While that pace could be 
a lot faster, 12 percent today of Americans subscribe to that 
service. Cable modem capability is at least reaching a level of 
potential service and access for a vast number of Americans and 
the growth of DSL has been in the triple digits over the last 
couple years, and this is just a couple years.
    So this is not to defend the places where it is not working 
well. Traditional telephony competition for residential 
consumers is far below what we would have hoped and expected. I 
think that it is a challenging proposition economically and I 
think it was hard to foresee all the kinds of challenges to 
economic viability.
    One of the areas that I put a lot of emphasis on is in 
terms of the interconnecting relationships between the 
incumbent is we have to have a much stronger enforcement 
function.

                        better Enforcement tools

    Senator Kohl. All right, let me ask that question. You said 
last month that you needed stronger enforcement tools in order 
to better implement the Act. So what sort of a bill would you 
draft to beef up your enforcement powers?
    Mr. Powell. I would love to work with the subcommittee on 
that question. I think that what is most important is whether 
you have serious and substantial and credible penalty regime. 
The penalties available to us now are just simply trivial. I 
mean, a company will never say $1 million fine is trivial, but 
it is trivial to a billion dollar company, and it is trivial, 
more importantly, to when you are making a rational decision as 
to whether it is more expensive to make it viable for a 
competitor to use your facility than it is to pay the fine.
    If an operation support system has to be modified to make 
it effective for a competitor to use it but that system costs 
$1 billion and if you don't do it effectively, you will get 
fined $1 million, it doesn't seem to me phenomenal why the 
wrong decision can get made in that context.
    The penalties have never been, as best as I know, adapted 
to even inflation, and I just think that they need to be 
increased by an order of magnitude because the Commission is 
not resourced well enough to enforce every local market in the 
country, but it has to have deterrent value, and I think that 
the antitrust laws, which you, Stuart, are well aware of that, 
there is a reason antitrust has treble damages. It is because 
it can't be everywhere all the time, but the threat of that 
level of penalty helps deter--helps deter--conduct that 
impinges on competitive possibility.

                       Telephone bills confusion

    Senator Kohl. Okay. Turning to another subject, Mr. Powell, 
last week, you gave a speech in which you stressed the 
importance of the FCC's consumer agenda. Of course, we very 
much support your efforts on this front. In particular, you 
mentioned an initiative to clarify consumer confusion as it 
relates to telephone bills. Today's phone bills, as you know, 
practically require services of a lawyer to sort out the 
various fees, charges, and taxes that fill line after line of 
the invoice.
    I very much support this sort of initiative. Can you tell 
us in any detail what your plans are to make telephone bills 
easier to understand for the average consumer?
    Mr. Powell. I think there are a number of fronts we can 
pursue in that regard, and it is active and we are doing it, so 
this by no means is an exhaustive list, but one of the things 
that we have been exploring is can't we be a forum for 
explanation?
    That is, for example, we are playing with a web-based 
product that would essentially provide copies, exemplary copies 
of major telephone company bills, and that each line item might 
be an active button, so that if you did not understand what it 
meant on line three when it says, ``Federal universal 
whatever,'' you could click that and get a plain English 
explanation of where that comes from, perhaps with points of 
contact if you are frustrated by that charge. Whose 
responsibility is this charge? Is this a Government charge? Is 
this a commercial charge? Is it a competitive charge? And if 
you had a number of exemplary bills in that regard, you might 
be able to help consumers deal with the confusion of line 
proliferation.
    Of course, that kind of begs the question. That is, is it 
remedying a confusing situation. And I have thought about this 
for years, looking at the confusion consumers have over the 
bill and the uproar that goes on with increases in phone bills. 
What is interesting, it really is not the amount as much as it 
is the perception of being cut to death, bleeding to death by 
small cuts. Every time you turn around, there is a new line 
that pops up there.
    And I think that there is a whole effort that we can pursue 
in line simplification. You know, I personally wish that the 
entire Federal universal service components which are critical 
were just one line, right, and I will explain that line to you. 
I will provide brochures or literature of what is included in 
it. But I think consumers would feel that their bill is more 
stable if, rather than every 6 months when we do a proceeding 
or carriers make a change, that suddenly there are not 7 lines, 
there are 9, there are 12. That sends a--growth in that 
component, I think, is a source of great confusion and 
frustration to consumers.
    And then they do not know how much of that is a competitive 
thing. If I switch carriers, does this line item stay there or 
is that something that I can compete out of my bill? I think we 
still have some good work that we can do in that area.
    Senator Kohl. I will be looking forward to what you come up 
with.
    Mr. Powell. Thank you.

                     Cable television service costs

    Senator Kohl. One more question, Mr. Powell. I continue to 
be concerned, as we all are, with the rising cost of cable 
television service, with cable rates rising at nearly triple 
the rate of inflation in many places. Part of this rising rate 
is the cost a consumer pays to the cable company to rent the 
set-top box, which is necessary to receive many cable channels, 
and many people don't understand why the rental cost of these 
boxes continues to rise. We have been trying to create a real 
competitive market for these boxes so consumers can walk into a 
store and buy a box rather than having to rent it from the 
cable company month after month and pay these increases.
    But after 5 years of trying, consumers still cannot buy a 
box off the shelf. Why can't consumers, Mr. Powell, buy set-top 
boxes directly from manufacturers instead of having to rent 
them?
    Mr. Powell. Well, of course, the Congress passed statutes 
that tried to ensure that we created the regulatory environment 
that would make that permissible, which we did do. I think that 
the problem going on in the market is one of a sort of 
marketing and economic viability. Here is what I think is 
principally what the challenge is.
    The retail outlet--there is a struggle going on among 
manufacturers and retail outlets about revenue sharing on the 
infrastructure. So, for example, if Circuit City sells you dish 
TV, to use a satellite example, they get a cut, a continuing 
cut of that revenue from the dish company. So a lot of what 
struggling is going on is whether retailers will have an 
opportunity to be part of the business model of these boxes.
    The other thing is that the manufacturers have struggled to 
make the box cheap enough and have enough value that it will 
really be of interest to consumers when they walk in the store. 
If all the box does is you take it home and it descrambles, at 
least their judgment seems to be that there is not much of a 
market for that.
    What I have seen recently at trade shows is that there is 
an effort to start integrating the cable functionality with 
other consumer electronics functionalities so that the whole 
value of the box rises, just like dish folks are doing. So the 
cable box will have a DVD player in it and the cable box may 
have TIVO built into it so that the consumer will get the value 
of getting a DVD player and a TIVO player and, oh, by the way, 
it does cable. That is taking a lot longer than I think anybody 
expected in the marketplace, but at least as last I looked at 
it, it seemed that those boxes were on the way to stores in the 
relatively near future.
    Senator Kohl. Thank you very much.
    Mr. Powell. You are welcome, sir.
    Senator Hollings [presiding]. Thank you. Senator Stevens.
    Senator Stevens. Thank you, Mr. Chairman. I will be brief, 
Mr. Chairman.

                      Department of Defense needs

    I have had a series of meetings during the last few days 
with the Department of Defense and we are all looking at 
Defense's request for additional monies this year. We have 
already instituted a review of the needs of the Department of 
Defense for spectrum, and I am sure you are involved with that. 
I hope you are. You at the FCC share the responsibility with 
the Department of Defense, I think.
    I made the following suggestion and I wonder what you think 
about it. I suggested that Defense should be very hard-headed 
about what they really need in terms of spectrum. They ought to 
turn back a substantial amount so that it can be auctioned off 
on the understanding that Defense would get a substantial 
portion of the funds that came in. We have seen a temporary 
shortage of funds at the Defense Department for 2 years because 
of changes in the economy and other reasons, and I think it 
might be possible.
    Do you think you would be willing to work with the 
Department of Defense on this? Would you tell us your opinion 
about the Department of Defense being eligible to receive a 
substantial portion of funds resulting from the sale of their 
spectrum to support their new modernization programs?
    Mr. Powell. Absolutely. It is a tough judgment of value, 
the needs of national security and the needs of the commercial 
market for the betterment of our citizens on advanced 
technology. It is a tough call. But I think that even if you 
get there, if you find the spectrum, you have got to make sure 
that the defense needs are taken care of through some form of 
reallocation of the use of funds in order to mitigate or 
ameliorate the dislocation.
    From the Federal communications perspective, while budget 
authorities certainly keep their eyes on the amounts of money, 
I think it is a judgment of the Congress as to what the best 
use of the proceeds of auctions are. We do not draw on them 
significantly. They are yielded back to the Treasury, and I 
think that the idea of tying public policy to money that you 
receive as a consequence of that auction toward public policy 
objectives is a good idea and is something that I have always 
wondered why we did not do more. That is, look to auction 
proceeds to continue to supplement and advance other public 
policy purposes, but, you know, some of that is above my pay 
grade, but I think it is a creative idea.

                         Universal service fund

    Senator Stevens. Thank you very much. The other thing is, I 
continue to be worried about the future of the universal 
service fund. We have discussed this before, and I know the 
chairman has been interested in it. That fund was initially 
conceived of to meet rural problems, primarily Alaska problems. 
Now, I foresee a time when the universal service account will 
go down, particularly because of the enormous strains on it for 
providing Internet services to hospitals, libraries, and 
schools in areas that are not rural. That is a policy we are 
not going to change, but the revenue base for universal service 
is declining and the demands are increasing. The result may 
well be that rural America goes back to the 20th century and 
does not go forward in this century as far as the new 
technology is concerned.
    I have asked some of the major players, such as AOL and 
others, to confer with us about how to meet this challenge. One 
solution might be a tax on the Internet, which some people 
suggest. I have never supported that yet, but it may be the 
only alternative to maintain the universal service fund. If the 
fund continues to pay out the costs of connecting people to the 
Internet whose providers do not pay anything into the universal 
service fund, then it is obvious that the demise is closer 
rather than farther away.
    I would like to find some way to save the concept of an 
industry-based fund that is not a tax. That is what universal 
service was in the first place, a contribution from those who 
used the services of long distance in order to ensure that 
their calls reached all parts of the country. We have such a 
multiplicity of communications devices and concepts now. Many 
of them do not pay into the universal service fund, or if they 
do, they pay very small amounts.
    What do you think about the idea that it might be your job 
to call together a conference of people who should be providing 
contributions to those funds and see what they are willing to 
do?
    Mr. Powell. Well, I would agree that I think it is one of 
our most sacred responsibilities to try to ensure that the 
parade of concerns and horribles you have do not occur, and 
that requires a lot of tough judgments, including, just to come 
through some of the things you pointed out, really making hard 
calls between competing demands. I mean, one of the reasons we 
promote is the schools and libraries program, for example, but 
we are careful to try to rigorously keep it within control so 
that it does not further jeopardize other aspects of universal 
service which are equally valuable. I think that is the hard 
part of what we do for a living, but that is what we do and 
will continue to do.
    I think that your concerns about how will advanced 
technologies, new architectures affect the fundamental values 
of universal service--from my perspective, the first thing I 
would say is, number one, the unequivocal assertion that 
ubiquity and affordability for rural America remains a critical 
and paramount objective no matter what the architecture or the 
infrastructure is and looking for not only the traditional way 
of trying to ensure that occurs, but whether there are new and 
creative ways.
    One way, of course, always is spread the pain as widely as 
possible to ensure that no one component of that bears too 
unbearable a burden. There is no question that this is a coming 
set of serious questions in the sense that as these 
architectures move to IP and data and broadband networks, how 
we will ensure that those fundamental, ubiquitous affordability 
goals continue to go with it. And I think that the dialogue 
between some of the preeminent companies that are working in 
this area is probably useful. I would like to go back and think 
about other ways that we might at least try to be a facilitator 
of debate and evaluation of that question and see if we cannot 
at least see what kinds of problems are going to occur and what 
ways we might have a solution.
    I sort of reserve judgment on whether I think the answer 
definitely is whoever, AOL or whoever, should pay universal 
service, but one of the things I think that we have to struggle 
with is the statutes' limitation to telecommunications carriers 
as the source for funds, and that has always been an issue, as 
you know, as to whether the bucket of who you can look at is 
limited by the 1996 Act. So I think Congress would also need to 
be pretty involved in future considerations about expanding the 
revenue base.
    I also think it has been unfortunate that we, because of 
court decisions, we cannot draw on intra-State revenues to help 
supplement universal service expenses. So that is an enormous 
amount of telecommunication activity occurs intra-State and the 
decisions of courts that the statute does not permit that is 
another inroad on our ability.
    But that said, we have worked hard in the last couple years 
to reform and modify universal service that has led to net 
increases in money available to continue these goals, so I 
think that we are also taking the short-term measures. We have 
to keep that viable.

                            Hardware taxing

    Senator Stevens. Thank you for that. I hope you do it. I do 
not believe this is a tax question, although it could evolve 
into a tax question, God forbid. It will be years before we get 
another tax bill that will look into circumstances such as 
taxing the hardware that goes along with new technology. I am 
not suggesting we should. But there has to be a revenue base 
somewhere to assure that these means of communications pay 
their way in terms of assuring the message that they originate 
can be delivered anywhere: ubiquity, universality, whatever you 
want to call it.
    Unfortunately, the promise of new technology in terms of 
telecommunications, tele-education and the basic concepts of 
eliminating isolation through access to certain forms of 
entertainment and such, those are rapidly being denied to rural 
America, in my judgment. They are made available to schools, 
libraries, and health facilities, that is true. But while the 
children may have Internet in school, their parents do not have 
it at home, the local small businesses do not have it, and even 
the postmaster doesn't have it under present circumstances.
    So, somehow or other, that has got to be smoothed out. But 
this may come at a greater cost to whomever is putting up the 
money to interconnect those areas. I think that should be a 
universal service obligation, but the money is not there to do 
it.
    I would urge you to take a hand in bringing together the 
great minds of this country who are leading us into new 
generations of technology and have them commit to the 
preservation of universality as far as communications are 
concerned. Thank you, Mr. Chairman.
    Senator Hollings. Thank you, Senator Stevens.
    Chairman Powell, I had to leave for a vote, and as I was 
leaving, Senator Inouye asked you about Tauzin-Dingell. Can you 
repeat that answer again for me, please?
    Mr. Powell. It was so carefully crafted, too.

                             Tauzin-Dingell

    Sure, Senator, I can. I began with the usual caveat of a 
regulator, which is I do not generally take a clear position on 
legislation and have not on Tauzin-Dingell and will not. But I 
pointed out to the Senator that I thought that I could give 
some articulation of what I thought was being battled over and 
what the choices were.
    It seemed to me that there are, at an intellectual level, 
there is sort of this competing vision of what competition 
should look like. That is, one vision is that real competition 
is really only going to come from different technology 
platforms competing for broadband service to customers. So the 
phone network will be one platform that will be available to 
consumers. Cable modems will be another platform. Wireless 
might eventually be a third, and maybe satellites a fourth, and 
if that were really the world or you could really achieve that 
world, then you didn't need to be as concerned about 
competitive alternatives within any one of those buckets.
    That is, even if in the worst case, every one of those 
industry segments was a monopolist, for example, just to use 
the worst case possible, they would still be competitors to 
each other so the argument would go they really aren't 
monopolists because there are four of them competing for the 
same set of customers. I think at some level, that is the 
vision that is the analytical vision that underlies the bill.
    On the other hand, there is the view that, no, it is still 
critically important to have competition from entrepreneurs and 
new entrants within a market, so that would be issues like 
interconnection with phone companies or open access in cable or 
open access in wireless and that we still need to preserve 
aggressively that level of competition, too.
    And then at the end of the day, it is sort of, like, and on 
what time frame and when, meaning how many--if you believe in 
this platform idea, how many of them do you need before you are 
comfortable the consumer is going to be served, and that is 
just a judgment that I think the members of the institution 
will have to make. But I kind of think that is what is battling 
for supremacy.
    Senator Hollings. Let me correct that answer and state very 
categorically the institution has made that decision. You see, 
I heard part of that answer as I was leaving and I said, I had 
better get back, and I was glad the other Senators were here so 
that we could get this cleared up once and for all. As an 
administrative body, you administer the law, right?
    Mr. Powell. Correct.
    Senator Hollings. In all candor, the suggestion made by 
Senator Stevens and your answer that you get them together to 
set policy as a committee, I think the authorizing committee 
ought to get us all together with your expertise, definitely, 
and experience, and get us together and see what we can do. I 
don't think the Senators should be asking the administrative 
body to corral together and set the policy.
    That being the case, what was the policy in the 1996 Act? 
You have got to get to the initiative of that particular act, 
which was by the Bell companies themselves. You are right about 
all of this bursting technology, only it did not wait until 
2001 for it to burst. It was bursting out all during the 1980s 
and the 1990s, the Internet, computerization, satellites.
    I remember a race back in the late 1970s, running for 
reelection. I went to Carolina Furnishings in Greenville, and 
talk about communications, they had an artist there that 
flashed a curtain pattern onto the satellite, down to 
Australia, and I heard the Australia fellow say he liked and 
ordered that particular curtain pattern. This has been going 
on, busting out.
    The only thing was that the best of the best, namely the 
Bell companies, had the best and still have the best of 
communications. They wanted to deregulate. They wanted to get 
into long distance and all these particular technologies. And 
so they couldn't get any financing because the market was 
indeterminate and everything else like that. Nobody would move. 
They couldn't invest in it, and there were all kinds of rumors 
about deregulation and that we had deregulated the airlines, we 
had deregulated natural gas, we had deregulated trucking.
    I had been a resister, but as the chairman of the 
committee, I started and had the original bill, S. 1822, and I 
said, all right, and they said, all right. I mean, it was a 
matter of agreement. There was never any disagreement. We 
deregulated and section 251 wasn't a question of what platform 
and everything else like that. It said, you have got to sell at 
the wholesale price, period. And so on section 251, that 
started all the little competitive CLECs. That is what started 
it.
    And they said, now we want you to open up and be totally 
deregulated, and they said, well, that is what we want. We want 
to get into long distance and all of these technologies. So we 
said, well, wait a minute, now. We do not want to mess up the 
local exchange and the services given and everything else of 
that kind. You have got a monopoly. It was created in law and 
we guaranteed you a profit and everything else like that and 
guaranteed you no competition. Now when we more or less 
guarantee you competition on what basis, not to extend your 
monopoly.
    So we said, look, you can go anywhere in the country as a 
Bell Company and get into any of the technologies you wish, 
just so long as you don't do it in your own region where you 
have got the monopoly. We just don't want to continue that. The 
whole idea was not about which platforms are going on now. The 
distinguished chairman on the House side wasn't in the room in 
all of these negotiations, and we can bring back the original 
players and everything else about the intent of Congress, but 
the intent of Congress was spelled out and you can read 271 and 
you can see the exact wording was deliberate. That was supposed 
to have happened.
    The whole initiative on the House side is based on a whole 
new technology. Data was not even considered. I can show you 
the statements made. Data was mentioned, 474 times both in the 
bill and 271, by the Senators, in the debate on the House and 
Senate side, and in the conference report, 470-some times. So, 
I mean, that whole premise of now we are going to get added 
services is a big charade, a big strawman to extend the 
monopoly.
    Now, the Commission has done a good job. They have held 
their feet to the fire. These Bells have been coming and coming 
and coming, and other than a little bit down in Texas, some in 
Kansas, some up in New York and now moving into Connecticut, 
they have found compliance. But they are the ones that brought 
the bill and questioned the constitutionality. You could see 
exactly what they intended to do was to extend their monopoly 
some 5 years ago, from 1996 up here to 2001.
    So it isn't for the Commission to decide whether there is 
enough competition in this platform and enough competition in 
that platform, no sir. It was to deregulate, period, and let 
the platforms ensue. Let them develop as they will, not to 
decide, is there enough satellite, is there enough CLECs, is 
there enough Bells, that kind of thing at all. That wasn't the 
idea. I never heard that.
    I thought I had heard a part of that going out the door, 
and I said, I had better get back--I hoped you were still 
here--so I could correct that premise. It is not a deliberative 
matter now that we ought to sit back and start considering. 
What we did is not what the choices are or what the competition 
should look like, it was whether or not we got competition and 
that was it. There is no question that as long as they think 
they have got a Commission or they have got some in Congress to 
help them extend their monopoly, they will squat. They won't 
move. They will hold on.
    They still own--of course, the CLECs have got about 8 
percent. That is what you folks have found at the Commission 
level. But actually, the ownership of that last line into the 
house, into the business, is 98 percent still owned by the 
monopoly. That is the big thing, that somehow we have got to 
get on top of and make them know. I think if they know, they 
are ready to move and to get into all the dynamism of the 
technology that you described.
    That is what they told us. They congratulated me on what we 
had done. We have got the letters and everything else like 
that. We worked around the clock. Their lawyers came in, just 
reiterated for the record on every Friday morning, and they sat 
with our staff on the Commerce Committee and it took over 4 
years to get it done. Of course, the competition, the long 
distance and others, came in every Tuesday morning. But it was 
a very deliberate thing because we know, as we know now, 
everybody has got the power to kill somebody else's bill in 
this Congress. No one has got the real power to pass. So the 
sides have got to get together.
    So we are in the favorable position. You can kill Tauzin-
Dingell, but what I am trying to do is get you folks to 
understand the law and the intent so that these Bell companies 
will start moving, because they have been playing a sordid game 
now for 6 years, and going everywhere.
    It was amusing, when they had the Senator from North Dakota 
at the hearing before the committee the other day and the 
question was, why don't you go to North Dakota, and they said 
it was too far. I said, Buenos Aires is not too far. They said 
it was too difficult. I said, Lima, Peru, where it is in 
Spanish, is not too difficult. They are making money hand over 
fist but they are not extending. They are investing it in all 
those dynamic technologies that you see are bursting out all 
over, and they ought to be bursting out all over.
    But the kidney stone in this whole system now that must be 
passed are these Bell companies knowing and understanding that 
the law is going to be enforced, and the Commissions heretofore 
have been doing just that. We have had three different chairman 
since that time.

                     Additional committee questions

    We appreciate your appearance here this morning.
    Mr. Powell. Thank you, Senator.
    Senator Hollings. Thank you very much.
    Mr. Powell. All right. Take care.
    Senator Hollings. Yes, sir.
    [The following questions were not asked at the hearing, but 
were submitted to the Commission for response subsequent to the 
hearing:]
            Questions Submitted by Senator Daniel K. Inouye
    Question. There has been a sense in the news media, on Wall Street, 
and some segments of the industry that your market-based approach to 
regulatory policy will result in relaxed enforcement of the 
Telecommunications Act of 1996 and deregulation of Bell companies. Is 
this an accurate assumption?
    Answer. The Commission has a statutory duty to carry out the laws 
enacted by Congress fully and faithfully, and I am committed to doing 
so. I have emphasized that the Commission should vigorously enforce the 
Communications Act and Commission rules, and should do so in a prompt 
manner. The Enforcement Bureau and Common Carrier Bureau monitor both 
compliance with merger conditions and Section 271 approvals. We review, 
on a monthly basis, performance reports from each regional Bell 
Operating Company (``BOC'') that has received long distance authority 
to determine whether there has been any deterioration in performance, 
so that any ``backsliding'' can be promptly detected and remedied. I 
will remain vigilant with respect to these enforcement activities and 
will expand them where appropriate.
    To date, the Commission has found that the BOCs have opened six of 
their state markets to local competition. As I stated recently in 
connection with the Verizon Massachusetts 271 Order, the Commission 
will continue to apply the same rigor that it always has to Section 271 
applications. No BOC will receive in-region long distance authority 
until it has met or exceeded the standards set forth in Section 271 
thereby demonstrating that its local market is open to competition. I 
will continue to work vigilantly to ensure that the rules of the road 
are not only in place, but also vigorously enforced, so that consumers 
can benefit from both competitive LEC entry into the local market and 
BOC entry into the long distance market.
    Although the Commission is working hard with its existing resources 
to enforce the local competition provisions of the 1996 Act, I believe 
there is even more that we can do with the help of Congress. Currently, 
under 47 U.S.C. Sec. 503(b)(2)(B), the Commission's forfeiture 
authority for violations of the Act or Commission rules by common 
carriers is limited to $120,000 for a single violation, and $1.2 
million for a continuing violation, including inflationary adjustments. 
To enhance the deterrent effect of Commission fines and make sanctions 
more meaningful, Congress should consider increasing the forfeiture 
amount to $1 million for a single violation and $10 million for a 
continuing violation.
    Question. The broadcast industry is in the midst of its digital 
transition, and there are concerns about whether the broadcast industry 
will make this transition successfully. The FCC has a number of 
proceedings before it that relate to the digital transition. These 
include proceedings on must-carry and digital television tuners. What 
must be done, in order for the digital transition to be successful--
that is for broadcasters to migrate their systems from analog to 
digital service, begin showing digital programming, and vacate the 
spectrum they are currently using for analog service?
    Answer. The transition to digital television is a tremendous 
undertaking, which is well under way. There are now approximately 200 
stations on the air with digital television signals. There are, 
however, a number of challenges ahead. But while the FCC has an 
important role in facilitating the transition to DTV, the most 
significant challenges are in the hands of the industries that are 
working together to launch this new service.
    As an initial matter, the FCC should continue to provide 
broadcasters with regulatory and licensing certainty. For example, 
after extensive testing and analysis, we recently re-confirmed the 8-
VSB transmission standard. We also recently clarified the level and 
timing of service that DTV broadcasters must provide to their 
communities of license. We will continue to clarify potentially 
ambiguous requirements to ensure that the rules of the digital road are 
clear. In that regard, we have in place a DTV periodic review mechanism 
to examine issues that arise on an ongoing basis and to provide 
guidance to licensees as early as possible in the build-out process. On 
licensing matters, we have granted, and will continue to grant, all 
applications that generally conform to the DTV Table of Allotments, and 
have expedited processing for any applicant that has expressed a 
readiness and a willingness to build DTV facilities.
    In addition, there are several important issues affecting the DTV 
transition that are currently under Commission review. For instance, we 
are currently seeking public comment on the question of mandatory cable 
carriage of both the analog and digital signals during the transition. 
Similarly, the FCC has issued a notice of proposed rulemaking seeking 
comment on a requirement that certain television sets contain a tuner 
that can receive over-the-air DTV signals. There are also some 
difficult challenges to the DTV transition that are not within the 
FCC's direct jurisdiction, such as copy protection. In those areas, the 
FCC is prepared to do what it can to help facilitate agreements among 
industries and is monitoring discussions with the industries involved.
    Question. I have long been concerned about undue concentration in 
the media marketplace. Today we see the proliferation of vertically 
integrated companies that control content and distribution in a 
potentially anticompetitive manner. Some of the existing rules designed 
to guard against such anticompetitive conduct are the program access 
rules, which sunset next year. Do you believe we should allow these 
rules to sunset, or should we reinstate them for the foreseeable 
future?
    Answer. I have not yet formulated a position on whether Section 
628(c)(2)(D) of the Communications Act should be allowed to sunset or 
be extended. It is widely recognized that the program access provisions 
of the 1992 Cable Act and the Commission's implementing rules have been 
instrumental in helping new entrants such as the Direct Broadcast 
Satellite (``DBS'') companies and overbuilders compete more effectively 
with incumbent cable television operators. It is also true, however, 
that the percentage of vertically integrated program services in the 
cable television industry has declined in recent years. For example, 
between 1994 and 2000, while the total number of nationally distributed 
cable networks increased from 106 to 281, the proportion of these 
networks affiliated with one or more cable television operators 
actually declined from 53 percent to 35 percent.
    Question. In January of this year, the D.C. Circuit Court struck 
down the FCC's EEO rules as unconstitutional. The FCC then petitioned 
the D.C. Circuit Court for rehearing. However, this month the court 
denied the FCC's petition for rehearing. In light of these court 
decisions, what action can the FCC take to foster entry of minorities 
and women into the broadcast industry?
    Answer. I have consistently supported EEO rules that prohibit 
discrimination by FCC licensees. If the public interest means anything 
at all, it means that those who hold a government license may not 
discriminate against the citizens from whom the license ultimately is 
derived. As my voting record shows, I favor EEO rules that prohibit 
discrimination and require broad outreach in a race and gender neutral 
manner. In my view this is the only judicially sustainable way to 
ensure that all Americans, including minorities and women, have access 
to opportunities in the communications field. In this regard, I plan to 
ask my colleagues to work with me to develop a notice of proposed 
rulemaking aimed at putting such rules in place.
    Question. Media consolidation is of great concern to me. I have 
been troubled by some of your comments that ownership caps are based on 
``romantic notions.'' Although the level of consolidation in the media 
industry in the marketplace today may not rise to the level of a 
violation of our antitrust laws, it nonetheless may have an adverse 
impact on such public interest objectives as diversity of ownership, 
diversity of voices, and localism. Can you assure this committee that 
you intend to work to honor these public interest objectives?
    Answer. I am firmly committed to honoring all the public interest 
tenets of the Communications Act, including the long-standing 
objectives of promoting diversity and localism. I believe that, as the 
federal agency that regulates the communications industry, we have an 
obligation to ensure that the citizens of this nation have access to 
diverse viewpoints on matters, local and national, that affect their 
lives. I also recognize that the best way to fulfill that obligation 
may change over time. Congress also recognized this when it enacted 
Section 202(h) of the Telecommunications Act of 1996. I take seriously 
the statutory duty embodied in that provision to examine our ownership 
rules biennially in light of competitive changes to these industries, 
and I intend to carry out that duty faithfully. I can assure you that 
any modifications we may make to our ownership rules will only be made 
after a thorough and rigorous review of the impact of those 
modifications on the public interest.
    Question. There has been substantial discussion about ways to 
accelerate the deployment of broadband or high speed data service. 
However, in Indian country, the rate of telephone penetration still 
lags noticeably below that of the general population. What can be done 
to ensure that the nation's Indian population is able to obtain the 
same telephone and broadband communications options that are available 
in other parts of the country?
    Answer. The Commission has taken several important steps to 
facilitate the provision of telecommunications service to individuals 
on tribal lands, including: (1) the Tribal Universal Service Order; (2) 
the Tribal Wireless Services Order; (3) initiation of the Indian 
Telecommunications Training Initiative (``ITTI''); and (4) 
establishment of a Tribal Government Liaison.
    In June 2000, the Commission adopted universal service measures to 
promote telecommunications subscribership and infrastructure deployment 
within American Indian and Alaska Native tribal communities, which, on 
average, have the lowest reported telephone subscribership levels in 
the country. For example, the Tribal Universal Service Order (FCC 00-
208) modified the Commission's universal service rules in order to 
target universal service support to low-income subscribers living on 
tribal lands by: (1) increasing the Lifeline program discount to bring 
monthly telephone costs down to as little as $1 per month; (2) 
increasing the Link Up program discount to provide up to $100 off 
initial telephone installation costs; and (3) broadening the 
qualification criteria for Lifeline and Link Up to increase the number 
of low-income subscribers on tribal lands.
    In the Tribal Wireless Services Order (FCC 00-209), the Commission 
adopted rules and policies to provide incentives for wireless 
telecommunications carriers to serve individuals living on tribal 
lands. The Commission expanded its policies to make bidding credits 
available to winning bidders who use their licenses to deploy 
facilities and provide service to federally recognized tribal lands 
that have a telephone penetration rate equal to or below 70 percent. At 
present, the Commission is considering modifications to the rules 
guiding bidding credits, including: (1) expansion of the bidding 
program to tribal areas with penetration rates above 70 percent, but 
significantly below the national average; and (2) extending credits to 
licensees that enter into partitioning agreements with tribal 
authorities to allow the tribal government or a third-party carrier to 
provide service.
    The Commission also initiated the Indian Telecommunications 
Training Initiative (``ITTI'') last year to facilitate the deployment 
of telecommunications services at reasonable rates to all Indians 
living on federally recognized tribal lands by providing educational 
and networking opportunities to Indian tribal governments and 
telecommunications industry leaders. The first conference, held in 
September 2000, attracted representatives from 135 tribes, some of 
which have since reported successful experiences in advancing 
telecommunications deployment. More recently, in June of this year, an 
ITTI industry conference provided intercultural training and 
information on doing business with Indian tribes for equipment 
manufacturers and service providers. The second ITTI national 
conference will be held in September of this year, with expected 
attendance between 600 and 1,000 people.
    In addition, for the past three years, the Commission has 
designated a Tribal Government Liaison to consult with tribal entities 
about specific measures that will assist the Commission in improving 
telecommunications service to Indian Country. This Liaison coordinates 
across Commission Bureaus and Offices on various forms of outreach to 
tribal entities and on matters that involve questions of federal Indian 
law and policy. The Liaison serves as an initial point of contact for 
tribes and a support resource for Commission staff.
    With respect to advanced services, the Commission conducts an 
annual Section 706 Inquiry to determine whether advanced 
telecommunications capabilities are being deployed to all Americans in 
a reasonable and timely manner. Last year, we committed to monitoring 
closely the deployment of these services, especially to areas of the 
country that might be particularly vulnerable to not receiving timely 
access, such as tribal territories.
    Through a combination of efforts--including the Indian Training 
Initiative, our Tribal Government Liaison, and our universal service 
and Section 706 proceedings--I am confident that we will be able to 
find creative ways to address the telecommunications needs of this 
nation's Indian population.
    Question. The territories of American Samoa, Guam and the 
Commonwealth of the Northern Marianas Islands, despite paying into the 
universal service fund, have not been able to benefit from the 
universal service, Rural Health Care program.
    The Rural Health Care Program establishes discounts based on a 
comparison of rural and urban telecommunication rates, with a theory 
that those in rural areas should pay the same amount for equivalent 
service as those in urban areas. This is problematic for the Pacific 
Insular areas due to the designation of their ``urban areas.'' While 
the urban area is usually defined around a city with a population of 
50,000, the FCC designated the ``urban city'' for these Pacific Insular 
areas to be Pago Pago for American Samoa, Agana for Guam, and Garrapan 
for the Commonwealth of the Northern Marianas Islands. None of these 
cities have a population of 50,000. In fact, the populations of these 
cities are less than 10,000.
    The FCC, to its credit, recognized that the Pacific Insular Areas 
might be at a disadvantage and in September 1999, issued a docket for a 
proposed rulemaking change (FCC Docket 96-45). To my knowledge the 
responses to the FCC docket were all positive in support of the 
redefinition of the urban area.
    Given the great need in the Pacific Insular areas and the positive 
comments to the proposed rulemaking, I hope that you would agree that 
it would be reasonable for the FCC to re-designate the urban areas to 
be either Honolulu or ``the closest urban city with a population of 
more than 50,000 that has a medical school and advanced medical 
facilities.''
    Answer. I believe that the Rural Healthcare Program is critical to 
the goal of bringing the advances of medical science to underserved 
areas through the use of telecommunications. I intend to explore ways 
to more fully utilize the funds that have been set aside for this 
program. Specifically, I appreciate your concern that the Commission's 
current definition of urban area with respect to the Pacific Island 
jurisdictions does not enable health care providers in these 
jurisdictions to be connected to a major urban center. With the 
addition of our new Commissioners, I intend to review this matter 
expeditiously.
    Question. The House Energy and Commerce Committee conducted a 
hearing two weeks ago regarding the E911 Phase 2 implementation. I 
believe a point made at the hearing was that a ``one size fits all'' 
solution would have a disproportionately negative impact upon wireless 
carriers serving rural America than upon those serving urban America. 
Moreover, although I am committed to implementing Phase 2 as soon as 
possible, I am told that many rural carriers are finding the 
implementation schedule set by the Commission to be daunting due in 
large part to the lack of equipment needed to comply with Commission 
mandates.
    Mr. Chairman, have you discussed enforcement options and 
ramification of such potential actions with your Enforcement Bureau?
    Is the Commission going to fully take into account the unique needs 
of carriers serving rural America prior to taking any enforcement-
related actions, especially those who have filed Phase 2 waiver 
requests?
    Answer. I have met with the Chiefs of both the Enforcement and 
Wireless Telecommunications Bureaus to discuss E911 implementation and 
enforcement. Because full E911 implementation is an important public 
safety goal, we will not hesitate to take whatever enforcement action 
is warranted in cases where carriers fail to comply with the 
Commission's E911 requirements for both Phase 1 and Phase 2 
implementation. Such enforcement action could be taken in response to a 
complaint or at the initiation of the Enforcement Bureau.
    We are also sensitive to the special challenges faced by rural 
carriers. Thus, carriers have the opportunity, before any enforcement 
action is taken, to bring to the Commission's attention all factors 
that they feel mitigate--in part or in full--any sanction. Prior to any 
action, we would take all such factors into account, including any 
unique problems encountered by carriers serving rural America.
    Question. Mr. Chairman, I want to thank you for responding to a 
letter I wrote to you regarding the Northpoint matter. I was pleased to 
learn that the FCC is working expeditiously so that MVDDS (multichannel 
video distribution and data service) will be licensed and deployed.
    Hawaii gets second-class DBS service compared to the 48 continental 
states, but we are hardly alone in not being able to get local channels 
via satellite. Clearly, a new terrestrial-based multi-channel provider 
will help Hawaii, as well as rural America.
    What is the status of the FCC's efforts and when can we expect the 
FCC to issue a license?
    Answer. The 12.2-12.7 GHz proceeding is one of the most complex 
allocation proceedings before the Commission. Three services could 
potentially occupy this spectrum in a complex sharing arrangement that 
involves Direct Broadcast Satellite service (``DBS''), Non-
Geostationary (``NGSO'') satellites, and terrestrial users, such as 
Northpoint (as part of a new terrestrial fixed Multichannel Video 
Distribution and Data Service (``MVDDS'')).
    Several matters affect the Commission's ability to address these 
applications. For example, Section 1012 of the ``District of Columbia 
Appropriations Act, 2001,'' requires the Commission to provide for 
independent testing for interference potential of any terrestrial 
service technology proposing to use the direct broadcast satellite 
frequency band (12.2-12.7 GHz). This requirement, to ensure that the 
technical interference considerations have been fully vetted and 
considered, has been an extraordinary undertaking. The independent 
tester, MITRE Corp., subsequently completed the required interference 
study and submitted its report to the Commission on April 18, 2001. The 
Commission placed the report on public notice on April 23, 2001, and 
sought comment on the report. Comments responsive to the study were due 
on May 15, 2001, and replies were due on May 23, 2001. The Commission's 
engineers are currently in the process of finalizing their evaluation 
of the engineering questions for the purpose of making a sound judgment 
about technical interference.
    Another set of issues we have to work through that are just as 
significant as the technical interference question arise from the 
different regulatory schemes applicable to wireless land-based and 
satellite-based services. Because, as noted above, three services could 
potentially use this spectrum, the Commission must determine the 
applicability of the distinct statutory frameworks that are used to 
license spectrum for domestic and international satellite services as 
well as terrestrial services. The Balanced Budget Act of 1997 requires 
the Commission to license by competitive bidding spectrum for which 
mutually exclusive applications are accepted for filing, unless an 
exemption applies. On the other hand, the Orbit Act does not allow the 
Commission to use competitive bidding to license spectrum used for the 
provision of international or global satellite communications services. 
Thus, the use of the spectrum for multiple types of services presents 
novel issues.
    Because of these complexities, this proceeding has been especially 
difficult to resolve. The Commission is working expeditiously in this 
regard and plans to act on a Further Notice of Proposed Rule Making to 
establish licensing, technical, and service rules for MVDDS no later 
than the end of this year, and--subject to the nature of any petitions 
for reconsideration of the rule making proceeding--then expects to 
commence with the licensing process.
                                 ______
                                 
                Questions Submitted by Senator Herb Kohl
                 fcc reform and the ``shot clock'' bill
    Question. Chairman Powell, you've repeatedly said that you want to 
streamline the FCC's internal operations. In fact, you've been quoted 
as saying that the ``most important'' goal of the Commission under your 
watch is to make the FCC an ``efficient, well-managed and decisive'' 
organization. We encourage this sort of reform, though you've got a 
daunting task on your hands.
    As you know, we've been particularly interested in speeding up the 
license transfer review process at the FCC. The ``shot clock'' 
legislation that we introduced last Congress would have imposed 
deadlines upon the Commission's review. You've said you want to speed 
up to the merger review process, but that ``prophylactic'' time limits 
were not needed. We hope you're right.
    What's your plan? What will you do as Chairman to expedite FCC 
merger review? For example, do you plan to continue the work of the 
``Transaction Team'' initiated by your predecessor, Chairman Kennard?
    Answer. As you are aware, I have commenced a full review of the way 
the Commission operates with a view towards improving efficiency and 
making the Commission more responsive to the needs of the fast-changing 
industries that it regulates. The way that license transfer 
applications, including mergers, are processed is part of that review.
    Most license transfer applications, and most mergers, do not 
present difficult or complex issues and can be processed quickly. At 
the Commission meeting on July 12, we issued a Notice of Proposed 
Rulemaking to streamline certain actions on applications to transfer 
control of authorizations to provide domestic telephone service under 
Section 214 of the Act. On the other hand, some mergers present complex 
legal and factual issues that require careful and thorough 
consideration. I believe that active case management and avoiding 
duplication of the work of other agencies and departments of government 
is the best way to ensure timely disposition of these cases. To this 
end, the Transaction Team continues to play an important role as an 
active coordinator of the Commission's effort in merger review. I am 
confident that its timely involvement in major transactions will have a 
beneficial effect in expediting the merger review process.
                         caribbean phone scams
    Question. Mr. Chairman, let's turn to an issue that may not be 
making the headlines, but one that is important to American consumers. 
As you know, 20 new area codes were created for the Caribbean in 1999. 
Though these numbers are international toll calls, they can be dialed 
as easily as any other long distance call in this country. What's worse 
is that a few unscrupulous characters--con artists--have devised 
schemes to fraudulently lure Americans to call these international 
numbers. They get people to call these numbers with real bottom-of-the-
barrel tactics--telling people they need to call to receive information 
of an injured loved one, to avoid a lawsuit, or to accept a luxurious 
prize or vacation. Of course, the consumer doesn't realize she is 
calling an international phone number until the increased charges 
appear on the phone bill. These scam artists need to be put out of 
business.
    Chairman Powell, I have an idea that would put an end to these 
``international calling scams'' and I'd like your input. We are 
considering drafting legislation that would require a notification to 
the caller before an international call is connected. For example, say 
you dial an international number--intentionally or by accident. Before 
the call begins to ring, you would hear a simple, short notification 
that you are dialing an international phone number that may incur 
higher rates. What do you think of that idea, both as a way to prevent 
these scams and as a pro-consumer measure?
    Answer. I applaud your goal. We at the Commission are aware of and 
are also concerned about these scams, and we encourage consumers to 
contact our Consumer Information Bureau and to use our informal 
complaint procedure. When consumers send a complaint to us we forward 
it to the relevant carrier and that carrier is required to respond to 
us, and the consumer, in a limited amount of time. We have had a lot of 
success resolving complaints to consumers' satisfaction using this 
process. I should mention, though, that out of the tens of thousands of 
complaints we received in the last twelve months concerning telephone 
issues only approximately one hundred touched on this issue. As to the 
idea of mandating notifications on all international calls, I believe 
there may be value in consulting with industry. Carriers are in the 
best position to provide information on how such notification might be 
done, whether all 2,600 providers of long distance service would need 
to participate, the costs that would be imposed on carriers, and 
whether those costs would increase rates for consumers.
                        universal service reform
    Question. The Commission recently dealt with some difficult issues 
regarding smaller telephone companies. You are to be commended for 
approving the Rural Task Force Proposal in which many of my 
constituents participated. As you are well aware, the solvency and 
vitality of the Universal Service Fund is very important to the 
ratepayers of Wisconsin.
    What are your views on additional proposals and policy suggestions 
aimed toward guaranteeing the solvency of the Fund? For example, would 
you include an initiative to expand the base of the Fund and if so, 
what services would you cover with a larger Fund?
    Answer. The solvency of the Universal Service Fund is of great 
concern to me, especially in light of recent changes in the 
telecommunications marketplace. As you know, Section 254 of the 
Communications Act mandates that only telecommunications carriers that 
provide interstate service shall contribute to universal service. 
Although universal service support programs have grown, growth in 
interstate industry revenues--the contribution revenue base--has not 
kept pace with program growth. Accordingly, the Commission recently 
initiated a proceeding to streamline and improve the universal service 
contribution system. Among other things, the Commission sought comment 
on ways to expand the contribution base, including, for example, 
whether carriers should contribute on a flat-rate basis rather than 
contributing a percentage of their interstate revenues.
    The Commission also recently initiated a proceeding to review the 
list of services supported by federal universal service. The Commission 
has asked the Federal-State Joint Board on Universal Service to review 
the definition of the core services supported by universal service, 
including whether to include intrastate or interstate toll services, 
expanded area service, and prepaid calling plans.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
    Question. Chairman Powell, I am pleased to welcome you to this 
Subcommittee.
    As you know, New Mexico is a large, sparsely populated rural state.
    As such, translators are of immense importance to the people of my 
state. In fact, one-third to one-half of New Mexico's population rely 
on translators to bring television broadcasts to their homes.
    The statutorily mandated conversion from analog to digital 
television requires new digital translators to be acquired and 
sufficient spectrum to translate digital signals.
    Recognizing that translators represent the only source of free, 
over-the-air broadcasting capability to rural areas, what is the FCC's 
plan for digital translator service to those regions? If no such plan 
has been initiated, when could we expect the Commission to act on this 
important issue?
    Answer. In January of this year in the DTV Periodic Review, the 
Commission recognized the need for a proceeding to address fundamental 
issues regarding authorization and protection of DTV booster, DTV 
translator and digital Low Power Television stations. The Commission 
has authorized experiments for digital translators to further evaluate 
the feasibility of this service. Those experiments are now being 
conducted in Utah and some of the initial indications have been 
encouraging. We expect to have a final report on the results of the 
experiments early next year.
    Question. The FCC has stated that delivery of broadband internet 
access is particularly slow in rural and minority communities. 
``Rural'' and ``minority'' define much of New Mexico.
    I understand that deploying these services is a business decision 
rooted in profit maximization and that some companies focus investment 
on denser population centers, rather than rural America.
    Yet, I am researching options to ensure that rural America, like my 
state of New Mexico, may have the same level of services as our biggest 
cities.
    I applaud those companies who invest in rural America and look 
forward to working with them. I am also interested in new technologies 
that focus on rural and underserved areas.
    Satellite technology that provides high speed broadband service is 
one such innovation. Yet, I am troubled by reports that certain 
companies horde orbital licenses without developing and deploying 
satellites when other companies are prepared to bring such services to 
rural areas but lack the requisite licenses.
    It is my understanding that when the FCC originally assigned 
licenses in May 1997 it waived its anti-warehousing rules but said it 
would, instead, strictly enforce milestones to ensure the utilization 
of slots.
    Has this approach been effective in requiring first-round licensees 
to deploy their satellites or return their licenses ensuring 
competition in rural markets for high-speed data services via 
satellite?
    Answer. The enforcement of milestones has been very effective in 
ensuring competition and the use of valuable orbit and spectrum 
resources. By way of clarification, however, we note that the 
Commission did not waive its ``anti-warehousing'' rules in assigning 
licenses in the first processing round for Ka-band satellite systems. 
Rather, the Commission waived its financial requirements. Generally, 
the application of this rule prevents underfinanced applicants from 
holding spectrum while attempting to procure financing to the detriment 
of qualified applicants ready to go forward. However, because there 
were sufficient orbital locations available to accommodate all 
applicants, with additional locations left over, the Commission 
determined that authorizing all of the first round systems would not 
prevent any applicants from using this spectrum. To ensure orbit and 
spectrum resources did not go unused, the Commission stated that it 
would enforce system milestone schedules.
    Last year, the Commission demonstrated its commitment to enforcing 
milestones when it revoked the authorizations of three Ka-band 
licensees for failure to meet their construction commencement 
milestones. Although the Commission subsequently reinstated the license 
of one company for good cause, as a result of these revocations orbital 
locations that would not have otherwise been utilized are available for 
applicants in the second Ka-band processing round. Thus, it appears 
that all of the second round applicants may be accommodated. The entry 
of new licensees will expand and improve the variety of advanced 
communications services to the United States, including rural and 
underserved areas. The Commission will continue to monitor all 
licensees for compliance and enforce its milestones as necessary.
    Question. I strongly support competition in business. Competition 
gives consumers better products, optimal service, and better prices.
    As you know, some mobile telephone companies claim that they 
require more spectrum in order to provide additional services. Spectrum 
is a public commodity that the FCC is charged with managing and 
licensing.
    Recognizing the virtues of competition, the revenue generated 
through spectrum auctions, and the consumer's interest in diverse 
products and services;
    Should incumbent spectrum licensees demonstrate that they are using 
spectrum before they are given more?
    Answer. A requirement that incumbent licensees demonstrate that 
they are using spectrum before they are given more may be more 
effective in some areas than in others. The Commission, for example, 
has rules for some non-commercial wireless services (e.g., private land 
mobile, non-commercial microwave, maritime) that require licensees to 
demonstrate they are adequately using their current spectrum holdings 
before applying for more spectrum. These non-commercial licenses, which 
are not awarded through competitive bidding, tend for be for smaller 
amounts of spectrum than those licenses awarded through competitive 
bidding. These licenses also are not generally used for wide-area 
systems and often have various eligibility and operational 
restrictions.
    On the other hand, the Commission does not require commercial 
mobile wireless providers to utilize all of their currently held 
spectrum before acquiring more spectrum. In the commercial context, we 
believe there is a need to maintain some additional licensing 
flexibility that permits licensees to some extent to aggregate their 
spectrum holdings to accommodate spectrum-intensive advanced 
telecommunications services. In these circumstances, we have used other 
types of safeguards. The Commission maintains performance requirements 
for commercial mobile providers, as directed by the Congress. 
Commercial licensees must meet specified coverage requirements or 
demonstrate substantial service at certain periods within their license 
terms. The Commission monitors implementation of these rules to ensure 
that they are meeting the goals set forth by statute or public policy 
and will readdress them as conditions warrant. Moreover, increasingly, 
market conditions provide strong incentives for licensees to use 
spectrum allocated to them, especially as the number of commercial 
mobile telephone service providers continues to grow. The Commission's 
latest report on this industry--The Sixth Annual Commercial Mobile 
Radio Service (``CMRS'') Competition Report--estimates that 91 percent 
of the U.S. population lives in counties with some level of mobile 
telephone service by three or more distinct providers, while 75 percent 
live in counties with five or more providers. These carriers are 
finding that, in order to remain competitive, they must offer a larger 
variety of services at better prices, and, it is estimated that the 
move towards third generation (``3G'') high-speed mobile data and voice 
service will only increase this competition.
    The Commission will continue to monitor closely both marketplace 
and policy incentives to ensure that the spectrum is used efficiently, 
whether for public safety, private or commercial purposes, and will 
monitor their effectiveness in helping to ensure spectrum efficiency.
                   SECURITIES AND EXCHANGE COMMISSION

STATEMENT OF LAURA SIMONE UNGER, ACTING CHAIRMAN

                  summary statement of Chairman Unger

    Senator Hollings. Chairman Unger, will you please come 
forward. Chairman Unger, we welcome you to the committee and we 
would be delighted to hear from you at this time.
    Ms. Unger. Thank you very much, Chairman Hollings. I think 
I now know what to say about competition, should that issue 
arise during the course of my testimony today.
    But I appreciate the opportunity to testify today on behalf 
of the Securities and Exchange Commission in support of the 
President's fiscal year 2002 budget request. As I am sure you 
know the SEC today faces some of the most complex and difficult 
issues it has ever considered.
    At the same time, more Americans invest in our securities 
markets than ever before. Twenty years ago, only 5.7 percent of 
Americans owned mutual funds. Today, some 88 million 
shareholders representing 51 percent of U.S. households hold 
$7.4 trillion in mutual funds. This exceeds by about $4 
trillion the amount on deposit at commercial banks and 
surpasses by $2 trillion the total financial assets of 
commercial banks.
    At the same time, our markets continue to be transformed by 
the rapid pace of technological change in recent years. New 
technologies, new market entrants, and new financial products 
are reshaping our markets. For example, electronic trading 
platforms, some of which didn't exist just a few years ago, are 
now matching buyers and sellers of hundreds of millions of 
shares every day, anonymously, and for fractions of a penny a 
share.
    Consider also emerging new products. The QQQ, which the 
industry calls Cubes, is an index product that tracks the 
Nasdaq 100 and didn't exist 2 years ago. Yesterday, it traded 
almost 53 million shares, which is more shares than were traded 
in Microsoft, GE, and IBM combined.
    No less important, our markets today are increasingly 
global, a trend that most people expect to accelerate in the 
coming years. Globalization, as you might expect, affects 
almost every aspect of the SEC's work. We must be able to 
regulate our markets without boundaries and investigate and 
prosecute securities fraud irrespective of where that conduct 
originated.
    All of these developments raise complex and critically 
important challenges that the SEC must be prepared to meet. At 
the same time that our markets are undergoing such dramatic 
changes, the SEC is struggling to keep pace. With approximately 
3,000 staff, the SEC is a small Federal agency, but the 
industry we oversee grows daily and includes nearly 700,000 
registered representatives employed by 8,000 broker-dealers, 
some 15,000 companies that file reports with us, some 30,000 
investment company portfolios, and almost 8,000 registered 
investment advisors. Over $41 trillion in stocks are expected 
to trade hands this year on the exchanges and Nasdaq.
    Against this backdrop, the President's fiscal year 2002 
budget requests an appropriation of $437.9 million for the SEC. 
This is only 3.6 percent more than our fiscal year 2001 enacted 
level of $422.8 million. The $437.9 million request provides 
the resources necessary to meet most of the Commission's needs. 
It is a zero-growth budget that funds all but $5.2 million of 
the Commission's cost increases with no programmatic staffing 
increases.
    We support this request. Ironically, though, we can manage 
at this level only because of the severe staffing problems that 
we face. In the last 3 years, more than 1,000 SEC employees, 
nearly one-third of the agency's staff, have left the 
Commission, which is a rate nearly double the Government 
average. Not only do we lose too many employees, but we also 
struggle to find qualified people willing to work for the 
salary and benefits we offer.
    Over the last several months, the SEC consistently has had 
about 280 vacant positions, amounting to almost 9 percent of 
our hiring ceiling. Because filling open positions has proven 
to be so difficult, we intend to use the staffing funds to 
cover some of the mandatory costs for fiscal year 2002. 
However, constraining the SEC's growth and relying on cutting 
unfilled positions is not sustainable over the long term.
    In the coming years, I do believe the SEC will need 
staffing increases to meet the challenges that I described 
earlier. In addition, the staffing increases will be needed to 
meet our increasingly complex regulatory responsibilities under 
the Gramm-Leach-Bliley Act and the Commodities Futures 
Modernization Act of 2000.
    Finally, as you know, both the House and Senate have passed 
legislation that would, among other things, give the SEC the 
ability to grant and match the pay of our sister regulators at 
the Federal banking agencies, known as pay parity. While the 
SEC economists, lawyers, accountants, and examiners perform 
many of the same duties and responsibilities and functions as 
the bank regulators, and we often work side by side with them, 
the staff at the Federal banking agencies make anywhere from 25 
to 40 percent more than the SEC staff, their counterparts at 
the SEC. This pay disparity has been a significant drain on 
morale and has perpetuated the staffing crisis that has 
threatened to hamper the agency's effectiveness.
    As you know, the SEC, our Congressional oversight 
committees, the securities industry, and the corporate 
community have all been strong supporters of pay parity. Pay 
parity is important for investors, the securities industry, and 
for our markets. I do hope this critical legislation will be 
enacted soon and passed in conference in the near future. In 
the event that pay parity is enacted during this session, the 
full funding for our new pay scale would require additional 
funds beyond our current request.

                           prepared statement

    I appreciate the opportunity to appear here today and 
request that my written statement be included in the record.
    Senator Hollings. It will be included.
    [The statement follows:]
                  Prepared Statement of Laura S. Unger
    Chairman Hollings, Ranking Member Gregg, and Members of the 
Subcommittee: I appreciate this opportunity to testify on behalf of the 
Securities and Exchange Commission (``SEC'' or ``Commission'') in 
support of the SEC's fiscal 2002 budget. The SEC is a civil law 
enforcement agency. Since its creation in 1934, the SEC's mission has 
been to administer and enforce the federal securities laws in order to 
protect investors, and to maintain fair, honest, and efficient markets. 
We accomplish this mission by overseeing the markets through a public-
private partnership. This system of shared regulation among the SEC, 
state regulators, self-regulatory organizations (``SROs''), and the 
securities industry enables the Commission to leverage its resources 
and is markedly different from the approach taken by other federal 
regulators. Even with this system, however, the SEC must stretch to 
keep pace with the rapidly changing marketplace.
    The Commission today faces some of the most complex and difficult 
issues it has ever considered. No segment of American business has been 
more transformed by the rapid pace of technological innovation in 
recent years than the securities industry. New technologies, new 
participants, and new financial products are reshaping our markets. Our 
markets also are becoming increasingly global--a trend that most expect 
to accelerate in the coming years. In addition, our national securities 
markets are taking steps to shed their long-held membership status and 
are moving to become publicly held entities. In short, it is now more 
important than ever that the SEC remain vigilant in policing and 
maintaining the integrity and transparency of our securities markets.
    We are a nation of investors. Twenty years ago, only 5.7 percent of 
Americans owned mutual funds. Today, some 88 million shareholders, 
representing 51 percent of U.S. households, hold mutual funds. Our 
nation's investors have an unprecedented stake in our markets. Whether 
through college savings plans or retirement accounts, our collective 
stake in U.S. markets continues to grow, and we are increasingly 
dependent on the success and integrity of those markets. In addition, 
online trading and new technologies have empowered individual investors 
in ways that were previously unimaginable. It is against this backdrop 
that I intend to discuss the President's fiscal 2002 budget request for 
the SEC and the primary challenge we currently face: our inability to 
attract and retain staff.
    The President's fiscal 2002 budget requests an appropriation of 
$437.9 million for the SEC, 3.6 percent more than our fiscal 2001 
enacted level of $422.8 million. This $437.9 million request, while 
providing the resources necessary to meet the Commission's current 
needs, is a zero-growth budget. It only partially funds the 
Commission's inflationary and mandatory cost increases, does not 
provide any programmatic staffing increases, and actually requires the 
Commission to make a small reduction in its authorized staff level.
    We intend to support the Administration and meet the challenges 
ahead by continuing to use our existing resources as efficiently and 
effectively as possible. Unfortunately, and perhaps ironically, we only 
have the ability to operate at this funding level because of the severe 
staffing problems we currently face. In particular, our inability to 
pay staff at a level comparable with the other federal financial 
regulatory agencies has hampered our ability to attract and retain 
staff. The resulting high turnover that we have experienced has 
resulted in a significant efficiency loss and has left certain 
positions unfilled indefinitely. Because filling these positions has 
proven to be so difficult, we intend to fund some of our mandatory 
costs by making reductions in the number of vacancies that we will fill 
in fiscal 2002. However, constraining the SEC's growth and relying on 
cutting unfilled positions is not preferred and certainly is not 
sustainable over the long term.
    The SEC will need significant additional resources in fiscal 2003 
and beyond to respond to both the continuing innovations in our markets 
and the increasing regulatory responsibilities we face as a result of 
several recent legislative initiatives. In particular, we will require 
additional examination and oversight staff to meet our new 
responsibilities under the recently enacted Commodities Futures 
Modernization Act of 2000 (``CFMA''), which provides for joint 
oversight with the Commodities Futures Trading Commission of new 
security futures products, and the landmark Gramm-Leach-Bliley Act 
(``GLBA'').
    In addition, the SEC critically needs to stay abreast of the rapid 
evolution of our securities markets. New markets and new trading models 
are constantly emerging. Electronic trading platforms--some of which 
didn't exist just a few years ago--are now anonymously matching buyers 
and sellers of hundreds of millions of shares every day. In February of 
last year, the Commission approved the International Securities 
Exchange's application to become the first new national securities 
exchange in twenty-seven years. Now, four entities have applied for 
registration as an exchange. At the same time, the traditional exchange 
and over-the-counter markets continue to innovate. Both the New York 
Stock Exchange and Nasdaq are in the process of incorporating greater 
automation into their markets, launching complex and important 
initiatives such as NYSE Direct and the SuperMontage.
    No less pressing is our need to keep up with the challenges 
presented by today's increasingly global marketplace. Companies 
throughout the world are now seeking capital on a cross-border basis. 
In addition, U.S. investors today can view real-time quotes from 
foreign markets, and electronic linkages reduce the costs to U.S. 
investors of trading directly in foreign markets. These developments 
make it increasingly important for the SEC to promote high quality 
disclosure and transparency standards, including high quality 
internationally acceptable accounting standards.
    Despite these long-term needs, our fiscal 2002 request will allow 
the Commission to continue such important initiatives as:
  --combating the rise in Internet and financial reporting fraud;
  --overseeing the securities industry's automation changes in 
        connection with the transition to a T+1 settlement system;
  --maintaining our formal inspection cycle program for the increasing 
        number of alternative trading systems;
  --updating and improving prospectus requirements for variable 
        insurance products;
  --developing a tailored disclosure document for unit investment 
        trusts; and
  --addressing developments in domestic and international accounting 
        and auditing matters.
    Having outlined our ongoing priorities and how we intend to manage 
the funding level approved in the President's budget, I would now like 
to discuss the Commission's severe difficulties in attracting and 
retaining qualified staff and the status of our pay parity effort.
                            staffing crisis
    On June 14, 2001, the House of Representatives voted 404 to 22 in 
favor of H.R. 1088, the Investor and Capital Markets Relief Act, the 
companion to S. 143, the Competitive Market Supervision Act of 2001, 
which the Senate passed by unanimous consent earlier this year. Both of 
these bills would provide the SEC with the authority necessary to match 
the pay and benefits of federal banking agencies. We currently believe 
that this legislation will be enacted prior to the start of fiscal 2002 
on October 1, 2001. As such, I would like to take this opportunity to 
review the SEC's current staffing crisis and to discuss the additional 
resources that we will need to implement pay parity.
    As a result of Congress's passage of the Financial Institutions 
Reform, Recovery and Enforcement Act (FIRREA) in 1989, none of the 
federal banking regulators is subject to the government-wide pay 
schedule. As a result, they are able to provide their staffs with 
appreciably more in compensation and benefits than we can. This 
disparity is a significant drain on morale. It is difficult to explain 
to SEC staff why they should not be paid at comparable levels, 
especially when they are conducting similar oversight, regulatory, and 
examination activities. It is one thing for staff to make salary 
comparisons with the private sector, but quite another for them to see 
their government counterparts making substantially more than they are.
    This is particularly true in the wake of the landmark GLBA 
mentioned above. The GLBA demands that the Commission undertake 
examinations and inspections of highly complex financial services 
firms. Moreover, by allowing additional affiliations between securities 
firms, banks, and insurance companies, the GLBA requires increased 
coordination of activities among all the financial regulators. Even 
more so than in the past, Commission staff are working side-by-side 
with their counterparts from the banking regulatory agencies, including 
the Federal Reserve, the Office of the Comptroller of the Currency, and 
the Federal Deposit Insurance Corporation. However, we cannot match the 
salaries that our sister regulators pay.
    I appreciate the continued support of our authorizing and 
appropriating committees and their recognition that pay parity is good 
public policy. With approximately 3,000 staff, the SEC is small by 
federal agency standards. This staff is charged with overseeing an 
industry that includes about 700,000 registered representatives of 
approximately 8,000 broker-dealers, some 15,000 companies that file 
reports with us, about 30,000 investment company portfolios, and about 
8,000 registered investment advisers. Over $41 trillion in stocks are 
expected to trade hands this year on the nation's stock exchanges and 
Nasdaq, including transactions on numerous new electronic communication 
networks. Mutual funds now hold close to $7 trillion in assets. This is 
more than double the amount on deposit at commercial banks and 
surpasses by $2 trillion the total financial assets of commercial 
banks. Unlike bank deposits, however, mutual fund assets are uninsured 
and no SROs help us regulate this sector. Social security reform 
initiatives also raise the possibility of greatly increasing the number 
of American's invested in our capital markets.
    With such important responsibilities and at such a critical time in 
our markets' development, the Commission simply cannot afford to 
continue to suffer a serious staffing crisis. Since 1996, our attrition 
rate has been increasing, particularly among our more senior 
professionals. Over the last two fiscal years, the Commission has lost 
30 percent of its attorneys, accountants, and examiners.\1\ If this 
trend continues unabated, the Commission's mission of protecting 
investors and maintaining market integrity will be seriously 
threatened.
---------------------------------------------------------------------------
    \1\ Over the past several years the Commission has explored 
virtually every available approach to keeping staff longer. In 1992, we 
petitioned and received from the Office of Personnel Management 
(``OPM'') the authority to pay the majority of our attorneys and 
accountants approximately 10 percent above their base pay. While 
special pay was a step in the right direction, its value erodes over 
time and it proved to be a short-term solution. This is because staff 
that receive special pay do not receive the government-wide locality 
increase each year, which means that their special pay becomes less 
valuable over time and hence becomes less effective as a retention 
tool. Our appropriation last year included funds to reinstate special 
pay rates for certain attorneys, accountants, and examiners and OPM 
recently approved our proposed special pay rates for these employees. 
While this should help, based on our experience we know that this is at 
most a temporary and partial remedy to the SEC's staffing crisis. In 
addition, even with special pay, the salaries at the federal banking 
regulators are still substantially more than we can pay our staff.
---------------------------------------------------------------------------
    We currently estimate that implementing pay parity will cost 
approximately $70 million in fiscal 2002, with yearly adjustments for 
inflation thereafter. This increase brings our revised fiscal 2002 
appropriation request to $508 million. While I recognize that this 
represents a large increase for the Commission, I strongly believe that 
the most vital resource the SEC has is its highly professional and 
well-regarded staff and that they ought to be compensated at levels 
consistent with the other Federal financial regulators.\2\ I look 
forward to working with you to ensure that this additional funding is 
provided and this issue is resolved.
---------------------------------------------------------------------------
    \2\ A broad cross-section of the securities industry, corporate 
community, and investor groups have expressed support for pay parity, 
including the Securities Industry Association, the Investment Company 
Institute, the Investment Counsel Association of America, the Business 
Roundtable, the California Public Employees' Retirement System 
(CalPERS), Teachers Insurance and Annuity Association College 
Retirement Equity Fund (TIAA-CREF), the National Association of 
Securities Dealers, the New York Stock Exchange, and Fidelity 
Investments.
---------------------------------------------------------------------------
                             fee reductions
    In addition, I would like to take this opportunity to briefly 
comment on the fee provisions of both S. 143 and H.R. 1088. Both bills 
would significantly reduce fees for investors, market participants, and 
companies making filings with the Commission, while preserving the 
amount of offsetting collections available to this Committee to fund 
the agency in coming years.\3\ These bills also spread the cost of 
regulation among those who benefit from the activities of the 
Commission and address the agency's funding structure in a 
comprehensive and balanced manner. The fee provisions in these bills 
not only have the support of the SEC, but also of the Administration.
---------------------------------------------------------------------------
    \3\ The Congressional Budget Office estimates that fees required to 
be collected by the SEC from all sources will total over $2.47 billion 
in fiscal 2001. This amount represents more than five times the SEC's 
enacted fiscal 2001 appropriation of $422.8 million. As stated, both S. 
143 and H.R. 1088 are designed to reduce fees while maintaining the 
amount of offsetting collections that are available to the SEC's 
appropriators. In fiscal 2002, this amount is estimated at $1.15 
billion.
---------------------------------------------------------------------------
                    station place lease procurement
    Finally, I would like to provide some additional details regarding 
the Commission's new headquarters lease. On May 29, 2001 the SEC 
awarded a 14-year lease for 650,000 rentable square feet at Station 
Place, adjacent to Union Station, to Louis Dreyfus Properties, LLC, of 
New York. This decision was made after an extensive two-year 
procurement during which the Commission held a vigorous competition and 
consulted with its authorizing committees, appropriations committees, 
the Public Works Committee, the General Services Administration 
(``GSA''), the Office of Management and Budget (``OMB''), and the 
District of Columbia.
    The Commission's current headquarters lease at 450 5th Street, N.W. 
ends in fiscal 2004 and we were required to compete for a new lease 
pursuant to the Competition in Contracting Act.\4\ The SEC has been at 
this location since 1982 and has been suffering from overcrowding for 
the last several years. In calendar 2000, we procured additional space 
at 901 E Street, N.W. and moved several units out of our headquarters 
to ameliorate overcrowding.\5\ While this last move was essential to 
deal with severe overcrowding, it has negatively impacted the 
activities of the Commission and reduced our efficiency. In preparing 
to obtain new space, the SEC sought to consolidate the agency's 
offices, relieve existing overcrowding, meet safety and health 
requirements, and ensure adequate access to mass transit. We received a 
number of proposals and enjoyed a healthy competition. Station Place 
offered the best means to reach our goals. More specifically, it was 
the lowest cost, highest technically rated offer in the procurement and 
represents the best value to the government.
---------------------------------------------------------------------------
    \4\ The Commission currently has several leases expiring in the 
regions, in addition to the agency's headquarters lease. We originally 
signed many of these leases during the late 1980s and early 1990s when 
prices in the real estate market were depressed and significantly lower 
than the rates that can be obtained today.
    \5\ The Commission previously moved a large portion of its 
administrative, information technology, and operations functions out of 
headquarters and into the Commission's Operations Center in Alexandria, 
VA in the early and mid 1990s as a first step toward alleviating 
overcrowding. Those functions will remain in Alexandria after the 
Commission moves to Station Place.
---------------------------------------------------------------------------
    During this procurement, the Commission followed all applicable 
laws and worked closely with GSA and OMB. From an appropriations 
perspective, the Commission's award to Station Place was scored as an 
operating lease and will not require an upfront appropriation of funds 
to be constructed. Instead, its rental costs will be covered on a 
yearly basis through our appropriation, much as now. I want to assure 
you that this move is appropriate for the Commission, good for the 
city, and the best deal available to the government.
                               conclusion
    Our nation's markets and the SEC are at a crossroads. New 
technologies and activities continue to pose new challenges and threats 
to the integrity of our markets, as does increased globalization. I 
appreciate the support that this Committee has provided the SEC in the 
past and look forward to having a fruitful dialogue regarding the 
resource needs and policy issues that currently face the Commission. I 
also appreciate the willingness this Committee has already shown in 
recognizing the need to resolve the SEC's intractable staffing 
problems. I look forward to working with you toward final passage and 
funding of pay parity legislation.

                               Pay parity

    Senator Hollings. Let me ask you, how much for pay parity?
    Ms. Unger. How much is the cost?
    Senator Hollings. Right.
    Ms. Unger. Seventy-point-nine million dollars.
    Senator Hollings. You sound the alarm that one-third of the 
staff has left in the last year and you still have 280 vacant 
positions. At the same time, though, your request assumes the 
reduction of some 41 FTEs and 57 other positions, almost 100 
positions. Do you support that request, or was that OMB's 
request?
    Ms. Unger. That was the President's budget, which we do 
support.

                          Penalty collections

    Senator Hollings. And then that is not what SEC needs. We 
want to make sure you do a good job, and heretofore, you have 
done a good job. I have a question about the disgorgement, 
because you have got a recent Inspector General's report that 
was just published that you let quite a bit of penalty fines go 
by the board. Can you explain that?
    Ms. Unger. Yes. I think the report mentions that of about 
$366 million of penalties that were assessed, about $60-
something million was waived. That is usually done under very 
specific circumstances where the defendant has made a showing 
that they have an inability to pay.
    I, as a Commissioner, when I first joined the agency, did a 
top-to-bottom review of the Enforcement Division and noted that 
we could do better in collecting penalties, and I think we have 
strengthened the criteria for permitting when defendants can 
waive disgorgement. But, of course, we are constantly looking 
at and reviewing that.
    We have, since the report that you just mentioned was 
released, implemented a few additional steps. One is that we 
require the defendant to sign a waiver so that we can get their 
actual financial report, their public report. Another is that 
the Chief Counsel's Office of our Division of Enforcement will 
review each and every request for a waiver. And the third thing 
is the inability to pay. We have established a more consistent 
approach to granting these waivers and have established clearer 
criteria for the staff.

                            vacant Positions

    Senator Hollings. How much money do you need to fill those 
280 vacant positions?
    Ms. Unger. I think the figure that we had given as to what 
we would like our budget to be was closer to $577 million.
    Senator Hollings. Five-hundred-and-seventy-seven million?
    Ms. Unger. That would include pay parity and full staffing.
    Senator Hollings. Now we are talking sense.
    Ms. Unger. Of course, we can always make do with more 
money, Mr. Chairman.

                         conclusion of hearings

    Senator Hollings. Well, we appreciate very much your 
opinion and indulgence. With the late hour and everything of 
that kind, the committee will leave the record open, because we 
have some Senators that want to ask some questions. We will 
leave that record open for those questions and your answers, 
and unless you have other comments, the committee will be in 
recess subject to the call of the Chair.
    Ms. Unger. Thank you very much, Mr. Chairman.
    Senator Hollings. Thank you very much.
    The subcommittee is in recess.
    [Whereupon, at 11:29 a.m., Thursday, June 28, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED 
              AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2002

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                         DEPARTMENTAL WITNESSES

    [The following testimonies were received by the 
Subcommittee on Commerce, Justice, and State, the Judiciary, 
and Related Agencies for inclusion in the record. The submitted 
materials relate to the fiscal year 2002 budget request for 
programs within the subcommittee's jurisdiction.]

                             THE JUDICIARY

Prepared Statement of Honorable John G. Heyburn II, Chairman, Committee 
        on the Budget, Judicial Conference of the United States
                              introduction
    Chairman Gregg and Members of the Subcommittee, thank you for 
giving me the opportunity to testify on the judiciary's fiscal year 
2002 budget request. I look forward to working with you, the other 
members of the subcommittee, and your dedicated staff as we go through 
this process.
    Before addressing our fiscal year 2002 request, on behalf of the 
entire judiciary, and especially our very busy courts along the 
southwest border, I would like to express our sincere appreciation for 
the generous funding levels this subcommittee and the Congress provided 
to the judiciary for fiscal year 2001. As you know, the courts were 
facing a severe crisis along the southwest border and the fiscal year 
2001 appropriations provided the funds needed to hire staff to address 
the workload explosion that occurred there over the past few years. It 
is the first time since 1998 that we have been able to fund the courts' 
staffing needs. For that we are thankful. The increase this 
subcommittee provided in fiscal year 2001 will demonstratively improve 
justice across the country. I would be remiss if I did not state at 
this point that while the additional staff resources provided by 
Congress will make a huge difference, many courts, especially those 
along the southwest border, are woefully short of judges. I will 
discuss this issue in more detail later in my statement.
                            budget overview
    Overall, the judiciary has submitted a fiscal year 2002 budget 
request that is necessary to maintain our current level of staff and 
operations and to allow the courts to handle growing workload and other 
critical needs. In total, we are requesting a $610 million increase in 
appropriations for all judiciary accounts over the fiscal year 2001 
enacted level. More than three-quarters of this increase ($464 million) 
funds base adjustments needed to continue current operations. The 
remainder ($146 million) is primarily to rectify the critical 
deficiencies in the Supreme Court Building that I believe you will be 
discussing with the justices next week ($110 million), and to continue 
the efforts begun last year to provide the courts the staffing 
resources needed to keep pace with workload increases. A detailed 
explanation of our fiscal year 2002 request is included as an Appendix.
                    ensuring the quality of justice
    An independent judiciary that all of our citizens trust and respect 
is a fundamental tenet of our nation. In order to foster that 
independence, citizens must believe that their disputes will be 
resolved in a fair and expeditious manner. To do so requires a 
commitment by the Congress to provide the courts adequate resources. 
Our request before you today provides a blueprint of those resource 
requirements.
    Of course, we in the Judicial Branch must also make a commitment, 
to do everything in our power to utilize the resources provided by 
Congress effectively and efficiently. Later in my statement I will 
discuss our ongoing efforts to contain costs in the judiciary, but 
first I would like to take you behind the scenes and provide examples 
of the dedicated work performed throughout our judicial system.
    Probation officers who supervise convicted felons as part of their 
sentence are a key component of the judicial system. Our probation 
officers work very closely with those they supervise, not only to 
ensure those individuals do not slip back into a life of crime, but 
also to assist them in changing their lives for the better. For 
example, Val, a single mom who was deeply involved in the drug culture, 
was imprisoned for distribution of cocaine. Once released from prison, 
Val was placed under the supervision of one of our probation officers. 
With the encouragement and support of her probation officer, Val worked 
steadily and supported her child, and at the same time, earned an 
undergraduate degree. She then went on to obtain a law degree, was 
subsequently admitted to the state bar, clerked for a state court 
judge, and was eventually admitted to practice in federal court.
    The federal judiciary also brings about fairness and justice to the 
common citizen who is wronged and has only the court as its last resort 
for protection.
    A probation officer's rigorous enforcement of the conditions of 
supervision compelled one offender, a businessman who had embezzled 
from his employees' pension funds, to return his ill-gotten gains back 
to his victims. The offender steadfastly protested that he did not have 
money to pay the court-ordered restitution. However, the probation 
officer's scrutiny of the offender's affluent lifestyle and his 
questionable commingling of business and personal finances revealed 
otherwise. As a result of the officer's efforts, the offender paid 
$40,000, the balance of restitution owed.
    Respect for our system of justice inspires the citizens who serve 
as jurors to go beyond the call of duty, as evidenced in a recent civil 
case that jurors considered for three days before reaching a verdict. 
It was later discovered that one of the jurors was functionally 
illiterate. The others took the time to read every exhibit to him.
    Finally, this country's independent judiciary serves as a model 
worldwide to bring fairness and human rights to other nations. A visit 
by Russian Judge Sergei Pashin to a United States District Court helped 
inspire his desire to change Russia's courts into something more than a 
rubber stamp for prosecutors. Judge Pashin found in America a system of 
justice that was ``. . . interested only in finding the truth.''
    Our ability to provide a level of service our citizens deserve is 
dependent in large part on the resources provided by Congress. The 
balance of my statement describes those resource needs in the following 
areas--(1) an appropriate level of compensation for private panel 
attorneys; (2) a level of judicial officers and support staff 
commensurate with the workload placed upon them; (3) an adequate level 
of security in the courthouses; and (4) adequate compensation for our 
judicial officers.
                           defender services
    There are two areas where significant increases in resources are 
required in the defender services area to avoid adversely affecting the 
quality of our justice system. An increase of $23 million is needed to 
provide counsel for 5,200 additional representations projected for 
fiscal year 2002. This requirement is in large part a function of the 
projected increase in criminal filings by the Department of Justice. 
The other significant increase requested in this account is to provide 
$35 million to raise the compensation for private panel attorneys.
    The increase of $35 million to raise the compensation for private 
panel attorneys is of the utmost importance to the federal judiciary. 
One of the biggest impediments to maintaining a fair system of justice 
is the low rate of pay that private panel attorneys receive. In 1986, 
Congress amended the Criminal Justice Act (CJA) to allow the judiciary 
to pay $75 per hour for both in-court and out-of-court work. At that 
time, the hourly rates were $60 for in-court and $40 for out-of-court. 
This amendment also allowed the judiciary to raise the $75 rate in 
future years to reflect inflation. Instead of keeping pace with 
inflation, Congress has only funded an hourly rate of $75 in-court and 
$55 out-of-court in most locations. In 1986 dollars, this $75/$55 rate 
is equivalent to only $46 in-court and $33 out-of-court, significantly 
less than the $60 and $40 rates that were effective in 1986.
    The $113 rate that is being requested for fiscal year 2002 is the 
amount that was envisioned by the amendment to the CJA in 1986, 
adjusted for inflation as the statute provides. The failure to 
implement higher panel attorney rates is increasingly becoming a 
problem in the federal criminal justice system. In some districts, 
judges are unable to find qualified attorneys to take many CJA 
appointments because the current rate often does not cover overhead 
costs. For example, a panel attorney with over 20 years of criminal law 
experience indicated that he is unable to provide his employees with 
health care or retirement benefits due to the low rates of pay. He 
added that rents in downtown Seattle have skyrocketed in recent years, 
from $12 per square foot in 1988 in his building to approximately $36 
today.
    The quality of justice will suffer further and citizens will begin 
to question the fairness of our judicial system when unqualified 
lawyers who don't have expertise in federal criminal practice are 
appointed to represent those defendants who are financially unable to 
retain counsel.
                          court support staff
    The judiciary is requesting $16 million for 212 new court support 
FTE to allow the courts to keep pace with changes in its largely 
uncontrollable workload. Court staff are the backbone of court 
operations and as caseload grows, staff must grow along with it. 
Without sufficient staff, processes are short-changed, cases may be 
delayed, support provided to judicial officers and the public will 
deteriorate, and public safety is compromised. This can lead to a lack 
of confidence in our judicial system among our citizenry.
    Most of the requested increase is for the probation and pretrial 
services program. Probation and pretrial services offices play an 
integral role in our criminal justice system and ensure public safety 
in our communities. There are almost 129,000 offenders under the 
supervision of probation and pretrial services officers as compared to 
125,000 prisoners currently in federal prisons. The daily cost of 
supervision in the community in fiscal year 1999 was $7.74 compared to 
$59.41 for the Bureau of Prisons. The extent to which the offices are 
adequately staffed directly affects how closely they can monitor the 
activities of dangerous convicted felons and prevent potential 
problems. For instance, an offender on supervised release receiving 
mental health counseling, was given a polygraph examination to gauge 
the danger he posed to the community. It revealed that he was stalking 
an eight-year-old girl. The child's family was notified, the offender 
received treatment to address the problem, and a potential sexual 
assault was averted.
    Probation and pretrial services offices need sufficient resources 
to provide necessary mental health and substance abuse treatment for 
offenders. The fiscal year 2002 request includes a $5.2 million 
increase for this purpose. These types of treatment programs can put 
people on the road to success. For example, John served a term of 
imprisonment following conviction for conspiracy to distribute 
marijuana and cocaine. While incarcerated, he successfully completed a 
drug and alcohol treatment program. When released, John entered an 
aftercare program (under contract with the Probation Office) and 
regularly attended Alcoholics Anonymous and Narcotics Anonymous 
meetings. Eventually, he got a part-time job as a rehabilitation 
technician at a local outpatient chemical dependency treatment center. 
While continuing his part-time employment at the treatment center, John 
completed both a bachelor's degree and a master's degree in counseling, 
and is currently a doctoral candidate in the field of counseling. His 
career goal is to remain in the field of addiction counseling.
                             court security
    A key tool in ensuring the quality of justice is maintaining 
adequate security in our nation's courthouses. If our citizens feel 
safe in the courtroom, they will feel more confident about what happens 
in those buildings. Being thoroughly screened when entering courthouses 
and having court security officers visible throughout is an absolute 
necessity to protect all who enter our courthouses.
    Unfortunately, our court security appropriation, which funds court 
security officers and security systems, is one for which Congress could 
not find sufficient resources to meet the needs in fiscal year 2001. 
The fiscal year 2002 request rectifies these deficiencies, particularly 
in the area of replacing inadequate and outdated equipment. In 
addition, it includes funds for both court security officers and 
equipment for new buildings that will be coming online in fiscal year 
2002.
    Another security concern, though not part of the judiciary's budget 
request, is the lack of resources available to the U.S. Marshals 
Service. The Marshals Service is responsible for the security of 
courthouses, judges, court proceedings, and the public who come into 
our buildings. They are also responsible for the transportation and 
security of prisoners and fugitive apprehensions. They are experiencing 
severe personnel resource deficiencies, particularly along the 
southwest border, where they do not always have enough deputy U.S. 
Marshals to move prisoners safely from their holding cells, through 
public hallways in courthouses, or to monitor them in the courtrooms. 
The Marshals Service should be funded so they can perform all of their 
security related missions in a safe and professional manner.
                         judicial compensation
    We live in a society where cost-of-living salary adjustments to 
maintain purchasing power--whether such adjustments are made pursuant 
to a collective bargaining agreement or a statute as in the case of 
Social Security--are a fact of economic life. Yet, over the past eight 
years members, judges, and high level executive branch officials have 
received only three annual Employment Cost Index (ECI) adjustments. As 
a result, their purchasing power has declined by over 13 percent, which 
amounts to more than $16,000 per year. While we are very grateful that 
Congress approved an ECI adjustment for fiscal year 2001, and 
particularly for your leadership in that effort, Chairman Gregg, it is 
noteworthy that even the 2.7 percent increase failed to keep pace with 
the change in the cost of living.
    The corrosive effects of this salary erosion on judges were well 
documented in a recent report published by the American and Federal Bar 
Associations. That report discussed in detail the potential effects of 
denying judges annual ECI adjustments, including its effect on judges' 
recruitment, retention, and productivity. The report was favorably 
received by the media. It also confirmed the views of the Chief 
Justice, who in his 2000 year-end statement observed that ``in order to 
continue to provide the nation a capable and effective judicial system 
we must be able to attract and retain experienced men and women of 
quality and diversity to perform a demanding position in the public 
service . . . In order to continue to attract highly qualified and 
diverse federal judges--judges whom we ask and expect to remain for 
life--we must provide them adequate compensation.''
    For the aforementioned reasons, the Judicial Conference strongly 
encourages Congress to authorize an Employment Cost Index (ECI) 
adjustment for federal judges, members of Congress, and top officials 
in the executive branch for 2002 and subsequent years, as provided by 
law; enact legislation to give judges and other high level federal 
officials a ``catch-up'' pay adjustment of 9.6 percent to recapture 
previous ECI adjustments that were not provided; and authorize a 
Presidential commission to consider and make recommendations to the 
President on appropriate salaries for high-level officials in all three 
branches of the government.
                             new judgeships
    Without judges, justice cannot be administered. There has not been 
a major judgeship bill since 1990. Yet increases in federal 
jurisdiction and law enforcement resources over that period have 
contributed to a more than 25 percent increase in workload for the 
judiciary. Only through the appropriations process has there been a 
modest increase in judgeships with nine added in the fiscal year 2000 
and ten in the fiscal year 2001 appropriations bills. The Judicial 
Conference of the United States currently is requesting that 54 Article 
III judgeships be created. Despite Congress' efforts in the last two 
appropriations bills, there are some districts--particularly those 
along the southwest border--where the workload has more than doubled, 
but where the number of judgeships remains constant. Justice in these 
locations has been compromised because the judges have not been there 
to meet the workload demands.
                            cost containment
    One area in which the judiciary takes great pride is its continual 
effort to work more efficiently and effectively while still maintaining 
the high quality of justice. The Optimal Utilization of Judicial 
Resources Report that we send to your subcommittee annually is a 
compilation of our initiatives. A bird's-eye view of a court 
illustrates the range of efforts we have underway.
    In a federal courthouse, a bankruptcy clerk is able to use the 
Internet for transactions made by the Bankruptcy Noticing System. The 
Internet connection replaces the U.S. Mail method, saving postage 
expenses and allowing the transmission of notices at a fraction of the 
time. Postage costs were further reduced when fax options were 
introduced to the Bankruptcy Noticing Program in fiscal year 2000.
    At the same time, a court executive might be checking e-mail for an 
important memo from the Administrative Office. In fiscal year 2000 the 
Administrative Office began to send official policy directives, time-
sensitive documents, and other important information to chief judges 
and court unit executives, electronically rather than using paper 
memos.
    Meanwhile, in a district clerk's office, staff are calculating 
juror payments using the Jury Management System, an automated software 
system that also prints and scans qualification questionnaires and 
summonses, and tracks jurors, among other things. This system is 
expected to be implemented in most courts by the end of 2001. The 
system reduces errors caused by redundant data entry and gives the 
court immediate access to juror statistics.
    A clerk of court's office also is receiving hundreds of case 
filings from attorneys--with no one standing in line at the court. 
Instead, they may be miles away, in their own offices, making use of 
the Case Management/Electronic Case Files System to send and retrieve 
case documents over the Internet. In turn, a court uses the electronic 
records for efficient docketing, scheduling, and notice production. In 
addition, litigants are able to search, locate, retrieve, and deliver 
case documents electronically. A version of the system is installed 
already in 14 bankruptcy courts and seven district courts. The 
judiciary has completed testing of the bankruptcy version and is now 
beginning nationwide implementation.
    Staff in a judge's chambers are going on-line to post a notice of 
an available law clerk position on the Federal Law Clerk Information 
System. The judiciary developed this national database to save time and 
help judges and law students with the annual process of hiring law 
clerks. In the short time this system has been available, nearly one-
third of all judges are using it and the number is growing.
    In a busy courthouse, a courtroom equipped with a television 
monitor and a video camera can be used to hold a hearing, in which the 
parties are separated by several hundred miles. In the district courts, 
videoconferencing is being used in pretrial, civil, and certain 
criminal proceedings, prisoner matters, sentencing, settlement 
conferences, arraignments, and witness appeals. Videoconferencing saves 
travel time and reduces security risks in transporting prisoners. At 
the appellate level, oral arguments may be heard using 
videoconferencing, again saving time and the cost of travel. To date, 
more than 200 federal court sites have been equipped to received these 
broadcasts.
    Television monitors may also be in use elsewhere in the courthouse, 
but in a very different role. Judicial employees at the court are 
participating in a classroom instruction on use of a word-processing 
program. Also on the agenda is a program for probation and pretrial 
services officers on the special needs of offenders. Programs 
transmitted over the distance learning network, the Federal Judicial 
Television Network, allow employees to receive instruction without 
traveling to training sessions. Millions of travel dollars are saved by 
the use of distance training.
               contributions of the administrative office
    The Administrative Office of the United States Courts is critical 
to the judiciary's ability to provide quality justice. The Director of 
the Administrative Office serves as the chief administrative officer 
for the federal courts. The Administrative Office provides essential 
administrative support, program management, and policy development 
assistance to federal courts nationwide. Administrative Office 
employees support 32,000 judiciary employees, including 2,000 Article 
III, bankruptcy, and magistrate judges, as well as probation and 
pretrial services officers, circuit executives, federal public 
defenders, clerks of court, court reporters and interpreters, financial 
administrators, jury administrators, systems managers and others.
    Support of the Judicial Conference and its committees remains an 
essential function of the Administrative Office. The twenty-four 
committees have Administrative Office staff experts who work closely 
with them in conducting research and supporting their judiciary-wide 
policy and governance function. The Administrative Office also executes 
and implements Judicial Conference actions.
    An important Administrative Office responsibility is supporting, 
coordinating, and implementing the judiciary's numerous efforts to 
reduce costs and manage resources most efficiently. The various cost-
containment efforts I just summarized, as well as all of those listed 
in the Optimal Utilization Report, are only possible because of the 
efforts of the Administrative Office. Without the Administrative 
Office, many of the savings and cost avoidance initiatives would not 
have materialized.
    In the interest of continuous service improvement, the 
Administrative Office conducts or oversees, in connection with Judicial 
Conference Committees, a large number of strategic studies of judiciary 
programs and operations. An independent study of the national 
information technology program found that the judiciary is making 
effective use of technology. The study indicated that this is a 
significant accomplishment given that the judiciary's investment in 
information technology is well below federal government benchmarks and 
what would be expected given the complexity of the judiciary. The 
Administrative Office also oversaw a comprehensive management 
assessment of its space and facilities program. The Administrative 
Office is working with an outside contractor to conduct a strategic 
comprehensive assessment of the probation and pretrial services system. 
The broad issue is whether there are ways to accomplish the system 
mission more effectively when facing increasing responsibilities, 
changing federal criminal populations, and constrained budgets. There 
is also a study being conducted of the judiciary's security program to 
evaluate its effectiveness and efficiency.
    The fiscal year 2002 budget request for the Administrative Office 
is $4.8 million over fiscal year 2001 appropriations. Most of this 
increase would fund base adjustments needed to continue current 
operations. The remainder ($693,000) will be devoted to improving 
programmatic oversight and support of court programs such as the 
probation and pretrial services system as well as to developing major 
automated systems. In addition, funds are requested for equipment 
maintenance and replacement and software upgrades to allow the core 
Administrative Office financial and automated systems to remain 
functional and current.
    I urge the Committee to fund fully the Administrative Office's 
budget request. The Administrative Office is integral to the 
judiciary's ability to do its work. Without the Administrative Office's 
support, the judiciary could not continue to function as effectively. 
The increase in funding will ensure that the Administrative Office 
continues to provide program leadership and administrative support to 
the courts, and lead the efforts for them to operate efficiently.
              contributions of the federal judicial center
    The Federal Judicial Center is the federal judiciary's agency for 
continuing education and training. With this subcommittee's 
encouragement, it has worked hard in the last few years, with the 
resources available to it, to provide even more of its education 
through ``distance learning'' which does not require participants to 
travel to the training.
    As Judge Smith's statement notes, educational programs sponsored by 
the Center or arranged locally using Center resources reached over 
50,000 participants last year, and over 90 percent of those 
participating did so at their desks, before a TV monitor, or elsewhere 
in the courthouse.
    Even educational technology, though, requires resources. Last year, 
the Center received a current services appropriation, but no more. This 
was the first current services appropriation for the Center in ten 
years. This year the Board of the Center proposes a modest increase for 
normal adjustments to the base budget and for additional positions to 
enhance the effectiveness of its distance learning.
    In evaluating the Center's request, I ask the subcommittee to 
consider not only how the Center uses technology for education but also 
the importance of the education itself to the fair and efficient 
operation of the judicial branch. Center orientation seminars, for 
example, introduce every judge to his or her responsibility for 
effective docket management. And, in respect to the growing amount of 
complex litigation involving scientific and technical evidence, as the 
Chief Justice said in his year-end statement, ``FJC education programs 
and reference guides help judges sort out relevant facts and applicable 
law from the panoply of information with which the adversary system 
bombards them. The FJC thus contributes to the independent decision 
making that is the judge's fundamental duty.''
    For another example, Center education helps probation officers deal 
with the range of sophisticated offenders convicted of federal crimes. 
Judge Smith's statement summarizes these and many other ways in which 
Center education and Center research improve the administration of 
justice.
    I believe the Center's request deserves the committee's support and 
urge favorable action on the full amount.
                               conclusion
    Chairman Gregg and members of the subcommittee, this concludes my 
statement. I look forward to working with you in the future.
                                appendix
                                summary
    The fiscal year 2002 appropriation request for the Courts of 
Appeals, District Courts and Other Judicial Services totals 
$4,538,547,000, an increase of $481,823,000 over the fiscal year 2001 
available appropriation. In addition to appropriated funds, the 
judiciary utilizes other funding sources to supplement our 
appropriations including fee collections, carry forward of fee balances 
from a prior year, and the use of no-year funds. When all sources of 
funds are considered, the increase in obligations for fiscal year 2002 
is only $356,810,000 or 8.1 percent.
    Of the $481,823,000 increase in appropriations, 94 percent 
($452,071,000) is adjustments to the fiscal year 2001 base associated 
with standard pay and other inflationary increases as well as other 
adjustments that will allow the courts to maintain current services in 
fiscal year 2002. The remaining 6 percent ($29,752,000) is needed to 
respond to increased requirements for magistrate judges, federal 
defender offices, security, drug and mental health treatment, and to 
fund additional court staff required to process growing workload. The 
request for the principal programs are summarized below.
                         salaries and expenses
    The salaries and expenses of circuit, district, and bankruptcy 
courts and probation and pretrial services offices account for most of 
our request. A total of $3,964,528,000 is required for this account in 
fiscal year 2002. Funding totaling $226,062,000 is expected to be 
available from other sources including fee collections and carry 
forward balances to fund S&E requirements. This leaves an appropriation 
need of $3,738,466,000 which is $374,357,000 above the fiscal year 2001 
available appropriation.
    Over 90 percent of the $374,357,000 increase ($347,328,000) is 
needed to fund adjustments to the fiscal year 2001 base including: pay 
and benefit increases for judges ($12,133,000); increases in the number 
of filled Article III judges, senior judges and magistrates judges 
adjustments ($15,783,000); pay and benefit increases for court support 
and probation and pretrial services staff ($126,982,000); annualization 
of new court support and probation and pretrial services positions 
partially funded in fiscal year 2001 ($30,443,000); increases necessary 
to maintain fiscal year 2001 staffing levels because of a reduction in 
non-appropriated funding ($105,175,000); increases for space rental and 
associated costs ($61,300,000); inflationary increases for operating 
costs ($9,731,000); and reductions in non-recurring costs 
(-$14,219,000).
    The remaining 4 percent ($27,029,000) will fund 14 additional 
magistrate judges and their staff to help Article III judges handle the 
growing volume of civil and criminal cases facing the courts 
($5,638,000); 212 court support FTEs to address a net increase in 
workload, almost entirely in the probation and pretrial services 
offices ($16,149,000); and increased mental health and substance abuse 
treatment for projected growth in the number of offenders and 
defendants under supervision requiring this treatment ($5,242,000).
                           defender services
    An appropriation of $521,517,000 is required for the Defender 
Services program to provide representation for indigent criminal 
defendants in fiscal year 2002. This is an increase of $87,474,000 
above the available fiscal year 2001 appropriation.
    Over 99 percent of this increase ($86,874,000) is needed for 
adjustments to the fiscal year 2001 base for inflationary and workload 
increases. Included in these adjustments are standard pay and inflation 
increases as well as other adjustments that will allow the program to 
maintain the base caseload costs ($28,494,000); an increase of the non-
capital hourly panel attorney rate to $113 for all districts beginning 
April 1, 2002 ($35,135,000); and an increase associated with a workload 
increase of 5,200 additional representations in fiscal year 2002 
($23,245,000).
    The remaining increase ($600,000) will fund the start up costs of 
two new federal defender organizations. The Congress and the Judicial 
Conference have urged us to establish more federal defender 
organizations as an alternative to using panel attorneys in districts 
where this would be appropriate.
                    fees of jurors and commissioners
    For the Fees of Jurors program, an appropriation of $50,131,000 is 
required, a decline of $9,305,000 from the fiscal year 2001 available 
appropriation. This decline is the result in the steady growth of carry 
forward balances in this account that can be used to offset the 
appropriations requirement (-$9,089,000); a decrease in the projected 
number of juror days (-$669,000); and an increase for inflation 
($453,000).
                             court security
    For the Court Security program, an appropriation of $228,433,000 is 
required, which is an increase of $29,297,000 above the fiscal year 
2001 available appropriation. Over 90 percent of the requested increase 
($27,174,000) is for adjustments to base including: an increase for 
standard pay, benefit and contractual services inflation ($9,168,000); 
an increase to annualize the costs for 72 new court security officers 
(CSOs) partially funded in fiscal year 2001 ($1,684,000); an increase 
to provide a security presence in new and renovated courthouse space 
being delivered during fiscal year 2002 ($4,667,000); and an increase 
for the cyclical replacement of security systems and equipment 
($11,655,000).
    The remaining increase of $2,123,000 will improve communications 
systems in buildings with inadequate capabilities and fund security 
systems in probation and pretrial services offices to meet current U.S. 
Court Design Guide requirements.
                                 ______
                                 
 Prepared Statement of Leonidas Ralph Mecham, Director, Administrative 
                       Office of the U.S. Courts
                              introduction
    Chairman Gregg and Members of the Subcommittee, thank you for 
giving me the opportunity to testify before you on the fiscal year 2002 
budget request for the Administrative Office of the United States 
Courts (AO). I am also pleased to continue to work with you and your 
dedicated staff.
                   role of the administrative office
    The AO serves as the central support agency for the administration 
of the federal court system. The AO was created in 1939 in response to 
the separation of powers concerns that were raised by the Department of 
Justice being responsible for the judiciary's administrative needs. 
Over sixty years later, judicial independence and exemplary service to 
the courts continue to be the guiding principles that govern and 
influence AO operations.
    The AO plays a key role in the administration of justice and 
management of change in the courts. It supports the Judicial Conference 
of the United States and its 24 committees in determining and 
implementing judiciary policies; develops new methods, systems, and 
programs for conducting the business of the federal courts efficiently 
and effectively; assists the courts in implementing better practices; 
develops and supports new innovative technologies that enhance the 
operations of the courts; collects and analyzes statistics on the 
business of the federal courts for planning and determining the 
judiciary's resource needs; provides financial management services; 
provides personnel and payroll support for 32,000 judiciary employees; 
conducts audits; and has implemented a strong internal controls program 
designed to safeguard against fraud, waste, and abuse.
    The work of all of the AO's employees supports the judges and court 
staff across the country and ensures that the judicial machine runs 
smoothly. In a period of resource constraints, and as the activity of 
the federal courts continues to grow in both size and complexity, the 
AO will continue to strive for administrative excellence through 
ingenuity, commitment, and innovation.
                          program assessments
    Another important leadership role the AO plays is in conducting 
management studies. These studies, performed with outside independent 
contractors, are aimed at improving court operations in major judiciary 
programs. (1) An assessment of the effectiveness and efficiency of the 
judiciary's space and facilities program was recently completed. The 
study recognizes that the judiciary has an effective long-range 
planning process which yields good projections for space planning 
needs. The study also offers several technical and process refinements 
to the long-range planning process. (2) A study of the judiciary's 
information technology program has also recently been completed. This 
study found that the judiciary is making effective use of information 
technology and that its investment in information technology, both 
equipment and human resources, is significantly below federal 
government benchmarks given our complex information environment. The 
study also provided seven strategic recommendations designed to help 
the judiciary continue seeking and capitalizing on technology 
improvement opportunities. All the recommendations are already at some 
stage of being implemented. (3) Assessments of the court security and 
probation and pretrial services program are currently being conducted.
                  administrative office budget request
    The AO's appropriation request for fiscal year 2002 is $63,029,000, 
which is an increase of $4,817,000 or 8.3 percent above the available 
fiscal year 2001 AO appropriation. Eighty-five percent of the increase 
or $4,124,000 is necessary to fund uncontrollable adjustments to base 
for standard pay, benefit and inflationary increases. The remaining 
small increase of $693,000 will be used to improve the AO's 
programmatic oversight and support of court activities and improve the 
operations of core financial and automated systems.
    Included in this request is funding for only four additional full-
time equivalents. These additional AO staff will be devoted to 
providing technical support to probation and pretrial services and 
court administration programs with their 22,000 staff, and to 
developing major automated systems which support the administrative 
functions discussed above. These staff will focus on conducting program 
and efficiency reviews; developing new case management programs and 
systems; and improving financial management and contracting procedures 
and regulations. These additional FTE will bring funded AO staffing 
levels back up to where they were in fiscal year 1996. While the AO 
could effectively use many more staff, the request is for a minimal 
increase.
    Also included in the request is a $313,000 increase to fund 
necessary automation equipment and services. Due to funding constraints 
since fiscal year 2000, the AO has not been able to meet fully its 
requirements for equipment and services. This additional $313,000 will 
improve the operations of core AO financial and automation systems, 
including the Central Accounting System and the AO data communications 
network. Without these additional funds, we will not be able to restore 
reductions made in fiscal year 2000 to the basic level of automation 
service necessary at the AO, including user assistance, software, and 
infrastructure support for the entire judiciary. Given the dependence 
on personal computers and the data communications network to conduct AO 
business and provide essential support to the courts, it is crucial 
that funds be provided for replacement of essential equipment and 
software to keep the AO's inventory functional and up-to-date.
                          model of efficiency
    This budget request demonstrates the AO's commitment to being a 
model of efficiency within the federal government. As an administrative 
support organization whose workload is largely driven by the size and 
workload of the courts it supports, the AO's growth over the past 
several years has not kept up with the growth experienced in the 
courts. Between fiscal years 1996 and 2002, the courts are projected to 
experience a 15 percent growth in funded staff, increasing the AO's 
workload substantially, while the AO's total staffing levels remain 
unchanged. Comparing the AO's budget to that of the Department of 
Justice's ``Management and Administration'' activities is further 
evidence of the AO's leanness. The appropriation for the AO is only 1.6 
percent of the judiciary's total appropriation, while the Department of 
Justice's ``Management and Administration'' activities comprise 5.4 
percent of the Department's total appropriation for fiscal year 2000.
             accomplishments and challenges for the future
    The federal judiciary accomplishes its constitutional mission with 
only two-tenths of one percent of the federal government's budget, and 
the AO accomplishes its mission with less than two percent of the 
judiciary's appropriations. However, we recognize the fiscal 
constraints facing the Congress in the appropriations process and the 
necessity to use our small portion of the federal budget efficiently 
and economically. In order to achieve this, the AO is tasked with 
developing new systems, programs, and policies that will allow the 
courts to continue to provide, and in many cases improve, the quality 
of services provided to the bench, bar and the public as workload 
continues to increase. This is a daunting task on which our dedicated 
staff works very hard every day. I would like to take a few minutes to 
describe some of our accomplishments, as well as some ongoing 
activities and challenges that face the federal judiciary and the AO in 
fiscal year 2002. Additional examples can be found in The Optimal 
Utilization of Judicial Resources report submitted to the subcommittee 
in February.
Management of Court Facilities
    Due to the nature of its work, the judiciary is a space intensive 
organization whose mission requires that we be available to the entire 
population of the United States. The judiciary has operations in over 
760 separate facilities across the country. These include 
accommodations for probation and pretrial services offices and court 
support functions as well as courthouses. Many buildings housing the 
judiciary are aging. The judiciary is currently housed in about 225 
buildings that are over 50 years old. Even where the structures remain 
serviceable, the architecture of that time did not envision the 
security and technological needs of today.
    The AO, along with the Judicial Conference and GSA, has 
aggressively worked to develop policies to minimize the amount of space 
required and the costs associated with it. This task is very 
challenging given the judiciary's need for additional space to 
accommodate workload growth and the need to replace aging and outdated 
space. This work has resulted in the U.S. Courts Design Guide which is 
used to standardize new space acquired by the judiciary. The AO has 
also played an integral role in the development of a rigorous long-
range facilities planning process that is used to estimate the courts' 
space needs. This long-range planning process received the General 
Services Administration's (GSA) Annual Achievement Award for Real 
Property Innovation in 1998. In a January 2001 report titled, Federal 
Judiciary Space: Update on Improvements of the Long-Range Planning 
Process, the General Accounting Office (GAO) praised recent 
improvements the judiciary has made to the long-range planning process.
    While the judiciary's space requirements continue to grow, the AO 
remains committed to developing and implementing policies that both 
provide the courts with the space they require to complete their 
mission and minimize the costs associated with operating this space.
Investment in and Recruitment of Skilled Personnel
    In a January 2001 report titled High Risk Series--An Update, the 
General Accounting Office (GAO) cites a key challenge facing the 
federal government as ``Acquiring and developing staff whose size, 
skills and deployment meet agency needs.'' The report goes on to state 
that ``human capital shortfalls are eroding the ability of many 
agencies and threatening the ability of others to effectively, 
efficiently, and economically perform their missions''. Although the 
judiciary was not included in this study, its findings are directly 
pertinent to the judiciary, in fact the judiciary's challenges are even 
greater than that of the Executive Branch's. While the judiciary faces 
the prospect of losing 40 percent of its employees to retirement over 
the next five years, we have additional recruitment issues, such as the 
recruitment of law enforcement personnel along the southwest border.
    In order to address this problem, the AO has implemented several 
programs to enhance the courts' ability to hire and retain skilled 
employees. Examples of these programs include an employee-pay-all long-
term care insurance program, and a flexible benefit program which 
allows employees to pay for certain medical care, dependent care, and 
commuter expenses on a pre-tax basis. Recognizing these as innovative 
new programs, the Congress is now considering or has approved some of 
these benefit programs for the Executive Branch. For example, Executive 
Branch employees are authorized to pay for health insurance premiums on 
a pre-tax basis and long-term care insurance will be available to 
federal employees in October 2001. The AO is continuing to research 
potential recruitment and retention programs that address problems such 
as retaining information technology staff and recruiting law clerks.
    Another program the AO has implemented that enhances court 
managers' ability to manage their staffing needs is the Court Personnel 
System. This initiative provides court managers with increased 
flexibility to structure their workforce efficiently by decentralizing 
decision-making authority from Washington to the local level. For 
example, given an individual court's circumstances, local court 
managers have the authority to determine how many information 
technology staff are required to effectively operate their court's 
business within its funding allocation.
    The AO, in support of the Judicial Conference, will continue to be 
a leader in the federal government in the development of innovative 
programs that enhance the courts' ability to hire and retain skilled 
staff.
Automated Systems and Technology Advances
    Under the guidance of the Judicial Conference Committee on 
Automation and Technology, the AO continues to study and invest in 
technological innovation to enhance the quality and efficiency of court 
proceedings, to improve the services to the bar and public, and to 
reduce costs. The AO has an ambitious automation program underway, with 
several major projects in various stages of development and 
implementation. While all of these projects enhance court operations, 
they will also require a sustained commitment from the AO over the next 
several years to complete their design, install them in the courts, and 
train and support court users on an ongoing basis. A few examples of 
the automation programs managed by the AO include:
    Videoconferencing.--To date, there are 200 federal court sites 
equipped with videoconferencing capabilities. The courts are using this 
equipment to conduct a variety of court proceedings including pretrial, 
civil and criminal proceedings, prisoner matters, sentencing, 
settlement conferences, witness appearances in trials, arraignments, 
bankruptcy hearings, and appellate oral arguments. The courts are also 
using this technology for administrative meetings, conferences and 
training seminars.
    Case Management and Electronic Case Files (CM/ECF).--This new 
system will provide the courts with a new more efficient case 
processing application that will allow court staff to focus their 
effort on ensuring more effective case management practices. The CM/ECF 
system will also include electronic case filing capabilities (which 
will be implemented at the individual court's discretion) allowing 
judges, court staff, attorneys and others to send and retrieve case 
documents over the Internet without leaving their desks. A version of 
these applications is already installed in 14 bankruptcy courts and 
seven district courts. Other federal agencies and state courts have 
been following our progress on this system and, seeing our work, are 
beginning to explore how they might adapt such a concept to their 
operations.
    While providing substantial qualitative and quantitative benefits 
to the courts, this system is consuming a substantial amount of AO 
staffing resources in the development, testing, installation, and 
training of court users.
    Electronic Bankruptcy Noticing.--This system operates like a 
sophisticated e-mail system by transmitting bankruptcy notices 
electronically and eliminating the production and mailing of papers. 
Internet e-mail and fax options make this program accessible to 
virtually the entire bankruptcy community.
    Federal Judiciary Television Network (FJTN).--In fiscal year 2000, 
the judiciary completed implementation of the FJTN, a satellite-based 
distance learning network. Each day the network provides more than 
eight hours of educational and training broadcasts to over 285 
locations throughout the judiciary. The programs provide information on 
a wide range of issues such as supervising offenders and defendants, 
the law clerk appointment process, and statistical reporting 
procedures. The FJTN, along with other distance learning techniques 
such as videoconferencing, videotapes and computer-based training, 
allows the AO, the Federal Judicial Center and the U.S. Sentencing 
Commission to deliver high-quality training and instruction to a larger 
audience at reduced costs compared to traditional classroom 
instruction.
    Federal Law Clerk Information System.--This Internet-based 
application implemented by the AO allows judges to post law clerk 
position announcements nation-wide and to monitor the availability of 
applicants. It also provides law school graduates the ability to locate 
opportunities to clerk for a federal judge using a nation-wide database 
instead of contacting individual judges.
    Core Administrative Systems.--The AO is in the process of 
modernizing many of the courts' core administrative systems including 
the financial accounting system, the personnel management system, the 
jury management system, and the Criminal Justice Act panel attorney 
payment system. These new systems are designed to improve the 
management of information, the tracking of resources, and the decision-
making processes of the courts. While these new administrative systems 
are desperately needed by the courts, their successful implementation 
is dependent partially on the level of support and training provided by 
the AO during each system's implementation. The AO needs adequate 
funding to ensure the courts get the support and training required.
Expansion of the Rule of Law and the Administration of Justice 
        Throughout the World
    The AO supports the Judicial Conference Committee on International 
Judicial Relations in coordinating the Third Branch's relationship with 
foreign judiciaries and organizations involved in international 
judicial relations, the expansion of the rule of law, and the 
administration of justice. Federal judges and AO staff provide 
information, training and expertise on a wide range of subjects such 
as: judicial independence and accountability, judicial ethics and 
discipline, court administration, civil procedure, and the selection 
and appointment of judges. Requests for assistance are made and funded 
by institutions such as foreign judiciaries, the United States Agency 
for International Development, the Department of State, and the World 
Bank.
    Last year the AO conducted briefings for 57 foreign delegations, 
including 263 judges. A few examples of these programs include: a 
program for judges and court officials from Tanzania on judicial ethics 
and corruption; a program for judges from Russia on court 
administration; a program for judges from China on judicial 
administration and the use of automation and technology in the courts; 
and a program for the newly established bankruptcy court in Thailand on 
court administration. Last year, the federal judiciary also provided 
case management assistance to the European Court of Human Rights.
Remote Supervision Technologies
    In fiscal year 2001, the number of offenders under the supervision 
of probation officers is projected to be 103,900 and the number of 
defendants received for supervision by pretrial services officers is 
projected to be 33,300. This total of 137,200 persons under supervision 
is higher than the approximately 125,000 prisoners being house in 
federal prisons. In certain circumstances, supervision of offenders and 
defendants is a cost effective alternative to incarceration as the 
daily cost of supervision in fiscal year 1999 was $7.74 compared to 
$59.41 for the Bureau of Prisons.
    While the number of persons under supervision is at an all-time 
high and projected to continue to increase, the population of offenders 
under supervision is changing from those on probation to persons 
released from prison. Offenders released from prison typically pose a 
higher risk to the public as they have difficulty transitioning from 
prison to our communities, are more likely to require substance or 
mental health treatment, and have committed more dangerous crimes.
    In order to address these problems, the AO is assisting probation 
and pretrial services offices in exploring the use of remote 
supervision technologies to reduce the risk posed by certain defendants 
and offenders. These include technologies to detect alcohol use 
remotely, to use automated telephone systems to verify an offender's 
location, and to employ global positioning satellite technologies to 
provide real-time continuous tracking of high risk offenders. Remote 
supervision technologies automate certain routine supervision tasks 
which free officer time for other supervision activities and allow 
probation and pretrial services offices to manage their growing 
workload.
                               conclusion
    Chairman Gregg, Senator Hollings and members of the subcommittee, I 
hope I have met my goal of impressing upon you the integral role the AO 
plays in the administration of justice as well as the effective and 
efficient management of the resources this subcommittee provides the 
Third Branch. I am proud of the achievements of the AO and am committed 
to continue to improve the level of service the AO provides the courts 
and the public. I ask for your support in achieving this goal by 
providing the AO with the modest funding increase requested for fiscal 
year 2002. Thank you for giving me the opportunity to be here today, 
and I am available to answer any questions.
                                 ______
                                 
 Prepared Statement of Hon. Fern M. Smith, Director, Federal Judicial 
                                 Center
    Mr. Chairman, members of the subcommittee: My name is Fern Smith. I 
have been a U.S. district judge since 1988 and director of the Federal 
Judicial Center since 1999.
    The Center is grateful for the 4.5 percent increase in our 2001 
appropriation, our first current services appropriation since 1992. 
This statement summarizes our 2002 request and, to put that request in 
context, describes Center activities that serve our statutory mission: 
``to further the development and adoption of improved judicial 
administration'' through education and research. I have grouped those 
activities under some major challenges facing the federal judicial 
system: fair and efficient disposition of litigation; alternative 
methods of resolving disputes; sentencing, offender supervision, and 
prisoner litigation; science in the courtroom; responsibilities under 
the codes of conduct; court management; implementing technological 
change; and globalization of commerce and crime; rule of law assistance 
to emerging democracies.
                              2002 request
    The requested 2002 appropriation of $20,323,000 is based on our 
recurring assessment of judge and staff educational needs as revealed 
by our advisory committees and surveys, and by actions of Congress, the 
Judicial Conference, and the Sentencing Commission. Our research 
program is structured primarily by requests from committees of the 
Judicial Conference. Research projects often provide the bases for our 
educational programs.
    Basically, we seek in 2002 to increase our non-travel educational 
services to meet the growing demand for them while maintaining our 
education seminars, albeit at the reduced levels required by our 
appropriations. In all cases, our objective is to provide federal 
courts practical, job-related education that reflects competing, 
legitimate approaches to particular problems.
    The Center's statutory Board, which the Chief Justice chairs, 
unanimously approved the request before you today. It represents an 8.5 
percent increase, providing adjustments to base and ten automation and 
video positions. The request is consistent with the Center's long-term 
trend toward greater use of distance--education education that does not 
require travel. Over 90 percent of those who used the Center's 
educational services last year did so through distance education, or 
``e-learning'' as some now say.
    Last year, at the request of the Chairman of the House Commerce, 
Justice, State and the Judiciary Appropriations Subcommittee the Center 
and the Administrative Office provided a paper documenting the judicial 
branch's use of technology. <greek-l>The following chart from that 
paper illustrates the Center's increasing use of e-learning. deg.
Participants in FJC Seminars, and in Programs Using Distance Education, 
        by Year
    As explained in that paper, educational technologies include:
  --The Federal Judicial Television Network (FJTN) created in 1998 to 
        transmit education and information by satellite to over 300 
        federal court sites where the Administrative Office has 
        installed downlinks. The first results of a statistical method 
        we created to measure FJTN viewership suggest that viewership 
        of FJC broadcasts may be as much as 80 percent larger than 
        informal estimates that were based on 1999 data.
  --Two-way videoconferencing for training that involves only a few 
        locations.
  --Web-based education--our internal judicial branch Web-site provides 
        interactive tutorials, online seminars and workshops, and 
        exchanges where court-training specialists throughout the 
        country can pose questions to trainers who have dealt with 
        particular problems, view other courts' training databases, and 
        obtain electronic copies of resource materials.
  --Curriculum packages for in-court use--the Center has prepared over 
        50 specialized training packages for court managers to adapt 
        for their own training needs for example, teaching probation 
        officers to conduct financial investigations. These packages 
        have instructional guides, outlines, overhead transparencies, 
        and in some cases, video supplements.
    In calendar 2000, excluding FJTN viewership, the 632 educational 
programs sponsored by the Center or using Center materials had 23,419 
participants. Of those programs, 590 programs, with 20,351 
participants, were distance education programs. In addition, we 
estimate that our FJTN programs had almost 30,000 viewers.
    Since 1992, the Center's FTEs have declined by 16. The Center's 
appropriation was $18,895,000 in 1992 and is $18,736,000 in 2001, a 
decrease in current services dollars of more than $7,000,000. 
Meanwhile, the number of judges and court employees has grown, and the 
range and complexity of issues they deal with have expanded. A greater 
variety of educational technologies has helped us deal with increased 
educational requirements with a smaller staff and appropriation, but 
these technologies require skilled employees to support them. The 
requested program increase for 2002 is for ten additional positions to 
support our video and Web-based education.
    Five of the additional positions are for our video staff, to allow 
us to update our educational programs on videocassettes and to meet 
demands for additional videos, while continuing to manage the FJTN as 
well as expand it to provide a full day's broadcast schedule for courts 
in the western time zones. The FJTN's creation has significantly 
expanded our workload, but we have been able to add only one-and-a-half 
positions to our video staff by internal reallocations. The current 
staff manages the network for Center broadcasts (including those we 
produce with the Sentencing Commission) and for Administrative Office 
broadcasts. This entails producing live studio programs, operating the 
technology to transmit over 1,880 hours of annual programming to the 
satellite uplink, and producing the monthly broadcast schedule for use 
by federal courts across the country. Our video staff also designs, 
films, and edits educational videos that are used in some FJTN 
broadcasts, in our judicial orientation programs, and by courts around 
the country in local education programs. We have a growing backlog of 
needs. Many of the educational videos we use need to be replaced--some 
are over ten years old.
    The other five positions will let us expand the online computer 
conferences we provide the courts, place more interactive training and 
reference tools on our Web site, convert onto the Web our training 
tutorials now on CD-ROM and computer disc, and develop online 
inventory, ordering, and distribution services for Center educational 
publications and videocassettes. We also want to use our Web site to 
facilitate collaborative research, such as a site we have been asked to 
set up to facilitate collaboration by expert witnesses in analyzing 
proposed rule changes to accommodate electronic discovery. Additional 
technological personnel will not only help increase service to the 
courts over our Web site on the judicial branch intranet, but will 
increase service to the public over our Internet site by making our 
research products and appropriate educational programs available to 
wider audiences.
                     center services and activities
    We use a variety of methods and technologies to deliver education 
and information to the judicial branch. These include, in addition to 
the e-learning methods described above, in-person seminars and both 
electronic and print publications. Our curriculum packages, as well as 
our publications and satellite broadcasts, enable the courts to tailor 
educational programs developed at the national level to meet local 
needs.
Fair and efficient disposition of litigation
    Center education programs stress the judge's responsibility to 
dispose of cases fairly, quickly, and inexpensively. This is the major 
theme of the initial orientation seminars for newly appointed judges, 
although the videos we use in these programs are increasingly dated.
    We also stress case management in our continuing education 
seminars, which provide vehicles for judges from different courts to 
compare effective techniques and procedures. We also use distance 
learning tools when they can be effective. For example, we have in 
place contingency plans to use the FJTN and our cycle of continuing 
education seminars to explain to bankruptcy judges and clerks new 
responsibilities created by the bankruptcy legislation now under 
consideration.
    Other Center products provide judges with ready sources of advice 
on particular aspects of case management and legal trends. Examples 
include the following manuals and desk references:
  --Manual on Recurring Problems in Criminal Trials (4th ed., in 
        revision);
  --Benchbook for U.S. District Court Judges (4th ed., rev. 2000);
  --Manual for Litigation Management and Cost and Delay Reduction 
        (1992)--the basis for the revised manual approved this year by 
        the Judicial Conference in compliance with the Civil Litigation 
        Reform Act;
  --Manual for Complex Litigation, Fourth (in production);
  --Case Studies of Mass Tort Limited Fund Class Action Settlements & 
        Bankruptcy Reorganizations (2000) and a forthcoming guide--both 
        deal with alternative approaches to the management of complex 
        mass tort litigation;
  --The Use of Visiting Judges in the Federal District Courts: A Guide 
        for Judges & Court Personnel (2001)--to assist the process of 
        providing courts temporary assistance in managing their 
        dockets; and
  --Case Management Procedures in the Federal Courts of Appeals 
        (2000)--to describe procedures and practices that courts of 
        appeals have used effectively.
    FJTN broadcasts include the following:
  --``New Amendments to the Federal Rules of Civil Procedure and 
        Federal Rules of Evidence'' (in cooperation with the American 
        Law Institute-American Bar Association);
  --``The Supreme Court Term in Review''--an annual broadcast to inform 
        judges and their law clerks of decisions that will affect the 
        litigation before them;
  --``Bankruptcy Law Updates'' (released periodically); and
  --numerous broadcasts for clerks' office staff.
    The Center this year has begun a multiyear research project to 
update the case weights used by the Judicial Conference for determining 
judgeship needs.
Alternative methods of resolving disputes
    The Alternative Dispute Resolution Act of 1998 directed district 
courts to offer litigants alternatives to traditional litigation. 
Center activities to implement the statute include:
  --an FJTN broadcast soon after passage to inform the courts of the 
        statute's requirements, and a national seminar for ADR 
        administrators from all districts with specific instructions on 
        how administrators can meet their responsibilities under the 
        Act;
  --recurring seminars to teach mediation skills to magistrate judges 
        and appellate conference attorneys; and
  --Judicial Guide to Managing Cases in ADR (2001, in production) and 
        previous publications on federal court ADR, to advise the 
        courts on how to implement sound ADR programs and use them 
        effectively.
Sentencing, offender supervision, and prisoner litigation
    Federal sentencing and offender supervision policies are shaped by 
statutes, the sentencing guidelines, and case law. Center activities in 
these areas include:
  --periodic sentencing policy institutes, in cooperation with the 
        Judicial Conference Committee on Criminal Law, the Sentencing 
        Commission, and the Bureau of Prisons;
  --FJTN programs, including ``Charging and Sentencing after 
        Apprendi,'' about the case law applying the Supreme Court's 
        decision last June on permissible sentence enhancements; our 
        ``Special Needs Offender'' series (monographs and FJTN 
        broadcasts about offenders whose supervision presents special 
        problems, including gang members, cyber-criminals, and white-
        collar criminals); ``Recurring Issues in Federal Death Penalty 
        Cases,'' for judges assigned capital cases; and a series of 
        programs on application of the guidelines, produced in 
        cooperation with the Sentencing Commission;
  --print and electronic publications, including Resource Guide on 
        Federal Capital Cases (2001), an online resource based on 
        experiences of judges in cases in which the Justice Department 
        sought the death penalty; Guideline Sentencing Update, 
        summarizing recent decisions interpreting the legislation and 
        guidelines; and Financial Investigation Desk Reference for 
        Probation and Pretrial Services Officers (Dec. 2000 ed.); and
  --``Risk Prediction Index,'' a statistical instrument to help 
        probation officers predict an offender's risk of recidivism; 
        the Center has recently adapted it for pretrial uses.
    We are presently unable to meet the need for biannual video and 
Web-based scenarios to sharpen probation and pretrial services 
officers' responses to defendant and offender incidents; safety skills 
should be routinely honed so reactions are automatic. With additional 
media staff we could develop federal court specific foreign language 
video and audiotapes for officers and front-office staff.
    Prisoner litigation challenging sentences and conditions of 
confinement also make up substantial portions of some dockets and are 
treated in Center seminars on Sec. 1983 litigation.
Science and statistics in the courtroom
    The Chief Justice said in January, ``Federal judges today face 
cases involving complicated statutes and factual assertions, many of 
which straddle the intersections of law, technology, and the physical, 
biological, and social sciences. FJC education programs and reference 
guides help judges sort out relevant facts and applicable law from the 
panoply of information with which the adversary system bombards them. 
The FJC thus contributes to the independent decision making that is the 
judge's fundamental duty.''
    Center products to help federal judges exercise the responsibility 
assigned them by the Supreme Court in assessing the suitability of 
scientific and technical evidence include the following:
  --Reference Manual on Scientific Evidence (2d ed. 2000), which has 
        been widely reprinted by private publishers;
  --``Science in the Courtroom,'' a six-part FJTN series on such topics 
        as microbiology, DNA, and toxicology, analyzed in the context 
        of evidentiary hearings; and
  --Center educational seminars for small groups of judges on basic 
        issues of science in litigation, the impact of new technologies 
        on intellectual property law, environmental law, and law and 
        the Internet.
    A prime reason for which we seek to increase our automation staff 
is to provide judges with online, interactive instructional tools to 
help deal with complex evidence.
Responsibilities under the codes of conduct
    Judges and court employees operate under a mix of statutory and 
administrative rules to avoid conflicts of interest or their 
appearance. The Center has stepped up its education in this area to 
help ensure that all judges and employees understand these rules.
  --Judicial ethics is a major topic at the Center's initial 
        orientation seminars. Only this year will we be able to replace 
        the instructional videos we have been using since 1991. 
        Judicial ethics has also been the subject of at least one 
        session at each of our general continuing judicial education 
        programs for the last three years.
  --A curriculum program for in-court programs, now used by over 7,000 
        employees, that explains the code of conduct for federal court 
        employees.
  --A one-hour segment of the Center's annual FJTN orientation for new 
        judicial law clerks uses a series of hypothetical cases to 
        alert clerks to their ethical obligations. Those hypotheticals 
        were produced in 1998 and will soon need updating.
Court management
    Effective use of public resources is a challenge in all three 
branches of government. The Center uses various means to help judges 
(especially chief judges) and court managers apply sound management 
principles and provide effective leadership. They include:
  --Deskbook for Chief Judges of U.S. District Courts (2d ed., in 
        revision), which explains chief judges' formal and informal 
        obligations and lessons from private sector management 
        experience. Additional automation staff would help us place the 
        new edition online with links to relevant sources.
  --We hope also to produce a video for new chief judges in which 
        experienced chief judges describe the challenges new ones are 
        likely to face.
    Teaching management skills requires some personal interaction. The 
Center provides:
  --conferences for chief judges (annual for district chiefs, and 
        biennial for bankruptcy chiefs);
  --seminars to help teams of chief judges and managers devise 
        strategies and implement strategic plans for effective 
        operations;
  --biennial conferences for senior court managers;
  --multiyear leadership development programs to develop mid-level 
        managers' leadership skills for current and senior management 
        positions; and
  --management education modules for local training on such topics as 
        performance management and employee relations.
Implementing technological change
    Projects to help manage the impact of technology on the judicial 
process include:
  --Effective Use of Courtroom Technology: A Judges Guide to Pretrial 
        and Trial (spring 2001, print and CD-ROM)--developed with the 
        nonpartisan National Institute of Trial Advocacy, it provides 
        guidance on the procedural, evidentiary, and substantive issues 
        that arise when a court is equipped with evidence display, 
        videoconferencing, and other technologies, or when lawyers 
        bring that equipment to the courtroom for a particular case. It 
        describes what the lawyers hope to accomplish with the 
        technology and analyzes the evidentiary objections opponents 
        are likely to raise and the considerations of fairness that 
        attend the various uses of technology.
  --Electronic case-filing tutorials for the bar--the Center has 
        developed two prototype computer-based training courses for use 
        in district and bankruptcy courts that permit lawyers to file 
        cases electronically. Courts that are now using electronic 
        filing have adapted our tutorial as the teaching tool for 
        showing lawyers how to use the electronic filing system in 
        their courts.
  --The cost of pretrial discovery is increasingly affected by 
        discoverable materials being stored in electronic formats, 
        including outmoded formats. The Center, anticipating the 
        growing impact of this problem on civil case management, began 
        studying it several years ago and now responds to bench and bar 
        groups' requests for advice on electronic discovery management, 
        cost reduction, and the appropriate use of computer experts; 
        sample discovery orders and protocols; and plain-English 
        explanations of the relevant technology.
Globalization of commerce and crime; rule of law assistance to emerging 
        democracies
    About a third of federal judges at least occasionally face problems 
in transnational litigation, such as service of process, discovery in 
foreign countries, and disputes over choice of law or jurisdiction. 
This type of litigation will increase. Services to help judges include:
  --a monograph to be published this year on international insolvency, 
        and
  --development of additional monographs on international law and 
        transnational legal topics, in cooperation with the American 
        Society for International Law.
    Globalization has also led foreign judges and officials to turn to 
the United States to learn about the effective administration of 
justice. The Center, pursuant to a statutory mandate, provides 
assistance to foreign visitors through briefings at its Washington 
offices (last year for over 300 judges and officials from 40 
countries). Center staff also provide occasional technical assistance 
when consistent with our primary domestic obligations. For example:
  --in cooperation with Puerto Rico's Interamerican Center for the 
        Administration of Justice, assisting Latin American judges, 
        prosecutors, and defenders to understand common-law criminal 
        procedures, which hemispheric countries are implementing to 
        increase accountability and reduce corruption;
  --assisting India, Namibia, and Zambia to implement case-management 
        programs and alternatives to traditional procedures in order to 
        improve the resolution of legal disputes; and
  --assisting the Russian Academy of Justice to develop as a 
        counterpart institution to the Federal Judicial Center.
    Center education for federal court personnel on transnational 
issues uses its appropriated funds. Its assistance to foreign 
judiciaries, however, is funded by other government agencies and 
private organizations.
    Mr. Chairman, I appreciate this opportunity to describe the 
Center's work and explain our budgetary needs for the next fiscal year. 
We are proud of our ability to adapt technology to education and avoid, 
for the last five years, requests for increased funds for travel. In 
candor, I must tell you that we have probably reached the limits of our 
ability to meet the growing needs of the courts without some additional 
support for traditional educational methods. This year, however, we 
again seek only to enhance our technological personnel.
    I will be pleased to answer any questions you may have.
                                 ______
                                 
Prepared Statement of Diana E. Murphy, Chair, United States Sentencing 
                               Commission
                              introduction
    Mr. Chairman, members of the Committee, thank you for the 
opportunity to submit a statement on behalf of the United States 
Sentencing Commission's appropriation request for fiscal year 2002. The 
Sentencing Commission was reborn when a full complement of seven voting 
commissioners finally was appointed on November 15, 1999, and I am 
pleased to serve as Chair of this important agency.
    The Sentencing Commission is a small independent agency within the 
judicial branch. Because of a very long period when there were no 
commissioners, the agency's budget was dramatically cut and staff 
levels dropped by approximately 20 percent. The effect of the 
substantial cut in staff was not immediately felt because when there 
were no commissioners to set an agenda or to vote on amendments, the 
staff had uninterrupted time to work on background materials in 
response to new criminal statutes and legislative directives to prepare 
for the day when a Commission was again appointed. This work product 
was then ready for the new Commission, and it included legislative 
history reviews, sophisticated data analysis, extensive case law 
research, and various policy options with intricate draft guideline 
options for consideration. This background work enabled the new 
Commission to accomplish much during its first amendment cycle ending 
May 1, 2000.
    Once the Commission embarked upon new work, however, it fully 
experienced the inadequacy of the staffing level which had been cut by 
one-fifth. We are simply unable to do the job Congress gave us in the 
Sentencing Reform Act unless our staff is replenished towards its 
earlier level. The Commission requests an appropriation of $12,400,000 
for fiscal year 2002 to enable us to begin to restore staffing levels 
necessary to carry out our statutory duties.
    We look forward to strengthening our good working relationship with 
Congress and others in the federal criminal justice community, and hope 
that Congress will reaffirm its belief in the mission of the Commission 
and its confidence in us by fully funding our request for fiscal year 
2002. The Commission has begun to rebuild its policymaking function 
envisioned by Congress under the Sentencing Reform Act of 1984.
    During our tenure at the Commission, the agency has devoted most of 
our resources toward clearing the backlog of legislative directives. We 
have worked hard to make substantial progress, promulgating amendments 
covering sexual offenses against children, intellectual property 
infringement, identity theft, counterfeiting, money laundering, illegal 
firearm sales and possession, immigration offenses, and methamphetamine 
offenses, to name a few. We also have been updating several guidelines 
and creating new guidelines to incorporate new federal criminal 
offenses into the guidelines and to respond to the continuing flow of 
new congressional directives on important matters such as human 
trafficking, methamphetamine and amphetamine manufacturing, and ecstasy 
trafficking.
    Many of our varied constituents, including Congress, the executive 
branch, and the Judicial Conference of the United States, have sought 
our technical expertise and judgment about perceived guideline 
problems. Areas of concern include the need to ensure that federal 
prisons are being used to incapacitate adequately offenders with 
extensive criminal histories and high recidivism rates rather than 
first time, non-violent offenders; an examination of perceived 
difficulties with totally quantity driven drug sentencings rather than 
greater reliance on penalties based upon an offender's culpability and 
role in the offense; a review of the sentencing guidelines in light of 
the holding in New Jersey v. Apprendi, 120 S. Ct. 2348 (2000) (holding 
that, other than the fact of a prior conviction, any fact that 
increases a penalty for a crime above the statutory maximum must be 
submitted to a jury and proved beyond a reasonable doubt); and an 
analysis of mandatory minimum penalties in the federal system.
    The agency has also experienced a surge in demand for sentencing 
data, expert testimony, and training on guideline application. We 
cannot meet the demands expressed here with current staff levels. 
Therefore, the Commission's human resource needs necessarily have 
increased.
                          resources requested
    The Commission's budget request for fiscal year 2002 is 
$12,400,000. We understand budget increases are generally hard to 
justify, but the Commission continues to struggle from the budget 
reductions made in the absence of voting commissioners that occurred 
through fiscal year 2000. The agency's fiscal year 2000 funding was 
lower than the average funding level over the last ten years, yet 
demands on staff resources, including case filings, the number of 
proposed guideline amendments, and training requests, have all 
increased with the appointment of a full and active slate of 
commissioners.
                             justification
Sentencing Reform Act Requirements
    The Commission was created under the Sentencing Reform Act of 1984 
as a permanent, independent agency within the judicial branch. Congress 
gave the Commission a dual mission: (a) to establish a national 
guideline system for federal sentencing policies and practices; and (b) 
to serve as an expert agency and leading authority on federal 
sentencing matters.
    In fulfilling these basic requirements, the Commission annually 
issues a sentencing guidelines manual that delineates penalty levels 
for all federal offenses. In addition to encompassing all federal 
offenses, the guideline manual incorporates amendments approved by the 
Commission for newly enacted crime legislation passed by Congress. The 
guideline manual is used by prosecutors, defense counsel, and probation 
officers in making sentencing recommendations to the court. Federal 
district judges must use the guideline manual when imposing a sentence, 
and it must also be relied upon by all federal appellate judges and the 
justices of the United States Supreme Court when reviewing the imposed 
penalties. Since the first manual went into effect on November 1, 1987, 
over half a million defendants have been sentenced under the guideline 
system.
    In fulfilling the second component of its ongoing mission, i.e., to 
serve as an expert agency and leading authority on federal sentencing 
matters, the Commission was given continuing statutory responsibility 
and authority in many areas, including--
  --ensuring that sentencing policies and practices provide certainty 
        and fairness, that they avoid unwarranted sentencing 
        disparities while maintaining enough flexibility for 
        individualized sentences when those are warranted, and that 
        they reflect advancements in our knowledge of human behavior as 
        it relates to the criminal justice process;
  --developing means to measure the effectiveness of sentencing, penal, 
        and correctional practices in meeting the purposes of 
        sentencing;
  --monitoring the performance of probation officers regarding 
        sentencing recommendations, including application of the 
        guidelines;
  --issuing instructions to probation officers concerning the 
        application of the guidelines;
  --establishing a research and development program within the 
        Commission to serve as a clearinghouse and information center 
        for information on Federal sentencing practices;
  --consulting with federal courts, departments, and agencies in 
        developing, maintaining, and coordinating sound sentencing 
        practices;
  --systematically collecting data from studies, research, and the 
        empirical experience of public and private agencies concerning 
        the sentencing process;
  --publishing data concerning the sentencing process;
  --systematically collecting and disseminating information concerning 
        sentences actually imposed on more than 61,000 cases sentenced 
        in the Federal district courts each year (and on about 1,000 
        appellate decisions on sentencing) and the relationship of 
        those sentences to the factors judges are required to consider 
        under 18 U.S.C. Sec. 3553(a);
  --systematically collecting and disseminating information regarding 
        the effectiveness of sentences imposed;
  --conducting seminars and workshops around the country to provide 
        continuing studies for people engaged in the sentencing field;
  --conducting periodic training programs for judicial and probation 
        personnel and other persons connected with the sentencing 
        process;
  --making recommendations to Congress on changes that might be made to 
        statutes relating to sentencing, penal, and correctional 
        matters that would help to carry out effective, humane, and 
        rational sentencing policy;
  --holding hearings and calling witnesses to assist the Commission in 
        the exercise of its powers and duties;
  --recommending any changes in prison facilities that may be necessary 
        because of the sentencing guidelines; and
  --performing any other functions necessary to permit federal courts 
        and others in the federal criminal justice system to meet their 
        responsibilities in the sentencing area.
Commissioners Face Critical Backlog of Legislation
    The work of the Commission is generally determined by three 
sources: (1) legislative directives by Congress contained in crime 
legislation; (2) resolution of conflicting interpretations of 
sentencing guidelines among the circuit courts of appeals; and (3) 
internal priorities that are set by the commissioners following an 
annual solicitation published in the Federal Register. Due to the 
extended absence of voting commissioners, the current Commission faces 
an ambitious policy agenda addressing the significant backlog of 
legislation. These legislative matters cover a wide range of criminal 
conduct of great concern to Congress and members of the federal 
criminal justice system:
  --Intellectual Property Offenses.--In response to a directive 
        contained in the No Electronic Theft (``NET'') Act of 1997, in 
        April 2000, the Commission promulgated a temporary emergency 
        amendment that was subsequently made permanent which made 
        comprehensive changes to the copyright and trademark 
        infringement guideline.
  --Telemarketing Fraud.--In response to a directive contained in the 
        Telemarketing Fraud Prevention Act of 1998, in April 2000, the 
        Commission promulgated a permanent amendment that provides for 
        three separate sentencing enhancements for fraud offenses that 
        involve mass marketing, a large number of vulnerable victims, 
        and the use of sophisticated means to carry out the offense. 
        The action made a temporary emergency amendment a permanent 
        amendment to the guidelines.
  --Telephone Cloning.--In response to a directive contained in the 
        Wireless Telephone Protection Act of 1998, in April 2000, the 
        Commission promulgated an amendment to the fraud guideline that 
        provides an appropriate sentencing enhancement for these 
        offenses.
  --Identity Theft.--In response to a directive contained in the 
        Identity Theft and Assumption Deterrence Act of 1998, in April 
        2000, the Commission promulgated an amendment to the fraud 
        guideline that provides an appropriate sentencing enhancement 
        for violations of 18 U.S.C. Sec. 1028 (relating to fraud in 
        connection with identification documents).
  --Methamphetamine and Amphetamine Trafficking.--In response to the 
        Methamphetamine Trafficking Penalty Enhancement Act of 1998, 
        which reduced by one-half the quantity of methamphetamine 
        required to trigger various mandatory minimum sentences in the 
        drug statutes, in April 2000, the Commission promulgated an 
        amendment to the guidelines' drug quantity table that accounts 
        for these increased mandatory minimum penalties. In response to 
        an emergency directive in the Methamphetamine Anti-
        Proliferation Act of 2000, in December 2000, the Commission 
        amended the drug guidelines to provide significant sentencing 
        enhancements for methamphetamine and amphetamine manufacturing 
        that creates a substantial risk of harm to human life, the 
        environment, minors, and incompetents. In February 2001, in 
        response to another emergency directive in the Act, the 
        Commission voted to increase the penalties for amphetamine 
        offenses such that they are identical to the penalties for 
        methamphetamine offenses. Also in response to an emergency 
        directive contained in the Act, the Commission is considering 
        options for increasing the penalties for offenses involving 
        certain precursors of methamphetamine.
  --Human Trafficking.--In response to an emergency directive contained 
        in the Victims of Trafficking and Violence Protection Act of 
        2000, in February 2001, the Commission voted to amend the 
        guidelines applicable to peonage, involuntary servitude, slave 
        trade offenses, and possession, transfer, and sale of false 
        immigration documents in furtherance of such trafficking, and 
        the Fair Labor Standards Act and the Migrant and Seasonal 
        Agricultural Worker Protection Act to reflect the heinous 
        nature of these offenses. The amendment accounts for new 
        offenses and increased statutory maxima created by the Act.
  --Protection of Children.--In response to a directive contained in 
        the Protection of Children from Sexual Predators Act of 1998, 
        in April 2000, the Commission amended the guidelines pertaining 
        to certain sexual abuse offenses and distribution of child 
        pornography that, among other things, provides enhancements for 
        use of a computer in connection with a sexual abuse offense 
        against a minor and misrepresentation of an offender's identity 
        in connection with such an offense. The Commission currently is 
        considering additional changes to these guidelines to provide 
        increased penalties for violations of chapter 117 of title 18 
        and for sexual offenses against children that involve a pattern 
        of activity.
  --Firearms Offenses.--In response to Public Law 105-386, which 
        amended 18 U.S.C. Sec. 924(c) to create a tiered system of 
        mandatory minimums and presumed maxima in cases in which a 
        firearm is involved in a crime of violence or drug trafficking 
        offense, in April 2000, the Commission promulgated an amendment 
        which incorporated the new tiered sentencing scheme into the 
        guideline pertaining to violations of section 924(c). In 
        addition, the Commission currently is considering options for 
        addressing a recommendation by the Bureau of Alcohol, Tobacco 
        and Firearms to provide increased penalties for offenses 
        involving more than 100 firearms.
  --Ecstasy.--In response to an emergency directive contained in the 
        Ecstasy Anti-Proliferation Act of 2000, the Commission 
        currently is considering options for increasing the penalties 
        for the manufacture, importation, or trafficking of ecstasy and 
        other ``club drugs'' so that they are comparable to penalties 
        for other drugs of abuse.
  --Stalking.--In response to a directive contained in the Victims of 
        Trafficking and Violence Act of 2000, the Commission currently 
        is considering options for increasing penalties for certain 
        stalking and domestic violence offenses.
  --College Scholarship Fraud.--In response to a directive contained in 
        the College Scholarship Fraud Prevention Act of 2000, the 
        Commission is considering options for providing enhanced 
        penalties for offenses involving fraud or misrepresentation in 
        connection with the obtaining or providing of information to 
        consumers regarding college scholarships, loans, and grants.
  --Nuclear, Biological, and Chemical Weapons.--In response to the 
        Chemical Weapons Implementation Act of 1998, and a sense of 
        Congress expressed in the National Defense Authorization Act 
        for Fiscal Year 1997, the Commission currently is considering 
        options to provide increased penalties for offenses involving 
        the importing and exporting of nuclear, biological, and 
        chemical weapons.
Commissioners Face Large Number of Circuit Conflicts
    In addition to sentencing related legislation and other policy 
initiatives, the Commission has identified a large number of 
conflicts--over 40--among the United States Circuit Courts of Appeal 
regarding interpretation of the guidelines accrued during the absence 
of voting commissioners. In Braxton v. United States, 500 U.S. 344 
(1991), the United States Supreme Court unanimously acknowledged that 
the Commission has the initial and primary task of eliminating 
conflicts among the circuit courts with respect to statutory 
interpretation of the guidelines.
    Of course, the Commission cannot resolve all of these conflicts in 
one or two years, but the Commission has made substantial progress in 
reducing the number of outstanding circuit conflicts. In April 2000, 
the Commission promulgated amendments that resolved five circuit 
conflicts regarding (i) the circumstances for which a court may 
downward depart from the sentencing guideline range for aberrant 
behavior; (ii) whether the enhanced penalties in Sec. 2D1.2 (Drug 
Offenses Occurring Near Protected Locations or Involving Underage or 
Pregnant Individuals) apply only when the defendant is convicted of an 
offense referenced in that guideline or, alternatively, whenever a 
defendant's relevant conduct included drug sales in a protected 
location or involving a protected individual; (iii) whether the 
enhancement in the fraud guideline for violation of a judicial or 
administrative order, injunction, decree, or process applies to falsely 
completing bankruptcy schedules and forms; (iv) whether sentencing 
courts may consider post-conviction rehabilitation while in prison or 
on probation as a basis for downward departure at resentencing 
following an appeal; and (v) whether a court can base an upward 
departure on conduct that was dismissed or uncharged as part of a plea 
agreement.
    Several of the proposed amendments discussed above, if enacted, 
will resolve a number of additional circuit conflicts. Apart from those 
amendments, the Commission also is considering options for resolving 
circuit conflicts relating to: (i) whether admissions made by the 
defendant during his guilty plea hearing, without more, can be 
considered ``stipulations'' for purposes of Sec. 1B1.2(a); (ii) whether 
the four-level enhancement in the aggravated assault guideline for use 
of a dangerous weapon during an aggravated assault is impermissible 
double counting in a case in which the weapon that was used was a non-
inherently dangerous weapon; (iii) whether the enhancement in the fraud 
guideline for misrepresentation that the defendant was acting on behalf 
of a charitable, educational, religious, or political organization, or 
a governmental agency applies to a defendant who does work on behalf of 
such an entity, but illegally diverts all or part of the benefits; and 
(iv) whether a reduction for mitigating role is precluded in the case 
of a single defendant drug courier if the defendant's base offense 
level is properly determined solely by the quantity personally handled 
by the defendant.
Commissioners Address Long-Standing Policy Issues
    The Commission also has worked hard to address certain policy 
initiatives that at different points in time have been supported by 
various constituents, including the Department of Justice and the 
Committee on Criminal Law of the United States Judicial Conference. 
However, because of the absence of voting commissioners and subsequent 
lack of resources, these initiatives could not be completed.
  --Economic Crime Guidelines.--The Commission currently is considering 
        a comprehensive reassessment of the guidelines pertaining to 
        economic crimes. Economic offenses account for more than a 
        quarter of all the cases sentenced in the United States federal 
        district courts. The Commission has received from the Federal 
        Judiciary and the Department of Justice testimony and survey 
        results that indicate that the sentences for these offenses are 
        inadequate to punish appropriately defendants in cases in which 
        the monetary loss was substantial. After a number of years of 
        data collection, analyses, public comment, and public hearings, 
        the Commission developed a comprehensive ``economic crime 
        package'' designed to revise the loss tables for fraud, theft, 
        and tax offenses in order to impose higher sentences for 
        offenses involving moderate and large monetary losses. Related 
        amendments would consolidate the theft, fraud, and property 
        destruction guidelines and clarify the definition of loss for 
        selected economic crimes. Our work in this area has been 
        extensive. Working in conjunction with the Criminal Law 
        Committee of the Judicial Conference, the Commission conducted 
        a field test of the proposed loss definition by surveying 
        federal judges and probation officers and applying the new 
        definition to actual cases. The results generally were 
        favorable, with more than 80 percent of the judges preferring 
        the results obtained with the proposed loss definition over the 
        current definition. In addition, in October 2000, the 
        Commission sponsored a two-day National Symposium on Federal 
        Sentencing Policy for Economic Crimes and New Technology 
        Offenses at the George Mason University School of Law. The 
        symposium was attended by approximately 150 judges, 
        prosecutors, defense attorneys, and academicians and provided 
        valuable input on the proposed package that the Commission 
        currently is considering as it deliberates on the package.
  --Money Laundering.--Closely related to the economic crimes package, 
        the Commission has been working with the Department of Justice 
        to develop a revision to the money laundering guidelines that 
        would more accurately capture the seriousness of the money 
        laundering offense conduct. The Commission is considering a 
        guideline structure that would tie more closely the penalties 
        for money laundering to the penalties for the underlying 
        offense that generated the criminally derived proceeds and 
        would provide appropriate sentencing enhancements for 
        aggravating money laundering conduct.
  --Counterfeiting.--In response to recommendations from the Department 
        of Treasury, in February 2000, the Commission voted to provide 
        increased penalties for (1) manufacturers of large amounts of 
        counterfeit currency and (2) offenders who possess 
        counterfeiting paper similar to the distinctive paper used by 
        the United States, or a feature or devise essentially identical 
        to a distinctive counterfeit deterrent used by the United 
        States. This amendment to the counterfeiting guideline 
        addresses recent changes in how counterfeit currency is 
        produced. Previously, defendants operated expensive printing 
        presses and manufactured large amounts of counterfeit currency 
        at one time. Consequently, when these offenders were arrested 
        they typically were caught with large inventories of 
        counterfeit currency, which would result in increased 
        penalties. Because of the advent of new and inexpensive 
        technology, such as laser printers, and the availability of 
        illegal copies of currency on the Internet, offenders now 
        generally print counterfeit currency on an ``as needed'' basis, 
        with no substantial accumulation of inventory. Thus, an 
        alternative mechanism to achieve increased sentences was needed 
        for this class of offenders.
  --Safety Valve.--In order to ensure that federal prison space is used 
        to punish serious offenders, the Commission is considering an 
        amendment that would expand the applicability of the two-level 
        reduction for non-violent, first time drug offenders who meet 
        the safety valve criteria set forth at 18 U.S.C. 
        Sec. 3553(f)(1)-(5) to defendants who currently receive a 
        sentence below five years.
Restoration of Personnel Needed to Meet Other Statutory Duties
    While the commissioners continue to work to reduce the backlog of 
unimplemented crime legislation, the human resource needs of the agency 
will increase as the routine annual amendment cycle is reestablished, 
new policy initiatives are identified by the reconstituted Commission, 
and new crime legislation is enacted by Congress. In order to become a 
fully functional agency that performs all of its statutory functions in 
an exemplary manner, a restoration of personnel is necessary, 
particularly in the following areas:
            Commission Contending with Sharp Increase in Caseload
    The Commission maintains a comprehensive, computerized data 
collection system which forms the basis for its clearinghouse of 
federal sentencing information. This comprehensive database is the 
basis for the Commission's monitoring and evaluation of guidelines 
application, for many of its research projects, and for responding to 
the hundreds of data requests received from Congress and other criminal 
justice entities each year.
    In fiscal year 2000, the Commission received court documents for 
more than 61,000 cases sentenced under the Sentencing Reform Act 
between October 1, 1999, and September 30, 2000. However, the number of 
data entry employees are only one-third the number when there were far 
fewer cases. The organizational structure and physical facilities were 
set in place for 40,000 cases per year.
    For each case received, the Commission extracts and enters into its 
comprehensive database more than 260 pieces of information, including 
case identifiers, sentence imposed, demographic information, statutory 
information, the complete range of court guideline application 
decisions, and departure information. This data is vital to the 
Commission's deliberations when modifying the guidelines to timely 
adjust federal sentencing policy. For example, the Commission was able 
to detect a surge in activity regarding the new designer drug, MDMA (a/
k/a Ecstacy) and are now re-calibrating the guidelines to deter use of 
this illegal substance. By having the source documents on sentencing, 
and relying on expert testimony gathered in briefing sessions, public 
hearings and meetings, we were able to capture the harms associated 
with this new drug and increase penalties to reflect the seriousness of 
this offense. Yet due to staff vacancies, the Commission has a backlog 
of 20,000 cases that must be processed. Unless additional staff are 
hired, the Commission will be unable to code data on each case 
sentenced under the guidelines and will be forced to rely on less 
reliable statistical sampling to guide its sentencing policy 
development and to advise Congress on crime policy.
            Research and Information Dissemination
    The Commission continues to advance its statutorily directed 
research and information dissemination through presentations of 
analyses at numerous sentencing policy symposia, including the annual 
meeting of the American Society of Criminology and the annual National 
White Collar Crime Summit. In fiscal year 2001, Commission staff made 
presentations on sentencing policy for sex offenders, important factors 
to consider when conducting disparity research, sentencing increases 
for alien smuggling, sentencing white collar crime offenses, and 
sentencing organizations.
    As noted above, the Commission also held a two-day National 
Symposium on Federal Sentencing Policy for Economic Crimes and New 
Technology Offenses. As ease and availability of new technology changes 
how traditional crimes are committed and gives rise to new crimes, the 
Commission has found that greater sophistication in sentencing policy 
is required. In order to more fully inform the Commission in this area, 
the agency gathered the country's leading experts to discuss sentencing 
issues, including computer hacking and planting of program viruses, 
intellectual property and copyright infringement, consumer fraud via 
the Internet, securities fraud, and day trading fraud.
    The agency annually publishes an updated Guidelines Manual and an 
Annual Report and accompanying Sourcebook of Federal Sentencing 
Statistics, which contains in-depth statistical charts, tables, and 
analyses on sentencing pattern and practices gathered from the agency's 
extensive database. The Commission also publishes an annual Guide to 
Publications and Resources and continues to add a variety of 
publications and sentencing data to its award winning Internet web 
site.
    An important part of the Commission's research agenda for fiscal 
year 2002 is to conduct a focused review of the guidelines and a study 
of recidivism. By fiscal year 2002, the guidelines will have been in 
place for 15 years and have been used to sentence over a half a million 
defendants. Following its statutory directive to monitor the guidelines 
to insure that they are meeting the purposes of sentencing required by 
Congress, the Commission is undertaking this valuable endeavor that 
will require the agency to devote significant staff resources to it--
resources that currently we do not have.
    The 15 year review, as well as other important research at the 
Commission, is imperiled by a depletion of its research staff. During 
this recent period of attrition, a significant portion of the 
intermediate tier of researchers and all of the lower tier research 
associates left the agency. Thus, the Commission requests funding to 
rebuild its research staff so that we may continue to critically 
analyze sentencing patterns and practices, respond to inquiries about 
the effectiveness of sentencing policies, and thoroughly assess the 
impact of proposed guideline amendments and new sentencing related 
legislation.
            Increased Training Needs for Larger Federal Criminal 
                    Justice System
    Over the last several years, as Congress has devoted increased 
resources to law enforcement, the number of federal judges, 
prosecutors, probation officers, and defense attorneys who require 
training and assistance on how to use the guidelines has increased 
accordingly. The Sentencing Reform Act requires the Commission to 
provide guideline training, in part because training promotes 
uniformity in guideline application and thereby reduces sentencing 
disparity, both goals of the Act.
    Commission staff provided training on the sentencing guidelines to 
more than 2,500 individuals at approximately 50 training programs 
across the country in 2000, including ongoing programs sponsored by the 
Commission, the Federal Judicial Center, the Department of Justice, the 
American Bar Association, and other criminal justice agencies. The 
Commission also maintains a telephone HelpLine service to answer case-
specific guideline application inquiries from federal judges, probation 
officers, prosecuting and defense attorneys, and law clerks. To further 
expand the availability and cost efficiency of training and information 
sharing, the Commission has joined the Federal Judicial Center and the 
Administrative Office of the U.S. Courts in launching a satellite 
television network to provide cutting-edge programming on sentencing-
related issues. The Commission makes a regular contribution to a news 
series for probation and pretrial services designed to update officers 
on important information regarding the Commission and its activities. 
However, if the Commission is not provided sufficient funding to 
restore personnel in other areas of the agency, its quality of training 
will suffer because its training staff may have to be utilized for more 
pressing projects as they arise.
    The organizational guidelines' approach to sentencing, which 
mitigates fines when effective compliance programs lead to prompt self-
reporting and disclosure to the authorities, has spawned complementary 
efforts by a number of regulatory and law enforcement authorities. 
Executive agencies such as the Environmental Protection Agency, the 
Department of Health and Human Services, and the Department of 
Justice's Antitrust Division have developed, or are developing model 
compliance programs, programs for self-reporting, and programs for 
amnesty--all of which are modeled after some aspect of the 
organizational sentencing guidelines. Industry and peer organizations 
are forming to share ideas on ``best practices'' for compliance 
training and ethics awareness.
    As a result of its leadership in this area, Commissioners and staff 
are regularly invited to share their expertise. For example, the 
Commission and the Ethics Officer Association (EOA) in 2000 jointly 
sponsored a series of day-long regional forums about implementing these 
guidelines. The EOA is a non-profit peer organization comprising ethics 
and compliance officer representatives of for-profit and non-profit 
organizations. Its primary objective is to share ``best practices'' for 
ethics and compliance programs among members through peer-to-peer 
networking, library services, and educational efforts. In addition to 
this, Commissioners and senior staff members have addressed national 
and regional compliance organizations and responded to numerous 
inquiries on the organizational sentencing guidelines and compliance 
issues. Interest and inquiries come from governmental agencies, 
corporations, industry coalitions, non-governmental organizations, and 
academic institutions, both within the United States and overseas.
            Increased Inquiries from Congress
    With the appointment of a full complement of commissioners, 
Congress once again is turning to the Commission for advice on 
sentencing policy, a development that the Commission enthusiastically 
welcomes. In the past few months alone, the Commission provided 
testimony before the:
  --House Governmental Reform Subcommittee on Criminal Justice, Drug 
        Policy and Human Resources about drug sentencing trends, 
        mandatory minimums, and how these statutory penalties interact 
        with the federal sentencing guidelines. The testimony included 
        a great deal of data that we collected from our comprehensive 
        database and updated many statistics from an earlier special 
        report to Congress by the Commission on mandatory minimums. The 
        Subcommittee expressed an interest in hearing more from the 
        Commission about mandatory minimums.
  --Senate Criminal Justice Oversight Subcommittee about the 
        Commission's overall agenda, pending amendments, particularly 
        our efforts on economic crimes, and extensive data involving 
        eight years of departure trends from the guideline system.
  --Senate Caucus on International Drug Control about trends and 
        responses in Ecstasy availability and use.
    In addition to these welcome hearings, each year the Commission 
also informs Congress's legislative deliberations by responding to 
hundreds of congressional requests for assistance. These inquiries, 
both written and oral, include requests for federal sentencing and 
criminal justice data, analyses of proposed legislation, explanations 
of guideline operation, technical assistance in drafting legislation, 
and Commission publications and resource materials.
    With a full complement of new commissioners in place, the agency 
expects its overall activity will intensify, and requests from Congress 
and the public will greatly increase. As a result, the Commission needs 
to improve its congressional liaison activities and seeks to obtain 
additional staff for this effort.
                               summation
    In sum, the Commission has worked very hard with limited resources 
to address the significant backlog of crime legislation that await 
implementation, long standing policy initiatives that need completion, 
and circuit conflicts that require resolution. With the necessary 
resources, the Commission expects to be well positioned by fiscal year 
2002 to begin identifying important sentencing issues and embarking on 
its own policy agenda. However, the Commissioners unanimously agree 
that we cannot undertake a policy agenda of any real significance 
without restoring our staff to appropriate levels. We are not 
requesting a revision to the Commission's full time equivalency ceiling 
of 108 employees. Rather, the Commission merely seeks the restoration 
of funds so that we can fill some of the currently existing but vacant 
positions. We simply cannot continue to operate at current capacity and 
perform our many statutory obligations and fulfill our important role 
in combating crime by maintaining an effective, certain, and fair 
sentencing system.
                                 ______
                                 
  Prepared Statement of Gregory W. Carman, Chief Judge, United States 
                      Court of International Trade
    Mr. Chairman, Members of the Committee: Thank you for allowing me 
this opportunity to submit this statement on behalf of the United 
States Court of International Trade, which is a national trial-level 
federal court established under Article III of the Constitution with 
exclusive nationwide jurisdiction over civil actions pertaining to 
matters arising out of the administration and enforcement of the 
customs and international trade laws of the United States.
    The Court's budget request for fiscal year 2002 is $13,112,000, 
which is $637,000 or approximately 5.1 percent more than the available 
appropriation of $12,475,000 for fiscal year 2001. The request will 
enable the Court to maintain current services and provide funds for an 
architectural analysis of the Court's interior and exterior 
environment. I would like to specifically point out that almost 88 
percent of the Court's overall requested increase is comprised of pay 
and other standard inflationary adjustments to base.
    The United States Court of International Trade Courthouse was built 
over 35 years ago and is in need of repair and upgrades. To this end, 
the Court is requesting, for the first time since fiscal year 1989, a 
program increase of $75,000 for an architectural study of the 
Courthouse that will address the shortcomings of the building in the 
areas of security, health and overall operations of the Court and 
recommend a course of corrective action, if necessary.
    The Court's fiscal year 2002 request includes funds for 
maintaining, supporting and continuing the implementation of its new 
Case Management and Electronic Case Files System (CM/ECF) and the 
related file tracking and scanning and indexing solutions. 
Additionally, there are funds for maintaining and supporting several 
ongoing projects, specifically: (1) a networked records management and 
tracking system for all case records; (2) an online library automation 
system that enables the Judges and Court staff to search electronically 
for books and materials in the Court's Library collection; (3) the 
replacement of the Court's obsolete phone system with one that enables 
the Court to address its current and future telecommunication needs; 
and (4) the replacement of certain furniture with new ergonomic designs 
that will help to minimize the risk of injury to Court personnel. The 
Court's fiscal year 2002 request also will support the Court's 
continuing effort in education and training for the Judges and Court 
staff that will enable the Court to better fulfill its mission. Lastly, 
the fiscal year 2002 request also includes funds for the support and 
maintenance of security system upgrades implemented by the Court in 
fiscal years 1999 through 2001.
    During fiscal year 2000, the Court, in accordance with its five-
year plan adopted in 1996, continued to design and implement projects 
that support the Court's future needs and utilize technology to enhance 
services to the Court family, the bar and the public. Several projects 
in support of that plan are expected to be implemented and continued in 
fiscal year 2002: (1) the replacement of older category 3 wire with 
enhanced category 5 wire and the installation of additional data tap 
runs for public access terminals; (2) the planning, design and 
development of an Intranet that will enhance the sharing of information 
among the Judges and staff and expand in-house training by utilizing 
automation and technology; (3) the establishment of an interactive 
training environment including new equipment and an additional 
satellite downlink that will enable Judges and staff to view and 
participate in training programs broadcast through the Federal Judicial 
Training Network; and (4) the installation of a raised platform floor 
in the Court's data center that will enable the Court to adequately 
wire the center for data and electrical connections, thereby providing 
greater flexibility and improved connectivity. The Court anticipates 
that these projects will be completed and operational by the end of 
fiscal year 2004. The continuation of fiscal year 2001 projects and the 
implementation of new initiatives will enable the Court to continue to 
build and update its infrastructure and operate more efficiently and 
effectively.
    I would like to reaffirm that the Court always has been modest in 
its appropriation requests and will continue, as it has in the past, to 
conserve its financial resources through sound and prudent personnel 
and fiscal management practices.
    The Court's ``General Statement and Information'' and 
``Justification of Changes,'' which provide more detailed descriptions 
of each line item adjustment, were submitted previously. If the 
Committee requires any additional information, we will be pleased to 
submit it.
                                 ______
                                 
Prepared Statement of Haldane Robert Mayer, Chief Judge, U.S. Court of 
                    Appeals for the Federal Circuit
    Mr. Chairman, I am pleased to submit my statement to the Committee 
for this court's fiscal year 2002 budget request.
    Our 2002 budget request totals $20,446,000. This is an increase of 
$2,492,000 over the 2001 approved appropriation of $17,954,000. Thirty-
four percent of the requested increase, $843,000, is for mandatory, 
uncontrollable increases in costs. The remaining increase of $1,649,000 
is for funding of additional positions and renovation of our 
courtrooms.
Request for Program Increases
    $1,649,000 of our fiscal year 2002 request will cover in part the 
costs of four statutorily authorized positions for technical assistants 
for the court's legal staff and one additional position for the court's 
staff. The remainder of the requested increase is for courtroom 
renovations and installation of technology in one courtroom.
    Funding for Four Technical Assistants ($456,000).--The court is 
requesting four technical assistants in addition to the eight now 
approved for the court. Under the provisions of 28 U.S.C. Sec. 715(d) 
the court may appoint technical assistants equal to the number of 
judges in regular active service. The four technical assistants 
requested here, plus those currently on board, will give the court one 
technical assistant for each of the twelve active judge positions.
    The technical assistants do research and assist the court and all 
its judges in addressing technical aspects of appeals, maintaining 
consistency in precedential opinions, and otherwise fulfilling the 
court's mission. Technical assistants not only must have a law degree 
but also must have a background in science or engineering because of 
the significant number of highly technical intellectual property 
appeals handled by the court. This court has exclusive jurisdiction 
over patent appeals from 94 district courts and the Patent and 
Trademark Office. These appeals often are difficult and time consuming, 
and involve complex issues at the forefront of biotechnology, computer 
engineering, pharmacology, and other areas of science and engineering.
    The need to hire four technical assistants is critical to the 
efficient and effective operation of the court. Intellectual property 
litigation is a rapidly expanding area of the law. This is evident from 
the growing number of intellectual property cases filed with the court; 
the increasing complexity of patent issues submitted in each case; and 
the size of appendices accompanying each filing. Patent cases make up 
thirty-three percent of the court's docket.
    Funding for One Position on the Permanent Court Staff ($78,000).--
The court requests funding to hire a full-time permanent position 
entitled Information Technology Specialist. Upon completion of a formal 
security review and assessment of the court's electronic information 
system, the National Security Agency (NSA) concluded that the court 
should hire an Information Technology Specialist. This person would 
monitor and protect the security of the court's information system. The 
Information Technology Specialist would insure that all electronic 
communications and information in judges' chambers and staff offices 
are protected and secure from compromise or unlawful release.
    Technology in the Courtroom ($215,000).--At the March 1999 session 
of the Judicial Conference of the United States, the Judicial 
Conference recognized that courtroom technologies are a necessary and 
integral part of courtrooms. Based on the Judicial Conference's 
findings and the fact that the Administrative Office of the U.S. Courts 
(AO) currently is implementing this program in courts across the 
country, the court is requesting funding to upgrade the courtroom 
technology in one of our courtrooms. The figure of $215,000 was 
provided to the court by the AO based on its experience to date with 
upgrading courtrooms.
    Funding for Courtroom Renovations ($900,000).--The court is 
requesting $900,000 for use to begin modernizing and updating the 
Federal Circuit courtrooms. The National Courts Building opened in 
1967. With the exception of replacement carpet, there have been no 
renovations or upgrades performed in the courtrooms.
    The funding will be used to renovate the courtrooms, upgrade the 
security of the Judges' benches, purchase furniture, improve counsel 
rooms, modernize the lighting, and upgrade the sound system. The 
courtrooms need to be rewired for computer use, recording equipment, 
and improved technology. This is a one-time cost and would be reflected 
as a nonrecurring expense in our 2003 budget request.
    It was recommended that the court request this funding from GSA. We 
have done so with no success. We are once again in the process of 
discussing the possibility of funding by GSA. Should we be successful 
in obtaining funding from that agency we would notify Congress and 
cancel this request.
    I would be pleased, Mr. Chairman, to answer any questions the 
Committee may have or to meet with Committee members or staff about our 
budget requests.

                       NONDEPARTMENTAL WITNESSES

                         DEPARTMENT OF COMMERCE

 Prepared Statement of the California Industry and Government Central 
                    California Ozone Study Coalition

    Mr. Chairman and Members of the Subcommittee: On behalf of the 
California Industry and Government Central California Ozone Study 
(CCOS) Coalition, we are pleased to submit this statement for the 
record in support of our fiscal year 2002 funding request of $250,000 
from the National Oceanic and Atmospheric Administration (NOAA) for 
CCOS as part of a Federal match for the $8.7 million already 
contributed by California State and local agencies and the private 
sector. NOAA is currently under contract for approximately $700,000 to 
use state-of-science instrumentation to measure surface and aloft winds 
and temperatures in the CCOS study area. This request will partially 
replace funding already spent for NOAA's participation in CCOS.
    Ozone and particulate matter standards in most of central 
California are frequently exceeded. In 2003, the U.S. Environmental 
Protection Agency (U.S. EPA) will require that California submit SIPs 
for the recently promulgated, national, 8-hour ozone standard. It is 
expected that such SIPs will be required for the San Francisco Bay 
Area, the Sacramento Valley, the San Joaquin Valley, and the Mountain 
Counties Air Basins. Photochemical air quality modeling will be 
necessary to prepare SIPs that are acceptable to the U.S. EPA.
    Central California Ozone Study is designed to enable central 
California to meet Clean Air Act requirements for ozone State 
Implementation Plans (SIPs) as well as advance fundamental science for 
use nationwide. The CCOS field measurement program was conducted during 
the summer of 2000 in conjunction with the California Regional PM10/
PM2.5 Air Quality Study (CRPAQS), a major study of the origin, nature, 
and extent of excessive levels of fine particles in central California. 
CCOS includes an ozone field study, a deposition study, data analysis, 
modeling performance evaluations, and a retrospective look at previous 
SIP modeling. The CCOS study area extends over central and most of 
northern California. The goal of the CCOS is to better understand the 
nature of the ozone problem across the region, providing a strong 
scientific foundation for preparing the next round of State and Federal 
attainment plans. The study includes six main components:
  --Developed the design of the field study
  --Conducted an intensive field monitoring study from June 1 to 
        September 30, 2000
  --Developing an emission inventory to support modeling
  --Developing and evaluating a photochemical model for the region
  --Designing and conducting a deposition field study
  --Evaluating emission control strategies for the next ozone 
        attainment plans
    CCOS is directed by Policy and Technical Committees consisting of 
representatives from Federal, State and local governments, as well as 
private industry. These committees, which managed the San Joaquin 
Valley Ozone Study and are currently managing the California Regional 
Particulate Air Quality Study, are landmark examples of collaborative 
environmental management. The proven methods and established teamwork 
provide a solid foundation for CCOS. The sponsors of CCOS, representing 
state, local government and industry, have contributed approximately 
$8.7 million for the field study. The federal government has 
contributed $500,000 some data analysis. In addition, CCOS sponsors are 
providing $2 million of in-kind support. The Policy Committee is 
seeking federal co-funding of $8.5 million to complete the data 
analysis and modeling portions of the study and for a future deposition 
study. California is an ideal natural laboratory for studies that 
address these issues, given the scale and diversity of the various 
ground surfaces in the region (crops, woodlands, forests, urban and 
suburban areas).
    There is a national need to address national data gaps and 
California should not bear the entire cost of the addressing these 
gaps. National data gaps include issues relating to the integration of 
particulate matter and ozone control strategies. The CCOS field study 
took place concurrently with the California Regional Particulate Matter 
Study--previously jointly funded through Federal, State, local and 
private sector funds. CCOS was timed to enable leveraging of the 
efforts for the particulate matter study. Some equipment and personnel 
served dual functions to reduce the net cost of the CCOS field study. 
From a technical standpoint, carrying out both studies concurrently was 
a unique opportunity to address the integration of particulate matter 
and ozone control efforts. To effectively address these issues requires 
federal assistance, and CCOS provides a mechanism by which California 
pays half the cost of work that the federal government should pursue.
    For fiscal year 2002, our Coalition is seeking funding of $250,000 
from the National Oceanic and Atmospheric Administration (NOAA).--
Meteorological data were continuously collected during the CCOS field 
program. Extensive meteorological data collected as part of the field 
study can be used by NOAA to strengthen its ongoing research activities 
such as improving meteorological forecasting and providing information 
on the evaluation of the U.S. weather western boundary conditions. More 
importantly, CCOS provides data for research in the areas of air flow 
over complex terrain. Improved results obtained from this research has 
national applicability.
    Thank you very much for your consideration of our request.
                                 ______
                                 

               Prepared Statement of the American Rivers

    Many individual programs funded by the Commerce, Justice, State, 
and the Judiciary Appropriations Subcommittee have substantial impacts 
on America's rivers. We urge that you bear these impacts in mind in 
determining levels of funding for these important government programs. 
We appreciate your committee's past commitment to important programs 
such as the Pacific Coastal Salmon Recovery Fund. We would like to 
highlight this program again for fiscal year 2002, along with the need 
for adequate funding of participation by the National Marine Fisheries 
Service in hydropower relicensing.
                  pacific salmon coastal recovery fund
    Pacific salmon are a national treasure with enormous economic, 
cultural, and environmental significance in the Pacific Northwest 
including Washington, Oregon, California, Idaho, and Alaska. A century 
ago, salmon were an anchor of the region's economy, and the United 
States was the world's largest salmon producer. But populations of 
salmon have declined dramatically over the past century, and 26 runs of 
Pacific salmon and steelhead are now listed under the Endangered 
Species Act.
    One important program aimed at restoring endangered and threatened 
runs of wild chinook, steelhead, coho, sockeye, and chum salmon is the 
Pacific Salmon Coastal Recovery Fund, funded through the National 
Marine Fisheries Service. For the past two years, this program has 
provided much-needed assistance to state, local, and tribal governments 
in Washington, Oregon, California, and Alaska for salmon recovery 
projects. This year we ask that the state of Idaho be made eligible to 
benefit from this program as well. In fiscal year 2002, we urge the 
Subcommittee to provide $200 million to provide the assistance the 
Pacific Northwest states need to restore threatened and endangered 
salmon and their habitat.
    Increased funding for this program is a key element of funding the 
new, multi-agency salmon recovery plan for the Columbia and Snake river 
basin. The salmon recovery plan embraces an ``aggressive non-breach'' 
approach, setting forth a recovery plan that relies on non-dam 
breaching actions, including improving salmon spawning and rearing 
habitat, water quality and flows, better screening of irrigation 
diversions, hatchery and harvest management, and improvements to dam 
structures and operations. If this non-breach recovery package is not 
funded and implemented, or if the salmon recovery plan does not yield 
the expected biological benefit for Snake River salmon, the plan calls 
for the federal agencies to seek congressional authorization--as soon 
as 2003--to remove the four lower Snake River dams.
    In addition to helping to fund salmon recovery in the Columbia and 
Snake river basin, the Pacific Coastal Salmon Recovery Fund will 
provide equally needed assistance for salmon recovery efforts up and 
down the Pacific coast, including, but not limited to, Puget Sound, 
Oregon's Willamette River, and California's coast and Central Valley.
    By increasing funding for the Pacific Coastal Salmon Recovery Fund 
to $200 million for fiscal year 2002, you can help preserve this 
economically, culturally, and ecologically valuable resource and help 
the Northwest states and local communities to adopt and embrace the 
measures needed to restore Pacific salmon and steelhead. Restoring 
salmon also will allow the United States to meet treaty obligations 
with Northwest Indian tribes and Canada.
              nmfs participation in hydropower relicensing
    The National Marine Fisheries Service (NMFS) plays an important 
role in hydropower relicensing when a hydropower project impacts 
species that migrate between fresh water and the ocean during their 
life cycles. Congress should appropriate adequate resources for NMFS to 
address fisheries management issues in the increasing number of 
hydropower dams seeking renewal of their operating licenses from the 
Federal Energy Regulatory Commission on the West Coast and in the 
Southeast. A $2 million increase in the Habitat Conservation Program: 
Operations, Research, and Facilities' ``Sustain Healthy Coasts 
Strategic Goal'' will help to ensure a more efficient licensing 
process, benefiting the hydropower industry and furthering efforts to 
protect and restore fisheries resources.
                                 ______
                                 

 Prepared Statement of the Association of America's Public Television 
                                Stations

    The Association of America's Public Television Stations submits 
this testimony to the Appropriations Subcommittee on Commerce, State, 
Justice and the Judiciary. APTS, on behalf of the nation's 354 local 
public television stations, urges the committee to support funding for 
the Public Telecommunications Facilities Program (PTFP) in the National 
Telecommunications Information Agency at the U.S. Department of 
Commerce.
    This year APTS is asking Congress to fund the PTFP in fiscal year 
2002 at $110 million. This increase in funding is essential to fund 
part of public television's equipment needs in the mandated conversion 
of digital broadcast. For over 30 years the federal government has 
helped public broadcasting build an infrastructure that reaches 
virtually every American television household. The Federal 
Communications Commission has mandated that public television stations 
must be on the air with a digital broadcast by May of 2003. Public 
television appreciates the increase in funding that the committee 
provided last year and the recognition it provided to the cost of 
converting. We respectfully ask the subcommittee to increase PTFP 
funding to help stations convert to digital transmission.
                     commitment in the digital age
    Public broadcasting has estimated the costs of its conversion to 
digital at $1.8 billion, and is seeking federal financial assistance in 
the amount of $699 million over five years. Public broadcasters 
historically have been the leaders in using new technologies for 
education and public service. The nation's public television stations 
stand ready to make an historic commitment to all Americans to provide 
near universal access to wireless, high-speed data for education. 
Specifically, public television stations will commit the equivalent of 
one multicast digital channel--a daily average of 4.5 megabits per 
second (Mbps), among the highest data rates available--for formal early 
childhood, K-12, and post-secondary education, as well as workforce 
training and professional development. This digital capacity would 
provide the equivalent of three T-1 lines to every school in America 
and is conservatively valued at $2.4 billion per year.
    The congressionally appointed bi-partisan Web-based Education 
Commission called for broadband access to be made widely and equitably 
available, and affordable for all learners. E-rate funding cannot meet 
this need. Applications for E-rate discounts total $5.8 billion, but 
only $2.25 is available. Public television stations can fill the gap.
           harnessing digital technology to serve the public
    With roots going back to the earliest days of radio and television, 
America's public broadcasters have played a unique role in a media 
industry that is otherwise built on consumer advertising and mass 
market entertainment. Since the 1960s, publicly funded noncommercial 
television has provided a clear alternative to commercial television, 
focusing on education and culture, public affairs and the performing 
arts.
    While the proliferation of television channels has been driven by 
market demands, public television's core mission has not and will not 
change in a digital world. We will build on our track record of 
providing the best programming and services to educate and enlighten 
audiences. We also will continue to be leaders in using new technology 
for the public interest. From satellite delivery of broadcast signals, 
to the development of stereo broadcasting; from closed captioning and 
descriptive video services, to video streaming and cutting edge 
interactive television trials, public broadcasters have been inventors, 
innovators and blenders of technologies to serve the public.
    Public television is committed to use digital technologies to 
transform the way we learn--by providing the American public with 
educational services anytime anywhere. That means how they want them, 
when they want them and where they want them--in homes, schools, 
childcare facilities, and workplaces across America.
   multicast digital services--unlocking public television's public 
                            service mission
    Since receiving their digital channels, public television stations 
have been engaged in systemwide and station level planning. In 1997, 
public broadcasting put forward a comprehensive plan for its digital 
conversion to the Administration and Congress. We set four broad 
systemwide goals for the use of digital technology--goals that are 
founded on fully utilizing the multicasting capability of the digital 
technology to expand and enhance services.
  --To make the full complement of Ready to Learn services available to 
        every child, parent and caregiver in America. The PBS Ready to 
        Learn Service is currently meeting two national education 
        goals: it teaches basic reading skills and it helps prepare 
        more children for school success. Its 133 participating 
        stations cover over 94 percent of the country. In the past 
        three years, RTL public television stations have trained 
        370,000 parents and 250,000 teachers and caregivers, affecting 
        approximately 6 million children.
  --To expand the reach of public television's K-12 educational 
        programs and services by making them universally available to 
        all schools and home schoolers. Seventy percent of public 
        television licensees provide K-12 programming in math, science, 
        arts and humanities. These services are enhanced by:
  --PBS TeacherSource.--An online K-12 teacher resource with line 
        lesson plans, teacher guides and activities, correlated to more 
        than 90 national and state standards; and,
  --PBS Teacherline.--Online modules to enhance the learning and 
        teaching of K-12 mathematics and other core subjects.
  --To increase the reach of post secondary telecourses so that they 
        are universally available to all adult learners. Collectively, 
        public television stations are the largest source of post 
        secondary telecourses in the nation. PBS Adult Learning Service 
        (ALS) supports station-college partnerships that offer distance 
        learning credit-bearing telecourses, enrolling more than 
        500,000 students in 1999-2000. GED on TV has enabled more than 
        two million adults in five years to earn their high school 
        equivalency from home. The estimated positive economic impact 
        of these programs, workers that are more productive exceeds $12 
        billion.
  --To expand our commitment to serving the un-served and under-served 
        populations in our country, those who because of economic, 
        geographic, physical, cultural or language barriers have been 
        left behind by the commercial marketplace. Public Broadcasting 
        has pioneered the development of open and closed captioning for 
        the deaf and descriptive video services and reading services 
        for the blind or visually impaired. Stations like WYBE, 
        Philadelphia and WNVC, Fairfax provide programming in multiple 
        languages serving a variety of different ethnic cultures.
    Local public television stations throughout the country have turned 
those systemwide goals into concrete and very bold and exciting service 
plans tailored to their local communities. APTS maintains an 
interactive digital transition clearinghouse of stations' plans for 
digital services. Our data shows that virtually every public television 
station in the country has developed digital service plans to meet 
these and other goals. The centerpiece of virtually every plan is the 
delivery of multicast services with a strong focus on education.
  --In exchange for federal financial support and favorable cable must 
        carry regulations, the nation's public television stations 
        stand ready to commit an average daily rate of 4.5 megabits per 
        second (approximately one channel) of their digital spectrum to 
        education. The value of this capacity is conservatively 
        estimated at $2.4 billion per year
  --Three out of every four PTV stations plan to carry at least two 
        formal education multicast services.
  --Approximately 85 percent of PTV stations plan to multicast a 
        children's channel; 78 percent intend to broadcast university-
        level or post-secondary telecourses; and 66 percent plan to 
        multicast an instructional programming channel for students in 
        grades K-12.
  --Others plan to multicast channels that focus on local public 
        affairs, teacher training, foreign language programming, and 
        programming aimed at minority and under-served audiences.
   ptv digital service plans--creating local solutions for national 
   priorities, realizing national educational goals on a local level
    While public television stations plan to deliver one or more formal 
educational multicast channels, the specific educational services are 
tailored to meet local community needs.
    Florida public television stations have promised the state 
legislature that they will collectively devote a multicasting stream to 
the Florida Knowledge Network in return for digital funding. This 
statewide educational network will serve as a teacher training 
resource, linking Florida's classrooms with direct access to the 
highest quality programming, electronic field trips, and distance 
learning.
       providing unserved and underserved with access to digital
    Today, public television stations, through their nationwide system 
of transmitters and translators, serve 99 percent of American 
households with an over-the-air analog signal. Public television 
stations that serve rural communities with a network of analog 
translators are ideally positioned to bring the benefits of broadband 
digital services to the most rural and remote areas of this country.
    KNME in Albuquerque is considering leasing part of its digital 
spectrum to the New Mexico Department of Education to facilitate the 
delivery of educational materials to the state's K-12 schools. The 
station will position itself as the state's virtual classroom, 
providing curricular support and teacher training opportunities for 
viewers separated by hundreds of miles.
    Public television stations also plan to use the multicast 
capability to serve populations under-served because of cultural, 
language or economic barriers.
    KBDI in Denver plans to launch a Latino Initiative Channel. This 
channel would feature programming for Denver's Spanish-speaking and 
bilingual community and will emphasize news, public affairs, and social 
and cultural events.
    The Kentucky Network intends to work with art and cultural 
organizations to produce more arts education programming for the 
state's children. KET plans to create a statewide task force on arts 
education and early childhood. Ultimately, the network hopes to produce 
a dance series and musical programming for elementary students.
    The federal government must play its historic leadership role in 
underwriting a portion of public broadcasting's digital transition. The 
government's failure to make this investment will have direct 
consequences. Millions of Americans may be deprived of the enormous 
educational promise of digital television. Many of the smaller and 
rural stations may be unable to make the transition at all without some 
federal support.
                               conclusion
    For more than 30 years, Congress has invested wisely in public 
broadcasting. We now have a strong system of public television stations 
that reaches 99 percent of American households, giving viewers tools to 
improve and enrich their lives. The public service promise of new 
digital technology is enormous:
  --for children to provide a dedicated stream of nonviolent, 
        educational and entertaining programs, commercial-free and 
        free-of-charge;
  --for parents and schools to better educate children;
  --for colleges and universities to reach out beyond their campus 
        walls;
  --for students of all ages to have access to lifelong learning;
  --for under-served audiences whose income, geography, culture or 
        disability threatens to cut them off from the digital promise;
  --for citizens who feel alienated from their local, state or federal 
        governments; and
  --for public service organizations seeking to build a sense of civic 
        connection and commitment.
    Realizing this potential and remaining a viable service provider in 
the digital age is fully dependent on a federal investment to ensure 
access to all digital services. Public television stands ready with 
service plans, matching state and local grants, and community-based 
content partners to fully utilize this technology for public service.
                                 ______
                                 

 Prepared Statement of the Columbia River Inter-Tribal Fish Commission

    Mr. Chairman, on behalf of the Columbia River Inter-Tribal Fish 
Commission (CRITFC), thank you for the opportunity to present the 
Commission's views on the fiscal year 2002 budget for the National 
Marine Fisheries Service (NMFS). The tribes support funding the 
Columbia River (Mitchell Act) hatchery program at $36 million, in order 
to implement reforms called for in the ``Conservation of Columbia Basin 
Fish'' (Federal Caucus ``All H'' Paper). Of that amount, $9 million (or 
25 percent of the actual enacted amount) should be contracted to the 
tribes for new or expanded supplementation programs. Savings can be 
realized by ensuring that no funds are expended under the Mitchell Act 
program for the so-called ``conservation marking'' program, an unproven 
mass marking and selective fisheries program when applied to chinook 
and a proven failure as applied to steelhead stocks, without an 
agreement of the co-managers. For the Columbia River (Mitchell Act) 
screening program, the tribes support funding of $20.6 million for 
screens and passage programs as identified in the Federal Caucus Plan. 
The tribes support increasing the level of funding for the Pacific 
Coastal Salmon Recovery Program to $165 million to provide sufficient 
funding for salmon restoration activities within the Columbia River 
basin and the rest of the Pacific Coast. Of that amount, $10 million 
should be provided to the Columbia River tribes in the form of a direct 
grant, and $25 million each to the states of Alaska, California, 
Oregon, Idaho, and Washington, and $20 million for Implementation of 
the 1999 Pacific Salmon Treaty Agreement. Finally, the tribes support 
funding the base Pacific Salmon Treaty Program at $7,456,000.
    The tribes note that the NMFS receives tens of millions of dollars 
in funding directly from the Bonneville Power Administration (BPA) or 
from BPA under the Northwest Power Planning Council's (NWPPC) Fish and 
Wildlife Program. Before the ESA listings, such funding to NMFS was 
subject to coordination with the regional co-managers, the states and 
tribes. Now, NMFS identifies ``ESA'' funding needs and sidesteps the 
normal regional coordination process. While some of NMFS's initiatives 
would receive regional support, others would not as they serve to 
undermine cooperative and proactive tribal, state, or stakeholder 
programs geared to restoring salmon and reducing burdens on private 
landowners. The tribes encourage you review Congressional and BPA 
funding for NMFS's salmon recovery activities.
                           mission statement
    Formed by resolution of the Nez Perce, Umatilla, Warm Springs and 
Yakama Tribes, CRITFC provides coordination and technical assistance to 
the member tribes to ensure that outstanding treaty fishing rights 
issues are resolved in a way that guarantees the continuation and 
restoration of our tribal fisheries into perpetuity. Since 1979, CRITFC 
has contracted with the BIA under the Indian Self-Determination Act 
(Public Law 93-638) to provide this technical support. The tribes' and 
CRITFC's technical experts have identified where federal and state 
resource managers have fallen short in protecting and restoring the 
habitat and production of all salmon stocks. Our goal is to restore a 
sustainable resource for the benefit of all peoples in the Pacific 
Northwest. Wy-Kan-Ush-Mi Wa-Kish-Wit, the tribes' restoration plan, 
identifies hypotheses based upon adaptive management principles to 
address those threats, and provides specific recommendations and 
practices that must be adopted by natural resource managers. See 
www.critfc.org for a copy of the plan.
                       wy-kan-ush-mi wa-kish-wit
    Issues that are addressed in Wy-Kan-Ush-Mi Wa-Kish-Wit include 
policy direction and/or conservation actions that must be made or taken 
in these areas: Allocation of the conservation burden; Harvest; 
Hatchery reform; Hydropower system operation; and, Habitat restoration 
and protection.
    Our testimony focuses on the need for hatchery reform. The tribes 
have, for over two decades, identified state and federal hatchery 
practices at the ninety-eight production facilities within the Columbia 
River basin as a significant factor in the loss of naturally spawning 
salmon stocks. NMFS agrees, citing these practices for the loss of 
naturally spawning coho. The past operation of these hatcheries has 
contributed to the decline of naturally spawning stocks throughout the 
basin. Only about 7 percent of Columbia River (Mitchell Act) hatchery 
production is released above The Dalles Dam. Yet, that is where the 
most damage to salmon has been and continues to be caused by the dams.
    About 1 percent of Mitchell Act production is used to assist the 
rebuilding and restoration of naturally spawning salmon, the stocks 
which have been constraining both Indian and non-Indian fisheries on 
the West Coast. Prior to the transition from hatchery-based fisheries 
to weak-stock management, mixed-stock fisheries were regulated on the 
basis of hatchery abundance and had a devastating effect on naturally 
spawning runs of the Columbia Basin. The tribes believe that the salmon 
mitigation and enhancement programs authorized under the Mitchell Act 
have discriminated against treaty protected fisheries and have failed 
to mitigate the salmon resource damage caused by the dams.
    Used correctly though, hatcheries can and should play an extremely 
important role in salmon recovery. We have proposed a biologically 
credible integrated plan to modify hatchery management practices 
throughout the basin in order to supplement rather than supplant 
natural spawning salmon populations. Within the last ten years, the 
Commission has developed substantial scientific justification 
supporting the use of Mitchell Act facilities for natural run 
enhancement. A supplementation protocol was agreed upon by the fish and 
wildlife agencies and tribes of the Columbia Basin Fish and Wildlife 
Authority and was peer reviewed and published in the text, Genetic 
Conservation of Fishes. Using this approach, the Confederated Tribes of 
the Umatilla Indian Reservation successfully restored chinook and coho 
stocks to the Umatilla River Basin. Salmon had been eliminated from the 
basin for over a half-century by irrigation practices. The Commission 
believes these practices need to be implemented immediately as an 
alternative to current Mitchell Act hatchery practices. If the Mitchell 
Act facilities continue to be operated as they are now, continued 
funding of those facilities will do nothing to restore ESA-listed fish 
or natural stock protection. CRITFC staff is currently preparing 
Hatchery Reform Begins with a Review of Current Hatchery Practices for 
publication, a draft can be made available for your use and review.
    NMFS's interpretation of the Endangered Species Act further limits 
the ability of the federally funded hatcheries to comply with 
congressional mitigation mandates. Some of these hatcheries can make a 
substantial contribution to the recovery of populations protected under 
the Endangered Species Act. Unless the National Marine Fisheries 
Service interprets the ESA to permit the use of these hatchery-reared 
populations for artificial propagation purposes as required under 
Section 3(15) of the Act, these facilities will not be used in an 
effective manner to hasten salmon recovery. CRITFC staff is evaluating 
the ESU and its applicability to salmon management, a paper titled The 
``Evolutionarily Significant Unit (ESU)'' definition of a Distinct 
Population Segment: Evaluation of Scientific Evidence and Continuing 
Research. A draft of this paper can be available for your use and 
review, with the completed paper available in June.
    Columbia River (Mitchell Act) hatchery program.--Restoring Pacific 
salmon and providing for sustainable fisheries requires using the 
Columbia River (Mitchell Act) hatchery program to supplement naturally 
spawning stocks and populations. To accomplish this goal, provide $36 
million for the tribes and states, as co-managers, to jointly reform 
the Mitchell Act hatchery program using only jointly agreed upon 
marking programs. Of this amount, $9 million, or 25 percent of enacted 
funding, will be contracted to the tribes for new or expanded 
supplementation projects. In addition, to carry out necessary 
activities identified in the Federal Caucus All-H Paper, $20.6 million 
is for screens and fish passage programs. We ask that you direct NMFS, 
in coordination with tribal and state fishery mangers, allow the use of 
supplementation in restoring declining salmon populations and fisheries 
under recovery programs developed under the ESA. Of the hatchery 
facilities funded under this program, the management and funding for 
the following Mitchell Act hatchery should be transferred from the 
state or federal agency identified, via NOAA/NMFS, to the tribe 
specified: Klickitat Hatchery facility from Washington Department of 
Fish and Wildlife (WDFW) to the Yakama Nation.
    Of the other hatchery facilities funded under this program, the 
management and funding for the following hatcheries should be studied 
for transfer by NOAA/NMFS within 3 to 5 years from the state or federal 
agency identified to the tribe specified: Bonneville Hatchery from 
Oregon Department of Fish and Wildlife (ODFW) to the Yakama Nation); 
Carson Hatchery (from USFWS to the Yakama Nation); Little White Springs 
Complex (from USFWS to the Yakama Nation); Spring Creek Hatchery (from 
USFWS to the Yakama Nation); Cascade Hatchery (from ODFW to the 
Umatilla Tribe); Oxbow Hatchery Complex (from ODFW to the Umatilla 
Tribe); and Ringold Hatchery (from WDFW to the Umatilla Tribe).
    Pacific Coastal Salmon Recovery Program/Watershed Restoration.--
Beginning in 1996, with the Sitka Salmon Summit hosted by Governor 
Knowles of Alaska, additional funding has been sought by the State of 
Alaska, the Pacific Northwest states, and the treaty tribes to serve 
critical unmet needs for the conservation and restoration of salmon 
stocks shared in these tribal, state, and international fisheries (See 
Record of Discussion, May 20,1996). The funds provided by Congress 
under the Program mark an important beginning in accomplishing the 
goals of this shared effort. For fiscal year 2002, provide the Columbia 
River treaty tribes with funding of $10 million through the Pacific 
Coastal Salmon Recovery Program. These program funds will continue to 
ensure that tribally sponsored watershed projects are based on the best 
science, are competently implemented and adequately monitored, and 
address the limiting factors affecting salmon restoration. This will 
include the use of monitoring protocols to systematically track current 
and future projects basin-wide. Projects undertaken by the tribes last 
year are consistent with the Wy-Kan-Ush-Mi Wa-Kish-Wit and the 
following programmatic areas identified by Congress and are outlined in 
the report provided with this testimony. The tribes support expanding 
this program to include the State of Idaho.
                     pacific salmon treaty program
    The tribes support the U.S. Section recommendation at the funding 
level of 7,456,000, with $5,612,000 for the Pacific Salmon Treaty base 
program, with Alaska, Oregon, Idaho, Washington, and the NMFS to share 
those funds as described in the U.S. Section of the Pacific Salmon 
Commission's Budget Justification. We continue to support additional 
funding to for additional chinook research and management activities at 
$1,884,000; these funds are annually allocated to new state, tribal and 
federal projects through a technical review process.
    In summary, Mr. Chairman, the Commission is an excellent working 
model of leaders from four tribes working together to protect their 
treaty fishing rights. This Commission has demonstrated that, with a 
staff of scientists, biologists, hydrologists, law enforcement 
personnel, and other experts advising tribal policy-makers, tribes can 
take the lead on natural resource issues, provided that adequate 
resources are available. This is a time when increased effort and 
participation are demanded of the Commission and the tribes, we ask for 
your continued support of our efforts, and we will be pleased to 
provide any additional information that this committee may require.
                                 ______
                                 

       Prepared Statement of the Marine Fish Conservation Network

    The Marine Fish Conservation Network is pleased to share its views 
regarding National Marine Fisheries Service (NMFS) programs in the 
National Oceanic and Atmospheric Administration's (NOAA) budget 
request. We ask that this statement be included in the hearing record 
for the fiscal year 2002 Commerce, Justice, State and the Judiciary 
Appropriations Bill.
    The Marine Fish Conservation Network is a national coalition of 
more than 100 environmental, commercial and recreational fishing 
associations, and marine science groups dedicated to conserving marine 
fish and promoting their long-term sustainability. We greatly 
appreciate the funding this Subcommittee has provided for the marine 
fish conservation programs within NMFS over the last several years and 
we look forward to working with the Subcommittee to enact responsible 
levels of funding in the coming fiscal year.
    There are four areas in the NMFS budget where we believe the 
requested spending levels need to be increased to help the agency 
fulfill its obligations as the federal government's fisheries 
management agency.
                        annual stock assessments
    Request.--Increase $26.6 million from 2001 funding levels
    The status of more than three quarters of all species managed under 
the Magnuson-Stevens Fishery Conservation and Management Act is unknown 
largely due to a lack of funding for basic research and stock 
assessments. Fishery managers need better information on all stocks to 
fulfill their responsibilities to rebuild overfished stocks, prevent 
overfishing of stocks approaching an overfished condition, and to set 
appropriate catch levels for those fish that are not overfished. The 
National Marine Fisheries Service, with the President's requested 
increase of $13.3 million for stock assessments, would still have a 
deficit of 1,700 research days at sea to fulfill their stock assessment 
duties. Increasing the stock assessment line item by $26.6 million from 
2001 levels would cut that number in half so that the deficit could be 
erased in 2003 or 2004.
                           observer programs
    Request.--Increase $16.4 million above fiscal year 2001 funding 
levels
    By increasing the annual appropriations for fisheries observers by 
$16.4 million to $25 million, the National Marine Fisheries Service 
would be able to establish and implement an effective National Observer 
Program. This increase includes an extra $5 million over fiscal year 
2001 funding levels for West Coast observers. The information from 
these observers, together with the information that is expected to be 
generated through the National Fisheries Information System, would give 
us a better idea on exactly how much fish is caught directly and as 
bycatch, thereby improving management of our fish populations.
                      essential fish habitat (efh)
    Request.--An increase of $12.5 million over fiscal year 2001 
funding levels
    Essential fish habitats (EFH) are those waters and substrate on 
which fish depend. These habitats are currently being damaged from both 
land-based activities and destructive fishing practices. While the 
Sustainable Fisheries Act of 1996 gave NMFS a clear mandate to identify 
and conserve essential fish habitat too little has been done to protect 
these habitats. This increase in funding would allow NMFS to gain the 
information necessary to further refine designations of EFH and take 
action to conserve EFH, including measures to minimize the adverse 
impacts of fishing gear on EFH.
                      enforcement and surveillance
    Request.--An increase of $10.3 million over fiscal year 2001 
funding levels for enforcement An increase of $11.1 million over fiscal 
year 2001 funding levels for the Vessel Monitoring System (VMS) Program
    Enforcement of our fishery management laws has been woefully 
underfunded for years. According to NMFS, there are currently around 
150 enforcement agents that are each responsible for 1200 miles of 
coastline. We request increasing funding for enforcement by $7 million 
over the President's request to allow for the hiring of 30 more 
officers to begin to address this chronic shortfall. The increase would 
also allow for a strengthening of alternative enforcement programs and 
enhancement of state and local partnerships.
    Increasing funding for VMS by $11.1 million over fiscal year 2001 
levels would allow for the establishment and implementation of VMS 
systems and the placing of VMS transponders on a vast majority of the 
estimated 10,000 boats in the U.S. commercial fishing fleet. VMS 
programs enhance data collection and safety at sea, and can be 
beneficial to fisherman by allowing them to fish right up until a quota 
is reached rather than leave the fishing site before the season closes. 
VMS is beneficial to regulators because it will allow officials to know 
when a fishing vessel is violating closed areas, or is fishing beyond 
the end of a regulated fishing period.
    Thank you for consideration of our requested increases for these 
important fish management programs.
                                 ______
                                 

 Prepared Statement of the American Indian Higher Education Consortium

    Mr. Chairman and Members of the Subcommittee, on behalf of this 
nation's 32 American Indian Tribal Colleges and Universities, which 
comprise the American Indian Higher Education Consortium (AIHEC), we 
thank you for the opportunity to share our fiscal year 2002 (fiscal 
year 2002) funding requests regarding the United States Department of 
Commerce and the Small Business Administration.
    This statement will cover two areas: (a) background information on 
Tribal Colleges and Universities, and (b) funding requests and 
justifications. The following is a summary of our fiscal year 2002 
requests.
                          summary of requests
    Under the Department of Commerce programs, we will address three 
specific areas:
  --We urge the Subcommittee to support the continuation of the $15 
        million National Oceanic and Atmospheric Administration (NOAA) 
        program: Educational Partnership Program with Minority Serving 
        Institutions, included in the President's fiscal year 2002 
        budget request. This program will increase the number of 
        minorities trained in the natural and physical sciences and 
        establish Collaborative Science Centers at several Minority 
        Serving Institutions. We request report language eliminating 
        the requirement that the MSI, even if applying in partnership 
        with graduate degree awarding mainstream institutions, must 
        have an accredited graduate program in oceanic, earth and 
        atmospheric sciences. This requirement eliminates all of the 
        tribal colleges and most other MSIs from participating in what 
        is designed to be an MSI focused program.
  --We urge the Subcommittee to support the Economic Development 
        Administration's efforts to address chronic unemployment and 
        poverty in reservation communities and to include report 
        language that would foster partnerships between the EDA and 
        tribal colleges.
  --We request support and expansion of the Internal Trade 
        Administration (ITA) initiative to help Native Americans enter 
        new markets and increase cultural heritage tourism as part of 
        their communities' economic development plans. Tribal colleges 
        often serve as the tribal archive and community centers and are 
        a logical catalyst for attaining the economic development goals 
        of both the ITA and tribal communities.
    Under the Small Business Administration, we urge the Subcommittee 
to support the existing Tribal Business Information Centers (TBICs) and 
the creation of a new Native American Business Development Center 
program within SBA. We request $5 million to fund these two programs.
                     background on tribal colleges
    The Tribal College Movement was launched in 1968 with the 
establishment of Navajo Community College, now Dine College, in Tsaile, 
Arizona. A succession of tribal colleges soon followed, primarily in 
the Northern Plains region. In 1972, the first six tribally controlled 
colleges established the American Indian Higher Education Consortium 
(AIHEC) to provide a support network for member institutions. Today, 
AIHEC represents 32 Tribal Colleges and Universities located in 12 
states, begun specifically to serve the higher education needs of 
American Indian students. Collectively, they serve 25,000 students from 
over 250 federally recognized tribes.
    Tribal colleges offer primarily 2-year degrees, although in recent 
years some institutions have begun to offer baccalaureate and graduate-
level degrees. The vast majority of the tribal colleges are fully 
accredited by independent, regional accreditation agencies.\1\ In 
addition to college-level programming, tribal colleges provide high 
school completion, adult education, job training, and college 
preparatory courses. Although the central focus is on education, tribal 
colleges fulfill other roles for their respective communities. Tribal 
colleges function as community centers, libraries, tribal archives, 
career centers, economic development centers, public-meeting places, 
and child care centers. An underlying goal of the tribal colleges is to 
improve the lives of students through higher education and to move 
American Indians toward self-sufficiency.
---------------------------------------------------------------------------
    \1\ The Tribal Colleges and Universities are accredited by regional 
accreditation agencies and must undergo stringent performance review on 
a periodic basis. The higher education division of the respective 
regional accreditation agency accredits twenty-seven of the TCUs. Two 
new TCUs are at the Pre-candidate stage as they complete work to attain 
Candidate status; one TCU is at Candidate status. Two TCUs are 
accredited as ``Vocational/Adult Schools by the ``schools'' division of 
the respective regional accreditation agency.
---------------------------------------------------------------------------
    Tribal colleges provide needed access to higher education for 
American Indians living in mostly rural, economically depressed areas 
of the country. The colleges are chartered by their respective tribal 
governments and were established in response to the recognition by 
tribal leaders that local, culturally based education institutions are 
best suited to help American Indians succeed in higher education. 
Tribal colleges combine traditional teachings with conventional 
postsecondary courses and curricula. The colleges have devised 
innovative means to address the needs of tribal populations in 
economically depressed regions and are successful in overcoming long-
standing barriers to Indian higher education. They are unparalleled in 
providing the knowledge and skills students need for successful 
transfer to 4-year institutions and to gain meaningful employment. 
Since the first tribal college was established on the Navajo 
reservation, these vital institutions have come to represent the most 
significant development in the history of American Indian higher 
education, providing access to under-represented students and promoting 
achievement among students who may otherwise never have known post-
secondary education success.
    Funding for tribal colleges is grossly inadequate. While these 
institutions have faced and successfully negotiated many challenges in 
the history of the Tribal College Movement, adequate funding remains 
the most significant barrier to their ongoing success. Core operational 
funding for 25 tribal colleges is provided through the Tribally-
Controlled College or University Assistance Act (TCCUAA), Public Law 
95-471. Funding provided under the Act is less than two-thirds of its 
authorized level of $6,000 per full-time Indian student. In fiscal year 
2001, the Colleges received $3,849 per full-time Indian student. 
Moreover, this amount is less than two-thirds of the estimated $6,089 
per full-time student received by mainstream community colleges. While 
mainstream institutions have a foundation of stable state support, 
tribal colleges must rely on the Federal government for operational 
funding. Because tribal colleges are located on federal trust 
territories, states have no obligation to fund them. In fact, most 
states do not even fund our colleges for the non-Indian state-resident 
students who account for approximately 20 percent of our enrollments.
    Since their inception, tribal colleges have achieved exceptional 
growth and success, yet they are the most poorly funded higher 
education institutions in America. Although conditions at some have 
improved substantially, many tribal colleges still operate in trailers, 
cast-off buildings, and facilities with crumbling foundations, faulty 
wiring, and leaking roofs. Sustaining quality instructional programs 
has been a challenge without a reliable source of funds for facilities 
maintenance and construction.
    Today, one in five American Indians live on reservations. As a 
result of 200 years of Federal Indian policy--including policies of 
termination, assimilation and relocation--many reservation residents 
live in abject poverty comparable to poverty found in Third World 
nations. Through the efforts of tribal colleges, American Indian 
communities receive the services they need to reestablish themselves as 
responsible, productive, and self-reliant citizens. It would be tragic 
not to expand the modest investment in, and capitalize on, the human 
resources that will help open new avenues of economic development 
specifically through enhancing access and use of information 
technologies.
                             justifications
    Given the needs outlined above and the reality of the speed with 
which technology is advancing, we strongly urge the Subcommittee to 
support the following programs within the Department of Commerce and 
the Small Business Administration.
Department of Commerce Programs:
    National Oceanic and Atmospheric Administration (NOAA).--Building 
Math, Science and Technology capacity at tribal colleges and other 
Minority Serving Institutions: In fiscal year 2001, the National 
Oceanic and Atmospheric Administration launched a $15 million program 
designed to increase interest among minority students in fields of 
science central to the mission of NOAA. Part of this program included 
the creation of three or four Cooperative Science Centers at MSIs. In 
April 2000, the National Indian Center for Marine and Environmental 
Research and Education (NICMERE) was created through a cooperative 
agreement among Northwest Indian College (NWIC) in Bellingham, WA, 
NOAA, and the Department of Commerce with NOAA's National Marine 
Fisheries Service, as the lead agency. The NWIC project is the first in 
the country aimed at increasing Tribal representation in the ranks of 
marine and environment science, and technical professionals. Distance 
learning will play a major role in NICMERE's outreach to other tribal 
colleges and Indian reservations. The main goal of this collaborative 
effort is to increase the number of Native students acquiring 
baccalaureate degrees in marine and environmental science fields and 
entering graduate degree programs in preparation for scientific careers 
with the Federal agencies such as NOAA and NMFS or in their respective 
tribal government. The NOAA-MSI Initiative could potentially lead to 
the establishment of graduate level programs on a cooperative basis 
utilizing scientific personnel from NWIC, Northwest Fisheries Science 
Center, and faculty from interested universities in the Northwest. We 
urge the Subcommittee to maintain the $15 million for NOAA-EPPMSI 
Initiative, included in the President's fiscal year 2002 budget, and to 
include report language eliminating the current requirement that an MSI 
must have an accredited graduate program in oceanic, earth, and 
atmospheric sciences even if applying in partnership with graduate 
degree awarding mainstream institutions. This requirement eliminates 
all of the tribal colleges and most other MSIs from participating in 
what is designed to be an MSI program.
    Economic Development Administration (EDA).--The EDA is charged with 
providing assistance to economically distressed areas and regions to 
alleviate conditions of ongoing unemployment and underemployment. 
Contributing to the economic development of American Indian 
reservations is an essential goal of Tribal Colleges and Universities. 
We support the commitment of the EDA to strengthen its efforts to 
assist American Indian tribes by providing capacity building and 
developing finance and infrastructure projects needed to enable our 
communities to be more effective and competitive in their economic 
development efforts. We request report language that will foster EDA 
partnerships with tribal colleges to enable our institutions to further 
address the chronic unemployment and poverty that plague reservation 
communities.
    International Trade Administration (ITA).--The tribal colleges are 
currently pursuing partnerships with USDA, US-AID, Interior, and the 
private sector to bolster international programs, tourism, trade, and 
outreach to other indigenous peoples worldwide. For example, Haskell 
Indian Nations University in Lawrence, Kansas, recently received a 
partnership grant from US-AID to work in the Altai (Siberia) region of 
Russia. The Native American economic development program of ITA could 
partner with the tribal colleges to enhance their on-going and future 
efforts, to use cultural heritage tourism as part of the economic and 
community development programs at the tribal colleges. We request 
report language to encourage ITA to specifically include the tribal 
colleges as partners in the Native American economic development 
program.
Small Business Administration (SBA)
    Tribal Business Information Center (TBICs).--To address the unique 
conditions encountered by reservation-based American Indians in their 
efforts to create, develop and expand small businesses, SBA has funded 
the TBICs project. This program is designed to provide culturally 
tailored business development assistance to potential and current small 
business owners. TBICs are a partnership arrangement between a tribe or 
tribal college and the SBA that offers access to a wide variety of 
resources and practical guidance at accessible reservation locations. 
We support the creation of a Native American Business Development that 
would offer one-stop assistance to tribal small businesses by providing 
a wide variety of information and guidance, employing current and 
future TBICs as branch offices. We urge Congress appropriate $5 million 
to support a Native American Business Development Center and the 
reservation-based business information centers that are so important to 
local economic development.
                               conclusion
    In light of the justifications presented in this statement, we urge 
the Subcommittee to increase funding and eliminate barriers for tribal 
colleges to help bring economic self-sufficiency to Indian Country. 
Fulfillment of AIHEC's fiscal year 2002 requests will strengthen the 
mission of our colleges and the enormous, positive impact they have on 
our communities and will help ensure that we are able to properly 
educate and prepare thousands of American Indians for the workforce of 
the 21st Century. Without tribal colleges as a catalyst to move 
individuals from welfare to work, much of the reform accomplished by 
Congress will fail throughout Indian Country.
    Tribal colleges are working hard to make every dollar count. They 
have been extremely responsible with the federal support they have 
received over the last 20 years. Our institutions have proven 
themselves as a sound federal investment. Thank you again for this 
opportunity to present our requests before this Subcommittee. We 
respectfully request your continued support and full consideration of 
our fiscal year 2002 appropriations requests.
                                 ______
                                 

               Prepared Statement of Columbia University

    Mr. Chairman, thank you for this opportunity to submit testimony 
for the Subcommittee's consideration concerning the fiscal year 2002 
Appropriations Bill for the Office of Global Programs within NOAA/
Department of Commerce.
    Columbia University's Earth Institute houses the International 
Research Institute for Climate Prediction, (IRI), located at the 
Lamont-Doherty Campus of Columbia University. The IRI was selected 
through an intense, competitive process in 1994 by NOAA (1) to produce 
long range, seasonal to interannual forecasts based on major climate 
events such as El Nino, and (2) to develop experimental climate models 
for improvement of climate forecasting and predictions on a global and 
regional scale. NOAA recently extended the original 5-year agreement to 
include additional long-range goals and research targets.
    The requests in this statement represent the generic need for the 
maintenance of ongoing programs and additional resources for NOAA and 
its extramural research collaborators to advance the science and 
accuracy of climate and weather forecasting.
                                summary
    The components of this statement are:
  --Maximum support for the Office of Global Programs, funded at a 
        minimum at the fiscal year 2001 level of $68.095 million;
  --Funding of $20 million for a Supercomputer to be shared by 
        universities/institutions for high end climate modeling and 
        research;
  --Funding of $20 million for a Supercomputer for NOAA to be used as a 
        backup for National Weather Service and other NOAA forecasting 
        purposes, including research.
Maximum support for OGP Budget
    This Committee has supported full funding of the budget request of 
the OGP through the past several appropriations acts. Built in to the 
OGP budget request are the ongoing research initiatives of several 
multiyear efforts, such as the IRI. To maintain continuity and the 
essential research core of NOAA's multi-tiered agenda, assurance of 
continuity and a stable base of funding are paramount. All of NOAA's 
intramural and extramural research initiatives have been determined and 
planned by nonpartisan, scientific experts whose goals have been to 
improve the science, accuracy and lead-time of long range climate 
forecasts, and to improve regional warning systems through down-scale 
modeling from IRI global forecasts. The importance of maintaining and 
sustaining this comprehensive, integrated and balanced approach to 
understanding our climate system will permit improved and longer lead 
time forecasting. This in turn will allow better planning for the 
effects of climate forced events, resulting in saved lives, minimized 
property losses, and improved planning in resource allocation and crop 
planting.
    This request is for maximum funding for NOAA's OGP activities. At a 
minimum, the level for consideration should begin with the fiscal year 
2001 level of $68.095 million.
High end Supercomputing
    Current climate modeling in the United States is limited by 
computer capacity. The House Science Committee held a hearing recently 
on Climate Forecasting: The State of the Science. When queried by 
Committee Members, the independent scientific experts who appeared as 
witnesses stated unanimously that the greatest need for U.S. 
advancement in the climate modeling and research fields is the need for 
Supercomputing capacity among universities and institutions for high-
end use.
    The Japanese and European advances in climate modeling and 
forecasting have been enabled through the availability of government 
funded and provided Supercomputers. U.S. climatologists have now 
reached the capacity of currently utilized computer systems in the 
high-end tasks associated with water and atmospheric modeling. The 
ability to process massive amounts of data can be only achieved through 
the acquisition of vector analysis Supercomputers.
    Vector analysis computers were not available to U.S. Government-
funded institutions until recently, when Cray gained the U.S. marketing 
rights for NEC vector analysis Supercomputers. The current U.S. 
approach, using MPP technology, cannot process the whole of computer 
modeling tasks associated with water and atmospheric data on a global 
scale. The inherent limitations of the MPP computer architecture cannot 
embrace the data as one complex set of variables and adequately process 
the multiple paths and variables associated with global modeling.
    Generically, scientists acknowledge that the facility must be 
located apart and distinctly separate from NOAA's ongoing computer 
functions, due to the need for a dedicated Supercomputer specifically 
configured for high-end climate and modeling and research. A shared 
computer with NOAA for NOAA's use, whether part-time or back up, does 
not provide the capability and sustained processing power needed for 
the demands associated with high-end climate modeling. This request for 
$20 million in fiscal year 2002 is for a computer to be competitively 
bid and awarded, and for institutions, like the IRI, to have access for 
sharing the use of Supercomputing capacity.
National Weather Service Supercomputer
    There is widespread recognition among the extramural research 
community for the necessity of improved capacity and backup among 
computers for the National Weather Service. There is also a recognized 
and documented need in NOAA for a backup computer for the NWS. Last 
year's shutdown of NOAA's main computer, and subsequent loss of 
forecasting ability, left the NWS unable to provide the services upon 
which U.S. citizens, state and local governments, and private industry 
have come to rely. The necessity of a backup is clear, and in times of 
non-use as a backup, NOAA's internal research demands for this capacity 
exist. This statement concerning NOAA's needs represents consensus 
among the extramural community for additional resources and 
Supercomputer capacity for NOAA and the NWS.
    Thank you for this opportunity to present and articulate the needs 
and request for climate modeling and research in the United States.
                                 ______
                                 

Prepared Statement of the National Federation of Community Broadcasters

    Thank you for the opportunity to submit testimony to this 
Subcommittee regarding the appropriation for the Public 
Telecommunications Facilities Program (PTFP). As the President and CEO 
of the National Federation of Community Broadcasters I speak on behalf 
of 150 community radio stations across the country. NFCB is the sole 
national organization representing this group of stations which provide 
service in the smallest communities of this country as well as the 
largest metropolitan areas. Nearly half of our members are rural 
stations and half are minority controlled stations.
    In summary, the points we wish to make to this Subcommittee are 
that NFCB:
  --Supports funding for PTFP that will cover the on-going needs of 
        public radio and television stations.
  --Supports funding for conversion of public radio and television to 
        digital broadcasting.
  --Requests report language to ensure that PTFP utilizes any digital 
        funds it receives for radio as well as television needs.
    Community radio supports $110 million in funding for the Public 
Telecommunications Facilities Program in fiscal year 2002.--Federal 
support distributed through the PTFP is essential to continuing and 
expanding the public broadcasting service throughout the United States. 
It is particularly critical for rural stations and for those stations 
serving minority communities. PTFP funds new stations, expanding the 
reach of public broadcasting to rural areas and to audiences that are 
not presently served by existing stations. In addition, it replaces 
obsolete and worn out equipment so that the current stations can 
continue to broadcast high quality programming. Finally, with the 
advent of digital broadcasting, PTFP funding will help with the 
conversion to this new technology.
    We support $110 million in funding to ensure that both the on-going 
program, currently funded in fiscal year 2001 at $43.5 million, will be 
continued and the increase to $110 million will be available to help 
cover the cost of radio and television converting to digital 
transmission.
    Federal funding is particularly critical to stations serving rural 
and underserved audiences which have limited potential for fundraising 
because of sparse populations, limited number of local businesses, and 
low income levels. Even so, PTFP funding is a matching program so that 
the federal money is leveraged with a local commitment of funds. This 
program is a strong motivating factor in raising the significant money 
necessary to replace, upgrade and purchase expensive broadcast 
equipment.
    Community radio supports funding for conversion to digital 
broadcasting for public radio and television.--While public 
television's digital conversion needs are more immediate, the Federal 
Communications Commission is now in the process of identifying a 
standard for digital radio transmission. We expect that there will be 
funds available for radio conversion as well as television conversion. 
More immediately, the television conversion process is already having 
an impact on public radio stations. As television stations increase the 
space they need on their towers to accommodate both analog and digital 
signals, radio stations that rent space on TV towers are losing their 
leases and being forced to move to other towers--sometimes with very 
short notice. This situation will only get worse over the next year as 
we approach the FCC deadline for television conversion. We would like 
enough money in the PTFP to help public radio stations who lose their 
tower space do the necessary engineering studies and move to new tower 
locations.
    We appreciate Congress' direction to the Corporation for Public 
Broadcasting that it utilize its digital conversion fund for both radio 
and television and ask that you ensure that the PTFP funds are used for 
both media. Congress stated, with regard to the fiscal year 2001 
digital conversion funds:

    The required (digital) conversion will impose enormous costs on 
both individual stations and the public broadcasting system as a whole. 
Because television and radio infrastructures are closely linked, the 
conversion of television to digital will create immediate costs not 
only for television, but also for public radio stations (emphasis 
added). Therefore, the Committee has included $15,000,000 to assist 
radio stations and television stations in the conversion to 
digitization . . (S. Rpt. 105-300)

    NFCB requests that the funding for digital conversion be committed 
in advance to facilitate the orderly transition of a very 
individualized process--a process that will be different at each 
station. Advanced funding will give the system time to raise the 
substantial matching funds that will be necessary and to know what 
additional funds will be needed to complete the process.
    Finally, we are also concerned that independent producers' 
conversion needs be addressed in some way so that this important source 
of programming is not locked out of the public broadcasting system.
    Thank you for your consideration of our testimony.
                                 ______
                                 

              Prepared Statement of National Public Radio

                              introduction
    Thank you for the opportunity to submit a statement for the hearing 
record on behalf of National Public Radio (NPR) and the hundreds of 
public radio stations that air NPR programming across the country. 
Public radio looks forward to working with Chairman Judd Gregg and his 
staff as well as the other distinguished Subcommittee members and 
staff.
    Public broadcasting seeks a $110 million appropriation for the 
Public Telecommunications Facilities Program (PTFP) to be included in 
the fiscal year 2002 Commerce-Justice-State bill. This funding will 
help public radio and television stations accomplish the following:
    Maintain and Expand Service
    Digital Broadcasting Conversion.--The estimated cost for digital 
radio transmission conversion is $116 million.
    The National Telecommunications and Information Administration 
(NTIA), part of the U.S. Department of Commerce, manages PTFP. PTFP is 
a matching grants program primarily for public radio and television 
stations' capital projects as well as for other non-profit 
telecommunications entities' capital projects. It helps stations 
purchase equipment to extend their signals to unserved areas, replace 
outdated hardware such as transmitter antennas and upgrade equipment 
and convert to digital technologies. It is the only capital grants 
program available to public broadcasters.
                      maintain and expand service
Public-Private Partnership
    The PTFP program is a successful public--private partnership 
because each grant requires a local match--typically 50 percent--
leveraged from a station's community. These facilities are usually 
established as a result of the community's desire to receive first or 
additional public radio service, and are funded through state grants or 
through capital campaigns funded by the listeners. For fiscal year 
2000, NTIA awarded $4.5 million to 56 public radio projects. The awards 
ranged from $4,054 to $414,334. Local stations matched these grants by 
raising over $3 million in funds from communities that recognize the 
enormous contribution made by public radio.
    This partnership helps stations that have relatively small budgets 
afford expensive capital items such as a transmission system which can 
cost a Class A station $264,000 and a Class C station $900, according 
to NTIA estimates. These figures do not include production equipment. 
In 1999, the average total revenue for public radio stations was $1.3 
million. Thus, without the federal matching grant, most public radio 
stations could not afford a piece of equipment that is a quarter or 
more of their operating budgets.
    It is noteworthy that public radio stations are often constrained 
in their ability to finance major capital expenditures. Stations are 
unable to pass along costs to listeners and most stations cannot take 
out loans for capital projects. This is particularly true in rural and 
urban areas where small businesses typically experience greater 
difficulty obtaining financing. PTFP assists stations with the high 
cost of these capital projects through matching grants.
Maintaining Service
    PTFP has helped build and maintain the infrastructure necessary to 
deliver quality programming to millions of listeners and viewers 
nationwide. For instance, PTFP is awarding WEPR-FM in Greenville, SC 
$34,100 to replace its aging 27-year-old transmitter.
    In addition, West Virginia Public Radio is receiving a $168,530 
grant to expand its coverage and provide first public radio service to 
about 50,000 residents of central West Virginia. The project will 
replace a 23-year-old transmitter and construct a new tower at WVPN-FM 
in Charleston. In addition, the West Virginia Public Radio Network will 
replace a 31-year-old transmitter, the antenna and the line at WVPW-FM 
in Buckhannon.
Expanding Service
    For more than 35 years, PTFP has played a major role in the 
development of America's public broadcasting stations. With the 
program's assistance, public radio reaches approximately 90 percent of 
the U.S. population. In fact, grants for bringing first service to a 
region are given the highest priority.
    In fiscal year 2000, a total of 19 grant awards will provide new 
public radio services to 434,000 people. The 19 communities benefiting 
from these awards are located in 15 states. One of the projects 
includes expanding the facilities of KENW-FM in Portales, NM by 
constructing new translators at Fort Sumner and Conchas Lake. The new 
translators will add first public radio service to about 2,500 people. 
Another project receiving a fiscal year 2000 grant includes the 
construction of public radio facilities to serve the Blackfeet Indian 
Reservation in Browing, MT.
    In addition, New Hampshire Public Radio was awarded $49,500 to 
expand its service area by constructing a repeater station in Jackson. 
The station will provide public radio programming to about 135,000 
residents of Grafton, Carroll and Coos counties and first service to 
over 5,000 Mount Washington Valley residents.
    One of the hallmarks of the program is its dedication to rural 
service. PTFP is especially valuable for public radio stations in rural 
states like Alaska, Kentucky, Vermont and Hawaii where topography or 
sheer size makes it difficult for all residents to receive a public 
radio signal. For example, PTFP is awarding a grant to KTNA-FM in 
Talkeetna, AK to improve its studio production, on-air, and satellite 
interconnection capabilities. Talkeetna is located approximately 120 
miles north of Anchorage and it provides the sole public radio service 
to the 5,300 residents of the northern half of the Matanuska-Susitna 
Borough, an extremely rural area that encompasses 12,250 square miles.
                    digital broadcasting conversion
    Like our friends in public television, NPR and its member stations 
are excited about the possibilities of digital service and ``new 
media''. PTFP will greatly enhance the ability of local stations to 
attract state and private funding necessary to convert radio and 
television stations to a digital standard. The estimated cost for 
digital radio is $116 million for transmission only, excluding 
production equipment.
    Digital radio transmission technology is poised to deliver near 
compact-disc-quality sound free of interference to listeners. Digital 
production and transmission conversion will enable public radio 
stations to produce and deliver programming using a far more efficient 
process than currently exists. It may allow listeners and users to 
experience a variety of new services such as the ability to search 
program formats, scan selective programs as well as read music lyrics 
and song titles.
    U.S. broadcasters are developing a digital technology that works in 
the existing AM and FM radio bands named In-Band, On-Channel or 
``IBOC.'' The Federal Communications Commission (FCC) initiated a 
digital audio broadcasting, or ``DAB,'' rulemaking in November 1999, 
placing a high priority on preserving spectrum. IBOC DAB achieves 
spectrum preservation by combining digital and analog signals within 
the same AM or FM radio channel, thereby avoiding the need for 
additional spectrum.
    IBOC DAB will be independently tested by the National Radio Systems 
Committee (NRSC) in the summer 2001. At some point after evaluation of 
the additional testing, the NRSC is expected to make a recommendation 
to the FCC on the selection of a standard. The FCC is awaiting this 
industry recommendation before it endorses a digital radio transmission 
standard.
                               conclusion
    It is fitting that PTFP resides with the agency charged with 
spectrum management and thus has the technical expertise to make 
informed engineering decisions, especially as public broadcasters 
expand service and make the transition from analog to digital 
broadcasting. That assistance is more important now than ever before. 
Please support a $110 million appropriation for the PTFP program for 
fiscal year 2002. Thank you for the Subcommittee's consideration and 
long-standing support for public broadcasting.
    NPR is a private, nonprofit corporation that produces and 
distributes award-winning programming such as Morning Edition, All 
Things Considered, Performance Today, and Car Talk. NPR is also a 
membership organization. NPR Member stations are independent entities, 
licensed to a variety of non-profit organizations, local communities, 
colleges, universities and other institutions. Public radio stations 
independently select and produce community-appropriate programming that 
best serve their listening areas.
                                 ______
                                 

              Prepared Statement of The Nature Conservancy

    Mr. Chairman, I appreciate the opportunity to submit testimony on 
the fiscal year 2002 budget for the National Oceanic and Atmospheric 
Administration (NOAA).
    The Nature Conservancy is an international, non-profit organization 
dedicated to conserving biological diversity. Our mission is to 
preserve the plants, animals, and natural communities that represent 
the diversity of life on Earth by protecting the lands and waters they 
need to survive. We have more than a million individual members, over 
1,500 corporate members, and programs in every state and in 20 nations. 
We have protected more than 11 million acres within the United States 
and Canada, and have helped local partner organizations preserve 
millions more overseas. Additionally, we own the largest private system 
of nature preserves in the world.
    Since 1950, The Nature Conservancy has maintained a strong focus on 
land-based habitats. However, in the past decade, we have recognized 
that to accomplish our mission we must also focus on critically 
important and productive freshwater, coastal, and marine habitats--
particularly habitats such as estuaries, coral reefs, mangroves, and 
seagrass beds that are heavily affected by human activities. We are 
aware that coastal areas and oceans contain biodiversity rivaling 
tropical rain forests. Yet as a nation we have focused little attention 
on their conservation.
    As a result, The Nature Conservancy is escalating its focus on 
freshwater, coastal, and marine conservation areas using the sound 
science, strong partnerships, ecosystem approach, and site-based 
conservation that has proven effective throughout our 50-year history. 
We are working with public and private partners to develop a 
``conservation blueprint'' that will identify the terrestrial, 
freshwater, coastal, and marine sites at several scales, that together 
if conserved will protect the nation's unique array of plants, animals, 
and natural communities for the long-term.
    Several NOAA programs have proven especially successful at 
combining effective management, good science, and community involvement 
to achieve tangible and lasting conservation results. These programs 
will also facilitate the process of conserving many conservation areas 
identified by the Conservancy's conservation blueprint. These programs 
include:
  --National Estuarine Research Reserve System
  --National Marine Sanctuaries
  --Habitat Restoration
  --Salmon Recovery
  --Marine Protected Areas
  --Coral Reef Conservation
               national estuarine research reserve system
    These twenty-five ``living laboratories'' have historically made 
the most of a modest annual budget. However, last year the National 
Estuarine Research Reserve System (NERRS) received a funding boost that 
should be built upon in fiscal year 2002, as appropriate to the 
importance of estuaries to critical habitat and coastal economies.
    Adequate funding for the NERRS ($18 million for operations; $7 
million for CZM Administration; $15 million for procurement, 
acquisition, and construction) will permit individual reserves to 
better implement strong management, research, education, and 
stewardship activities within surrounding communities, build necessary 
facilities, and acquire key tracts of land and conservation easements 
in order to buffer reserves from development impacts. Additional 
funding would also facilitate implementation of system-wide monitoring 
and coastal training programs, and eventually the expansion of the 
system, permitting it to officially represent the suite of 
biogeographic regions that together comprise our nation's coastlines.
    As manager of more than 1,300 preserves, we appreciate increased 
funding for the NERRS. Estuaries serve as ``nature's water treatment 
system,'' providing flood control, storm damage protection, recreation, 
and habitat for species to spawn, nurse, and live. The Conservancy 
works in several reserves including New Hampshire's Great Bay, 
Florida's Apalachicola Bay, Alaska's Kachemak Bay, South Carolina's ACE 
Basin, and Mississippi's Grand Bay. We know first hand that the NERRS 
has implemented solid science to inform communities about how coastal 
ecosystems function, how humans affect them, and methods for improving 
their condition.
                      national marine sanctuaries
    The Nature Conservancy supports the President's request for $36 
million to fund the National Marine Sanctuary Program. This funding 
would extend volunteer programs, provide for additional monitoring, and 
enable all sanctuaries to meet critical, long-term needs. It would also 
fulfill a national plan for visitor interpretive centers and public 
outreach activities. Additionally, new investments in science are 
needed to fully understand the complex issues that will lead to better 
sanctuary management. Finally, as revised and more detailed management 
plans are developed for individual sanctuaries, additional funding will 
be needed for their implementation.
    National Marine Sanctuaries embody some of the world's most diverse 
ecosystems. The thirteen sanctuaries established since 1972 protect 
18,000 square miles of ocean waters. They aid in the recovery of 
endangered marine animals, lessen the threat of oil spills, increase 
knowledge of the ocean through research, and enlarge a stewardship 
ethic among citizens. Where appropriate, uses such as recreation, 
commercial fishing, and shipping are also permitted.
    The Conservancy's most extensive experience with this program has 
been in the Florida Keys where a sanctuary was established to stem 
threats to the ecological health of the coral reef ecosystem. In 
cooperation with the state of Florida and an Advisory Council 
(representatives from commercial and recreational fishing, the dive and 
boating industries, public interest organizations, scientific and 
educational organizations, and the public) the Sanctuary developed and 
is implementing a comprehensive management plan. The plan focuses on 
issues and activities including education and outreach, enforcement, 
research and monitoring, and zoning. It also concentrates on solutions 
for water quality problems related to stormwater runoff, sewage 
treatment, live-aboards, hazardous spills, and pesticides. It is 
showing promising results.
                          habitat restoration
    Coastal ecosystems are powerful drivers of the United States 
economy, with more than 180 million people visiting the coasts 
annually. By 2010, 75 percent of the United States population is 
expected to live within fifty miles of the coast. Tourism, recreation, 
fishing, and other industries require healthy coastal habitats and 
clean waters. Yet, harmful algal blooms, polluted beaches and waters, 
contaminated shellfish beds, and diseased coral reefs are signs that 
human activities are degrading valuable habitat coastal resources.
    The Nature Conservancy strongly supports NOAA's coastal habitat 
restoration efforts, and recommends sustaining funding levels of $18 
million for Fishery Habitat Restoration. Most of this funding would 
ensure the continued success of NOAA's Community-Based Restoration 
Program that together with national partners, has inspired local 
efforts to conduct meaningful, on-the-ground restoration of freshwater, 
coastal, and marine habitat. This funding level would bring more seed 
money to local communities across the country for the restoration of 
vital coastal habitats including wetlands, seagrass beds, mangroves, 
anadromous fish spawning areas, and coastal rivers. Additionally, it 
would increase this successful program's geographic scope and rate at 
which it can encourage community ownership and restoration of critical 
and rapidly dwindling habitat. This program has not only leveraged $4-
$10 for every federal dollar invested at more than 177 projects, but 
has also leveraged a conservation ethic across the nation.
                            salmon recovery
    Salmon travel hundreds of fresh and saltwater miles past cities, 
dams, farms, and forests during their life cycle. As a result, it is 
necessary to focus at a landscape-scale to determine what salmon need 
to survive. Such an approach benefits other species dependent upon 
cool, clear water and quality habitat. This includes humans, who desire 
flood prevention, improved water quantity and quality, reduced erosion, 
and recreational opportunities.
    Habitat destruction, reduced streamflows, pollution, passage 
impediments or blockage from hydropower and other developments, and 
over-harvest have all played a role in the decline of Pacific salmon 
stocks. Adequate funding to conserve and recover salmon ($200 million 
for the Pacific Coastal Salmon Recovery Fund; $55 million for NMFS 
Agency Funding for Pacific Salmon Recovery) is critically needed. The 
Pacific Coastal Salmon Recovery Fund enables states and tribes to fund 
local efforts that evaluate, protect, and restore key habitat. NMFS 
Agency funding would further critical scientific research and 
monitoring, spur new partnerships and cooperative efforts, and 
implement protections under the Endangered Species Act.
    History has demonstrated that a good portion of money spent on 
habitat restoration and recovery could been used more effectively and 
at less cost to the taxpayer if applied before systems were altered and 
degraded. It is time to make tough choices about how to conserve 
functioning systems with healthy habitats and salmon populations for 
the long-term.
                         marine protected areas
    Marine protected areas (MPAs) are proven tools for rebuilding and 
sustaining fisheries, recovering threatened and endangered species, and 
providing recreational opportunities. The Conservancy has learned this 
first hand through work with scientists, community members, 
international governments, and federal agencies to establish MPAs and 
identify and protect biodiversity within them in places such as the 
Florida Keys, the Exuma Cays Land and Sea Park in the Bahamas, and 
Kimbe Bay in Papua New Guinea. It is time to reserve more of these 
places for future generations, just as the nation has done on land with 
national parks and refuges, national forests, and other specially 
managed areas.
    The Conservancy recommends that $5 million be appropriated so that 
NOAA can work with federal and state agencies and other partners to 
assess the use of MPAs as management tools for the nation's valuable 
marine resources, while permitting recreation and protecting 
biodiversity. Funding would enable completion of the first nation-wide 
inventory of MPAs, which would be applied towards assessing the 
system's effectiveness in meeting partners' goals and the use of MPAs 
as management tools. Funding would support needed research on MPA 
design and implementation to meet different goals, and would also 
support training and technical assistance for communities, users, 
management agencies, and others. Finally, funding would be used to 
share lessons and information, and to increase public involvement 
through the MPA web site.
                        coral reef conservation
    Coral reef ecosystem health has declined severely all over the 
world in recent decades. The combined effects of global climate changes 
and human activities have put coral reefs at great risk. It is now 
critical to take action before the tragedy becomes irreversible. As a 
result, the Conservancy has been working throughout the world with 
governmental and non-governmental partners to protect these fragile 
systems.
    The Nature Conservancy supports the President's budget for 
activities that benefit coral reefs ($16 million for NOS; $11 million 
for NMFS; $700,000 for NESDIS; $500,000 for OAR). Also supported by the 
United States Coral Reef Task Force, these activities include 
comprehensive mapping and monitoring of coral reefs, research into 
ecological processes upon which reefs depend, enhanced international 
activities, integration of human activities, and public education. With 
such funding, this scientifically-based effort will protect and restore 
coral reefs in the United States and its territories. It will also 
serve as a model in intergovernmental coordination, and in coral reef 
protection for similar initiatives in the rest of the world.
                               conclusion
    Thank you for the opportunity to submit these remarks. Conservation 
of coastal waters is challenging since many marine habitats cannot be 
purchased and set aside for conservation. Instead, we must employ a 
variety of strategies at every level to conserve and restore these 
valuable places. The Nature Conservancy looks forward to working with 
NOAA, other federal agencies, state and local governments, non-
governmental organizations, and the private sector to ensure the long-
term protection and sustainable use of our productive and diverse 
coastal waters.
                                 ______
                                 

   Prepared Statement of the University Corporation for Atmospheric 
                                Research

    On behalf of the University Corporation for Atmospheric Research 
(UCAR) and the university community involved in weather and climate 
research and related education, training and support activities, I 
submit this written testimony for the record of the U.S. Senate 
Committee on Appropriations, Subcommittee on Commerce, Justice, State 
and the Judiciary. My testimony pertains to the fiscal year 2002 budget 
request for the National Oceanic and Atmospheric Administration (NOAA).
    UCAR is a university membership consortium composed of 63 North 
American institutions that grant the Ph.D. in atmospheric, oceanic, and 
related sciences. The UCAR mission is to support, enhance, and extend 
the capabilities of the university community, nationally and 
internationally; to understand the behavior of the atmosphere and 
related systems and the global environment; and to foster the transfer 
of knowledge and technology for the betterment of life on earth. UCAR 
is a non-profit, Colorado-based corporation that manages and operates 
the National Center for Atmospheric Research (NCAR) and the UCAR Office 
of Programs (UOP). It is supported by the National Science Foundation 
(NSF) and other federal agencies including NOAA. In addition to its 
member universities, UCAR has formal relationships with approximately 
100 additional undergraduate and graduate schools including several 
historically black and minority-serving institutions and 38 
international universities and laboratories.
    On behalf of this country's atmospheric sciences community, I urge 
the Committee to support at the highest level possible the research, 
training, and observations activities of the National Oceanic and 
Atmospheric Administration. NOAA provides a comprehensive approach to 
understanding the atmospheric and oceanic systems of the earth and to 
implementation of programs that save American lives, energy, money and 
property. The weather and climate data collected by NOAA satellites, 
ships, ocean buoys, aircraft, and other instrumentation provide the 
foundation on which atmospheric sciences research is based. Support for 
NOAA should be maintained at the highest possible levels given the rate 
at which the world's climate is changing and during this era of rapid 
scientific discovery and intense, global economic competition.
    Within NOAA, I would like to comment on the following offices and 
programs:
                     national weather service (nws)
    I urge the Committee to support the NWS request of $727.6 million, 
a net increase of $34.8 million above the fiscal year 2001 enacted 
level. The National Weather Service will put this increase to excellent 
use in making available critical weather and climate-related data, 
improving weather prediction accuracy and warning lead times, and 
working to decrease weather related fatalities. There are few agency 
programs that impact our daily lives and the health of our economy as 
profoundly as does the NWS. Within NWS, I would like to comment on the 
following programs:
Forecaster Training and Related Research Programs
    Support for NWS forecaster training has declined over the past 
three years from a high of about $20 million to the current figure of 
approximately $12 million. Rapidly expanding new technologies and 
dramatic advancements in the field of meteorology, combined with 
impacts of increased weather and climate variability, have created a 
pressing demand for professional development of the NWS workforce and 
collaborative research activities with universities and laboratories. 
This is the time, not to cut back on this activity, but to expand it. I 
urge the Committee to support, mainly in the NWS travel budget, an 
amount of $15 million (without harming any other programs within NWS) 
to make adequate training of NWS forecasters possible through proven 
and highly successful programs such as the UCAR-based Cooperative 
Program for Operational Meteorology, Education and Training (COMET).
Radiosonde Replacement Network
    The antiquated upper air radiosonde network is in dire need of 
replacement. There is little doubt that the obsolete infrastructure for 
this principle data source on upper air for all weather forecasts and 
models will fail by 2005 if it does not receive adequate modernization 
funding now. When the network falls apart, this nation, the richest on 
earth, will suffer widespread loss of data that are essential for 
accurate forecasting across the country. Funding should be appropriated 
now that will allow the NWS to replace antiquated computers, continue 
software development, and procure critical surface instruments. The 
requested amount of $5 million is not adequate. I urge the Committee to 
increase the recommended funding for the Radiosonde Replacement Network 
from $5 million in the Procurement, Acquisition and Construction (PAC) 
account, to the critically needed amount of $7 million without harming 
any other programs within NWS.
Advanced Hydrologic Prediction System (AHPS)
    The need to implement AHPS nationwide is being demonstrated right 
now as the Mississippi and Red Rivers rise to dangerous levels. This 
real time modeling and data analysis system will significantly improve 
flood forecasting, water management, and risk-based decision making in 
flood-prone areas such as the Mississippi and Ohio River Basins. It 
will save lives and property by providing river stage forecasts one-to-
two months in advance, a great improvement on the several days advance 
notice now available. The proposed $1 million for fiscal year 2002 
simply will not provide the coverage that is needed. Within the NWS ORF 
account, I urge the Committee to support $3.5 million for national 
implementation of AHPS without harming any other NWS programs.
Co-Operative Observer Network
    I urge the Committee to support the request of $2.3 million in the 
Operations, Research, and Facilities (ORF) account to sustain the 
volunteer operated Cooperative Observer Network. The network's 11,000 
weather observation sites are used to maintain the country's climate 
record and to provide data to NWS local field offices and to university 
laboratories. The National Research Council has recommended taking 
immediate steps to modernize this ailing, critical network. This 
achievement of modernizing, as opposed to just sustaining, will 
necessitate enhanced future funding. This year's recommended funding 
will rescue the network from collapse, but increased funding for 
modernization should begin in fiscal year 2003. Any investment in this 
infrastructure will reap immediate dividends in energy savings realized 
from improved weather data.
National Centers for Environmental Prediction (NCEP)
    NCEP is comprised of nine centers within the NWS, all working 
together toward the common goal of using data for weather predictions 
and seasonal forecasts in order to save lives, protect property, and 
create economic opportunity. Weather Service field offices, other 
government agencies, research universities, the U.S. Weather Research 
Program, and private meteorological services rely on NCEP's products. 
Forecasts that reach the public via media outlets originate at NCEP. In 
recent years, the centers have been supported inadequately to process 
weather data and transfer it into operations. In order to help fix this 
problem, I urge the Committee to support the recommended $1.7 million 
to sustain current operations of the NCEP Environmental Modeling 
Center, and the recommended $3.0 million for NCEP Data Assimilation and 
Modeling.
Advanced Weather Interactive Processing System (AWIPS)
    Under NWS Public Warning and Forecast Systems in the Operations, 
Research and Facilities (ORF) account, I urge the Committee to support 
the fiscal year 2002 proposed amount of $38.4 million for AWIPS 
Operations and Maintenance. This interactive computer system, the 
cornerstone of the recently completed NWS modernization and 
restructuring, integrates for the first time all meteorological and 
hydrological data, and all satellite and radar data. AWIPS is a 
critical source of data for the research community and enables the NWS 
to issue far more effective weather warnings and forecasts in a very 
efficient manner. Under NWS Systems Acquisition in the Procurement, 
Acquisition and Construction (PAC) account, we urge the Committee to 
support the proposed fiscal year 2002 amount of $16.3 million for AWIPS 
to continue development of AWIPS software. When integrated with NEXRAD 
Product Improvement technology, this new software will allow NWS 
forecasters to significantly improve tornado warning lead times and 
improve the accuracy of severe storm forecasts.
            office of oceanic and atmospheric research (oar)
    OAR functions are critical to the process of conducting research 
and linking the results to operations. The office supports a world-
class network of scientists and environmental research laboratories as 
well as partnerships with academia and the private sector in order to 
provide the sound science upon which decision makers can frame 
effective regulations to solve environmental problems. Society's demand 
and economic need for the OAR labs' information services have increased 
dramatically in such areas as predictions of El Nino/La Nina events, 
tropical storm intensity, flooding and drought. To realize the full 
benefit to society, I urge the Committee to enhance support for the 
extremely critical services provided by OAR. OAR's most important 
research efforts conducted with universities include the following:
U.S. Weather Research Program (USWRP)
    This interagency program, authorized by Congress in 1992, was first 
mentioned in NOAA's budget in fiscal year 2000. I am encouraged that 
this program is receiving an additional $2.2 million this year, but 
even the recommended amount of $3.7 million falls far short of the 
annual $12.5 million recommended in the Congressionally mandated 
implementation plan. The USWRP research community is poised to make 
significant gains in prediction capabilities regarding heavy 
precipitation (that can result in the kind of flooding we see now on 
the Mississippi and Red Rivers) and hurricane landfall location and 
intensity. The disaster relief savings of such gains would be many 
times the initial research cost investment, not to mention the value of 
lives saved. I urge the Committee to provide the USWRP with at least 
$10 million for fiscal year 2002. This relatively small increment in 
funding would have a major impact on the increased accuracy of weather 
forecasts.
    Since the USWRP is an interagency program the goals of which 
advance the NOAA mission, we would suggest that NOAA take the lead in 
collaborating with the National Science Foundation (NSF), the National 
Aeronautics and Space Administration (NASA), and the Department of 
Defense (DOD) to ensure appropriate support from these agencies.
Climate and Global Change Program
    The Climate and Global Change program is an integral part of the 
interagency U.S. Global Change Research Program (USGCRP) that addresses 
our understanding of the global climate system including knowledge and 
prediction of climate variability patterns and the occurrence of severe 
weather events. The research funded by this competitive grants program 
improves the regional specificity and detail of climate forecasts, 
which is essential progress to advancing our understanding of the 
Earth's climate. In fiscal year 2001, funding for this program was 
$68.35 million; fiscal year 2002 funding is recommended at only $68.71 
million, an increase that is far below the rate of inflation. I urge 
the committee to support, without harming other NOAA programs, at least 
a 4 percent increase for the Climate and Global Change Program for a 
fiscal year 2002 funding level of $71.0 million.
Climate Observations and Services Program
    This initiative, begun in fiscal year 2001, meets the growing 
demand for timely data and information about climate variability, 
climate change and trends in severe weather events. The work of the 
program will support new ocean observations and infrastructure that 
will provide essential data to understanding aspects of climate change. 
I urge the Committee to support the fiscal year 2002 request of $24.0 
million for the Climate Observations and Services Program, a $13.0 
million increase over fiscal year 2001 levels.
Boulder Facilities Operations
    In addition to supporting the research programs above, I urge the 
Committee to support the request of $5 million for Boulder Facilities 
Operations. Six of the 12 laboratories that make up NOAA's Office of 
Oceanic and Atmospheric Research (OAR) Laboratories are housed in 
Boulder at the David Skaggs Research Center. The Center is also the 
home of two NESDIS Data Centers, one of OAR's 11 Joint Institutes, and 
the Denver Forecast Office of the National Weather Service (NWS). The 
$5 million in requested funding will meet operating costs for space, 
utilities, maintenance and security at this facility.
National Environmental Satellite, Data and Information Service (NESDIS)
    For several years we have been concerned about the proposed level 
of funding in the NESDIS Operations, Research and Facilities (ORF) 
account. We are pleased to see that overall support demonstrated in 
last year's increase for this account is being continued, but we still 
have grave concerns about critical programs within NESDIS that are 
actually recommended for significant cuts. This account is divided into 
support for the Satellite Observing Systems and the Environmental Data 
Management Systems. The Satellite Observing Systems provide services in 
designing, developing, and operating civilian satellite systems for the 
purpose of observing ocean, and atmospheric conditions and the sun. 
These are observational tools critical to improving our knowledge of 
the complex environmental systems in which we live. I urge the 
Committee to support the request of $75.9 million for NESDIS Satellite 
Observing Systems, an increase of $15.7 million over the fiscal year 
2001 enacted level.
    The rich data collected by the NESDIS satellite systems are 
acquired, processed, analyzed, archived and disseminated through the 
Environmental Data Management Systems to commerce, industry, 
agriculture, science and engineering, the general public, and 
government at all levels. While the Satellite Systems function collects 
data, the Data Management Systems function makes those data useful and 
available. Both sides of the equation are of equal importance, and we 
are disturbed to see that the data management function is recommended 
for a $9.0 million decrease. An increase in funding for the observing 
systems that collect data obviously should be coupled with an increase 
in funding for the management systems that make the collected data 
useful and accessible. The budget language within the Data and 
Information Services section itself makes the argument for an increase 
stating that, ``Requirements have expanded due to growing customer 
demands for data and products, and increases data management as the 
volume of new data continues to grow.'' I urge the Committee to restore 
the NESDIS Environmental Data Management Systems to the fiscal year 
2001 enacted level of $64.8 million without harming base funding for 
any of the other worthy programs of NESDIS.
Minority Serving Institutions
    While the recommended increase will not cover the cost of 
inflation, we are pleased to see the continuing commitment to Minority 
Serving Institutions (MSIs), a program begun in fiscal year 2001. In 
order to have a productive scientific workforce now and in future 
years, the pool of qualified applicants must be as diverse as the 
population at large. Under-representation of minorities in earth 
science disciplines in this country is a serious issue that must be 
addressed by multiple programs across multiple agencies and 
institutions. I urge the Committee to support the $15.0 million request 
for NOAA's Minority Serving Institutions initiative and to increase 
that amount, if possible, without harming other NOAA programs.
    On behalf of UCAR, I want to thank the Committee for the important 
work you do for U.S. scientific research, education, and training. We 
appreciate your attention to the recommendations of our community 
concerning the fiscal year 2002 budget.
                                 ______
                                 

      Prepared Statement of the American Museum of Natural History

              about the american museum of natural history
    The American Museum of Natural History [AMNH] is one of the 
nation's preeminent institutions for scientific research and public 
education. Since its founding in 1869, the Museum has pursued its 
mission to ``discover, interpret, and disseminate--through scientific 
research and education--knowledge about human cultures, the natural 
world, and the universe.'' It is renowned for its exhibitions and 
collections of more than 32 million specimens and cultural artifacts. 
With nearly five million annual visitors--approximately half of them 
children--its audience is one of the largest, fastest growing, and most 
diverse of any museum in the country. More than 200 Museum scientists 
conduct groundbreaking research in fields ranging from all branches of 
zoology and paleontology to earth, space, and environmental sciences 
and biodiversity conservation. Their work forms the basis for all the 
Museum's activities that seek to explain complex issues and help people 
to understand the events and processes that created and continue to 
shape the Earth, life and civilization on this planet, and the universe 
beyond.
    In its exhibition halls AMNH scientific knowledge and discovery are 
translated into three dimensions. One of the most exciting chapters in 
the Museum's history culminated just over one year ago with the opening 
of the Rose Center for Earth and Space in February 2000. Greeted with 
critical and popular acclaim and record-setting attendance surpassing 
all projections, the Rose Center includes a rebuilt Hayden Planetarium, 
Hall of the Universe, and Hall of Planet Earth. It leads to the Hall of 
Biodiversity, which reveals the variety of Earth's living things and 
expands the Museum's efforts to alert the public to the critical role 
biodiversity plays in sustaining life as we know it and to the 
ecological crisis we now face. Together, the new planetarium and halls 
provide visitors a seamless educational journey from the universe's 
beginnings to the formation and processes of Earth to the extraordinary 
diversity of life on our planet.
              common goals of noaa and the american museum
    Today, as throughout its history, the National Oceanographic and 
Atmospheric Administration [NOAA] is committed to describing and 
predicting changes in Earth's environment and to conservation and wise 
management of the Nation's coastal and marine resources. It dedicates 
itself to forecasting environmental changes, providing decision makers 
with reliable scientific information, and fostering global 
environmental stewardship.
    The American Museum shares NOAA's commitment to these environmental 
goals and to the scientific research and public education that underlie 
them. Indeed, informed environmental stewardship and preservation of 
our planet's biodiversity and resources--in the marine, coastal, and 
other natural environments and habitats--are integral to the Museum's 
most fundamental purposes. The Museum is now poised to launch the 
following initiatives in which it seeks to partner with NOAA to advance 
our shared environmental research, stewardship, and public information 
goals.
             public education in marine and ocean sciences
    Public understanding of the natural world has taken on new urgency 
in an era of dramatic discoveries affecting our understanding of the 
oceans, widespread species and habitat loss, and weather shifts around 
the globe. To meet this vital need for understanding of the complex 
natural phenomena affecting people and the planet, the Museum is 
planning a major initiative about our planet's last frontier--the 
oceans.
    In the year ahead the Museum will embark upon an ambitious 
renovation of one of its flagship halls, the Hall of Ocean Life. The 
new hall will provide a rich context for the latest marine research and 
will help to bring the marine realm into public focus, educating the 
public about current research into the oceans' vital role in the life 
of our planet. The renovation will bring new technologies and media 
together with living creatures, restored classic dioramas, and 
treasured icons like the 94-ft. model Blue Whale to educate audiences 
of all ages about earth as a marine habitat, a water planet, and about 
the diversity of life in and near the water.
    The Hall of Ocean Life is one of the Museum's grand exhibition 
spaces. First constructed in 1924 and last renovated in 1969, the 
29,000 square foot hall is comprised of two levels, the main floor and 
the mezzanine. The main floor, at 16,000 square feet, features 15 
historic dioramas and a two-story Andros Coral Reef diorama. These 
dioramas are widely recognized as treasures of a distinctive art form 
used as a method of environmental education by natural history museums, 
primarily in the United States, Canada, and Scandinavia, in the first 
half of the twentieth century. The mezzanine level currently features 
an exhibition on the phylogeny of fishes, which includes more than 400 
models. Renovation plans will transform the Hall into a fully immersive 
simulated marine environment with video projection screens, interactive 
computer kiosks, and an aquarium. The most important concepts to be 
conveyed to Ocean Life visitors are that the oceans support a highly 
diverse and complex web of life--and that there is a critical 
connection between the ocean and our own survival. Earth's oceans make 
life possible, and together, the oceans represent the largest habitat 
on Earth, supporting the greatest diversity of life on the planet. 
Themes of biodiversity and interconnectedness will recur throughout the 
exhibition's narratives, complementing and expanding upon the adjoining 
Biodiversity Hall.
    The new design plan includes not only extensive restoration of 
existing elements, such as the dioramas, but also a complete renovation 
of the mezzanine level to incorporate more integrated depictions of 
ocean life through models, specimens, and new multimedia elements. 
Invertebrates, including elements from the recently closed Hall of 
Mollusks as well as marine plants, will appear in the hall as integral 
components of the various habitats on display.
    Highlights of planned exhibition elements include the following:
  --Habitat stories.--A different marine habitat will be featured in 
        each of eight niches that line the North and South walls of the 
        mezzanine. The habitats will serve as windows onto the ocean 
        world, organizing the scientific information into eight self-
        contained, ecological stories. Each niche will feature a vivid 
        depiction of the particular habitat using models and specimens 
        along with various forms of signage, and a series of plasma 
        screens above the glass-enclosed displays will create a ``video 
        necklace'' around the mezzanine. The videos will feature high 
        definition images of each habitat, showcasing marine ecosystems 
        from around the world.
  --Additional Mezzanine Elements.--Other niches on the mezzanine level 
        will focus on subjects such as the evolutionary history and the 
        morphology of fish and aquatic invertebrates. There will also 
        be a niche devoted to the evolutionary development of the 
        oceans and ocean life, featuring dioramas depicting life in the 
        ancient oceans and authentic seafloor fossilized slabs that 
        visitors can touch. Flanking the mezzanine-level entrance to 
        the Hall will be two small theatres presenting videos on basic 
        oceanography and impacts of human activity on the marine world.
  --Walls of Species.--On the main floor, a ``Wall of Fishes'' will 
        display an array of 75-100 models of freshwater and marine fish 
        and traces the evolutionary relationships among all fish 
        species alive today. An adjacent ``Wall of Marine 
        Invertebrates'' exhibit will spotlight the more than 30 phyla 
        of marine invertebrates. Both walls will echo a Spectrum of 
        Life Wall in the adjoining Hall of Biodiversity, reinforcing 
        the intricate evolutionary connections among all living 
        creatures.
  --The Blue Whale.--The renovated hall will still feature the 
        monumental Blue Whale, but the Museum will provide more 
        extensive and up-to-date information about aspects of cetacean 
        biology and conservation and relevant research developments 
        around the globe.
  --Aquarium.--A planned state-of-the-art aquarium, with a 40-foot tank 
        that holds 16,000 gallons of sea water, will depict an Indo-
        Pacific ``patch reef'' (the edge of a coral formation emerging 
        from the sandy sea floor), featuring a brilliant display of 
        fish and invertebrates swimming through a forest of indigenous 
        corals and gorgonians.
  --Marine research.--The renovated Hall of Ocean Life will also 
        educate the public about current marine research, including 
        analyses from the proposed GIS facility described below. This 
        information will expand on themes developed in the Museum's 
        Halls of Biodiversity and Planet Earth, such as the oceans' 
        impact on shaping weather patterns and climate, threats to the 
        health of oceans and coasts, and other topics pertinent to the 
        Museum's and NOAA's core concerns.
    We seek to partner with NOAA in this undertaking to create new 
educational exhibits to introduce 21st century museum visitors to the 
abundance and the wonder of ocean life as well as the architecture of 
its currently endangered ecosystems. We do not seek funds for capital 
costs but for exhibition display.
       geographic information systems for environmental research
    Tied to our public education initiative, our second proposed 
initiative concerns cutting-edge technologies for basic and applied 
environmental research. New technologies in Geographical Information 
Systems [GIS] and remote sensing are revolutionizing the way 
environmental research can be conducted and data analyzed. At the same 
time, they are revolutionizing the ways museum collections can be used 
and accessed by scientists, educators, policy makers, and the general 
public. The American Museum of Natural History has long been at the 
forefront of developing new modes and methods of scientific research. 
The explosion of technology in GIS creates a window of opportunity for 
the Museum to develop new ways to integrate this state-of-the-art 
analytical tool into our leading-edge research and present results to 
the public in our exhibition halls.
    Wise environmental stewardship and conservation policy require 
effective knowledge of the distribution of species and ecological 
communities at local, regional, and global scales. Without this 
information, it is difficult to decide where to allocate scarce 
conservation resources. While remote sensing provides a tool for 
calculating and visualizing changes in the distribution of natural 
communities and human-dominated landscapes at all these different 
scales, GIS enables researchers to compare more detailed information 
(such as distribution of species, streams, habitat features) from 
different sources at the same scale. Throughout its zoology, 
paleontology, earth and space science and anthropology divisions and 
its Center for Biodiversity and Conservation, AMNH investigators are 
exploring GIS applications to advance research pertinent to 
conservation, protecting threatened species, and safeguarding marine 
habitats. These applications include the following:
  --Conservation research.--GIS is becoming an indispensable component 
        in environmental data analysis, providing the database backbone 
        that can connect field work to analysis. It unites satellite 
        and legacy data with raw standardized samples and ground 
        truthing, and is revolutionizing work in conservation. AMNH 
        researchers studying endangered ecosystems, marine species, and 
        marine reserves, for example, can use GIS to develop finer, 
        tighter, more precise datasets, while GIS analysis enables 
        researches to ask more sophisticated and flexible questions, 
        and to discover patterns, series, and gradations.
  --Collections data and access.--GIS can bring the Museum collections 
        of more than 32 million specimens and artifacts alive and 
        increase exponentially the analyses that researchers can carry 
        out for conservation research and decision making. By coupling 
        GIS with the Museum's increasingly strong AMNH web presence to 
        provide easy access, researchers worldwide will be able to pose 
        more sophisticated questions and uncover new connections and 
        relationships among our collections data. For example, by using 
        georeferenced data, researchers can compare current maps with 
        legacy data to trace environmental changes over time.
  --Public education.--To present current science news the Museum has 
        created the Science Bulletins. These high definition video 
        reports feature breaking science developments and discovery in 
        high definition wall displays in the Halls of Biodiversity, 
        Planet Earth, and the Universe. With access to GIS applications 
        and datasets, they can be adapted for the Hall of Ocean Life 
        content as well; and present the public with global earth 
        science-related datasets, maps, marine biodiversity reports, 
        ocean life discoveries, and more.
  --The Museum's Center for Biodiversity and Conservation [CBC] has had 
        noted success with their piloted Remote Sensing and 
        Geographical Information System (GIS) laboratory since the fall 
        of 1998. It has been using GIS in biodiversity and marine 
        reserve research; for example, to identify sites suitable for 
        biological inventory; provide supplementary quantitative and 
        qualitative data in and around study sites (e.g. extent of 
        habitat fragmentation); and development of persuasive visual 
        depictions and digital presentations for reports, publications, 
        and meetings.
    These successes and uses for GIS demonstrate the Museum's enormous 
potential for using GIS to help advance environmental forecasting, 
provide decision makers with reliable scientific information, and 
foster global environmental stewardship. We therefore seek to partner 
with NOAA in establishing a Museum-wide GIS resource center to 
facilitate integrated research, education, and access in these areas so 
crucial to sound environmental stewardship. We seek support not for 
bricks and mortar but for GIS research and education applications.
    The Museum brings to the proposed NOAA partnership a public 
platform of tremendous power and reach. Since the Rose Center opened, 
the American Museum's annual onsite audience has increased 45 percent, 
to nearly five million annual visitors. In addition, the Museum's 
website enjoys an average of more than 16,000 unique online visitors 
each day. The Hall of Ocean Life will increase this audience even more. 
Our joint efforts, therefore, are positioned in the years ahead to 
reach a combined onsite and online audience that could reasonably 
approach 10 million. We also plan to carry out these proposed strategic 
initiatives with funds from nonfederal as well as federal sources. The 
Museum has a highly successful track record in private fundraising, and 
we are confident that we will be able to leverage any federal 
investment favorably.
    In sum, we request $1 million to join in partnership with NOAA in 
developing these research and public education initiatives. By 
generating critical scientific knowledge through GIS applications and 
public education about the vital role of ocean and marine environments, 
we can advance our shared commitment to environmental stewardship for 
the generations to come.
                                 ______
                                 

  Prepared Statement of the University of Miami, Coral Gables, Florida

    Mr. Chairman and Members of the Subcommittee, I appreciate the 
opportunity to present a statement for the Record on behalf of my 
colleagues at the University of Miami and its Rosenstiel School of 
Marine and Atmospheric Science, the schools of Medicine and Law, and 
the Dante B. Fascell North-South Center. We respectfully seek your 
support in fiscal year 2002 for three projects at the University of 
Miami. First, a new project dedicated to improving our understand of 
wild fish populations and to developing a sound scientific basis for 
fisheries management through the National Oceanographic and Atmospheric 
Administration; a timely and new initiative, the Healthcare and Elder 
Law Policy (HELP) Center through the Department of Justice and its 
National Institute on Justice and/or its Bureau of Justice Assistance; 
and continuing support for a unique national resource, the Dante B. 
Fascell North-South Center through the United States Information 
Agency.
    Founded in 1925, the University of Miami is the largest private 
research university in the Southeastern United States and the youngest 
of 23 private research universities in the nation that operate both law 
and medical schools. Through its 14 colleges and schools, more than 
2,300 faculty instruct almost 14,000 undergraduate, graduate, and 
professional students in facilities located on four major campuses.
                  the center for sustainable fisheries
    The Rosenstiel School is recognized as one of the premier academic 
oceanographic research facilities in the world and ranked among the top 
six nationally (by number of faculty, funded research volume, and 
graduate program size). Located on a 16-acre tract on Virginia Key in 
Miami's Biscayne Bay, the Rosenstiel School provides the only 
subtropical marine research facility in the continental United States, 
and is adjacent to and coordinates daily with the national NOAA lab and 
research facility.
    The Rosenstiel School because of its unique location--the Gulf 
Stream is immediately offshore; just to the south lies a vast of 
expanse of the only living coral reef off the shores of the continental 
United States; and just to the east the Florida-Bahamas Carbonate 
Platform--is a unique resource for the nation, as well as for Florida 
and the southeast region.
    There are close to 100 recognized scientists, researchers, and 
educators at the Rosenstiel School who collaborate closely with other 
Florida institutions and whose distinct expertise is vital in 
addressing critical national, regional, and Florida natural, 
environmental, and climatic challenges.
    First, Mr. Chairman, I salute your and the Committee your 
continuing leadership and commitment to programs especially helpful to 
Florida. Everyone in Florida applauds your continuing interest and 
support for the South Florida ecosystem project, for NOAA's investment 
in ocean observation and coastal zone monitoring, and for NOAA's 
improved forecast capability for severe storm and hurricane landfall. 
Respectively, these projects seem to be leading to a new understanding 
of the Everglades-Florida Bay relationship and health, improving the 
health and safety of Florida's coastal communities, and improving 
NOAA's general forecasting capability.
    We respectfully seek $5 million through NOAA for instrumentation 
and equipment costs to develop a state-of-the-art molecular biology 
laboratory ($1.5 million); a computer-based modeling and visualization 
center ($1 million); a flowing sea water source and disposal system ($1 
million); and finally public access, interactive and educational 
facilities and displays ($1.5 million).
    The Center for Sustainable Fisheries will focus on improving 
assessment tools for traditional fisheries data; developing innovative 
approaches for assessment and management; developing habitats to study 
life cycles and histories of selected species, improving population 
dynamic models; and linking science and management with policy 
implications. The Center for Sustainable Fisheries will house strong 
multi-disciplinary teams working on these five major areas of 
investigation, utilizing flowing sea water facilities, high technology 
laboratories, and public educational/interactive areas. The 
construction costs for the facility will be provided through a private-
pubic partnership, private gifts, support from the University of Miami, 
and other interests.
        the healthcare and elder law policy center (help center)
    The HELP Center is a project dedicated to the development of 
interdisciplinary collaboration in the area of elder healthcare law and 
policy. The Center will provide training and research through the 
Schools of Medicine, Law, Business, and Nursing in healthcare law, 
policy-making and planning for the elderly. The mission of education 
will expand to the Florida healthcare, legal, education, civic and 
business communities. The significant rise in reported incidences of 
elder abuse is a major rationale for this effort. For fiscal year 2002, 
we seek $1 million through the Department of Justice National Institute 
of Justice and/or the Bureau of Justice Assistance.
    The unique demographics of Florida and the special diversity of the 
south Florida populations make the University of Miami a strategically 
important locale for this activity and the HELP Center will serve as a 
national resource. The partnership between the Medical and Law schools 
will be unique and afford significant opportunities for 
interdisciplinary educational research, university and community 
service, and attract unique fundraising opportunities through 
foundations, grants and giving. Placing the University as an expert 
resource at the crossroads of what are emerging as complex healthcare, 
legal, and social issues for a significant number and growing 
percentage of the population should enhance media coverage of legal and 
health issues and enlarge external outreach to the private and public 
sectors. The HELP Center will serve as the conduit to develop faculty, 
administrative, student, and community collaboration and will be a 
place to build university-wide interdisciplinary programs of great 
import.
    The Center will be devoted to five specific missions:
    Education.--The Center will provide undergraduate and graduate 
curricula (medical, law, and postgraduate MD/JD training), continuing 
education symposia (CME, CLE, CEU) and training for the bench, law 
enforcement and other agencies that provide services to the elderly and 
their families.
    Interdisciplinary Ventures.--The Center will be dedicated to the 
development of interdisciplinary programs beyond the core Medical and 
Law Schools. Currently, program development includes three Departments 
within the School of Medicine, (Psychiatry, Medicine and Family 
Medicine) and the UM Center for Adult Development and Aging (CADA). 
Partnerships with other Centers (Center for Women and Children and the 
Center for Family Studies) and Schools (Nursing, Business) and 
departments in the College of Arts and Sciences (Social Sciences, 
Political Science, Psychology) will be sought. Additionally, the Center 
will to develop liaisons with community and national organizations 
(business, civic, education, and legal, allied health professionals) 
who serve the elderly.
    Research.--The Center will develop and implement funded projects 
that address specific issues of importance for the aging population. 
Target research agenda will include: abuse and neglect of the elderly 
(development of criteria for assessment and prosecution; management 
models for unique care requirements of elderly victims prevention and 
treatment for perpetrators); role of families and caregivers of the 
elderly (cultural diversity and needs assessments, funding and models 
of care); end-of-life care (advance care planning and palliative care 
outcomes and financing); mental capacity (decisionmaking assessment and 
guardianship process; and research ethics (protection of vulnerable 
research subjects). Information generated from the research will be 
documented through national scientific and professional media to the 
public as well as employed in the development of new programs of action 
which are evidence based for maximal success.
    Expert Practice.--The Center will develop a group of experts who 
will serve in collaboration with other University, Medical and Law 
school groups for interdisciplinary teaching and service. The Center's 
faculty will also serve as expert witnesses, and assist in Pro Bono 
work the Law School and Medical, School students provide. Additionally, 
the Center will provide workshops for the public and train appropriate 
groups in self-help advocacy and serve as a referral source (advance 
care planning, last will and testament, health care and other public 
benefit program eligibility applications and appeals protocols).
    National/International Symposia.--The Center will sponsor national 
symposia to address interdisciplinary issues pertaining to the elderly, 
among them on the medical-legal issues of elder abuse and neglect. The 
intent of such symposia is to bring together leaders and diverse 
stakeholders in this area (health care providers, law enforcement, 
judiciary, legislative and policy makers, public groups) who will 
represent their particular concerns and work to develop a consensus 
white paper(s) to begin to address collective solutions.
                the dante b. fascell north-south center
    Finally, we seek your continued support for the Dante B. Fascell 
North-South Center. As you know, the Center has long enjoyed bicameral 
and bipartisan support and in fiscal year 2002 as in past years, from 
the Administration. The Fascell Center's mission is to promote better 
relations and to serve as a catalyst for change among the United 
States, Canada, and the nations of Latin America and the Caribbean. My 
colleagues there conduct programs of research, public outreach, 
education, training, and cooperative study. It publishes and 
disseminates policy-relevant information on the Americas. The programs 
and activities also foster linkages among academic and research 
institutions, NGOs, governmental institutions both civilian and 
military, and philanthropic and private sectors throughout the 
Americas.
    The Center was authorized originally under the ``Center for 
Cultural and Technical Exchange Between North and South Act of 1990.'' 
(Public Law 101-513.) Its mission, as prescribed in the Act, is ``to 
promote better relations between the United States and the nations of 
Latin America and the Caribbean and Canada.'' The Center conducts 
programs of research, public outreach, education, training, and 
cooperative study. It publishes and disseminates policy-relevant 
information on the Americas. Acting as a catalyst for change, the 
Center also fosters linkages among academic and research institutions, 
NGOs, governmental institutions both civilian and military, and 
philanthropic and private sectors throughout the Americas.
    The only institution of its kind in the nation, the Center's 
mission makes it a valuable asset to our national interest. Informed 
and balanced analysis and improved understanding of our neighbors in 
the Western Hemisphere provide us great opportunities to enhance our 
economy, expand our jobs, and learn of risks before they reach 
threatening proportions. Throughout 2000, the Center worked extensively 
with the U.S. Department of State and other government agencies, the 
World Bank, the Organization of American States, private business 
corporations, academic and research institutions, and Latin American 
and Caribbean governments in a series of projects, both new and 
ongoing, aimed at:
  --Creating information technology opportunities in developing areas.
  --Bringing marginalized communities, including women, into the global 
        marketplace.
  --Training entrepreneurs and educating businesses and policy makers 
        in Latin America and the Caribbean on the challenges and 
        opportunities of globalization.
  --Contributing to the study and debate on economic integration in the 
        Americas through a Free Trade Area of the Americas (FTAA).
  --Continuing studies concerning weaknesses in political 
        representation, failures in the rule of law, and unresolved 
        issues in civil-military relations.
  --Collaboration with civil, governmental and academic entities in the 
        areas of environmental security and environmental protection in 
        the Americas.
  --Studies and collaborative efforts aimed at enhancing the role of 
        civil society.
  --Seminars on fiscal and management reform for senior federal and 
        state-level officials, to improve efficiency, root out 
        corruption and improve measurable results.
    The Center has developed new working partnerships with the Wharton 
School of Business of the University of Pennsylvania, the Croft 
Institute at the University of Mississippi, the Instituto Tecnologico 
de Monterrey (Mexico), and the Universidade Estacio de Sa (Brazil) and 
has strengthened existing relationships with the University of the West 
Indies and the American Assembly of Columbia University. The Center is 
the primary partner in Florida for the Council on Foreign Relations. 
The Center will continue its series of Roundtables in Washington, which 
provide a forum for frank discussion of emerging and high-priority 
policy issues among private sector and NGO representatives, United 
States and foreign government officials, and Congressional staff 
members.
    Following the 2000 election, the Center issued a public memorandum 
to the president-elect, with bipartisan and academic authorship, which 
articulated a forward-looking, coherent Western Hemisphere policy 
agenda. It has been widely read at the State Department and by some of 
the incoming senior officials of the Bush Administration.
    The Center has worked with the U.S. Army War College this year to 
organize a major conference and a subsequent research initiative on 
Colombia and the solutions available to U.S. policy for the most 
serious security dilemma in the Western Hemisphere. The Colombian 
crisis, involving drug trafficking, insurgency and political 
instability threatens the region and U.S. interest.
    The Center is poised once again to play an important role in the 
forthcoming Summit of the Americas III in Quebec City in April 2001. In 
January, the Leadership Council for Inter-American Summitry, organized 
by the Center and consisting of notables from around the Hemisphere, 
met in Miami to draft a report offering recommendations to the heads of 
state who will meet in Quebec. That meeting will be President Bush's 
first multilateral engagement.
    In the last year, the Center has received over $700,000 in program 
support grants from federal agencies, international organizations and 
private donors. These include the John D. and Catherine T. MacArthur 
Foundation, the Tinker Foundation, the Organization of American States, 
the U.S. Agency for International Development, the World Bank, the 
governments of Japan and the Dominican Republic, the DCI Environmental 
Center, Microsoft, AT&T, VISA International, and Heineken. The core 
funding from the Congress has enabled the Center to attract such 
support from private sources.
    Mr. Chairman, by performing its Congressionally mandated mission, 
the Dante B. Fascell North-South Center contributes to our capacity to 
understand and surmount these challenges. At the same time, by 
identifying further opportunities for economic growth and democratic 
deepening, the Center serves as a multiplier for advancing U.S. 
interests in the Western Hemisphere and an inter-American resource for 
dealing with issues of crucial importance to U.S. citizens. For fiscal 
year 2002, we seek $2 million in continuation funding.
    Mr. Chairman, we recognize that this will be another difficult 
year. However, we hope that you and your colleagues on the Subcommittee 
will find it possible to support these three important initiatives that 
deal with issues of crucial national importance. The results of the 
work at the Center for Sustainable Fisheries will make important 
contributions to the national effort to improving our understanding of 
wild fish populations and to developing a sound basis for fisheries 
management. Similarly, our proposal for the Healthcare and Elder Law 
Policy (HELP) Center will address the most critical needs of the 
elderly, and the Dante B. Fascell North-South Center will continue the 
vital international work you have supported through the years.
    Thank you for considering these requests.
                                 ______
                                 

   Prepared Statement of the Alachua County, Florida Board of County 
                             Commissioners

    Thank you for allowing the Alachua County Board of County 
Commissioners to submit this written testimony before your Subcommittee 
regarding two critical projects. They are the Partners for a Productive 
Community Enhancement Initiative, and the Comprehensive Management of 
Drug Involved Offenders Initiative.
   partners for a productive community enhancement initiative ($2.3 
                     million in funding requested)
    In response to a spiraling crime rate in southwest Alachua County, 
the Alachua County Sheriff's Office requested help from the Board of 
County Commissioners in 1993. Specifically, the Sheriff reported that 
57 percent of its 911 calls came from an area that had only 3.2 percent 
of the County's population.
    The County Commission responded by providing $38,000 in funding for 
a Program Manager to staff the Partners for a Productive Community 
(PPC) Program in fiscal year 1994. The PPC was launched as a strategic 
planning effort with three goals: the establishment of neighborhood-
based services, the development of public/private partnerships and a 
focus on crime prevention. This Program has enjoyed great success due 
to the coordinated efforts of the Sheriff's Office, the Courts and the 
Alachua County Department of Community Support Services. Furthermore, 
since the inception of this Program, the County has budgeted over $1.6 
million to support the Program through the Community Support Services 
Department and Sheriff's Office. Additionally, over $2.4 million has 
been leverage from other county departments, local social service 
providers and the Sheriff's Office through a local law enforcement 
grant.
    The goal of the Sheriff's Office was to reduce the number of calls 
from the area, and to develop a relationship of trust with the area's 
residents. The goal of the Courts was to help with the swift 
prosecution of cases, and to increase personnel in key areas. Finally, 
the goal of the County's Department of Community Support Services was 
to develop and implement a neighborhood needs assessment, and to 
determine the social service needs in accordance with the results of 
the assessment. The Community Support Services Department was also 
responsible for developing public/private community partnerships, and 
community based organizations comprised of tenants, property owners and 
managers. Thus, this project represents a multi-agency strategy to 
stabilize, revitalize and sustain five specific neighborhoods of 
Alachua County.
    In addition to improving the area's basic infrastructure, federal 
funding is also being requested to provide community recreational 
programs for the area's youth. These activities will provide positive 
alternatives to crime, and allow youth to participate first hand in 
community improvement programs. In doing so, these programs will build 
and encourage positive self-esteem, leadership skills and academic 
achievement. To complement these programs, additional improvements will 
be made in the community Safe Havens. Finally, the requested funding 
will also allow the PPC to expand this successful demonstration program 
into other at risk Alachua County communities such as Archer, Florida. 
Specifically, the PPC will develop a partnership strategy to address 
the unmet needs of health care, education, training, employment, youth 
recreation and transportation for the residents of Archer.
    This request for federal funding is justified by the tremendous 
improvements and accomplishments that have been made in these 
neighborhoods since 1995. These achievements include: free community 
day care for 75 children, 30 community day care slots, 24 in-home day 
care slots, the creation of 30 new jobs by the Early Progress Center, 
the reduction in 911 calls from 57 percent to 14 percent of total calls 
in the area, and substantial increases in the property values for four 
of the five neighborhoods.
    Furthermore, the implementation of seasonal recreation programs in 
the targeted communities by the Y.M.C.A. has been instrumental in 
providing positive, character building activities for children, 
teenagers and adults. Day camps are provided during the summer months, 
and back-yard sports are provided at the end of the school day during 
the school year. In addition, two 4-H Clubs serving 60 neighborhood 
children were established along with after school and community teen 
programs. Adult literacy and GED classes were made available at a 
nearby school campus. Finally, other programs have been established for 
the purpose of creating a sustainable neighborhood. These programs 
include quarterly informational forums concerning small business 
development, educational opportunities, self-help seminars, budget 
management and landlord/tenant issues.
    With respect to community-wide improvement programs, a total of 
nine neighborhood cleanups were completed this year. With the active 
involvement of the residents of the neighborhoods, the Alachua County 
Office of Codes Enforcement has been able to reduce from twenty to two 
the number of abandoned and vandalized buildings. Furthermore, a new 
Waste Collection Ordinance which was supported by the PPC permits the 
efficient and timely citation of violators.
    The sustaining factor within this Program is the formally organized 
Partners for a Productive Community Council. The Council is the guiding 
force that deals with issues and determines unmet needs. For example, a 
block captain organization was started this year with the assistance of 
the PPC Council, and the Alachua County Sheriff's Office. This group 
monitors and manages crime prevention programs block by block.
    In recognition of the numerous accomplishments described above, the 
PPC received the National Association of Counties' Achievement Award in 
1996 for distinguished and innovative contributions to improving county 
government. Additionally, the League of Women Voters presented the 
County with a similar award for outstanding community service.
    Furthermore, in December 1999 Alachua County received Official 
Recognition from the Executive Office of Weed and Seed for two of the 
neighborhoods being served by the Partners for a Productive Community 
Program. Pursuant to this recognition, these communities have been 
awarded a $175,000 Weed and Seed Grant for prevention and intervention 
strategies focusing on Cedar Ridge and Linton Oaks neighborhoods. This 
grant will further strengthen the long-term efforts to improve the 
quality of life in these neighborhoods.
    As noted above, the federal funding requested will also be used to 
expand the successful Partners Initiative into the rural community of 
Archer, which is located in the southwestern portion of Alachua County. 
Archer and the rural areas surrounding it have a population of 6,348, 
of which 16 percent fall below the poverty level. While the City of 
Archer has one elementary school, emergency rescue, fire and police 
services are contracted from Gainesville/Alachua County. There are also 
two public housing communities, and a small obsolete community center 
which is used as a congregate meal site for senior citizens. 
Consequently, many of Archer's residents travel to Gainesville for 
employment, social services, recreational activities, adult and 
continuing education and health care.
    Recently, the University of Florida, School of Nursing received 
$200,000 from the Florida Legislature to provide primary health care 
through a clinic based in Archer. Presently, this clinic is on the 
State Department of Health's list to be eliminated due to the limited 
area that it serves. Should this occur, there will be a need for 
additional funds to meet the health care needs in this area. Thus, a 
portion of the federal funding in this request could be channeled 
through the Alachua County Health Department in our continuing effort 
to develop partnerships, maximize resources and expand services to the 
citizens of Alachua County through our rural service initiative.
    Employment opportunities, recreation for teens and outreach social 
services continue to be a challenge for the community of Archer. 
According to the Alachua County Sheriff's Office, Archer's crime rate 
is disproportionately high for a community its size. In 2000, the 
Alachua County Sheriff's Office received 2,657 calls for service. Of 
the dispatched calls, 30 were assaults and batteries, and 5 were for 
sexual battery. The largest number of dispatched calls (869) concerned 
burglary and theft.
    In conclusion, Alachua County is requesting $2.3 million in federal 
funding to continue its highly successful and award winning 
neighborhood revitalization programs; and to expand these successful 
model programs to other neighborhoods, including the City of Archer, 
Florida.
 comprehensive management of drug involved offenders initiative ($2.7 
                     million in funding requested)
    Prior to building additional jail space at great expense to the 
taxpayers of Alachua County, the County would like to fully explore all 
possible alternatives and programs. A one month ``snapshot'' of 
individuals arrested in 1998 dramatically showed that 36 percent of the 
231 felony defendants who were not released at first appearance were in 
custody for drug related charges. Most often, these offenders do not 
receive treatment, serve three to six months in jail, and are released 
only to be rearrested for new drug related offenses, becoming 
``frequent flyers'' through a revolving jail door.
    A comprehensive plan to manage substance-involved offenders is an 
innovative approach that could prove to be an effective keystone to 
alleviate jail overcrowding by reducing recidivism rates and the 
incidence of drug-related crime. Professionals estimate that 50 percent 
to 80 percent of offenders have substance abuse problems. In Alachua 
County, the population of repeat offenders charged with drug 
possession, sales of small amounts of drugs, or property crimes that 
support addiction contributes significantly to the jail population. In 
fiscal year 1999, 407 individuals were sentenced to drug offender 
probation supervised by the Florida Department of Corrections. Because 
adequate treatment resources are not available, more than 50 percent of 
these individuals are expected to fail on probation, with subsequent 
incarceration in the Alachua County Jail.
    Over the past four years, Alachua County has expended an average of 
$2.9 million each year on alternatives to jail. Almost $1.7 million of 
this $11.6 million total has been invested in substance abuse treatment 
programs for offenders. In fiscal year 2002, the annual investment in 
alternatives will increase to more than $3.7 million, with 
approximately $700,000 earmarked for substance abuse treatment 
programs.
    While considerable resources have been expended on alternatives, 
current treatment resources are inadequate to meet the needs of 
addicted offenders. Additionally, funds are not available to conduct 
the research required to establish the validity of this paradigm as a 
model approach. This demonstration project includes a cost-benefit 
analysis which compares the long-term benefit of a comprehensive 
treatment model versus an incarceration/incapacitation model. Other 
benefits of this demonstration project are discussed below.
    Alachua County is a medium-sized community of 210,000 residents, 
containing both rural and urban areas similar to many other communities 
across the country. The University of Florida is located in the 
community and has served as a partner in evaluating the success of 
other programs. The impact for the entire region is considerable since 
the County serves as the regional center for much of north Florida's 
medical care and criminal justice services.
    Alachua County has many advantages which make it an ideal site for 
this demonstration program. The County has long served as a model and a 
resource for criminal justice alternative programs in the State of 
Florida. Many Florida pretrial release and alternative sentencing 
program officials consulted with Alachua County's Court Services 
Department as they developed similar services for their counties. The 
Alachua County Drug Court was one of the first 25 Drug Courts in the 
nation and has also served as a model for other Florida Drug Courts. 
Court Services Department staff are active in statewide organizations 
that provide a network to exchange information and share innovations. 
Alachua County was also recognized as a leader by the Florida State 
Legislature's Advisory Council on Intergovernmental Affairs in its 1993 
report, Intergovernmental Relations in Local Jail Finance and 
Management in Florida--A Comprehensive Report. Further, the community 
linkages in Alachua County and the array of programs provided under one 
umbrella in the Alachua County Court Services Department provide a 
unique opportunity to demonstrate the impact of a comprehensive effort.
    Alachua County has supported innovative alternative methods of 
managing offenders for more than 25 years. Alachua County funds the 
Court Services Department which comprises a comprehensive array of 
alternatives including: pretrial services, county probation, community 
service, day reporting, drug court, a work release facility and a 
residential treatment program for drug addicts.
    In fiscal year 2000, these programs completed 8,028 pre-trial 
release investigations, monitored 969 defendants on pretrial release, 
supervised 1,020 probationers and coordinated more than 4,400 cases 
where community service work was required by the Court. This year, in 
addition to the above services, the Drug Court Program will treat and 
monitor up to 120 addicted offenders per day and the Work Release 
Program will house 60 sentenced or pretrial residents per day. 
Metamorphosis, the County's residential treatment program, will serve 
17 addicted clients each day in a therapeutic community with referrals 
coming from both the community and the criminal justice system. The 
County's newest program, Day Reporting, will offer each day intensive 
supervision and a variety of rehabilitative services for up to 60 
multi-problem pretrial defendants and sentenced offenders.
    A coordinated continuum of services targeting substance abusing 
offenders across the criminal justice spectrum would further reduce the 
incidence of drug-related crime throughout the County and allow costly, 
high-security jail beds to be reserved for dangerous and high-risk 
offenders.
    The program will include continuing judicial supervision of 
nonviolent offenders with substance abuse problems and administration 
of sanctions and services including: (1) mandatory drug testing during 
any period of supervised release or probation; (2) substance abuse 
treatment; (3) probation or supervised release which could include 
prosecution, confinement or incarceration for noncompliance with the 
program's requirements; and (4) offender management and aftercare 
services to prevent relapses, such as vocational job training, job 
placement and housing placement.
    The County has an existing array of programs which would serve as 
the framework of a comprehensive system. There is strong support for 
alternative programs within the judiciary and from other local criminal 
justice officials. The County also has a long-standing history of 
cooperation among agencies. The expected benefits are national, and 
could hopefully be replicated at reasonable cost.
               concluding comments for written testimony
    The two initiatives described above represent well-conceived 
programs that address the social, physical and economic needs of the 
citizens of Alachua County. Furthermore, these programs demonstrate the 
County's continuing commitment to projects and initiatives that 
emphasize a balance between environmental protection, economic 
development and social equity for all of the residents of the County. 
Therefore, we hope that the Subcommittee will find these two critically 
important projects worthy of your support. Thank you for your 
consideration.
                                 ______
                                 

        Prepared Statement of the Center for Marine Conservation

    The Center for Marine Conservation (CMC) is pleased to share its 
views regarding the programs in the Department of State's and the 
National Oceanic and Atmospheric Administration's (NOAA) budget that 
affect marine resources, and requests that this statement be included 
in the hearing record for the fiscal year 2002 Commerce, Justice, 
State, and the Judiciary appropriations bill.
    Through science-based advocacy, research, and public education, CMC 
informs, inspires, and empowers people to protect ocean ecosystems and 
conserve the global abundance and diversity of marine wildlife. CMC is 
the largest and oldest nonprofit conservation organization dedicated 
solely to protecting the marine environment. Headquartered in 
Washington DC, CMC has regional offices in Alaska, California, Florida, 
and Maine.
    We greatly appreciate the funding this Committee has provided for 
marine conservation over the last several years. We are particularly 
grateful for last year's significant increases for ocean and coastal 
resource protection.
                          department of state
    Implementation of the Inter-American Convention for the Protection 
of Sea Turtles (IAC).--The IAC is the first international treaty 
dedicated to sea turtle protection and was ratified by the United 
States on October 10, 2000. The treaty has also been signed by Brazil, 
Costa Rica, Ecuador, Honduras, Mexico, the Netherlands and goes into 
effect on May 2, 2001. CMC respectfully request $100,000 (within the 
International Fisheries Commission program account) in fiscal year 2002 
for the State Department to assist in the establishment of an 
independent Secretariat and in hosting the first meeting, thereby 
preserving the leadership of the United States on this treaty.
            national oceanic and atmospheric administration
    Commission on Ocean Policy.--The Oceans Act of 2000 was passed 
unanimously by both chambers of Congress and became Public Law 106-256 
on August 7, 2000. The act establishes a 16 member Commission on Ocean 
Policy to assess and make recommendations for a national ocean policy 
to Congress and the Administration. With the many threats facing our 
oceans, such as overfishing, pollution, and the loss of habitat, CMC 
respectfully requests $1.5 million in fiscal year 2002 so that this 
commission will have the resources necessary to help shape future ocean 
policy.
    Coral Reef Activities.--CMC thanks the Committee for its support of 
$27 million for coral reef conservation in fiscal year 2001 and 
respectfully requests that the committee support the Administration's 
$27.7 million request in fiscal year 2002. This funding will allow NOAA 
to continue implementing the priorities of the U.S. Coral Reef Task 
Force, a successful cross-cutting interagency partnership, and to work 
with state, territorial, and local partners to conduct important coral 
reef research and monitoring.
                         national ocean service
    National Marine Sanctuary Program.--We respectfully request the 
Committee to provide the $52 million requested by the Administration, 
($36 million for operations, $16 for construction) for this important 
program. Often referred to as America's ``ocean parks'', the 13 
sanctuaries around the country encompass almost 18,000 square miles of 
the nation's most significant marine resources. This funding is 
critical to provide: core staffing for individual sanctuaries, visitor 
and interpretive facilities for public education and enjoyment, basic 
conservation, research, and education programs, and review and updating 
of sanctuary management plans as required by law.
    Marine Protected Areas Centers.--We respectfully request $5 million 
in fiscal year 2002 for marine protected areas (MPAs), $2 million above 
the Administration's request. This will allow NOAA to work with federal 
and state agencies as well as other partners to assess how to best use 
marine protected areas to better manage the nation's valuable marine 
resources (e.g., fish), provide recreational opportunities, and protect 
marine habitats and biodiversity. This funding would be used to 
complete the first ever comprehensive inventory of the nation's MPAs 
and to support critically needed new research on how to design and 
implement more effective MPAs.
    Nonpoint Source Pollution.--Nonpoint source pollution, or polluted 
runoff, is the nation's largest source of water pollution. Last year 
there were over 6,000 beach closings and advisories at U.S. beaches, 
six million square acres of shellfish beds were closed or restricted, 
and a 7,000 square mile ``Dead Zone'' formed in the Gulf of Mexico. We 
applaud the Committee for providing $10 million in fiscal year 2001 to 
help states implement approved portions of their Coastal Nonpoint 
Pollution Control Programs. We respectfully request $31 million in 
fiscal year 2002, $6 million for coastal states and territories to 
complete their programs and an additional $25 million for states and 
territories with approved or ``conditionally approved'' programs to 
begin implementation. This represents a $21 million increase above the 
President's request.
                   national marine fisheries service
    Atlantic Coast Cooperative Statistics Program.--CMC strongly 
supports the Atlantic Coast Cooperative Statistics Program and greatly 
appreciates the committee's support of $1.5 million in fiscal year 
2001. Created in 1995, this cooperative state and federal fisheries 
data collection program coordinates marine fisheries statistics. This 
program is unique in that it encompasses all marine fisheries sectors 
on the Atlantic Coast including recreational anglers, charter and 
headboat operators, commercial fishermen and seafood processors/
dealers. We respectfully request $2.5 million in fiscal year 2002, $1 
million above the Administration's request, so that this program can be 
expanded and fully implemented along the East Coast, thereby helping to 
ensure that data collection methods are more consistent and reliable.
    Observers.--Reliable, objective information about how many fish are 
being caught, directly and as bycatch, is crucial to responsible 
management of our fish populations. Observers are a key means of 
collecting such information, yet current observer coverage is sorely 
lacking, and should be dramatically increased. CMC respectfully 
requests $25 million for a National Observer Program in fiscal year 
2002, $12.4 million above the Administration's request, and includes an 
additional $5 million to expand the West Coast Observer program. This 
increase would give managers a better sense of exactly how much fish is 
caught, directly and as bycatch, thereby improving management of our 
fish populations.
    South Florida Ecosystem Restoration.--The South Florida Ecosystem 
Restoration is an integrated effort among federal, state, tribal and 
non-governmental partners to halt the degradation of the South Florida 
Ecosystem and the Everglades. CMC respectfully requests that the 
Committee fully fund NOAA's portion of this vital initiative in fiscal 
year 2002, including $1.9 million requested in NMFS's budget for 
critical fisheries research and monitoring activities.
    Stock Assessments.--The status of more than 70 percent of the 
species managed under the Magnuson-Stevens Act is unknown due in large 
part to lack of funding for basic research and stock assessment. It is 
essential that we develop a better understanding of the status of our 
fish populations. The National Marine Fisheries Service, even with the 
President's requested increase of $13.3 million, would still have a 
deficit of 1,700 research days at sea to fulfill their stock assessment 
duties. CMC respectfully requests a $26.6 million increase above fiscal 
year 2001 for stock assessments, including the $1.0 million for marine 
mammal studies requested by the Administration. An additional $3.0 
million is needed in fiscal year 2002 to continue shipboard surveys in 
the Eastern Tropical Pacific tuna-dolphin fishery.
    Essential Fish Habitat.--Protecting essential fish habitat is key 
to ensuring healthy fish populations in the future. Given the need to 
better understand the impacts of fishing and other activities on these 
habitats, and the need to more fully comply with the Sustainable 
Fisheries Act requirement to minimize impacts to those habitats, we 
believe that increased funding above the President's request of $2.5 
million is crucial. In particular, additional monies are needed to 
analyze and minimize the impacts of fishing activities on these areas. 
Adequate funding for essential fish habitat is one of CMC's highest 
funding priorities for NMFS. We respectfully request that the committee 
appropriate $12.5 million to this effort in fiscal year 2002.
    Enforcement and Surveillance.--Enforcement of our fishery 
management laws has been woefully under funded for years. According to 
NMFS, there are currently approximately 150 enforcement agents, each 
responsible for nearly 1200 miles of coastline and 29,000 square miles 
of our Exclusive Economic Zone. CMC respectfully requests a base of 
$46.9 million, an additional $7 million above the Administration's 
request in fiscal year 2002, to hire more officers to address this 
chronic shortfall. These funds would also allow for strengthening of 
alternative enforcement programs and enhancement of state and local 
partnerships.
    In addition, CMC respectfully request an additional $12.4 million, 
$5 million above the Administration's request, for expanding the Vessel 
Monitoring System (VMS) program in fiscal year 2002. VMS is a 
satellite-based fishery enforcement system which has the ability to 
provide real time catch reporting throughout a number of different 
fisheries. This increase would allow for establishment and 
implementation of VMS systems as well as the placing of VMS 
transponders on a vast majority of the estimated 10,000 boats in the 
U.S. commercial fishing fleet. VMS programs enhance data collection and 
safety at sea. They also can be beneficial to fisherman by allowing 
them to fish right up until a quota is reached. Finally, with VMS 
systems, officials can tell when a fishing vessel is fishing in closed 
areas, or is fishing beyond the end of a regulated fishing season.
    Regional Fishery Management Councils.--CMC recommends $17.6 million 
in fiscal year 2002 for regional fishery management councils, $2 
million above the Administration's request. This $2 million increase is 
necessary to help the councils carry out their responsibilities under 
the Magnuson-Stevens Act, including holding council advisory meetings, 
some of which have recently been canceled due to lack of funding.
    Resource Information.--Hawaiian monk seals are the most endangered 
pinnipeds in the United States. We must commit the necessary funds to 
ensure that projects such as health assessments, marine debris 
assessments and removals, and habitat and foraging studies go forward. 
We respectfully request that the committee fund this line item at $1.5 
million in fiscal year 2002.
    Endangered Species Act Recovery Plans.--Right whale--With only 300 
North Atlantic Right Whales remaining, and the species' continued 
existence threatened by entanglement in fishing gear and collisions 
with vessels, additional funds are needed to continue research to 
improve our understanding of right whales and for the development of 
improved fishing technologies to reduce entanglements. We thank the 
committee for providing $5 million in fiscal year 2001 and urge the 
committee to support the Administration's request of $7 million in 
fiscal year 2002 for Right Whales.
    Pacific Highly Migratory Species.--We support the Administration's 
request of $1 million for stock assessments and biological studies for 
Pacific highly migratory species, including sharks. In addition, we 
respectfully request adequate funding for collaborative multi-regional 
biological research for effective management of highly migratory fish, 
including vulnerable sharks. This effort should include the Center for 
Shark Research, universities, state agencies, and other qualified 
nonprofit organizations.
    Marine Mammal Protection Act.--The President's request for $8.125 
million for Marine Mammal Protection Act (MMPA) implementation is 
woefully inadequate. Lack of funding has been one of the primary 
reasons for NMFS's failure to effectively implement the MMPA. We 
respectfully request an appropriation of $38 million in fiscal year 
2002, the amount authorized under the MMPA. This increase is necessary 
to design and implement effective fishery management plans that will 
not endanger marine mammals, conduct more and better research on 
population trends, demographics, health and genetic distinctness, and 
to carry out education and enforcement programs. These funds would also 
allow for increased observer coverage and the co-operative development 
of strategies to reduce entanglements resulting from active or derelict 
fishing gear and other forms of marine debris. It would also allow 
health assessment and research into the causes of strandings and die-
offs as well as identification of mitigation measures to prevent such 
deaths in the future.
    Marine Mammal Commission.--CMC respectfully requests that the 
Committee to support the Marine Mammal Commission at its authorized 
level of $1.75 million in fiscal year 2002.
Oceanic and Atmospheric Research
    Ocean Exploration.--CMC appreciates this committee's support of $4 
million in fiscal year 2001 for Ocean Exploration and respectfully 
requests $25 million in fiscal year 2002. This $11 million increase 
above the President's request would allow the United States to begin 
implementing the first comprehensive strategy to explore the oceans, as 
recommended by U.S. panel on Ocean Exploration, and to improve outreach 
and education activities.
    Thank you for your consideration of these programs that are of the 
utmost importance to the stewardship of the nation's living marine 
resources. We greatly appreciate your support for these programs in the 
past and look forward to continued, responsible funding for these 
programs in fiscal year 2002.
                                 ______
                                 

         Prepared Statement of the City of Miami Beach, Florida

    On behalf of the City of Miami Beach, Florida, I appreciate the 
opportunity to submit this written testimony to you on an extremely 
important economic development initiative, the rehabilitation of a 
large downtown theater to serve as a cultural and community center. The 
City is seeking $5 million in fiscal year 2002 appropriations for the 
acquisition and restoration of the Byron Carlyle Theater through the 
Department of Commerce, Economic Development Administration.
                   byron carlyle theater restoration
    The City of Miami Beach wishes to pursue direct funding for the 
acquisition and redevelopment of the Byron Carlyle Theater. The 
Facility will serve as a venue for cultural and non-profit 
institutions, functionally interacting with the North Shore Youth 
Center. The two primary objectives of this facility are: (1) to use 
cultural institutions as a catalyst for the revitalization of the North 
Beach area, and (2), to provide a facility that can house those 
organizations that are being priced out the their current locations. 
The City is seeking $5 million towards this project.
    The Byron Carlyle Theater is a 7-screen movie theater that is 
located in the central business district of Miami Beach's North Beach 
area of. The theater was closed by Regal Cinemas in 1999, and has been 
vacant ever since, creating a void in what once was a thriving downtown 
neighborhood. The City of Miami Beach has begun the implementation of a 
strategic plan for the revitalization of the North Beach area, which 
includes approximately $124 million in capital improvement projects 
that will be implemented during the next 6 years. The redevelopment of 
vacant buildings such as the theater is crucial to the economic and 
business development components of the North Beach Strategic Plan. 
However, due to the unique layout and structural nature of older movie 
theaters such as the Byron Carlyle Theater, redevelopment options are 
limited and expensive.
    There are two reasons that Miami Beach needs the Byron Carlyle 
Theater as a multi-purpose cultural facility. First, the redevelopment 
of this theater is an integral component of the Strategic Plan for the 
economic revitalization of the North Beach area of Miami Beach. While 
other areas of Miami Beach have enjoyed tremendous economic success 
over the last 10 years, the North Beach area has lagged in its growth 
and continues to evidence a concentration of low income households and 
a lack of private sector investment. The emergence of cultural 
institutions during the beginnings of the economic revitalization of 
South Beach's Art Deco District directly contributed to the area's 
continued success. Secondly, the success that cultural organizations 
helped create in South Beach is also a reason for the creation of a 
cultural facility in North Beach. As South Beach boomed, local cultural 
institutions became self sufficient and successful, area market trends 
began to improve and property values appreciated significantly. In 
1993, the primary cultural area in South Beach was on Lincoln Road, 
where rental rates averaged $12 per square foot. In 2000, rental rates 
reached $75 per square foot, and many small businesses and cultural 
organizations were forced to either relocate or dissolve. Additionally, 
many cultural organizations currently housed in City-owned facilities 
will soon have to relocate as the City expands to meet the ever-
increasing service levels expected by the citizens. A central facility 
that accomplishes both goals is critical to the economic revitalization 
of the North Beach neighborhoods.
    The Acquisition and Renovation of the Byron Carlyle will also help 
develop the entire City of Miami Beach into a world-renowned center for 
the creation and consumption of culture. Miami Beach is home to many 
internationally acclaimed cultural organizations, such as the New World 
Symphony, the Miami City Ballet, and the Bass Museum. These 
organizations, however, are located in a small concentrated area of 
South Beach. The City also has over 75 smaller cultural groups that are 
the true cultural heart of Miami Beach. Organizations such as the 
Concert Association of Florida, Ballet Flamenco La Rosa, and the 
Performing Arts Network continue to struggle for their economic 
survival. The ability to provide a facility that allows these groups to 
remain in Miami Beach will provide a venue where many emerging and 
small organizations can continue to grow and prosper and at the same 
time provide a catalytic cultural component to the revitalization 
effort in North Beach.
    In 1999, in an economic impact report to the City of Miami Beach's 
Mayor's Economic Council, Florida International University identified 
that investment in the cultural arts has the highest economic output 
multiplier of all local industries. The challenge for cities such as 
Miami Beach, however, is, providing the level of Cultural Arts 
investment that is required to generate this ``biggest bang for the 
buck.''
    The City of Miami Beach estimates that the cost to acquire and 
rehabilitate the Byron Carlyle is $7.2 million. The City currently has 
approximately $2.2 million for this project, which will include the 
$1.7 million purchase price. The City has also identified funding 
sources that will be committed to the annual operation of the facility 
once it opens. The City of Miami Beach is requesting $5 million in 
federal funding for the renovation of this facility.
    Federal support is critical to the success of this economic 
development project. It is our hope that the Subcommittee will give our 
request every consideration.
                                 ______
                                 
             Prepared Statement of Florida State University
    Mr. Chairman, I would like to thank you and the Members of the 
Subcommittee for this opportunity to present testimony.
    I would like to discuss the funding for the maintenance of ongoing 
programs and additional resources for NOAA and its extramural research 
collaborators to advance the science and accuracy of climate and 
weather forecasting.
    First, let me stress the importance of allocating maximum support 
for the Office of Global Programs, funded at a minimum at the fiscal 
year 2001 level of $68.095 million. This Committee has supported full 
funding of the budget request of the OGP through the past several 
appropriations acts. All of NOAA's intramural and extramural research 
initiatives have been determined and planned by nonpartisan, scientific 
experts whose goals have been to improve the science, accuracy and 
lead-time of long range climate forecasts, and to improve regional 
warning systems through down-scale modeling. The importance of 
maintaining and sustaining this comprehensive approach to understanding 
our climate system will permit improved and longer lead-time 
forecasting. This allows for better planning for the effects of climate 
forced events, resulting in saved lives, minimized property losses, and 
improved planning in resource allocation and crop planting.
    Next, I request the Committee's consideration of apportioning $20 
million for a Supercomputer to be shared by universities and 
institutions for high-end climate modeling and research. Current 
climate modeling in the United States is limited by computer capacity. 
The House Science Committee held a hearing recently on Climate 
Forecasting: The State of the Science. When queried by Committee 
Members, the independent scientific experts who appeared as witnesses 
stated unanimously that the greatest need for United States advancement 
in the climate modeling and research fields is the need for 
Supercomputing capacity among universities and institutions for high-
end use.
    Climatologists in the United States have now reached the capacity 
of currently utilized computer systems in the high-end tasks associated 
with water and atmospheric modeling. The ability to process massive 
amounts of data can be only achieved through the acquisition of vector 
analysis Supercomputers. Vector analysis computers were not available 
to U.S. Government-funded institutions until recently. The current U.S. 
approach, using MPP technology, cannot process the whole of computer 
modeling tasks associated with water and atmospheric data on a global 
scale. Scientists acknowledge that the facility must be located apart 
and distinctly separate from NOAA's ongoing computer functions, due to 
the need for a dedicated Supercomputer specifically configured for 
high-end climate and modeling and research. A shared computer with NOAA 
for NOAA's use, whether part-time or back up, does not provide the 
capability and sustained processing power needed for the demands 
associated with high-end climate modeling. This request for $20 million 
in fiscal year 2002 is for a computer to be competitively bid and 
awarded, and for institutions, like Florida State University, to have 
access for sharing the use of Supercomputing capacity.
    Finally, I request that consideration be given to an allocation of 
$20 million for a Supercomputer for NOAA to be used as a backup for 
National Weather Service and other NOAA forecasting purposes, including 
research. There is widespread recognition among the extramural research 
community for the necessity of improved capacity and backup among 
computers for the National Weather Service. There is also a recognized 
and documented need in NOAA for a backup computer for the NWS. Last 
year's shutdown of NOAA's main computer, and subsequent loss of 
forecasting ability, left the NWS unable to provide the services upon 
which U.S. citizens, state and local governments, and private industry 
have come to rely. The necessity of a backup is clear, and in times of 
non-use as a backup, NOAA's internal research demands for this capacity 
exist. This statement concerning NOAA's needs represents consensus 
among the extramural community for additional resources and 
Supercomputer capacity for NOAA and the NWS.
    Thank you for this opportunity to present and articulate the needs 
and request for climate modeling and research in the United States.
                                 ______
                                 

           Prepared Statement of the National Audubon Society

    On Behalf of the National Audubon Society and our one million 
members and supporters, we appreciate the opportunity to submit 
testimony regarding funding priorities for the fiscal year 2002 budget 
of the National Oceanic and Atmospheric Administration and the National 
Marine Fisheries Service. The mission of the National Audubon Society 
is to conserve and restore natural ecosystems, focusing on birds and 
other wildlife and their habitat for the benefit of humanity and the 
earth's biological diversity.
    To adequately fulfill their mandates the National Marine Fisheries 
Service (NMFS) and the National Ocean Service (NOS) within the 
Department of Commerce are in need of additional monies over those 
provided in fiscal year 2001. Below is a detailed list of what the 
National Audubon Society sees as critical funding priorities within 
these agencies accompanied by minimum appropriations levels.
               national marine fisheries services (nmfs)
    Mandates derived from passage of the Sustainable Fisheries Act 
(SFA) have significantly increased the commitments of NMFS since 1996. 
Full implementation of NMFS's additional commitments, including 
research programs, the development and implementation of comprehensive 
fishery management plans, and monitoring programs, requires substantial 
additional fiscal resources. While the President's proposed budget 
provides increases for a number of important programs, resources fully 
adequate to NMFS's obligations have yet to be appropriated. We urge the 
Committee to provide additional funds for the programs detailed below 
for fiscal year 2002.
Resource Information
    Audubon supports the proposed $4.196 million dollar increase to the 
resource information base. As detailed below, we are encouraged and 
enthusiastic regarding increases in a number of specific line items, 
however, we are concerned that some increases may fall short of what is 
necessary.
  --Expand Annual Stock Assessments.--The administration has requested 
        a total of $15 million for expanding annual stock assessments, 
        which represents an increase of $13.3 million. Audubon is 
        supportive of this increase, however, we note that this level 
        of funding will eliminate just one third (829) of the deficit 
        of 2,564 research days identified in NMFS' Stock Assessments 
        Improvement Plan as necessary for adequate stock assessment 
        coverage. At a time when the status of nearly half (43 percent) 
        of all assessed fish species are considered overfished, our 
        ignorance of the status of 78 percent of our fish stocks in 
        aggregate is simply unacceptable. To close the tremendous gap 
        in knowledge, Audubon proposes an increase of $19 million over 
        2001 funding levels which would reduce the research days 
        deficit by one half.
  --Fishery Observers.--Audubon believes that the administration's 
        request of and additional $4 million for fishery observers is a 
        step in the right direction, but is insufficient. Observer 
        coverage levels in some fisheries, such as the Atlantic pelagic 
        longline fishery, have been below levels mandated by 
        international agreements and biological opinions issued under 
        the authority of the Endangered Species Act for multiple 
        consecutive years because of fiscal constraints. To ensure that 
        sampling occurs annually at a statistically reliable level of 
        coverage within all statistical areas fished, Congress must 
        provide additional money to NMFS for fishery observers. Audubon 
        proposes an increase of $16.4 million above fiscal year 2001 
        funding levels for this purpose.
  --Pacific Highly Migratory Species Research.--Audubon is supportive 
        of the administration's request of $1 million for Pacific 
        highly migratory species research, but believes this level of 
        funding is inadequate. Funding for stock assessments and 
        biological studies, as well as improving bycatch mitigation 
        techniques for these fisheries are critical for the long-term 
        health of the fishery. Of vital importance to improving 
        management of these species in both the near and long-term is 
        the completion of the Pacific Fishery Management Council's 
        Highly Migratory Species Fishery Management Plan. To guarantee 
        the timely completion of this plan, Audubon proposes that 
        appropriations for Pacific Highly Migratory species be raised 
        to $1.5 million with $500,000 of these appropriations 
        specifically dedicated to completion of the Pacific Fishery 
        Management Council's plan.
  --Bluefin Tuna.--Audubon believes the Administration's request of 
        $600,000 for bluefin tuna research is below the level needed to 
        fund appropriate scientific research. Audubon strongly urges 
        the Committee to appropriate $1 million and ensure that these 
        research dollars be evenly distributed between Stanford 
        University and the New England Aquarium. In fiscal year 2001 
        all federal bluefin tuna research dollars were allocated to the 
        New England Aquarium. The Stanford University research team has 
        traditionally lead the field in Atlantic bluefin tuna research 
        and we believe that their significant expertise should be 
        engaged on this issue.
  --Essential Fisheries Habitat.--Essential fish habitats (EFH) are 
        those waters and substrate on which fish depend. These habitats 
        are currently being damaged from both land based activities and 
        destructive fishing practices. While the Sustainable Fisheries 
        Act of 1996 gave NMFS a clear mandate to identify and conserve 
        essential fish habitat, little has been done. Audubon supports 
        an increase of $12.8 million over fiscal year 2001 funding 
        levels. This increase in funding would allow NMFS to gain the 
        information necessary to further refine designations of EFH and 
        take action to conserve EFH, including measures to minimize the 
        adverse impacts of fishing gear on EFH.
  --Cooperative Research.--Audubon supports the administration's $6 
        million request for cooperative fishery research, which 
        represents an increase of $500,000 over the fiscal year 2001 
        enacted level. These additional monies will provide for the 
        expansion of cooperative research activities in the Southeast 
        region and allow for the expertise of fishermen to be utilized 
        in conjunction with that of NMFS in the development of data 
        collection and other programs. Audubon further supports the 
        continuation of shark research funding to Mote Marine 
        Laboratory at the proposed $150,000 level.
                 conservation and management operations
    Audubon is encouraged by and supportive of the proposed $2.033 
million increase in funding for the fisheries management programs base.
  --Regional Councils.--The administration has requested a total of 
        $15.6 million for the regional fishery management councils, 
        which represents an increase of $2.5 million above the fiscal 
        year 2001 enacted level. Audubon is supportive of the proposed 
        increase, however this level of appropriations still falls 
        short of what is needed to support the increased workload of 
        the eight regional councils. Audubon proposes an increase in 
        appropriations to $19.05 million as per the aggregate request 
        of the eight regional councils. Audubon believes that this 
        higher level more accurately reflects the appropriations 
        necessary to fully execute their responsibilities.
  --Atlantic Salmon.--Audubon supports the administration's request of 
        $3.5 million for Atlantic salmon, which represents an increase 
        of $1.5 million over the fiscal year 2001 enacted level. These 
        monies will contribute to conserving and restoring populations 
        of endangered Atlantic salmon in the Gulf of Maine Distinct 
        population segment and their habitat. These appropriations, in 
        conjunction with appropriations to the National Fish and 
        Wildlife Service are critical for effecting a recovery of this 
        highly endangered species.
  --Enforcement and Surveillance.--While Audubon is supportive of the 
        administration's $47.3 million request for enforcement and 
        surveillance activities, which provides a $10 million increase 
        for enforcement activities over fiscal year 2001 levels, we 
        believe it falls short of what is needed to allow for effective 
        enforcement of current fisheries regulations. We are pleased to 
        see the proposed increase of $6.1 million for the vessel 
        monitoring systems (VMS) over the fiscal year 2001 enacted 
        levels and the implied commitment to effective fishery 
        monitoring. Nevertheless, this funding level is far below what 
        is needed to ensure coverage for noticeable portion of the 
        estimated 10,000 U.S. commercial fishing vessels. Audubon 
        proposes an aggregate request of $11.1 million over fiscal year 
        2001 enacted levels for VMS, which represents an increase of 
        $9.8 million. This higher amount would support VMS coverage of 
        roughly 11 percent of this nation's commercial fishing fleet. 
        Given the increased use of large-scale area closures and the 
        difficulty in enforcing the use of these vital management 
        tools, VMS is an indispensable enforcement tool. Enforcement 
        alternatives to VMS would be immensely more costly and include 
        100 percent observer coverage in some fisheries and the 
        procurement of significant numbers of additional enforcement 
        personnel, aircraft and ships to patrol area closures. VMS also 
        provides the added benefit of improving fisheries management by 
        providing refined real-time data regarding spatial and temporal 
        distribution of fishing effort. Audubon is further supportive 
        of the proposed $3.9 million increase over fiscal year 2001 
        enacted levels to expand and modernize the enforcement and 
        surveillance base.
  --Sea Turtles.--Audubon supports the Administration's request of $6.3 
        million for marine sea turtle activities, which represents an 
        increase of $3 million over the fiscal year 2001 enacted level. 
        Given that the two most recent biological opinions (May 2000, 
        April 2001) regarding the Atlantic highly migratory species 
        fishery determined that continuation of the Atlantic pelagic 
        longline fishery, as currently prosecuted, constitutes a threat 
        to the continued existence to loggerhead and leatherback sea 
        turtles, Audubon would like to see a significant portion of 
        these new dollars dedicated to reducing fishery interactions 
        with sea turtles. This recommendation is further bolstered by 
        similar turtle interaction problems affecting pelagic longline 
        fisheries in the central Pacific, which recently compelled a 
        judge to drastically curtail longline fishing in that region.
  --Fisheries Oceanography.--Audubon supports the Administrations 
        request of $2 million for fisheries oceanography. As increasing 
        pressure is brought to bear on fish stocks it is critical to 
        develop new tools to further our understanding of how long-term 
        environmental factors affect fish stocks.
                    coastal conservation activities
    Coral Reef Activities.--Audubon supports the administration's $27.7 
million aggregate request for coral reef activities. This amount 
represents status quo for the National Ocean Service's Coral Reef 
Institutes Program ($16 million) and the National Marine Fisheries 
Service's Coral Reef Program ($11 million), while providing a modest 
increase of $700,000 above the fiscal year 2001 enacted levels for 
Coral Reef Monitoring through the National Environmental Satellite, 
Data and Information Service. The fragile nature of coral reefs and 
their function as ``hotspots'' of biodiversity demand that we as a 
nation provide adequate funding to properly manage these critical 
habitats.
                     national oceans service (nos)
    Marine Sanctuary Program.--Audubon supports the Administration's 
request of $36 million for the National Marine Sanctuary program, which 
represents an increase of $3.6 million over fiscal year 2001 enacted 
levels. These new dollars, if appropriated, will allow for improved 
protection of important sanctuary resources as well as additional 
personnel and ocean research.
    Marine Protected Areas Program.--The administration has requested 
$3 million for the Marine Protected Areas (MPA) Program, which 
represents and increase of $3 million over fiscal year 2001. Audubon 
believes this amount is insufficient and proposes an additional $2 
million in funding for fiscal year 2002, for an aggregate of $5 million 
for the NOS MPA program. Preparation of a supporting framework for 
collaboration between the stakeholders, as well as execution of the 
first comprehensive inventory and assessment of the existing system of 
MPAs in U.S. waters are critical to the success of the program and 
cannot be adequately carried out without additional monies beyond those 
proposed by the Administration.
    Mr. Chairman and Members of the Committee thank you for the 
opportunity to provide testimony on Audubon's priorities for NOAA. I 
understand that it is a large agenda, but the problems facing America's 
marine resources are significant. We look forward to working with you 
to secure a legacy of living oceans for future generations.
                                 ______
                                 

     Prepared Statement of the Pacific Marine Conservation Council

    Pacific Marine Conservation Council (PMCC) appreciates this 
opportunity to share our views regarding the President's fiscal year 
2002 budget request for certain fisheries programs of the National 
Oceanic and Atmospheric Administration (NOAA).
    PMCC is a nonprofit, public benefit corporation working with 
commercial and recreational fishermen, marine scientists and 
conservationists to conserve and sustain West Coast groundfish and the 
coastal communities that depend upon them.
    The West Coast groundfish fishery is under a federal disaster 
declaration, yet we have the opportunity to revive depleted stocks and 
to ultimately enjoy sustainable and profitable harvest. The economic 
impact of this important fishery reaches far beyond the communities 
along the 1,300-mile Pacific coastline of the Lower 48. The seafood 
industry distributes the catch of our commercial fishermen throughout 
this country and to overseas markets. Recreational fishing in these 
ocean waters also drives a powerful economic engine.
    President Bush's budget provides for several well-considered and 
important investments that will enhance this nation's fisheries. For 
example, PMCC commends the intention of NOAA to expand stock 
assessments and modernize information systems.
    PMCC believes that the following modest modifications to the 
National Marine Fisheries Service: Operations, Research and Facilities 
section of the NOAA budget will improve fisheries management and 
provide long-term national benefits:
                 conservation and management operations
    Observers and Training--West Coast Observers.--We greatly 
appreciate that this Committee provided funding in the amount of $2.275 
million for the commencement of a limited West Coast observer program 
in appropriations for fiscal year 2001. The President's budget carries 
this amount forward for 2002. To fully implement this observer 
program--to collect, analyze, and use the vital biological and 
statistical data necessary to refine management--will require the 
expenditure of at least $5 million per year. The $2.275 million limited 
program will provide approximately 10 percent coverage, while engaged 
marine scientists recommend 20 percent coverage for valid statistical 
sampling in this fishery. We respectfully request that the line for 
West Coast observers be raised to $5 million for fiscal year 2002. 
(This represents an increase of $2.725 million over the President's 
request.)
                     fisheries management programs
    Regional Councils.--The President's budget includes $15.65 million 
for the eight regional fishery management councils. This is an increase 
over the fiscal year 2001 level, but still falls short of adequate 
funding for most councils to carry out their responsibilities under the 
Magnuson-Stevens Act. The Pacific Fishery Management Council, for 
example, would be funded at a level that would compromise critical work 
implementing their precedent-setting groundfish strategic plan 
``Transition to Sustainability.'' PMCC recommends funding the regional 
councils at $17.6 million for fiscal year 2002. (This represents an 
increase of $1.95 million over the President's request.)
 state and industry assistance programs (interjurisdictional fisheries 
                                grants)
    West Coast data collection by the states.--Groundfish species do 
not respect the 3-mile state waters boundaries. They may be targeted or 
caught as by-catch in both federal and state-managed fisheries. Data 
collection by observers and by other means directed by the States 
(California, Oregon and Washington) in near-shore waters is necessary 
to augment information provided by federal programs. Much of this 
state-directed effort could utilize the services and vessels of 
fishermen based in our coastal towns. PMCC requests that this Committee 
fund these activities, to be coordinated with the National Marine 
Fisheries Service, in the initial amount of $3 million.
    Thank you for considering our recommendations as you make the 
important decisions to invest in the stewardship of America's 
fisheries.
                                 ______
                                 

          Prepared Statement of the American Chemical Society

    The American Chemical Society (ACS) would like to thank Chairman 
Judd Gregg and Ranking Member Ernest Hollings for the opportunity to 
submit testimony for the record on the Commerce, Justice, State and 
Judiciary Appropriations bill for fiscal year 2002. ACS is a non-profit 
scientific and educational organization, chartered by Congress, with 
more than 163,000 chemical scientists and engineers as members. The 
world's largest scientific society, ACS advances the chemical 
enterprise, increases public understanding of chemistry, and brings its 
expertise to bear on state and national matters.
    ACS firmly believes that advances in science and engineering have 
produced more than half of our nation's economic growth in the last 50 
years and, economists agree, these advances remain the most important 
factor in the productivity increases responsible for our growing 
economy and rising standard of living. Each field of science 
contributes to our diversity of strengths and capabilities and has 
given us the flexibility to explore new fields and apply science in 
unexpected ways. Over the last 25 years, funding for biomedical 
research has increased while federal support for most other disciplines 
has remained flat or declined. Congress took an important step in the 
right direction last year when it increased funding for scientific 
research for fiscal year 2001. To nourish the roots of innovation in 
all fields and help ensure the success of growing investments in 
biomedicine, balance must be restored to the nation's R&D portfolio 
while supporting overall growth in the nation's science and technology 
budget. This should be a top priority for Congress and the 
administration as fiscal year 2002 appropriations are considered.
     national institute of standards and technology (nist) budget 
                            recommendations
    For 100 years, NIST has assisted industry and researchers by 
developing technology needed to improve product quality, modernize 
manufacturing processes, ensure product reliability, and facilitate 
product commercialization. The ACS is concerned that NIST's budget 
increases since 1995 have generally been offset by inflation and salary 
increases. As a result, some important programs, such as those 
investigating materials reliability, can not explore scientific 
opportunities due to lack of funds. The budget constraints also are 
adversely affecting NIST's ability to purchase capital equipment, 
recruit and retain staff, and respond to the rapid changes of a global 
economy. We particularly urge Congress and the administration to 
continue reinvigorating NIST's core laboratory programs given the 
quality, uniqueness, and economic importance of its work. We also 
support the goals of the Advanced Technology Program (ATP) and the 
allocation of more funds for maintenance of NIST facilities. ACS urges 
a greater than inflation funding increase for NIST in fiscal year 2002.
                 measurement and standards laboratories
    NIST laboratories' research, measurement infrastructure, and 
standards-related activities are critical to the operation and 
productivity of small and large companies across all industries, as 
well as universities, hospitals, and law enforcement agencies. The 
program provides impartial expertise, test methods, and best-in-the-
world calibration services that maximize efficiencies, promote trade, 
and ensure confidence in the growing number of precision measurements 
needed for health, safety, defense, commerce, energy, and the 
environment.
    NIST laboratories develop universal measurement techniques and 
technologies that foster higher quality products, more reliable 
processes, fewer rejected parts, and faster product development across 
all American industries. NIST is responsive to, and works with, 
industry to identify future needs, enables the development of advanced 
technologies, and plays a vital role in promoting international 
acceptance of U.S. standards abroad. We especially support NIST 
research in nanotechnology, healthcare, and information-technology 
security.
                   advanced technology program (atp)
    ATP aims to strengthen U.S. industries' capabilities in high-risk 
technologies. As world competition grows, speed to market and an edge 
in emerging technologies are critical for the United States. ATP 
contributes to these goals and supports many small start-up firms that 
might not otherwise succeed in technology areas where venture capital 
funding is scarce. The program also provides an incentive for firms to 
perform research that has greater risks than typical industrial R&D but 
has promise for broad economic impact.
                                 ______
                                 

 Prepared Statement of the People for the Ethical Treatment of Animals

    Chairman Gregg and Members of the Subcommittee: People for the 
Ethical Treatment of Animals (PETA) is the world's largest animal 
rights organization, with more than 700,000 members. We greatly 
appreciate this opportunity to submit testimony regarding fiscal year 
2002 appropriations for the National Oceanic and Atmospheric 
Administration (NOAA). Our testimony will focus on financial aid for 
the commercial fishing industry.
    As you may know, in the summer of 2000, an emergency spending bill 
was passed which included $50 million for NOAA to help provide relief 
to the commercial fishing industry from environmental restrictions, 
overfishing, and foreign competition.
    Fish suffer greatly when caught and killed for their flesh. Whether 
caught by hook or net, fish experience fear and pain.
    We would like to request that the Subcommittee include report 
language ensuring that no NOAA funds may be used for financial aid to 
the commercial fishing industry.
Fish feel pain
    The following is excerpted from Lord Medway's 1979 Report of the 
Panel of Enquiry Into Shooting and Angling, sponsored by the Royal 
Society for the Prevention of Cruelty to Animals:

    ``[T]he evidence suggests that all vertebrates (including fish), 
through the mediation of similar neuropharmacological processes, 
experience similar sensations to a greater or lesser degree in response 
to noxious stimuli. . . . The apparent universality throughout 
vertebrates of the neuropharmacological basis for the perception of 
painful (and pleasurable) stimuli does not permit us to agree with 
those who would recognize a difference in this function between `warm-
blooded' and `cold-blooded' members.''

    Captain Jacques Cousteau said, ``To reassure one's conscience, it 
is said that fish do not feel pain--of course such claims are 
completely without foundation.''
The commercial fishing industry causes immense suffering
    Trawlers drag enormous nets through the water, forcing all fish in 
their path into the closed end. For hours, the trapped fish are 
squeezed and bounced, together with any netted rocks and ocean debris. 
``Prolonged tumbling and dragging in the net had caused the fish to rub 
against each other and file away their sharp scales,'' author William 
Warner reported of a haul he observed. ``Their flanks, in fact, were 
scraped entirely raw.''
    When hauled up from the deep, fish may undergo excruciating 
decompression. Frequently, the intense internal pressure ruptures the 
swimbladder, pops out the eyes, and pushes the esophagus and stomach 
out through the mouth.
    Smaller fish, such as flounder, who are ordinarily dumped onto 
chopped ice, usually suffocate or are crushed to death by fish who 
follow. Larger fish, such as scrod and haddock, tumble onto the deck 
and are sorted by workers who stab them with short, spiked rods called 
``pickers.'' Next, the fish's throats and abdomens are slit, often 
while they are still alive. Meanwhile, nontarget fish (``bycatch''), 
who sometimes comprise most of the catch, are thrown overboard, often 
by pitchfork.
    On any given day, fishers may set out some 40,000 miles of 
gillnets, driftnets on the Pacific high seas, and anchored nets in 
coastal waters. Plastic, weighted gillnets hang like curtains, 
generally to a depth of 30 feet. Unable to see the netting, fish swim 
into it. Unless they are smaller than the mesh size, they get no 
further than poking their heads through. When they try to back out, the 
netting catches them by their gills or fins. Many of the fish 
suffocate; others struggle so desperately in the sharp mesh that they 
bleed to death. Because gillnets are left unmonitored, trapped fish can 
suffer for days.
    Some commercial fishers still harpoon large fish (such as 
swordfish, tuna, and sharks) or hook them individually. Large fish are 
also caught by ``long-lining,'' in which a ship unreels as much as 30 
miles of line bristling with hundreds of thousands of baited hooks.
Fish are not the only animals harmed
    Millions of nontarget animals, including sea turtles, dolphins, 
birds, and seals, die horrible deaths in commercial fishing nets every 
year. According to the United Nations, nearly 25 percent of all marine 
life caught annually--30 million tons--is thrown back into the ocean 
dead or dying, maimed by fishing line or gillnets.
The commercial fishing industry pollutes our oceans
    In the process of slaughtering billions of sea animals, trawlers 
also dump into the oceans 450,000 plastic containers, 52 million pounds 
of plastic packing material, and 298 million pounds of plastic fishing 
net.
                                summary
    The commercial fishing industry kills sea animals indiscriminately, 
causes immeasurable suffering, and pollutes our oceans. These practices 
should not be subsidized with federal funds.
    Please include language in the report accompanying the fiscal year 
2002 Commerce, Justice, State, and Judiciary Appropriations bill 
stating that no NOAA funds shall be used for financial aid to the 
commercial fishing industry.
    Thank you for your consideration of our request.
                                 ______
                                 

 Prepared Statement of the United States Section of the Pacific Salmon 
                               Commission

    Mr. Chairman, my name is Roland Rousseau. I am an Alternate 
Commissioner on the Pacific Salmon Commission (PSC) and the Chair of 
the Budget Committee for the U.S. Section of the Commission. The PSC 
was established under the Pacific Salmon Treaty (Treaty) between the 
United States and Canada. A new Agreement (Agreement) was concluded in 
June of 1999 that establishes new abundance-based fishing regimes under 
the Treaty and made other improvements in the Treaty's structure. I am 
providing this statement of the fiscal year 2002 budget for Treaty 
programs recommended by the U.S. Section of the Pacific Salmon 
Commission for the Committee's use and for the record. The U.S. Section 
recommends that $7,456,000 be provided for the Pacific Salmon Treaty 
Line Item under the Information Collection and Analysis activity of the 
National Marine Fisheries Service for fiscal year 2002. Included in 
this amount is $5,612,000 for base programs required to implement the 
provisions of the Treaty and $1,844,000 to acquire the technical 
information to implement abundance based chinook salmon management 
provided for under the new Agreement. The U.S. Section recommends that 
$400,000 be provided to continue the bilateral Transboundary River 
Enhancement Program under the NMFS International Fisheries Commissions 
Line Item in fiscal year 2002. We also recommend that $2,460,000 be 
provided to the Department of State in fiscal year 2002 to fund the 
bilateral PSC staff and offices and for U.S. Section travel and 
stipends. This is an increase of $309,000 over the fiscal year 2001 
level.
    The base Treaty implementation program, which has been level funded 
at $5,587,000 for several years is requested at $5,612,000 to restore 
the fiscal year 2001 recision. This program includes a wide range of 
salmon stock assessment, fishery monitoring, and technical support 
activities for all five species of Pacific salmon in the fisheries and 
rivers from Southeast Alaska to those of Washington, Oregon, and Idaho. 
The States of Alaska, Washington, Oregon, and Idaho, and the National 
Marine Fisheries Service (NMFS), are charged with carrying out a major 
portion of the salmon fishery stock assessment and harvest management 
actions required under the Treaty. Federal funding for these activities 
is provided through the National Marine Fisheries Service on an annual 
basis. The agency projects carried out under Pacific Salmon Commission 
funding are directed toward acquiring, analyzing, and sharing the 
information required to implement the conservation and sharing 
principles of the Treaty. A wide range of programs for salmon stock 
size assessments, escapement enumeration, stock distribution, and catch 
and effort information from fisheries, are represented. The information 
from many of these programs is used directly to establish fishing 
seasons.
    In 1996, the United States adopted an Abundance-Based Approach to 
Managing Chinook Salmon Fisheries in Southeast Alaska. Under this 
approach, chinook harvest levels are based on annual estimates of 
chinook abundance. This system replaced harvest ceilings agreed to in 
1985, which did not respond to fluctuations in chinook salmon 
populations. Under the new Agreement of 1999, this abundance based 
management approach was expanded to all chinook fisheries subject to 
the Treaty. Congress appropriated $1,844,000 for fiscal year 2001 to 
provide for the collection of necessary stock assessment and fishery 
management information to implement the new approach. The funding is 
being used by Alaska, the Pacific Northwest States, and treaty tribes 
to implement abundance-based chinook salmon management coastwide under 
the new Agreement. The U.S. Section recommends level funding of 
$1,844,000 to support the implementation of abundance-based chinook 
management in fiscal year 2002.
    The United States and Canada agreed to a joint salmon enhancement 
program on the Transboundary Rivers flowing between Canada and 
Southeast Alaska in 1988. Congress has provided $400,000 annually for 
this effort through the National Marine Fisheries Service's 
International Fisheries Commission line item under the Conservation and 
Management Operations activity. The U.S. Section recommends that 
$400,000 again be provided in fiscal year 2002 for funding of this very 
successful bilateral program.
    The U.S. Section of the Pacific Salmon Commission recommends a 
Department of State funding level of $2,460,000 for Treaty 
implementation in fiscal year 2002. This is an increase of $309,000 
over the fiscal year 2001 appropriation, and is vitally needed to 
support new U.S. commitments made in the June, 1999 Agreement. This 
funding provides for the United States contribution to the bilateral 
Pacific Salmon Commission staff and offices based in Vancouver, British 
Columbia. It also provides for travel for U.S. Commissioners, panel 
members, and technical Committee members and stipends for authorized 
Commissioners and panel members. As a result of the new PSC agreement a 
new bilateral standing Committee and a new panel will start up this 
fiscal year. An increase in funding will be needed to cover the U.S. 
Section travel and salary costs associated with these new bodies.
    This concludes the Statement of the U.S. Section of the Pacific 
Salmon Commission submitted for consideration by your Committee. We 
wish to thank the Committee for the support that it has given us in the 
past.
                                 ______
                                 
                         DEPARTMENT OF JUSTICE

      Prepared Statement of the Central Piedmont Community College

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to submit testimony to the hearing record regarding Central 
Piedmont Community College's (CPCC) efforts to meet a regional and 
national need for forensic technician training. First, I would like to 
thank the Subcommittee for its assistance last year resulting in 
$500,000 from the Crime Laboratory Improvement Program. This funding 
has been matched with a generous donation by the Belk Foundation plus 
local bond monies of $3.2 million for a total of $3.7 million. These 
funds together will be used to develop curricula and upgrade 
instructional technology toward our goal of establishing a National 
Academy for Forensic Computing and Investigation (NAFCI).
    We are seeking continued federal partnership assistance to fully 
implement NAFCI. A staff person from the National Institute of Justice 
recently spent a day on our campus to review our current programs and 
vision for the Academy. We are working to forge a very productive 
working partnership with the Department of Justice based upon our 
experience and the Department's expressed needs in forensic training.
    The elements that make CPCC an ideal site for such an initiative 
are as follows. CPCC is the largest institution of higher education in 
the State of North Carolina, with over 70,000 students, and is the 
leading provider of career training and re-training in the State. 
CPCC's efforts to establish a National Academy for Forensic Computing 
and Investigation came about in response to requests from North 
Carolina's law enforcement community, including the Federal Bureau of 
Investigation, as well as the Charlotte-Mecklenburg business community.
    CPCC was specifically targeted to carry out this mission by virtue 
of a thirty-year history as the leading provider for criminal justice 
training. The public safety program at CPCC has expanded quickly with 
the growth of the Charlotte-Mecklenburg region. The current program 
serves a 13-county region and offers a comprehensive range of programs 
and services, including instruction in the high demand occupational 
skills area of forensics technology. This instruction is currently 
available to a variety of law enforcement and public agency officials 
who previously would have had to travel extensively for this type of 
professional development and training.
    Citing extreme inability to find skilled workers in the field, a 
consortium of local industry leaders, including the Charlotte Chamber 
of Commerce, the Federal Bureau of Investigation, and representatives 
from the banking, insurance, law enforcement, and legal industries, 
asked CPCC's Department of Public Safety to develop a training program 
in forensic technology. These industries also seek assistance in 
retraining and upgrading skills of incumbent workers.
    The challenge is to meet not only local public agency demand for 
criminal justice training, but also the increasing need from the 
private sector which is now requesting specialized skills training in 
criminal justice topics such as forensics computer technology. There 
are currently no forensic science degrees offered at the graduate or 
undergraduate levels at any of North Carolina's colleges and 
universities.
    The need for forensics training can also be translated to the 
national level. According to the National Institute of Justice (1999), 
49 percent of the cases prosecuted in the United States were successful 
solely because of the forensic sciences. Unfortunately, law 
enforcement, social services, and other governmental agencies, along 
with private corporations nationwide must search throughout the country 
to obtain forensic training. This translates into an investigative gap, 
particularly pronounced in the Southeast United States, costing reduced 
productivity, delayed justice, and loss of funds. Compounding this 
situation is the fact that the technology and science are changing so 
rapidly that ongoing training and skill upgrades are necessary.
    The establishment of a National Academy for Forensic Computing and 
Investigation (NAFCI) at centrally located CPCC can help to bridge the 
investigative gap both regionally and nationally while providing high 
skill careers for North Carolina.
    CPCC's Public Safety facility at the North Campus is the home to 
the College's Criminal Justice Program. Today, the North Campus serves 
more than 12,000 citizens of the Charlotte-Mecklenburg region on an 
annual basis. In addition, the facility is the primary training site 
for ten local, two State, and three Federal agencies.
    There are currently three course areas under the umbrella term 
public safety at CPCC's North Campus--police, fire, and rescue. 
Associates' degrees are available in Criminal Justice and in Fire 
Protection Technology, and in-service training for all three groups is 
available. An additional component within the criminal justice arena is 
a Regional Training Center, headquartered at CPCC that is responsible, 
in a 13-county area, for providing in-service training for criminal 
justice professionals in North Carolina. CPCC is also the primary 
training source for all Firefighter I and II level personnel with the 
Charlotte Fire Department and all volunteer firefighters in Mecklenburg 
County. Given this breadth of experience, CPCC is the institution best 
positioned to take on the responsibility of addressing the need for 
forensic training.
    The development and implementation of the NAFCI will serve to 
increase the skills of the current workforce reliant upon and adversely 
affected by a lack of appropriate training in forensic science. These 
groups include law enforcement officers, fire service, prosecutors and 
criminal attorneys, investigators, crime laboratory personnel, medical 
examiners and coroners, correctional personnel, insurance 
investigators, agents, and claims adjusters, fraud examiners, social 
services professionals, and nurses.
    The Academy's emphasis on Computer Forensics will demonstrate the 
value of the application of computer technologies in solving the 
information needs of anyone required to conduct forensic 
investigations. Each of the following topics represents a computer 
class; others will be developed as required:
  --Facial Reconstruction of Unknown Human Remains--Digital Imaging
  --Information Systems Security--Cyber Crime
  --Identifying and locating the Cyber Criminal--Voice Recognition
  --Reconstruction of Damaged Computer Software--Fingerprint 
        Identification
  --Using the Computer to Determine Time of Crime--Firearms 
        Identification
  --Construction of new Evidence Tracking Systems--Dental 
        Identification
  --Computerized Collision Diagramming--DNA Data Retrieval
    The workforce development goals of this initiative are to train or 
retrain 2,000 workers in the forensics field within the first 5 years. 
This timely response will result in a significant change in the way 
that CPCC accomplishes workforce development. Through the creation of 
an effective bridge between industry and academia, CPCC hopes to become 
a national model for community colleges across the country not only in 
the field of forensic science but also in other fields where workforce 
gaps exist.
    Given industry's need and the characteristics of the target 
audience, CPCC proposes innovative strategies for success. One of the 
most unique features of this initiative is that CPCC has bridged the 
gap between industry and academia by forming an Industry Advisory Panel 
charged with providing direct and substantial course input throughout 
the life of this initiative. The panel includes a diverse array of 
leading edge companies dependent upon forensics for the success of 
their business. Needs assessments will be conducted to determine skill 
areas that require further development, and special courses will be 
designed and implemented based on statements of need. NAFCI will then 
create intensive courses for faculty in the various fields as well as 
for current professionals in the various areas. For example, social 
services workers can be educated on the indicators of child abuse and 
correct use of the multidisciplinary approach to child abuse 
investigation. Courses in forensic computing, accounting, arson 
investigation, forensic accident reconstruction, and bodily injury can 
be offered to fraud investigators.
    The NAFCI seeks to develop curriculum strategies and educational 
materials that meet the needs of all the vast and varied types of life-
long learners. Thus, in addition to the more standard educational 
materials, CPCC will develop and offer short-term training modules for 
the certificate seeker and on-line courses for the law enforcement 
professionals who are much better served by courseware unlimited by 
time or place. Opportunities for education in the field via service 
learning programs and/or internship experiences will also be utilized. 
NAFCI will also seek to provide state-of-the-art or ``hands-on'' 
training for the investigative professional along with continuing 
education approved by the appropriate certifying board of each State 
serviced.
    NAFCI will increase the number of people who have the forensic 
skills to develop and support community-based investigations, 
especially in rural areas of the country. For example, the NAFCI will 
actively seek to train experienced Registered Nurses from rural areas 
to become forensic nurses by conducting advanced courses in forensic 
pathology, forensic dentistry, and forensic anthropology. These nurses 
may then assist rural law enforcement agencies with evidence collection 
from violent crimes. The Center will also promote public education 
concerning all disciplines in the forensic sciences, and serve as a 
major source for national certification by the American Board of 
Medicolegal Death Investigators, Inc.
    Educational materials will be produced and widely disseminated via 
various means including, electronic media, CD-ROMS, conferences, 
journal articles, manuals, newsletters, on-line courses with 
interactive laboratory experiences, summer institutes, videos, and 
workshops
    In addition, CPCC will liaison directly with the local high school 
populations via College Tech Prep, Upward Bound, and Talent Search 
programs to assist disadvantaged students prepare for forensics 
technology careers. Additional outreach to disadvantaged populations 
will take place via CPCC's collaborations with the local JOBSLINK 
(North Carolina's One-Stop Career Shop). JOBSLINK is a project 
sponsored by the State Employment Service Office, JTPA, the Department 
of Social Services, and Office of Vocational Rehabilitation. Although 
designed to meet the needs of everyone, JOBSLINK has specific 
responsibilities for working with welfare recipients and the 
unemployed. Because CPCC provides staffing to JOBSLINK, faculty will 
have the opportunity to intimately recruit students from the local 
disadvantaged population. Further, there is potential for developing a 
``pipeline'' between CPCC and 4-year institutions that allow students 
to specialize in areas of science related to forensics so that those 
students will be prepared to enter into laboratory work, field work or 
graduate forensic programs.
    In addition, the North Carolina State Bureau of Investigation 
maintains a full-service laboratory in Raleigh and a limited-service 
laboratory in Asheville, for the purpose of examining all types of 
evidence related to criminal investigations. The establishment of a 
National Academy for Forensic Computing and Investigation at CPCC could 
provide a training link to these two institutions.
    To accomplish these goals CPCC is seeking a total of $3.5 million 
in additional federal partnership assistance to establish the 
approximately $7.2 million Center, which will include a state-of-the-
art forensics laboratory. A Federal investment in this initiative is 
warranted for the contribution that the NAFCI can make toward filling 
an investigative gap that exists in the region, for the new careers 
that will be established, and for the necessary upgrading of skill 
levels for the better functioning of North Carolina's criminal justice 
system.
                                 ______
                                 

      Prepared Statement of the American Public Power Association

    The American Public Power Association (APPA) is the national 
service organization representing the interests of over 2,000 municipal 
and other state and locally owned utilities throughout the United 
States. Collectively, public power utilities deliver electric energy to 
one of every eight U.S. electric consumers (about 40 million people), 
serving some of the nation's largest cities. The majority of APPA's 
member systems are located in small and medium-sized communities in 
every state except Hawaii.
    We appreciate the opportunity to submit this testimony in support 
of fiscal year 2002 appropriations for the Federal Trade Commission and 
the Antitrust Division of the Department of Justice.
    The electric power industry is in the midst of sweeping and 
dramatic change, with a record number of mergers over the last four 
years. Add to this change, the recent lawsuits filed against wholesale 
electricity suppliers in California by the Independent System Operator 
alleging market power abuse. In addition, several cities in California 
have filed lawsuits alleging that a coalition of gas companies 
illegally attempted to eliminate competition, thus engaging in 
antitrust violations that caused natural gas prices to skyrocket. The 
industry experienced little competition in the past, except for 
franchise competition between investor-owned utilities (IOUs) on the 
one hand and publicly and cooperatively owned utilities on the other. 
During this transitional period--as this important, closely regulated 
industry moves towards increased competition--sufficient resources are 
necessary so that the two federal antitrust agencies can adequately 
perform merger assessments.
    The Department of Justice Antitrust Division and the Federal Trade 
Commission play a critical advisory role along with the Federal Energy 
Regulatory Commission (FERC) with respect to antitrust monitoring and 
enforcement in the electric utility industry.
    Important lessons have been learned through the deregulatory 
experiences of the airlines, cable, and telecommunications industries. 
As the electric power industry struggles to transition from regulation 
to competition, those lessons must inform the policies and process that 
will guide, and ultimately determine, the structure of a competitive 
electric power industry.
    There is no need to start at the bottom of the deregulation 
learning curve, or to repeat the mistakes made in other industries.
    Mergers among electric utilities are having a profound negative 
effect on the development of competition in the electric industry. In 
fact, because utility mergers determine the basic structure of the 
electric power industry, they actually have the potential to define (or 
preclude the development of) the competitive landscape. The recent wave 
of electric utility mergers certainly has increased concentration in 
the industry, as the number of firms that are legally and practically 
capable of providing electric service declines through consolidation. 
Largely for the same reasons, the structural impacts of such mergers 
will likely be long term. What is not known is whether mergers of 
incumbent electric utilities and/or other wholesale power suppliers, 
collectively or individually, are on balance procompetitive or 
anticompetitive. Specifically, there are a number of unknowns about 
electric utility mergers:
  --Whether an increase in concentration will produce associated 
        efficiencies;
  --Whether any efficiencies that do result will be passed on to 
        consumers in the form of lower electric rates, or instead be 
        passed on to shareholders, or used for diversification;
  --Whether an increase in concentration will simply serve to fortify 
        existing market power to exclude new entrants, drive out new 
        entrants through price competition and mergers, purchase 
        existing competitors, or result in excessive profits.
    As the mixed deregulatory experiences of other industries 
demonstrate, these are not questions that can be accurately answered in 
the absence of actual market data. The pressure placed on DOJ's 
Antitrust Division and the FTC will be enormous as we search for the 
answers to these and many more questions.
    APPA urges Congress to provide the Antitrust Division of the 
Department of Justice and the Federal Trade Commission adequate funding 
in fiscal year 2002 that will ensure the agencies can continue to 
perform their consumer protection roles.
                                 ______
                                 

  Prepared Statement of the Northwest Tribal Court Judges Association

    On behalf of the Northwest Tribal Court Judges Association 
(NWTCJA), I am pleased to submit this written testimony on the fiscal 
year 2002 Appropriations for Justice Department funding of the Indian 
Country Law Enforcement Initiative and the Indian Tribal Justice 
Technical and Legal Assistance Act of 2000 (Public Law 106-559).
    The NWTCJA is a voluntary regional representative membership 
association (non-profit association organized in 1981), whose active 
members include any duly appointed or elected judge for any Indian 
tribe located in the States of Washington, Oregon, Idaho, and Alaska. 
NWTCJA represents more than 37 tribal justice systems in the Northwest, 
has a twenty-year track record of providing quality training and 
technical assistance services to tribal justice systems. The mission of 
the NWTCJA is ``to provide a forum for communication and cooperation 
among and between tribal court judges and other entities to enhance the 
training and skills of court personnel and to secure resources to 
accomplish these ends in the interest of better serving tribal people, 
communities, and our sovereign nations.'' We provide training for court 
personnel and need money to accomplish these purposes.
    Justice Department Funding.--Indian Country Law Enforcement 
Initiative and Indian Tribal Justice Technical and Legal Assistance Act 
of 2000 (Public Law 106-559)
    (1) Full Funding for Indian Country Law Enforcement Initiative.--
NWTCJA strongly supports full funding for the Indian Country Law 
Enforcement Initiative ($173.3 million in Justice Department funding as 
requested in the Justice Department's fiscal year 2001 budget). NWTCJA 
would like to specifically emphasize our support for the funding of the 
Indian Tribal Court Fund at a level of at least $15 million (Please 
note that this fund was formally authorized by the 106th Congress--see 
Public Law 106-559, Section 201). Through the increased funding for law 
enforcement under the Indian Country Law Enforcement Initiative, more 
police officers have been added throughout Indian Country without the 
accompanying funds to support tribal courts that will be impacted by 
the increased caseloads generated by this increased law enforcement.
    (2) At least $15 million in funding for the Indian Tribal Justice 
Technical and Legal Assistance Act of 2000 (Public Law 106-559).--When 
the 106th Congress enacted Public Law 106-559 in December 2000, it 
recognized the vital legal and technical assistance needs of tribal 
justice systems--finding in part that ``there are both inadequate 
funding and inadequate coordinating mechanisms to meet the technical 
and legal assistance needs of tribal justice systems and this lack of 
adequate technical and legal assistance funding impairs their 
operation'' and promised three grant programs to address these 
Congressional recognized needs. It is vital that Congress provide 
adequate funding for Public Law 106-559 (see the Act itself for more 
specific information). NWTCJA strongly supports funding of Public Law 
106-559 at the level of at least $15 million. Failure to provide this 
funding level will make the Indian Tribal Justice Technical and Legal 
Assistance Act of 2000 (Public Law 106-559) a hollow recognition of 
tribal justice systems needs without providing needed resources. Native 
American tribal courts must deal with a wide range of difficult 
criminal and civil justice problems on a daily basis, including the 
following:
  --The violent crime rate has been declining nationally but increasing 
        substantially in Indian Country. Tribal court systems are 
        grossly under-funded to deal with these criminal justice 
        problems.
  --The case number and complexity of tribal civil caseloads have also 
        been rapidly expanding.
  --Congress recognized this need when it enacted the Indian Tribal 
        Justice Act--specifically finding that ``tribal justice systems 
        are an essential part of tribal governments and serve as 
        important forums for ensuring public health and safety and the 
        political integrity of tribal governments'' and ``tribal 
        justice systems are inadequately funded, and the lack of 
        adequate funding impairs their operation.''
  --While the Indian Tribal Justice Act promised $58.4 million per year 
        in additional funding for tribal court systems starting in 
        fiscal year 1994, THERE HAS BEEN NO FUNDING provided tribal 
        courts under this Act.
  --Since enactment of the Indian Tribal Justice Act, the needs of 
        tribal court systems have continued to increase, with no 
        corresponding increase in funding. In fact, the Bureau of 
        Indian Affairs' funding for tribal courts has actually 
        decreased substantially since the Indian Tribal Justice Act was 
        enacted in 1993.
  --The 106th Congress re-affirmed the Congressional commitment to 
        provide this increased funding for tribal justice systems when 
        it re-authorized the Indian Tribal Justice Act in December 2000 
        for 7 more years of funding at a level of $58.4 million per 
        year (see Public Law 106-559, section 202).
    As the former Attorney General, Janet Reno, stated in testimony 
before the Senate Indian Affairs Committee, it is vital to ``better 
enable Indian tribal courts, historically under-funded and under-
staffed, to meet the demands of burgeoning caseloads.'' The Attorney 
General indicated that the ``lack of a system of graduated sanctions 
through tribal court, that stems from severely inadequate tribal 
justice support, directly contributes to the escalation of adult and 
juvenile criminal activity.''
    The majority of the existing tribal justice systems in the 
Northwest and the more than 100 developing tribal court systems in 
Alaska, function in isolated rural communities. These tribal justice 
systems face many of the same difficulties faced by other isolated 
rural communities, but these problems are greatly magnified by the many 
other complex problems that are unique to Indian country. In addition 
to the previously-mentioned problems, tribal justice systems are faced 
with a lack of jurisdiction over non-Indians, complex jurisdictional 
relationships with Federal and State criminal justice systems, 
inadequate law enforcement, great distance from the few existing 
resources, lack of detention staff and facilities, lack of sentencing 
or disposition alternatives, lack of access to advanced technology, 
lack of substance abuse testing and treatment options, and lack of 
resources to hold people accountable, i.e. no monies for probation. It 
should also be noted that in most tribal justice systems, 80-90 percent 
of the cases filed are criminal cases, and 90 percent of these cases 
involve the difficult problems of alcohol and/or substance abuse. While 
a few tribal courts are just beginning the planning and implementation 
of Drug Courts with monies from the DCPO, these monies are provided for 
only a few years, are limited in amounts, and provide a temporary 
panacea to the ever increasing problem of drug addiction in our young 
people.
                      importance of tribal courts
    ``Tribal courts constitute the frontline tribal institutions that 
most often confront issues of self-determination and sovereignty, while 
at the same time they are charged with providing reliable and equitable 
adjudication in the many and increasingly diverse matters that come 
before them. In addition, they constitute a key tribal entity for 
advancing and protecting the rights of self-government. . . . Tribal 
courts are of growing significance in Indian Country.'' (Frank 
Pommersheim, Braid of Feathers: American Indian Law and Contemporary 
Tribal Law 57 (1995)). Tribal justice systems are the primary and most 
appropriate institutions for maintaining order in tribal communities. 
Former Attorney General Reno acknowledged that, ``With adequate 
resources and training, they are most capable of crime prevention and 
peacekeeping'' (A Federal Commitment to Tribal Justice Systems, 79 
Judicature No. 7, November/December 1995, p. 114). It is her view that 
``fulfilling the Federal Government's trust responsibility to Indian 
nations means not only adequate Federal law enforcement in Indian 
Country, but enhancement of tribal justice systems as well.'' Id.
    Tribal courts agonize over the very same issues State and Federal 
courts confront in the criminal context, such as child sexual abuse, 
alcohol and substance abuse, gang violence and violence against women. 
These courts, however, while striving to address these complex issues 
with far fewer financial resources than their Federal and State 
counterparts must also ``strive to respond competently and creatively 
to Federal and State pressures coming from the outside, and to cultural 
values and imperatives from within.'' (Pommersheim, ``Tribal Courts: 
Providers of Justice and Protectors of Sovereignty,'' 79 Judicature No. 
7, November/December 1995, p. 111). Judicial training that addresses 
the present imperatives posed by the public safety crisis in Indian 
Country, while also being culturally sensitive, is essential for tribal 
courts to be effective in deterring crime in their communities.
    There is no federally-supported institution to provide on-going, 
accessible tribal judicial training or to develop court resource 
materials and management tools, similar to the Federal Judicial Center, 
the National Judicial College or the National Center for State Courts. 
Even though the NWTCJA provides local training, the three or four 
meetings each year with one day of training at each meeting, cannot 
provide the in-depth extensive judicial training necessary to make 
tribal justice systems strong and effective arms of tribal government. 
Furthermore, in these difficult economic times, many tribes cannot 
afford to send judges to the trainings that are offered.
              inadequate funding of tribal justice systems
    There is no question that tribal justice systems are, and 
historically have been, underfunded. The 1991 United States Civil 
Rights Commission found that ``the failure of the United States 
Government to provide proper funding for the operation of tribal 
judicial systems . . . has continued for more than 20 years.'' The 
Indian Civil Rights Act: A Report of the United States Civil Rights 
Commission, June 1991, p. 71. The Commission also noted that 
``[f]unding for tribal judicial systems may be further hampered in some 
instances by the pressures of competing priorities within a tribe.'' 
Moreover, they opined that ``If the United States Government is to live 
up to its trust obligations, it must assist tribal governments in their 
development . . .'' Almost 10 years ago, the Commission ``strongly 
support[ed] the pending and proposed congressional initiatives to 
authorize funding of tribal courts in an amount equal to that of an 
equivalent State court'' and was ``hopeful that this increased funding 
[would] allow for much needed increases in salaries for judges, the 
retention of law clerks for tribal judges, the funding of public 
defenders/defense counsel, and increased access to legal authorities.''
    As indicated by the Civil Rights Commission, the critical financial 
need of tribal courts has been well-documented and ultimately led to 
the passage of the Indian Tribal Justice Act, 25 U.S.C. Sec. 3601 et 
seq. (the ``Act''). Congress found that ``[T]ribal justice systems are 
an essential part of tribal governments and serve as important forums 
for ensuring public health, safety and the political integrity of 
tribal governments.'' 25 U.S.C. Sec. 3601(5). Affirming the findings of 
the Civil Rights Commission, Congress further found that ``tribal 
justice systems are inadequately funded, and the lack of adequate 
funding impairs their operation.'' 25 U.S.C. Sec. 3601(8). In order to 
remedy this lack of funding, the Act authorized appropriation base 
funding support for tribal justice systems in the amount of $50,000,000 
for each of the fiscal years 1994 through 2000. 25 U.S.C. Sec. 3621(b). 
An additional $500,000 for each of the same fiscal years was authorized 
to be appropriated for the administration of Tribal Judicial 
Conferences for the ``development, enhancement and continuing operation 
of tribal justice systems . . .'' 25 U.S.C. Sec. 3614.
    Eight (8) years after the Act was enacted, how much funding has 
been appropriated? Not one single dollar was even requested under the 
Act for fiscal years 1994, 1995, 1997, 1998 or 1999. Only minimal funds 
were requested for fiscal year 1996 and 2000. Yet, even these minimal 
funds were deleted. Even more appalling than the lack of appropriations 
under the Act is the fact that BIA funding for tribal courts has 
actually substantially decreased following the enactment of the Indian 
Tribal Justice Act in 1993 in anticipation of Congress making the 
appropriations Indian Country believed it would. In December 2000, 
Congress re-affirmed its commitment to funding of the Indian Tribal 
Justice Act by re-authorizing the Act for 7 more years of funding (see 
Public Law 106-559, Section 202) but it did so without appropriating 
any monies for that purpose. Now is the time to follow through on this 
long promised funding and provide actual funding under the Indian 
Tribal Justice Act!
                               conclusion
    Tribal justice systems are the primary and most appropriate 
institutions for maintaining order in tribal communities. They are the 
keystone to tribal economic development and self-sufficiency. Any 
serious attempt to fulfill the Federal Government's trust 
responsibility to Indian Nations must include increased funding and 
enhancement of tribal justice systems. The Northwest Tribal Court 
Judges Association welcomes the opportunity to comment on the Justice 
Department's Budget Request for the fiscal year 2002 funding of the 
Indian Country Law Enforcement Initiative and the Indian Tribal Justice 
Technical and Legal Assistance Act of 2000. Thank you very much.
                                 ______
                                 

    Prepared Statement of the National American Indian Court Judges 
                              Association

    On behalf of the National American Indian Court Judges Association 
(NAICJA), I am pleased to submit this written testimony on the fiscal 
year 2002 Appropriations for Justice Department funding of the Indian 
Country Law Enforcement Initiative and the Indian Tribal Justice 
Technical and Legal Assistance Act of 2000 (Public Law 106-559).
    The NAICJA is a voluntary national representative membership 
association (non-profit organization incorporated in 1969) of current 
and former tribal court judges throughout the United States. NAICJA, 
which represents more than 350 tribal justice systems nationwide, has a 
thirty-year track record of providing quality training and technical 
assistance services for tribal justice systems.
    Justice Department Funding.--Indian Country Law Enforcement 
Initiative and Indian Tribal Justice Technical and Legal Assistance Act 
of 2000 (Public Law 106-559)
    (1) Full Funding for Indian Country Law Enforcement Initiative.--
NAICJA strongly supports full funding for the Indian Country Law 
Enforcement Initiative ($173.3 million in Justice Department funding as 
requested in the Justice Department's fiscal year 2001 budget). NAICJA 
would like to specifically emphasize our support for the funding of the 
Indian Tribal Court Fund at a level of at least $15 million (Please 
note that this fund was formally authorized by the 106th Congress--see 
Public Law 106-559, section 201). Through the increased funding for law 
enforcement under the Indian Country Law Enforcement Initiative, more 
police officers have been added throughout Indian Country. Without 
substantial additional funding, tribal courts will be unable to handle 
the increased caseloads generated by this increased law enforcement.
    (2) At least $15 million in funding for the Indian Tribal Justice 
Technical and Legal Assistance Act of 2000 (Public Law 106-559).--When 
the 106th Congress enacted Public Law 106-559 in December 2000, it 
recognized the vital legal and technical assistance needs of tribal 
justice systems--finding in part that ``there is both inadequate 
funding and inadequate coordinating mechanism to meet the technical and 
legal assistance needs of tribal justice systems and this lack of 
adequate technical and legal assistance funding impairs their 
operation'' and promised three grant programs to address these 
Congressional recognized needs. It is vital that Congress provide 
adequate funding for Public Law 106-559 (see the Act itself for more 
specific information). NAICJA strongly supports funding of Public Law 
106-559 at the level of at least $15 million. Failure to provide this 
funding level would make the Indian Tribal Justice Technical and Legal 
Assistance Act of 2000 (Public Law 106-559) a hollow recognition of 
tribal justice systems needs without providing needed resources. Native 
American tribal courts must deal with a wide range of difficult 
criminal and civil justice problems on a daily basis, including the 
following:
  --While the crime rate, especially the violent crime rate, has been 
        declining nationally, it has increased substantially in Indian 
        Country. Tribal court systems are grossly under-funded to deal 
        with these criminal justice problems.
  --Number/complexity of tribal civil caseloads have also been rapidly 
        expanding.
  --Congress recognized this need when it enacted the Indian Tribal 
        Justice Act--specifically finding that ``tribal justice systems 
        are an essential part of tribal governments and serve as 
        important forums for ensuring public health and safety and the 
        political integrity of tribal governments'' and ``tribal 
        justice systems are inadequately funded, and the lack of 
        adequate funding impairs their operation.''
  --While the Indian Tribal Justice Act promised $58.4 million per year 
        in additional funding for tribal court systems starting in 
        fiscal year 1994, tribal courts have yet to see ANY funding 
        under this Act.
  --Since Congress enacted the Indian Tribal Justice Act, the needs of 
        tribal court systems have continued to increase, but there has 
        been no corresponding increase in funding for tribal court 
        systems. In fact, the Bureau of Indian Affairs funding for 
        tribal courts has actually decreased substantially since the 
        Indian Tribal Justice Act was enacted in 1993.
  --The 106th Congress re-affirmed the Congressional commitment to 
        provide this increased funding for tribal justice systems when 
        it re-authorized the Indian Tribal Justice Act in December 2000 
        for seven more years of funding at a level of $58.4 million per 
        year (see Public Law 106-559, section 202).
    As Attorney General Janet Reno stated in testimony before the 
Senate Indian Affairs Committee on, it is vital to ``better enable 
Indian tribal courts, historically under-funded and under-staffed, to 
meet the demands of burgeoning case loads.'' The Attorney General 
indicated that the ``lack of a system of graduated sanctions through 
tribal court, that stems from severely inadequate tribal justice 
support, directly contributes to the escalation of adult and juvenile 
criminal activity.''
    The vast majority of the approximately 350 tribal court systems 
function in isolated rural communities. These tribal justice systems 
face many of the same difficulties faced by other isolated rural 
communities, but these problems are greatly magnified by the many other 
complex problems that are unique to Indian country. In addition to the 
previously mentioned problems, tribal justice systems are faced with a 
lack of jurisdiction over non-Indians, complex jurisdictional 
relationships with Federal and State criminal justice systems, 
inadequate law enforcement, great distance from the few existing 
resources, lack of detention staff and facilities, lack of sentencing 
or disposition alternatives, lack of access to advanced technology, 
lack of substance abuse testing and treatment options, etc. It should 
also be noted that in most tribal justice systems, 80-90 percent of the 
cases are criminal case and 90 percent of these cases involve the 
difficult problems of alcohol and/or substance abuse.
                      importance of tribal courts
    ``Tribal courts constitute the frontline tribal institutions that 
most often confront issues of self-determination and sovereignty, while 
at the same time they are charged with providing reliable and equitable 
adjudication in the many and increasingly diverse matters that come 
before them. In addition, they constitute a key tribal entity for 
advancing and protecting the rights of self-government. . .  Tribal 
courts are of growing significance in Indian Country.'' (Frank 
Pommersheim, Braid of Feathers: American Indian Law and Contemporary 
Tribal Law 57 (1995)). Tribal justice systems are the primary and most 
appropriate institutions for maintaining order in tribal communities. 
Attorney General Reno acknowledged that, ``With adequate resources and 
training, they are most capable of crime prevention and peacekeeping'' 
(A Federal Commitment to Tribal Justice Systems, 79 Judicature No. 7, 
November/December 1995, p. 114). It is her view that ``fulfilling the 
Federal Government's trust responsibility to Indian nations means not 
only adequate Federal law enforcement in Indian Country, but 
enhancement of tribal justice systems as well.'' Id.
    Tribal courts agonize over the very same issues State and Federal 
courts confront in the criminal context, such as, child sexual abuse, 
alcohol and substance abuse, gang violence and violence against women. 
These courts, however, while striving to address these complex issues 
with far fewer financial resources than their Federal and State 
counterparts must also ``strive to respond competently and creatively 
to Federal and State pressures coming from the outside, and to cultural 
values and imperatives from within.'' (Pommersheim, ``Tribal Courts: 
Providers of Justice and Protectors of Sovereignty,'' 79 Judicature No. 
7, November/December 1995, p. 111). Judicial training that addresses 
the present imperatives posed by the public safety crisis in Indian 
Country, while also being culturally sensitive, is essential for tribal 
courts to be effective in deterring crime in their communities.
    There is no federally supported institution to provide on-going, 
accessible tribal judicial training or to develop court resource 
materials and management tools, similar the Federal Judicial Center, 
the National Judicial College or the National Center for State Courts. 
Even though the NAICJA annually sponsors the National Tribal Judicial 
Conference, the three-day conference cannot provide the in-depth 
extensive judicial training necessary to make tribal justice systems 
strong and effective arms of tribal government.
              inadequate funding of tribal justice systems
    There is no question that tribal justice systems are, and 
historically have been, underfunded. The 1991 United States Civil 
Rights Commission found that ``the failure of the United States 
Government to provide proper funding for the operation of tribal 
judicial systems . . . has continued for more than 20 years.'' The 
Indian Civil Rights Act: A Report of the United States Civil Rights 
Commission, June 1991, p. 71. The Commission also noted that 
``[f]unding for tribal judicial systems may be further hampered in some 
instances by the pressures of competing priorities within a tribe.'' 
Moreover, they opined that ``If the United States Government is to live 
up to its trust obligations, it must assist tribal governments in their 
development . . .'' Almost ten years ago, the Commission ``strongly 
support[ed] the pending and proposed congressional initiatives to 
authorize funding of tribal courts in an amount equal to that of an 
equivalent State court'' and was ``hopeful that this increased funding 
[would] allow for much needed increases in salaries for judges, the 
retention of law clerks for tribal judges, the funding of public 
defenders/defense counsel, and increased access to legal authorities.''
    As indicated by the Civil Rights Commission, the critical financial 
need of tribal courts has been well documented and ultimately led to 
the passage of the Indian Tribal Justice Act, 25 U.S.C. Sec. 3601 et 
seq. (the ``Act''). Congress found that ``[T]ribal justice systems are 
an essential part of tribal governments and serve as important forums 
for ensuring public health, safety and the political integrity of 
tribal governments.'' 25 U.S.C. Sec. 3601(5). Affirming the findings of 
the Civil Rights Commission, Congress further found that ``tribal 
justice systems are inadequately funded, and the lack of adequate 
funding impairs their operation.'' 25 U.S.C. Sec. 3601(8). In order to 
remedy this lack of funding, the Act authorized appropriation base 
funding support for tribal justice systems in the amount of $50,000,000 
for each of the fiscal years 1994 through 2000. 25 U.S.C. Sec. 3621(b). 
An additional $500,000 for each of the same fiscal years was authorized 
to be appropriated for the administration of Tribal Judicial 
Conferences for the ``development, enhancement and continuing operation 
of tribal justice systems . . .'' 25 U.S.C. Sec. 3614.
    Eight (8) years after the Act was enacted, how much funding has 
been appropriated? None. Not a single dollar was even requested under 
the Act for fiscal years 1994, 1995, 1997, 1998 or 1999. Only minimal 
funds were requested for fiscal year 1996 and 2000. Yet, even these 
minimal funds were deleted. Even more appalling than the lack of 
appropriations under the Act is the fact that BIA funding for tribal 
courts has actually substantially decreased following the enactment of 
the Indian Tribal Justice Act in 1993. In December 2000, Congress re-
affirmed its commitment to funding of the Indian Tribal Justice Act by 
re-authorizing the Act for seven more years of funding (see Public Law 
106-559, section 202). Now is the time to follow through on this long 
promised funding and provide actual funding under the Indian Tribal 
Justice Act!
                               conclusion
    Tribal justice systems are the primary and most appropriate 
institutions for maintaining order in tribal communities. They are the 
keystone to tribal economic development and self-sufficiency. Any 
serious attempt to fulfill the Federal Government's trust 
responsibility to Indian Nations must include increased funding and 
enhancement of tribal justice systems.
    We welcome the opportunity to comment on the Justice Department's 
Budget Request for the fiscal year 2002 funding of the Indian Country 
Law Enforcement Initiative and the Indian Tribal Justice Technical and 
Legal Assistance Act of 2000 (Public Law 106-559). Thank you very much.
                                 ______
                                 

         Prepared Statement of the Alaska Inter-Tribal Council

    On behalf of the Alaska Inter-Tribal Council (AITC), I am pleased 
to submit this written testimony on the fiscal year 2002 Appropriations 
for Justice Department funding of the Indian Country Law Enforcement 
Initiative and the Indian Tribal Justice Technical and Legal Assistance 
Act of 2000 (Public Law 106-559).
    The AITC is a statewide organization comprised of 176 federally 
recognized member Tribes dedicated to promoting, supporting and 
advocating for the powers and rights of Alaska Tribal governments 
including the development and perpetuation of tribal justice systems, 
the exercise of judicial authority and the administration of justice.
    Justice Department Funding.--Indian Country Law Enforcement 
Initiative and Indian Tribal Justice Technical and Legal Assistance Act 
of 2000 (Public Law 106-559)
    (1) Full Funding for Indian Country Law Enforcement Initiative.--
AITC strongly supports full funding for the Indian Country Law 
Enforcement Initiative ($173.3 million in Justice Department funding as 
requested in the Justice Department's fiscal year 2001 budget). AITC 
would like to specifically emphasize our support for the funding of the 
Indian Tribal Court Fund at a level of at least $15 million (Please 
note that this fund was formally authorized by the 106th Congress--see 
Public Law 106-559, section 201). Through the increased funding for law 
enforcement under the Indian Country Law Enforcement Initiative, more 
police officers have been added throughout Indian Country. Without 
substantial additional funding, tribal courts will be unable to handle 
the increased caseloads generated by this increased law enforcement.
    (2) At least $15 million in funding for the Indian Tribal Justice 
Technical and Legal Assistance Act of 2000 (Public Law 106-559). When 
the 106th Congress enacted Public Law 106-559 in December 2000, it 
recognized the vital legal and technical assistance needs of tribal 
justice systems--finding in part that ``there is both inadequate 
funding and inadequate coordinating mechanism to meet the technical and 
legal assistance needs of tribal justice systems and this lack of 
adequate technical and legal assistance funding impairs their 
operation'' and promised three grant programs to address these 
Congressional recognized needs. It is vital that Congress provide 
adequate funding for Public Law 106-559 (see the Act itself for more 
specific information). AITC strongly supports funding of Public Law 
106-559 at the level of at least $15 million. Failure to provide this 
funding level would make the Indian Tribal Justice Technical and Legal 
Assistance Act of 2000 (Public Law 106-559) a hollow recognition of 
tribal justice systems needs without providing needed resources. Alaska 
Native and Native American tribal courts must deal with a wide range of 
difficult criminal and civil justice problems on a daily basis, 
including the following:
  --While the crime rate, especially the violent crime rate, has been 
        declining nationally, it has increased substantially in tribal 
        communities nationwide. Tribal court systems are grossly under-
        funded to deal with these criminal justice problems.
  --Number/complexity of tribal civil caseloads have also been rapidly 
        expanding.
  --Congress recognized this need when it enacted the Indian Tribal 
        Justice Act--specifically finding that ``tribal justice systems 
        are an essential part of tribal governments and serve as 
        important forums for ensuring public health and safety and the 
        political integrity of tribal governments'' and ``tribal 
        justice systems are inadequately funded, and the lack of 
        adequate funding impairs their operation.''
  --While the Indian Tribal Justice Act promised $58.4 million per year 
        in additional funding for tribal court systems starting in 
        fiscal year 1994, tribal courts have yet to see ANY funding 
        under this Act.
  --Since Congress enacted the Indian Tribal Justice Act, the needs of 
        tribal court systems have continued to increase, but there has 
        been no corresponding increase in funding for tribal court 
        systems. In fact, the Bureau of Indian Affairs funding for 
        tribal courts has actually decreased substantially since the 
        Indian Tribal Justice Act was enacted in 1993. Moreover, Alaska 
        Native Tribes have historically never had access to BIA funds 
        for tribal courts or law enforcement.
  --The 106th Congress re-affirmed the Congressional commitment to 
        provide this increased funding for tribal justice systems when 
        it re-authorized the Indian Tribal Justice Act in December 2000 
        for seven more years of funding at a level of $58.4 million per 
        year (see Public Law 106-559, section 202).
    As Attorney General Janet Reno stated in testimony before the 
Senate Indian Affairs Committee on, it is vital to ``better enable 
Indian tribal courts, historically under-funded and under-staffed, to 
meet the demands of burgeoning case loads.'' The Attorney General 
indicated that the ``lack of a system of graduated sanctions through 
tribal court, that stems from severely inadequate tribal justice 
support, directly contributes to the escalation of adult and juvenile 
criminal activity.''
    Since time immemorial Alaska Native Tribes have maintained peace, 
law and order in their communities through the exercise of indigenous 
juridical, social and political authority. Today, Alaska Natives 
continue to administer justice through their modern day Tribal 
governments, councils and courts. Over 100 of the 229 federally 
recognized Tribes located in Alaska are actively establishing or 
operating single tribal courts systems, inter-tribal/regional and/or 
appellate courts. This constitutes a significant amount of tribal court 
activity nationwide since almost half (229) of the Tribes in the United 
States are located in Alaska. The vast majority of the approximately 
100 tribal court systems in Alaska function in isolated rural 
communities. Moreover, most Alaska Tribal courts are intervening in 
domestic relations and civil/family law matters involving child 
protection, adoptions, child custody and juvenile delinquency. These 
tribal justice systems face many of the same difficulties faced by 
other tribes in the lower 48 States and other isolated rural 
communities. These problems are greatly magnified by the many other 
complex problems that are unique to Tribes. For instance, tribal 
justice systems are faced with complex jurisdictional relationships 
with Federal and State criminal justice systems, inadequate law 
enforcement, great distance from the few existing resources, lack of 
detention staff and facilities, lack of sentencing or disposition 
alternatives, lack of access to advanced technology, lack of substance 
abuse testing and treatment options, etc. It should also be noted that 
in most tribal justice systems, 80-90 percent of the cases are criminal 
cases and 90 percent of these cases involve the difficult problems of 
alcohol and/or substance abuse.
                      importance of tribal courts
    ``Tribal courts constitute the frontline tribal institutions that 
most often confront issues of self-determination and sovereignty, while 
at the same time they are charged with providing reliable and equitable 
adjudication in the many and increasingly diverse matters that come 
before them. In addition, they constitute a key tribal entity for 
advancing and protecting the rights of self-government. . . . Tribal 
courts are of growing significance in Indian Country.'' (Frank 
Pommersheim, Braid of Feathers: American Indian Law and Contemporary 
Tribal Law 57 (1995). Tribal justice systems are the primary and most 
appropriate institutions for maintaining order in tribal communities. 
Attorney General Reno acknowledged that, ``With adequate resources and 
training, they are most capable of crime prevention and peacekeeping'' 
(A Federal Commitment to Tribal Justice Systems, 79 Judicature No. 7, 
November/December 1995, p. 114). These courts, however, while striving 
to address these complex issues with far fewer financial resources than 
their Federal and State counterparts must also ``strive to respond 
competently and creatively to Federal and State pressures coming from 
the outside, and to cultural values and imperatives from within.'' 
(Pommersheim, ``Tribal Courts: Providers of Justice and Protectors of 
Sovereignty,'' 79 Judicature No. 7, November/December 1995, p. 111).
              inadequate funding of tribal justice systems
    There is no question that tribal justice systems are, and 
historically have been, underfunded. The 1991 United States Civil 
Rights Commission found that ``the failure of the United States 
Government to provide proper funding for the operation of tribal 
judicial systems . . . has continued for more than 20 years.'' The 
Indian Civil Rights Act: A Report of the United States Civil Rights 
Commission, June 1991, p. 71. The Commission also noted that 
``[f]unding for tribal judicial systems may be further hampered in some 
instances by the pressures of competing priorities within a tribe.'' 
Moreover, they opined that ``If the United States Government is to live 
up to its trust obligations, it must assist tribal governments in their 
development . . .'' Almost ten years ago, the Commission ``strongly 
support[ed] the pending and proposed congressional initiatives to 
authorize funding of tribal courts in an amount equal to that of an 
equivalent State court'' and was ``hopeful that this increased funding 
[would] allow for much needed increases in salaries for judges, the 
retention of law clerks for tribal judges, the funding of public 
defenders/defense counsel, and increased access to legal authorities.''
    As indicated by the Civil Rights Commission, the critical financial 
need of tribal courts has been well documented and ultimately led to 
the passage of the Indian Tribal Justice Act, 25 U.S.C. Sec. 3601 et 
seq. (the ``Act''). Congress found that ``[T]ribal justice systems are 
an essential part of tribal governments and serve as important forums 
for ensuring public health, safety and the political integrity of 
tribal governments.'' 25 U.S.C. Sec. 3601(5). Affirming the findings of 
the Civil Rights Commission, Congress further found that ``tribal 
justice systems are inadequately funded, and the lack of adequate 
funding impairs their operation.'' 25 U.S.C. Sec. 3601(8). In order to 
remedy this lack of funding, the Act authorized appropriation base 
funding support for tribal justice systems in the amount of $50,000,000 
for each of the fiscal years 1994 through 2000. 25 U.S.C. Sec. 3621(b). 
An additional $500,000 for each of the same fiscal years was authorized 
to be appropriated for the administration of Tribal Judicial 
Conferences for the ``development, enhancement and continuing operation 
of tribal justice systems . . .'' 25 U.S.C. Sec. 3614.
    Eight (8) years after the Act was enacted, how much funding has 
been appropriated? None. Not a single dollar was even requested under 
the Act for fiscal years 1994, 1995, 1997, 1998 or 1999. Only minimal 
funds were requested for fiscal year 1996 and 2000. Yet, even these 
minimal funds were deleted. Even more appalling than the lack of 
appropriations under the Act is the fact that BIA funding for tribal 
courts has actually substantially decreased following the enactment of 
the Indian Tribal Justice Act in 1993. In December 2000, Congress re-
affirmed its commitment to funding of the Indian Tribal Justice Act by 
re-authorizing the Act for seven more years of funding (see Public Law 
106-559, section 202). Now is the time to follow through on this long 
promised funding and provide actual funding under the Indian Tribal 
Justice Act!
                               conclusion
    Tribal justice systems are the primary and most appropriate 
institutions for maintaining order in tribal communities. They are the 
keystone to tribal economic development and self-sufficiency. Any 
serious attempt to fulfill the Federal Government's trust 
responsibility to Indian Nations must include increased funding and 
enhancement of tribal justice systems.
    We welcome the opportunity to comment on the Justice Department 
funding of the Indian Country Law Enforcement Initiative and the Indian 
Tribal Justice Technical and Legal Assistance Act of 2000 (Public Law 
106-559).
                                 ______
                                 

       Prepared Statement of the Tribal Law and Policy Institute

    On behalf of the Tribal Law and Policy Institute, I am pleased to 
submit this written testimony on the fiscal year 2002 Appropriations 
for Justice Department funding of the Indian Country Law Enforcement 
Initiative and the Indian Tribal Justice Technical and Legal Assistance 
Act of 2000 (Public Law 106-559).
    The Tribal Law and Policy Institute is a Native American owned and 
operated non-profit corporation organized to design and deliver 
education, research, training, and technical assistance programs which 
promote the enhancement of justice in Indian country and the health, 
well-being, and culture of Native peoples.
    Justice Department Funding.--Indian Country Law Enforcement 
Initiative and Indian Tribal Justice Technical and Legal Assistance Act 
of 2000 (Public Law 106-559)
    (1) Full Funding for Indian Country Law Enforcement Initiative.--
AITC strongly supports full funding for the Indian Country Law 
Enforcement Initiative ($173.3 million in Justice Department funding as 
requested in the Justice Department's fiscal year 2001 budget). AITC 
would like to specifically emphasize our support for the funding of the 
Indian Tribal Court Fund at a level of at least $15 million (Please 
note that this fund was formally authorized by the 106th Congress--see 
Public Law 106-559, section 201). Through the increased funding for law 
enforcement under the Indian Country Law Enforcement Initiative, more 
police officers have been added throughout Indian Country. Without 
substantial additional funding, tribal courts will be unable to handle 
the increased caseloads generated by this increased law enforcement.
    (2) At least $15 million in funding for the Indian Tribal Justice 
Technical and Legal Assistance Act of 2000 (Public Law 106-559). When 
the 106th Congress enacted Public Law 106-559 in December 2000, it 
recognized the vital legal and technical assistance needs of tribal 
justice systems--finding in part that ``there is both inadequate 
funding and inadequate coordinating mechanism to meet the technical and 
legal assistance needs of tribal justice systems and this lack of 
adequate technical and legal assistance funding impairs their 
operation'' and promised three grant programs to address these 
Congressional recognized needs. It is vital that Congress provide 
adequate funding for Public Law 106-559 (see the Act itself for more 
specific information). AITC strongly supports funding of Public Law 
106-559 at the level of at least $15 million. Failure to provide this 
funding level would make the Indian Tribal Justice Technical and Legal 
Assistance Act of 2000 (Public Law 106-559) a hollow recognition of 
tribal justice systems needs without providing needed resources. Alaska 
Native and Native American tribal courts must deal with a wide range of 
difficult criminal and civil justice problems on a daily basis, 
including the following:
  --While the crime rate, especially the violent crime rate, has been 
        declining nationally, it has increased substantially in tribal 
        communities nationwide. Tribal court systems are grossly under-
        funded to deal with these criminal justice problems.
  --Number/complexity of tribal civil caseloads have also been rapidly 
        expanding.
  --Congress recognized this need when it enacted the Indian Tribal 
        Justice Act--specifically finding that ``tribal justice systems 
        are an essential part of tribal governments and serve as 
        important forums for ensuring public health and safety and the 
        political integrity of tribal governments'' and ``tribal 
        justice systems are inadequately funded, and the lack of 
        adequate funding impairs their operation.''
  --While the Indian Tribal Justice Act promised $58.4 million per year 
        in additional funding for tribal court systems starting in 
        fiscal year 1994, tribal courts have yet to see ANY funding 
        under this Act.
  --Since Congress enacted the Indian Tribal Justice Act, the needs of 
        tribal court systems have continued to increase, but there has 
        been no corresponding increase in funding for tribal court 
        systems. In fact, the Bureau of Indian Affairs funding for 
        tribal courts has actually decreased substantially since the 
        Indian Tribal Justice Act was enacted in 1993. Moreover, Alaska 
        Native Tribes have historically never had access to BIA funds 
        for tribal courts or law enforcement.
  --The 106th Congress re-affirmed the Congressional commitment to 
        provide this increased funding for tribal justice systems when 
        it re-authorized the Indian Tribal Justice Act in December 2000 
        for seven more years of funding at a level of $58.4 million per 
        year (see Public Law 106-559, section 202).
    As Attorney General Janet Reno stated in testimony before the 
Senate Indian Affairs Committee on, it is vital to ``better enable 
Indian tribal courts, historically under-funded and under-staffed, to 
meet the demands of burgeoning case loads.'' The Attorney General 
indicated that the ``lack of a system of graduated sanctions through 
tribal court, that stems from severely inadequate tribal justice 
support, directly contributes to the escalation of adult and juvenile 
criminal activity.''
    Since time immemorial Alaska Native Tribes have maintained peace, 
law and order in their communities through the exercise of indigenous 
juridical, social and political authority. Today, Alaska Natives 
continue to administer justice through their modern day Tribal 
governments, councils and courts. Over 100 of the 229 federally 
recognized Tribes located in Alaska are actively establishing or 
operating single tribal courts systems, inter-tribal/regional and/or 
appellate courts. This constitutes a significant amount of tribal court 
activity nationwide since almost half (229) of the Tribes in the United 
States are located in Alaska. The vast majority of the approximately 
100 tribal court systems in Alaska function in isolated rural 
communities. Moreover, most Alaska Tribal courts are intervening in 
domestic relations and civil/family law matters involving child 
protection, adoptions, child custody and juvenile delinquency. These 
tribal justice systems face many of the same difficulties faced by 
other tribes in the lower 48 States and other isolated rural 
communities. These problems are greatly magnified by the many other 
complex problems that are unique to Tribes. For instance, tribal 
justice systems are faced with complex jurisdictional relationships 
with Federal and State criminal justice systems, inadequate law 
enforcement, great distance from the few existing resources, lack of 
detention staff and facilities, lack of sentencing or disposition 
alternatives, lack of access to advanced technology, lack of substance 
abuse testing and treatment options, etc. It should also be noted that 
in most tribal justice systems, 80-90 percent of the cases are criminal 
cases and 90 percent of these cases involve the difficult problems of 
alcohol and/or substance abuse.
                      importance of tribal courts
    ``Tribal courts constitute the frontline tribal institutions that 
most often confront issues of self-determination and sovereignty, while 
at the same time they are charged with providing reliable and equitable 
adjudication in the many and increasingly diverse matters that come 
before them. In addition, they constitute a key tribal entity for 
advancing and protecting the rights of self-government. . . . Tribal 
courts are of growing significance in Indian Country.'' (Frank 
Pommersheim, Braid of Feathers: American Indian Law and Contemporary 
Tribal Law 57 (1995). Tribal justice systems are the primary and most 
appropriate institutions for maintaining order in tribal communities. 
Attorney General Reno acknowledged that, ``With adequate resources and 
training, they are most capable of crime prevention and peacekeeping'' 
(A Federal Commitment to Tribal Justice Systems, 79 Judicature No. 7, 
November/December 1995, p. 114). These courts, however, while striving 
to address these complex issues with far fewer financial resources than 
their Federal and State counterparts must also ``strive to respond 
competently and creatively to Federal and State pressures coming from 
the outside, and to cultural values and imperatives from within.'' 
(Pommersheim, ``Tribal Courts: Providers of Justice and Protectors of 
Sovereignty,'' 79 Judicature No. 7, November/December 1995, p. 111).
              inadequate funding of tribal justice systems
    There is no question that tribal justice systems are, and 
historically have been, underfunded. The 1991 United States Civil 
Rights Commission found that ``the failure of the United States 
Government to provide proper funding for the operation of tribal 
judicial systems . . . has continued for more than 20 years.'' The 
Indian Civil Rights Act: A Report of the United States Civil Rights 
Commission, June 1991, p. 71. The Commission also noted that 
``[f]unding for tribal judicial systems may be further hampered in some 
instances by the pressures of competing priorities within a tribe.'' 
Moreover, they opined that ``If the United States Government is to live 
up to its trust obligations, it must assist tribal governments in their 
development . . .'' Almost ten years ago, the Commission ``strongly 
support[ed] the pending and proposed congressional initiatives to 
authorize funding of tribal courts in an amount equal to that of an 
equivalent State court'' and was ``hopeful that this increased funding 
[would] allow for much needed increases in salaries for judges, the 
retention of law clerks for tribal judges, the funding of public 
defenders/defense counsel, and increased access to legal authorities.''
    As indicated by the Civil Rights Commission, the critical financial 
need of tribal courts has been well documented and ultimately led to 
the passage of the Indian Tribal Justice Act, 25 U.S.C. Sec. 3601 et 
seq. (the ``Act''). Congress found that ``[T]ribal justice systems are 
an essential part of tribal governments and serve as important forums 
for ensuring public health, safety and the political integrity of 
tribal governments.'' 25 U.S.C. Sec. 3601(5). Affirming the findings of 
the Civil Rights Commission, Congress further found that ``tribal 
justice systems are inadequately funded, and the lack of adequate 
funding impairs their operation.'' 25 U.S.C. Sec. 3601(8). In order to 
remedy this lack of funding, the Act authorized appropriation base 
funding support for tribal justice systems in the amount of $50,000,000 
for each of the fiscal years 1994 through 2000. 25 U.S.C. Sec. 3621(b). 
An additional $500,000 for each of the same fiscal years was authorized 
to be appropriated for the administration of Tribal Judicial 
Conferences for the ``development, enhancement and continuing operation 
of tribal justice systems . . .'' 25 U.S.C. Sec. 3614.
    Eight (8) years after the Act was enacted, how much funding has 
been appropriated? None. Not a single dollar was even requested under 
the Act for fiscal years 1994, 1995, 1997, 1998 or 1999. Only minimal 
funds were requested for fiscal year 1996 and 2000. Yet, even these 
minimal funds were deleted. Even more appalling than the lack of 
appropriations under the Act is the fact that BIA funding for tribal 
courts has actually substantially decreased following the enactment of 
the Indian Tribal Justice Act in 1993. In December 2000, Congress re-
affirmed its commitment to funding of the Indian Tribal Justice Act by 
re-authorizing the Act for seven more years of funding (see Public Law 
106-559, section 202). Now is the time to follow through on this long 
promised funding and provide actual funding under the Indian Tribal 
Justice Act!
                               conclusion
    Tribal justice systems are the primary and most appropriate 
institutions for maintaining order in tribal communities. They are the 
keystone to tribal economic development and self-sufficiency. Any 
serious attempt to fulfill the Federal Government's trust 
responsibility to Indian Nations must include increased funding and 
enhancement of tribal justice systems.
    We welcome the opportunity to comment on the Justice Department 
funding of the Indian Country Law Enforcement Initiative and the Indian 
Tribal Justice Technical and Legal Assistance Act of 2000 (Public Law 
106-559).
    Thank you very much.
                                 ______
                                 

     Prepared Statement of the National Center for Victims of Crime

    My name is Susan Herman, and I am the executive director of the 
National Center for Victims of Crime. I submit this testimony to urge 
members of the Subcommittee on Commerce, Justice, State and the 
Judiciary to remove the cap on the Victims of Crime Act (VOCA) Fund and 
allow all money in the Fund to be obligated according to statutory 
formula. In addition, I urge you to prevent the addition of new 
earmarks off the top of the VOCA Fund.
    The National Center for Victims of Crime is the nation's largest 
nonprofit advocacy and resource organization serving victims of all 
crime. Since its founding in 1985, the National Center has worked with 
nearly 10,000 public and private non-profit organizations and agencies 
across the country, and has provided information, support, and 
technical assistance to hundreds of thousands of victims, victim 
service providers, allied professionals, and advocates.
    As you may know, the VOCA Fund was created by Congress in 1984 to 
provide Federal support to the many state and local programs that 
assist victims of crime. The VOCA Fund is derived entirely from fines 
and penalties on offenders at the Federal level, and the bulk of the 
Fund is distributed to the States through a formula grant. The State 
money is split between the crime victim compensation programs, which 
pay many of the out-of-pocket expenses of victims, and victim services 
such as rape crisis centers, domestic violence shelters, victim 
assistants in law enforcement and prosecutor offices, and other direct 
services to victims of crime. Under the VOCA formula, States have four 
years to spend a given year's distribution, giving them adequate time 
to plan for the most effective use of this money.
    For the past two years, through the appropriations process, the 
amount of money available to the States has been capped at 
approximately $500 million, despite collections of over $1 billion. 
Removing the cap on the VOCA Fund, allowing that money to be put to the 
purpose for which Congress originally intended it, would make a 
tremendous difference to crime victims nationwide.
    The National Center hears from victim service providers every day 
about the significant unmet needs in every corner of the country. Some 
examples of this need include:
  --Victim assistant positions in law enforcement agencies.--Most 
        police agencies have no crime victim assistant, who can make 
        sure victims receive appropriate referrals, are informed about 
        the availability of crime victim compensation, and help answer 
        victims' questions about the status of their case. Unless such 
        a position exists at the law enforcement level, victims whose 
        cases do not result in an arrest and charging will be deprived 
        of any system-based services.
  --Services to immigrant victims of crime.--All over the country, 
        there are limited services, or a even complete absence of 
        services, for large groups of immigrant victims of crime. Such 
        victims are often linguistically or culturally isolated. 
        Without the availability of interpreters, such victims cannot 
        access the services that may otherwise be available. 
        Additionally, victims who come from a society where the police 
        are not trusted, or where sexual violence is unmentioned or 
        domestic violence is condoned, often require a different 
        approach to providing services. Effective victim services 
        require ready access to service providers who are culturally 
        knowledgeable and sensitive to these varying needs.
  --Services to victims in rural jurisdictions.--While every State 
        provides services to victims of crime, too many victims in 
        rural jurisdictions still lack access to basic services. In 
        many parts of the country, victims are hundreds of miles from 
        the nearest rape crisis center or battered women's shelter.
  --Assistance to victims with disabilities.--One area of greatest need 
        is in reaching and serving crime victims with disabilities--
        developmentally disabled victims, mentally ill victims, hearing 
        impaired victims, and others whose disability makes them 
        simultaneously more vulnerable to crime and less able to access 
        existing services.
    In addition to those services, many States have a need to fund one-
time expenses, which are unlikely to be funded without a large influx 
of money. A few examples include:
  --Automated notification systems.--Many States would like to 
        implement automated crime victim notification systems, that 
        automatically telephone crime victims when defendants are 
        released or escape, or send written notice of criminal justice 
        proceedings. These systems require significant design and 
        development funds, but far less money to maintain after that. 
        Automated notification systems are especially important for 
        domestic violence, sexual assault, and stalking victims, who 
        are often at risk when a defendant is released. Such systems 
        also make it easy for women to update their contact information 
        as they relocate.
      An automated notification system would make it easier to extend 
        legal rights to victims of domestic violence and stalking in 
        the States that don't currently provide such rights now. Many 
        State victims' bills of rights apply only to victims of 
        felonies. Domestic violence is often charged as a misdemeanor. 
        The criminal justice system often argues that it would be too 
        expensive to provide rights to victims of misdemeanors, largely 
        due to costs involved in notifying victims of releases and 
        court proceedings. Once an automated notification system is in 
        place, it is relatively inexpensive to include domestic 
        violence victims in crime victims' bills of rights.
  --Statewide victimization surveys and needs assessments.--A number of 
        States would like to conduct a statewide victimization survey 
        and needs assessment to more clearly identify which 
        jurisdictions and victim populations are underserved, and how 
        best to allocate resources. With the pressure to fund existing 
        programs each year, there hasn't been the ``extra'' money to 
        set aside for such surveys that would lead to greater 
        efficiency and more appropriate services for victims of crime.
  --Translation services.--Victim assistance programs are acutely aware 
        of the need for translation services that would allow non-
        English speaking victims to access services. The translation of 
        written materials, the development of public service 
        announcements in other languages, and the creation of programs 
        to identify interpreters would help reach this underserved 
        population.
  --Other investments to enhance victim services.--There are many other 
        important funding needs for victim programs that do not involve 
        new programs or hiring additional staff. Many victim services 
        programs do not have computers, or have no Internet access. 
        This technology would improve their capacity to serve victims 
        of crime. There is also a great need for case management 
        software and assessment tools to help programs improve and 
        evaluate their effectiveness in serving victims of crime. Money 
        to develop those tools would largely be a one-time expenditure.
    We understand that because the VOCA Fund fluctuates from year to 
year, there is some concern that extra money available one year would 
simply mean the creation of new positions that can't be sustained. 
There is certainly a need to expand programs that provide direct 
assistance to victims of crime, and part of any increase in funding 
would likely be directed to that need. However, as described above, 
there are also many important projects--projects that do not involve 
the creation of new permanent staff positions or ongoing expenses--that 
States could fund with a significant but non-recurring increase in 
funds.
    Moreover, States have the ability to plan for financial stability 
over time. Under the VOCA formula, States have four years to spend a 
given year's allocation, so States can plan their spending to provide 
stability over a few years. Fluctuations in funding levels is a problem 
the States should solve, not the Federal Government. In addition, as 
described above, there are many one-time expenses the influx would be 
applied to.
    Moreover, there is no reason to believe collections for the VOCA 
Fund will drop for a prolonged period. Though deposits into the VOCA 
Fund do vary from year to year, the general trend has been an increase 
in the amount of money in the Fund. Again, the bulk of the money 
deposited in the VOCA Fund comes from fines on offenders at the Federal 
level. Why should we expect the Department of Justice to become less 
vigilant in its prosecution of Federal crimes?
    All of these reasons mitigate against the fear that removing the 
cap on the VOCA Fund would result in a significant increase in staff 
positions that would have to be cut the following year.
    We also urge you to discontinue earmarks for Federal positions off 
the top of the VOCA Fund. In the past two years, in addition to the 
cap, the appropriations process has resulted in new, permanent open-
ended earmarks for victim assistance positions in U.S. Attorneys' 
Offices and the Federal Bureau of Investigation. This, too, limits the 
amount of money available for its intended purposes, which is the 
support of crime victim assistance at the State level. These positions 
may be warranted, but surely Congress can find other sources of revenue 
to support Federal employees.
    The most important action Congress can take to help this nation's 
victims of crime is to provide the funding for services and 
compensation programs that help them rebuild their lives. Congress' 
creation of the VOCA Fund in 1984 was a landmark action that 
fundamentally changed the way our society responds to victims of crime. 
We urge you to continue this great effort, by removing the cap on the 
VOCA Fund, and resisting pressure to earmark Federal positions from the 
Fund. We must continue the progress of our national response to victims 
of crime.
                                 ______
                                 

       Prepared Statement of the California Indian Legal Services

    Thank you, Mr. Chairman, for this opportunity to address you and 
the distinguished members of this Subcommittee. On behalf of California 
Indian Legal Services, I am pleased to submit this written testimony on 
the fiscal year 2002 Appropriations for Department of Justice funding 
of the Indian Tribal Justice Technical and Legal Assistance Act of 2000 
(Public Law 106-559).
    California Indian Legal Services (CILS) is a non-profit entity, as 
defined under section 501(c)(3) of the Internal Revenue Code of 1986, 
which provides free legal assistance services for Indian tribes as well 
as their members. CILS was created by California Indian leaders in 1967 
to redress the severe inequities that existed in California at that 
time and that persist to today. California is home to more Indian 
nations than any other state; most of whom have little natural or 
financial resources and must rely on CILS to address most, if not all, 
of their legal needs. California is also second only to Oklahoma in the 
number of Native Americans residing within its borders.
    Total Federal funding under the Legal Services Corporation Act to 
provide free legal services in California to Indian tribes that cannot 
afford to hire attorneys, as well as tribal members, is approximately 
$800,000 per year. Adjusted for inflation, this amounts to only one-
quarter of the funding that Congress originally allocated for this 
purpose over thirty years ago.
    Each year, CILS provides a broad array of civil legal assistance to 
over 50 Indian tribes and over 3,000 Indian families in California. The 
gulf between the community need and available resources means that 
California Indian tribes and CILS must often sacrifice intensive, time-
consuming, but necessary projects in order to address more immediate 
problems. Department of Justice funding for Tribal Civil Legal 
Assistance Grants under section 102 of the Act would allow Indian 
tribes and Indian legal services providers like CILS to partially break 
this cycle and focus on a long-standing, critical community need for 
tribal justice systems.
    The lack of tribal courts has constrained the ability of tribal 
governments to fully exercise their inherent sovereignty and Indian 
individuals and tribes are often unable to resolve disputes or seek 
justice. While Indian tribes in California retain exclusive 
jurisdiction, most have neither the resources nor the forum to exercise 
such jurisdiction. Without tribal courts, many disputes fall within a 
jurisdictional vacuum, or can only be litigated in Federal courts 
located hundreds of miles away. The former can be especially 
devastating to a tribal community when the vacuum leads to political 
paralysis. For example, where there have been disputes over the conduct 
of tribal elections, the lack of dispute resolution systems has brought 
tribes and the operation of their governments to a standstill.
    Among the various disputes that may arise in Indian country, the 
Federal courts only have the power to review certain tribal court 
decisions, but lack jurisdiction to hear disputes in the first 
instance, and state courts will have no jurisdiction whatsoever. Thus, 
there often is no alternative forum. Also, Indian tribes have broad 
regulatory authority over their members on the reservation and more 
limited regulatory authority over non-members within their reservation. 
Tribes have the authority to regulate their reservations and so enact 
laws concerning many varied matters, including the environment, water 
quality, utilities, land use, traffic, zoning, liquor, and animal 
control. Without tribal courts, however, tribes are denied effective 
recourse when their regulatory laws are violated. Thus, without tribal 
courts, California Indian tribes face great difficulty enforcing their 
own laws.
    Individual Indians, too, are harmed by the lack of tribal justice 
systems and inadequate resources for free civil legal assistance in 
such systems. Without some dispute resolution system, Indian 
individuals often lack any forum to which they can bring their disputes 
involving Indian real property or matters involving federally-
guaranteed hunting, fishing and trapping rights. Moreover, they are 
denied the opportunity, granted to other Indian people in the nation, 
to bring their internal disputes to a culturally accessible court. 
Although Public Law 280 grants state courts adjudicatory authority over 
many disputes arising on the reservation, many Indian people do not 
feel comfortable bringing their cases to state court, where they often 
encounter a difficult and alienating experience. Moreover, some 
disputes involving matters exclusively within tribal jurisdiction, such 
as tribal enrollment or elections, and governed by tribal law cannot be 
heard in state court.
    Studies conducted by Federal, State, and private agencies over the 
past 100 years have reached the same conclusion; Indians in California 
are not receiving a fair share from Federal Indian programs; and 
because they have received less support from the Federal Government, 
California Indians have suffered greater devastation in social-economic 
well-being relative to other Indian groups in other states. The well-
documented reports reaching this conclusion have come from both 
Republican and Democratic administrations, and from non-profit and 
tribal organizations. The most recent study commissioned by Congress 
revealed that in 1994 per capita BIA spending in California was one-
quarter of that for the rest of the country as a whole.
    Due to the lack of adequate funding for California Indians, most 
California Indian tribes lag behind their counterparts in other states 
in the development of tribal justice systems. While Congress has 
appropriated funding for other tribal court development programs 
administered by the Department of Justice, those programs often require 
a stage of development that was and remains unattainable by most 
California Indian tribes with their present resources. Appropriations 
for the Indian Tribal Justice Technical and Legal Assistance Act of 
2000 will allow California Indian tribes and other similarly situated 
Indian tribes located throughout the United States to obtain the 
assistance that they need in order to meet the prerequisites of other 
tribal justice grant programs.
    We commend Congress for recognizing the vital importance of tribal 
justice systems and their integral roles in tribal self-governance. We 
also thank Congress for recognizing the established record of Indian 
legal services programs in providing cost effective legal assistance to 
Indian people in tribal court forums and in making significant 
contributions to the development of tribal courts and tribal 
jurisprudence. We urge Congress to take the next crucial step and 
appropriate adequate funding so that the tribal justice needs of Indian 
tribes, in California and throughout the United States, will no longer 
be neglected.
                                 ______
                                 

                Prepared Statement of Clemson University

    Mr. Chairman, Mr. Ranking Member, and members of the Subcommittee, 
as President of Clemson University, I would like to draw to your 
attention two initiatives directed by Clemson's Institute on Family and 
Neighborhood Life, and I ask you to consider an appropriation for each.
             consortium on children, families, and the law
    Clemson University respectfully requests $3.0 million in fiscal 
year 2002 from the Office of Juvenile Justice and Delinquency 
Prevention to Clemson University for a collaborative effort involving 
the 15 centers of the Consortium on Children, Families, and the Law to 
conduct research and provide technical assistance and training on (a) 
the prevention and treatment of youth violence; (b) innovations in 
juvenile justice policy; (c) alternatives to and improvements in the 
juvenile courts; and (d) State laws, policies, and programs relating to 
children, families, and the law.
    Although recent statistics indicate a decline in rates of juvenile 
violence, each year several million children come into contact with the 
juvenile justice system as juvenile offenders, victims of crime, or 
both. There remains a tremendous need to assist States, communities, 
and the Federal Government in preventing youth violence and responding 
effectively to youth and their families in the legal system.
    To address these issues, a network of uniquely qualified 
institutions across the country is needed to assist States, 
communities, law enforcement agencies, and the Federal Government by 
evaluating and disseminating violence prevention programs that have a 
demonstrated track record, assessing the impact of policies and 
practices currently guiding the juvenile justice system, and conducting 
research demonstrations and interstate comparisons on innovative 
juvenile justice policy and practice.
    The Consortium on Children, Families, and the Law provides a ready 
network to conduct interdisciplinary, multi-State research and 
consultation on issues affecting children and the law. With its 
geographic diversity and nationally-recognized researchers, the 
Consortium is in a position to be able to build and disseminate 
knowledge quickly and broadly. Member centers of the Consortium are 
located at Clemson University (the hub of the Consortium), Creighton 
University (Omaha, NE), the Medical University of South Carolina, the 
University of Iowa, the University of Hawaii-Manoa, the University of 
Nebraska-Lincoln, the University of New Hampshire, the University of 
Pennsylvania, the University of Pittsburgh, the University of South 
Carolina, and the University of Virginia. Affiliate members of the 
Consortium include the American Bar Association's Center on Children 
and the Law, the Public Interest Directorate of the American 
Psychological Association, and the Youth Law Center.
    A primary activity proposed by the Consortium on Children, 
Families, and the Law for work in fiscal year 2002 is expansion of the 
Bullying Prevention Program, which is aimed at reducing bullying and 
related antisocial behaviors among elementary and middle school 
children.
    Past research by members of the Consortium on Children, Families 
and the Law (Clemson University, University of South Carolina) confirms 
that bullying among school children is a significant problem in the 
United States. One in four reported having been bullied with some 
regularity (at least several times per month); one in 10 reported 
having been frequently bullied--once a week or more.
    The negative effects of bullying on children are well documented. 
Bullying has been shown to lead to higher rates of depression, illness, 
absenteeism, suicidal ideation, and lower self-esteem among victims. 
Moreover, a recent study conducted by the U.S. Secret Service suggests 
that bullying has been a precursor to several incidents of school 
shootings. Children who bully need prompt attention to ensure that 
these behaviors do not continue or escalate into more serious forms of 
antisocial behavior.
    To date, one program model has been documented to be successful in 
reducing bullying among school children. The Bullying Prevention 
Program, developed by Norwegian psychologist Dan Olweus, has been found 
to reduce bullying by 20-50 percent and to reduce the likelihood of 
children engaging in other types of antisocial behavior.
    Faculty at Clemson University and at the University of South 
Carolina led the first wide-scale implementation and evaluation of the 
Bullying Prevention Program in the United States. Initial evaluations 
of this program within middle school settings in South Carolina were 
very promising and contributed to the recognition of the program as one 
of 11 national ``Blueprints for Violence Prevention'' by the Center for 
the Study and Prevention of Violence at the University of Colorado and 
as an Exemplary Program by the Centers for Substance Abuse Prevention 
(CSAP). Members of the Consortium have provided consultation to over 30 
schools in a number of States (Colorado, Georgia, Maine, Massachusetts, 
Montana, Pennsylvania, South Carolina, and Virginia) to implement the 
Bullying Prevention Program.
    Funding to the Consortium on Children, Families, and the Law from 
the Office of Juvenile Justice and Delinquency Prevention would allow 
us to:
  --More widely disseminate the highly-successful Bullying Prevention 
        Program.--We currently are unable to adequately meet the 
        growing demand from schools to implement this program because 
        of a lack of qualified trainers. Funding would assist us to 
        provide training and follow-up consultation to trainers from 
        across the United States who could respond to calls for 
        training and technical assistance from school sites. It also 
        would allow us to help interested schools to cover additional 
        costs associated with the implementation of the program (eg., 
        materials and staff time).
  --Continue efforts to evaluate the effectiveness of the program in 
        elementary school settings.--Findings from our earlier 
        evaluation of the program in middle school settings suggested 
        that the program would be most effective if implemented in 
        elementary schools in the U.S. Research is needed to 
        systematically evaluate the program in elementary schools, with 
        particular focus on those factors that affect the 
        successfulness of the program in different settings. Such 
        information will be vital to efforts to effectively disseminate 
        this model.
         national center on rural justice and crime prevention
    Clemson University also is requesting an appropriation of $500,000 
from the Bureau of Justice Assistance to support the National Center on 
Rural Justice and Crime Prevention. Although crime and violence rates 
have generally been declining throughout the country since 1994, 
dramatic social and economic changes in rural life in the last 20 years 
place many rural areas and small towns at risk of increasing crime and 
violence rates. From 1993-1998, violent and property crime rates in 
rural areas decreased much more slowly than in urban and suburban 
areas. Moreover other key indicators of community well-being, including 
poverty rates, educational attainment, economic growth, and teenage 
pregnancy rates, suggest that many rural areas and small towns are 
increasingly vulnerable to conditions that appear to undermine 
community safety.
    Because rural communities and small towns have been virtually 
ignored by many policymakers and researchers, relationships among 
factors that are thought to contribute to changes in rural crime and 
violence rates (e.g., migration in and out of communities; poverty; 
economic changes; and changes in family structure, etc.) are not well 
understood. For example, some evidence exists to suggest that rapid 
population growth in rural communities causes an increase in crime and 
violence rates at 3 to 4 times the rate of growth. However, the reasons 
why rapidly growing communities would experience such an increase in 
crime and violence are not clear. As a result, implementation of 
effective crime and violence prevention and reduction strategies in 
these communities is much more difficult. Similarly, very little 
attention has been given to the impact of regional differences, such as 
the clustering of poverty in several Southern rural counties, on crime 
and violence rates. Yet, community conditions, such as poverty, 
changing family structures, and the strength or weakness of key 
community institutions (e.g., schools, faith-based organizations, civic 
groups, etc.) are likely to affect the capacity of citizens to coalesce 
around a shared agenda of crime and violence prevention. Generating and 
sharing knowledge about crime and violence in the context of the unique 
elements of rural life is important to developing policies and 
programmatic strategies that are likely to be effective in rural areas.
    Since its creation in 1999, the National Center on Rural Justice 
and Crime Prevention (NCRJ) at Clemson University has worked in 
partnership with rural communities to generate knowledge about 
community-based problem-solving strategies for preventing and reducing 
crime and violence and to learn more about the adaptability of 
community justice models to rural areas. The knowledge generated has 
helped inform the technical assistance efforts to rural communities 
nationwide. In the short life of the NCRJ, technical assistance has 
been provided to organizations in more than 26 States, including rural 
schools about youth violence; law enforcement, the judiciary, and 
prosecutors about community-justice related strategies; social service 
agencies about domestic violence and child abuse and neglect; health 
agencies about community safety; and neighborhood resource centers 
about strategies for strengthening families in the justice system.
    This request for $500,000 in funding will enable the NCRJ to expand 
project sites to other States and to further develop a base of 
knowledge about the effect of changing conditions in rural communities 
on crime and violence rates. It will also enable NCRJ faculty to 
develop a more comprehensive package of technical assistance ``tools'' 
for use by practitioners.
    Thank you for the opportunity to present this statement for the 
record.
                                 ______
                                 

        Prepared Statement of the City of Fairfield, California

    Mr. Chairman and members of the Commerce, Justice, and State 
Subcommittee on Appropriations, thank you for this opportunity to 
testify before this Committee. My name is George Pettygrove and I am 
the mayor of the City of Fairfield, California. On behalf of the 
citizens of Fairfield, I request your support of one of the City's 
highest Federal priorities for the fiscal year 2002.
    The City of Fairfield, California, requests your support of a 
$500,000 earmark in the fiscal year 2002 Department of Justice 
Appropriations Bill under the COPS Technology Program for the technical 
infrastructure associated with the new Solano County Regional Law 
Enforcement Training Center.
    Law enforcement agencies in Solano County and Napa County are 
experiencing a gradual degradation of training facilities as a result 
of urban development. In response, law enforcement agencies within both 
counties are planning a new facility in an area unlikely to be 
encroached upon for at least 25 years.
    Federal funds will focus on technology for the new facility, 
including a firearms simulator, driving simulators, smartboard 
technology, weaponless defense training materials, and targeting 
systems for four ranges.
    A joint powers authority (JPA), consisting of the cities of 
Fairfield, Benicia, Vallejo, and Napa County is being formed to move 
the project forward. JPA participants anticipate additional 
jurisdictions will join the JPA in light of the lack of proper law 
enforcement training facilities in the region. The JPA has identified 
$2.5 million in matching funds for the $5.5 million project.
    Once again, thank you for this opportunity to testify before this 
Committee.
                                 ______
                                 

        Prepared Statement of the Center Directors' Association

    The Regional Information Sharing Systems (RISS) Program 
respectfully requests that Congress appropriate for fiscal year 2002, 
$38.5 million to continue their support in combating drug trafficking 
and organized crime.
    These funds will enable RISS to continue identifying, targeting, 
prosecuting, and removing criminal conspirators involved in drug 
trafficking, organized criminal activity, criminal gangs, and violent 
crime that span multijurisdictional boundaries. Funds will allow RISS 
to continue to support the investigation and prosecution efforts of 
over 5,600 local, State, and Federal law enforcement member agencies 
across the nation comprising over 600,000 sworn law enforcement 
personnel.
    Through funding from Congress, RISS has implemented and operates 
the only secure Web-based nationwide network--called riss.net--for 
communications and sharing of criminal intelligence by local, State, 
and Federal law enforcement agencies. Funds will allow RISS to upgrade 
the technology infrastructure and resources to support increased use 
and reliance on the system by member law enforcement agencies and 
support the integration of other systems connected to riss.net for 
information sharing and communication. Using Virtual Private Network 
technology, the law enforcement users access the public Internet from 
their desktop and have a secure connection over the private riss.net 
Intranet to all RISS criminal intelligence databases and resources. 
RISS member law enforcement agencies accessed riss.net an average of 
2.7 million times per month during fiscal year 2000. Riss.net is a 
proven, highly effective system that improves the quality of criminal 
intelligence information available and puts it in the hands of the law 
enforcement officers to make key decisions at critical points in their 
investigation and prosecution efforts.
    The Office of Justice Programs (OJP), Regional Information Sharing 
Systems (RISS) is a Federally funded program comprised of six regional 
intelligence centers. The six centers provide criminal information 
exchange and other related operational support services to local, 
State, and Federal law enforcement agencies located in all fifty 
States, the District of Columbia, U.S. territories, Canada, England, 
and Australia. These centers are:
    Middle Atlantic-Great Lakes Organized Crime Law Enforcement Network 
(MAGLOCLEN): Delaware, District of Columbia, Indiana, Maryland, 
Michigan, Pennsylvania, Ohio, New Jersey, and New York, as well as 
Canada and England.
  --Mid-States Organized Crime Information Center (MOCIC).--Illinois, 
        Iowa, Kansas, Minnesota, Missouri, Nebraska, North Dakota, 
        South Dakota, and Wisconsin, as well as Canada.
  --New England State Police Information Network (NESPIN).--
        Connecticut, Maine, Massachusetts, New Hampshire, Rhode Island, 
        and Vermont, as well as Canada.
  --Regional Organized Crime Information Center (ROCIC).--Alabama, 
        Arkansas, Florida, Georgia, Kentucky, Louisiana, Mississippi, 
        North Carolina, Oklahoma, South Carolina, Tennessee, Texas, 
        Virginia, and West Virginia, as well as Puerto Rico and the 
        U.S. Virgin Islands.
  --Rocky Mountain Information Network (RMIN).--Arizona, Colorado, 
        Idaho, Montana, Nevada, New Mexico, Utah, and Wyoming, as well 
        as Canada.
  --Western States Information Network (WSIN).--Alaska, California, 
        Hawaii, Oregon, and Washington, as well as Canada, Guam, and 
        Australia.
    RISS is a force multiplier in fighting increased violent criminal 
activity by street gangs, drug traffickers, sophisticated cyber 
criminals, and emerging criminal groups that require a cooperative 
effort by local, State, and Federal law enforcement. There is a rising 
presence of organized and mobile narcotics crime, distinguished by 
increases in drug-related emergency room incidents, increases in drug 
purities (especially heroin, methamphetamine, ecstasy, cocaine, GHB, 
and marijuana), and increasing communications sophistication by the 
criminal networks. Inter-agency cooperation has proven to be the best 
method to combat the increasing criminal activity in these areas. The 
RISS centers are filling law enforcement's need for rapid, but 
controlled sharing of information and intelligence pertaining to known 
or suspected drug traffickers and criminals. Congress funded the RISS 
Program to address this need as evidenced by its authorization in the 
Anti-Drug Abuse Act of 1988.
    The success of RISS has been acknowledged and vigorously endorsed 
by the International Association of Chiefs of Police (IACP), as well as 
other national law enforcement groups such as the National Sheriff's 
Association (NSA) and the National Fraternal Order of Police (NFOP). 
These groups have seen the value of this congressional program to law 
enforcement nationally and have worked with the National Association of 
Attorneys General (NAAG), the National District Attorneys Association 
(NDAA), and the National Criminal Justice Association (NCJA) to further 
strengthen the awareness of RISS. In fact, the National Association of 
Attorneys General passed a resolution calling for full funding for RISS 
and increased funding for the Bureau of Justice Assistance (BJA).
    According to the Executive Working Group for Federal-State-Local 
Prosecutorial Relations, in its publication titled, Toward a Drug Free 
America: A Nationwide Blueprint for State and Local Drug Control 
Strategies, ``Each State should develop a computerized capacity to 
store, collate, and retrieve intelligence and historical information 
concerning drug offenders. Before initiating new computer projects, 
each State should take advantage of existing computerized information 
exchange and pointer systems, such as the Regional Information Sharing 
Systems (RISS). Each State should actively participate in multi-State, 
regional, and national information networking projects.''
    RISS is operating current state-of-the-art technical capabilities 
and systems architecture that allow local, State, and Federal law 
enforcement member agencies to interact electronically with one another 
in a secure environment. The RISS system has built-in accountability 
and security. The RISS secure Intranet (riss.net) protects information 
through use of encryption, smart cards, Internet protocol security 
standards, and firewalls to prevent unauthorized access. The RISS 
system is governed by the operating principles and security and privacy 
standards of 28 CFR Part 23 (Criminal Intelligence Systems Operating 
Policies). The technical architecture adopted by RISS requires proper 
authorization to access information, but also provides flexibility in 
the levels of electronic access assigned to individual users based on 
security and need-to-know issues. Riss.net supports secure e-mail and 
is easily accessible using the Internet. This type system and 
architecture is referenced and recommended in the General Counterdrug 
Intelligence Plan (GCIP).
    The GCIP promotes Federal, State, local and tribal law enforcement 
information sharing, and leveraging resources and existing cooperative 
mechanisms. RISS fully supports the GCIP and the following initiatives 
are underway related to action items in the Plan. RISS has entered into 
a partnership with the High Intensity Drug Trafficking Areas (HIDTA) to 
electronically connect the HIDTAs to riss.net for communications and 
information sharing. Currently 11 HIDTAs are electronically linked to 
riss.net, with 7 more pending connection during 2001. Six State 
agencies are also electronically connecting their systems to riss.net. 
The National Drug Intelligence Center (NDIC) is a member of RISS and 
uses the RISS network as a communications mechanism for publishing 
counterdrug intelligence products to Federal, State, and local law 
enforcement members. RISS and the El Paso Intelligence Center (EPIC) 
officials have entered into a partnership to electronically connect 
EPIC to riss.net to capture clandestine laboratory seizure data from 
RISS State and local law enforcement member agencies. RISS needs funds 
to purchase hardware and software to support and integrate these 
systems that improve the accessibility to critical criminal 
intelligence for law enforcement agencies throughout the country.
    RISS continues to promote inter-agency investigations by improving 
capabilities for member agencies to quickly and easily access RISS 
databases by expanding the enrollment of member agencies for access to 
riss.net through distribution of security hardware and software. Web 
browser technology has been implemented for use by member agencies in 
accessing the RISS intelligence database pointer system and the RISS 
National Gang Database. At the direction of Congress, dial-up (800) 
access capability to the RISS secure intranet will be provided for 
member agencies in geographic areas where access to Internet Service 
Providers is not available. Funds are required to increase the 
distribution of security hardware and software to additional RISS 
member agencies that need electronic access to riss.net.
    In fiscal year 2001, Congress invested $25 million in the RISS 
Program. RISS has received level funding of $25 million for the past 5 
fiscal year funding cycles ($20 million in the line item and $5 million 
from COPS except for fiscal year 2001 when the line item was raised to 
$25 million with no allocation from COPS). During the past 5 fiscal 
year funding cycles and up to the current time, RISS has furnished case 
specific support to hundreds of local and state police, as well as 
sheriff departments. These investigations have had an unrivaled impact 
on the local jurisdictions of main street America, the grass roots of 
law enforcement in the nation. During this same time period, RISS 
implemented the secure intranet providing Web-based access for 
communications and information sharing to over 5,600 law enforcement 
agencies nationwide--a network which is now electronically linked to 11 
HIDTAs (with 7 more pending connection), six State law enforcement 
systems, and the EPIC Clandestine Laboratory Seizure System. The 
Southwest Border States Anti-Drug Information System (SWBSADIS) 
initiative encompassing the States of Arizona, California, New Mexico, 
and Texas is also integrated with riss.net. RISS is currently working 
to connect the Bureau of Land Management, Department of Interior, to 
riss.net. To support this increased need to integrate other systems and 
the increased demand for RISS services, RISS is requesting an increase 
in funding to $38.5 million for fiscal year 2002.
    In view of today's increasing demands on Federal, State, and local 
law enforcement budgets, requests for RISS services have risen. The 
Institute for Intergovernmental Research (IIR) report on the RISS 
Program showed that as of December 31, 2000, the number of criminal 
subjects maintained in the RISSIntel intelligence databases for all 
centers combined was 790,241 with 190,159 new subjects being added in 
2000. The combined databases of all six RISS centers also maintained 
data on 1,357,450 locations, vehicles, weapons, and telephone numbers 
for a grand total of 2,147,691 data entries available for search. For 
the twelve-month period January through December 2000, the total number 
of inquiries by law enforcement member agencies to the RISSIntel 
database for all six regional intelligence centers combined was 
707,457. These inquiries resulted in hits or information to assist law 
enforcement agencies in their criminal cases. All RISS centers combined 
delivered 9,346 analytical products to member agencies in support of 
their investigation and prosecution efforts in 2000.
    This support of law enforcement has had a dramatic impact on the 
success of their investigations. Over the three-year period 1998-2000, 
RISS generated a return by member agencies that resulted in 12,510 
arrests, seizure of narcotics valued over $246 million, seizure of 
almost $14 million in currency, and recovery or seizure of property 
valued at over $32 million. In addition, more than $11 million was 
seized through RICO civil procedures. In the 20-year period since 1980 
when the Program was fully implemented, the RISS Program has assisted 
its member agencies with their investigations. Results of these 
investigations have amounted to well over $12 billion in recoveries at 
a total cost that approximates 2.44 percent of that amount, or a $41 
return for every dollar spent.
    RISS is continuing initiatives with the Federal Bureau of 
Investigation and with the Bureau of Alcohol, Tobacco and Firearms, 
U.S. Department of the Treasury to assist in their efforts to 
facilitate the exchange of criminal intelligence with State and local 
law enforcement. RISS continues to work with Federal and State 
corrections departments to strengthen cooperation and information 
sharing with the law enforcement community, and to maintain a national 
prison gang database to identify prison gang criminal activity, both 
within and outside the prison environment. We have established a 
working relationship with gang investigators across the nation to 
identify and maintain information on violent street gangs, as well as 
their membership, organization structure, migration trends, and their 
propensity for violence.
    RISS has also assisted the Office of Juvenile Justice and 
Delinquency Prevention, and continues to work with Federal, State, and 
local agencies in their efforts to combat the menace of drugs on our 
street, and the growing influence of youth gangs in the distribution 
and sale of drugs.
    The Bureau of Justice Assistance administers the RISS Program and 
has established guidelines for provision of services to member 
agencies. The RISS regional intelligence centers are subject to 
oversight, monitoring, and auditing by the U.S. Congress, the General 
Accounting Office, a Federally funded program evaluation office; the 
U.S. Department of Justice, Bureau of Justice Assistance; and local 
government units. The Intelligence Systems Policy Review Board also 
monitors the RISS centers for 28 CFR Part 23 compliance. This 28 CFR 
Part 23 regulation places stricter controls on the RISS intelligence 
sharing function than those placed on Federal, State, or local 
agencies. Evaluation of RISS center operation has been very positive.
    A new authorization and full funding of the RISS Program is 
necessary in order to permit membership growth and improve services 
capabilities to the membership nationwide. In the past five years, RISS 
membership has increased 20 percent to over 5,600 local, State, and 
Federal law enforcement agencies at present. It is respectfully 
requested that the Congress fully fund the RISS Program as a line item 
in the congressional budget, in the requested amount of $38.5 million. 
Local and State law enforcement, who depend on the RISS centers for 
information sharing, training, analytical support, funding, and 
technical assistance, are anticipating increased competition for 
decreasing budget resources. It would be counterproductive to require 
the RISS members from State and local agencies to self-fund match 
requirements, as well as to reduce the amount of BJA discretionary 
funding. The State and local agencies require more, not less, funding 
to fight the nation's crime/drug problem. The RISS Program cannot make 
up the decrease in funding that a match would cause and it has no 
revenue source of its own. Cutting the RISS appropriation by requiring 
a match should not be imposed on the program.
    We are grateful for this opportunity to provide the committee with 
this testimony and appreciate the support this committee has 
continuously provided to the RISS Program.
                the regional information sharing systems
    To assist the RISS centers in implementing this program, the U.S. 
Department of Justice, Office of Justice Programs, Bureau of Justice 
Assistance worked with the centers to institute the following 
components.
  --Information Sharing Component.--Every center will maintain and 
        operate either a manual and/or automated information-sharing 
        component that is responsive to the needs of participating 
        enforcement agencies in addressing multi-jurisdictional 
        offenses and conspiracies. This component must be capable of 
        providing controlled input, dissemination, rapid retrieval, and 
        systematic updating of information to authorized agencies.
  --Analytical Component.--Every center will establish and operate an 
        analytical component to assist the center and participating 
        agencies in the compilation, interpretation, and presentation 
        of information provided to the center. This component must be 
        capable of responding to participating agency requests for 
        analysis of investigative data.
  --Telecommunications Component.--Centers may establish and/or 
        maintain a telecommunications system designed to directly 
        support the operation of the information sharing component and 
        analytical component, and to support center sponsored 
        investigations and activities.
  --Investigative Support Component.--Centers may establish and operate 
        an investigative support component by providing financial 
        assistance to participating agencies for their conduct of 
        multi-jurisdictional investigations. Financial resources may 
        include funds for the purchase of information, contraband that 
        may be used as evidence, services, investigative travel and per 
        diem, and overtime compensation. Funds expended and activities 
        conducted under this component must directly support the 
        operation of the information sharing and analytical components.
  --Specialized Equipment Component.--Centers may establish and 
        maintain a pool of special investigative equipment for loan to 
        participating agencies. The loan of such equipment must 
        directly support the operation of the information sharing and 
        analytical components.
  --Technical Assistance Component.--Centers may establish and maintain 
        a component to provide technical assistance to member agencies. 
        Through use of center personnel and others in participating 
        agencies, consultation, advice, and information may be made 
        available to member agencies concerning use of specialized 
        equipment, investigative procedures, accounting of center funds 
        if provided by the center in support of investigations, and 
        information analysis. This component will emphasize use of 
        technical resources among the centers as necessary and 
        available. Technical assistance in the form of active 
        participation by center personnel in member agency 
        investigations is prohibited.
  --Training Component.--Centers may establish and maintain a training 
        component to upgrade investigative skills of personnel from 
        participating agencies. Such training assistance may consist of 
        financial support to send personnel to training courses, 
        seminars, and conferences or, more commonly, design and 
        delivery of special training courses by center staff. Training 
        provided under this component must support the center goals and 
        objectives.
    To further enhance the coordination and exchange of information 
among member law enforcement agencies, the centers have initiated 
additional support service activities including distribution of center 
publications/digests and sponsorship of membership conferences.
                                 ______
                                 

         Prepared Statement of the City of Gainesville, Florida

    On behalf of the City of Gainesville, Florida, I appreciate the 
opportunity to present this written testimony to you today. The City of 
Gainesville is seeking Federal funds in the fiscal year 2002 Commerce, 
Justice, State and Judiciary Appropriations bill to assist with the 
following two innovative projects the City is undertaking:
  --The Downtown Revitalization Project to enable economic 
        redevelopment in a downtown setting including improving 
        stormwater treatment, developing park facilities, enhancing 
        alternative transportation and restoring an urban wetland, and
  --The Public Safety Enhancement Project to improve public safety.
                  the downtown revitalization project
    This is a broadly developed, multi-faceted initiative that has an 
established goal of revitalizing Downtown Gainesville. The City of 
Gainesville has experienced a renaissance in establishing Downtown as a 
desirable place to live, work and play. The Initiative encourages the 
redevelopment of existing buildings and parking lots within Downtown 
into mixed residential, commercial, and office uses. Already the City 
has participated in two redevelopment multi-use projects in Downtown 
that have brought in residential, commercial and office spaces. The 
City's participation is providing streetscaping and stormwater 
management, both being vital components of the success of any 
redevelopment initiative. A third redevelopment project under way is 
Alachua County's proposed Judicial Complex and associated parking 
structure.
    The Revitalization Initiative is dependent on a master stormwater 
facility that has been planned as a landmark stormwater park that will 
not only serve as a functional stormwater management facility, but 
provide an urban park setting for Downtown and nearby residents, 
visitors and employees. The stormwater park will also function as a 
Rail Trail Hub to provide linkage of four primary existing and proposed 
rail trail systems.
    The proposed Downtown Connector will connect the Gainesville 
Hawthorne Rail Trail through the stormwater park and is being 
implemented with funding through the Transportation Enhancement 
Program.
    The proposed 6th Street Rail Trail will provide access to the north 
and west through three historic, and predominantly African American 
neighborhoods; Porters, Pleasant Street, and Grove Street. The trail 
and enhanced roadway will provide a primary multi-modal transportation 
corridor connecting the University of Florida and Shands Medical 
Complexes to Downtown.
                            funding requests
    The cornerstones of the City of Gainesville's Downtown 
Revitalization Initiative are the development of the Sweetwater Urban 
Stormwater Park and the reconstruction of Depot Avenue.
  --Sweetwater Urban Stormwater Park.--The Sweetwater Urban Stormwater 
        Park component will provide stormwater treatment for Depot 
        Avenue, the proposed Rail Trails, as well as the Downtown 
        portion of the Sweetwater Branch watershed located upstream of 
        the park. The Park is in the planning stages as the centerpiece 
        of a U.S. Environmental Protection Agency (USEPA) and Florida 
        Department of Environmental Protection funded Brownfields pilot 
        project. This project consists of the cleanup costs, 
        construction of the stormwater facilities, installation of 
        reuse water system for irrigation, and development of the 
        recreational components of the Park. The total cost of the 
        Sweetwater Urban Stormwater Park is estimated at 
        $17,200,000.00. The Federal funding request is for 
        $9,700,000.00.
  --Depot Avenue.--This component includes the enhancement of 
        approximately two (2) miles of Depot Avenue from SR 331 to US 
        441. The Depot Avenue component includes right-of-way 
        acquisition and construction activities at a cost of 
        approximately $6 million. The enhancement will encourage 
        increased utilization of mass transit, bicycle and pedestrian 
        modes of travel; increase accessibility to major public 
        heritage and recreation destinations for the community; and 
        enhance the linkage between Downtown and the University of 
        Florida and Shands Medial Complexes.
    The enhancement of Depot Avenue will also provide infrastructure 
and improved safety while accessing Downtown, University of Florida 
area, the adjoining Porters Neighborhood, just west of SR 329 (South 
Main Street) and the SpringHill Neighborhood in Southeast Gainesville. 
The socio-economic conditions of these areas include high crime rates, 
sub-standard housing, and lack of access to services and investment.
                   public safety enhancement project
    This is an innovative crime data gathering, reporting and training 
system to enhance public safety. The goal of this effort is to 
facilitate communication between our urban area public safety and court 
system agencies through the use of system-wide technology upgrades. The 
impact for the entire region is considerable, since this county serves 
as the regional center for much of rural north Florida's medical care, 
disaster management, and criminal justice services.
    For this initiative, the partner urban area public safety agencies 
will need the following: Mobile Lap Top Computers/Data Terminals--$3.5 
million, and System-Wide Communications and GIS Software--$0.8 million.
    The components of this project are designed to work together as a 
well-integrated system to provide improved more effective service to 
the residents of this region. Urban area public safety agencies and 
local criminal justice system agencies will benefit operationally from 
the enhanced data sharing capacities provided by this project.
    Though portions of this project have been attempted by other 
agencies, the Gainesville Police Department will become one of the 
first law enforcement agencies in the state to gather, analyze and 
provide information regarding crime and quality of life type incidents 
in such an efficient, comprehensive and automated manner. The 
activities provided by the infusion of these requested Federal funds 
would enable us to:
  --Establish a region-wide data communications system allowing the 
        ready exchange of information between participating agencies.
  --Create a Geographic Information System (GIS) that would enable all 
        entities access to an accurate crime analysis and resource 
        management tool.
  --Reduce errors and improve information timeliness by implementation 
        of an automated incident reporting system.
    The need for laptop computers is partially driven by the Federal 
Government's ``re-farming'' of radio frequencies through the Federal 
Communications Commission. Due to this ``re-farming'' and the high cost 
of radios, many law enforcement officers will no longer have radios 
mounted in department vehicles. The use of laptop computers can fulfill 
the critical need for a second communication device, and at the same 
time help accomplish several other public safety objectives, including 
mobile computer aided dispatch, automated report writing and use of a 
geographic information system (Crime Mapping, etc.).
                     mobile computer aided dispatch
    The advantages gained by utilization of a mobile data system are 
numerous for the law enforcement officer as well as its potential 
ramifications to the public. Removing the reliance on strictly verbal 
communication via a radio and widening the information flow via direct 
data communications, results in an enhancement of the ability to 
successfully resolve problems in the field. Utilizing laptop computers 
as mobile computer aided dispatch terminals significantly increases the 
ability for public safety officers to communicate.
    During critical situations such as a school-shooting incident, 
officers could access information such as floor plans, aerial 
photographs and interior pictures of each school. Detailed information 
regarding each of the public and private schools could be stored on a 
computer disk and made available to and utilized by officers, 
firefighters and ambulance personnel. Information such as this could 
prove to be invaluable regarding how best to approach and/or gain 
access to the school and who to contact in an emergency. The disk would 
contain the names (and photographs) and contact information of 
pertinent school staff as well as important contact information 
regarding hospitals, poison control and hazardous materials.
                    mobile automated report writing
    For generations officers have handwritten reports that are then 
manually filed. The only improvement is that currently a small portion 
of the report is entered into a computer database at some later date. 
However, since the information is compartmentalized it is often entered 
redundantly throughout the criminal justice system. This method of 
capturing the information for reports is antiquated. It takes an 
unnecessary amount of time, wastes valuable resources and provides 
increased opportunities for errors. Benefits realized by the use of 
automated reporting are reduced errors, elimination of data entry 
duplication and more accessible, timely and accurate reports.
                 geographical information system (gis)
    For years law enforcement agencies have tracked crime using pin 
maps to geographically show where crimes occur. This method of tracking 
crime has become impractical and too time consuming for all but the 
smallest of law enforcement agencies. The advent of computerized 
geographical information programs, like ``ArcView'' has enabled law 
enforcement agencies to return to the pin map method of displaying 
crime patterns, but in a much more effective manner. Additionally, 
mapping programs can contain several hundreds of data layers that can 
be utilized by numerous public and private agencies. The following 
objectives are examples of how a GIS system will enable us to use the 
information immediately entered on mobile lap top computers.
  --Electronic Pin Maps (Crime Mapping).--Once a GIS system is 
        established, all reports that are generated will be mapped in 
        several formats, including calls for service. This enables 
        agencies to properly decide where to deploy their limited 
        resources. Electronic pin maps also can be time sensitive and/
        or location sensitive. Officers working various shifts can 
        identify hot-spots (areas with proportionally higher amounts of 
        crime) by time and location. A hot spot during the day, may not 
        be a hot spot at night, or visa versa. Additional maps can be 
        generated for Uniform Crime Report (UCR) incidents, Crime 
        Analysis identified crimes, and calls verified by Florida State 
        Statutes. Information that is not immediately available is of 
        little or no use when it is entered at a later date. Providing 
        timely information to officers and citizens in the form of 
        displaying maps with current and historical crime incident 
        information is needed so a practical analysis may be done and 
        an effective response developed. Unlike pin maps of yesterday, 
        electronic mapping allows for the storing historical of data. 
        In the past, the map had to be cleared before a new map was 
        created. Using electronic mapping, maps can be created and 
        stored to allow for comparison over any period of time. Another 
        use for the maps, is the identification of locations that have 
        repeated calls for service. If a location has had several calls 
        for service in a short period of time, a plan can be developed 
        to solve the underlining problem and thereby reduce or 
        eliminate future calls for service.
  --Management of Resources Utilizing Computer Statistics.--Many law 
        enforcement agencies have begun to use a method of management 
        which utilizes crime data. Law Enforcement supervisors are 
        being held accountable for the level or increase in crime in 
        their assigned geographical area. The Gainesville Police 
        Department has divided the City into districts. Each District 
        Commander is held responsible for the criminal activity and the 
        utilization of resources in that geographical area. GIS 
        information will be used to better manage the department's 
        limited resources.
  --WEB Mapping.--Sharing the information gathered in an effective 
        manner is another key component to this process. Many of the 
        law enforcement agencies in Alachua County currently have a WEB 
        site on the Internet. Increased utilization of WEB based 
        services will include making available crime alerts, 
        statistics, block summaries, pictures of offenders, crime 
        record check and the ability to request copies of reports. This 
        access will enable citizens to have information available to 
        them in a more convenient and timely manner. In the future, 
        crime maps developed by the GIS system will be used to display 
        maps over the Internet. Maps will be made available to other 
        law enforcement and governmental agencies and the public at 
        large.
  --Integration with other Agencies.--In order for a geographical 
        information system to be truly effective, it requires the 
        cooperation of several agencies. GIS systems with hundreds of 
        layers of data can be a useful tool for all the cooperative 
        agencies. Law enforcement personnel will be able to view maps 
        and aerial or satellite photographs of a given area of the 
        city. On top of those maps and/or photographs layers of 
        information will be available to all users. Law enforcement 
        personnel will provide numerous layers of data to the system 
        and will in return be able to access the layers from other 
        agencies. Alachua County already has begun the process of 
        developing a GIS and the Gainesville Police Department is 
        currently working with the University of Florida to develop a 
        method of converting data to a format used by ``ArcView''.
    The concept in which pertinent information, including aerial 
photographs, is contained on a computer disk for use by officers with 
laptop computers could be expanded to other potentially critical areas 
such as hospitals, large shopping areas, the airport and the stadium 
and shared with other public safety agencies.
                                 ______
                                 

 Prepared Statement of the National, Coordinated Law-Related Education 
                                Program

    I am Lee Arbetman, the Coordinator of the National, Coordinated 
Law-Related Education Program. I am submitting this testimony on behalf 
of Youth for Justice, the National, Coordinated Law-Related Education 
Program (LRE). The National, Coordinated Law-Related Education Program 
received an appropriations earmark for fiscal year 2001 in the amount 
of $1.9 million. The need for the Program continues to substantially 
exceed the Program's resources. Accordingly, for fiscal year 2002, the 
National, Coordinated Law-Related Education Program respectfully 
requests the Subcommittee's appropriations support at a level of $2.4 
million.
    LRE/Youth for Justice is committed to involving young people in 
each state directly in identifying and implementing solutions to this 
nation's epidemic of violence. The program's approach is to teach young 
people about the law so that they can lead their lives within the law. 
In the last decade, the National Program has reached millions of at-
risk children and trained thousands of teachers, juvenile justice 
counselors and law enforcement officials.
    Law-Related Education, despite its name, has nothing whatsoever to 
do with legal or pre-legal training. The National, Coordinated Law-
Related Education Program has a proven record of success in juvenile 
delinquency and violence prevention. Law-related lessons reach at-risk 
children and juvenile offenders in school and juvenile justice settings 
in urban, suburban and rural environments. Youth for Justice meets its 
goals by developing and maintaining strong, viable LRE centers in each 
state. The National Program leverages a tiny federal investment, $1.9 
million in fiscal year 2001, many times over in private sector and 
state and local money and in in-kind support from the criminal justice 
and juvenile justice communities.
    The program has two components. The first component of the program 
is INTERVENTION. This part of the program operates primarily in various 
kinds of juvenile justice facilities. In settings ranging from 
detention centers to training schools and after-care, Law-Related 
Education Programs help youth develop problem-solving, conflict 
resolution, and communication skills in the context of engaging lessons 
that focus on personal responsibility.
    The second component, PREVENTION, operates primarily in elementary 
and secondary schools. When you visit a school involved in this 
program, you are very likely to see a teacher, a judge, a lawyer, the 
town's police chief, a law student or a probation officer working with 
a class of students. In some of the best Youth for Justice classrooms, 
police officers co-teach with classroom teachers on a daily basis.
    Assistance from the National, Coordinated Law-Related Education 
program continues to enhance state Law-Related Education programs. For 
example--
    New Hampshire.--Your home State of New Hampshire continues to be a 
national leader in adopting Law-Related Education for use as both a 
prevention and intervention program. This year, a student team from 
Milford High School won the statewide ``We The People'' competition in 
March while the Manchester West High School team won the ``Mock Trial'' 
competition. Each team will advance to the national competitions. In 
addition, the ``Lawyer in Every School'' program continues to be a key 
component of the New Hampshire program.
    Colorado.--In Colorado, at least 250 teachers have attended an 
annual public-private partnership conference for the past sixteen years 
as a means of updating their own knowledge. In May, hundreds of at-risk 
youth from Colorado schools will attend a Colorado Project Citizen 
Showcase where they will meet with federal, state, and local 
policymakers to present youth perspectives on policy issues that impact 
their lives. Federal support has been matched by private foundations 
and by local school districts through release time for teacher training 
and through individual volunteer efforts. As a result, teachers and 
school districts throughout the state receive a basic level of ongoing 
technical assistance.
    Hawaii.--This year's LRE support helped the Hawaii State Judiciary 
and non-profit Hawaii Friends of Civic and Law-Related Education to 
expand Parents and the Law (PAL), a project providing legal information 
to teen and at-risk parents. Assistance from LRE also benefited the 
state's efforts to curb youth violence in school settings. Technical 
and curriculum support provided through LRE enabled Hawaii State 
Judiciary staff to plan and conduct workshops for private and public 
schools devised to stem violence and hate speech.
    Wisconsin.--Recently, high school students argued before the 
Wisconsin Supreme Court as part of the statewide mock trial program. 
Over 170 schools participate in this annual event. In addition, the 
PEACE program (Peers in Education Addressing Conflict Effectively) 
helps train teachers to implement mediation programs in elementary 
schools so students can acquire the skills necessary to mediate and 
resolve their own disputes peacefully.
    Mr. Chairman, thanks to the continued commitment of this 
Subcommittee, Youth for Justice, the National, Coordinated Law-Related 
Education Program has built a vital, cost-effective program. This 
program:
  --Involves young people in identifying and implementing solutions to 
        violence;
  --Promotes research-based educational programs that strive for safe, 
        disciplined and drug-free schools and communities;
  --Teaches young people acceptable ways to resolve conflicts;
  --Fosters constructive attitudes towards authority figures;
  --Provides young people with meaningful opportunities to serve their 
        communities;
  --Promotes understanding of and reasoned commitment to the rule of 
        law along with tolerance for varied points of view in a free 
        and diverse society; and
  --Helps young people understand the democratic process and develop 
        the decision-making, and problem solving skills to enable their 
        full participation in that process.
    LRE/Youth for Justice uses technology as a cost-effective way to 
expand its reach to the LRE field. For example, LRE has posted a 
planning guide for its Youth Summits on the Internet as well as free 
mock trial competition and descriptions of and contact information for 
state LRE programs. The National LRE Program also provides technical 
assistance to state LRE centers to demonstrate how they can use 
technology to link teachers and community volunteers.
    Youth for Justice is committed to providing leadership in the 
national effort to stop the outrage of violence committed by and 
perpetrated against this nation's youth. Each Spring, thousands of 
young people from both the school and juvenile justice settings gather 
with public officials to participate in Youth Summits designed to help 
develop public policy to help prevent violence by and against youth. 
Law-Related Education is an extraordinarily effective prevention 
program, but it is also an extraordinarily effective intervention 
program--Law-Related Education also reaches juvenile offenders in 
halfway houses, detention centers, and other non-school settings.
               the national law-related education program
    The National, Coordinated Law-Related Education Program is 
comprised of five not-for-profit corporations, each of which is 
recognized nationally and internationally as a leader in the field of 
law and civic education: The American Bar Association's Division for 
Public Education; the Center for Civic Education; the Constitutional 
Rights Foundation; Street Law, Inc.; and the Phi Alpha Delta Public 
Service Center. By combining their expertise and experience as 
teachers, school administrators, juvenile justice professionals, 
attorneys and professors, these five organizations have successfully 
administered a nationwide program in which they have:
  --Established and maintained an effective network of delinquency 
        prevention law and citizenship projects in all fifty states, 
        the District of Columbia and Puerto Rico;
  --Provided training and technical assistance to the state projects in 
        this network so that federal funding effectively leverages 
        public and private funding appropriate to each state;
  --Established innovative law and citizenship programs for at-risk 
        youth;
  --Developed and field-tested quality, research-based curricular 
        materials for children--kindergarten through grade twelve--in 
        public and private schools, juvenile detention centers, after-
        school programs and court-related diversion programs;
  --Organized special initiatives on violence prevention, drug 
        prevention, juvenile justice and urban education, publishing 
        materials and sponsoring training events nationwide; and
  --Mobilized thousands of volunteers with expertise in law, public 
        policy, drug and alcohol abuse prevention, juvenile justice and 
        other areas.
            evaluations and studies of law-related education
    For the past two decades, researchers have consistently reported 
that law-related curricula and instruction make a positive impact on 
youth, when compared with traditional approaches to teaching and 
learning law, civics and government.
    The Office of Juvenile Justice and Delinquency Prevention has noted 
that evaluations of Law-Related Education Program have been 
``encouraging . . . confirming the previous findings that such 
education serves as a significant deterrent to delinquent behavior''. 
Eighth Analysis and Evaluation of Federal Juvenile Delinquency 
Programs, U.S. Department of Justice, OJJDP, p. 60 (1985). The Twelfth 
Analysis and Evaluation of Federal Juvenile Delinquency Programs 
published in 1988 similarly states, ``[A] national study suggests that 
Law-Related Education, when properly implemented, can reduce the 
tendency to engage in delinquent behavior.''
    A review of the research in Law-Related Education and related 
fields conducted by Dr. Jeffery W. Cornett (April 1997) concludes that 
LRE programs have a positive effect on student knowledge about law and 
legal processes, and about individual rights and responsibilities. 
Research studies indicate that effective LRE programs have improved 
juveniles' attitudes toward the justice system and toward authorities.
    In 1998, the National, Coordinated Law-Related Education Program 
released impact data from demonstration programs in Los Angeles, 
Chicago and Washington, D.C. showing the positive effect that Law-
Related Education can have on the highest at-risk youth.
    In January 2001, Caliber Associates, the Office of Juvenile Justice 
and Delinquency Prevention's evaluation contractor, analyzed Law-
Related Education in terms of programs proven to be effective in 
delinquency prevention and intervention. The results of this study 
demonstrate the promise of Law-Related Education with respect to 
delinquency prevention and intervention.
    The National, Coordinated Law-Related Education Program has a 
unique and remarkable record of achievement and continued support is 
crucial for the following reasons:
  --First, congressional support for Law-Related Education is vital to 
        its survival.
  --Second, the Federal Government and, in particular, the Congress, 
        has made a substantial investment over more than a decade in 
        the creation of a National, Coordinated Law-Related Education 
        network and infrastructure including state coordinating 
        organizations.
  --Third, only a national program will undertake national initiatives 
        that benefit the entire country, such as national training; 
        national technical assistance; state financial assistance; new 
        program and curriculum development such as Law-Related 
        Education's highly successful and acclaimed Youth Summits; and 
        the replication of successful state programs and the avoidance 
        of unsuccessful pilot programs.
  --Fourth, federal money is seed money used to sustain a national 
        program which raises approximately seven times the federal 
        support through state legislative support, private donations 
        and in-kind support.
    For all of these reasons, the National, Coordinated Law-Related 
Education Program is seeking earmark support at the 2.4 million dollar 
level. We thank you, Mr. Chairman and the members of this Subcommittee, 
for your support over all these many years and we ask for your 
continued support.
                                 ______
                                 

 Prepared Statement of The National Consortium for Justice Information 
                             and Statistics

    The Membership Group of SEARCH submits this testimony seeking 
appropriation support for our National Technical Assistance and 
Training Program in the fiscal year 2002 Byrne discretionary program 
appropriation for the Bureau of Justice Assistance (BJA), U.S. 
Department of Justice (DOJ). The National Technical Assistance and 
Training Program received an appropriations earmark in fiscal year 2001 
in the amount of $1.6 million. We respectfully submit this testimony to 
request funding at the $2.0 million level for fiscal year 2002.
    SEARCH is a nonprofit criminal justice organization governed by a 
Membership Group comprised of one gubernatorial appointee from each of 
the 50 states, the District of Columbia, Puerto Rico and the U.S. 
Virgin Islands. For over 30 years, we have dedicated our efforts to 
assisting state and local justice agencies combat crime and administer 
justice through the effective and responsible use of information and 
identification technologies.
    SEARCH's National Technical Assistance and Training Program 
provides no-cost assistance to all components of the state and local 
criminal justice system with respect to the development, operation, 
improvement and/or integration of all types of justice information 
systems. This significant program not only helps state and local 
agencies work more efficiently and effectively through the use of 
advanced information technology, but it also creates the foundation for 
a national information infrastructure for justice systems.
    SEARCH continues to experience an explosive growth in demand for 
the program. In 2000, we provided a 30 percent increase in the number 
of technical assistance efforts as compared to 1999. We expect to 
experience at least an additional 25-35 percent increase in technical 
assistance provided in 2001. There are a number of reasons for this 
demand, including the success of grant programs such as the Edward 
Byrne Memorial State and Local Law Enforcement Assistance Program, the 
Local Law Enforcement Block Grants Program, the COPS Technology Grant 
Program, and the Crime Identification Technology Act, which have 
provided seed money for justice information systems automation and 
integration. Also impacting the demand for SEARCH technical assistance 
and training services is the critical need of the nation's criminal 
justice agencies to share complete and accurate information quickly, 
which is manifested in their efforts to integrate and connect justice 
information systems. The momentum is showing nationally and is being 
led by the Attorney General's Global Justice Information Network 
initiative. This initiative is advocating dramatic improvements in how 
justice agencies share information nationally.
    We want to commend BJA and its fine, professional staff. Working in 
partnership with SEARCH, BJA has provided strong, national leadership 
to create opportunities for information systems training and technical 
assistance for state and local criminal justice officials.
            technical assistance program benefits all states
    SEARCH provides technical assistance via written correspondence, 
telephone consultations, electronic mail, an Internet Website, and 
onsite visits to agencies nationwide (including assistance focusing on 
statewide or regional justice integration efforts), as well as 
assistance provided at our National Criminal Justice Computer 
Laboratory and Training Center in Sacramento, California. SEARCH is 
responsive to Technical Assistance requests from every state, assisting 
agencies from all branches of government (state, county, city, 
regional), and providing guidance to every discipline in the justice 
system, including law enforcement, courts, prosecutor, probation, 
parole, corrections, and other case management agencies.
    Integrated systems assistance typically involves being onsite to 
help a state or region establish an automated justice information 
system, or evaluate and plan for multiagency integration of existing 
systems. These efforts are typically significant and complex, can 
involve multiple agencies and site visits, and deal with issues with 
far-reaching impact on state and local governments. SEARCH is currently 
providing such long-term technical assistance to agencies in Alabama, 
Arizona, California, Georgia, Hawaii, Kentucky, Missouri, Montana, 
Texas, Washington and Wisconsin.
    In the past year, SEARCH has provided hundreds of technical 
assistances via telephone, letter and email; thousands of Internet-
based assistances; and dozens of technical assistances provided onsite 
at justice agencies or our Sacramento facility. In fiscal year 2002, as 
mentioned earlier, we expect these numbers to increase dramatically as 
demand for our technical assistance services rises. Not only do we 
expect demand on our in-house assistance to grow, we anticipate 
providing 50 separate onsite assistance efforts, which will serve 
scores of agencies and often involve multiple site visits for each 
effort.
       national training program responsive to cybercrime threat
    SEARCH helps the nation's law enforcement agencies to combat the 
escalating problem of computer crime by training and equipping them 
with the skills needed to investigate cybercrime, make arrests, and 
prosecute offenders. Since its inception, SEARCH's National Technical 
Assistance and Training Program has trained more than 26,500 criminal 
justice officials from every state in the use of computers and other 
information technologies. In fiscal year 2001, SEARCH will train more 
than 1,000 state and local criminal justice officials across the 
nation, both onsite at agencies and at our National Criminal Justice 
Computer Laboratory and Training Center in Sacramento. In order to 
provide training at more sites nationally, SEARCH recently implemented 
a Mobile Training Center that uses laptops and other mobile equipment.
    Training courses focus on providing investigators with critical 
operational skills, knowledge and techniques that will have a real-
world impact, enabling them to gain a technological edge over the new 
breed of criminals who use computer technology to commit crimes such as 
fraud, theft and the online sexual exploitation of children. SEARCH's 
training courses, which range from one day to two weeks in length, 
include: The Investigation of Computer Crime; The Seizure and 
Examination of Microcomputers; Basic Local Area Network Investigations; 
Introduction to Internet Crime Investigations; Advanced Internet 
Investigations; and The Investigation of On-line Child Exploitation.
    To help our trainees keep pace with the ever-changing environment 
of cybercrime, SEARCH has developed two new courses, which will debut 
in 2001: Digital Media Analysis, and Computer Forensics. In the past 
year, staff from justice agencies in Colorado, Kentucky, Maryland, 
Texas and Vermont were among those who attended SEARCH training. ``The 
Investigation of Computer Crime,'' a weeklong course, was conducted 
onsite in a number of states, including Colorado, Texas and Vermont, 
and is next scheduled to be presented April 30-May 4, 2001, in Concord, 
New Hampshire.
                    selected examples of assistance
    The following illustrates just a few examples of SEARCH technical 
assistance and training efforts in the past year and the broad range of 
agencies receiving assistance.
    New Hampshire.--Recently, SEARCH assisted the New Hampshire Supreme 
Court with federally mandated reporting requirements for trial courts. 
As mentioned, next week, representatives of law enforcement agencies 
from throughout the state will attend SEARCH's ``The Investigation of 
Computer Crime'' training course in Concord. This weeklong course 
provides participants with an understanding of computer technology, its 
application to criminal endeavors, and the issues associated with 
investigating these types of cases.
    Colorado.--SEARCH provided onsite assistance to officials of the 
Colorado Integrated Criminal Justice Information System (CICJIS) with 
developing and implementing a short-term plan to accomplish system 
implementation goals. CICJIS is a significant, multiyear effort to 
integrate justice information systems on a statewide basis. Also, at 
the local level, SEARCH provided onsite assistance to the Westminster 
Municipal Court to help define its information requirements and 
evaluate continued use of its case management system. In shorter-term 
efforts in Colorado, SEARCH provided assistance associated with 
computer crime investigation issues to various state and local justice 
agencies, including the Colorado Bureau of Investigation, the Denver 
District Attorney's Office, the Boulder County Sheriff's Department, 
and the Police Departments of Colorado Springs and Longmont. In 
addition, 47 law enforcement investigators attended a weeklong SEARCH 
training course, ``The Investigation of Computer Crime,'' held at the 
U.S. Air Force Academy in Colorado Springs.
    Hawaii.--Nearly 30 officials, including the Hawaii Attorney 
General, attended a SEARCH-led meeting in Hawaii to oversee strategic 
planning for the statewide integration of multiple justice information 
systems, an effort being overseen by the state Attorney General's 
Office. In other assistance, SEARCH provided information on two 
occasions to the Hawaii Criminal Justice Data Center regarding security 
system audits.
    Vermont.--Of statewide significance is the onsite assistance that 
SEARCH is providing jointly to the Vermont Department of Public Safety, 
the Burlington Police Department and the Vermont Association of Chiefs 
of Police. SEARCH is assisting these agencies with the development of a 
strategic plan for information systems automation, especially with a 
view toward ensuring that the state system meets the needs of local 
users, and that Burlington's plans for new Computer-aided Dispatch, 
Records Management and Mobile Data Systems are responsive to statewide 
needs and requirements. In shorter-term assistance, the Essex Police 
Department received information on Internet Service Provider issues. In 
addition, law enforcement officers from throughout the state learned 
valuable new skills at a one-week SEARCH training course, ``The 
Investigation of Computer Crime,'' which was held in Pittsford and 
cohosted by the Vermont Criminal Justice Training Council.
          technical assistance and training program materials
    SEARCH's National Technical Assistance and Training Program also 
includes the preparation, publication, and national dissemination of 
materials and reports that assist criminal justice agencies in 
acquiring and using computers and other information technology. For 
example, SEARCH publishes quarterly Technical Bulletins that identify 
and evaluate information systems and technologies that have existing or 
potential application in criminal justice management. SEARCH also 
offers an online resource, the Integrated Justice Information Systems 
Website, which features state and local profiles of justice integration 
efforts, including links to information on governance structures, 
funding, technical overviews, project documents and more, as well as 
links to useful integration publications, articles and other resources. 
The Website can be reached at www.search.org/integration.
                               conclusion
    Without question, federal support for the National Technical 
Assistance and Training Program makes a vital contribution to the war 
on crime. For a modest federal investment, leveraged many times over by 
state and local funds, a critical contribution is made to the ability 
of state and local criminal justice agencies to provide--and to share--
timely, accurate and compatible information for use in apprehending, 
prosecuting and sentencing offenders.
    Accordingly, we respectfully request that the Subcommittee act to 
ensure fiscal year 2002 funding of SEARCH's National Technical 
Assistance and Training Program. We thank you, Mr. Chairman, the 
members of your Subcommittee and the Subcommittee staff for your 
continued support.
                                 ______
                                 
                          DEPARTMENT OF STATE

               Prepared Statement of The Asia Foundation

    Mr. Chairman: Thank you for the opportunity to submit testimony 
supporting The Asia Foundation's fiscal year 2002 budget request. The 
Foundation is grateful for the support that the Congress and this 
Committee have provided over the years.
    Mr. Chairman, I would like to present The Asia Foundation's 
programs and our future plans to address the challenges and 
opportunities facing Asia. We believe that our programs demonstrate how 
a small, independent organization can advance American interests in the 
Asia-Pacific region.
    The Administration has endorsed the work of The Asia Foundation by 
requesting an appropriation of $9.25 million for fiscal year 2002. This 
funding would enable the Foundation to pursue programs in governance 
and legal reform, human rights, economic reform and peaceful, 
cooperative regional international relations. Most importantly, it will 
enable the Foundation to support Asian organizations that are 
positioned to play key roles in democratic and economic reform efforts 
throughout the region.
                                overview
    Let me put the work of the Foundation into context. U.S. economic, 
political and security interests in Asia have become broader and more 
complex in the post-Cold War decade. Regional security challenges 
remain among the most important in the world, including China-Taiwan 
cross-straits relations, the Korean peninsula and the India-Pakistan 
border disputes, as well as internal conflicts in Indonesia, the 
Philippines, and Sri Lanka. Political changes in Asia, welcome as they 
are, represent a challenge to stability, as in the case of Indonesia. 
Some countries in the region remain under authoritarian rule, while a 
number of countries have embraced democracy, although their new systems 
are fragile. Human rights abuses and questions of impunity continue. 
Even though women in Asia have made gains, in many places they are 
still subject to economic and political inequities and, in the worst 
cases, they are victims of abuse and trafficking. Economically the 
region has not fully recovered from the crisis of 1997, and Japan's 
economy, so important to the region's economic growth, continues to 
sputter. One consequence of the transitions underway in countries is 
the increased demand by Asians for a range of reforms: the rule of law, 
government transparency and accountability, anti-corruption measures, 
the end of ``crony capitalism'', and improved corporate governance. At 
the same time, public policymaking, once considered the exclusive 
purview of the state, is expanding to include a role for citizens and 
business organizations in fields such as legal reform, human rights, 
the environment and health.
    We believe that The Asia Foundation, building on its continuing 
presence in Asia for nearly 50 years, is helping significantly to 
advance U.S. interests in this complex and dynamically evolving region. 
We are pleased that so many in Congress support our work. In the most 
recently enacted State Department authorization, The Asia Foundation 
was authorized at an annual level of $15 million. And we were 
especially gratified by the support received from the House. Last 
spring, the full House voted overwhelmingly to sustain Asia Foundation 
funding.
    In the past, this Committee has encouraged the Foundation's grant 
making role, and we remain faithful to that mission. The Foundation's 
hallmark is to make sequential grants to steadily build and strengthen 
institutions, develop leadership and advance policy reforms in 
countries in the region. Foundation assistance supports training, 
technical assistance, and seed funding for new, local organizations--
all aimed at promoting reform, building Asian capacity, and 
strengthening relations with U.S. institutions.
    The democratic and economic transitions underway in Asia represent, 
in part, the return on investment the Foundation has made, over time, 
in support of individuals and institutions committed to reform. The 
Asia Foundation is a model of public-private partnership, with a long 
history of support from Asian and American policymakers and a respected 
track record in Asia.
                     the asia foundation's mission
    The Foundation's core objectives are central to U.S. interests in 
the Asia-Pacific region.
  --Democracy, Human Rights and Rule of Law.--Developing and 
        strengthening democratic institutions and encouraging an 
        active, informed and responsible non-governmental sector; 
        advancing the rule of law; and building institutions to uphold 
        and protect human rights.
  --Open Trade and Investment.--Supporting open trade, investment and 
        economic policy reform at the regional and national levels.
  --Peaceful and Stable Regional Relations.--Promoting regional 
        discussions on security cooperation, regional economic policy, 
        and law and human rights.
    The region's future progress is in large part tied to governance 
and legal reforms that must be undertaken, but require political 
solutions. The increased complexity of problems in Asia requires 
flexible and creative solutions, based on knowledge, expertise and 
relationships in the region. The following examples illustrate the ways 
in which Foundation programs in key areas contribute to the advancement 
of U.S. interests in the region.
                                programs
Democracy and Human Rights
    Strengthening formal governmental institutions--including the 
constitutional framework, the legislative branch, and the judiciary--
and encouraging the development of civil society and the protection of 
human rights, have been the hallmarks of The Asia Foundation's programs 
in Asia.
  --The Foundation has contributed to the development of parliaments in 
        16 countries in Asia through technical assistance, training 
        members and staff, facilitating interaction with the non-
        governmental sector, and developing parliamentary capacity to 
        review budgets and other executive functions in Thailand, 
        Taiwan, South Korea, Mongolia, the Philippines and Indonesia.
  --The Foundation is probably the single largest supporter of the non-
        governmental sector in the Asian countries in which we operate. 
        The Foundation builds the capacity of organizations, encourages 
        public participation, and works to improve the regulatory 
        environment for NGOs. Foundation support has contributed to the 
        establishment of new NGOs that have quickly made their mark, 
        such as the Indonesian Institute for Independent Judiciary 
        (LeIP), which played an important role in the recent, first 
        time ever ``fit and proper'' test for new candidates for the 
        Indonesian Supreme Court. LeIP conducted investigations of the 
        capacity and integrity of candidates for the court at the 
        request of the Indonesian Parliament, adding hope for more 
        transparent procedures, better qualified justices and increased 
        judicial accountability in future.
  --With the trend toward devolution of political and administrative 
        authority to the sub-national level, local governance and 
        decentralization programs are a priority for the Foundation. 
        The Foundation has taken a lead role in supporting milestone 
        efforts in China, the Philippines and Indonesia: for example, 
        developing capacity for village level elections and supporting 
        reforms of urban neighborhood committees in China.
  --The Foundation's human rights programs are premised on the 
        expectation that the rights and obligations of all citizens 
        will be better respected and observed when public institutions 
        function in an open, transparent, and predictable manner, and 
        when effective mechanisms are available for citizens to enforce 
        their rights when they are threatened or violated. Responsible 
        government, social stability, and the benefit of broad-based 
        economic development are all predicated upon recognition and 
        respect for human rights. Meaningful state and societal 
        commitment to human rights is especially important for the 
        poor, women, and other marginalized groups whose rights are 
        vulnerable to abuse.
    With this in mind, the Foundation promotes the protection and 
advancement of human rights as an important priority of its work. 
Through its support of nongovernmental and governmental human rights 
efforts at the regional, national, and local levels, the Foundation's 
programs focus on forensic training for NGOs to investigate past human 
rights abuses; promotion of religious tolerance in Indonesia, including 
the use of Islamic scriptures to support messages of peace and non-
violence; establishment of alternative dispute resolution programs; 
media training and guides on international human rights standards and 
conflict reporting for journalists; and programs to reduce trafficking 
and violence against women.
    In Indonesia, Cambodia, Thailand, the Philippines and Sri Lanka the 
Foundation is supporting comprehensive human rights programs that 
combine public awareness, training and monitoring efforts. The 
Foundation is giving special attention to the troubled region of 
Indonesia through support for local human rights organizations in Aceh, 
West Papua, and most recently, the Maluku Islands. In Maluku, an NGO 
coalition, Tapek Ambon, is working with Asia Foundation support, to 
reduce Muslim-Christian violence and to report human rights abuses to 
the Indonesian government and to national and international human 
rights organizations.
    With a $9.25 million appropriation, the Foundation will be able to 
maintain its programs in these current areas.
Rule of Law
    The Asia Foundation is committed to the development of law and 
effective legal systems. Foundation grants and technical assistance 
support improved judicial administration, legal education, community 
legal assistance programs, and alternative dispute resolution. The 
following examples illustrate the scope of Foundation legal 
programming:
  --In China, where there are increased domestic and international 
        pressures to reform the legal system and adopt international 
        standards, the Foundation was one of the earliest supporters of 
        legal reform efforts. Since 1998, the Foundation has supported 
        efforts in China to limit the arbitrary power of officials, and 
        create greater scope for citizen participation and redress 
        through a series of administrative law reforms. With China's 
        impending entry into the WTO, the Foundation's administrative 
        law efforts in the future will also focus on China's compliance 
        with WTO requirements related to legal transparency and 
        consistency. Other programs support the provision of legal aid 
        services and popular legal education to bring the benefits of 
        legal reform directly to China's citizens.
  --Building on more than a decade of work in East Timor, the 
        Foundation is the only American organization supporting East 
        Timorese efforts in the constitutional drafting process, as 
        well as assisting human rights groups, the newly formed 
        National Jurists Association, and local NGOs involved in voter 
        education programs for the upcoming elections.
  --With Foundation support, Sri Lankan organizations have been 
        instrumental in providing legal aid services and legal rights 
        training for local government officials and community leaders 
        as well as legal literacy services for the public. This 
        includes Foundation assistance to the Legal Aid Commission of 
        Sri Lanka for the provision of legal aid through five regional 
        offices, and services for victims of unlawful arrest and 
        torture.
  --In the Philippines, the Foundation has supported a number of legal 
        and judicial reform efforts, including strengthening legal 
        protection of women and children, improvements in evidentiary 
        procedure and other criminal laws, support for alternative law 
        groups to monitor and report on judicial performance, and the 
        development of alternative dispute resolution mechanisms at the 
        local level.
  --In Indonesia, the Foundation has supported the National Law 
        Commission to develop an action plan for the reform of the 
        Indonesian legal system, as well as the newly established 
        National Ombudsman Commission, and a number of ``watchdog 
        NGOs'' to review and monitor the development and application of 
        law, and the conduct of the judiciary and the police.
    Legal reform programs throughout the region, with particular 
emphasis on Indonesia, China, the Philippines and Nepal, will be a 
significant focus for the Foundation in fiscal year 2002. For example, 
in Indonesia, the Foundation will re-invigorate its programs with law 
schools and will consider initiating programs with the Ministry of 
Justice and the Supreme Court. In Nepal, the Foundation has begun a 
planning exercise for legal and judicial reform with Nepali legal 
institutions, including the courts, and a program to integrate 
alternative dispute resolution in to local government functions.
Open Trade and Investment
    The Asia Foundation supports programs that lead to open trade and 
investment, and related economic policy reform. In particular, these 
programs help address the political and governance factors that 
contributed to the regional economic crisis, and support transparency, 
accountability and the rule of law.
  --In Indonesia, the Foundation supports policy and regulatory reforms 
        that are making it easier for small and medium enterprises 
        (SMEs) to get started and function, an area critical to growth 
        and employment.
  --In collaboration with business, government and nongovernmental 
        organizations, the Foundation works to improve the policy 
        environment for information and communication technology (ICT) 
        in Asia. Some examples include: support for the implementation 
        of the APEC e-commerce readiness program, including identifying 
        policy reforms needed for ICT in Thailand; policy research on 
        ICT and competitiveness that led to improved legislation for e-
        commerce and intellectual property protection in the 
        Philippines, as well as telecommunications law reform.
  --In Vietnam, in an effort to increase awareness and understanding of 
        the U.S.-Vietnam bilateral trade agreement, the Foundation 
        supported a series of workshops with the Vietnam Chamber of 
        Commerce and Industry (VCCI) covering technical issues in 
        customs and trade. The workshops also led to the production of 
        handbooks produced by VCCI and the Foundation for domestic 
        entrepreneurs. These handbooks lay out the schedule of 
        commitments under various trade regimes and offers practical 
        information for firms.
  --The Foundation supported regional organizations such as the Asia-
        Pacific Economic Cooperation (APEC) forum and the Pacific 
        Economic Cooperation Council (PECC), which are committed to 
        open trade and investment in the Pacific region. The Foundation 
        supported the APEC working group on technology which set the 
        agenda for the ASEAN ministerial meeting on SME and information 
        technology issues. The Foundation also supported the formation 
        of the Mongolian National Committee for Pacific Economic 
        Cooperation (MONCPEC) and its engagement with PECC and APEC to 
        enable Mongolia to analyze domestic economic reform efforts in 
        the context of regional economic needs.
    In fiscal year 2002, the Foundation will increase its emphasis on 
the development of small and medium enterprise policy reform throughout 
the region, as well as focus on building constituencies for economic 
reform and open markets, particularly in the area of corporate 
governance to help reduce corrupt practices and restore investor 
confidence.
Peaceful and Stable Regional Relations
    The Asia Foundation's programs in international relations reflect 
the unique capacity of the Foundation to promote increased 
understanding of different foreign policy perspectives through regional 
and international dialogue. Foundation programs advance and complement 
more formal diplomatic efforts to advance U.S. economic and security 
interests in the region, and help to strengthen Asian institutional and 
human resource capacity in the foreign policy field. For example:
  --The Foundation provides regular support for the Council for 
        Security Cooperation in the Asia Pacific (CSCAP) process as a 
        useful vehicle for Track Two dialogue on regional security and 
        the evolving regional security structures.
  --In cooperation with the Asia Center at Harvard University, the 
        Foundation supports a trilateral security conference series 
        bringing together scholars and officials from China, Japan, and 
        the United States for an on-going, high-level dialogue on 
        security issues in the region.
  --The Foundation is supporting a number of programs focusing on U.S.-
        China relations, including a bi-lateral conference series on 
        the Taiwan issue, meetings for Chinese foreign policy and 
        defense officials with American counterparts, and Master's 
        degree programs at U.S. universities for mid-career Chinese 
        diplomats.
    In the coming year, the Foundation plan to re-initiate a series of 
bilateral dialogues between countries of key interest to the United 
States, including Thailand, Indonesia, and Vietnam. The Foundation will 
also support a new cross-straits security dialogue involving 
participants from the United States, China and Taiwan, and will 
facilitate additional cross-straits dialogue on such issues as local 
governance reform and the role and status of the non-profit sector.
                               conclusion
    As the preceding examples of our work emphasize, the Foundation is 
a field-based organization that supports projects in Asia and builds 
the capacity of Asian institutions, while at the same time maintaining 
close links with the U.S. foreign policy community. Working through 14 
offices in the Asia-Pacific region, including China, Hong Kong and 
Taiwan, the Foundation provides vital support to local economic and 
political reform efforts. Through these offices and our resident 
representatives, we establish relationships with creative, reform-
minded individuals and organizations who seek to advance the same goals 
and interests to which we are committed.
    The Asia Foundation is first and foremost a grant making 
organization. The Foundation has consistently received national 
recognition for its efficient grant-to-operating expense ratio, 
reflecting its commitment to maximizing the impact of its programs in 
Asia, while keeping operating expenses low. We are not a research 
organization or an academic institution, nor are we Washington based. 
We work on the ground in Asia as an accepted, trusted partner and 
supporter of Asian reform efforts that also support and reinforce 
American political, economic and security interests.
    Public funding is essential to our mission for many reasons. While 
the Foundation remains committed to expanding private funding, the 
flexibility and reliability that public funding lends to the 
Foundation's efforts is critical. As an organization committed to 
American interests in Asia, we can only be successful if potential 
private donors understand that the U.S. government continues to support 
our efforts in the region.
    Furthermore, private funding is almost always tied to specific 
projects (as are USAID funds for which the Foundation competes) and do 
not replace public funding, either in scale or in flexibility. The 
Foundation does not solicit or accept private funds that might 
compromise either our credibility or our fundamental commitment to 
support of U.S. interests in Asia. Moreover, the flexibility afforded 
by U.S. government appropriated funds enables the Foundation to respond 
quickly to fast-breaking developments and program opportunities, as 
demonstrated by our 2000 funding for human rights in East Timor and law 
reform programs in Indonesia. It also enables the Foundation to work in 
countries such as China, Vietnam, Korea, and Pakistan that are of 
priority to the United States, but where USAID and other official U.S. 
assistance is minimal or non-existent. The Asia Foundation continues to 
be a model of public-private partnership and a resource which 
complements official foreign policy efforts.
    It is important to note one important example of a new opportunity 
that has arisen in the Philippines where the new government of 
President Gloria Macapagal Arroyo has a daunting task of restoring 
confidence in the country's political institutions, curbing corruption, 
and revitalizing the Philippine economy. The Foundation is poised to 
support programs that build coalitions for reform within the 
nongovernmental, business, and governmental sectors, increase 
opportunities for public participation, and support local efforts to 
liberalize the economy. With additional funding, the Foundation would 
expand its legal and economic reform programs in the Philippines, and 
build on programs that reduce corruption, increase transparency and 
accountability in governance, and protect human rights, in line with 
American interests.
    In closing, Mr. Chairman, I have cited just a few examples of the 
many Asia Foundation programs that we consider central to U.S. 
political, economic, and security interests in an area of the world 
that is of vital importance, and that will continue to experience 
change in the years ahead.
    As you and your colleagues know, budget constraints have resulted 
in significant reductions in the Foundation's annual appropriation 
since fiscal year 1996 and even the requested $9.25 million is below 
the $15 million appropriation for the Foundation for a decade prior to 
1996. We have worked hard to manage our budget, reduce staff and 
expenditures, increase our efficiency, and diversify our funding 
sources. We have maintained our regional presence through our offices 
in Asia and ensured that the maximum possible amount of appropriated 
funds are dedicated to on-the-ground programs. Nevertheless, this 
constrained level of funding has limited the Foundation's ability to 
respond to the challenges and opportunities emerging in Asia. At a time 
of rapid change and uncertainty in the region, additional funding would 
enable the Foundation to expand directly its positive contributions to 
American interests.
                                 ______
                                 

 Prepared Statement of the Robert F. Wagner Graduate School of Public 
                                Service

  ``the challenge of democratic public service in the new millenium''
    The American experiment in democratic decision-making began long 
ago and in simpler times, but it has many lessons to offer nations and 
peoples around the world. After the Allies' victory in World War II, 
the United States faced an enormous challenge of rebuilding in Europe 
and Asia. Now, having defended its democratic system and won the Cold 
War, the United States faces a new challenge of encouraging the 
development of democratic political systems and market economies around 
the world. The struggle for democracy and economic freedom will require 
new weapons, but success in this battle may depend as much on American 
ingenuity and technological superiority as did our previous victories.
    Through its direct aid programs, its Fulbright and other scholar 
exchange programs, the Edmund Muskie and Ron Brown Fellows programs, 
and through various foreign visitor programs, our government is making 
a strategic investment in developing democratic, market-oriented 
leadership around the world. Indirectly, America's investment in higher 
education has also paid international dividends: American universities 
are the most popular destination of students who study abroad. (More 
international students enroll at NYU than any other American 
university.) During their stay and time of study in the United States, 
these international students are exposed to American institutions, 
American values, and American freedom.
meeting the challenge: nyu and the robert f. wagner graduate school of 
                             public service
    I represent the Robert F. Wagner Graduate School of Public Service 
at New York University. The Wagner School--named after a great Senator 
from the State of New York, and his son, the three-term mayor of New 
York--is the largest school of public service in the United States, 
including students from more than 40 countries. In the past decade, 
Wagner faculty and programs have provided professional education to 
officials throughout the Newly Independent States, Africa, Latin 
America, and Asia. We have current partnerships with universities in 
France, England, Spain, Belgium, Ukraine, Mexico, Chile, Argentina, 
Mozambique and South Korea. We have welcomed their students into our 
classrooms, sent ours to theirs, and our faculty have taught courses on 
their campuses. The Wagner School has been a leading participant in the 
U.S. funded fellowships and educational exchange, hosted Fulbright 
scholars, and is now carrying out two Department of State funded 
programs in Ukraine and Mozambique. Wagner faculty are also providing 
technical assistance to the World Bank and other international 
organizations in Cambodia, Indonesia, Columbia, Uganda, South Africa 
and Mozambique.
    Wagner students receive very practical training. At the end of 
their master's degree program, they spend two semesters working in 
teams under faculty--supervision working for real world clients doing 
``capstone'' projects in public policy, management, finance or urban 
planning. In the past three year more than 60 students have 
participated in international capstone projects for international 
organizations based in the United States such as Save the Children, 
UMCOR, Trickle Up, as well as a number of U.N. agencies. For example, 
this year five Wagner students are evaluating a humanitarian assistance 
project in Mozambique in cooperation with six students from our partner 
university in Mozambique. They coordinated their plans using email and 
interactive televideo conference meetings, and spent three weeks in 
January working in combined teams doing field work in Gaza, a province 
of Mozambique, which was an area most affected by last year's 
devastating floods.
    International NGOs, many based in the United States, have become 
major players in responding to humanitarian crises around the world and 
in civil society capacity building. The service delivery parts of the 
United Nations system, such as UNICEF and the Department of 
Peacekeeping Operations, have been given new and more complex 
assignments. At the same time, funders are demanding greater evidence 
of successful performance and imposing more rigorous standards of 
accountability. These developments have greatly increased the need for 
managerial competence in international public service organizations.
    In January 2000, The Wagner School inaugurated a new master's 
degree for managers of international public service organizations and 
is creating a new sub-field of public management education--
international public service management. The first two classes of 36 
students represent 24 countries. Our partner program at Korea 
University, the Graduate School of International Studies, has admitted 
five students to a dual masters degree program: first an MA in 
international affairs, then our MS in management next year.
                        needs exceeding capacity
    Even as the largest school of public service, the Wagner School can 
enroll only a small fraction of the international students who want to 
pursue the fields of study offered. For many students from less 
economically developed parts of the world, the combined cost of tuition 
and books and travel to and residency in New York, constitute an 
impossibly high barrier to access. This barrier looms especially large 
for women from less developed regions of the world.
    Distance learning technologies have been used to expand the reach 
of our programs in our partnerships with universities around the world. 
Building on our experience using interactive televideo conferencing in 
courses with Europe, Latin America, and Asia, we are now introducing 
this technology in our work with Mozambique. By reducing the time and 
financial costs of faculty and student travel in educational 
partnerships, we believe modern technologies will enable the Wagner 
School to dramatically widen and deepen its reach to build capacity for 
democratic public service in the nations of the world. We are 
increasingly working with our university partners in other nations 
using distance learning technologies to provide a meeting place for 
technical assistance and exchange between officials in specialized 
fields. For example, two weeks ago the Wagner School hosted a two hour 
meeting between solid waste management officials in Rio De Janeiro and 
officials and experts in New York and Paris using an interactive 
televideo conference. We believe that if we were properly equipped the 
Wagner School could multiply many times over the reach and 
effectiveness of its public service policy and management education 
efforts around the world.
The International Center for Democratic Public Service
    To bring together all of the outstanding programs and resources we 
have to offer, Wagner is seeking to develop an International Center for 
Democratic Public Service. This Center will focus the vast resources 
found in the Wagner School, NYU and New York City on developing and 
supporting policy leadership and management solutions worldwide. In 
addition to offering a range of courses and degree programs, the 
International Center for Democratic Public Service will serve as a 
forum for American and international leaders to discuss major policy 
objectives, and at which public service professionals can gather to 
share ideas and best practices before a global audience. It will create 
a global network of students, scholars, and practitioners who want to 
better understand how to improve public service delivery throughout the 
world in the 21st Century.
    As part of its strategic plan, the Robert F. Wagner Graduate School 
of Public Service intends to move its faculty and programs from their 
dispersed locations around Washington Square into one new integrated 
facility. A crucial component of this effort--and one needed to extend 
Wagner programs to a global economy--is the inclusion of the full range 
of distance learning technologies that would make the School's new home 
a state-of-the-art global professional education center. This is an 
area in which we will be seeking government support to help leverage 
funding from private foundations, corporations and individuals 
concerned with the delivery of public services worldwide.
    Properly equipped classrooms and computer laboratories can 
facilitate a wide range of projects involving faculty, students and 
practitioners located in multiple sites simultaneously, and 
technologically advanced lecture halls can accommodate unlimited 
attendance spanning great distances. These are all well-developed 
technologies, but their initial cost is expensive. However, the cost-
effectiveness of these means of professional education make them the 
best hope for providing democratic public service capacity building on 
the scale necessary to transform the societies aspiring to join the 
United States in the great democratic experiment.
                                 ______
                                 
                            RELATED AGENCIES

Prepared Statement of the National Association of Government Guaranteed 
                             Lenders, Inc.

    The National Association of Government Guaranteed Lenders, Inc. 
(``NAGGL'') is a trade association for lenders and other participants 
who make approximately 80 percent of the Small Business Administration 
(``SBA'') section 7(a) guaranteed loans. The SBA's 7(a) guaranteed loan 
program has proven to be an excellent public/private partnership. Since 
the program's inception, the SBA has made or guaranteed more than 
600,000 loans totaling approximately $80 billion. We thank the 
Committee for the opportunity to comment on appropriations for the SBA 
7(a) program for fiscal year 2002.
    NAGGL requests that an appropriation of $118 million be made for 
the SBA 7(a) program in fiscal year 2002. Although this represents a 
decrease in appropriations from the current year, it, nevertheless, 
would fund a growing program. The current year's appropriation would 
fund about $10.4 billion in 7(a) loans. Next year, we estimate demand 
of $11 billion. Yet, less appropriations would be needed in fiscal year 
2002 as a result of the OMB-determined SBA 7(a) subsidy rate declining 
from the fiscal year 2001 rate of 1.17 to 1.07 for fiscal year 2002.
    Since the beginning of ``Credit Reform'' in 1992, the SBA 7(a) 
subsidy rate has fallen from a high of 5.21 to the projected current 
services level for fiscal year 2002 of 1.07. This represents an 80 
percent reduction in the estimated cost of the program to the 
government. This reduction in subsidy costs has been achieved by 
improved underwriting guidelines, establishment of lender review 
procedures, and fee increases on both borrowers and lenders.
    There are many positive attributes of the SBA 7(a) loan program, 
including:
  --SBA loan programs provide as much as 40 percent of all long-term 
        loans (loans with maturities of three years or longer) to small 
        businesses.
  --SBA 7(a) loans have significantly longer maturities than 
        conventional loans to small businesses. The average original 
        maturity of SBA 7(a) loans, according to the Office of 
        Management and Budget (``OMB''), is 14 years. By comparison, 
        only 16 percent of conventional small business loans have 
        maturities in excess of one year, and of those loans, the 
        average maturity is less than four years
  --Longer maturities mean substantially lower monthly payments for 
        borrowers. For example, the difference in monthly payments from 
        a 10 year SBA 7(a) loan to a five year conventional loan (which 
        would be above the average maturity for conventional loans), 
        would be 35-40 percent. This is a significant increase for the 
        average SBA borrower who tends to be a new business startup or 
        an early stage company.
  --Small businesses do not have the same access to capital as do large 
        businesses. The SBA programs bridge that capital gap. Banks can 
        not be expected to make long-term loans, the kind most needed 
        by small business, when banks are funded by a short-term 
        deposit base.
  --The SBA 7(a) appropriations are leveraged almost 99 to 1 by the 
        private sector, making this one of the governments' best 
        economic development instruments. With a more accurate subsidy 
        rate estimate (as discussed below), the leverage ratio would be 
        even higher.
  --The SBA 7(a) loan program is just that--a loan program--which helps 
        qualified small businesses obtain the long-term capital they 
        need for growth and expansion. This means jobs, and a ``net 
        return on investment'' for our local communities and the U.S. 
        Treasury.
    Unfortunately, the Administration's budget request for fiscal year 
2002 for the SBA 7(a) loan program calls for further increases on both 
borrowers and lenders. The Administration proposes to reduce the 
subsidy rate from the fiscal year 2002 current services level of 1.07 
to zero. In reviewing the past performance of the SBA 7(a) loan 
program, fee increases simply are not justified. In addition, a recent 
NAGGL survey of SBA 7(a) lenders indicated that the use of the 7(a) 
program would be greatly diminished if fees were increased.
    For instance, for loans approved from fiscal year 1992-1998, 
Congress appropriated approximately $1.4 billion for subsidy budget 
authority. When looking at those loan cohorts, already approximately 
$1.25 billion has been returned to the Treasury through ``subsidy re-
estimates.'' This means OMB has substantially over-estimated the cost 
of the 7(a) program. NAGGL believes that the SBA 7(a) program subsidy 
rate is far less than the subsidy rate currently estimated by OMB.
    In testimony before the House Small Business Committee just last 
year, an SBA official testified that the estimated default rate for the 
SBA 7(a) loan program was ``in the 8-10 percent range.'' Yet OMB 
requires the use of an approximate 14 percent default rate in the 
subsidy rate calculation. Each 1 percent reduction in the default 
estimate would reduce the subsidy rate by approximately 34 basis 
points, or .34. If the highest SBA default estimate of 10 percent (per 
the House testimony last year) were used, the current subsidy rate of 
1.17 percent would be reduced by over 120 basis points. This would mean 
that the subsidy rate today is already below zero.
    At the same House Small Business Committee hearing last year, the 
former SBA Administrator testified ``the program is already being run 
at a profit to the government.'' There is clearly no justification 
whatsoever to increase program costs on SBA 7(a) program participants.
    It is especially noteworthy that the leadership of both the Senate 
and House Small Business Committees have agreed with our assessments. 
In a letter to the Chairman and Ranking Member of the Senate Budget 
Committee dated March 16, 2001, Senate Small Business Committee 
Chairman Christopher Bond wrote:

    ``The small business community is dependent on the SBA 7(a) program 
to obtain long-term financing at a competitive interest rate. Each 
year, 40,000 or more small business concerns, who cannot obtain credit 
elsewhere, turn to the 7(a) program for critical financing. Currently, 
both the borrowers and lenders pay significant fees to the SBA to help 
offset the credit subsidy cost necessary to underwrite the program. The 
fiscal year 2002 budget request seeks to increase the fees paid by 
borrowers and lenders to offset the need for an annual appropriation. 
The net result of the Administration's budget would be to drive both 
the small business borrowers and the lenders from the program. I do not 
believe it is the intention of the Administration, nor is it the intent 
of Congress, to deny needed business loans to small business borrowers 
at the same time the economy is slowing and credit underwriting 
standards have tightened significantly. Therefore, I strongly recommend 
that $118 million be added to the Business Loan Account of the SBA 
fiscal year 2002 budget to support an $11 billion 7(a) loan program.''

    Likewise, the Ranking Democrat on the Senate Small Business 
Committee, Senator John Kerry introduced an amendment to the Senate 
budget resolution that would restore fiscal year 2002 funding for the 
SBA 7(a) program. Senator Bond and several other Senators, both 
Republican and Democrat, co-sponsored the legislation that passed the 
Senate under unanimous consent. A copy of the Senate Small Business 
Committee news release is attached.
    In a letter to the House Budget Committee dated March 14, 2001, 
House Small Business Committee Chairman Donald Manzullo writes:

    ``Previous reports from the General Accounting Office (GAO) 
indicate the subsidy costs have been inflated. OMB re-estimates of the 
subsidy cost of the 7(a) program consistently show execution rates are 
inflated. This has the potential to lead to the overcharging of small 
business borrowers. As the U.S. economy enters a period of zero growth 
and perhaps even a recession, the Committee is also concerned about the 
effect of these proposed heightened fees on the availability of capital 
to small businesses.
    The proposed increase in 7(a) fees, despite improvements in 
purchases and recoveries, continues to raise concerns in the Committee. 
Inaccurate subsidy costs will result in overpayment of fees and 
eliminate flexibility in program delivery. The Committee believes that 
the 7(a) program is already operating at or near a zero subsidy rate 
and the President's budget request should instead contain a one-time 
accurate accounting change to reflect that reality. Thus, there should 
not be a need to increase fees.''

    Importantly, the Administration's budget request recognizes that 
the proposed fee increase could have a detrimental impact on small 
businesses. Included in the budget narrative is the following:

    `` The Administration's fee proposal acknowledges that some small 
businesses may have trouble accessing capital--''

    Yet in the analytical perspectives section of the budget (page 
150), the Administration further states:

    ``Traditionally, small firms have faced difficulty obtaining long-
term loans in the private market place because they tend to have 
limited credit history and cash flows. SBA's role as a `gap' lender is 
to correct these market imperfections and provide credit access during 
economic downturns.''

    NAGGL requests your support for $118 million in fiscal year 2002 
appropriations for the SBA 7(a) program. We urge you to make sure there 
remains a viable, usable SBA 7(a) loan program by rejecting any further 
fee increases, and supporting sufficient appropriations to support an 
$11 billion SBA 7(a) loan program for fiscal year 2002.
                                 ______
                                 

  Prepared Statement of the Upper Mississippi River Basin Association

    The Upper Mississippi River Basin Association (UMRBA) is the 
organization created 20 years ago by the Governors of Illinois, Iowa, 
Minnesota, Missouri, and Wisconsin to serve as a forum for coordinating 
the five states' river-related programs and policies and for 
collaborating with federal agencies on regional issues. As such, the 
UMRBA has an interest in the budget of the Maritime Administration 
(MARAD).
    Of particular concern to the UMRBA is funding for MARAD Operations. 
The President's fiscal year 2002 budget proposal includes $34 million 
for this account, an increase of 6 percent from fiscal year 2001. Among 
other things, the MARAD Operations budget supports research and 
development efforts, which help advance ship design, construction, and 
operations. For example, MARAD funding has been used to support the 
design of prototype mooring buoys used on the Upper Mississippi River. 
Such buoys allow tows to tie up safely while awaiting lockage, thus 
avoiding environmental damage that might be caused by mooring to the 
shoreline. Funding for research and development efforts such as these 
is critical to the safety and efficiency of commercial navigation on 
this nation's inland waterway system.
    In addition, the MARAD Operations account supports the Inland 
Waterways Intermodal Cooperative Program. This new program is designed 
to increase the efficiency and productivity of ports and freight 
transportation companies that use inland waterways. Shippers, terminal 
operators, barge lines, railroads, and fleeters will work together to 
identify and implement innovative cargo handling methods and 
technology.
    Finally, the MARAD Operations account supports MARAD's efforts to 
assist the maritime industry in complying with requirements to manage 
ballast water. Discharge of water from ships' ballast tanks can 
introduce non-indigenous aquatic species into U.S. waters. These 
species, such as zebra mussels and round gobies, can spread rapidly 
from the Great Lakes to inland waterways like the Mississippi River, 
threatening native species, the integrity of the ecosystem, and many 
water-dependent sectors of the economy. MARAD is working with other 
federal agencies and the maritime industry to develop a ballast water 
treatment technology test and demonstration program.
    The UMRBA supports adequate funding for the Maritime 
Administration's Operations account.


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
Alachua County, Florida Board of County Commissioners, prepared 
  statement......................................................   407
Alaska Inter-Tribal Council, prepared statement..................   431
American:
    Chemical Society, prepared statement.........................   419
    Indian Higher Education Consortium, prepared statement.......   387
    Museum of Natural History, prepared statement................   401
    Public Power Association, prepared statement.................   425
    Rivers, prepared statement...................................   380
Ashcroft, Hon. John, Attorney General, Office of the Attorney 
  General, Department of Justice.................................     1
    Opening remarks..............................................     1
    Prepared statement...........................................     3
Association of America's Public Television Stations, prepared 
  statement......................................................   381

California:
    Indian Legal Services, prepared statement....................   438
    Industry and Government Central California Ozone Study 
      Coalition, prepared statement..............................   379
Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado, 
  questions submitted by...................................52, 302, 311
Carman, Gregory W., Chief Judge, United States Court of 
  International Trade, the judiciary, prepared statement.........   376
Center Directors' Association, prepared statement................   442
Center for Marine Conservation, prepared statement...............   410
Central Piedmont Community College, prepared statement...........   422
City of:
    Fairfield, California, prepared statement....................   441
    Gainesville, Florida, prepared statement.....................   446
    Miami Beach, Florida, prepared statement.....................   413
Clemson University, prepared statement...........................   439
Columbia River Inter-Tribal Fish Commission, prepared statement..   384
Columbia University, prepared statement..........................   390

Domenici, Hon. Pete V., U.S. Senator from New Mexico, questions 
  submitted by..............................27, 110, 146, 298, 307, 342

Evans, Hon. Donald L., Secretary, Office of the Secretary, 
  Department of Commerce.........................................    81
    Biographical sketch..........................................    84
    Prepared statement...........................................    81

Florida State University, prepared statement.....................   415
Freeh, Louis J., Director, Federal Bureau of Investigation, 
  Department of Justice..........................................   241
    Opening statement............................................   242
    Prepared statement...........................................   247

Gregg, Hon. Judd, U.S. Senator from New Hampshire:
    Opening remarks............................................241, 269
    Questions submitted by............................26, 104, 191, 237
Gudes, Scott B., Acting Under Secretary and Administrator, 
  National Oceanic and Atmospheric Administration, Department of 
  Commerce......................................................81, 153
    Opening statement............................................   154
    Prepared statement...........................................   160

Heyburn, Honorable John G., II, Chairman, Committee on the 
  Budget, Judicial Conference of the United States, the 
  judiciary, prepared statement..................................   353
Hogarth, Bill, Assistant Administrator, National Marine Fisheries 
  Service, National Oceanic and Atmospheric Administration, 
  Department of Commerce.........................................   153
Hollings, Hon. Ernest F., U.S. Senator from South Carolina, 
  questions submitted by.........................................   147

Inouye, Hon. Daniel K., U.S. Senator from Hawaii:
    Prepared statement...........................................   325
    Questions submitted by.....................................225, 336

Kelly, Jack, Assistant Administrator, National Weather Service, 
  National Oceanic and Atmospheric Administration, Department of 
  Commerce.......................................................   153
Kohl, Hon. Herb, U.S. Senator from Wisconsin, questions submitted 
  by............................................................69, 341

Leahy, Hon. Patrick J., U.S. Senator from Vermont:
    Prepared statement...........................................   116
    Questions submitted by.................................63, 150, 303

Marine Fish Conservation Network, prepared statement.............   386
Marshall, Donnie R., Administrator, Drug Enforcement 
  Administration, Department of Justice..........................   277
    Prepared statement...........................................   279
Mayer, Haldane Robert, Chief Judge, U.S. Court of Appeals for the 
  Federal Circuit, the judiciary, prepared statement.............   377
McConnell, Hon. Mitch, U.S. Senator from Kentucky, questions 
  submitted by...................................................    50
Mecham, Leonidas Ralph, Director, Administrative Office of the 
  U.S. Courts, the judiciary, prepared statement.................   360
Mikulski, Hon. Barbara A., U.S. Senator from Maryland:
    Prepared statement...........................................   116
    Questions submitted by.................................60, 111, 149
Murphy, Diana E., Chair, United States Sentencing Commission, the 
  judiciary, prepared statement..................................   369
Murray, Hon. Patty, U.S. Senator from Washington:
    Prepared statement...........................................   293
    Questions submitted by......................................78, 227

National:
    American Indian Court Judges Association, prepared statement.   429
    Association of Government Guaranteed Lenders, Inc., prepared 
      statement..................................................   460
    Audubon Society, prepared statement..........................   415
    Center for Victims of Crime, prepared statement..............   436
    Federation of Community Broadcasters, prepared statement.....   392
    Public Radio, prepared statement.............................   393
National, Coordinated Law-Related Education Program, prepared 
  statement......................................................   449
Northwest Tribal Court Judges Association, prepared statement....   426

Pacific Marine Conservation Council, prepared statement..........   418
People for the Ethical Treatment of Animals, prepared statement..   420
Powell, Hon. Colin L., Secretary of State, Department of State...   115
    Biographical sketch..........................................   125
    Prepared statement...........................................   120
Powell, Michael K., Chairman, Federal Communications Commission..   315
    Prepared statement...........................................   318

Retzlaff, Barbara, Budget Officer, Office of the Secretary, 
  Department of Commerce.........................................    81
Robert F. Wagner Graduate School of Public Service, prepared 
  statement......................................................   458
Rooney, Kevin D., Acting Commissioner, Immigration and 
  Naturalization Service, Department of Justice..................   269
    Biographical sketch..........................................   276
    Opening statement............................................   269
    Prepared statement...........................................   271

Smith, Hon. Fern M., Director, Federal Judicial Center, the 
  judiciary, prepared statement..................................   364
Stevens, Hon. Ted, U.S. Senator from Alaska, questions submitted 
  by.............................................................   224

The Asia Foundation, prepared statement..........................   454
The National Consortium for Justice Information and Statistics, 
  prepared statement.............................................   451
The Nature Conservancy, prepared statement.......................   395
Tribal Law and Policy Institute, prepared statement..............   434

Unger, Laura Simone, Acting Chairman, Securities and Exchange 
  Commission.....................................................   345
    Prepared statement...........................................   347
    Summary statement............................................   345
United States Section of the Pacific Salmon Commission, prepared 
  state- 
  ment...........................................................   421
University Corporation for Atmospheric Research, prepared 
  statement......................................................   397
University of Miami, Coral Gables, Florida, prepared statement...   404
Upper Mississippi River Basin Association, prepared statement....   462

Walters, Greg, Deputy Chief Financial Officer, Small Business 
  Administration.................................................   229
Whitmore, John, Acting Administrator, Small Business 
  Administration.................................................   229
    Prepared statement...........................................   231


                             SUBJECT INDEX

                              ----------                              

                         DEPARTMENT OF COMMERCE

            National Oceanic and Atmospheric Administration

                                                                   Page
Additional committee questions...................................   190
Budget development process.......................................   214
Coastal storms initiative........................................   189
Columbia River salmon, biological opinion for....................   227
Cross-cutting issues.............................................   156
Executive Order 13158, cost for..................................   225
Fisheries:
    Lab construction.............................................   178
    Lawsuits.....................................................   191
    Vessels......................................................   224
Headquarters office support......................................   192
Highly migratory species.........................................   225
Hollings Marine Laboratory.......................................   180
Hurricane:
    Forecasting..................................................   157
    Tracking and forecasting.....................................   178
Hydrographic surveys, critical backlog in........................   189
Industry and Government buy-back programs........................   228
Jurisdictional authority of interior.............................   177
Marine:
    Authorizations for activities................................   225
    Commerce jurisdiction over resources.........................   226
    Protected areas..............................................   224
Maritime transportation system...................................   157
Nautical charts..................................................   217
NMFS:
    Cooperative research.........................................   191
    Lawsuit backlog..............................................   186
NOAA:
    And Port of Everett, agreement between.......................   227
    Budget priorities............................................   156
    Management improvements......................................   155
Northwestern Hawaiian Islands sanctuary..........................   226
NPOESS satellites................................................   158
Ocean exploration................................................   159
    And education programs.......................................   212
Pacific salmon recovery, funding for.............................   190
Permit backlog problem...........................................   227
Real facility and equipment needs................................   195
Research vessel allocation.......................................   215
Restoration programs.............................................   219
Steller sea lion:
    EIS on.......................................................   183
    Factor's contributing to decline.............................   188
    Findings on..................................................   181
    Issues.......................................................   179
Weather buoys in the Northeast...................................   191

                        Office of the Secretary

Additional committee questions...................................   103
Advanced technology program (ATP)...............................91, 106
Boeing versus Airbus.............................................    98
Commerce administrative management system (CAMS).................   104
Commerce, promoting in Southwest region..........................   110
Commerce-wide hiring freeze......................................    99
Critical Infrastructure Assurance Office.......................102, 105
Digital divide...................................................   111
Export-Import Bank..............................................96, 100
    Funding in fiscal year 2002..................................    97
International trade, level playing field for.....................    90
Low-income communities, accessing EDA funds to...................   111
NOAA:
    Discussion by Senator Hollings...............................    89
    Fisheries research vessels...................................   109
    NMFS:
        Cooperative research.....................................   108
        Lawsuits.................................................   109
    Research vessel, contract for................................    91
Northeast dairy compact..........................................    95
    Administration policy on.....................................    95
Northwest Straits Commission.....................................    98
Overview of Secretary Evans' statement...........................    84
Patent and Trademark Office (PTO)................................   106
Reports and spending plan........................................   104
Salmon, comparison of wild and farm-raised.......................    93
Spectrum.........................................................   101
Steller sea lions, research on...................................    92
Suitland facilities..............................................   111
Technology opportunities program.................................   100
Technology program...............................................   108
Textile research.................................................    91
U.S. markets to ensure growth, stimulating.......................   110
US&FCS staffing..................................................   107

                         DEPARTMENT OF JUSTICE

                    Drug Enforcement Administration

Budget request:
    DEA..........................................................   278
    Firebird.....................................................   278
    Fiscal year 2002.............................................   280
    Laboratory operations initiative.............................   278
    Special Operations Division..................................   278
DEA:
    Budget to GPRA indicators, linking...........................   309
    Budget to performance, linking...............................   307
    FBI cooperation..............................................   296
    Progress with Mexico.........................................   295
    Strategic plan...............................................   288
    Work with Amtrak in New Mexico...............................   310
Demand reduction.................................................   287
Drug:
    Diversion....................................................   287
    Trafficking threat to the United States, current.............   285
Ecstasy..........................................................   311
HIDTA............................................................   313
Major investigations.............................................   283
Methamphetamine resources........................................   296
OMB budget request...............................................   296
Quantico training facility.......................................   297
Questions submitted to the.......................................   307
The challenge: International drug trafficking organizations......   280
The response: Today's DEA........................................   282
United States, impact on the.....................................   287

                    Federal Bureau of Investigation

Black tar heroin and methamphetamine trafficking.................   298
Budget request, overview of fiscal year 2002.....................   251
Communications assistance for law enforcement (CALEA)............   246
Congressional automation funding and FBI culture.................   259
Counterintelligence..............................................   252
Counterterrorism.................................................   252
    Technology, and crimes against children......................   243
    Threefold increase in........................................   244
Cybercrime.......................................................   253
Data storage and retrieval.......................................   303
Encryption issue.................................................   257
FBI:
    Challenges facing the........................................   247
    Culture problem..............................................   262
    Development of Domestic Terrorism Division...................   300
    Discovery process errors.....................................   259
    Strategic plan update........................................   248
``Hanssen'' case.................................................   305
Infrastructure...................................................   255
International crime..............................................   302
Lab and equipment situation......................................   265
Lab improvement, role of Dr. Kerr in.............................   266
Law enforcement school in Mexico.................................   267
Legislative proposals............................................   256
McVeigh matter:
    And records management.......................................   245
    Error........................................................   258
    Errors in matter.............................................   261
National Infrastructure Protection Center........................   245
Polygraphs and national security.................................   267
Questions submitted to the.......................................   298
Related departmental funding requests............................   256
State forensic computer technology centers.......................   264
Training:
    And automation needs, analyses of............................   264
    And experience...............................................   263
2002 budget request..............................................   246

                 Immigration and Naturalization Service

Border control strategy..........................................   269
Border Patrol facilities.........................................   291
Detention:
    And removal program, effective...............................   270
    Space........................................................   290
Facilities construction funding requests.........................   291
Guest worker proposals...........................................   290
Immigrants, more entering the country............................   289
Immigration benefits.............................................   270
Long-range facilities plans......................................   291
Northern border..................................................   291
    Meeting needs at the.........................................   294
Workload models..................................................   295

                     Office of the Attorney General

Additional committee questions...................................    26
Antitrust enforcement............................................    77
Attorney reassignments...........................................    14
Ballistics funding...............................................    78
Basic law enforcement--the core Federal mission..................     4
Black tar heroin drug trafficking in northern New Mexico.........    46
Border Patrol:
    Agents for the northern border...............................    78
    Facilities...................................................    11
Boys and Girls Club..............................................    63
Bulletproof Vest Partnership Grant Program.......................    63
Bush administration priorities...................................     6
Caseloads in Federal courts......................................    30
Civil rights.....................................................     2
Combating terrorism..............................................    48
Community-Oriented Policing Service (COPS).......................    61
    Funding......................................................    74
Computer Crime Enforcement Act...................................    64
Data collection practices........................................    66
DEA, reorganization of...........................................    24
Debt Management Center and Law Enforcement Support Center, 
  resources for the..............................................    69
Department of Justice:
    Internet sites, review of....................................    67
    International crime response to..............................    52
Detention trustee................................................    24
DNA Analysis Backlog Elimination Act.............................    65
Drug enforcement.................................................     2
Economic espionage...............................................    72
Enforcing Underage Drinking Laws Program.........................    65
Faith-based:
    Initiative...................................................    18
    Program......................................................    16
        Safeguards with..........................................    17
Federal Law Enforcement Training Center in Artesia, New Mexico, 
  underutilization of the........................................    30
First responder training.........................................    41
Gun crime........................................................     2
Gun prosecutor program...........................................15, 16
Immigration......................................................     3
Immigration and Naturalization Service:
    Continued operating and management problems for..............    49
    Personnel at Santa Teresa, New Mexico Port-of-Entry, staffing 
      by.........................................................    29
    Reorganization...............................................    12
    Restructuring................................................10, 47
Indian country, law enforcement in...............................    34
Interagency crime and drug enforcement (ICDE) account............    26
Judicial:
    Appointments, consultation on................................    26
    Nominees.....................................................    60
Law enforcement:
    In Mexico....................................................    19
    Resources....................................................    75
Mental health courts.............................................    32
Office of Justice Programs, reorganization of the................    23
OxyContin........................................................    50
Paul Coverdell National Forensic Science Improvement Act of 2000.    66
Performance, linking DOJ's budget to.............................    48
Ports of entry...................................................    21
    Santa Teresa.................................................    22
Prevention programs..............................................    70
Project ChildSafe................................................    69
Radiation compensation transfer to Energy Department.............    22
Radiation exposure compensation program..........................21, 27
State and local law enforcement..................................     3
Technology and critical infrastructure needs.....................     5
Tobacco litigation...............................................12, 26
    Funding......................................................    13
Video games......................................................    71
Violent Offender Incarceration Prison Grant Program..............    65

                          DEPARTMENT OF STATE

                           Secretary of State

Additional committee questions...................................   146
Administration of foreign affairs................................   121
Asian-United States relations....................................   138
China:
    Trade with...................................................   144
    United States relations, Secretary's comments on.............   141
Embassy construction:
    Cost of......................................................   128
    Requirements.................................................   140
Foreign service officers, adequate support for...................   132
Global public health.............................................   144
International organizations......................................   123
Iran and Iraq, situation in......................................   137
Iraq sanctions...................................................   143
Middle East:
    Affairs......................................................   133
    Visit, Secretary's comments on...............................   135
Office of War Crimes issues......................................   150
Peacekeeping missions, cost of...................................   126
Related appropriations...........................................   124
Special envoy to Cyprus..........................................   133
Trafficking in humans............................................   134
2008 Summer Olympics, China's bid for the......................130, 134

                   FEDERAL COMMUNICATIONS COMMISSION

Additional committee questions...................................   336
An investment in the future: The FCC's 2002 budget...............   320
Cable television service costs...................................   329
Caribbean phone scams............................................   341
Department of Defense needs......................................   330
Enforcement tools, better........................................   328
FCC reform:
    And the ``Shot Clock'' bill..................................   341
    The new business plan........................................   321
Hardware taxing..................................................   333
Keeping our part of the bargain..................................   321
New beginnings for an old Commission.............................   319
Tauzin-Dingell.................................................325, 333
Telecom Act......................................................   327
Telephone bills confusion........................................   328
Universal service:
    Fund.........................................................   331
    Reform.......................................................   342

                   SECURITIES AND EXCHANGE COMMISSION

Fee reductions...................................................   349
Pay parity.......................................................   350
Penalty collections..............................................   350
Positions, vacant................................................   351
Staffing crisis..................................................   348
Station Place lease procurement..................................   349

                     SMALL BUSINESS ADMINISTRATION

Additional committee questions...................................   237
Counseling and technical assistance programs.....................   232
Disaster Assistance Loan Program...............................234, 238
Financial assistance programs....................................   231
Fiscal year 2002, programs that will not be funded in............   235
Loan monitoring system...........................................   234
Program for investment in microenterprises (PRIME)...............   239
SBA operating costs..............................................   234
7(a) program.....................................................   237
Small business development centers...............................   238
Systems modernization initiative.................................   239

                             THE JUDICIARY

Administrative Office of the U.S. Courts:
    Accomplishments and challenges for the future................   361
    Administrative Office:
        Budget request...........................................   361
        Role of the..............................................   360
    Model of efficiency..........................................   361
    Program assessments..........................................   360
Federal Judicial Center:
    Center services and activities...............................   366
    2002 request.................................................   364
Judicial Conference of the United States:
    Administrative Office, contributions of the..................   357
    Budget overview..............................................   353
    Cost containment.............................................   356
    Court:
        Security.................................................   355
        Support staff............................................   355
    Defender services............................................   354
    Federal Judicial Center, contributions of the................   358
    Judgeships, new..............................................   356
    Judicial compensation........................................   356
    Justice, ensuring the quality of.............................   354
United States Sentencing Commission:
    Justification................................................   370
    Resources requested..........................................   370

                                   - 

</pre></body></html>
